No.

IN THE

pìéêÉãÉ=`çìêí=çÑ=íÜÉ=råáíÉÇ=pí~íÉë=
_______________
CHAD EVERET BRACKEEN, et al.,
Petitioners,
v.
DEB HAALAND, SECRETARY, U.S. DEPARTMENT OF THE
INTERIOR, et al.,
Respondents.
_______________
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit
_______________
APPENDIX TO PETITION
FOR A WRIT OF CERTIORARI
_______________
MARK D. FIDDLER
FIDDLER OSBAND, LLC
5200 Willson Rd.
Ste. 150
Edina, MN 55424
(612) 822-4095

MATTHEW D. MCGILL
Counsel of Record
LOCHLAN F. SHELFER
DAVID W. CASAZZA
AARON SMITH
ROBERT A. BATISTA
GIBSON, DUNN & CRUTCHER LLP
1050 Connecticut Avenue, N.W.
Washington, D.C. 20036
(202) 955-8500
MMcGill@gibsondunn.com

Counsel for Petitioners

i
TABLE OF APPENDICES
Page
APPENDIX A: Order of the U.S. Court of
Appeals for the Fifth Circuit (Apr. 6, 2021)
(judgment on rehearing en banc) ......................1a
APPENDIX B: Opinion of the U.S. Court of
Appeals for the Fifth Circuit (Apr. 6, 2021)
(en banc decision) ...............................................4a
APPENDIX C: Opinion of the U.S. Court of
Appeals for the Fifth Circuit (Aug. 9, 2019)
(panel decision) ..............................................410a
APPENDIX D: Order of the U.S. Court of
Appeals for the Fifth Circuit Granting Stay
Pending Appeal (Dec. 3, 2018).......................481a
APPENDIX E: Opinion of the U.S. District
Court for the Northern District of Texas
(October 4, 2018) ............................................485a
APPENDIX F: Final Judgment of the U.S.
District Court for the Northern District of
Texas (October 4, 2018) .................................545a
APPENDIX G: Order of the U.S. Court of
Appeals for the Fifth Circuit (Nov. 7, 2019)
(granting rehearing en banc) .........................547a
APPENDIX H: Constitutional and Statutory
Provisions Involved ........................................ 549a
U.S. Const. art. I, § 8 ................................ 549a
U.S. Const. amend. V ............................... 551a
U.S. Const. amend. X ............................... 551a

ii
25 U.S.C. § 1901 ....................................... 552a
25 U.S.C. § 1902 ....................................... 553a
25 U.S.C. § 1903 ....................................... 553a
25 U.S.C. § 1911 ....................................... 556a
25 U.S.C. § 1912 ....................................... 557a
25 U.S.C. § 1913 ....................................... 560a
25 U.S.C. § 1915 ....................................... 561a
25 U.S.C. § 1916 ....................................... 563a
25 U.S.C. § 1917 ....................................... 564a
25 U.S.C. § 1951 ....................................... 565a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-11479
April 6, 2021
CHAD EVERET BRACKEEN; JENNIFER KAY BRACKEEN;
STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ;
STATE OF INDIANA; JASON CLIFFORD; FRANK NICHOLAS
LIBRETTI; STATE OF LOUISIANA; HEATHER LYNN LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs—Appellees,
versus
DEB HAALAND, SECRETARY, U.S. DEPARTMENT OF THE
INTERIOR; DARRYL LACOUNTE, IN HIS OFFICIAL CAPACITY AS ACTING ASSISTANT SECRETARY FOR INDIAN AFFAIRS; BUREAU OF INDIAN AFFAIRS; UNITED STATES DEPARTMENT OF INTERIOR; UNITED STATES OF AMERICA;
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE UNITED STATES DEPARTMENT OF HEALTH
AND HUMAN SERVICES; UNITED STATES DEPARTMENT
OF HEALTH AND HUMAN SERVICES,
Defendants—Appellants,
CHEROKEE NATION; ONEIDA NATION; QUINAULT INDIAN
NATION; MORONGO BAND OF MISSION INDIANS,
Intervenor Defendants—Appellants.

2a

_____________________________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:17-CV-868
_____________________________________________
Before OWEN, Chief Judge, and JONES, SMITH, WIENER, STEWART, DENNIS, ELROD, SOUTHWICK, HAYNES,
GRAVES, HIGGINSON, COSTA, WILLETT, DUNCAN,
ENGELHARDT, and OLDHAM, Circuit Judges.*
JUDGMENT ON REHEARING EN BANC
This cause was considered on the record on appeal
and was argued by counsel.
IT IS ORDERED and ADJUDGED that the judgment of the District Court is AFFIRMED IN PART,
REVERSED IN PART and RENDERED.

3a
* JUDGE HO was recused and did not participate.
JUDGE WILSON joined the court after the case was submitted and did not participate.
PRISCILLA R. OWEN, Chief Judge, concurring in part,
dissenting in part.
JACQUES L. WIENER, JR., Circuit Judge, dissenting in
part.
HAYNES, Circuit Judge, concurring.
STEPHEN A. HIGGINSON, Circuit Judge, concurring in
part, with whom Judge Costa joins.
GREGG COSTA, Circuit Judge, concurring in part and
dissenting in part.

4a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-11479
April 6, 2021
CHAD EVERET BRACKEEN; JENNIFER KAY BRACKEEN;
STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ;
STATE OF INDIANA; JASON CLIFFORD; FRANK NICHOLAS
LIBRETTI; STATE OF LOUISIANA; HEATHER LYNN LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs—Appellees,
versus
DEB HAALAND, Secretary, United States Department of
the Interior; DARRYL LACOUNTE, Acting Assistant Secretary For Indian Affairs; BUREAU OF INDIAN AFFAIRS;
UNITED STATES DEPARTMENT OF THE INTERIOR;
UNITED STATES OF AMERICA; XAVIER BECERRA, Secretary, United States Department of Health and Human
services; UNITED STATES DEPARTMENT OF HEALTH AND
HUMAN SERVICES,
Defendants—Appellants,
CHEROKEE NATION; ONEIDA NATION; QUINAULT INDIAN
NATION; MORONGO BAND OF MISSION INDIANS,
Intervenor Defendants—Appellants.

5a

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:17-CV-868
Before OWEN, Chief Judge, and JONES, SMITH, WIENER, STEWART, DENNIS, ELROD, SOUTHWICK, HAYNES,
GRAVES, HIGGINSON, COSTA, WILLETT, DUNCAN,
ENGELHARDT, and OLDHAM, Circuit Judges.*
PER CURIAM:
This en banc matter considers the constitutionality of the Indian Child Welfare Act (ICWA), 25 U.S.C.
§ 1901 et seq., and the validity of implementing regulations promulgated by the Bureau of Indian Affairs
(BIA) in its 2016 Final Rule (Final Rule). Plaintiffs
are several couples who seek to adopt or foster Indian
children, a woman who wishes for her Indian biological child to be adopted by non-Indians, and the States
of Texas, Louisiana, and Indiana. Defendants are the
United States, federal agencies and officials charged
with administering ICWA and the Final Rule, as well
as several Indian tribes that intervened in support of
ICWA. The district court granted Plaintiffs summary
judgment in part, declaring that ICWA and the Final
Rule contravene multiple constitutional provisions
and the Administrative Procedure Act (APA). Defendants appealed. A panel of this court reversed and rendered judgment for the Defendants. See Brackeen v.
Bernhardt, 937 F.3d 406, 414 (5th Cir. 2019). One
*

JUDGE HO was recused and did not participate. JUDGE WILjoined the court after the case was submitted and did not
participate.

SON

6a
panel member partially dissented, concluding that
several provisions of ICWA violated the Tenth
Amendment’s anticommandeering doctrine. See id. at
441–46 (OWEN, J., concurring in part and dissenting
in part). This case was then reconsidered en banc.
Neither JUDGE DENNIS’s nor JUDGE DUNCAN’s
principal opinion nor any of the other writings in this
complex case garnered an en banc majority on all issues. We therefore provide the following issue-by-issue summary of the en banc court’s holdings, which
does not override or amend the en banc opinions themselves.
First is the issue of standing. The en banc court
unanimously holds that at least one Plaintiff has
standing to challenge Congress’s authority under Article I of the Constitution to enact ICWA and to press
anticommandeering and nondelegation challenges to
specific ICWA provisions. The en banc court also
unanimously holds that Plaintiffs have standing to
challenge the Final Rule as unlawful under the APA.
The en banc court is equally divided as to whether
Plaintiffs have standing to challenge two provisions of
ICWA, 25 U.S.C. §§ 1913 and 1914, on equal protection grounds, and the district court’s conclusion that
Plaintiffs can assert this claim is therefore affirmed
without a precedential opinion.1 An en banc majority
also holds that Plaintiffs have standing to assert their

1
See United States v. Garcia, 604 F.3d 186, 190 n.2 (5th Cir.
2010) (“Decisions by an equally divided en banc court are not
binding precedent but only affirm the judgment by operation of
law.”).

7a
equal protection challenges to other provisions of
ICWA.
On the merits, an en banc majority agrees that, as
a general proposition, Congress had the authority to
enact ICWA under Article I of the Constitution.2 An
en banc majority also holds that ICWA’s “Indian
child” classification does not violate equal protection.3
The district court’s ruling to the contrary on those two
issues is therefore reversed. The en banc court is
equally divided, however, as to whether Plaintiffs prevail on their equal protection challenge to ICWA’s
adoptive placement preference for “other Indian families,” 25 U.S.C. § 1915(a)(3), and its foster care placement preference for a licensed “Indian foster home,”
§ 1915(b)(iii).4 The district court’s ruling that provisions of ICWA and the Final Rule are unconstitutional
because they incorporate the “Indian child” classification is therefore reversed, but its ruling that
§ 1915(a)(3) and (b)(iii) violate equal protection is affirmed without a precedential opinion.
The court’s holdings on Plaintiffs’ various anticommandeering claims are more intricate. An en banc
majority holds that ICWA’s “active efforts,” § 1912(d),
expert witness, § 1912(e) and (f), and recordkeeping

2
See Part II(A)(1) of JUDGE DENNIS’s opinion and Part II of
JUDGE COSTA’S opinion.
3

Part II(B) of JUDGE DENNIS’s opinion is the en banc majority
opinion on this issue, except as to the constitutionality of “other
Indian families” in § 1915(a)(3) and “Indian foster home” in
§ 1915(b)(iii).
4
Compare Part II(B) of JUDGE DENNIS’s opinion with Part
III(A)(3) of JUDGE DUNCAN’s opinion.

8a
requirements, § 1915(e), unconstitutionally commandeer state actors.5 The district court’s judgment declaring those sections unconstitutional under the anticommandeering doctrine is therefore affirmed.
However, the en banc court is equally divided on
whether the placement preferences, § 1915(a)– (b), violate anticommandeering to the extent they direct action by state agencies and officials6; on whether the
notice provision, § 1912(a), unconstitutionally commandeers state agencies7; and on whether the placement record provision, § 1951(a), unconstitutionally
commandeers state courts.8 To that extent, the district court’s judgment declaring those sections unconstitutional under the anticommandeering doctrine is
affirmed without precedential opinion.
Furthermore, an en banc majority holds that several challenged ICWA provisions validly preempt
state law and so do not commandeer states. Those are
provisions granting certain private rights in state
child custody proceedings—namely, the right to intervene, § 1911(c), to appointed counsel, § 1912(b), to examine documents, § 1912(c), to explanation of consent, § 1913(a), to withdraw consent, § 1913(b), (c),
and (d), to seek invalidation, § 1914, to seek return of
5

Parts III(B)(1)(a)(i), (ii), (iv); III(B)(1)(b); and III(B)(2)(b) (insofar as it addresses §§ 1912(d)–(f) and 1915(e)) of JUDGE DUNCAN’s opinion are the en banc majority opinion on these issues.
6
Compare Part II(A)(2)(a)(i) of JUDGE DENNIS’s opinion with
Part III(B)(1)(a)(iii) of JUDGE DUNCAN’s opinion.
7

Compare Part II(A)(2)(b) of JUDGE DENNIS’s opinion with
Part III(B)(1)(a)(v) of JUDGE DUNCAN’s opinion.
8
Compare Parts II(A)(2)(a)(ii) of JUDGE DENNIS’s opinion with
Part III(B)(2)(c) of JUDGE DUNCAN’s opinion.

9a
custody, § 1916(a), and to obtain tribal information,
§ 1917.9 In addition, an en banc majority holds that
the following provisions validly preempt contrary
state law to the extent they apply to state courts (as
opposed to state agencies): the placement preferences,
§ 1915(a) and (b), and the placement and termination
standards, § 1912(e) and (f).10 The district court’s rulings to the contrary are therefore reversed.
Next, an en banc majority holds that § 1915(c),
which permits Indian tribes to establish an order of
adoptive and foster preferences that is different from
the order set forth in § 1915(a) and (b), does not violate the non-delegation doctrine.11 The district court’s
ruling to the contrary is therefore reversed.
Last are Plaintiffs’ claims that the Final Rule violates the APA. An en banc majority holds that the BIA
did not violate the APA by concluding in the Final
Rule that it may issue regulations binding on state
courts.12 But an en banc majority also holds that—
consistently with the en banc court’s holding that
§§ 1912(d), 1912(e), and 1915(e) commandeer states—

9

Part III(B)(2)(a) of JUDGE DUNCAN’s opinion is the en banc
majority opinion on this issue, except as to the appointed counsel
provision in § 1912(b).
10
Part III(B)(2)(c) of JUDGE DUNCAN’s opinion is the en banc
majority opinion on this issue, except as to the placement record
requirement in § 1951(a).
11

Part II(C) of JUDGE DENNIS’s opinion is the en banc majority
opinion on this issue.
12
Part II(D)(2) of JUDGE DENNIS’s opinion is the en banc majority opinion on this issue.

10a
the Final Rule violated the APA to the extent it implemented these unconstitutional provisions.13 Finally,
an en banc majority determines that 25 C.F.R.
§ 23.132(b)—the part of the Final Rule interpreting
§ 1915’s “good cause” standard to require proof by
clear and convincing evidence—violated the APA.14
An en banc majority holds that the Final Rule did not
violate the APA in any other respect. The district
court’s grant of relief under the APA is affirmed to the
extent it is consistent with these holdings and reversed to the extent it is inconsistent with these holdings.
The judgment of the district court is therefore AFFIRMED in part and REVERSED in part, and judgment is accordingly RENDERED.
DENNIS, J., delivered the opinion of the en banc
court with respect to Parts II(B), II(C), and II(D)(2) of
his opinion (except as otherwise noted in the PER CURIAM opinion, supra).
DUNCAN, J., delivered the opinion of the en banc
court with respect to Parts III(B)(1)(a)(i)–(ii),
III(B)(1)(a)(iv), III(B)(2)(a)–(c), III(D)(1), and III(D)(3)
of his opinion (except as otherwise noted in the PER
CURIAM opinion, supra).

13

Part III(D)(1) of JUDGE DENNIS’s opinion is the en banc majority opinion on this issue, insofar as it applies to §§ 1912(d)–(e)
and 1915(e).
14
Part III(D)(3) of JUDGE DENNIS’s opinion is the en banc majority opinion on this issue.

11a
JAMES L. DENNIS, Circuit Judge:†
The Indian Child Welfare Act (ICWA) of 1978 is a
federal law that regulates the removal and out-ofhome placement of American Indian children. The
Act establishes minimum federal standards that must
be met in any legal proceeding to place an Indian child
in a foster or adoptive home, and it ensures that Indian tribes and families are allowed to participate in
such Indian child welfare cases. See 25 U.S.C. § 1901
et seq. Congress enacted ICWA after finding “that an
alarmingly high percentage of Indian families are broken up by the removal, often unwarranted, of their
children from them by nontribal public and private
agencies and that an alarmingly high percentage of
such children are placed in non-Indian foster and
†
JUDGES STEWART and GRAVES join this opinion in full.
JUDGES WIENER, HIGGINSON, AND COSTA join all except Discussion Part I.A.2 (standing to bring equal protection claims other
than the challenges to 25 U.S.C. §§ 1913-14).

CHIEF JUDGE OWEN joins Discussion Parts I.A.1 (standing to
challenge §§ 1913-14), I.C (standing to bring anticommandeering
claims), II.A.2.a.1 (anticommandeering challenge to §§ 1912(e)(f) and 1915(a)-(b) as they pertain to state courts), and II.C (nondelegation). She further joins Discussion Part I.D (standing to
bring nondelegation claim) except as to the final sentence. See
infra OWEN, CHIEF JUDGE, OP.
JUDGE SOUTHWICK joins Discussion Parts I.A.1 (standing to
challenge §§ 1913-14), II.A.1 (Congress’s Article I authority), II.B
(equal protection), and II.C (nondelegation). He further joinss
in-part Discussion Parts II.A.2 (anticommandeering) and II.D
(APA challenge to the Final Rule), disagreeing to the extent the
analyses pertains to § 1912(d)-(f) and the regulations that implement those provisions.
JUDGE HAYNES has expressed her partial concurrence in her
separate opinion. See infra HAYNES, CIRCUIT JUDGE, OP.

12a
adoptive homes and institutions”; “that the States, exercising their recognized jurisdiction over Indian child
custody proceedings through administrative and judicial bodies, have often failed to recognize the essential
tribal relations of Indian people and the cultural and
social standards prevailing in Indian communities
and families”; and “that there is no resource that is
more vital to the continued existence and integrity of
Indian tribes than their children and that the United
States has a direct interest, as trustee, in protecting
Indian children who are members of or are eligible for
membership in an Indian tribe.” Id.
Plaintiffs, consisting of the States of Texas, Louisiana, and Indiana, and seven individuals, challenge
the facial constitutionality of ICWA as well as the
statutory and constitutional validity of the Department of Interior’s 2016 administrative rule implementing ICWA (the “Final Rule”). Combined, Texas,
Louisiana, Indiana, and Ohio (which filed an amicus
brief in support of Plaintiffs) are home to only about
1% of the total number of federally recognized Indian
tribes and less than 4% of the national American Indian and Alaska Native population. See NAT’L CONF.
OF STATE LEGIS., FEDERAL AND STATE RECOGNIZED
TRIBES (March 2020), https://www.ncsl.org/research/state-tribal-institute/list-of-federal-and- staterecognized-tribes.aspx; CENTERS FOR DISEASE CONAND
PREVENTION,
Tribal
Population
TROL
https://www.cdc.gov/tribal/tribes-organizationshealth/tribes/state-population.html (last viewed Mar.
29, 2021). On the other hand, twenty-six other states
and the District of Columbia have filed amicus briefs
asking us to uphold ICWA and the Final Rule. Those

13a
states are California, Alaska, Arizona, Colorado, Connecticut, Idaho, Illinois, Iowa, Maine, Massachusetts,
Michigan, Minnesota, Mississippi, Montana, Nevada,
New Jersey, New Mexico, New York, Oklahoma, Oregon, Pennsylvania, Rhode Island, Utah, Virginia,
Washington, and Wisconsin, which are collectively
home to 94% of federally recognized Indian tribes and
69% of the national American Indian and Alaska Native population.
We do not decide cases by a show of hands of
states’ votes, of course, but we cannot ignore the irony
of the situation with which we are faced. Twenty-six
states and the District of Columbia, which are home
to a large majority of federally recognized tribes and
the nation’s overall indigenous population, do not
view ICWA as any sort of burden on their child welfare systems. They strongly contend that ICWA is
constitutional and have no problem applying it in
their state court systems; indeed, they view ICWA as
the “gold standard” for child welfare practices and a
“critical tool” in managing their relationships with the
Indian tribes within their borders. Conversely, only
four states with relatively few tribes and Indians regard ICWA as offensive to their sovereignty and seek
to have the law struck down completely because it intrudes upon their otherwise unimpeded discretion to
manage child custody proceedings involving Indian
children. Further, these State Plaintiffs and their
amicus wrongly assert repeatedly that ICWA regulates all of their child custody and adoption proceedings. This is simply not true. Congress drew ICWA
narrowly to provide minimum protections only to
qualified Indian children—safeguards that Congress

14a
found necessary and proper to stop the abusive practices that had removed nearly a generation of Indian
children from their families and tribes and that
threatened the very existence of the Indian nations.
See generally MARGARET JACOBS, A GENERATION REMOVED: THE FOSTERING AND ADOPTION OF INDIGENOUS CHILDREN IN THE POSTWAR WORLD (2014) [hereinafter JACOBS, A GENERATION REMOVED]. The vast
majority of child custody proceedings in Texas, Louisiana, and Indiana do not involve Indian children;
therefore, ICWA does not apply in the vast majority of
such proceedings in those states or, for that matter, in
any other state.
Defendants are the United States of America, several federal agencies and officials in their official capacities, and five intervening Indian tribes. Defendants moved to dismiss the complaint for lack of subject
matter jurisdiction, but the district court denied the
motion, concluding, as relevant to this appeal, that
Plaintiffs had Article III standing. The district court
then granted summary judgment in favor of Plaintiffs,
ruling that provisions of ICWA and the Final Rule violated equal protection, the anticommandeering doctrine, the nondelegation doctrine, and the Administrative Procedure Act (the “APA”). Defendants appealed.
Although we would affirm most aspects of the district court’s ruling that Plaintiffs have standing, we
would conclude that Plaintiffs’ challenges to ICWA
lack merit and uphold the statute in its entirety. We
would therefore reverse the district court’s grant of
summary judgment to Plaintiffs and render judgment
in favor of Defendants.

15a
BACKGROUND
Before the establishment of the United States, the
North American landmass was “owned and governed
by hundreds of Indian tribes.” COHEN’S HANDBOOK OF
FEDERAL INDIAN LAW § 1.01 (Nell Jessup Newton ed.,
2012.) [hereinafter COHEN’S]. These tribes, sovereigns
under international law, came under the jurisdiction
of the United States “through a colonial process that
was partly negotiated and partly imposed.” Id. The
Constitution recognizes the existence of Indian tribes
and, in many respects, treats them as sovereigns in
the same manner as the states and foreign nations.
See U.S. CONST. art. I, § 8, cl. 3 (empowering Congress
“[t]o regulate Commerce with foreign Nations, and
among the several States, and with the Indian
Tribes”); Holden v. Joy, 84 U.S. 211, 242 (1872) (holding that the President’s Article II, Section 2 power to
make treaties with the Indian tribes is coextensive
with the power to make treaties with foreign nations).
But a long line of judicial opinions confirms that, under U.S. law, Indian tribes occupy a unique position:
they are “domestic, dependent nations.” Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1, 17 (1831). That is,
tribes reside within the United States and are subject
to federal power, but they retain sovereign authority
over a range of matters relevant to their self-government. COHEN’S, supra § 1.01.
Three key principles underpin the field of federal
Indian law. First, Indian tribes possess “inherent
powers of a limited sovereignty that has never been
extinguished.” Id. Because of tribes’ retained sovereignty, they have a government-to-government relationship with the United States. Id. Second, the federal government has expansive and exclusive powers

16a
in Indian affairs, and, relatedly, an ongoing obligation
to use those powers to promote the wellbeing of the
tribes in what is commonly referred to as a trust relationship. Id. Third, as a corollary to the federal government’s broad power in Indian affairs, the supremacy of federal law, and the need for the nation to speak
with one voice in its government-to-government relations, state authority in this field is very limited. Id.
In addition to these precepts, we are mindful of
the uniquely crucial importance of historical perspective in federal Indian law. See, e.g., CHARLES A. MILLER, THE SUPREME COURT AND THE USES OF HISTORY
24 (1969) (“[I]n disputes concerning American Indian
tribes the courts have also considered and often decided cases principally on the basis of historical materials[.]”). As Justice Holmes said about a different issue: “Upon this point a page of history is worth a volume of logic.” New York Trust Co. v. Eisner, 256 U.S.
345, 349 (1921); see also N.L.R.B. v. Noel Canning,
573 U.S. 513, 524 (2014) (“[L]ong settled and established practice is a consideration of great weight in a
proper interpretation of constitutional provisions[.]”
(quoting The Pocket Veto Case, 279 U.S. 655, 689
(1929)). Particularly significant to our analysis is the
contemporary understanding of the Constitution’s
treatment of Indian Affairs at the time of its adoption.
See, e.g., District of Columbia v. Heller, 554 U.S. 570,
605-10 (2008) (canvassing Founding-era historical
sources to synthesize the original understanding of
the Constitution). We therefore survey the interrelated history of Indian affairs and the adoption of the
Constitution.

17a
I.

A Brief History of the American Indians and
the United States Constitution

In holding key provisions of ICWA unconstitutional, the district court disregarded two centuries of
precedent and omitted any discussion of the history of
the federal constitutional power to enter treaties or
legislate with respect to the Indian tribes. Seeking to
make up for the district court’s errors and omissions,
the Plaintiffs now cite to several historical texts. The
authorities they cite, however, mainly support a broad
understanding of the federal government’s exclusive
power over Indian affairs, which includes the authority to prevent states from exercising their sovereignty
in ways that interfere with federal policy toward the
Indians. Careful study of their references and other
scholarly resources reveals the lack of foundation for
the district court’s more limited conception of federal
authority.
Following the American Revolution, the new
United States government supplanted the British
Crown as the self-appointed ruler of most of North
America, thereby inviting expansive white settlement
of the continent. See COHEN’S, supra § 1.02. Americans, then, were optimistic in 1783; their victory over
the British had rendered the nation, as George Washington put it, “the sole Lord[] and Proprietor[] of a vast
tract of continent.” Gregory Ablavsky, The Savage
Constitution, 63 DUKE L.J. 999, 1009 (2014) [hereinafter Ablavsky, Savage Constitution] (quoting George
Washington, THE LAST OFFICIAL ADDRESS, OF HIS EXCELLENCY GENERAL WASHINGTON, TO THE LEGISLATURES OF THE UNITED STATES 4 (1783)). But only four
years later, that optimism “turned to despondence, as
the Continental Congress, with an empty treasury

18a
and a barely extant military, confronted looming wars
against powerful Indian confederacies on the northern
and southern borderlands.” Id. Unrest between the
tribes, the states, squatters, and settlers was largely
to blame for this dramatic shift in national mood—
hallmarks of the failure of the central government’s
Indian policy under the Articles of Confederation. Id.
at 1006.
The insolvent Continental Congress desperately
desired both peace with the Indians and annexation of
the western land they inhabited in order to repay the
debt it had incurred during the Revolutionary War.
Id. To accomplish these goals, the new nation followed the practice of the British, who had treated Indian tribes as “quasi-foreign nations” and used negotiation, treaties, and war-making as the primary tools
for managing relations. Br. of Prof. Ablavsky at 5. In
other words, the United States structured its relations
with tribes akin to its regulation of foreign affairs. See
id. The Articles of Confederation accordingly provided that the national government was to have authority over “managing all affairs with the Indians.”
ARTICLES OF CONFEDERATION OF 1781, art. IX. As the
Continental Congress’s Committee on Southern Indians explained, this authority comprehended a number
of interrelated powers: “making war and peace, purchasing certain tracts of [tribal] lands, fixing the
boundaries between [Indians] and our people, and
preventing the latter settling on lands left in possession of the former.” 33 Journals of the Continental
Congress, 1774-1789, 457 (Roscoe R. Hill ed., 1936).
These interconnected powers were, in the Southern
Indians Committee’s view, “indivisible.” Id. This is to

19a
say that, under the Articles of Confederation, the Continental Congress was intended to possess Indian affairs powers like those that any sovereign would hold
in conducting affairs with other sovereigns. See id.
(noting that “before the revolution” these powers
“were possessed by the King”). In practice, however,
it was not clear whether, under the Articles, the states
also retained the sovereign power to deal with the Indian tribes in their own right. See THE FEDERALIST
NO. 42 at 217 (James Madison) (describing the delineation of authority as “ambiguous”).
Exercising its federal authority, the Continental
Congress appointed commissioners to secure peace
treaties with tribes throughout the nation. COHEN’S,
supra at 1.02[3]. These treaties serve as some of the
earliest documentary bases for the nation’s continuing
trust relationship with the tribes. For example, in return for peace and other guarantees, the United
States promised the Cherokees that the tribe would
be “received” into “the favour and protection of the
United States of America.” Treaty with the Cherokees, preamble, 1785, 7 Stat. 18. Similar language
was included in a treaty with the Six Nations tribes at
Fort Stanwix in New York. TREATY WITH THE SIX NATIONS, 1784, 7 Stat. 15 (Treaty at Fort Stanwix).
While the national government worked to secure
treaties with the tribes, some states resisted—or outright defied—these efforts, viewing them as infringements on their sovereignty. COHEN’S, supra at
1.02[3]. New York, for instance, protested the asserted national “incursion” into its powers posed by
the Treaty of Fort Stanwix. Robert N. Clinton, The
Dormant Indian Commerce Clause, 27 CONN. L. REV.

20a
1055, 1147 (1995). Other states went further. Georgia and North Carolina seized on ambiguous clauses
in the Articles concerning the scope of federal power
over Indian affairs, construing them in a manner that
“le[ft] the federal powers . . . a mere nullity.” 33 Journals of the Continental Congress at 457. Indeed, Georgia outright ignored federal treaties and attempted to
form its own compacts with the Creek Indians, see id.,
“reportedly resort[ing] to death threats to compel
agreement” and expropriate tribal lands. Ablavsky,
The Savage Constitution, supra at 1028; see also Report of the Secretary of War on the Southern Indians
(July 18, 1787), in 18 EARLY AMERICAN INDIAN DOCUMENTS: TREATIES AND LAWS, 1607-1789: REVOLUTION
AND CONFEDERATION 449, 450 (Alden T. Vaughan et al.
eds., 1994) [hereinafter EARLY AMERICAN INDIAN DOCUMENTS].
In a memorandum drafted on the eve of the Constitutional Convention, James Madison described
Georgia’s “wars and Treaties . . . with the Indians,” as
emblematic of the “vices” inherent in the division of
federal and state power under the Articles. JAMES
MADISON, VICES OF THE POLITICAL SYSTEM OF THE
UNITED STATES, in 9 THE PAPERS OF JAMES MADISON
345, 348 (Robert A. Rutland et al. eds., 1975). And in
a letter sent to Congress in the midst of the Convention, Secretary at War Henry Knox worried that the
United States could not “effectual[y] interfere[]” in the
many skirmishes that pitted states and settlers
against Indians and, he predicted that a “general
[I]ndian war may be expected.”1 H. Knox, Report of
1

Knox’s position was labeled “Secretary at War” under the Articles. See 19 Journals of the Continental Congress, 1774-1789,

21a
the Secretary at War on the Southern Indians (July
18, 1787), in 18 EARLY AMERICAN INDIAN DOCUMENTS
450. Thus, nationalists like Madison and Alexander
Hamilton “agreed on the problem”: the new nation
was “too weak to exercise the authority it enjoyed on
paper” under the Articles of Confederation, and a
stronger federal government was needed. Ablavsky,
Savage Constitution, supra at 999. “Indian affairs
thus propelled the creation of a more powerful national state—one that, in Madison’s words, would possess the “ability to effect what it is proper [it] should
do.’” Id. (alterations in original) (quoting Letter from
James Madison to George Nicholas (May 17, 1788), in
18 THE DOCUMENTARY HISTORY OF THE RATIFICATION
OF THE CONSTITUTION: COMMENTARIES ON THE CONSTITUTION PUBLIC AND PRIVATE 24, 28 (John P. Kaminski
et al. eds., 1995)). The supporters of a stronger national authority envisioned a central government that
could “govern not merely in principle but ‘in reality,’”
as Secretary Knox wrote about Indian affairs. Id.
(quoting Report of the Secretary at War on the Southern Indians (July 18, 1787), in 18 EARLY AMERICAN INDIAN DOCUMENTS 449, 450).

at 126 (Worthington Chauncey Ford ed., 1912) (establishing under the Articles of Confederation the position of “Secretary at
War”). He was appointed to the new position of “Secretary of
War” in September 1789. See Harry M. Ward, The Department
of War, 1781-1795, at 101-02 (1962); see also Act of Aug. 7, 1789,
ch. 7, 1 Stat. 49, 50 (establishing the Department of War and the
office of Secretary of War, a position invested with “such duties
as shall be enjoined on, or entrusted to him by the President of
the United States . . . relative to Indian Affairs”).

22a
At the Constitutional Convention, Madison attributed the failings of Indian policy to state interference with the Confederation’s authority, especially its
treatymaking power. Id. at 1006. His solution to Indian affairs was to revise “federalism to ensure federal
supremacy—partly through the Indian Commerce
Clause, but more significantly through the Treaty,
Compact, Supremacy, and Property Clauses.” Ablavsky, Savage Constitution, supra at 1006-07. At its
heart, Madison’s solution to Indian affairs “envisioned
a strengthened federal government that would protect
and restrain Indians and states alike.” Id. at 1007.
Hamilton and other Federalists took a different
but complementary view; their “concern over external
threats dovetailed with the views of many on the frontier, who blamed the Articles’ failure on national military weakness against Native power.”2 Id. The ap-

2

Though the writings and speeches of Madison have traditionally been regarded as the authoritative encapsulation of the Federalist case for the Constitution, contemporary research has upset the assumption that Madison’s views were representative of
the Federalist camp generally. In particular, historians have
harnessed The Documentary History of the Ratification, a rich
source of primary material concerning the Constitutional Convention and the ratification debates that includes documents
such as letters, petitions, and records of convention debates.
MAX M. EDLING, A REVOLUTION IN FAVOR OF GOVERNMENT: ORIGINS OF THE U.S. CONSTITUTION AND THE MAKING OF THE AMERICAN STATE 18-21 (2003) at 29 [hereinafter Edling, A REVOLUTION
IN FAVOR OF GOVERNMENT] (citing THE DOCUMENTARY HISTORY
OF THE RATIFICATION OF THE CONSTITUTION: COMMENTARIES ON
THE CONSTITUTION PUBLIC AND PRIVATE 24, 28 (John P. Kaminski et al. eds., 1995)). In addition to the obvious import of the
proceedings during the Constitutional Convention at which the

23a

charter was framed, documentation from the subsequent ratification debates offers significant insight into how the Constitution should be interpreted. The Constitution rooted its legitimacy in the consent of those whom it would come to govern, declaring that the system it outlined was “ordained and established” by “We the people,” U.S. CONST. PREAMBLE. To turn the
promise of self-rule into a reality, ratification was conducted
through a series of state conventions with delegates chosen by
the voters of each state. Ratification thus was itself an act of
popular sovereignty and representative democracy that required
the public and its chosen delegates to be educated and deliberate
on the meaning of the Constitution. See id. at 29-31. These ratification debates provided the “first widely shared” exposition of
important constitutional provisions, and the discussions that
took place therein were the starting point for constitutional interpretation during the early republic. Id. Thus, the contemporaneous writings that circulated among the public and within the
state ratification conventions are as important as the records of
the Constitutional Convention itself in determining the charter’s
original public meaning. See id.
Mining this trove, historians have concluded that the issues
that motivated Madison were not emphasized by all Federalists.
Many Federalists did not echo Madison’s general prototypical
liberal “call for minority rights and limited government,” but rather argued for the formation of a strong national state. Id. at
14-15. While Madison was concerned primarily with creating a
constitutional structure that would protect liberty by restraining
concentrations of power and safeguarding the rights of minorities, Hamilton and others sought to establish a robust “national
government with the ability to act.” Id.
This latter group of Federalists, having witnessed the failings of the weak and insolvent nation under the Articles of Confederation, were fierce advocates for the Constitution’s grant of
unlimited fiscal and military power to the central government,
arguing that centralizing such authority was necessary to defend
against foreign and domestic aggressors and competitors. Id.
Chief among the adversaries they sought to protect against were
the Indian tribes. Indians presented immediate dangers in the

24a
proach of Hamilton and likeminded Federalists to Indian affairs, then, was to create a muscular “fiscalmilitary state that would possess the means to dominate the borderlands at Indians’ expense.” Id. (citing
Max M. Edling, A REVOLUTION IN FAVOR OF GOVERNMENT: ORIGINS OF THE U.S. CONSTITUTION AND THE
MAKING OF THE AMERICAN STATE 47-49 (2003)). The
Indians thus served as “both impetus and justification
for the creation of a federal standing army” supportable through direct taxation. Id.
Ultimately, these arguments in favor of restraining states and centralizing authority over Indian affairs resulted in a significant enhancement of the federal government’s power. Id. at 999. New constitutional provisions were added declaring the federal
constitution, laws, and treaties the supreme law of the
land; barring state treatymaking; and providing “exclusive federal power over western territories.” Id.
Added, too, was the Indian Commerce Clause, but the
foregoing more provisions ensuring supreme federal
borderlands, and these Federalists feared the tribes would form
confederations with each other, the British to the north, or the
Spanish to the south, creating strong rival powers for control of
the continent. Id. These Federalists also perceived a need to
remove the tribes, by force or by treaties, as obstacles to the new
nation’s capitalization of the interior lands and their resources.
See Ablavsky, Savage Constitution at 1037-38, 1063-67. Countering the tribes, they believed, would require a strong central government with unlimited taxing, borrowing, and military powers.
In sum, the need for a strong national government with robust
powers to manage relations with the Indians played a crucial role
in the Federalist case for the Constitution, and recognizing this
motivation is key to understanding the wide breadth of the Indian affairs power the Constitution confers on the federal government. See id. at 1058-67.

25a
power over the states with respect to foreign affairs
and the western territories were of much greater importance, as they collectively authorized the “fiscalmilitary state committed to western expansion” that
the Federalists had envisioned. Id.
During the ratification of the Constitution, the
constant potential for Indian alliances with other
tribes or European nations also influenced the public
understanding of the Constitution. See id. at 1058-67.
Indeed, “many Federalists repeatedly invoked the
specter of threats posed by the ‘savages’ to justify”
states’ ratifying a stronger federal government and a
standing army. Id. at 1000, 1069. This unifying strategy worked well: Georgia, for example, ratified the
new Constitution after only three days of debate so
that it could secure federal aid in its ongoing war with
the Creek Indians. Id.
Proponents of the new charter also expressly contended that its consolidation of power over Indian affairs in the national government would rectify the
problems that had resulted from the split authority
between the states and Congress under the Articles of
Confederation. Writing in the Federalist Papers,
Madison described the Indian Commerce Clause as
“very properly unfettered” by the ambiguous limits
Article XI of the Articles of Confederation had placed
on state power. THE FEDERALIST NO. 42 at 217 (James
Madison); see also Ablavsky, The Savage Constitution,
supra at 1053-54. The Constitution’s opponents recognized, too, the import of this redistribution of power
in Indian affairs; Abraham Yates, a leading Anti-Federalist, warned that “adopting the new government[]
will enervate” states’ “legislative rights, and totally

26a
surrender into the hands of Congress the management and regulation of the Indian affairs.” Abraham
Yates, Documentary History of the Ratification of the
Constitution, Vol. XX, p. 1158; see also Ablavsky, The
Savage Constitution, supra at 1053-54. Yet the Constitution was ratified despite these concerns, indicating that early Americans viewed the benefits of centralizing power over Indian affairs to be worth the surrender of state authority.
The post-ratification history further confirms that
the Constitution created a fiscal-military government
possessing broad, exclusive federal powers over Indian affairs. The Washington Administration likened
federal authority over Indian affairs to its foreign affairs power. For instance, Secretary Knox wrote to
President George Washington that “[t]he independent
nations and tribes of Indians ought to be considered
as foreign nations, not as the subjects of any particular state.” Letter from Henry Knox to George Washington (July 7, 1789), in 3 PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL SERIES 134, 138 (Dorothy
Twohig ed., 1989). Accordingly, as Knox explained in
another letter, the federal government had supreme
authority to regulate in this field: “[T]he United
States have, under the constitution, the sole regulation of Indian affairs, in all matters whatsoever.” Letter from Henry Knox to Israel Chapin (Apr. 28, 1792),
in 1 AMERICAN STATE PAPERS: INDIAN AFFAIRS 231-32
(Walter Lowrie et al. eds., 1832).
State officials also acknowledged the federal government’s plenary authority over Indian affairs under
the new constitution. Soon after ratification, for example, South Carolina Governor Charles Pinckney
wrote to President Washington requesting aid from

27a
“the general Government, to whom with great propriety the sole management of India[n] affairs is now
committed.” Letter from Charles Pinckney to George
Washington (Dec. 14, 1789), in 4 PAPERS OF GEORGE
WASHINGTON: PRESIDENTIAL SERIES 401, 404 (Dorothy Twohig ed., 1993); see also Gregory Ablavsky, Beyond the Indian Commerce Clause, 124 YALE L.J.
1012, 1043 (2015) [hereinafter Ablavsky, Beyond the
Indian Commerce Clause] (citing similar acknowledgments of federal supremacy in Indian affairs by the
legislatures of Georgia and Virginia).
Early congressional enactments demonstrate the
Founding-era view that the federal government was
supreme in regulating Indian affairs. Ablavsky, Savage Constitution, supra at 999. Particularly significant is the First Congress’s passage of the Indian Intercourse Act (also referred to as the “Non-Intercourse
Act” or “Trade and Intercourse Act”). Act of July 22,
1790, 1 Cong. ch. 33, 1 Stat. 137. The statute limited
trade with Indians to persons licensed by the federal
government and criminalized offenses by U.S. citizens
against Indians in Indian country, including within
states’ borders. Successor versions were enacted
throughout the 18th and 19th centuries, further expanding the scope of the law by, for instance, “authorizing federal military force to arrest violators of the
Act found within Indian country anywhere in the
United States.” See Br. of Prof. Ablavsky at 11.3

3
See also Act of May 19, 1796, 4 Cong. ch. 30, § 3, 1 Stat. 469,
470; Act of June 30, 1834, ch. 161, 4 Stat. 729; Act of Mar. 30,
1802, ch. 13, 2 Stat. 139; Act of Mar. 3, 1799, ch. 46, 1 Stat. 743;
Act of Mar. 1, 1793, ch. 19, 1 Stat. 329.

28a
That the Constitution was intended to confer on
the federal government unimpeded authority vis-à-vis
Indian relations is evidenced further in how the government deployed its new fiscal-military power
against the tribes in service of the nation’s westward
expansion.4 The military’s initial western expeditions
in the early 1790s resulted in gross failure, as an Indian confederacy handed the American forces the U.S.
Army’s worst defeat by Indians in its entire history.
Ablavsky, Savage Constitution, supra at 1077-78. The
Indians’ routing of American troops underscored their
martial strength and the threat that they posed to the
nation’s ambitions to conquer the western lands. In
response, the government ramped up spending on the
Army over the next few years, swelling its size severalfold. In subsequent battles with the Indians, the
newly strengthened Army “prevailed, seizing most of
present-day Ohio.” Id. at 1078. The government’s bellicose stance toward the tribes persisted, and, over the
next century, wars between the Indians and the
United States “remained a near constant” as the government continued to facilitate westward expansion.5

4
“The army had been brought into existence to deal with western expansion and to coerce the Indians.” EDLING, A REVOLUTION IN FAVOR OF GOVERNMENT, supra at 140. Indeed, in the Antebellum era alone, the U.S. Army fought at least ten wars
against the Indians. Ablavsky, Savage Constitution, supra at
1080 & n.483.
5

The history of the dispossession of the Indians continued
apace throughout the nineteenth and well into the twentieth centuries. In the early years of the nineteenth century, for example,
the United States negotiated treaties that resulted in the nation
acquiring millions of acres, “often paying pennines on the acre
for lands worth many times more.” COHEN’S, supra § 1.03. Later,

29a
Id. at 1078. In this way, the Constitution operated as
the Federalists had predicted: the nation developed a
strong military able to quell any threat posed by Indians and, consequently, to open up the west to Anglo
settlement. Id. at 1077-78.
Finally, early Supreme Court decisions confirm
that the Constitution was understood to place the
reins of authority over Indian affairs squarely and
solely in the hands of the federal government. In
Worcester v. Georgia, 31 U.S. (6 Pet.) 515, 559 (1832),
Chief Justice John Marshall explained that the Constitution
confers on congress the powers of war and
peace; of making treaties, and of regulating
commerce with foreign nations, and among
the several states, and with the Indian tribes.
These powers comprehend all that is required
during the “allotment” era of 1887 until 1934, Indians’ land holdings plunged from 138 million acres to only 48 million acres of
land due to the federal government’s policy of splitting tribal
members’ undivided interests in reservation lands into individually-owned lots and then selling off “surplus” reservation land to
non-Indians. Id. § 1.04. By the measure of some scholars of the
Indian history, “the United States seized some 1.5 billion acres
from North America’s native peoples” in total since the nation’s
founding. Claudio Saunt, The Invasion of America, AEON (Jan.
7, 2015), https://aeon.co/essays/how-were-1-5-billion-acres-ofland-so-rapidly-stolen. Professor Saunt has authored several
books documenting the lengthy history of injustices that befell
the Indians as their lands were taken by non-Indians throughout
the eighteenth and nineteenth centuries, often by the federal
government or with its backing. See, e.g., CLAUDIO SAUNT, WEST
OF THE REVOLUTION: AN UNCOMMON HISTORY OF 1776 (2014);
CLAUDIO SAUNT, UNWORTHY REPUBLIC: THE DISPOSSESSION OF
NATIVE AMERICANS AND THE ROAD TO INDIAN TERRITORY (2020).

30a
for the regulation of our intercourse with the
Indians. They are not limited by any restrictions on their free actions. The shackles
imposed on this power, in the confederation,
are discarded.
The Court’s holistic reading of the Constitution
exemplifies how the Founding Generation understood
federal Indian authority: as a bundle of interrelated
powers that functioned synergistically to give the federal government supreme authority over Indian affairs. See id. at 519 (“The treaties and laws of the
United States contemplate the Indian territory as
completely separated from that of the states; and provide that all intercourse with them shall be carried on
exclusively by the government of the union.”); see also
Ablavsky, Beyond the Indian Commerce Clause, supra
at 1040; cf. McGirt v. Oklahoma, 140 S. Ct. 2452, 2463
(2020) (“The policy of leaving Indians free from state
jurisdiction and control is deeply rooted in this Nation’s history.” (internal quotation marks omitted)).
In sum, the historical evidence powerfully demonstrates that the Framers intended the Constitution,
through an array of provisions, to entrust to the federal government exclusive and supreme authority in
Indian affairs, including the power to prevent states
from interfering with federal policy toward the Indians. It also reveals that the Founding Generation,
both at the federal and state levels, held this same understanding regarding the Constitution’s consolidation of authority in Indian affairs. Wielding its interconnected, symbiotic powers in this area, the early
federal government at times regulated to encourage

31a
national expansion at the expense of the Indians’ sovereignty and thereby to entrench tribes’ dependency
on the federal government of the United States.
II. The
Special
Relationship

Federal-Tribal

Trust

As a result of the federal government’s forcible annexation of the western lands and envelopment of the
Indian nations, the United States developed a special
obligation with respect to the Indian tribes, with the
two sharing what modern courts generally describe as
a unique “trust relationship.”
Matthew L.M.
Fletcher, PRINCIPLES OF FEDERAL INDIAN LAW § 5.2
(1st ed. 2017) [hereinafter Fletcher, FEDERAL INDIAN
LAW]. In essence, the trust relationship obligates the
federal government to preserve tribal self-governance,
promote tribal welfare, and uphold its fiduciary duty
in managing tribal assets. See id.
The contemporary understanding of the trust relationship has roots in the centuries-old “doctrine of
the law of nations.” Worcester, 31 U.S. at 520. That
doctrine holds that “when a stronger sovereign assumes authority over a weaker sovereign, the
stronger one assumes a duty of protection for the
weaker one, which does not surrender its right to selfgovernment.” Fletcher, FEDERAL INDIAN LAW, supra
§ 5.2; see Worcester, 31 U.S. at 552, 555 (“Th[e] relation [between the United States and the tribes] was
that of a nation claiming and receiving the protection
of one more powerful: not that of individuals abandoning their national character, and submitting as
subjects to the laws of a master . . . Protection does not
imply the destruction of the protected.”). Of course,

32a
the Indian Nations were originally self-governing sovereigns and independent from any outside rulers. See
McClanahan v. State Tax Comm’n of Az., 411 U.S.
164, 172 (1973). But vested with plenary authority
over Indian affairs, the federal government from its
founding asserted a degree of ultimate sovereignty
over the tribes. See Ablavsky, Beyond the Indian
Commerce Clause, supra at 1012. In particular, the
United States insisted that it had the authority under
the law of nations to control the tribes’ external relations with other sovereigns. See Fletcher, FEDERAL
INDIAN LAW, supra § 5.2. Under the same law of nations, then, the United States naturally assumed a
duty of protection to the tribes. See id. And as the
nation expanded westward, an increasing number of
Indian nations, whether through treaty or military
conquest, fell under the authority of the United States
and therefore under its duty of protection. COHEN’S,
supra § 1.03.
In addition to demonstrating the early federal
government’s view that it held exclusive plenary
power over Indian affairs, the First Congress’s enactment of the Indian Intercourse Act reveals that the
young nation understood itself to owe a special duty of
protection to the Indian tribes within its borders. Act
of July 22, 1790, 1 Cong. ch. 33, 1 Stat. 137. The legislation sought to prevent abuses against Indians by
non-Indians and states. Specifically, it permitted only
federal agents to purchase Indian lands and provided
for criminal sanctions for offenses by non-Indians
against Indians. See COHEN’S, supra § 1.03. Federal
legislation protective of Indians was crucial because,
as the Court later explained, the tribes “owe no alle-

33a
giance to the states, and receive from them no protection. Because of the local ill feeling, the people of the
states where they are found are often their deadliest
enemies.” United States v. Kagama, 118 U.S. 375, 384
(1886).
The government’s acknowledgement and assumption of a special duty of protection is further reflected
in countless treaties between the United States and
the tribes. See, e.g., Worcester, 31 U.S. at 519 (noting
that the United States “assum[ed] the duty of protection” toward the Cherokee Nation under the Treaty of
Holston, July 2, 1791, 7 Stat. 39, 40). Like the Indian
Intercourse Act, these treaties committed the government to protecting the tribes from a sometimes-hostile
non-Indian populace. See, e.g., Treaty with the Northern Cheyenne and Northern Arapahoe, art. I, May 10,
1868, 15 Stat. 655, 655 (“If bad men among the
whites, or among other people subject to the authority
of the United States, shall commit any wrong upon the
person or property of the Indians, the United States
will . . . cause the offender to be arrested and punished
according to the laws of the United States, and also
reimburse the injured person for the loss sustained.”);
see also Mary Christina Wood, Indian Land and the
Promise of Native Sovereignty: The Trust Doctrine Revisited, 1994 UTAH L. REV. 1471, 1496-97 (1994). The
Supreme Court itself has repeatedly recognized the
duty of protection the treaties memorialized. See, e.g.,
Kagama, 118 U.S. at 384 (“From the[ tribes’] very
weakness and helplessness, so largely due to the
course of dealing of the federal government with them,
and the treaties in which it has been promised, there
arises the duty of protection, and with it the power.”);
Worcester, 31 U.S. at 519.

34a
Regrettably, the federal government’s involvement in Indian affairs has also often been far from benign. During the late nineteenth to early twentieth
centuries, Congress interfered in internal tribal affairs and property interests extensively. Fletcher,
FEDERAL INDIAN LAW, supra § 5.2; see also McGirt, 140
S. Ct. at 2463 (discussing Congress’s policy in the late
1800’s of “pressur[ing] many tribes to abandon their
communal lifestyles and parcel their land into smaller
lots owned by individual tribe members,” in order to
assimilate Native Americans and give white settlers
“more space of their own” (citing General Allotment
Act of 1887, ch. 119, 24 Stat. 388-90)). The Court,
however, held that such congressional enactments—
even when they resulted in takings of tribal property—were immune from judicial review as long as
Congress acted in “good faith.” Lone Wolf v. Hitchcock, 187 U.S. 553, 565-66 (1903)). In taking a handsoff, deferential approach to Congress’s management of
Indian affairs, the Court analogized the federal-tribal
relationship as akin to that of a guardian to its ward.
See, e.g., id. at 565 (stating that “Congress possess[es]
paramount power over the property of the Indians, by
reason of its exercise of guardianship over their interests”); Kagama, 118 U.S. at 384 (“These Indian tribes
are the wards of the nation. They are communities
dependent on the United States[.]”). Though intended
to suggest that the government played a salutary role
in tribal affairs, the guardianship metaphor instead
underscores a prevailing view of Indians—both
wrongheaded and deeply repugnant—as primitive
people, “untutored and improvident, and still requiring the protection and supervision of the general government.” Heckman v. United States, 224 U.S. 413,
417 (1912); see also, e.g., Beecher v. Wetherby, 95 U.S.

35a
(5 Otto) 517, 525 (1877) (describing the Indians as “an
ignorant and dependent race” subject to the “control
[of] a Christian people”).
In 1934, Congress began a “slow retreat” from this
problematic guardianship model when it enacted the
Indian Reorganization Act. Fletcher, FEDERAL INDIAN
LAW, supra § 5.2 (citing Act of June 18, 1934, 48 Stat.
984, codified as amended at 25 U.S.C. §§ 5101 et seq.).
The Act, for the first time in the history of the government’s intervention in Indian affairs, required tribal
consent to the statute’s operative provisions. 25
U.S.C. § 5123(a)(1). This trend continued into the latter half of the twentieth century, and the guardianship metaphor has now given way completely, with
Congress and the modern Court both explicitly acknowledging that the government’s relationship with
and obligations to the tribes is instead that of a trustee to a beneficiary. See, e.g., 25 U.S.C. §§ 5601–02
(recognizing and reaffirming the federal trust responsibility); 25 U.S.C. § 3101 (finding that “the United
States has a trust responsibility toward Indian forest
lands”); United States v. Mitchell, 463 U.S. 206, 225
(1983) (affirming the “undisputed existence of a general trust relationship between the United States and
the Indian people”); see also Fletcher, FEDERAL INDIAN
LAW, supra § 5.2. Rather than reflecting and justifying a paternalistic approach that subordinated tribal
sovereignty—as the guardianship model did—the
trust relationship commits the federal government to
preserving tribal self-governance.6 It also obligates
6
This duty to maintain tribal self-governance is embodied in
the congressional statement of policy in the Indian Self-Determination and Education Assistance Act of 1975:

36a
and authorizes Congress to enact statutes that promote the general well-being of tribes by providing
them with governmental services, including education, health care, housing, and public safety. Fletcher,
FEDERAL INDIAN LAW, supra § 5.3; see also Seminole
Nation v. United States, 316 U.S. 286 (1942) (imposing
“the most exacting fiduciary standards” on the government in administering tribal assets). In fact, “[n]early
every piece of modern legislation dealing with Indian
tribes contains a statement reaffirming the trust relationship between tribes and the federal government.”7
COHEN’S, supra § 5.04.
The Congress declares its commitment to the maintenance
of the Federal Government’s unique and continuing relationship with, and responsibility to, individual Indian
tribes and to the Indian people as a whole through the establishment of a meaningful Indian self-determination
policy that will permit an orderly transition from the Federal domination of programs for, and services to, Indians
to effective and meaningful participation by the Indian
people in the planning, conduct, and administration of
those programs and services. In accordance with this policy, the United States is committed to supporting and assisting Indian tribes in the development of strong and stable governments, capable of administering quality programs and developing the economies of their respective
communities.
25 U.S.C. § 5301.
7

See, e.g., Indian Trust Asset Reform Act, 25 U.S.C. §§ 5601–
5602 (recognizing and reaffirming the federal trust responsibility); National Indian Forest Resources Management Act, 25
U.S.C. § 3101 (finding that “the United States has a trust responsibility toward forest lands”); American Indian Agricultural Resources Management Act, 25 U.S.C. § 3701 (finding that “the
United States has a trust responsibility to protect, conserve, utilize, and manage Indian agricultural lands consistent with its

37a
In short, the present-day trust relationship between the United States and Indian nations is an outgrowth of a complex, centuries-old nation-to-nation
political relationship between the two, and it expresses both the enduring obligations the federal government owes to the Indians and its power to discharge this duty.
III. Federal Regulation
Before ICWA

of

Indian

Children

Even before the dawn of the American nation,
Congress had concerned itself with the rearing of Indian youths. AS JUDGE COSTA relates, in 1775 the
Continental Congress appropriated funds ostensibly
to educate Indians at Dartmouth College but with the
ulterior aim of using the Indian pupils as shields to
ward off potential attacks by the British or their Indian allies. See COSTA, CIRCUIT JUDGE, OP. at 15. In
the earliest years of the Constitutional era, the federal
government took a number of actions to regulate In-

fiduciary obligation and its unique relationship with Indian
tribes”); American Indian Trust Fund Management Reform Act
of 1994, 25 U.S.C. § 4043 (Special Trustee for American Indians
must prepare comprehensive strategic plan to “ensure proper
and efficient discharge of the Secretary’s trust responsibilities to
Indian tribes and individual Indians”); Native American Housing Assistance and Self-Determination Act, 25 U.S.C. § 4101(2)–
(4) (“[T]here exists a unique relationship between the Government of the United States and the governments of Indian tribes
and a unique Federal responsibility to Indian people[.]”); 20
U.S.C. § 7401 (“It is the policy of the United States to fulfill the
Federal Government’s unique and continuing trust relationship
with and responsibility to the Indian people for the education of
Indian children.”).

38a
dian children. For example, starting in 1794, the federal government entered into over one hundred treaties with Indian tribes that obligated the federal government to provide for Indian education. And stemming from a misguided paternalistic stance toward
the tribes, President Washington directed American
treaty commissioners dealing with Indian tribes to
“endeavor to obtain a stipulation for certain missionaries . . . to reside in the nation” in order to “civilize”
the population. Matthew L.M. Fletcher & Wenona T.
Singel, Indian Children and the Federal-Tribal Trust
Relationship, 95 NEB. L. REV. 885, 912 (2017) (quoting
Letter from George Washington, President of the
United States, to Benjamin Lincoln, Cyrus Griffin,
and David Humphreys, (August 29, 1789), reprinted
in 4 AMERICAN STATE PAPERS 65, 66 (Walter Lowrie &
Matthew St. Clair Clarke eds., 1832)).
During the late eighteen century the federal government even expressly involved itself in the transfer
of American Indian children from their families and
tribal communities to non-native homes. Fletcher,
FEDERAL INDIAN LAW, supra § 3.6. Under the Washington Administration, for instance, federal monies financed the rearing of Indian children in Quaker
homes. Br. of Prof. Ablavsky at 20. Though springing
from an intention to do good, like much of the government’s past Indian policy, the Indian removal efforts
wrought monumental and lasting damage on the lives
of individual Indians and tribes. See Fletcher, FEDERAL INDIAN LAW, supra § 3.6.
The campaign to “Christianize” the supposedly
heathen Native peoples greatly expanded in the late
nineteenth century, with the removal of Indian children constituting the single most important aspect of

39a
the government’s “civilization” policy. See Fletcher,
FEDERAL INDIAN LAW, supra § 3.6. Government officials took Indian children from their homes and tribal
lands, at times by force, and enrolled them at coercive,
off-reservation Indian boarding schools. Id. These
federally run or financed schools sought to stamp out
all vestiges of Indian culture. As the Commissioner of
Indian Affairs wrote in 1896, the purportedly humanitarian course was “for the strong arm of the nation to
reach out, take [Indian children] in their infancy and
place them in its fostering schools, surrounding them
with an atmosphere of civilization, . . . instead of allowing them to grow up as barbarians and savages.”
T.J. Morgan, A Plea for the Papoose, 18 Baptist Home
Mission Monthly 402, 404 (1896). The headmaster of
the notorious Carlisle School explained the policy
even more bluntly in his infamous credo, stating that
the schools were meant to take an Indian child and
“Kill the Indian in him, to save the man.” Fletcher,
FEDERAL INDIAN LAW, supra § 3.6 (quoting Richard H.
Pratt, THE ADVANTAGES OF MINGLING INDIANS WITH
WHITES (1892), reprinted in AMERICANIZING THE
AMERICAN INDIANS: WRITINGS BY THE “FRIENDS OF THE
INDIAN” 1880–1900 260–61 (Francis Paul Prucha ed.
1973)).
Although the total number of children enrolled in
the boarding schools is unknown, in 1895 alone 157
boarding schools housed more than 15,000 Indian
children. Andrea C. Curcio, Civil Claims for Uncivilized Acts: Filing Suit Against the Government for
American Indian Boarding School Abuses, 4 HASTINGS RACE & POVERTY L.J. 45, 57 (2006). Many were
run directly by the Bureau of Indian Affairs (“BIA”).

40a
Others were operated by Christian groups that received federal funds. Schooling was left to Christian
groups because Christianity, and particularly Protestantism, was seen, at the time, as essential to a “civilized” life. See Fletcher, FEDERAL INDIAN LAW, supra
§ 3.6. The government thus hoped to eradicate the
American Indians’ native religions by converting
young Indians to Christianity.
The use of government-backed force was central
to the creation of these boarding schools. “Indian parents who opposed the taking of their children to these
schools faced criminal prosecution and possible incarceration.” Id. Children were “literally kidnap[ped]”
so they could be shipped off to the Indian schools. For
example, one federal agent described hunting down
Hopi “Indian children who had escaped to caves or cellars, sometimes defended by their parents, who would
have to be restrained by force to prevent the kidnapping of their children.” Id.
Life at the schools themselves was pervaded by a
strict regimen of military-style discipline meant to reform Indian children and assimilate them into Anglo
society. Id. Children were forbidden to speak their
native languages and were punished, including
through beatings, if they lapsed into their native
tongues. COHEN’S, supra § 1.04. And the goal of permanently severing Indian children’s connections with
tribal life did not stop at the end of the school year.
Under an “outing system,” Indian children were
placed in non-Indian homes far from their reservations during the summer, ensuring that they never returned to their communities during their tenure at
the boarding schools. Fletcher, FEDERAL INDIAN LAW,
supra § 3.6.

41a
In 1928, a devastating federally commissioned report produced by the Brookings Institution laid bare
the problems in Indian boarding schools, concluding
that they were “grossly inadequate.” See Lewis
Meriam, THE PROBLEM OF INDIAN ADMINISTRATION 11
(1928). The report detailed life at the schools, citing
“deplorable health conditions,” including fire risks,
“serious malnutrition, and high-rates of communicable diseases.” Id. at 192, 318-19. More generally, the
report observed that the “official government attitude” toward Indian education had been premised “on
the theory that it is necessary to remove the Indian
child[ren] as far as possible from [their] environment”
so as to prepare them for “life among the whites.” Id.
at 346, 618. This way of thinking, the report explained, was fundamentally flawed and at odds with
the “modern point of view in education,” which favored rearing the child “in the natural setting of home
and family life.” Id. at 346. The result of the government’s boarding school policy had been to “largely disintegrate[] the [Indian] family.” Id. at 15.
By the time of the report, Indian boarding schools
had begun to decline as the BIA charged state public
schools with assuming more responsibility for Indian
education. COHEN’S, supra § 1.04. But the boarding
schools did not vanish; as late as the 1970s, thousands
of Indian children were still being educated at federal
boarding schools. See Indian Child Welfare Act of
1977:Hearing on S. 1214 Before the Select Comm. on
Indian Affairs, 95th Cong. 603 (1977).
In establishing Indian schools, “the intent of
American policymakers and educators may not have
been to harm Indian people,” but the “end result was
the near-destruction of tribal culture and religion

42a
across the United States.” Fletcher, FEDERAL INDIAN
LAW, supra § 3.6. The federal government itself has
acknowledged its tragic role in decimating Indian
tribes and families by separating them from their children. In 2000, the Assistant Secretary of the BIA offered a formal apology to the Indian tribes:
[The BIA] set out to destroy all things Indian.
This agency forbade the speaking of Indian
languages, prohibited the conduct of traditional religious activities, outlawed traditional government, and made Indian people
ashamed of who they were. Worst of all, the
[BIA] committed these acts against the children entrusted to its boarding schools, brutalizing them emotionally, psychologically, physically, and spiritually . . . Never again will we
seize your children, nor teach them to be
ashamed of who they are. Never again.
146 CONG. REC. E1453 (Sept. 12, 2000) (quoting apology of Assistant Secretary for Indian Affairs, Department of the Interior remarks on Sept. 8, 2000).
IV. State Abuses Leading to ICWA
Though federal Indian boarding schools eventually declined, massive numbers of Indian children continued to be permanently removed from their families,
tribes, and cultures through the 1970s. Replacing offreservation boarding schools, state courts and child
welfare agencies became the primary vehicle for severing Indian youth—the lifeblood of tribes—from their
communities. See COHEN’S, supra § 11.02. Surveys of
states with large Indian populations during the 1960s
and 1970s showed that between twenty-five to thirtyfive percent of all Indian children were removed from

43a
their families. See Indian Child Welfare Program:
Hearings before the Subcommittee on Indian Affairs of
the Senate Committee on Interior and Insular Affairs,
93rd CONG. REC. 3 (April 8–9, 1974) (statement of William Byler, Executive Director, Association of American Indian Affairs); H.R. Rep. No. 95-1386, at 9
(1978). “In 16 states surveyed in 1969, approximately
85% percent of all Indian children in foster care were
living in non-Indian homes,” while in Minnesota in
the early 1970s “90 percent of the adopted Indian children [were] in non-Indian homes.” H.R. Rep. No. 951386, at 9 (1978); see also Indian Child Welfare Program: Hearings before the Subcommittee on Indian
Affairs of the Senate Committee on Interior and Insular Affairs, 93rd CONG. REC. 5 (April 8–9, 1974) (statement of William Byler, Executive Director, Association of American Indian Affairs); Miss. Band of Choctaw Indians v. Holyfield, 490 U.S. 30, 32 (1989); COHEN’S, supra § 11.01. And in jurisdictions with significant Indian populations, Indian children were uprooted by states’ child welfare machinery at rates far
exceeding those for non-Indians. See Indian Child
Welfare Act of 1977: Hearing on S. 1214 Before the
Select Comm. on Indian Affairs, 95th Cong. 539-40
(1977). For example, in North Dakota and South Dakota, Indian children were over twenty times as likely
to be placed in foster care than non-Indians. Id. at
540. In Minnesota, Maine, and Utah, the relative foster care rate for Indian children was, respectively,
nineteen, sixteen, and fifteen times greater than that
for non-Indians. Id. at 540. And in Washington, the
combined rate of foster care and adoptive placements
for Indian children in 1973 was nearly fourteen times
greater than that of non-Indians. Id. at 599.

44a
This nationwide crisis aroused the attention and
indignation of Congress in the mid-1970s. Over the
course of four years, Congress held hearings on, deliberated on, and debated how to remedy the problem.
Fletcher, FEDERAL INDIAN LAW, supra § 8.8. Congress
heard “testimony taken from Indian Country . . . that
many state and county social service agencies and
workers, with the approval and backing of many state
courts and some federal B[IA] officials, had engaged
in the systematic, automatic, and across-the-board removal of Indian children from Indian families and into
non-Indian families and communities.” Id.
State officials attempted to justify these largescale removals by invoking Anglo norms that favored
rearing children within a nuclear family structure.
See Holyfield, 490 U.S. at 35-36 (quoting 25 U.S.C.
§ 1901). This approach often reflected the officials’
profound ignorance of or hostility to tribes’ traditional
values and community-oriented approach to child
raising. In Indian communities, for example, it is
common for extended family to play key roles in raising Indian children. See JACOBS, A GENERATION REMOVED, supra at 24-25; see also Supreme Court Br. of
Indian Law Professors in Adoptive Couple v. Baby
Girl, No. 12–399, at 5. Non-Indian child welfare
agents, however, interpreted this practice of extended
family care as parental neglect and cited it as a reason
for removing Indian children from their parents and
putting them up for adoption. See Supreme Court Br.
of Indian Law Professors in Adoptive Couple v. Baby
Girl, No. 12–399. In total, this and similar uninformed and abusive practices resulted in the removal,
as noted, of over a quarter of all Indian children from
their homes in states with large Indian populations.

45a
See H.R. Rep. No. 95-1386, at 9 (1978). Thus, even
though the widespread transfer of Indian children to
non-Indians may not have been specifically intended
as an assimilation project, it nonetheless had that effect.
The mass removal of Indian children had profoundly adverse effects on the children themselves,
who suffered trauma from being separated from their
families and “problems of adjusting to a social and cultural environment much different than their own.”
Id.; see also Indian Child Welfare Act of 1977: Hearing Before the S. Select Committee on Indian Affs.,
95th Cong. 114 (1977) (statement of Carl E. Mindell,
M.D., & Alan Gurwitt, M.D., American Academy of
Child Psychiatry) (stating that “[t]here is much clinical evidence to suggest that these Native American
children placed in off-reservation non-Indian homes
are at risk in their later development” and that “they
are subject to ethnic confusion and a pervasive sense
of abandonment”). Indian parents suffered greatly,
too, of course. The evil of mass removal, however, was
systemic, threatening not only children and families
but the tribes themselves. As Calvin Isaac, the Chief
of the Mississippi Band of Choctaw Indians, explained
to Congress, the aggregate effect of the removal of Indian children threatened the tribes’ existence:
Culturally, the chances of Indian survival are
significantly reduced if our children, the only
real means for the transmission of the tribal
heritage, are to be raised in non-Indian homes
and denied exposure to the ways of their People. Furthermore, these practices seriously
undercut the tribes’ ability to continue as selfgoverning communities. Probably in no area

46a
is it more important that tribal sovereignty be
respected than in an area as socially and culturally determinative as family relationships.
Holyfield, 490 U.S. at 34.8
V. Congress’s Findings and Aims in Enacting
ICWA
In view of the alarming abuses perpetrated
through state Indian child custody proceedings, Congress enacted ICWA in 1978. Recognizing that a “special relationship” exists between the United States
and Indian tribes, Congress made the following findings:
Congress has plenary power over Indian affairs. 25 U.S.C. § 1901(1) (citing U.S. CONST.
art. I, § 8, cl. 3 (“The Congress shall have
Power . . . To regulate Commerce . . . with the
Indian Tribes.”)).
“[T]here is no resource that is more vital to the
continued existence and integrity of Indian
tribes than their children.” Id. § 1901(3).
“[A]n alarmingly high percentage of Indian
families are broken up by the removal, often
unwarranted, of their children from them by
8
As the Supreme Court noted in Holyfield, 490 U.S. 34 n.3 ,
“[t]hese sentiments were shared by the ICWA’s principal sponsor
in the House, Rep. Morris Udall, see 124 LONG. REC. 38102 (1978)
(“Indian tribes and Indian people are being drained of their children and, as a result, their future as a tribe and a people is being
placed in jeopardy”), and its minority sponsor, Rep. Robert Lagomarsino, id. (“This bill is directed at conditions which . . .
threaten . . . the future of American Indian tribes [.]” (cleaned
up)).

47a
nontribal public and private agencies and . . .
an alarmingly high percentage of such children are placed in non-Indian foster and adoptive homes and institutions.” Id. § 1901(4).
“States exercising their recognized jurisdiction over Indian child custody proceedings
through administrative and judicial bodies,
have often failed to recognize the essential
tribal relations of Indian people and the cultural and social standards prevailing in Indian communities and families.”
Id.
§ 1901(5).
Based on its findings, Congress declared that it was
the policy of the United States
to protect the best interests of Indian children
and to promote the stability and security of Indian tribes and families by the establishment
of minimum Federal standards for the removal of Indian children from their families
and the placement of such children in foster or
adoptive homes which will reflect the unique
values of Indian culture, and by providing for
assistance to Indian tribes in the operation of
child and family service programs.
Id. § 1902.
VI. ICWA’s Provisions
ICWA’s substantive and procedural safeguards
apply in any child custody proceeding involving an
“Indian child,” defined as “any unmarried person who
is under age eighteen and is either (a) a member of an
Indian tribe or (b) is eligible for membership in an Indian tribe and is the biological child of a member of an

48a
Indian tribe.” Id. § 1903(4). In proceedings for the
foster care placement or termination of parental
rights, ICWA gives “the Indian custodian of the child
and the Indian child’s tribe . . . a right to intervene at
any point in the proceeding.” Id. § 1911(c). “In any
involuntary proceeding . . . where the court knows or
has reason to know that an Indian child is involved,”
ICWA requires that the parent, the Indian custodian,
the child’s tribe, or the Secretary of the United States
Department of the Interior (“Secretary” or “Secretary
of the Interior”) be notified of pending proceedings and
of their right to intervene. Id. § 1912(a). In voluntary
proceedings for the termination of parental rights or
adoptive placement of an Indian child, ICWA ensures
that the parent can withdraw consent for any reason
prior to entry of a final decree of adoption or termination, at which point the child must be returned to the
parent. Id. § 1913(c). If consent was obtained through
fraud or duress, a parent may petition to withdraw
consent within two years after the final decree of
adoption and, upon a showing of fraud or duress, the
court must vacate the decree and return the child to
the parent. Id. § 1913(d). An Indian child, a parent
or Indian custodian from whose custody the child was
removed, or the child’s tribe may file a petition in any
court of competent jurisdiction to invalidate an action
in state court for foster care placement or termination
of parental rights if the action violated any provision
of §§ 1911 to 1913. Id. § 1914.
ICWA further sets forth placement preferences for
foster care, preadoptive, and adoptive proceedings involving Indian children. Section 1915 requires:
In any adoptive placement of an Indian child
under State law, a preference shall be given,

49a
in the absence of good cause to the contrary,
to a placement with (1) a member of the child’s
extended family; (2) other members of the Indian child’s tribe; or (3) other Indian families.
Id. § 1915(a). Similar requirements are set for foster
care or preadoptive placements. Id. § 1915(b). If a
tribe establishes by resolution a different order of
preferences, the state court or agency effecting the
placement “shall follow [the tribe’s] order so long as
the placement is the least restrictive setting appropriate to the particular needs of the child.” Id. § 1915(c).
The state in which an Indian child’s placement
was made shall maintain records of the placement,
which shall be made available at any time upon request by the Secretary or the child’s tribe. Id.
§ 1915(e). An Indian adoptee who attains the age of
majority may request that the court which entered the
adoption order provide her with information “as may
be necessary to protect any rights flowing from the . . .
tribal relationship.” Id. § 1917. And a state court entering a final decree in an adoptive placement “shall
provide the Secretary with a copy of such decree or order” and information as necessary regarding “(1) the
name and tribal affiliation of the child; (2) the names
and addresses of the biological parents; (3) the names
and addresses of the adoptive parents; and (4) the
identity of any agency having files or information relating to such adoptive placement.” Id. § 1951(a).
ICWA’s severability clause provides that “[i]f any provision of this chapter or the applicability thereof is
held invalid, the remaining provisions of this chapter
shall not be affected thereby.” Id. § 1963.

50a
VII. The Final Rule
ICWA provides that “the Secretary [of the Interior] shall promulgate such rules and regulations as
may be necessary to carry out [its] provisions.” 25
U.S.C. § 1952. In 1979, the BIA promulgated guidelines (the “1979 Guidelines”) intended to assist state
courts in implementing ICWA but that lacked “binding legislative effect.” Guidelines for State Courts; Indian Child Custody Proceedings, 44 Fed. Reg. 67,584,
67,584 (Nov. 26, 1979). The 1979 Guidelines left the
“[p]rimary responsibility” of interpreting certain language in ICWA “with the [state] courts that decide Indian child custody cases.” Id. However, in June 2016,
the BIA promulgated the Final Rule to “clarify the
minimum Federal standards governing implementation of [ICWA]” and to ensure that it “is applied in all
States consistent with the Act’s express language,
Congress’s intent in enacting the statute, and to promote the stability and security of Indian tribes and
families.” 25 C.F.R. § 23.101; Indian Child Welfare
Act Proceedings, 81 Fed. Reg. 38,778, 38,868 (June 14,
2016). The Final Rule explained that while the BIA
“initially hoped that binding regulations would not be
necessary to carry out [ICWA], a third of a century of
experience has confirmed the need for more uniformity in the interpretation and application of this
important Federal law.” 81 Fed. Reg. at 38,782 (internal citation and quotation marks omitted).
The Final Rule provides that state courts have the
responsibility of determining whether a child is an
“Indian child” subject to ICWA’s requirements. 25
C.F.R. §§ 23.107; 81 Fed. Reg. at 38,778, 38,869-73.
The Final Rule also sets forth notice and recordkeeping requirements for states, see 25 C.F.R. §§ 23.140-

51a
41; 81 Fed. Reg. at 38,778, 38,875-76, and requirements for states and individuals regarding voluntary
proceedings and parental withdrawal of consent, see
25 C.F.R. §§ 23.124-28; 81 Fed. Reg. at 38,778, 38,87374. The Final Rule also restates ICWA’s placement
preferences and clarifies when they apply and when
states may depart from them.
See 25 C.F.R.
§§ 23.129-32; 81 Fed. Reg. at 38,778, 38,874-75.
VIII. The Instant Action
A. Parties
1. Plaintiffs
Plaintiffs in this action are the states of Texas,
Louisiana, and Indiana,9 (collectively, “State Plaintiffs”), and seven individual Plaintiffs—Chad and Jennifer Brackeen (“the Brackeens”), Nick and Heather
Libretti (“the Librettis”), Altagracia Socorro Hernandez (“Hernandez”), and Jason and Danielle Clifford
(“the Cliffords”) (collectively, “Individual Plaintiffs”)
(together with State Plaintiffs, “Plaintiffs”).
a. The Brackeens & A.L.M.
At the time their initial complaint was filed in the
district court, the Brackeens sought to adopt A.L.M.,
who falls within ICWA’s definition of an “Indian
Child.” His biological mother is an enrolled member
9
There are three federally recognized tribes in Texas: the
Yselta del Sur Pueblo, the Kickapoo Tribe, and the AlabamaCoushatta Tribe. There are four federally recognized tribes in
Louisiana: the Chitimacha Tribe, the Coushatta Tribe, the Tunica Biloxi Tribe, and the Jena Band of Choctaw Indians. There
is one federally recognized tribe in Indiana: the Pokagon Band
of Potawatomi Indians.

52a
of the Navajo Nation and his biological father is an
enrolled member of the Cherokee Nation. When
A.L.M. was ten months old, Texas’s Child Protective
Services (“CPS”) removed him from his paternal
grandmother’s custody and placed him in foster care
with the Brackeens. Both the Navajo Nation and the
Cherokee Nation were notified pursuant to ICWA and
the Final Rule. A.L.M. lived with the Brackeens for
more than sixteen months before they sought to adopt
him with the support of his biological parents and paternal grandmother. In May 2017, a Texas court, in
voluntary proceedings, terminated the parental rights
of A.L.M.’s biological parents, making him eligible for
adoption under Texas law. Shortly thereafter, the
Navajo Nation notified the state court that it had located a potential alternative placement for A.L.M.
with non-relatives in New Mexico, though this placement ultimately failed to materialize. In July 2017,
the Brackeens filed an original petition for adoption,
and the Cherokee Nation and Navajo Nation were notified. The Navajo Nation and the Cherokee Nation
reached an agreement whereby the Navajo Nation
was designated as A.L.M.’s tribe for purposes of
ICWA’s application in the state proceedings. No one
intervened in the Texas adoption proceeding or otherwise formally sought to adopt A.L.M. The Brackeens
entered into a settlement with the Texas state agency
and A.L.M.’s guardian ad litem specifying that, because no one else sought to adopt A.L.M., ICWA’s
placement preferences did not apply. In January
2018, the Brackeens successfully petitioned to adopt
A.L.M. The Brackeens initially alleged in their complaint that they would like to continue to provide foster care for and possibly adopt additional children in
need, but their experience adopting A.L.M. made

53a
them reluctant to provide foster care for other Indian
children in the future. Since their complaint was
filed, the Brackeens have sought to adopt A.L.M.’s sister, Y.R.J. in Texas state court. Y.R.J., like her
brother, is an Indian Child for purposes of ICWA. The
Navajo Nation contests the adoption. On February 2,
2019, the Texas court granted the Brackeens’ motion
to declare ICWA inapplicable as a violation of the
Texas constitution, but “conscientiously refrain[ed]”
from ruling on the Brackeens’ claims under the
United States Constitution pending our resolution of
the instant appeal.
b. The Librettis & Baby O.
The Librettis live in Nevada and sought to adopt
Baby O. when she was born in March 2016. Baby O.’s
biological mother, Hernandez, wished to place Baby
O. for adoption at her birth, though Hernandez has
continued to be a part of Baby O.’s life and she and the
Librettis visit each other regularly. Baby O.’s biological father, E.R.G., descends from members of the Ysleta del sur Pueblo Tribe (the “Pueblo Tribe”), located
in El Paso, Texas, and was a registered member of
that tribe at the time Baby O. was born. The Pueblo
Tribe intervened in the Nevada custody proceedings
seeking to remove Baby O. from the Librettis. Once
the Librettis joined the challenge to the constitutionality of ICWA and the Final Rule, the Pueblo Tribe
indicated that it was willing to settle. The Librettis
agreed to a settlement with the Pueblo Tribe that
would permit them to petition for adoption of Baby O.
The Pueblo Tribe agreed not to contest the Librettis’
adoption of Baby O., and on December 19, 2018, the
Nevada state court issued a decree of adoption, declaring that the Librettis were Baby O.’s lawful parents.

54a
Like the Brackeens, the Librettis alleged that they intend to provide foster care for and possibly adopt additional children in need but are reluctant to foster Indian children after this experience.
c. The Cliffords & Child P.
The Cliffords live in Minnesota and seek to adopt
Child P., whose maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the
“White Earth Band”). Child P. is a member of the
White Earth Band for purposes of ICWA’s application
in the Minnesota state court proceedings. Pursuant
to § 1915’s placement preferences, county officials removed Child P. from the Cliffords’ custody and, in
January 2018, placed her in the care of her maternal
grandmother, whose foster license had been revoked.
Child P.’s guardian ad litem supports the Cliffords’ efforts to adopt her and agrees that the adoption is in
Child P.’s best interest. The Cliffords and Child P. remain separated, and the Cliffords face heightened legal barriers to adopting her. On January 17, 2019, the
Minnesota court denied the Cliffords’ motion for adoptive placement.
2. Defendants
Defendants are the United States of America; the
United States Department of the Interior and its Secretary Deb Haaland, in her official capacity; the BIA
and its Director Darryl La Counte, in his official capacity; and the Department of Health and Human
Services and its Secretary Xavier Becerra, in his official capacity (collectively, the “Federal Defendants”).
Shortly after this case was filed in the district court,
the Cherokee Nation, Oneida Nation, Quinalt Indian

55a
Nation, and Morengo Band of Mission Indians (collectively, the “Tribal Defendants”) moved to intervene,
and the district court granted the motion. On appeal,
we granted the Navajo Nation’s motion to intervene
as a defendant10 (together with Federal and Tribal Defendants, “Defendants”).
B. Procedural History
Plaintiffs filed the instant action against the Federal Defendants in October 2017, alleging that the Final Rule and certain provisions of ICWA are unconstitutional and seeking injunctive and declaratory relief.
Plaintiffs argued that ICWA and the Final Rule violate equal protection and substantive due process under the Fifth Amendment and the anticommandeering doctrine that arises from the Tenth Amendment.
Plaintiffs additionally sought a declaration that provisions of ICWA and the Final Rule violate the nondelegation doctrine and the APA. Defendants moved
to dismiss, alleging that Plaintiffs lacked standing.
The district court denied the motion. All parties filed
cross-motions for summary judgment. The district
court granted Plaintiffs’ motion for summary judgment in part, declaring that ICWA and the Final Rule
violated equal protection, the Tenth Amendment, and
the nondelegation doctrine, and that the challenged
10
The Navajo Nation had previously moved to intervene twice
in the district court. The first motion was for the limited purpose
of seeking dismissal pursuant to Rule 19, which the district court
denied. The Navajo Nation filed a second motion to intervene for
purposes of appeal after the district court’s summary judgment
order. The district court deferred decision on the motion pending
further action by this court, at which time the Navajo Nation
filed the motion directly with this court.

56a
portions of the Final Rule were invalid under the
APA.11 Defendants appealed. A panel of this court
affirmed in part the district court’s rulings on standing but reversed and rendered judgment on the merits, with one judge concurring in part and dissenting
in part. The court then granted en banc review. In
total, fourteen amicus briefs have been filed in this
case.
STANDARD OF REVIEW
We review a district court’s grant of summary
judgment de novo. See Texas v. United States, 497
F.3d 491, 495 (5th Cir. 2007). Summary judgment is
appropriate when the movant has demonstrated “that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
FED. R. Civ. P. 56(a). A genuine dispute of material
fact exists “if the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986).
DISCUSSION
I.

Article III Standing

Defendants first contend that Plaintiffs lack
standing to challenge ICWA and the Final Rule. The
district court denied Defendants’ motion to dismiss on
this basis, concluding that Individual Plaintiffs have
standing to bring an equal protection claim; State
Plaintiffs have standing to challenge provisions of

11
The district court denied Plaintiffs’ substantive due process
claim, which Plaintiffs do not appeal.

57a
ICWA and the Final Rule on the ground that they violate the Tenth Amendment and the nondelegation
doctrine; and all Plaintiffs have standing to bring an
APA claim challenging the validity of the Final Rule.
Article III limits the power of federal courts to
“Cases” and “Controversies.” See Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (citing U.S. CONST.
art. III, § 2). “Standing to sue is a doctrine rooted in
the traditional understanding of a case or controversy.” Id. To meet the Article III standing requirement, plaintiffs must demonstrate (1) “an injury in
fact” that is (2) “fairly traceable to the challenged action of the defendant,” and that is (3) likely to be “redressed by a favorable decision.” Lujan v. Defs. of
Wildlife, 504 U.S. 555, 560-61 (1992) (internal quotation marks, citations, and alterations omitted). A
plaintiff seeking equitable relief must demonstrate a
likelihood of future injury in addition to past harm.
See City of Los Angeles v. Lyons, 461 U.S. 95, 105
(1983). This injury must be “concrete and particularized” and “actual or imminent, not conjectural or hypothetical.” See Lujan, 504 U.S. at 560 (internal quotation marks and citations omitted).
“[S]tanding is not dispensed in gross,” and “a
plaintiff must demonstrate standing for each claim he
seeks to press and for each form of relief that is
sought.” Town of Chester v. Laroe Estates, Inc., 137 S.
Ct. 1645, 1650 (2017) (quoting Davis v. Fed. Election
Comm’n, 554 U.S. 724, 734 (2008)). Nevertheless,
“the presence of one party with standing is sufficient
to satisfy Article III’s case-or-controversy requirement,” and we therefore need conclude only that one
plaintiff in the present case satisfies standing with respect to each claim. Rumsfeld v. Forum for Acad. &

58a
Institutional Rights, Inc., 547 U.S. 47, 52 n.2 (2006).
“This court reviews questions of standing de novo.”
Nat’l Rifle Ass’n of Am., Inc. v. McCraw, 719 F.3d 338,
343 (5th Cir. 2013).
A. Standing to Bring Equal Protection
Claim
Plaintiffs challenged 25 U.S.C. §§ 1913(d), 1914,
1915(a), and 1915(b), and Final Rule § 23.129 to
23.132 on equal protection grounds, alleging that
these provisions impose regulatory burdens on nonIndian families seeking to adopt Indian children that
are not similarly imposed on Indian families who seek
to adopt Indian children. The district court concluded
that Individual Plaintiffs suffered and continue to suffer injuries when their efforts to adopt Indian children
are burdened by ICWA and the Final Rule; that their
injuries are fairly traceable to the actions of Defendants because ICWA and the Final Rule mandate state
compliance; and that these injuries are redressable
because if ICWA and the Final Rule were invalidated,
then state courts would no longer be required to follow
them. Defendants disagree, arguing that the Individual Plaintiffs cannot demonstrate an injury in fact or
redressability and thus lack standing to bring an
equal protection claim. We will consider Plaintiffs’
standing to assert challenges to each of the provisions
at issue in turn.
1. The Challenge to §§ 1913 and 1914
We first conclude that none of the Plaintiffs have
standing to assert an equal protection challenge to
§§ 1913 and 1914. The district court concluded that
§ 1913(d), which allows a parent to petition the court
to vacate a final decree of adoption on the ground that

59a
consent was obtained through fraud or duress, left the
Brackeens’ adoption of A.L.M. vulnerable to collateral
attack for two years following the final judgment. Defendants argue that § 1914,12 and not § 1913(d), applies to the Brackeens’ state court proceedings and
that, in any event, any injury premised on potential
future collateral attack under either provision is too
speculative.
We need not decide which provision applies here,
as none of the Individual Plaintiffs have suffered an
injury under either provision.13 Plaintiffs do not assert that the biological parents of any Indian child,
any tribe, or any other party are currently seeking or
intend in the future to invalidate the adoption of any
of their adopted children under either provision.
Plaintiffs’ proffered injury under § 1913(d) or § 1914
is therefore too speculative to support standing. See
Lujan, 504 U.S. at 560; see also Clapper v. Amnesty

12

“Any Indian child who is the subject of any action for foster
care placement or termination of parental rights under State
law, any parent or Indian custodian from whose custody such
child was removed, and the Indian child’s tribe may petition any
court of competent jurisdiction to invalidate such action upon a
showing that such action violated any provision of sections 1911,
1912, and 1913 of this title.” 25 U.S.C. § 1914.
13
State Plaintiffs argue that they have standing to bring an
equal protection challenge in parens patriae on behalf of citizens
other than the Individual Plaintiffs. We disagree. See South
Carolina v. Katzenbach, 383 U.S. 301, 324 (1966) (“[A] State
[does not] have standing as the parent of its citizens to invoke
[the Fifth Amendment Due Process Clause] against the Federal
Government, the ultimate parens patriae of every American citizen.”).

60a
Int’l USA, 568 U.S. 398, 409, 414 n.5 (2013) (“[T]hreatened injury must be certainly impending to constitute
injury in fact, and . . . allegations of possible future injury are not sufficient. . . . . Plaintiffs cannot rely on
speculation about the unfettered choices made by independent actors not before the court.” (internal quotation marks, citations, and alterations omitted)).
Plaintiffs and JUDGE DUNCAN cite Time Warner
Cable, Inc. v. Hudson for the proposition that “unequal positioning” before the law is sufficient to constitute an injury. 667 F.3d 630 (5th Cir. 2012) (internal
quotation marks and citation omitted); see DUNCAN,
CIRCUIT JUDGE, OP. at 19-20 & n.30. But that case is
inapposite.
In Time Warner, this court considered whether
standing was satisfied when incumbent Texas cable
operators that had franchise agreements to provide
services to municipalities across the state brought an
equal protection challenge to a Texas law that excluded them from a benefit afforded to other similarly
situated cable operators. 667 F.3d at 633-34. The
Texas legislature had concluded that the cost of negotiating separate municipal franchise agreements
posed a barrier for new companies seeking to enter the
cable services market. Id. The Texas legislature responded by passing a law that permitted new entrants
to the market and “overbuilders”—companies that
build their own cable systems in areas already served
by a cable operator—to obtain statewide franchises
immediately. Id. Incumbent cable providers, however, were ineligible for statewide franchises until after the expiration of their existing municipal licenses.
Id. at 634.

61a
This court concluded that the incumbent operators had alleged a sufficiently actual or imminent injury because the statute was presently preventing incumbent cable providers from competing for the
statewide franchises on equal footing with other market participants. Id. at 636. The incumbent cable providers would have been denied statewide licenses under the law if they had applied for them prior to the
expiration of their existing municipal licenses, and
submitting an application for a state-issued franchise
license was wholly within the incumbent providers’
power. In this way, the incumbent providers’ claim
satisfied Article III requirements, as the law erected
an actual barrier to companies already providing cable services that otherwise would be immediately free
to seek a statewide franchise. Id.; see also Northeastern Florida Chapter of Assoc. Gen. Contractors of
America v. City of Jacksonville, 508 U.S. 656, 666
(1993) (in challenging a governmental program setting aside a certain percentage of contracts for minority-owned businesses, plaintiff must “demonstrate
that it is able and ready to bid on contracts and that a
discriminatory policy prevents it from doing so on an
equal basis” (emphasis added)).
By contrast, Plaintiffs’ challenges here to
§§ 1913(d) and 1914 rest on the purely theoretical actions of potential third parties who may (or may not)
invoke these provisions. Cf. Clapper, 568 U.S. at 414
n.5. This case is not like Time Warner, but rather Barber v. Bryant, in which a group of LGBT individuals
and advocacy organizations brought an equal protection challenge to a Mississippi statute that permitted
parties accused of LGBT discrimination to assert their
sincerely held religious opposition as a defense. 860

62a
F.3d 345, 351 (5th Cir. 2017). This court found that,
like in the present case, the Barber plaintiffs lacked
standing to bring their equal protection challenge because any hypothetical future injury they would suffer
under the statute was entirely dependent on unknown
third-parties choosing to undertake a course of conduct purportedly authorized by the statute—there,
discrimination against the plaintiffs. Id. at 357.
JUDGE DUNCAN selectively quotes from Barber to argue that the court based its decision only on the fact
that the plaintiffs had not alleged that they intended
to engage in the activities in relation to which the Mississippi statute provided a discrimination defense.
DUNCAN, CIRCUIT JUDGE, OP. at 19 n.30. But the Barber court plainly stated that, “[a]t a minimum, the
challengers would have to allege plans to engage in
[the] conduct in Mississippi for which they would be
subject to a denial of service and would be stripped of
a preexisting remedy for that denial.” Barber, 860
F.3d at 358 (emphasis added). In the absence of allegations that a third party would take advantage of the
statute to act in a way that would harm the plaintiffs,
the plaintiffs failed to assert the type of imminent injury necessary to support standing on their equal protection claim.14
In much the same way, the Plaintiffs here allege
only that a third party could come along and challenge
14
The Barber plaintiffs also raised an Establishment Clause
challenge to the statute, a separate issue not presented here and
about which we express no opinion. See Barber, 860 F.3d at 356
(“The Equal Protection and Establishment Clause cases call for
different injury-in-fact analyses because the injuries protected
against under the Clauses are different.” (internal quotations
and citations omitted)).

63a
their adoptions under the statute, but they make no
allegations that any party has in fact done so or intends to do so in the future. In other words, these provisions have yet to place any Plaintiff on unequal footing. No harm under the statute has materialized and
no certain injury is imminent, as is required for standing to challenge the provision. Clapper, 568 U.S. at
409. And, to the extent Plaintiffs argue that an injury
arises from their attempts to avoid collateral attack
under § 1914 by complying with §§ 1911 to 1913, costs
incurred to avoid injury are “insufficient to create
standing” where the injury is not certainly impending.
See id. at 416-17. Accordingly, Plaintiffs lack standing to challenge §§ 1913(d) and 1914.
2. The Remaining Equal Protection
Claims
Turning to the Plaintiffs’ remaining claims, we
conclude that the Brackeens have standing to assert
an equal protection claim as to 25 U.S.C. § 1915(a)
and Final Rule §§ 23.129, 23.130, and 23.132, and
that the Cliffords have standing to press this claim as
to § 1915(b) and Final Rule § 23.131. Because at least
one Plaintiff has standing to assert each of these remaining claims, the “case-or-controversy requirement” is satisfied, and we do not analyze whether any
other Individual Plaintiff has standing to raise it. See
Rumsfeld, 547 U.S. at 52 n.2.
First, the Brackeens have standing to challenge
§ 1915(a), ICWA’s adoption placement preferences
provision. As Plaintiffs argue, § 1915’s placement
preferences impose on them the ongoing injury of increased regulatory burdens in their proceedings to
adopt A.L.M.’s sister, Y.R.J., which the Navajo Nation

64a
currently opposes in Texas state court. “An increased
regulatory burden typically satisfies the injury in fact
requirement.” Contender Farms, L.L.P. v. U.S. Dep’t
of Agric., 779 F.3d 258, 266 (5th Cir. 2015). However,
we must also consider whether causation and redressability are met here. See Lujan, 504 U.S. at 560-61.
The Brackeens’ alleged injury is fairly traceable to the
actions of at least some of the Federal Defendants,
who bear some responsibility for the regulatory burdens imposed by ICWA and the Final Rule. See Contender Farms, L.L.P., 779 F.3d at 266 (noting that
causation “flow[s] naturally from” a regulatory injury). Additionally, the Brackeens have demonstrated
a likelihood that their injury will be redressed by a
favorable ruling of this court. In the Brackeens’ ongoing proceedings to adopt Y.R.J., the Texas trial court
has indicated that it will refrain from ruling on the
Brackeens’ federal constitutional claims pending a
ruling from this court.15
15

We also conclude that the Brackeens have maintained standing throughout the course of the litigation. The Brackeen’s initial complaint, filed in October 2017, alleged that they intended
to adopt A.L.M. In January 2018, the Brackeens completed their
adoption of A.L.M. in state court. In March 2018, they filed a
second amended complaint wherein they alleged that they “intend[ed] to provide foster care for, and possibly adopt, additional
children in need.” Several months later, in September 2018, the
Brackeens undertook efforts to adopt Y.R.J, and they supplemented the district court record in October 2018 with exhibits
evidencing these efforts. The injury alleged in the Brackeens’
second amended complaint was sufficiently imminent to support
standing, in part, because the regulatory burdens they claimed
ICWA imposed on their first adoption constitute “evidence bearing on whether” they faced “a real and immediate threat of repeated injury.” City of Los Angeles v. Lyons, 461 U.S. 95, 102
(1983) (internal quotation marks omitted). That the Brackeens’

65a
Our esteemed colleague JUDGE COSTA disagrees
that the likelihood that the Texas trial court will follow our interpretation of ICWA is sufficient to satisfy
Article III’s redressability requirements and asserts
that we are rendering an advisory opinion on this issue. COSTA, CIRCUIT JUDGE, OP. at 2-4. But “Article
III does not demand a demonstration that victory in
court will without doubt cure the identified injury.”
Teton Historic Aviation Found. v. DOD, 785 F.3d 719,
727 (D.C. Cir. 2015). The plaintiff must show only
that its injury is “likely to be redressed by a favorable
decision.” Vill. of Arlington Heights, v. Metro. Hous.
Dev. Corp., 429 U.S. 252, 262 (1977). By stating that
it will defer to our ruling, the Texas court has removed
any need “to engage in undue speculation as a predi-

asserted injury was not too conjectural to support standing is
confirmed by their later attempted adoption of Y.R.J. See Hargrave v. Vermont, 340 F.3d 27, 33034 (2d Cir. 2003) (plaintiff’s
claims that she would be subject to a state law even though a
state court had refused to enforce the law were not speculative
in light of state Supreme Court’s ruling following the filing of
plaintiff’s federal complaint that the law could go into effect).
Further, in this case, promoting judicial economy counsels in favor of construing the Brackeens’ supplemental filing as correcting any defect in the pleading,permitting both the court and the
parties to “circumvent ‘the needless formality and expense of instituting a new action when events occurring after the original
filing indicate[] a right to relief.’” Northstar Fin. Advisors Inc. v.
Schwab Investments, 779 F.3d 1036, 1044 (9th Cir. 2015) (quoting WRIGHT, MILLER, & KANE, FEDERAL PRACTICE AND PROCEDURE: CIVIL 3D § 1505)). Therefore, even if the Brackeens had
lacked standing at some point during the district court litigation,
their supplementation of the record with information related to
their attempted adoption of Y.R.J. cured any defect. See
Mathews v. Diaz, 426 U.S. 67, 75 (1976).

66a
cate for finding that the plaintiff has the requisite personal stake in the controversy.” Id. at 261-62. Instead, the Texas court’s statement has made it all but
certain that a decision in the Brackeens’ favor will redress their purported injuries. See Evans v. Michigan,
568 U.S. 313, 325-26 (2013) (“We presume here, as in
other contexts, that courts exercise their duties in
good faith.”). Article III’s redressability requirements
are met with respect to the Brackeens’ claim, meaning
at least one Plaintiff has standing to bring an equal
protection claim challenging § 1915(a) and Final Rule
§§ 23.129 to 23.132. See Lujan, 504 U.S. at 560-61;
Rumsfeld, 547 U.S. at 52 n.2.
Similarly, the Cliffords have standing to challenge
§ 1915(b), ICWA’s foster care and preadoptive placement preferences, and Final Rule § 23.131.16 The
Cliffords have clearly alleged an injury due to this provision; they fostered Child P., but, pursuant to
16
The Cliffords also challenged § 1915(a). We need not address
this challenge, however, as we have already concluded that the
Brackeens—and thus all Plaintiffs—have standing to challenge
this provision. See Rumsfeld, 547 U.S. at 52 n.2 (“[T]he presence
of one party with standing is sufficient to satisfy Article III’s
case-or-controversy requirement.”). In addition, the parties contest whether the Cliffords’ claim is subject to issue preclusion.
Because issue preclusion is an affirmative defense, it does not
implicate our standing analysis. See, e.g., In re Senior Cottages
of Am., LLC, 482 F.3d 997, 1003 (8th Cir. 2007) (“Whether a
party has standing to bring claims and whether a party’s claims
are barred by an equitable defense are two separate questions,
to be addressed on their own terms.” (quoting Official Comm. of
Unsecured Creditors v. R.F. Lafferty & Co., 267 F.3d 340, 346 (3d
Cir. 2001))); WRIGHT & MILLER, 13A FED. PRAC. & PROC. JURIS.
§ 3531 (3d ed.) (“Affirmative defenses against the claims of others are not likely to raise ‘standing’ concerns.”).

67a
§ 1915(b)’s placement preferences, Child. P. was removed from their custody and placed with her maternal grandmother, a member of the White Earth Band.
Like the Brackeens’ alleged injury, the Cliffords’ injury is fairly traceable to some of the Federal Defendants given their responsibility for the burdens imposed by § 1915(b). Finally, a declaration by the district court that § 1915(b) violates equal protection
would redress the Cliffords’ injury. Since Child P. has
not yet been adopted, the Cliffords may still petition
for custody. Though no state court—whether within
this circuit or in the Cliffords’ home state of Minnesota—is bound by a decree of this court, we conclude
that it is “substantially likely that [a state court]
would abide by an authoritative interpretation” of
ICWA by this court, “even though [it] would not be directly bound by such a determination.” Franklin v.
Massachusetts, 505 U.S. 788, 803 (1992). Thus, a favorable ruling “would at least make it easier for” the
Cliffords to regain custody of Child P. Duarte ex rel.
Duarte v. City of Lewisville, 759 F.3d 514, 521 (5th
Cir. 2014). In sum, Plaintiffs have standing to challenge § 1915(a) and (b) and Final Rule §§ 23.129 to
23.132.
B. Standing to Bring Administrative
Procedure Act Claim
Plaintiffs also bring APA challenges to the Final
Rule promulgated by the BIA. They assert that the
Final Rule violates the APA because ICWA does not
authorize the Secretary of the Interior to promulgate
binding rules and regulations and also contend that
the Final Rule’s construction of § 1915 is invalid. The
district court ruled that State Plaintiffs had standing

68a
to bring APA claims, determining that the Final Rule
injured State Plaintiffs by intruding upon their interests as quasi-sovereigns to control the domestic affairs
within their states.17 A state may be entitled to “special solicitude” in our standing analysis if the state is
vested by statute with a procedural right to file suit to
protect an interest and the state has suffered an injury to its “quasi-sovereign interests.” Massachusetts
v. EPA, 549 U.S. 497, 518-20 (2007) (holding that the
Clean Air Act provided Massachusetts a procedural
right to challenge the EPA’s rulemaking and that
Massachusetts suffered an injury in its capacity as a
quasi-sovereign landowner due to rising sea levels associated with climate change). Applying Massachusetts, this court in Texas v. United States held that
Texas had standing to challenge the Department of
Homeland Security’s (“DHS”) implementation and expansion of the Deferred Action for Childhood Arrivals
program under the APA. See 809 F.3d 134, 152 (5th
Cir. 2015). This court reasoned that Texas was entitled to special solicitude on the grounds that the APA
created a procedural right to challenge the DHS’s actions, and DHS’s actions affected states’ sovereign interest in creating and enforcing a legal code. See id.
at 152-53.
Likewise, here, the APA provides State Plaintiffs
a procedural right to challenge the Final Rule. See id.;
5 U.S.C. § 702. Moreover, State Plaintiffs allege that
17
The district court also found an injury based on the Social
Security Act’s conditioning of funding on states’ compliance with
ICWA. However, because we find that Plaintiffs have standing
on other grounds, we decline to decide whether they have demonstrated standing based on an alleged injury caused by the Social
Security Act.

69a
the Final Rule affects their sovereign interest in controlling child custody proceedings in state courts. See
Texas, 809 F.3d at 153 (recognizing that, pursuant to
a sovereign interest in creating and enforcing a legal
code, states may have standing based on, inter alia,
federal preemption of state law). Thus, State Plaintiffs are entitled to special solicitude in our standing
inquiry. With this in mind, we find that the elements
of standing are satisfied. If, as State Plaintiffs alleged, the Secretary promulgated a rule binding on
states without the authority to do so, then State Plaintiffs have suffered a concrete injury to their sovereign
interest in controlling child custody proceedings that
was caused by the Final Rule. Additionally, though
state courts and agencies are not bound by this court’s
precedent, a favorable ruling from this court would
remedy the alleged injury to states by making their
compliance with ICWA and the Final Rule optional rather than compulsory. See Massachusetts, 549 U.S. at
521 (finding redressability where the requested relief
would prompt the agency to “reduce th[e] risk” of
harm to the state).
C. Standing to Bring Tenth Amendment
Claims
For similar reasons, the district court found, and
we agree, that State Plaintiffs have standing to challenge provisions of ICWA and the Final Rule under
the Tenth Amendment. The imposition of regulatory
burdens on State Plaintiffs is sufficient to demonstrate an injury to their sovereign interest in creating
and enforcing a legal code to govern child custody proceedings in state courts. See Texas, 809 F.3d at 153.
Additionally, the causation and redressability requirements are satisfied here, as a favorable ruling

70a
would likely redress State Plaintiffs’ asserted injuries
by lifting the mandatory burdens ICWA and the Final
Rule impose on states. See Lujan, 504 U.S. at 560-61.
D. Standing to Bring Nondelegation Claim
Plaintiffs also contend that § 1915(c), which allows a tribe to establish a different order of placement
preferences than the defaults contained in § 1915(a)
and (b), is an impermissible delegation of legislative
power that binds State Plaintiffs. Defendants argue
that State Plaintiffs cannot demonstrate an injury,
given the lack of evidence that a tribe’s reordering of
§ 1915(a) and (b)’s placement preferences has affected
any children in Texas, Indiana, or Louisiana or that
such impact is “real and immediate.” State Plaintiffs
respond that tribes can change ICWA’s placement
preferences at any time and that at least one tribe, the
Alabama-Coushatta Tribe of Texas, has already done
so. We conclude that State Plaintiffs have demonstrated injury and causation with respect to this
claim, as State Plaintiffs’ injury from the AlabamaCoushatta Tribe’s decision to depart from § 1915’s default placement preferences is concrete and particularized and not speculative. See Lujan, 504 U.S. at
560. And given that the Alabama-Coushatta Tribe
has already filed their reordered placement preferences with Texas’s Department of Family and Protective Services, Texas faces a “substantial risk” that its
claimed injury will occur. Susan B. Anthony List v.
Driehaus, 573 U.S. 149, 158 (2014) (“An allegation of
future injury may suffice if the threatened injury is
‘certainly impending,’ or there is a ‘substantial risk
that the harm will occur.’” (internal quotation marks
omitted) (quoting Clapper, 568 U.S. at 409, 414 n.5)).

71a
Moreover, a favorable ruling from this court would redress State Plaintiffs’ injury by making a state’s compliance with a tribe’s alternative order of preferences
under § 1915(c) optional rather than mandatory. See
id.
II. Facial Constitutional Challenges to ICWA
Having determined that State Plaintiffs have
standing oton the aforementioned claims, we proceed
to the merits of these claims. We note at the outset
that ICWA is entitled to a “presumption of constitutionality” and “[d]ue respect for the decisions of a coordinate branch of Government demands that we invalidate a congressional enactment only upon a plain
showing that Congress has exceeded its constitutional
bounds.” United States v. Morrison, 529 U.S. 598, 607
(2000) (citing United States v. Harris, 106 U.S. 629,
635 (1883)).
A. Preemption and Anticommandeering
The district court ruled, and Plaintiffs argue on
appeal, that 25 U.S.C. §§ 1901-2318 and 1951-5219 exceed Congress’s constitutional powers by violating the

18

Title 25 U.S.C. §§ 1901-03 sets forth Congress’s findings, declaration of policy, and definitions. Sections 1911-23 govern child
custody proceedings, including tribal court jurisdiction, notice requirements in involuntary and voluntary state proceedings, termination of parental rights, invalidation of state proceedings,
placement preferences, and agreements between states and
tribes.
19
Section 1951 sets forth information-sharing requirements for
state courts. Section 1952 authorizes the Secretary of the Interior to promulgate rules and regulations that are necessary for
ICWA’s implementation.

72a
anticommandeering doctrine and accordingly do not
preempt any conflicting state law. We review de novo
the constitutionality of a federal statute. See United
States v. Perez-Macias, 335 F.3d 421, 425 (5th Cir.
2003).
We start our discussion by explaining the principles underpinning two intertwined areas of constitutional law: preemption and anticommandeering.
First, preemption. This concept is derived from the
Supremacy Clause of the Constitution, which provides
that “[t]his Constitution, and the Laws of the United
States which shall be made in Pursuance thereof[] . . .
shall be the supreme Law of the Land; and the Judges
in every State shall be bound thereby, any Thing in
the Constitution or Laws of any State to the Contrary
notwithstanding.” U.S. CONST. art. VI, cl. 2; see also
Crosby v. Nat’l Foreign Trade Council, 530 U.S. 363,
372 (2000) (“A fundamental principle of the Constitution is that Congress has the power to preempt state
law.”). Therefore, when “Congress enacts a law that
imposes restrictions or confers rights on private actors” and a “state law confers rights or imposes restrictions that conflict with the federal law,” under the
Supremacy Clause, “the federal law takes precedence
and the state law is preempted.” Murphy v. NCAA,
138 S. Ct. 1461, 1480 (2018). “Even without an express provision for preemption . . . state law is naturally preempted to the extent of any conflict with a
federal statute.” Crosby, 530 U.S. at 372.
The anticommandeering doctrine, by contrast, is
rooted in the Tenth Amendment, which states that
“[t]he powers not delegated to the United States by
the Constitution, nor prohibited by it to the States, are
reserved to the States respectively, or to the people.”

73a
U.S. CONST. amend. X. Congress’s legislative powers
are limited to those enumerated under the Constitution, and “conspicuously absent from the list of powers
given to Congress is the power to issue direct orders
to the governments of the States.” Murphy, 138 S. Ct.
at 1476. “Where a federal interest is sufficiently
strong to cause Congress to legislate, it must do so directly; it may not conscript state governments as its
agents.” Id. at 1477 (quoting New York v. U.S., 505
U.S. 144, 178 (1992)).
In the present context, these two doctrines—
preemption and anticommandeering—represent opposite sides of the same coin. See New York, 505 U.S.
at 156 (explaining that in cases “involving the division
of authority between federal and state governments,”
the dual inquiries as to whether a congressional enactment is authorized under Article I or violates the
Tenth Amendment “are mirror images of each other”).
This is because for a federal law to preempt conflicting
state law, two conditions must be satisfied. First, the
federal law “must represent the exercise of a power
conferred on Congress by the Constitution.” Murphy,
138 S. Ct. at 1479. Second, since the Constitution
“confers upon Congress the power to regulate individuals, not States,” New York, 505 U.S. at 166, the provision at issue must be a regulation of private actors.
Murphy, 138 S. Ct. at 1479. As discussed in more detail infra, a law does not fail this second inquiry
simply because it also regulates states that participate in an activity in which private parties engage.
Id. at 1478. Rather, the key question is whether the
law establishes rights enforceable by or against private parties. See id. at 1480 (citing Morales v. Trans
World Airlines, Inc., 504 U.S. 374, 391 (1992)). When

74a
a federal law fails this second step by directly commanding the executive or legislative branch of a state
government to act or refrain from acting without commanding private parties to do the same, it violates the
anticommandeering doctrine.20 See, e.g., New York,
505 U.S. at 188 (stating that “[t]he Federal Government may not compel the States to enact or administer a federal regulatory program”); Printz v. United
States, 521 U.S. 898, 932 (1997). On the other hand,
if Congress enacts a statute pursuant to an enumerated power and the statute does not violate the anticommandeering doctrine or another constitutional
provision, then the federal law necessarily has
preemptive force.21
20
Though Congress is prohibited from commandeering states’
legislatures and executive officers, it can “encourage a State to
regulate in a particular way, or . . . hold out incentives to the
States as a method of influencing a State’s policy choices.” New
York, 505 U.S. at 166. For example, Congress may condition the
receipt of federal funds under its spending power. See id. at 167.
Some of the Defendants contend that ICWA is authorized under
Congress’s Spending Clause powers because Congress conditioned federal funding in Title IV-B and E of the Social Security
Act on states’ compliance with ICWA. However, because we conclude that ICWA is constitutionally permissible even if its provisions are construed as mandatory, we need not reach the question of whether it is justified as an optional incentive program in
which states voluntarily participate.
21

Of course, like any other unconstitutional law, a federal statute that violates the anticommandeering doctrine exceeds Congress’s legislative authority. See New York, 505 U.S. at 155-56.
The Court has stated, however, that a statute is beyond Congress’s Article I power for purposes of the preemption analysis
either when the statute does not “represent the exercise of a
power conferred on Congress by the Constitution,”—that is,
when it addresses a subject matter that is not included in the

75a
1. Article I Authority
We first address whether ICWA represents a valid
exercise of Congress’s Article I power. “Proper respect
for a co-ordinate branch of the government requires
the courts of the United States to give effect to the
presumption that congress will pass no act not within
its constitutional power. This presumption should
prevail unless the lack of constitutional authority to
pass an act in question is clearly demonstrated.” Harris, 106 U.S. at 635.

powers that the Constitution grants the federal government—or
when the statute breaches the anticommandeering doctrine, regardless of the subject matter addressed by the legislation. See
Murphy, 138 S. Ct. at 1479. These are two distinct inquires. Otherwise, Congress could never violate the anticommandeering
doctrine when regulating in a field over which it holds plenary
authority. But the Supreme Court has held that this is not how
the Constitution works. See Reno v. Condon, 528 U.S. 141, 142
(2000) (stating that, “in New York [v. United States, 505 U.S. 144
(1992)] and Printz [v. United States, 521 U.S. 898 (1997)], the
Court held that federal statutes were invalid, not because Congress lacked legislative authority over the subject matter, but because those statutes violated” the anticommandeering doctrine);
cf., e.g., Seminole Tribe of Florida v. Florida, 517 U.S. 44 (1996)
(explaining that “[e]ven when the Constitution vests in Congress
complete law-making authority over a particular area,” that authority is subject to other constitutional constraints); Williams v.
Rhodes, 393 U.S. 23, 29 (1968) (“[T]he Constitution is filled with
provisions that grant Congress . . . specific power[s] to legislate
in certain areas; these granted powers are always subject to the
limitation that they may not be exercised in a way that violates
other specific provisions of the Constitution.”). We therefore address separately whether ICWA is within the range of subject
matter on which Article I authorizes Congress to legislate and
whether the law violates the anticommandeering inquiry.

76a
The district court concluded that Congress overstepped its powers in enacting ICWA by breaching the
anticommandeering doctrine, but it never addressed
whether the Act fell within Congress’s Article I power
separate and apart from any supposed anticommandeering violation. On appeal, Plaintiffs squarely argue that Congress exceeded its authority—without respect to any anticommandeering violation—in enacting ICWA.22 For the reasons that follow, we disagree.
The historical development of the federal Indian
affairs power is essential to understanding its sources
and scope. See Heller, 554 U.S. at 581. Earlier, we
reviewed the Framers’ dissatisfaction with the untenable division of authority over Indian affairs between
the states and the national Government under the Articles of Confederation. We explained how this led the
Framers to endow the national government with exclusive, plenary power in regulating Indian affairs under the new Constitution. See supra Background Part
I. This intent, we observed, is revealed through a holistic reading of the Constitution; the combination of
the charter’s Treaty, Property, Supremacy, Indian
22
“[A] court of appeals sits as a court of review, not of first
view.” Montano v. Texas, 867 F.3d 540, 546 (5th Cir. 2017). Notwithstanding this general rule, “there are circumstances in
which a federal appellate court is justified in resolving an issue
not passed on below, as where the proper resolution is beyond
any doubt, or where injustice might otherwise result.” Singleton
v. Wulff, 428 U.S. 106, 121 (1976) (cleaned up). Given the extensive litigation and the substantial and exceptional briefing from
both the parties and amici, we conclude that it would work an
injustice at this juncture not to resolve the question of Congress’s
authority to enact ICWA. See id. Moreover, we ultimately conclude that the proper resolution of the question is beyond any
doubt.

77a
Commerce, and Necessary and Proper Clauses,
among other provisions, operate to bestow upon the
federal government supreme power to deal with the
Indian tribes. See Ablavsky, Beyond the Indian Commerce Clause, supra at 1043-44. Understandably,
then, the Supreme Court has consistently characterized the federal government’s Indian affairs power in
the broadest possible terms. See, e.g., United States v.
Lara, 541 U.S. 193, 200 (2000) (noting that the Indian
Commerce and Treaty Clauses are sources of Congress’s “plenary and exclusive” “powers to legislate in
respect to Indian tribes”); Ramah Navajo Sch. Bd.,
Inc. v. Bureau of Revenue of N.M., 458 U.S. 832, 837
(1982) (discussing Congress’s “broad power . . . to regulate tribal affairs under the Indian Commerce
Clause”); White Mountain Apache Tribe v. Bracker,
448 U.S. 136, 142 (1980) (same); Santa Clara Pueblo
v. Martinez, 436 U.S. 49, 72 (1978) (“As we have repeatedly emphasized, Congress’ authority over Indian
matters is extraordinarily broad . . . .”); Mancari, 417
U.S. at 551-52 (noting that “[t]he plenary power of
Congress to deal with the special problems of Indians
is drawn both explicitly and implicitly from the Constitution itself”).
Conversely, the Constitution totally displaced the
states from having any role in these affairs and “divested [them] of virtually all authority over Indian
commerce and Indian tribes.” Seminole Tribe of Fla.
v. Florida, 517 U.S. 44, 62 (1996); see also Ablavsky,
Beyond the Indian Commerce Clause, supra at 104344 (noting that the federal government’s Indian affairs powers collectively amounted to what presentday doctrine terms field preemption). Responding to
the problem under the Articles of Confederation of

78a
states openly flouting the federal strategy with respect to the Indians, the Framers specifically intended
that the Constitution would prevent the states from
exercising their sovereignty in a way that interfered
with federal Indian policy. See William C. Canby,
§ 2.1 AMERICAN INDIAN LAW IN A NUTSHELL, (7th Ed.)
[hereinafter CANBY, AMERICAN INDIAN LAW]. As in its
dealings with foreign nations, it was important that
the United States speak with one voice in making
peace with or deploying military force against the Indians without being undercut by the various contrary
policies individual states might adopt if left to their
own devices.
The writings and actions of both the Washington
Administration and the First Congress amply demonstrate this early conception of the national Government as having primacy over Indian affairs. President George Washington himself explained in a letter
to the Governor of Pennsylvania that the federal Government, under the new Constitution, “possess[ed]
the only authority of regulating an intercourse with
[the Indians], and redressing their grievances.” Letter from George Washington to Thomas Mifflin (Sept.
4, 1790), in 6 THE PAPERS OF GEORGE WASHINGTON:
PRESIDENTIAL SERIES 188, 189 (Mark A. Mastromarino ed., 1996). And the First Congress reinforced
this exceptionally broad understanding of federal authority through the adoption of the Indian Intercourse
Act of 1790, Act of July 22, 1790, §§ 1-3, 1 Stat. 13738. See, e.g., Marsh v. Chambers, 463 U.S. 783, 790
(1983) (“An act ‘passed by the first Congress assembled under the Constitution, many of whose members
had taken part in framing that instrument, is contemporaneous and weighty evidence of its true meaning.’”

79a
(alteration omitted) (quoting Wisconsin v. Pelican Ins.
Co., 127 U.S. 265, 297 (1888)). The legislation provided exclusively for federal management of essential
aspects of Indian affairs: the regulation of trade with
Indians, prohibition on purchases of Indian land except by federal agents, and the federalization of
crimes committed by non-Indians against Indians.
See COHEN’S, supra, § 1.03[2]. And early Congresses
repeatedly reaffirmed this expansive understanding
of federal power by reenacting the statute in various
forms throughout the late eighteenth and early nineteenth century. See Act of June 30, 1834, ch. 161, 4
Stat. 729; Act of Mar. 30, 1802, ch. 13, 2 Stat. 139; Act
of Mar. 3, 1799, ch. 46, 1 Stat. 743; Act of May 19,
1796, ch. 30, 1 Stat. 469; Act of Mar. 1, 1793, ch. 19, 1
Stat. 329.
These acts further evince that, from its earliest
days, Congress viewed itself as having an obligation
to sustain the Indians and tribes as a separate people
belonging to separate nations and to protect them
from harm by the states and their inhabitants. See
Lummi Indian Tribe v. Whatcom Cnty., 5 F.3d 1355,
1358 (9th Cir. 1993) (internal citations omitted)
(“Courts considering the [Indian Intercourse] Act’s
purpose have agreed that Congress intended to protect Indians from the ‘greed of other races,’ and from
‘being victimized by artful scoundrels inclined to
make a sharp bargain.’” (first quoting United States v.
Candelaria, 271 U.S. 432, 442 (1926); then quoting
Tuscarora Nation of Indians v. Power Auth., 257 F.2d
885, 888 (2d Cir. 1958), vacated as moot sub nom.,
McMorran v. Tuscarora Nation of Indians, 362 U.S.
608 (1960))); STEPHEN L. PEVAR, THE RIGHTS OF INDIANS AND TRIBES 96 (4th ed. 2012). This duty has deep

80a
historical roots. As related above, the federal Government engaged with the Indians in the decades following ratification as part of its westward expansion project, utilizing not only diplomatic tools like treaties,
but also military might. See supra Background Part
I. By virtue of its manifold and dominant powers over
Indian affairs, the national Government gradually
subjugated the western lands, eventually enveloping
the Indian tribes and extinguishing many aspects of
their external sovereignty, including their ability to
deal with other countries as independent nations.
As a consequence of the Indians’ partial surrender
of sovereign power, the federal Government naturally
took on an attendant duty to protect and provide for
the well-being of the “domestic dependent [Indian] nations.” Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1,
13 (1831) (stating that Indian tribes “look to our government for protection; rely upon its kindness and its
power; appeal to it for relief to their wants”); see also
Mancari, 417 U.S. at 552 (“In the exercise of the war
and treaty powers, the United States overcame the Indians and took possession of their lands, sometimes by
force, leaving them . . . [a] dependent people, needing
protection . . . .” (quoting Bd. of Cnty. Comm’rs v.
Seber, 318 U.S. 705, 715 (1943)); supra Background
Part II. That is, owing to the federal Government’s
expansive Indian affairs powers and the way in which
it has wielded those powers to divest Indians of their
ancestral lands, the Government bears a responsibility to protect the tribes from external threats. Similarly, the Government has an overarching duty to provide for the welfare of tribes. See CANBY, AMERICAN

81a
INDIAN LAW, supra § 3.1; COHEN’S, supra, § 5.04.23
Numerous pieces of Indian federal legislation have
been passed pursuant to this federal duty.24 Indeed,
we know of no court that has found Congress’s power
wanting when Congress has invoked its duty to the
tribes and enacted legislation clearly aimed at keeping its enduring covenant. See, e.g., Mancari, 417 U.S.
551-52 (“Of necessity the United States assumed the
23

As discussed, this obligation has been characterized as akin
to a guardian-ward relationship, or, in more contemporary parlance, a trust relationship. See supra Background Part II; compare Cherokee, 30 U.S. at 13 (referring to the tribes as “domestic
dependent nations” and explaining “[t]heir relation to the United
States resembles that of a ward to his guardian”), with Menominee Indian Tribe of Wis. v. United States, 136 S. Ct. 750, 757
(2016) (noting the “general trust relationship between the United
States and the Indian tribes”) (internal quotation marks omitted).
24
See, e.g., Indian Health Care Improvement Act, 25 U.S.C.
§ 1602 (explaining that the legislation was passed “in fulfillment
of [the Government’s] special trust responsibilities and legal obligations to Indians”); Indian Self-Determination and Education
Assistance Act, 25 U.S.C. § 450a(a) (“The Congress hereby recognizes the obligation of the United States to respond to the strong
expression of the Indian people for self-determination by assuring maximum Indian participation in the direction of educational
as well as other Federal services to Indian communities so as to
render such services more responsive to the needs and desires of
those communities.”); Elementary and Secondary Education Act,
20 U.S.C. § 7401 (“It is the policy of the United States to fulfill
the Federal Government’s unique and continuing trust relationship with and responsibility to the Indian people for the education of Indian children.”); American Indian Agricultural Resource Management Act, 25 U.S.C. § 1307 (“[T]he United States
has a trust responsibility to protect, conserve, utilize, and manage Indian agricultural lands consistent with its fiduciary obligation and its unique relationship with Indian tribes.”).

82a
duty of furnishing . . . protection [to the Indians], and
with it the authority to do all that was required to perform that obligation . . . .” (quoting Seber, 318 U.S. at
715)); Kagama, 118 U.S. at 383-84 (“Indian tribes are
the wards of the nation. They are communities dependent on the United States . . . From their very
weakness and helplessness . . . there arises the duty
of protection, and with it the power. This has always
been recognized by the executive, and by congress,
and by this court, whenever the question has arisen.”);
Perrin v. United States, 232 U.S. 478, 486 (1914) (“It
must also be conceded that, in determining what is
reasonably essential to the protection of the Indians,
Congress is invested with a wide discretion, and its
action, unless purely arbitrary, must be accepted and
given full effect by the courts.”); Worcester, 31 U.S. at
556-57 (explaining that the Constitution vests Congress with broad Indian affairs powers and that Congress has “[f]rom the commencement of our government . . . passed acts to regulate trade and intercourse
with the Indians; which treat the[ tribes] as nations,
respect their rights, and manifest a firm purpose to
afford that protection which treaties stipulate”); Cherokee Nation, 30 U.S. at 13.25
Chief among the external threats to the Indian
tribes were the states and their inhabitants. See
Kagama, 118 U.S. at 384 (The Indian tribes “owe no

25
Though some of the cited cases are permeated with paternalistic overtones and objectionable descriptions of Indians, it is no
less true today than it was centuries ago that the national Government owes an obligation to provide for the welfare of the Indians—and that it is armed with the power to do so. See, e.g.,
Mancari, 417 U.S. 551-52.

83a
allegiance to the states, and receive from them no protection. Because of the local ill feeling, the people of
the states where they are found are often their deadliest enemies.”); CANBY, AMERICAN INDIAN LAW, supra
§ 3.1. And the Supreme Court has long recognized
and repeatedly reaffirmed the federal Government’s
ongoing duty to protect tribes from the states and vice
versa—as well as its power to do so. See Kagama, 118
U.S. at 384; Cherokee Nation, 30 U.S. at 13; Worcester,
31 U.S. at 556-57; Mancari, 417 U.S. 551-52.
In light of the foregoing, ICWA represents the convergence of key aspects of federal Indian law. First,
as Congress expressly noted in its congressional findings, ICWA was enacted pursuant to the “plenary
power over Indian affairs” that the Constitution
places in the federal government.26 25 U.S.C.
§ 1901(1). This authority is exclusive to the federal
government, and the Framers specifically intended to
prevent the states from interfering with its exercise,
either by taking their own disparate stances in dealing with tribal governments or by otherwise exercising their sovereignty in a manner contrary to federal
26
We find it notable that, in enacting ICWA, Congress explicitly contemplated whether it was constitutionally authorized to
do so. See H.R. REP. No. 95-1386, at 13-15 (discussing the constitutionality of ICWA, including that ICWA falls within Congress’s
plenary power over Indian affairs); Rostker v. Goldberg, 453 U.S.
57, 64 (1981) (“The customary deference accorded the judgments
of Congress is certainly appropriate when, as here, Congress specifically considered the question of the Act’s constitutionality.”).
Though this judgment is not dispositive, we grant it due deference. See Perrin, 232 U.S. at 486 (“[I]n determining what is reasonably essential to the protection of the Indians, Congress is invested with a wide discretion[.]”).

84a
Indian policy. See Seminole Tribe of Fla., 517 U.S. at
62; Ablavsky, Beyond the Indian Commerce Clause,
supra at 1043-44. Just as the Constitution was meant
to preclude the states from undertaking their own
wars or making their own treaties with the Indian
tribes, see James Madison, Vices of the Political System of the United States, in 9 THE PAPERS OF JAMES
MADISON 345, 348 (Robert A. Rutland et al. eds.,
1975), so too does it empower the federal government
to ensure states do not spoil relations with the Indian
tribes through the unwarranted taking and placement
of Indian children in non-Indian foster and adoptive
homes.27 As with the federal government’s dealings
27

JUDGE DUNCAN contends that the principle that the federal
government may prevent states from interfering with federal
policy toward the tribes does not apply here because ICWA does
not totally exclude states from Indian child custody proceedings.
He contends that ICWA instead “does the opposite of ‘excluding’”
by “leav[ing] many adoptions under state jurisdiction . . . while
imposing ‘Federal standards’ on those state proceedings.” DUNCAN, CIRCUIT JUDGE, OP. at 48 (citing §§ 1911(b) & 1902). But
JUDGE DUNCAN’s suggestion that ICWA “co-opts” the machinery
of state courts in service to the federal government is highly misleading. DUNCAN, CIRCUIT JUDGE, Op. at 49. Far from pressing
the states into federal service, ICWA minimizes any intrusion on
state sovereignty by permitting states to exercise some jurisdiction over Indian Child custody proceedings so long as the state
courts respect the federal rights of Indian children, families, and
tribes. Section “1911(a) establishes exclusive jurisdiction in the
tribal courts for proceedings concerning an Indian child who resides or is domiciled within the reservation.” Holyfield, 490 U.S.
at 36 (internal quotation marks omitted) (emphasis added). And
while Section 1911(b) allows states to exercise some concurrent
jurisdiction over cases involving “children not domiciled on the
reservation,” it establishes that jurisdiction over such proceedings still “presumptively” lies with the tribal courts. Id. at 36
(internal quotation marks omitted) (emphasis added). This

85a
with any other nation, the Constitution dictates that
the government address relations with the Indian
tribes on behalf of the nation as a whole without state
interference, be it with respect to war making, peace
treaties, or child custody practices.
Second, ICWA falls within the federal government’s continuing trust relationship with the tribes,
which includes a specific obligation to protect the
tribes from the states. We earlier recounted the arbitrary and abusive child removal and assimilation
practices that led Congress to conclude that it was
necessary and proper for it to enact ICWA. See supra
Background Part IV-V; see also Antoine, 420 U.S. at
203. Briefly stated, throughout the late nineteenth
and well into the twentieth century, the federal government was intimately involved in programs ostensibly to “educate” Indian children at off-reservation
schools that sought to imbue them with white Christian values and permanently shed them of and sever
them from their tribal heritage. Although the federal
Government eventually discontinued this assimilationist policy, Congress found that abusive Indian
child custody practices continued at the state level, often leading to the “wholesale” and unwarranted removal of Indian children from their homes by state
child welfare agencies and adjudicatory bodies, see

means that, except in limited circumstances, the case may remain in state court only with the consent of the Indian child’s
parents, custodian, and tribe. See § 1911(b). This is all to say,
that the statute allows states to participate in an activity that is
presumptively and could wholly be reserved to the tribes or the
federal government is an indulgence of state interests, not an invasion thereof.

86a
H.R. REP. No. 95-1386, at 9; see also Indian Child Welfare Act of 1977: Hearing Before the S. Select Committee on Indian Affs., 95th Cong. 320 (1977) (statement
of James Abourezk, Chairman, S. Select Comm. on Indian Affs.) (describing the massive removal as resulting in “cultural genocide”). Congress heard and received extensive evidence on this plundering of tribal
communities’ children, including testimony that the
vast removal of Indian children from their homes and
communities constituted an existential threat to
tribes. See 124 CONG. REC. 38,103 (1978) (statement
of Minority sponsor Rep. Robert Lagomarsino) (“For
Indians generally and tribes in particular, the continued wholesale removal of their children by nontribal
government and private agencies constitutes a serious
threat to their existence as on-going, self-governing
communities.”); see also H.R. REP. No. 95-1386, at 910 (declaring that the removal of Indian children was
a “crisis of massive proportions,” representing “perhaps the most tragic and destructive aspect of Indian
life”).
After reviewing this testimony and evidence concerning the massive removal of Indian children from
their tribal communities by the states, Congress
found that “there is no resource that is more vital to
the continued existence and integrity of Indian tribes
than their children”; “that an alarmingly high percentage of Indian families are broken up by the removal, often unwarranted, of their children from them
by nontribal public and private agencies”; and “that
an alarmingly high percentage of such children are
placed in non-Indian foster and adoptive homes and
institutions.” 25 U.S.C. § 1901(3)-(4). And Congress
directly attributed this threat to the states “exercising

87a
their recognized jurisdiction over Indian child custody
proceedings through administrative and judicial bodies,” observing that they had “often failed to recognize
the essential tribal relations of Indian people and the
cultural and social standards prevailing in Indian
communities and families.” Id. § 1901(5).
Thus, ICWA also falls within Congress’s “plenary
powers to legislate on the problems of Indians” in order to fulfill its enduring trust obligations to the
tribes. Antoine, 420 U.S. at 203. Indeed, the congressional findings in the statute expressly invoke this
“responsibility for the protection and preservation of
Indian tribes and their resources” and state “that the
United States has a direct interest, as trustee, in protecting Indian children.” 25 U.S.C. § 1901(2)-(3). The
law was intended to combat an evil threatening the
very existence of tribal communities, and it would be
difficult to conceive of federal legislation that is more
clearly aimed at the Government’s enduring trust obligations to the tribes. Moreover, it fulfills the government’s duty to protect the tribes from the states by
regulating relations between the two—a power that
the Framers specifically intended that the Constitution bestow on the federal government.28 See CANBY,
28

The opposing opinion misapprehends the significance to our
analysis of the federal government’s history of removing Indian
children from their families and tribes to place them at off-reservation boarding schools. See DUNCAN, CIRCUIT JUDGE, OP. at 5051. In the view of the opposing opinion, that the boarding school
policy began in the latter half of the nineteenth century, and not
the Founding era, means that the federal government’s assimilation policy is irrelevant in determining whether Congress was
authorized to enact ICWA. This is squarely contrary to the Supreme Court’s explicit direction that historical “practice [is] an
important interpretive factor even when the nature or longevity

88a
AMERICAN INDIAN LAW § 2.1 (“The central policy . . .
was one of separating Indians and non-Indians and

of that practice is subject to dispute, and even when that practice
began after the founding era.” Noel Canning, 573 U.S. at 525
(emphasis added). But more importantly, JUDGE DUNCAN’s observation about the start of the boarding school policy misses the
point: Since the Nation’s founding, the federal government has
viewed itself as owing an affirmative duty to promote tribal welfare generally and to provide for Indian children specifically, as
well as having the power to do so—obligations that arise under
what is now described as a trust relationship between the tribes
and the government. See Br. of Prof. Ablavsky at 20 (describing
federal financing of placement of Indian children in Quaker
homes during the Washington administration); see also Fletcher,
FEDERAL INDIAN LAW § 5.2. This relationship, at one time, led the
federal government to pursue misguided policies that harmed
the tribes, including its efforts at assimilating Indian children
through the use of boarding schools during the nineteenth and
twentieth centuries. And decades after the height of the federal
government’s ill-founded promotion of Indian boarding schools,
the states continued to perpetuate the destruction of tribal culture by removing massive numbers of Indian children from the
custody of their parents. See supra Background Part IV-V. In
the face of these abusive child welfare practices and pursuant to
the government’s trust duty to the tribes—which, again, is rooted
in the Nation’s Founding era—Congress enacted ICWA to protect
the tribes. Stated differently, Founding-era history confirms
Congress’s “plenary power[]” and responsibility “to legislate on
the problems of Indians,” Antoine, 420 U.S. at 203, and the history of Indian child removal demonstrates that the unwarranted
breakup of Indian families was such a problem. Congress was
effectuating its trust obligations to the tribes when it acted to
halt the wrongful Indian child custody practices that had once
been carried out by the federal government and were continuing
to be practiced by states at the time of ICWA’s enactment, and
this is exactly what the Constitution empowers the federal government to do.

89a
subjecting nearly all interaction between the two
groups to federal control.”).
Plaintiffs raise several arguments in favor of cabining Congress’s authority to redress the evils attending state child welfare proceedings involving Indian
children. We review their contentions and find them
wanting.
First, seeking to surmount the mountain of case
law sustaining Congress’s plenary authority to regulate with respect to Indians, Plaintiffs point out that
the Court remarked that this power is “not absolute”
in Delaware Tribal Business Committee v. Weeks, 430
U.S. 73, 84 (1977). A cursory review of the cited authority reveals that it affords no support to Plaintiffs’
position. The above-quoted statement was made with
regard to the justiciability of a challenge to Congress’s
“exercise of control over tribal property.” Id. at 83. In
other words, the Court was addressing only whether
it in fact had authority to adjudicate the dispute—not
the extent of Congress’s authority to regulate Indian
tribes. In any event, the Court concluded that the controversy was justiciable and upheld the challenged enactment. Id. at 90. Delaware Tribal Business Committee in no way shackles Congress’s authority to regulate Indian tribes.
Plaintiffs next contend that the meaning of commerce in the Indian and Interstate Commerce Clauses
is equivalent. Plaintiffs thus seek to import Interstate
Commerce Clause jurisprudence into the Indian Commerce Clause in order to limit Congress’s power under
the latter; they argue that the latter clause does not
authorize ICWA because children are not “persons . . .

90a
in commerce” and child custody cases do not substantially affect commerce with Indian tribes. We find
Plaintiffs’ construction of the Indian Commerce
Clause unduly cramped, at odds with both the original
understanding of the clause and the Supreme Court’s
more recent instructions. See Printz, 521 U.S. at 905
(looking to “historical understanding and practice” as
well as “the jurisprudence of this Court” to determine
whether a federal enactment was constitutional).
More fundamentally, the history, text, and structure
of the Constitution demonstrate that the federal Government, including Congress, has plenary authority
over all Indian affairs and that this power is in no way
limited to the regulation of economic activity. And, as
stated, Congress does not derive its plenary power
solely from the Indian Commerce Clause, but rather
from the holistic interplay of the constitutional powers granted to Congress to deal with the Indian tribes
as separate nations. See Ablavsky, Beyond the Indian
Commerce Clause, supra at 1026.
The history refutes Plaintiffs’ attempt to equate
the Interstate and Indian Commerce Clauses. Indeed,
since the framing of the Constitution, “Indian ‘commerce’ [has] mean[t] something different” than “interstate commerce.” Id. The Framers debated and approved the Indian Commerce Clause separately from
the Interstate Commerce Clause, and, during ratification, the clauses were viewed as so distinct in content
that “no one during ratification interpreted the Indian
Commerce Clause to shed light on the Interstate . . .
Commerce Clause[], or vice versa.” Id. at 1027; see
also Matthew L.M. Fletcher, ICWA and the Commerce
Clause, in THE INDIAN CHILD WELFARE ACT AT 30:
FACING THE FUTURE 32 (Fletcher et al. eds., 2009)

91a
[hereinafter Fletcher, ICWA and the Commerce
Clause]. Though both provisions use the term “commerce,” the historical evidence from the time of the
Constitution’s framing indicates that interpreting
“commerce” identically in the Interstate and Indian
Commerce Clauses is a “trap” that “would tend to
obliterate the original meaning and intent of the Indian Commerce Clause.” Fletcher, ICWA and the
Commerce Clause, supra, at 31. Put simply, “[c]ommerce with Indian tribes must be interpreted on its
own terms rather than in the shadow of . . . the Interstate Commerce Clause.” Ablavsky, Beyond the Indian Commerce Clause, supra, at 1028, 1029 (noting
that eighteenth century references to “commerce”
with Indians included the exchange of religious ideas
with tribes and sexual intercourse with Indians); see
also Fletcher, ICWA and the Commerce Clause, supra
at 8-9.
Legislation from the beginning of the Constitutional era further demonstrates that the Constitution
confers synergistic and comprehensive powers on the
federal Government to manage relations with Indian
tribes, regardless of whether the regulated activity is
economic in nature. As noted above, the Indian Intercourse Act of 1790 embraced many noneconomic subjects, including the regulation of criminal conduct by
non-Indians against Indians. In enacting the law, the
First Congress plainly conceived of its power to extend
into regulation of noneconomic activity relating to Indian tribes. See Jack M. Balkin, Commerce, 109 MICH.
L. REV. 1, 24-26 (2010) (discussing the Act and its successors and stating that “Congress clearly believed
that it could reach both economic and noneconomic activity under the Indian Commerce Clause,” given that

92a
the Act reaches noneconomic criminal conduct, such
as murder); see also Akhil Reed Amar, America’s Constitution and the Yale School of Constitutional Interpretation, 115 YALE L.J. 1997, 2004 n.25 (2006). Since
then, Congress has repeatedly exercised its Indian affairs authority for matters far beyond mere economic
exchange. See, e.g., Indian Health Care Improvement
Act, 25 U.S.C. §§ 1601 et seq.; Tribally Controlled
Community College Assistance Act, 25 U.S.C.
§ 1801(7)(B).
Furthermore, “[t]he scope of federal power under
the Indian commerce clause has developed under Supreme Court decisions differently than the powers
over foreign and interstate commerce.” COHEN’S, supra, § 4.01[1][a]. The Court has explicitly underscored the distinction between the clauses, explaining
that “the Indian Commerce Clause accomplishes a
greater transfer of power from the States to the Federal Government than does the Interstate Commerce
Clause.” Seminole Tribe, 517 U.S. at 62 (observing
that, though “the States still exercise some authority
over interstate trade[, they] have been divested of virtually all authority over Indian commerce and Indian
tribes”). In short, it is “well established that the Interstate Commerce and Indian Commerce Clauses
have very different applications”; unlike the former
clause, which “is concerned with maintaining free
trade among the States,” “the central function of the
Indian Commerce Clause is to provide Congress with
plenary power to legislate in the field of Indian affairs.” Cotton Petroleum Corp. v. New Mexico, 490
U.S. 163, 192 (1989) (emphasis added); see also United
States v. Lomayaoma, 86 F.3d 142, 145 (9th Cir. 1996)
(noting that the Indian Commerce clause “confers

93a
more extensive power on Congress than does the Interstate Commerce Clause”). And the Supreme Court
has continually made clear that Congress’s Indian affairs power is not limited to regulating economic activity. See Lara, 541 U.S. at 200 (affirming power of
tribes to criminally prosecute nonmembers); United
States v. Holliday, 70 U.S. (3 Wall.) 407, 410-11, 41617 (1865) (upholding under the Indian Commerce
Clause a federal statute that criminally sanctioned
the sale of liquor to Indians, reasoning that the law
“regulates the intercourse between the citizens of the
United States and [Indian] tribes, which is another
branch of commerce, and a very important one”);
Worcester, 31 U.S. at 559 (explaining that the array of
Indian affairs powers conferred on Congress by the
Constitution “comprehend all that is required for the
regulation of our intercourse with the Indians”). Any
contention that ICWA is beyond Congress’s authority
to legislate with regard to Indian affairs is unfounded.
Alternatively, Plaintiffs argue that, even if the
Constitution grants Congress plenary power with respect to Indian affairs, ICWA nonetheless exceeds
Congress’s legislative authority because it reaches Indian children who are not yet enrolled tribal members.
We find no merit in this argument. Pursuant to its
Indian affairs power, Congress has long regulated
persons without any tribal connection when their conduct affects Indians. See, e.g., Indian Intercourse Act,
§ 1, 1 Stat. 137 (requiring any person who seeks “to
carry on any trade or intercourse with the Indian
tribes” to obtain a license from the federal government); United States v. Mazurie, 419 U.S. 544, 556-58
(1975) (upholding federal criminal statute, passed
pursuant to the Indian Commerce Clause and applied

94a
to non-Indians for conduct on private, non-Indian land
within a reservation). Indeed, “Congress’ plenary
powers to legislate on the problems of Indians” often
results in statutes that impact—and are directly
aimed at—non-Indians. Antoine, 420 U.S. at 203; see
also Dick v. United States, 208 U.S. 340, 357 (1908)
(“As long as these Indians remain a distinct people,
with an existing tribal organization, recognized by the
political department of the government, Congress has
the power to say with whom, and on what terms, they
shall deal . . . .”). This type of regulation has been upheld repeatedly, even when it extends outside the
bounds of the reservation or Indian country. See, e.g.,
United States v. Nice, 241 U.S. 591, 597 (1916) (“The
power of Congress to regulate or prohibit traffic in intoxicating liquor with tribal Indians within a state,
whether upon or off an Indian reservation, is well settled. It has long been exercised, and has repeatedly
been sustained by this court.”) (emphasis added);
United States v. Forty-Three Gallons of Whiskey, 93
U.S. (3 Otto) 188, 195 (1876) (sustaining Congress’s
power to require forfeiture of liquor sold outside of Indian country by a non-Indian to a tribal member); Holliday, 70 U.S. (3 Wall.) at 416-17 (upholding statute
that criminally sanctioned sale of liquor by a non-Indian to an Indian outside of Indian country); COHEN’S,
supra, § 5.01[3] (explaining that the Indian Commerce Clause comprehends “transactions outside of
Indian country.”). Simply put, Congress’s Indian affairs power does not hinge on whether an entity affected by a regulation is a member of an Indian tribe,
and there is no authority in the case law for the novel
constraint on congressional power that Plaintiffs proffer.

95a
JUDGE DUNCAN’s objections to Congress’s power to
enact ICWA center on concerns that the statute impermissibly interferes with state sovereignty by legislating federal protections applicable to Indian children in state child welfare proceedings. He raises
similar contentions when arguing that ICWA contravenes the anticommandeering principle, which we address below in our anticommandeering discussion.
See infra Discussion Part II.A.2. But that issue is distinct from the question of whether Congress under Article I may legislate on the particular subject matter
at issue: providing minimum protections for Indian
children and families in child custody proceedings in
order to prevent and rectify the massive removal of
Indian children from their communities.29 See supra
note 21. To the extent the opposing opinion alleges a
Tenth Amendment violation independent of any anticommandeering problem, centuries of Supreme Court
precedent declaring Congress’s duty to protect tribes
from the states and Congress’s corresponding “plenary power[] to legislate on the problems of Indians”
29
The opposing opinion misreads us as somehow suggesting
that the “Tenth Amendment vanishes” when Congress has plenary power to legislate in a certain field. See DUNCAN, CIRCUIT
JUDGE, OP. at 28. To the contrary, we have explained that the
question of Congress’s Article I authority to legislate on a given
subject matter is separate from the anticommandeering inquiry
and other federalism concerns—as well as other constitutional
constraints on Congress’s legislative authority. See supra note
21. And our analysis therefore tracks this basic understanding
about the distinct constitutional inquiries presented: first, we
address whether ICWA is within the range of Congress’s Indian
affairs authority, and second, we consider whether ICWA contravenes the anticommandeering doctrine. Compare Discussion
Part II.A.1 with Discussion Part.II.A.2.

96a
compel us to reject JUDGE DUNCAN’s arguments for
imposing new restraints on this authority. Antoine,
420 U.S. at 203; see also, e.g., Mancari, 417 U.S. 55152; Kagama, 118 U.S. at 383-84. Indeed, preventing
the states from exercising their sovereign power in a
manner that interferes with federal policy toward the
Indian tribes is precisely what the Constitution was
intended to do. See Worcester, 31 U.S. at 559 (“[The
Constitution] confers on congress the powers of war
and peace; of making treaties, and of regulating commerce with foreign nations, and among the several
states, and with the Indian tribes. These powers comprehend all that is required for the regulation of our
intercourse with the Indians. They are not limited by
any restrictions on their free actions. The shackles
imposed on this power, in the confederation, are discarded.”). It was exactly this concern that led the
Framers to confer on the federal government exclusive, plenary power over Indian affairs through myriad interrelated constitutional provisions. See Ablavsky, Beyond the Indian Commerce Clause at 1043-44.
JUDGE DUNCAN’s argument suffers from another
fundamental defect. His overarching premise is that
ICWA violates the Tenth Amendment—and thus exceeds Congress’s Article I authority—because it “encroaches” on an area of “traditional” state regulation,
the field of domestic relations. DUNCAN, CIRCUIT
JUDGE, OP. at 15, 40 n.58. Yet, as JUDGE HIGGINSON
cogently explains, this assertion is squarely at odds
with the Supreme Court’s decision in Garcia v. San
Antonio Metropolitan Transit Authority, where the
Court emphatically rejected as unprincipled and unadministrable a conception of Tenth Amendment protections that turns on whether a regulated activity is

97a
one that is traditionally within a state’s purview. HIGGINSON, CIRCUIT JUDGE, OP. at 1-2; see Garcia, 469
U.S. 528, 546-47 (1985) (“We therefore now reject, as
unsound in principle and unworkable in practice, a
rule of state immunity from federal regulation that
turns on a judicial appraisal of whether a particular
governmental function is ‘integral’ or ‘traditional.’”)
First, “[t]here is no ‘general doctrine implied in
the Federal Constitution that the two governments,
national and state, are each to exercise its powers so
as not to interfere with the free and full exercise of the
powers of the other.’” Maryland v. Wirtz, 392 U.S.
183, 195 (1968) (quoting Case v. Bowles, 327 U.S. 92,
101 (1946)). Rather, pursuant to the Supremacy
Clause, “the Federal Government, when acting within
a delegated power, may override countervailing state
interests,” whether those interests are labeled traditional, fundamental, or otherwise. Id. In ratifying the
Constitution, the states consented to the subordination of their interests—even those interests that are
traditional state prerogatives—to those of the federal
government when it acts pursuant to its constitutional powers. See Garcia, 469 U.S. at 549. “In the
words of James Madison to the Members of the First
Congress: ‘Interference with the power of the States
was no constitutional criterion of the power of Congress. If the power was not given, Congress could not
exercise it; if given, they might exercise it, although it
should interfere with the laws, or even the Constitution of the States.’” Id. (quoting 2 Annals of Cong.
1897 (1791)).
Moreover, on a more practical level, requiring
courts to attempt to ascertain whether a given area of

98a
regulation is sufficiently within the historical province of states to qualify for protection would “result in
line-drawing of the most-arbitrary sort.” Id. at 545.
“[T]he genesis of state governmental functions
stretches over a historical continuum from before the
Revolution to the present, and courts would have to
decide by fiat precisely how longstanding a pattern of
state involvement had to be for federal regulatory authority to be defeated.” Id. And, as the Garcia Court
observed, aside from longevity, there is a total lack “of
objective criteria” by which to identify unenumerated
“fundamental’ elements of state sovereignty.” Id. at
549.
The Garcia Court therefore held that the entirety
of the constitutional protections for states’ retained
sovereignty in the federalist system are found in the
limitations inherent in Congress’s enumerated Article
I powers30 “in the structure of the Federal government
itself,” which assigns the states a role in, among other
things, selecting the executive and legislative
branches of the federal government. Id. at 550-51.
This structure reflects the Framers’ desire “to protect
the States from overreaching by Congress” through
30
The modern anticommandeering doctrine was developed
post-Garcia, and it is also rooted in the Tenth Amendment’s reservation of state sovereignty. See, e.g., New York, 505 U.S. at
188; Printz, 521 U.S. at 932. And the Court has of course long
recognized that states retain sovereign immunity from most private suits, including in post-Garcia decisions. See, e.g., Seminole
Tribe, 517 U.S. at 47. Garcia, nevertheless, remains good law, as
evidenced by citations to it in the Court’s leading anticommandeering cases, see NewYork, 505 U.S. at 155; Printz, 521 U.S. at
932, meaning the type of unenumerated spheres of state sovereignty JUDGE DUNCAN relies upon simply do not exist.

99a
their participation in the democratic system and the
political process, and not by judicial assessment of
whether a federal practice intrudes on some inviolable
area of state sovereignty that went unmentioned in
the Constitution despite its supposed importance. Id.
In short, Garcia made clear that any “attempt to draw
the boundaries of state regulatory immunity in terms
of ‘traditional governmental function’ is not only unworkable but is also inconsistent with established
principles of federalism.” Id. at 554.
As JUDGE HIGGINSON points out, this is precisely
the type of disfavored line drawing in which JUDGE
DUNCAN’s opinion engages: it erroneously attempts to
shield states from ICWA’s minimum protections on
the ground that the law touches on domestic relations,
a sphere of regulation “traditionally” within the purview of states. HIGGINSON, CIRCUIT JUDGE, OP. at 1-2.
The opposing opinion thus “risks resuscitating a misunderstanding of state sovereignty that entangles
judges with the problematic policy task of deciding
what issues are so inherent in the concept and history
of state sovereignty that they fall beyond the reach of
Congress.” HIGGINSON, CIRCUIT JUDGE, OP. at 2.
Recognizing that Garcia’s reasoning dooms its argument, the opposing opinion attempts to distinguish
that decision based on the fact that the statute at issue in Garcia was enacted pursuant to Congress’s Interstate Commerce Clause authority, whereas ICWA
stems from Congress’s power over Indian affairs. See
DUNCAN, CIRCUIT JUDGE, OP. at 40 n.58. However, the
Garcia Court’s reasoning for expressly rejecting a
Tenth Amendment test that looks to whether a federal
regulation encroaches on a ‘traditional governmental
function’ applies with equal force regardless of the

100a
enumerated power pursuant to which Congress acts.
Moreover, it would be nonsensical for the Tenth
Amendment to impose more stringent federalism limitations on Congress when it regulates under its Indian affairs authority than under its Interstate Commerce power. It is well settled that states retain sovereign authority under the Tenth Amendment “only
to the extent that the Constitution has not divested
them of their original powers and transferred those
powers to the Federal Government,” id. at 549, and
“the Indian Commerce Clause accomplishes a greater
transfer of power from the States to the Federal Government than does the Interstate Commerce Clause.”
Seminole Tribe, 517 U.S. at 62. In other words, if any
distinction exists between the limitations federalism
places on Congress’s Indian affairs power and its Interstate Commerce power, it would be that Congress
has more freedom to regulate with respect to Indian
affairs, not less. See id.; Cotton Petroleum Corp., 490
U.S. at 192; see also Lomayaoma, 86 F.3d 145; Ablavsky, Beyond the Indian Commerce Clause, supra at
1043-44.
The opposing opinion further contends that Garcia is inapposite because that case “concerned
whether ‘incidental application’ of general federal
laws ‘excessively interfered with the functioning of
state governments.’” DUNCAN, CIRCUIT JUDGE, OP. at
40 n.58 (quoting Printz, 521 U.S. at 932). But the
same is true with ICWA. Like the provision of the
Fair Labor Standards Act at issue in Garcia that applied to both public and private employers, ICWA is a
generally applicable law. Under the statute, as explained infra Discussion Part II.A.2.b, any burdens
faced by states are “nothing more than the same . . .

101a
obligations” that “private [actors] have to meet.” Garcia, 469 U.S. at 554. Because ICWA’s mandates may
be borne either by private actors or state actors, any
burdens on states are “merely incidental applications”
of the statute. Printz, 521 U.S. at 932. JUDGE DUNCAN thus fails to persuasively distinguish Garcia, confirming that the opposing opinion’s argument for limiting Congress’s Indian affairs authority under the
Tenth Amendment is “unsound in principle and unworkable in practice.” Garcia, 469 U.S. at 546.
The opposing opinion also posits, in essence, that
Congress’s authority to enact ICWA turns on whether
there is either a Supreme Court decision blessing a
statute that operates just like ICWA or a Foundingera federal law that regulates Indian children and applies within state child welfare proceedings. See DUNCAN, CIRCUIT JUDGE, OP. at 29-56. Because neither
exist, ICWA must fall, according to the opposing opinion. Such reasoning is misguided.
First, it is unsurprising that there is no Foundingera federal Indian statute conferring rights that apply
in state proceedings. As JUDGE COSTA notes, it would
have been anachronistic and bizarre for the early Congresses to have passed a law specifically pertaining to
child custody proceedings because it was not until the
middle of the nineteenth century that state adoption
law shifted to allow for the adjudication of child placements in judicial proceedings. See COSTA, CIRCUIT
JUDGE, OP. at 16-17; see also Naomi Cahn, Perfect
Substitutes or the Real Thing?, 52 DUKE L.J. 1077,
1112-17 (2003). And there was no need during the
Founding era for legislation that operated like ICWA
as there was no massive removal of Indian children

102a
from their families at the hands of state administrative or judicial bodies. It was only during the 1970s
that the scale of the ongoing, state-driven problem of
Indian child removal was brought to Congress’s attention. See supra Background Part IV. Over a four-year
span, Congress considered voluminous evidence of the
systematic removal of Indian children from their families and tribes through state proceedings. Fletcher,
FEDERAL INDIAN LAW, supra § 8.8. Faced with the
unique and alarming nature of this evil, Congress determined it was necessary to enact ICWA in order to
protect Indian children, families, and tribes within
those state proceedings. Thus, deciding ICWA’s constitutionality by looking to whether the Founders enacted a federal law conferring rights to Indian families
and tribes within child custody proceedings is as nonsensical as deciding that federal regulation of the internet is unconstitutional because the early Congresses lacked the prescience to regulate a non-existent technology.
Second, the absence of a Supreme Court decision
squarely addressing a federal Indian statute that creates rights applicable in state proceedings does not
lend credence to the opposing opinion’s position. As
discussed infra Discussion Part II.A.2.a.i, the Supreme Court has repeatedly held that state courts are
bound by the Supremacy Clause to apply validly
preemptive federal law, and there is thus ample Supreme Court precedent supporting Congress’s authority to enact laws applicable in state proceedings. See,
e.g., McCarty v. McCarty, 453 U.S. 210, 235-36 (1981)
(federal military benefits statute guaranteeing “retired pay” to a retired servicemember preempted
state’s community property law that otherwise would

103a
have provided upon divorce for dividing the retirement pay between the former spouses); Hisquierdo v.
Hisquierdo, 439 U.S. 572, 590 (1979) (federal Railroad
Retirement Act’s scheme for pension benefits, which
excluded a spouse of a railroad employee from entitlement to such benefits upon divorce, preempted state
law’s definition of community property subject to division). That there may be no case affirming a federal
statute that creates rights related to Indians that apply in state courts evidences only the history just discussed and the fact that few questioned Congress’s
ability to legislate in this manner given the wealth of
Supreme Court precedents upholding the preemptive
force of federal law. Indeed, ICWA itself has been a
part of the United State Code for over forty years
without a significant Tenth Amendment challenge to
the law reaching the Supreme Court or the courts of
our sister circuits, which would surely be puzzling if
the statute were truly the radical, unprecedented federal overreach that the opposing opinion contends.
Thus, the lack of a Supreme Court case directly addressing an Indian law like ICWA that creates rights
applicable in state court proceedings speaks not to the
absence of federal authority to enact such a statute,
but instead to historical circumstance and federal authority that is so well established as to be unquestionable.
To summarize, ICWA’s constitutionality does not
hinge on JUDGE DUNCAN’s exceptionally pinched framing that would have the statute rise or fall based on
the historical sanctioning of an exact analogue that
Congress would have had no occasion to enact. Rather, the salient question is whether the history and
text of the Constitution and congressional practice

104a
suggest that ICWA is within Congress’s plenary Indian affairs authority. See Noel Canning, 573 U.S. at
533 (“The Founders knew they were writing a document designed to apply to ever-changing circumstances over centuries. After all, a Constitution is ‘intended to endure for ages to come,’ and must adapt
itself to a future that can only be ‘seen dimly,’ if at all.”
(quoting McCulloch v. Maryland, 17 U.S. (4 Wheat)
316, 415 (1819))); Heller, 554 U.S. at 528. Given the
extensive history of federal government efforts to provide for the welfare of Indian children and tribes, including legislation specifically designed to protect Indians from mistreatment by the states and their citizens, this question can only be answered in the affirmative.
Searching in vain for case law to support its unorthodox position, the opposing opinion improvidently
relies on two inapposite Supreme Court decisions,
Seminole Tribe of Florida v. Florida, 517 U.S. 44
(1996), and United States v. Lara, 541 U.S. 193 (2004).
In Seminole Tribe, the Court considered an issue
wholly absent from the present case: Congress’s
power to abrogate states’ sovereign immunity. 517
U.S. at 47. That case concerned the Indian Gaming
Regulatory Act, which was passed pursuant to the Indian Commerce Clause. Id. One provision in the law
authorized tribes to sue states in federal court to compel them to negotiate in good faith to establish a
tribal-state compact governing gaming activities. Id.
The Court nullified that provision; it reasoned that,
although the Constitution vests Congress with “complete law-making authority” with respect to Indian affairs, “the Eleventh Amendment [generally] prevents

105a
congressional authorization of suits by private parties
against unconsenting states.” Id. at 72.
JUDGE DUNCAN emphasizes this uncontroversial
statement, but it does not advance his argument.
DUNCAN, CIRCUIT JUDGE, OP. at 3536. In holding that
Congress could not abrogate a state’s sovereign immunity pursuant to its Indian affairs power, Seminole
Tribe simply recognized that, even when Congress
holds plenary authority over a field of legislation, that
power is still subject to limitations imposed by other
constitutional provisions. See id.; Williams, 393 U.S.
at 29; Condon, 528 U.S. at 149. It is for this reason
that, as explained supra note 21, we first address Congress’s Article I authority to legislate over ICWA’s
subject matter and then separately consider whether
ICWA is consistent with the anticommandeering doctrine and other constitutional guarantees.
To the extent JUDGE DUNCAN asserts that Seminole Tribe prohibits Congress from regulating in state
“sovereign matters like adoption proceedings,” DUNCAN, CIRCUIT JUDGE, OP. at 36, we disagree. Seminole
Tribe addressed only limitations on Congress’s power
to override states’ sovereign immunity from suit by
private parties. See id. at 47. It has no bearing on the
scope of Congress’s Article I authority when, as here,
private suits against a state are not at issue. Indeed,
the Court carefully noted that its opinion in no way
touched upon other aspects of the Tenth Amendment.
See id. at 61 n.10 (expressly declining to opine on
whether the statute contravened the anticommandeering doctrine because this argument “was not considered below . . . and is not fairly within the question
presented”); see also id. at 183 n.65 (Souter, J., dissenting) (cautioning that the views expressed in his

106a
dissenting opinion on the issue of state sovereign immunity “should not be understood [as] tak[ing] a position on” the “scope of the Tenth Amendment” in other
respects). Furthermore, the Supreme Court has expressly held that even in fields like domestic relations
that are generally the exclusive territory of state regulation, Congress can enact legislation that preempts
contrary state law. See, e.g., McCarty, 453 U.S. at
235-36. In sum, any reliance on Seminole Tribe as imposing a limit on Congress’s ability to exercise its Indian affairs authority to create federal rights that apply within child custody proceedings is misplaced31
The Supreme Court’s decision and reasoning in
Lara, 541 U.S. at 196, also does not apply to the present case. There, the Court considered the constitutionality of a statute enacted in response to an earlier
Court ruling in Duro v. Reina, 495 U.S. 676 (1990). In
Duro, the Court held that tribes had been dispossessed of their inherent authority to prosecute nonmember Indians by virtue of their status as dependent
sovereigns subject to the authority of the United
States. Id. at 679. Congress promptly passed a law
seeking to avoid the Court’s ruling in Duro by “recogniz[ing] and reaffirm[ing]” that tribes’ inherent sover-

31
We note that JUDGE DUNCAN mischaracterizes the Defendants as supposedly making the “core” argument that simply because Congress has plenary authority over Indian affairs it “can
ipso facto” regulate sovereign state affairs. DUNCAN, CIRCUIT
JUDGE, OP. at 33-34, 36 n.52. This contention is not raised in the
Defendants’ briefing nor was it advanced at oral argument. Defendants’ actual argument is that, as an initial matter, Congress
has authority to enact ICWA and second that ICWA does not violate the anticommandeering doctrine.

107a
eignty includes the power to exercise criminal jurisdiction over nonmember Indians. Lara, 541 U.S. at
196; see also United States v. Enas, 255 F.3d 662, 669
(9th Cir. 2001) (citing 25 U.S.C. § 1301(2)). That statute was challenged in Lara as exceeding Congress’s
authority. See 541 U.S. at 200. The case thus presented the specific question of whether Congress could
statutorily alter limits that had been placed on tribes’
inherent sovereign powers as a result of their dependent status.
The Court answered this question in the affirmative, reasoning that Congress was in effect “relax[ing]
restrictions that the political branches” had previously placed on the exercise of inherent tribal authority. Id. at 196. In recognizing Congress’s power to
remove such restrictions, the Court discussed several
relevant considerations. For example, one consideration was that Congress, with the Court’s approval,
had a long-established practice of adjusting the limits
on the sovereign authority of tribes and other “dependent entities” such as Hawai‘i and Puerto Rico. Id.
203-04. This history of congressional action was germane to deciding whether Congress could continue to
adjust the scope of tribal autonomy. However, the
Lara Court’s considerations are of no relevance where,
as with ICWA, Congress is not altering the scope of
tribes’ retained sovereign power.
Instead, in enacting ICWA, Congress simply employed its power to set policy with respect to the Indian tribes by conferring minimum federal protections
on Indian children, parents, and tribes in state child
custody proceeding. Stated differently, the considerations in Lara are inapplicable because, unlike the
statute at issue in Lara, ICWA affirmatively grants

108a
new rights, protections, and safeguards to individual
Indians and tribes in state proceedings and does not
restore or remove any inherent sovereign authority
the tribes possessed prior to their becoming dependents of the United States. Take, for instance,
§ 1911(b), which permits tribes to intervene in an offreservation child custody case and invoke ICWA’s
placement preferences. That this provision cannot be
read to restore sovereign authority to a tribe is clear
from the fact that it grants the very same right to an
Indian child’s parents or relatives; a power cannot be
sovereign in nature if it can just as easily be exercised
by individual tribal members as by tribes themselves.
Cf. Lara, 541 U.S. at 200 (upholding tribes’ inherent
sovereign power to prosecute nonmember Indians).
Similarly, § 1912(b) provides indigent Indian parents
or custodians a right to appointed counsel in state
child custody proceedings—a right not conferred on
the sovereign tribes at all. These provisions grant
rights to Indian tribes, parents, and relatives pursuant to Congress’s power to regulate relations between
states, the federal government, and the tribes, and
they simply do not implicate the Indian tribes’ inherent sovereign power.32
In sum, Lara’s unique analytical approach cannot
be applied wholesale to assess an enactment like
32
JUDGE DUNCAN is correct that in Lara the Court noted that
it was not confronted “with a question dealing with potential constitutional limitations on efforts to legislate far more radical
changes in tribal status.” Lara, 541 U.S. at 205; DUNCAN, CIRCUIT JUDGE, OP. at 33-34 n.33. But as explained above, ICWA
does not effect any change whatsoever in tribal sovereignty.
JUDGE DUNCAN is therefore incorrect that the instant challenge
to ICWA presents the question Lara left undecided.

109a
ICWA that does not restore tribal sovereignty but instead affirmatively regulates Indian affairs by establishing a range of federal protections that apply when
an Indian child is involved in a state child custody proceeding. Lara’s reasoning is therefore far removed
from the Article I issue presented in this case.
Based on the Framers’ intent to confer on the federal Government exclusive responsibility for Indian
affairs, the centuries-long history of the Government’s
exercise of this power, and the extensive body of binding Supreme Court decisions affirming and reaffirming this authority, we conclude that ICWA “represent[s] the exercise of [] power[s] conferred on Congress by the Constitution.” Murphy, 138 S. Ct. at
1479. At a bare minimum, ICWA is “necessary and
proper,” U.S. CONST. art. I, sec. 8—that is, “plainly
adapted,” McCulloch v. Maryland, 17 U.S. (4 Wheat)
316, 421 (1819)—to solving “the problems of Indians,”
Antoine, 420 U.S. at 203, and thus fulfilling the federal government’s trust duty to the tribes as it is
squarely targeted at rectifying “perhaps the most
tragic and destructive aspect of Indian life.” H.R. REP.
NO. 95-1386, at 9-10.33 A contrary holding would render Congress impotent to remedy and prevent repetition of the depredations visited upon Indian children,
tribes, and families, an injustice to which the federal
Government itself has contributed and apologized.
See 146 CONG. REC. E1453 (Sept. 12, 2000) (quoting
apology of Assistant Secretary for Indian Affairs, Department of the Interior remarks on Sept. 8, 2000).
33
Notably, Plaintiffs do not expressly contend that ICWA exceeds the auxiliary powers granted to Congress under the Necessary and Proper Clause.

110a
Such a result would be not only a sad irony, but a
grievous judicial straitjacketing of a coordinate
branch of government. We decline to vitiate Congress’s authority in a field in which the Supreme
Court has held that it wields plenary power. See Lara,
541 U.S. at 200 (2000); Ramah Navajo Sch. Bd., Inc.,
458 U.S. at 837; White Mountain Apache Tribe, 448
U.S. at 142. Instead, we follow the Court’s sustained
admonitions that Congress is empowered fully to
make good on its trust obligations to Indian tribes.
See, e.g., Mancari, 417 U.S. 551-52; Antoine, 420 U.S.
at 203; Kagama, 118 U.S. at 383-84.
2. ICWA Does Not Violate the Anticommandeering Principle.
We turn to the second prong of the preemption
analysis and consider whether ICWA runs afoul of the
anticommandeering doctrine. Under the Articles of
Confederation, the federal government largely lacked
the power to govern the people directly and instead
was restricted to giving commands to the states that
it was often powerless to enforce. New York, 505 U.S.
at 161-62 (citing Lane Cnty. v. Oregon, 74 U.S. (Wall.)
71, 76 (1868)). To rectify this impotency, the Framers
inverted this relationship in the Constitution, empowering Congress to “exercise its legislative authority directly over individuals rather than over States.” Id.
at 164. Citing this history, Justice O’Connor inaugurated the modern anticommandeering doctrine, in
New York v. United States, stating that it represents
the Framers’ structural decision to withhold from
Congress the power to directly command state executives and state legislatures to do its bidding. See id.

111a
The Constitution’s Supremacy Clause, provides,
however, that “the Laws of the United States . . . shall
be the supreme Law of the Land; and the Judges in
every State shall be bound thereby, any Thing in the
Constitution or Laws of any State to the Contrary notwithstanding.” U.S. CONST. art. VI, cl. 2. Thus, a distinction exists between a law that unconstitutionally
“conscript[s] state governments as [the federal government’s] agents,” New York, 505 U.S.at 178, and a
law that establishes federal rights or obligations that
the states must honor despite any conflict with state
law. We consider, then, whether ICWA falls into the
former camp or the latter.
a. In Requiring State Courts to Apply
Preemptive Federal Law, ICWA Does
Not Violate the Anticommandeering
Doctrine.
The district court determined that ICWA unconstitutionally commandeers the states by requiring
state courts to apply its minimum protections in their
child custody proceedings. However, when considering whether a federal law violates the anticommandeering doctrine, the Supreme Court has consistently
drawn a distinction between a state’s courts and its
political branches.
Because the Supremacy Clause obligates state
courts to apply federal law as the “supreme Law of the
Land” and provides that “the Judges in every State
shall be bound thereby,” the anticommandeering principle that Justice O’Connor formulated in New York
does not apply to properly enacted federal laws that
state courts are bound to enforce. As Justice Scalia
made clear in Printz, “the Constitution was originally

112a
understood to permit imposition of an obligation on
state judges to enforce federal prescriptions, insofar
as those prescriptions related to matters appropriate
for the judicial power.” Printz, 521 U.S. at 907. State
courts were viewed as distinctive because, “unlike
[state] legislatures and executives, they applied the
law of other sovereigns all the time,” including federal
law as mandated by the Supremacy Clause. Id. Thus,
it is well-established that Congress has the power to
pass laws enforceable in state courts. See Palmore v.
United States, 411 U.S. 389, 402 (1973); Testa v. Katt,
330 U.S. 386, 394 (1947); see also Second Employers’
Liability Cases, N.H. & H.R. Co., 223 U.S. 1, 57
(1912); Claflin v. Houseman, 93 U.S. 130, 136-37
(1876). Although these “[f]ederal statutes enforceable
in state courts do, in a sense, direct state judges to enforce them, . . . this sort of federal ‘direction’ of state
judges is mandated by the text of the Supremacy
Clause.” New York, 505 U.S. at 178-79. In other
words, it is inherent in the Supremacy Clause’s provision that federal law “shall be the supreme Law of the
Land” that state courts must enforce federal law. U.S.
CONST. art. VI, cl. 2.
In the district court’s erroneous view, ICWA’s
standards do not bind states courts because ICWA itself does not supply a federal cause of action. Although the district court noted the settled principle
that state courts must apply federal law to a federal
cause of action, it did not recognize the equally settled
obligation on state courts to honor federal rights when
they are implicated in a case arising out of a state-law
cause of action. Failing to appreciate this duty, the
court below thought that ICWA cannot bind state

113a
courts because it “modif[ies]” the substantive standards applicable to child custody cases, which arise
from state law. Thus, the district court believed that
ICWA improperly commandeers state courts and
therefore cannot preempt conflicting state law.
There is no support in the Supreme Court’s precedents for this novel limit on federal preemption. See,
e.g., Haywood v. Drown, 556 U.S. 729, 736 (2009)
(“[A]lthough States retain substantial leeway to establish the contours of their judicial systems, they
lack authority to nullify a federal right or cause of action they believe is inconsistent with their local policies.” (emphasis added)). The Supreme Court has
long made clear that, even in areas of traditional state
prerogative, such as domestic relations, a federal right
may preempt state causes of action “to the extent of
any conflict” between the two. Hillman v. Maretta,
569 U.S. 483, 490-91 (2013) (quoting Crosby, 530 U.S.
at 372). In other words, when the standard application of substantive state family law “clearly conflict[s]” with “federal enactments” in an area in which
Congress may validly exercise its Article I authority,
state law “must give way.” Id. (quoting Ridgway v.
Ridgway, 454 U.S. 46, 55 (1981)) (federal statute requiring that life insurance benefits be paid according
to a specific “order of precedence” preempted state law
directing that proceeds be paid to a different beneficiary).
More to the point, the Supreme Court has expressly held that federal law can “modify” the substance of state law claims. Take, for example,
McCarty v. McCarty, 453 U.S. 210 (1981). There, a
federal military benefits statute provided for a different division of retirement benefits upon divorce than

114a
a state’s community property law. Id. at 235-36. The
Court held that the federal law preempted state law,
thereby altering the substantive law applicable to a
state-law cause of action. Id.; see also Egelhoff v.
Egelhoff ex rel. Breiner, 532 U.S. 131, 143 (2001) (holding that ERISA preempted state law regarding allocation of certain assets upon divorce during state probate proceeding); Hisquierdo v. Hisquierdo, 439 U.S.
572, 590 (1979) (holding that federal law preempted
state law’s definition of community property subject
to division with respect to federal pension benefits).
And in Jinks v. Richland County, the Court affirmed
that federal law cannot only “modify” the substance of
a state law claim, but indeed can keep alive a state
law cause of action that would otherwise be timebarred.34 538 U.S. 456, 459 (2003) (upholding the federal supplemental jurisdiction statute’s provision tolling state law claims while they are pending in federal
court, thus permitting such claims, if they are dismissed from federal court, to proceed in state court,
though they otherwise may be barred by the running
of a state’s limitations period).
As amici point out, these laws are not unique: a
host of federal statutes change the standards applicable to state causes of action, including in family law
proceedings. See, e.g., Servicemembers Civil Relief
34
While it is unquestionable that federal law may alter the
“‘substance’ of state-law rights of action,” the Supreme Court has
left unresolved the validity of “federal laws that regulate statecourt ‘procedure.’” See Jinks, 538 U.S. at 464. We need not weigh
in on this unsettled question because ICWA’s challenged provisions grant rights and protections to Indian tribes and families
that are substantive in nature. Cf. id. at 464-65 (tolling of state
law limitations period is substantive).

115a
Act, 50 U.S.C. § 3911, et seq.; Parental Kidnapping
Prevention Act, 28 U.S.C. § 1738A; Full Faith and
Credit for Child Support Orders Act, 28 U.S.C.
§ 1738B; Foreign Sovereign Immunities Act, 28
U.S.C. § 1330, et seq.; Intercountry Adoption Act of
2000, 42 U.S.C. § 14954. And state courts have long
applied these requirements without ever questioning
Congress’s authority to impose them.
For example, in In re Larson, a California appeals
court held that the federal Soldiers’ and Sailors’ Civil
Relief Act (SSCRA), which affords rights to servicemembers who are “prejudiced” in state court proceedings “by reason of [their] military service,” overrode
otherwise applicable state law. 183 P.2d 688, 690
(Cal. Dist. Ct. App. 1st 1947), disapproved of on other
grounds by In re Marriage of Schiffman, 620 P.2d 579
(Cal. 1980) (citing Pub. L. No. 86-721, 54. Stat. 1180,
now titled Servicemembers Civil Relief Act, 50 U.S.C.
§ 391). In that case, the state trial court had granted
a mother’s petition to have her child’s last name
changed to hers from that of her former spouse. Id. at
690-91. The father appealed, averring that, because
he was in the armed forces and detained as a prisoner
of war in Germany at the of time of the mother’s petition, he was entitled to relief under the SSCRA. Id. at
690. Acknowledging that the mother had “proceeded
in accordance with the applicable statutes of this
state,” the appeals court nonetheless recognized that
the federal statute superseded state law and vacated
the lower court’s order to permit the father to challenge the petition. Id. at 690-91. At no point did the
state court suggest that the SSCRA impinged on state
sovereignty. See also, e.g., In re China Oil & Gas Pipe-

116a
line Bureau, 94 S.W.3d 50, 59 (Tex. App. 2002) (applying Foreign Sovereign Immunities Act burden of proof
to determine whether foreign state had waived immunity from state law breach of contract, breach of fiduciary duty, and fraud claims); State ex rel. Valles v.
Brown, 639 P.2d 1181, 1186 (N.M. 1981) (applying Parental Kidnapping Prevention Act to determine
whether the state court could modify a child custody
decree).
In light of the Supreme Court’s express decisions
upholding federal law’s ability to alter substantive aspects of state claims and the robust history of federal
statutes that do just that, there can be little doubt
that the district court erred by determining that
ICWA’s provisions preempting state law were instead
a violation of the anticommandeering doctrine. Thus,
to the extent that the rights created by ICWA conflict
with states’ child custody laws, the Supremacy Clause
requires state judges to honor ICWA’s substantive
provisions. See New York, 505 U.S. at 178-79 (explaining that state judges are required under the Supremacy Clause to enforce federal law).
i. Sections 1912(e)-(f), 1915(a)-(b)
Applying these principles to the case at bar, we
conclude that “to the extent of any conflict” between
the rights created by ICWA and state law, Hillman v.
Maretta, 569 U.S. at 490, state courts are obliged to
honor those rights by applying ICWA’s substantive
evidentiary standards for foster care placement and
parental termination orders, 25 U.S.C. § 1912(e)-(f),
as well as the federal law’s child placement preferences, id. § 1915(a)-(b). Each of these provisions cre-

117a
ates federal rights in favor of Indian children, families, and tribes that potentially alter the substantive
standards applicable in child custody proceedings.
We note that these provisions do in fact conflict with
the otherwise applicable law of the State Plaintiffs.
For example, in furthering its goal of protecting “the
best interests of Indian children,” id. § 1902, ICWA
prohibits terminating the parental rights of an Indian
child’s biological parents absent a determination “beyond a reasonable doubt . . . that the continued custody of the child by the parent . . . is likely to result in
serious emotional or physical damage to the child.”
Id. § 1912(f). The State Plaintiffs, on the other hand,
generally use the far less stringent “best interests of
the child” analysis and “clear and convincing” evidentiary standard.35 Consequently, as between these differing standards, state courts are compelled to employ
ICWA’s heightened protections in proceedings involving Indian children. Indeed, state courts have not hesitated do so.36 See, e.g., In re W.D.H., 43 S.W.3d 30, 37
35
See IND. CODE §§ 31-35-2-4(b)(2) and 31-37-14-2 (2019) (setting forth a four-element test to terminate parental rights, including that termination is “in the best interests of the child,”
and requiring proof of each element by “clear and convincing” evidence); LA. CHILD. CODE art. 1015, 1035, 1037 (2019) (stating
that in order to terminate parental rights a court must find by
“clear and convincing evidence” that a parent has committed one
of an enumerated list of offenses and that it is in the “best interests of the child” to terminate the rights); TEX. FAM. CODE
§ 161.001 (2019) (requiring a showing by “clear and convincing
evidence” “that termination is in the best interest of the child”
and that the parent committed one of an enumerated list of offenses).
36

Some state courts have determined that certain of ICWA’s
provisions do not conflict with—and therefore do not preempt—

118a
(Tex. App. 2001) (“We conclude that it is not possible
to comply with both the two-prong test of the Family
Code, which requires a determination of the best interest of the child under the ‘Anglo’ standard, and the
ICWA, which views the best interest of the Indian
child in the context of maintaining the child’s relationship with the Indian Tribe, culture, and family.”); Yavapai–Apache Tribe v. Mejia, 906 S.W.2d 152, 170
(Tex. App. 1995) (stating that ICWA “was specifically
directed at preventing the infiltration of Anglo standards” in custody proceedings involving Indian children); In re Adoption of M.T.S., 489 N.W.2d 285, 288
(Minn. Ct. App. 1992) (concluding that ICWA’s preference for placing an Indian child with an Indian family
member provides a “higher standard of protection” for
an Indian guardian than the state’s best interests
standard, which would otherwise apply in determining a child’s custodial placement (citing 25 U.S.C.
§§ 1915(a), 1921)). This is “no more than an application of the Supremacy Clause.” New York, 505 U.S. at
178.
In sum, § 1912(e) and (f)’s evidentiary standards
and § 1915(a) and (b)’s placement’s preferences simply

state law but rather mandate additional protections that state
courts must implement. See, e.g., K.E. v. State, 912 P.2d 1002,
1004 (Utah Ct. App. 1996) (holding that ICWA does not preempt
the state’s “statutory grounds for termination of parental rights”
but instead “requires a specific finding for termination proceedings” that continued custody by the parent or Indian custodian
is likely to result in serious emotional or physical damage to the
child “in addition to those [findings] required by state law and
imposes a separate burden of proof for that finding.” (citing 25
U.S.C. § 1912(f)).

119a
supply substantive rules enforceable in state court
and do not violate the Tenth Amendment.
ii. Sections 1915(e), 1917, and
1951(a)
We likewise find no constitutional infirmity in
ICWA’s provisions that require state courts to maintain and make available certain records pertaining to
custody proceedings involving Indian children. See 25
U.S.C. §§ 1915(e), 1917, and 1951(a). Section 1915(e)
requires state courts to retain a record “evidencing the
efforts to comply” with ICWA’s placement preferences
and “ma[k]e available” this record, upon request, to
the Secretary or an Indian child’s tribe. Id. § 1915(e).
Under § 1917, once an adopted Indian child attains
majority, the state court that “entered the final decree” of adoption “shall,” upon the Indian adoptee’s application, “inform” her of her biological parents’ tribal
affiliation and provide other information that “may be
necessary to protect any rights from the individual’s
tribal relationship.” Id. § 1917. And § 1951(a) requires state courts to provide the federal government
with a copy of the adoption decree in any proceeding
involving an Indian child. Id. § 1951(a).
Though these recordkeeping provisions arguably
do not supply rules of decision like those in §§ 1912(e)(f) and 1915(a)-(b), the original understanding of the
Supremacy Clause nonetheless compels state courts
to effectuate their mandate. As explained in Printz v.
United States, “the first Congresses required state
courts to record applications for citizenship . . . [and]
to transmit abstracts of citizenship applications and
other naturalization records to the Secretary of
State.” 521 U.S. at 905-06 (citing Act of Mar. 26, 1790,

120a
ch. 3, § 1, 1 Stat. 103; Act of June 18, 906 1798, ch. 54,
§ 2, 1 Stat. 567). From the dawn of the constitutional
era, then, federal law placed specific recordkeeping
and sharing requirements on state courts, and these
duties were viewed as congruent with the state courts’
obligations under the Supremacy Clause. The history
thus makes clear that this sort of requirement cannot
be considered commandeering in violation of the
Tenth Amendment. See Marsh, 463 U.S. at 790.
Plaintiffs have provided no authority for deviating
from this original understanding, and so we hew to it.
State Plaintiffs contend that, rather than applying to state courts, §§ 1915(e) and 1951(a) instead impose obligations on state agencies and thereby violate
the anticommandeering doctrine. We address these
provisions in turn and disagree with the States’ conclusion as to each.
Though § 1915(e) applies to the “State,” it does not
specify whether that term refers to state courts or
agencies. The regulation implementing § 1915(e),
however, expressly permits states to designate either
their courts or agencies as “the repository for th[e] information” required to be maintained by § 1915(e).”
25 C.F.R. § 23.141 (“The State court or agency should
notify the BIA whether these records are maintained
within the court system or by a State agency.”). Substantively, the regulation requires only that “court
records” be maintained. 81 Fed. Reg. at 38,849-50.
This imposes no direct burden on states.

121a
State Plaintiffs do not challenge the BIA’s construction of § 1915(e).37 Thus, their complaint that
§ 1915(e) and its implementing regulation impermissibly burdens their agencies rings hollow, given that
Plaintiffs themselves have elected to designate their
agencies, rather than courts, as the entities charged
with complying with these provisions. States are not
“pressed into federal service” when they affirmatively
choose to obligate their executive, rather than judicial, officers to implement an otherwise valid federal
obligation. See Printz, 521 U.S. at 905. In other
words, § 1915(e) and its implementing regulation are
not “direct orders to the governments of the States”
but rather let states exercise their discretion to require either their courts or child welfare agencies to
maintain and make available the required records.
Murphy, 138 S. Ct. at 1478. The constitutionality of
these provisions does not rise or fall based on a state’s
preference.
For similar reasons, we disagree with JUDGE DUNcontention that § 1951(a), which requires state
courts to furnish adoption records to the federal government, invalidly commandeers state agencies.
DUNCAN, CIRCUIT JUDGE, OP. at 104-06 . Notably, no

CAN’s

37
Such a challenge would be unavailing in any event. Because
the BIA’s determination that state courts may maintain the records contemplated by § 1915(e) is at minimum a reasonable interpretation of an ambiguous statute that the BIA administers,
see Miss. Band Choctaw Indians v. Holyfield, 490 U.S. at 40 n.13
(“Section 1915(e) . . . requires the court to maintain records ‘evidencing the efforts to comply with the order of preference specified in this section.’” (emphasis added)), it is entitled to Chevron
deference. See Chevron, U.S.A., Inc. v. Nat. Res. Def. Council,
Inc., 467 U.S. 837 (1984); infra Discussion Part II.D

122a
party takes this position. This is likely because on its
face the provision applies only to state courts. See 25
U.S.C. § 1951(a) (requiring “[a]ny State court entering
a final decree or order in any Indian child adoptive
placement” to provide certain records). And the records that must be furnished by a state court pursuant
to this provision are not the type of records commonly
held by state agencies; instead, the records are naturally produced as part of state court proceedings, and
state courts are therefore in the best position to maintain and provide the records to the federal government.38 Id. That the regulations implementing
§ 1951(a) purport to provide states the flexibility to instead designate an agency to fulfill the duties it imposes does not change that the law is by default aimed
at state courts. See 25 C.F.R. § 23.140 (specifying that
designating an agency relieves state courts of their obligations under § 1951(a)). And a state’s wholly voluntary choice to utilize its political branches in place
of its courts cannot, as we have explained, constitute
commandeering of those political branches.
We therefore conclude that state courts are bound
by the Supremacy Clause to apply §§ 1915(e), 1917,
and 1951(a).39
38
Section 1951(a) specifically requires that the following information be supplied to the Secretary: (1) the names and tribal
affiliation of the Indian child; (2) the names and addresses of the
child’s biological parents; (3) the names and addresses of the
adoptive parents; and (4) the identity of an agency that has information relating to the child’s adoptive placement. 25 U.S.C.
§ 1951(a).
39

We also disagree with JUDGE DUNCAN’s asserted distinction
between § 1917 and the other recordkeeping provisions. DUNCAN, CIRCUIT JUDGE, OP. at 97-98 &98 n.138. JUDGE DUNCAN

123a
b. The Challenged Provisions Do Not
Commandeer Other State Actors.
We next consider whether ICWA commandeers
state actors other than state courts. Our determination that the preemption and commandeering analyses are mirror images of one another leads us to the
conclusion that if ICWA regulates private actors—and
therefore preempts conflicting state law—it does not
contravene the anticommandeering doctrine. A survey of the Supreme Court’s precedents in this area
makes clear that a law meets this requirement so long
as it establishes rights that are legally enforceable by
or against private parties. This test is necessarily satisfied when Congress enacts a general regulation applicable to any party who engages in an activity, regardless of whether that party is a State or private
actor. The Supreme Court has thus stressed in its
Tenth Amendment decisions that “the anticommandeering doctrine does not apply when Congress evenhandedly regulates an activity in which both States
and private actors engage.” Murphy, 138 S. Ct. at
maintains that § 1917, which confers upon adult Indian adoptees
the right to obtain from courts information pertaining to their
tribal relationship, is a valid preemption provision because it is
“best read” as regulating private actors, not states. But the same
could be said for § 1915(e), which confers rights upon Indian
tribes to obtain records. And both provisions require state courts
to retain records so that an Indian individual or tribe may later
obtain them. Thus, if § 1917 is best read as applying to private
actors, so too is § 1915(e). We find it unnecessary to resolve this
question, however, because like §§ 1915(e) and 1951(a), § 1917
places duties on state courts to maintain records—a special type
of obligation that was understood from the nation’s very beginning to validly bind state courts under the Supremacy Clause.
See Printz, 521 U.S. at 905-06.

124a
1478. It is unsurprising, then, that in each case in
which the Court has found an anticommandeering violation, the statute at issue directly and exclusively
commanded a state’s legislature or executive officers
to undertake an action or refrain from acting without
mandating that private actors do the same.
For example, in the first modern anticommandeering case, New York v. United States, the Supreme
Court held that a federal law impermissibly commandeered state actors to implement federal legislation
when it gave states “[a] choice between two unconstitutionally coercive” alternatives: to either dispose of
radioactive waste within their boundaries according
to Congress’s instructions or “take title” to, and assume liabilities for, the waste. 505 U.S. at 175-76.
The Court was clear: Congress cannot compel “the
States to enact or enforce a federal regulatory program.” Id. at 176 (emphasis added). Notably, the
statute did not place any legally enforceable rights or
restrictions on private parties, instead operating only
upon the states.
Similarly, in Printz v. United States, the Court
held that a provision of the Brady Handgun Violence
Prevention Act requiring state chief law enforcement
officers to conduct background checks on handgun
purchasers “conscript[ed] the State’s officers directly”
and was therefore invalid. 521 U.S. at 935. The Court
explained that the statute violated the anticommandeering principle because it was aimed solely at state
executive officers, requiring them “to conduct investigation in their official capacity, by examining databases and records that only state officials have access
to. In other words, the suggestion that extension of
this statute to private citizens would eliminate the

125a
constitutional problem posits the impossible.” Id. at
932 n.17 (N.B. that “the burden on police officers [imposed by the Brady Act] would be permissible [under
the Tenth Amendment] if a similar burden were also
imposed on private parties with access to the relevant
data” (first alteration in original) (emphasis added)
(internal quotation marks and citation omitted)). Accordingly, the Court rejected as irrelevant the Government’s argument that the Act imposed only a minimal
burden on state executive officers, stating that it was
not “evaluating whether the incidental application to
the States of a federal law of general applicability excessively interfered with the functioning of state governments,” but rather a law whose “whole object . . .
[was] to direct the functioning of the state executive.”
Id. at 93132. Again, the law did nothing to alter the
rights or obligations of private parties, but served only
to bind the States.
Recently, in Murphy v. NCAA, the Court concluded that a federal law that prohibited states from
authorizing sports gambling ran afoul of the anticommandeering doctrine. 138 S. Ct. at 1478. The statute
violated state sovereignty, the Court explained, by
“unequivocally dictat[ing] what a state legislature
may and may not do.” Id. In reaching this conclusion,
the Court reviewed its Tenth Amendment jurisprudence and clarified the distinction between statutes
that impermissibly commandeer state actors and
those that may incidentally burden the states but,
nevertheless, do not offend the Tenth Amendment.
The mediating principle, the Court announced, is that
a regulation is valid so long as it “evenhandedly regulates an activity in which both States and private actors engage.” Id. at 1478. This occurs when a statute

126a
confers either legal rights or restrictions on private
parties that participate in the activity, and thus the
law is “best read” as regulating private parties.
A review of two cases cited by Murphy in which
the Court upheld statutes imposing incidental burdens or obligations on states is instructive as to what
permissible, evenhanded regulation entails. First, in
Reno v. Condon, the Court unanimously upheld the
Driver’s Privacy Protection Act (DPPA), a federal regulatory scheme that restricted the ability of states and
private parties to disclose a driver’s personal information without consent. 528 U.S. 141, 151 (2000). In
determining that the anticommandeering doctrine did
not apply, the Court distinguished the law from those
invalidated in New York and Printz:
[T]he DPPA does not require the States in
their sovereign capacity to regulate their own
citizens; rather it regulates the States as the
owners of [Department of Motor Vehicle] data
bases. It does not require the [state] Legislature to enact any laws or regulations, and it
does not require state officials to assist in the
enforcement of federal statutes regulating private individuals . . . .
Id. The statute, moreover, “applied equally to state[s]
and private” resellers of motor vehicle information.
Murphy, 138 S. Ct. at 1479; see Condon, 528 U.S. at
151 (explaining that the statute was “generally applicable”). That compliance with the DPPA’s provisions
would “require time and effort on the part of state employees” posed no constitutional problem, then, because private actors engaged in the regulated enterprise were also subject to the statute’s requirements.

127a
Condon, 528 U.S. at 150. In short, because the law
created restrictions enforceable against private resellers, it satisfied the “best read” test as articulated
in Murphy.
Second, in Baker v. South Carolina, the Court also
rejected a Tenth Amendment challenge to a federal
enactment. 485 U.S. 505, 513-15 (1988). At issue in
that case was a statute that eliminated the federal income tax exemption for interest earned on certain
bonds issued by state and local governments unless
the bonds were registered. Id. at 507-08. The Court
treated the provision “as if it directly regulated States
by prohibiting outright the issuance of [unregistered]
bearer bonds.” Id. at 511. But critically, the provision
applied not only to states but to any entity issuing the
bonds, including “local governments, the Federal Government, [and] private corporations.” Id. at 526-27.
In upholding the provision, the Court reasoned that it
merely “regulat[ed] a state activity” and did not “seek
to control or influence the manner in which States regulate private parties.” Id. at 514. “That a State wishing to engage in certain activity must take administrative and sometimes legislative action to comply
with federal standards regulating that activity is a
commonplace that presents no constitutional defect.”
Id. at 514-15 (requiring “state officials . . . to devote
substantial effort” to comply with the statute is “an
inevitable consequence” of Congress validly regulating the state’s activity). Such a federal law thus does
not commandeer state actors, but merely establishes
standards applicable to any actor who chooses to engage in an activity that Congress may validly regulate

128a
through legislation. See id. It creates legally enforceable obligations—in Baker, a prohibition—that affect
private parties.
As both a textual and practical matter, the provisions Plaintiffs challenge apply “evenhandedly” to “an
activity in which both States and private actors engage.” Murphy, 138 S. Ct. at 1478. Sections 1912(a)
and (d), for example, impose notice and “active efforts”
requirements, respectively, on the “party” seeking the
foster care placement of, or termination of parental
rights to, an Indian child.40 Because plaintiffs bring a
facial challenge, there is no need to look beyond the
language of these provisions—which plainly is facially
neutral, see Wash. State Grange v. Wash. State Republican Party, 552 U.S. 442, 449-50 (2008) (“In determining whether a law is facially invalid, we must
be careful not to go beyond the statute’s facial requirements and speculate about ‘hypothetical’ or ‘imaginary’ cases.”); see also United States v. Raines, 362
U.S. 17, 22 (1960) (“The delicate power of pronouncing
an Act of Congress unconstitutional is not to be exer-

40

Section 1912(a) requires “the party seeking the foster care
placement of, or termination of parental rights to, an Indian
child” to “notify the parent or Indian custodian and the Indian
child’s tribe . . . of the pending proceedings and of their right to
intervention.” 25 U.S.C. § 1912(a) (emphasis added).
Section 1912(d) states that “[a]ny party seeking to effect a
foster care placement of, or termination of parental rights to, an
Indian child” to “satisfy the court that active efforts have been
made to provide remedial services . . . to prevent the breakup of
the Indian family and that these efforts have proved unsuccessful.” Id. § 1912(d) (emphasis added).

129a
cised with reference to hypothetical cases thus imagined.”).41 The statute applies to the any party seeking
a foster care placement or the termination of parental
rights, regardless of whether that party is a state
agent or private individual. Id.
Furthermore, even were we to consider how these
provisions are actually applied in child custody proceedings, it is clear that they do in fact apply to private parties. ICWA defines “foster care placement” to
embrace “any action removing an Indian child from its
parent or Indian custodian for temporary placement
in a foster home or institution or the home of a guardian or conservator.” 25 U.S.C. § 1903(1)(i) (emphasis
added). As Defendants observe, actions to appoint
41
Our court recently reaffirmed this principle. In Freedom
Path, Inc. v. Internal Revenue Service, we examined a facial challenge to an IRS Revenue Ruling by an organization that had received a proposed denial from the IRS of its application for taxexempt status. See 913 F.3d 503, 506 (5th Cir. 2019). We explained that “[t]o find unconstitutionality [the organization]
claims requires that we go beyond the language of the Revenue
Ruling and analyze the way in which the IRS applies it beyond
the text. On a facial challenge, however, we do not look beyond
the text . . . [A] facial challenge to a statute considers only the
text of the statute itself, not its application to the particular circumstances of an individual.” Id. at 508 (internal quotation
marks and citations omitted) (emphasis added) (quoting Field
Day, LLC v. Cnty. of Suffolk, 463 F.3d 167, 174 (2d Cir. 2006)).
And, even if we were to construe Plaintiffs’ complaint as an asapplied challenge, the proper remedy would not be the wholesale
invalidation of the statutory provisions that the district court’s
order effected and for which Plaintiffs and JUDGE DUNCAN argue.
Rather, demonstrating that the statute may be applied unconstitutionally warrants only an injunction against the statute being
applied in that unconstitutional manner. See Citizens United v.
Fed. Election Comm’n, 558 U.S. 310, 331 (2010).

130a
guardians or conservators are often private actions
that do not involve the state as a party. See, e.g., J.W.
v. R.J., 951 P.2d 1206, 1212-13 (Alaska 1998) (determining that a custody dispute between a father and
stepfather constituted a “foster care placement” under
ICWA); In re Guardianship of J.C.D., 686 N.W.2d 647,
649 (S.D. 2004); In re Custody of C.C.M., 202 P.3d 971,
977 (Wash. C.t App. 2009) (holding that grandparents’
petition for nonparental custody of their Indian
grandchild “qualifies as an action for foster care placement under ICWA”). Similarly, private parties may
bring proceedings to terminate parental rights. See,
e.g., TEX. FAM. CODE. ANN. § 102.003 (permitting,
among others, a “parent,” “the child through a courtappointed representative,” or “a guardian” to bring
such an action); 33 TEX. PRAC. HANDBOOK OF TEX FAMILY LAW § 19:2 (2018); see also Matter of Adoption of
T.A.W., 383 P.3d 492, 496 (Wash. 2016) (holding that
ICWA’s “active efforts provision . . . appl[ies] to privately initiated terminations” and remanding for trial
court to determine whether “active efforts ha[d] been”
made to prevent the breakup of the Indian family);
D.J. v. P.C., 36 P.3d 663, 673 (Alaska 2001) (“[W]e
hold that ICWA applies to termination proceedings
when a party other than the state seeks the termination.”); S.S. v. Stephanie H., 388 P.3d 569, 573–74
(Ariz. Ct. App. 2017) (“[W]e conclude that ICWA applies to a private termination proceeding just as it applies to a proceeding commenced by a state-licensed
private agency or public agency.”); In re N.B., 199 P.3d
16, 19 (Colo. App. 2007) (“ICWA’s plain language is
not limited to action by a social services department.”). Thus, from both a textual and practical
standpoint, it cannot seriously be disputed that these

131a
provisions apply to private parties. See 25 U.S.C.
§ 1903(1)(i); J.W., 951 P.2d at 1212-13.
Similarly, § 1912(e) and (f)—which require qualified expert witness testimony before, respectively, either the foster care placement of, or termination of parental rights to, an Indian child—are also evenhanded
regulations that do not effect an invalid commandeering.42 Neither provision expressly refers to state agencies. And when read in conjunction with § 1912(d)’s
language placing burdens on “[a]ny party” involved in
foster care or parental termination proceedings relating to Indian children, § 1912(e) and (f) must also reasonably be understood to apply to “any party” engaged
in these proceedings. This understanding, moreover,
comports with how state courts have read and applied
these provisions. See, e.g., In re Mahaney, 51 P.3d
776, 786 (Wash. 2002) (holding that § 1912(e)’s expert
witness requirement applied to an action exclusively
between private parties—an Indian mother and her
children’s paternal grandmother—regarding a foster
42
Section 1912(e) provides that no foster care placement may
be ordered in involuntary proceedings in state court absent “a
determination, supported by clear and convincing evidence, including testimony of qualified expert witnesses, that the continued custody of the child by the parent or Indian custodian is
likely to result in serious emotional or physical damage to the
child.” 25 U.S.C. § 1912(e).

Section 1912(f) requires that no termination of parental
rights may be ordered in involuntary proceedings in state court
absent “evidence beyond a reasonable doubt, including testimony
of qualified expert witnesses, that the continued custody of the
child by the parent or Indian custodian is likely to result in serious emotional or physical damage to the child.” Id. § 1912(f).

132a
care placement); D.J., 36 P.3d at 673 (holding that
§ 1912(f) applied to an action between an Indian
child’s maternal grandmother and his biological father regarding the termination of the father’s parental rights); Matter of Baby Boy Doe, 902 P.2d 477, 484
(Idaho 1995) (holding that prospective adoptive parents satisfied “their burden of proof” under § 1912(f)
“with testimony of [a] qualified expert witness[]”).
Thus, § 1912(e) and (f), like § 1912 (a) and (d), are generally applicable provisions. See Murphy, 138 S. Ct.
at 1478; see also Condon, 528 U.S. at 151.
State Plaintiffs’ contention that the aforementioned provisions commandeer state executive officers
is reminiscent of the argument made by South Carolina—and rejected by the Court—in Condon. There,
South Carolina claimed that the DPPA “thrusts upon
the States all of the day-to-day responsibility for administering its complex provisions . . . and thereby
makes state officials the unwilling implementors of
federal policy.” 528 U.S. at 149-50 (internal quotation
marks omitted). But ICWA, like the DPPA, does not
require states “to enact any laws or regulations, and
it does not require state officials to assist in the enforcement of federal statutes regulating private individuals.” Id. at 151. Unlike the statutes in New York,
Printz, and Murphy, § 1912 does not create obligations or restrictions enforceable solely against states.
See Murphy, 138 S. Ct. at 1481 (determining that a
provision of the gambling regulation at issue did not
constitute a valid “preemption provision because
there is no way in which [it] c[ould] be understood as
a regulation of private actors”) (emphasis added);
Printz, 521 U.S. at 932 n.17 (explaining that extending “to private citizens” the federal statute’s directives

133a
“posits the impossible”); New York, 505 U.S. at 160
(“[T]his is not a case in which Congress has subjected
a State to the same legislation applicable to private
parties.”). Instead, its provisions simply impose the
same, generally applicable burden on any party engaged in a custody proceeding involving an Indian
child. Cf. Condon, 528 U.S. at 151 (noting that the
regulation of data bases applied to “private resellers”
of motor vehicle information along with states); Baker,
485 U.S. at 526-27 (stating that the requirement that
bearer bonds be registered in order to be eligible for a
federal income tax exemption applied to “local governments, the Federal Government, [and] private corporations”). Thus, § 1912 (a), (d), (e), and (f) “evenhandedly regulate[] an activity in which both States and
private actors engage,” and the anticommandeering
doctrine does not apply. See Murphy, 138 S. Ct. at
1478.
JUDGE DUNCAN posits two reasons why the evenhandedness principle ought not apply to the challenged provisions. First, he asserts that ICWA compels states to regulate private individuals. DUNCAN,
CIRCUIT JUDGE, OP. at 89-91. Not so. As discussed,
ICWA is a comprehensive federal regulatory scheme
that regulates private individuals by creating rights
and restrictions in favor of Indian individuals and
tribes in child custody proceedings involving Indian
children. In so doing, ICWA places legal obligations
on parties to these proceedings, whether individuals
or state actors. See Condon, 528 U.S. at 150 (finding
no anticommandeering problem in the fact that compliance with the DPPA would “require time and effort
on the part of state employees”). Just as the DPPA
“regulate[d] the States as the owners of data bases,”

134a
id. at 151, ICWA regulates the states as participants
in Indian child custody proceedings—placing the
same requirements on states as it does on any private
party. This fits the bill of an evenhanded regulation.43
Second, JUDGE DUNCAN asserts that ICWA regulates states in their sovereign capacity. DUNCAN, CIRCUIT JUDGE, OP. at 91-92. Whereas Congress regulated states as participants in the market for bonds in
Baker and the market for driver’s information in Condon, JUDGE DUNCAN contends that ICWA does not regulate states as market participants but rather as sovereigns carrying out their duty to protect children.
But in Condon, the statute at issue “regulate[d] the
43
JUDGE DUNCAN’s assertion that ICWA imposes “critical duties” on state actors is irrelevant to determining whether the
statute is consistent with the anticommandeering doctrine.
DUNCAN, CIRCUIT JUDGE, OP. at 91. Nowhere in the Court’s commandeering cases has it made mention of, or found dispositive,
whether the obligations imposed on states by a regulation were
important to the statutory scheme’s success. In Condon, for example, that the DPPA’s restrictions applied to states was surely
“crucial” to the law’s efficacy. See 528 U.S. at 143-44 (noting that
“Congress found that many States . . . sell driver’s personal information” and that the statute “establishes a regulatory
scheme” that expressly “restricts the States’ ability to disclose a
driver’s personal information”); id. at 143 (citing 139 CONG. REC.
9468 (Nov. 16, 1993) (explaining that a purpose of “this legislation is to protect a wide range of individuals, [to] protect them
from the State agencies [that,] often for a price, a profit to the
State, [] release lists”) (statement of Sen. Warner)); see also
Baker, 485 U.S. at 510-11 (noting that the challenged provision
“completes th[e] statutory scheme” setup by Congress). The evenhandedness inquiry does not turn on whether the statute imposes “critical” duties—or even “trivial” duties, for that matter—
on states, but rather whether those duties apply equally to both
states and private actors. See Murphy, 138 S. Ct. at 1478.

135a
disclosure of personal information contained in the
records of state motor vehicle departments.” 528 U.S.
at 143. The regulation of motor vehicles, of course, is
a quintessential state function. As explained above,
the provision was nevertheless upheld because it “regulate[d] the States as the owners of data bases;” that
is, as participants in the market for drivers’ personal
information. Id. at 151. The situation is the same
here. Though family law is as a general matter committed to the states, but see, e.g., McCarty, 453 U.S. at
235-36, the activity at issue here—child custody proceedings—involves private parties as litigants.44
44

Citing Printz, JUDGE DUNCAN also asserts that the “salient
question” in determining whether the evenhandedness exception
applies is “whether a federal law requires states officials to act
‘in their official capacity’ to implement a federal program.” DUNCAN, CIRCUIT JUDGE, OP. at 93 (quoting Printz, 521 U.S. at 932
n.17). This test cannot be squared with the Court’s cases. In
Condon, for example, compliance with the DPPA required action
by state officials acting in their official capacity. See 528 U.S. at
150 (“We agree with South Carolina’s assertion that the DPPA’s
provisions will require time and effort on the part of state employees . . . .”); see also Baker, 485 U.S. at 514-15 (“That a State
wishing to engage in certain activity must take administrative
and sometimes legislative action to comply with federal standards regulating that activity is a commonplace that presents no
constitutional defect.”). The salient question, rather, is whether
the statute applies equally to both states and private actors.
This is clear from the portion of Printz JUDGE DUNCAN purports
to rely on. As the Court in Printz explained, the background
check requirement at issue “undoubtedly” would have been consistent with the anticommandeering doctrine if its burdens could
have been extended equally to both state actors and private actors. 521 U.S. at 932 n.17 (emphasis added). The problem, however, was that the burden the statute placed on state law enforcement officers by its very nature could not possibly be borne by
private persons. Id. (“[T]he suggestion that extension of this

136a
ICWA, then, “regulates the States as” participants in
these proceedings, and the reasoning of Baker and
Condon applies equally here.
Because § 1912 (a), (d), (e), and (f) are “evenhanded,” we conclude they are necessarily “best read”
as pertaining to private actors within that phrase’s
meaning in Murphy. Id. at 1478, 1479. This follows
from our earlier conclusion that a law is “best read” as
regulating private actors—and therefore can be given
preemptive effect—when it creates legal rights and
obligations enforceable by or against private actors.
Because an evenhanded regulation genuinely applies
to private parties (as well as states), it necessarily establishes legal rights and obligations applicable to private parties (as well as states).
This is demonstrated by even a cursory review of
§ 1912 (a), (d), (e), and (f). The obligations the provisions impose are enforceable against any private
party seeking a foster placement for, or the termination of parental rights to, an Indian child. And,
viewed inversely, these obligations are an array of
rights in favor of and enforceable by private parties.
Section 1912(a) grants Indian parents and tribes the
right to notice of pending child custody proceedings.
Id. § 1912(a). Further, § 1912(d) grants to Indian children, tribes, and families the right to maintain their
tribal and family unit “subject only to certain (federal)
constraints.” Id. § 1912(d); Murphy, 138 S. Ct. at
1480. Specifically, the provision confers upon private
actors an enforceable right to demand in custody pro-

statute to private persons would eliminate the constitutional
problem posits the impossible.”).

137a
ceedings that “active efforts” be made to keep an Indian family intact before the foster care placement of,
or termination of parental rights to, an Indian child.
See D.J., 36 P.3d at 674 (reversing the termination of
parental rights to an Indian child because, inter alia,
the trial court failed to make findings as to whether
active efforts had been made to prevent the breakup
of the Indian family). Sections 1912(e) and (f) similarly provide enforceable federal rights to Indian parents to maintain their families absent testimony from
qualified expert witnesses regarding detriment to the
child from the parents’ continued custody. 25 U.S.C.
§ 1912(e), (f).
Plaintiffs’ argument that ICWA is not evenhanded—and thus is not best read as applying to private parties—because state actors are more frequently bound by its provisions is also misplaced. As
an initial matter, a “best read” inquiry that turns on
the factual question of whom is most likely to engage
in the regulated conduct would demand record evidence that is absent here, and there is no indication
that the Supreme Court has ever performed such a
fact-bound evaluation as part of its commandeering
analyses. More importantly, an “evenhanded” law is
“best read” as regulating private parties not because
its burdens may happen to fall upon states more or
less frequently than private actors as a factual matter,
but instead, as we have explained, because such a law
necessarily establishes rights or obligations that are
legally enforceable by or against private parties.
The Murphy Court’s discussion of Morales v.
Trans World Airlines, Inc., in which the Court considered whether the federal Airline Deregulation Act of
1978 (ADA) preempted States from passing their own

138a
laws prohibiting allegedly deceptive airline fare advertisements, confirms this conclusion. Id. at 1480
(citing Morales, 504 U.S.at 391). At issue in Morales
was a provision of the ADA that removed earlier federal airline regulations. 504 U.S. at 378. “To ensure
that the States would not undo federal deregulation
with regulation of their own,” the ADA provided that
“no State or political subdivision thereof . . . shall enact or enforce any law, rule, regulation, standard or
other provision having the force and effect of law relating to rates, routes, or services of any [covered] air
carrier.” Murphy, 138 S. Ct. at 1480 (alteration in
original) (quoting 49 U.S.C. § 1305; Morales, 504 U.S.
at 378). The Court held that the provisions validly
preempted state law. Id. at 391. As the Court in Murphy explained:
[t]his language [in the ADA] might appear to
operate directly on the States [and thus constitute an invalid attempt at preemption], but
it is a mistake to be confused by the way in
which a preemption provision is phrased . . .
[I]f we look beyond the phrasing employed in
the Airline Deregulation Act’s preemption
provision, it is clear that this provision operates just like any other federal law with
preemptive effect. It confers on private entities (i.e., covered carriers) a federal right to
engage in certain conduct subject only to certain (federal) constraints.
Id. at 1480. The Court’s analysis did not turn on the
frequency with which state and private actors engaged in the regulated conduct; indeed, it is axiomatic
that private actors could not regulate airlines. Ra-

139a
ther, as the Murphy Court made clear, what was dispositive in determining that the statute was “best
read” as regulating private actors—and thus
preempted state law—was that it created legally enforceable private rights. Id. at 1480. Accordingly,
Plaintiffs’ argument is of no moment. Sections 1912
(a), (d), (e), and (f) are evenhanded regulations, and
they therefore do not violate the anticommandeering
doctrine and may validly preempt conflicting state
law.
Although Plaintiffs limit their arguments on appeal primarily to the aforementioned portions of
§ 1912, the district court’s ruling that ICWA violates
the anticommandeering doctrine was far more sweeping, invalidating all portions of the statute that alter
the substantive law applicable in cases arising out of
state causes of action. As discussed, the district
court’s theory that ICWA commandeers state courts
in this manner is based on a flawed premise. See supra Discussion Part II.A.2.i. ICWA’s provisions beyond those already discussed in § 1912 also validly
preempt conflicting state law because they are part of
a comprehensive statute, the “whole object of” which,
Printz, 521 U.S. at 900, is to “confer[] on private entities”—namely Indian children, families, and tribes—
”a federal right.” Murphy, 138 S. Ct. at 1480; see 25
U.S.C. § 1902 (declaring Congress’s policy in enacting
ICWA of “protect[ing] the best interests of Indian children and promot[ing] the stability and security of Indian families and tribes”). An inquiry into ICWA’s individual provisions, moreover, reveals that they operate to confer rights on private actors. For instance,
§ 1911, grants the Indian custodian of an Indian child
and that child’s tribe the right to intervene in child

140a
custody proceedings.45 Section 1912(b) confers upon
indigent Indian parents “the right to court-appointed
counsel in any removal, placement, or termination
proceeding.” Id. § 1912(b). And § 1913(b) affords Indian parents the right to withdraw their consent to a
foster care placement at any time. Id. § 1913(b).46
45

Several jurisdictions have recognized that § 1911(c) creates
federal rights in favor of tribes and therefore have concluded that
the provision preempts otherwise applicable state law permitting only licensed attorneys to represent parties. See, e.g., In re
Elias L., 767 N.W.2d 98, 104 (Neb. 2009). These courts have explained that the tribal right to intervene is unfettered and that
otherwise applicable state law would “not only burden the right
of tribal intervention, it will essentially deny that right in many
cases.” State ex rel. Juvenile Dep’t of Lane Cnty. v. Shuey, 850
P.2d 378, 381 (Or. Ct. App. 1993); see also In re N.N.E., 752
N.W.2d 1, 12 (Iowa 2008); J.P.H. v. Fla. Dep’t of Children & Families, 39 So. 3d 560 (Fla. Dist. Ct. App. 2010) (per curiam). In
essence, these state courts have understood that they are bound
to permit tribes to intervene without being represented by licensed counsel because to require otherwise would “frustrate[]
the deliberate purpose of Congress” in enacting this measure.
Hillman, 569 U.S. at 494 (internal quotation marks and citation
omitted).
46
ICWA’s placement preference provisions, § 1915(a) & (b),
likewise create federal rights for Indian children, tribes, and
families that apply in Indian child custody proceedings. Because
the placement preferences are valid premptive federal laws,
state adjudicators are bound under the Supremacy Clause to apply these provisions. See supra Discussion Part II.A.2.a(i).

Indeed, JUDGE DUNCAN acknowledges that the placement
preferences apply in state court and preempt contrary state law.
He broadly suggests, however, that the placement preferences
also separately “direct action by state agencies and officials.”
DUNCAN, CIRCUIT JUDGE, OP. at 83-84. But reading the placement-preference provisions to require state agencies to perform
executive or legislative tasks is contrary to the statute’s plain

141a
Given that the entire purpose and effect of the provisions the district court erroneously invalidated is to
confer rights and protections upon private actors, viz.,
Indian tribes, families, and children, we conclude that
they are “best read” as regulating private parties.
Murphy, 138 S. Ct. at 1479, 1480 (“In sum, regardless
of the language used by Congress . . . , every form of
preemption is based on a federal law that regulates
the conduct of private actors, not the States.”). That

text. The provisions merely require the body adjudicating an Indian child custody proceeding to apply the preferences contained
therein in deciding contested claims unless there is good cause
not to. See 25 U.S.C. § 1915(a) (“In any adoptive placement of an
Indian child . . ., a preference shall be given, in the absence of
good cause to the contrary . . . .); id. § 1915(b) (“In any foster care
or preadoptive placement, a preference shall be given, in the absence of good cause to the contrary . . . .”).
As JUDGE DUNCAN concedes, this straight-forward interpretation does not present an anticommandeering problem. See
New York, 505 U.S. at 178-79 (“Federal statutes enforceable in
state courts do, in a sense, direct state judges to enforce them,
but this sort of federal ‘direction’ of state judges is mandated by
the text of the Supremacy Clause.”); cf. Murphy, 138 S. Ct. at
1480-81 (observing that “every form of preemption is based on a
federal law that regulates the conduct of private actors” and invalidating a federal statute that barred states from authorizing
sports gambling because the statute did “not confer any federal
rights on private actors” and instead could be understood only as
“a direct command to the States”). JUDGE DUNCAN’s interpretation of § 1915(a) & (b) as separately directing state administrative action—which he argues is unconstitutional—is thus not
only plainly unreasonable given the text of the statute, but also
contrary to settled canons of statutory construction. See United
States v. Jin Fuey Moy, 241 U.S. 394, 401 (1916) (stating that a
statute must be interpreted to avoid constitutional doubt if reasonably possible).

142a
the Supremacy Clause prevents states from interfering with these federal rights does not transform ICWA
into an unconstitutional command to state actors. See
Murphy, 138 S. Ct. at 1480. Rather, such a restriction
on states is inherent to preemption. See id. at 1479.
It would thus be error on multiple levels to conclude
that ICWA unconstitutionally commandeers state actors, and we decline to do so.47

47
The opposing opinion again makes much of the unremarkable fact, already discussed above, see supra note 21, that though
Congress may hold plenary authority over a given field of legislation, any laws passed pursuant to that plenary power must still
be consistent with the anticommandeering doctrine and other
constitutional principles. See DUNCAN, CIRCUIT JUDGE, OP. at
27-29

First, these are far-fetched, counterfactual, law-school exam
hypotheticals that are wholly detached from the kind of real and
pressing human problems that ICWA addresses; rational legislators would neither see the need for such legislation nor enact
such unfair and unworkable laws. As Justice Frankfurter observed, “[t]he process of Constitutional adjudication does not
thrive on conjuring up horrible possibilities that never happen in
the real world and devising doctrines sufficiently comprehensive
in detail to cover the remotest contingency. Nor do we need go
beyond what is required for a reasoned disposition of the kind of
controversy now before the Court.” Garcia, 469 U.S. 528 (quoting
New York v. United States, 326 U.S. 572, 583 (1946) (Frankfurter, J.)). Though a ridiculous law can be imagined, it is unnecessary to fence off an inviolable area of sovereignty reserved to the
states in order to prevent it. And it bears emphasizing that we
nowhere contend, as JUDGE DUNCAN pretends, that Tenth
Amendment principles like the anticommandeering doctrine
“vanish” in the face of Congress’s plenary authority over Indian
affairs. DUNCAN, CIRCUIT JUDGE, OP. at 69. This is a strawman,
as evidenced by the fact that we specifically address Plaintiffs’
anticommandeering contentions after concluding that ICWA is

143a
To summarize, ICWA is a law of the United States
made in pursuance of the Congress’s constitutional
within the subject matter upon which Congress is authorized to
legislate.
Moreover, it is unclear precisely what point JUDGE DUNCAN
is attempting to make with his parade of supposed horribles. He
appears to consider it obvious that his imagined laws would “of
course” exceed Congress’s power solely because they set standards applicable to state causes of action in state court proceedings. DUNCAN, CIRCUIT JUDGE, OP. at 35. But, as JUDGE DUNCAN
himself fully acknowledges elsewhere in his opinion, it is well established that Congress can validly set substantive standards in
state court proceedings when acting pursuant to its Article I powers, including by “altering” the substance of state causes of action. DUNCAN, CIRCUIT JUDGE, OP. at 102-03 (“The Supreme
Court has ruled that federal standards may supersede state
standards even in realms of traditional state authority such as
family and community property law. . . . [W]henever a federal
standard supersedes a state standard, the federal standard can
be said to ‘modify a state created cause of action.’”); see also
Jinks, 538 U.S. at 464-65 (holding that federal laws that “change
the ‘substance’ of state-law rights of action” do not violate state
sovereignty). And, while JUDGE DUNCAN expresses some doubt
as to Congress’s authority to regulate the procedure by which
state courts’ handle state-created causes of action, he wholly concedes that ICWA creates substantive standards, not procedural
ones. DUNCAN, CIRCUIT JUDGE, OP. at 102 (“ICWA enacts substantive child-custody standards applicable in state child custody proceedings . . . To the extent those substantive standards
compel state courts . . . we conclude they are valid preemption
provisions.”). Thus, if JUDGE DUNCAN is arguing that his hypothetical laws would outstrip Congress’s power because they
would regulate state court procedure rather than substance, he
has already conceded that ICWA is not like those laws. And if
he is arguing that the laws would be unconstitutional merely because they apply to state causes of actions in state court proceedings, his position is squarely contradicted by on-point Supreme
Court precedent and his own words in this very case.

144a
authority. Further, ICWA does not violate the anticommandeering doctrine because it does not directly
command state legislatures or executive officials to
enact or administer a federal program. Rather, any
burden it places on state actors is incidental and falls
evenhandedly on private parties participating in the
same regulated activity.
Under the Supremacy
Clause, then, ICWA is the supreme law of the land,
and judges in every state shall be bound thereby.
ICWA and the Final Rule therefore preempt conflicting state law, and the district court erred by concluding otherwise.
B. Equal Protection
The Equal Protection Clause of the Fourteenth
Amendment prohibits states from “deny[ing] to any
person within its jurisdiction the equal protection of
the laws.” U.S. CONST. amend. 14, § 1. This clause is
implicitly incorporated into the Fifth Amendment’s
guarantee of due process. See Bolling v. Sharpe, 347
U.S. 497, 499 (1954). We apply the same analysis
with respect to equal protection claims under the Fifth
and Fourteenth Amendments. See Richard v. Hinson,
70 F.3d 415, 417 (5th Cir. 1995). In evaluating an
equal protection claim, strict scrutiny applies to laws
that rely on classifications of persons based on race.
See id. But where the classification is political, rational basis review applies. See Mancari, 417 U.S. at
555. This means that the law is strongly presumed to
be constitutional, and we will invalidate it only when
the classification bears no rational connection to any
legitimate government purpose. See F.C.C. v. Beach
Commc’ns, Inc., 508 U.S. 307, 314-15 (1993).

145a
The district court granted summary judgment to
the Plaintiffs, concluding that § 1903(4)—setting
forth ICWA’s definition of “Indian child” for purposes
of determining when ICWA applies in state Indian
child custody proceedings—is a racial classification
that cannot withstand strict scrutiny.48 Because
ICWA’s provisions are based on classifications of Indians, such as “Indian child,” “Indian family,” and “Indian foster home,” we must first examine whether
these are political or race-based classifications and
thus which level of scrutiny applies. “We review the
constitutionality of federal statutes de novo.” Nat’l Rifle Ass’n of Am., Inc. v. Bureau of Alcohol, Tobacco,
Firearms, & Explosives, 700 F.3d 185, 192 (5th Cir.
2012).
1. Level of Scrutiny
Congress has exercised plenary power “over the
tribal relations of the Indians . . . from the beginning.”
Lone Wolf, 187 U.S. at 565. The Supreme Court’s decisions “leave no doubt that federal legislation with respect to Indian tribes . . . is not based upon impermissible racial classifications.” United States v. Antelope,
430 U.S. 641, 645 (1977). “Literally every piece of legislation dealing with Indian tribes and reservations
. . . single[s] out for special treatment a constituency
48
As described above, we conclude that Plaintiffs have standing to challenge 25 U.S.C. § 1915(a) to (b) and Final Rule
§§ 23.129 to 23.132 on equal protection grounds. The district
court’s analysis of whether the ICWA classification was political
or race-based focused on § 1903(4), presumably because
§ 1903(4) provides a threshold definition of “Indian child” that
must be met for any provision of ICWA to apply in child custody
proceedings in state court.

146a
of tribal Indians living on or near reservations.”
Mancari, 417 U.S. at 552. “If these laws, derived from
historical relationships and explicitly designed to help
only Indians, were deemed invidious racial discrimination, an entire Title of the United States Code (25
U.S.C.) would be effectively erased and the solemn
commitment of the Government toward the Indians
would be jeopardized.” Id.
In the foundational case of Morton v. Mancari, the
Supreme Court rejected an equal-protection challenge
to a BIA employment preference for Indians over nonIndians that applied regardless of whether the Indian
beneficiary lived or worked on or near a reservation.
Id. at 539 n.4, 555. The Court began by noting that
Congress has repeatedly enacted preferences for Indians like the one at issue and that these preferences
have several overarching purposes: “to give Indians a
greater participation in their own self-government; to
further the Government’s trust obligation toward the
Indian tribes; and to reduce the negative effect of having non-Indians administer matters that affect Indian
tribal life.” Id. at 541-42 (footnotes omitted). The
Court then stated that central to the resolution of
whether the preference constituted a political or racial
classification was “the unique legal status of Indian
tribes under federal law and . . . the plenary power of
Congress, based on a history of treaties and the assumption of a ‘guardian-ward’ status, to legislate on
behalf of federally recognized Indian tribes.” Id. at
551.
In view of this “historical and legal context,” the
Court upheld the preference, determining that it
served a “legitimate, nonracially based goal.” Id. at
553-54. Specifically, the preference was “reasonably

147a
designed to further the cause of Indian self-government and to make the BIA more responsive to the
needs of its constituent groups.” Id. at 554. Significantly, the Court observed that because the preference was limited to members of federally recognized
tribes, it thus was “not directed towards a ‘racial’
group consisting of ‘Indians’ . . . In this sense, the
preference is political rather than racial in nature.”
Id. at 553 n.24. This was true even though individuals
were also required to possess “one-fourth or more degree Indian blood” to be eligible for the preference. Id.
The ruling, moreover, was consistent with “numerous’
Court decisions upholding legislation that singled out
Indians for special treatment. Id. at 554-55. The
Court concluded its opinion by broadly holding that
“[a]s long as the special treatment can be tied rationally to the fulfillment of Congress’ unique obligation
toward the Indians, such legislative judgments will
not be disturbed.” Id. at 555.
The district court erroneously construed Mancari
narrowly and sought to distinguish it from ICWA for
two primary reasons. First, the district court read
Mancari’s blessing of special treatment for Indian to
be limited to laws “directed at Indian self-government
and affairs on or near Indian lands.” The district
court apparently concluded that ICWA did not meet
either of these requirements, and reasoned that strict
scrutiny therefore applied. Second, the district court
observed that ICWA’s definition of Indian child—
which includes children under eighteen years of age
who are eligible for membership in a federally recognized tribe and have a biological parent who is a member of a tribe, 25 U.S.C. § 1903(4)(b)—extends beyond
members of federally recognized tribes, whereas the

148a
preference in Mancari was restricted to current tribal
members and thus “operated to exclude many individuals who are racially to be classified as Indians.” Citing tribal membership laws that include a requirement of lineal descent, see, e.g., NAVAJO NATION CODE
§ 701, the district court concluded that, since ICWA
covers Indian children who are eligible for membership in a tribe, “[t]his means one is an Indian child
[within the meaning of ICWA] if the child is related to
a tribal ancestor by blood.” In the view of the district
court, ICWA therefore “uses ancestry as a proxy for
race,” and the law is therefore subject to strict scrutiny.
We disagree with the district court’s reasoning
and conclude that Mancari stands for the broader
proposition that as long as “legislation that singles out
Indians for . . . special treatment can be tied rationally
to the fulfillment of Congress’ unique obligation toward the Indians,” the statute “will not be disturbed.”
Mancari, 417 U.S. at 554-55. In other words, if a statute is reasonably related to the special governmentto-government political relationship between the
United States and the Indian tribes, it does not violate
equal protection principles. Mancari—and its progeny—confirm that classifications relating to Indians
need not be specifically directed at Indian self-government to be considered political classifications for
which rational basis scrutiny applies. Id. at 555 (“As
long as the special treatment can be tied rationally to
the fulfillment of Congress’ unique obligation toward
the Indians, such legislative judgments will not be disturbed.”); see also, e.g., Washington v. Confederated
Bands & Tribes of Yakima Indian Nation, 439 U.S.
463, 500-01 (1979) (“It is settled that ‘the unique legal

149a
status of Indian tribes under federal law’ permits the
Federal Government to enact legislation singling out
tribal Indians, legislation that might otherwise be
constitutionally offensive.” (quoting Mancari, 417
U.S. at 551-52)).
In United States v. Antelope, for instance, the
Court expressly recognized that, although some of its
earlier decisions relating to Indians “involved preferences or disabilities directly promoting Indian interests in self-government,” its precedent “point[s] more
broadly to the conclusion that federal regulation of Indian affairs is not based upon impermissible classifications.” 430 U.S. 641, 646-47 (1977) (first citing
Mancari, 417 U.S. at 553 n.24; then citing Fisher v.
District Court, 424 U.S. 382 (1976) (per curiam))
(holding that a federal statute subjecting individual
Indians to federal criminal jurisdiction due to their
status as tribal members did not violate equal protection); see also, e.g., Washington v. Wash. State Comm.
Passenger Fishing Vessel Ass’n, 443 U.S. 658, 673 n.20
(1979) (determining that a treaty granting Indians
certain preferential fishing rights did not violate
equal protection because the Court “has repeatedly
held that the peculiar semisovereign and constitutionally recognized status of Indians justifies special
treatment on their behalf when rationally related to
the Government’s ‘unique obligation toward the Indians’” (quoting Mancari, 417 U.S. at 555)); Moe v. Confederated Salish & Kootenai Tribes, 425 U.S. 463, 47980 (1976) (sustaining tribal members’ immunity from
state sales tax for cigarettes sold on the reservation
and explaining that “[a]s long as the special treatment
can be tied rationally to the fulfillment of Congress’
unique obligation toward the Indians, such legislative

150a
judgments will not be disturbed.” (quoting Mancari,
417 U.S. at 555)).
Moreover, even if preferences for Indians were
limited to those directly furthering tribal self-government—a proposition that, as demonstrated, is unsupportable—it is clear that ICWA is aimed squarely at
this legislative purpose. As discussed, prior to enacting ICWA, Congress considered testimony about the
devastating impacts of removing Indian children from
tribes and placing them for adoption and foster care
in non-Indian homes. See supra Background Part IV.
The Tribal Chief of the Mississippi Band of Choctaw
Indians, we noted, testified that “the chances of Indian survival are significantly reduced” by removing
Indian children from their homes and raising them in
non-Indian households where they are “denied exposure to the ways of their People . . . [T]hese practices
seriously undercut the tribes’ ability to continue as
self-governing communities. Probably in no area is it
more important that tribal sovereignty be respected
than in an area as socially and culturally determinative as family relationships.” Hearing on S. 1214 before the S. Select. Comm. on Indian Affairs, 95th Cong.
157 (1977).
This testimony undoubtedly informed Congress’s
finding that children are the most vital resource “to
the continued existence and integrity of Indian
tribes,” which itself reflects Congress’s intent to further tribal self-government. 25 U.S.C. § 1901(3).
Moreover, the Supreme Court has recognized that in
enacting ICWA, “Congress was concerned not solely
about the interests of Indian children and families,
but also about the impact on the tribes themselves of
the large numbers of Indian children adopted by non-

151a
Indians. The numerous prerogatives accorded the
tribes through ICWA’s substantive provisions must,
accordingly, be seen as a means of protecting not only
the interests of individual Indian children and families, but also of the tribes themselves.” Holyfield, 490
U.S. at 50 (internal citations omitted)); see also id.
(noting evidence before Congress at the time ICWA
was considered that the “[r]emoval of Indian children
from their cultural setting seriously impacts . . . longterm tribal survival” (quoting S. REP. No. 597, 95th
Cong., 2d Sess. 52 (1977)). Thus, it is clear that Congress intended ICWA to further both tribal self-government and the survival of tribes. See 25 U.S.C.
§ 1901(3); see also COHEN’S, supra § 11.01[2] (“ICWA’s
objective of promoting the stability and security of Indian tribes and families encompasses the interest of
Indian nations in their survival as peoples and selfgoverning communities . . . .”).
We also are unpersuaded by the district court’s
reasoning that differential treatment for Indians is
only subject to rational basis review when it applies to
Indians living on or near reservations. The Supreme
Court has long recognized Congress’s broad power to
regulate Indians and Indian tribes on and off the reservation. See, e.g., United States v. McGowan, 302
U.S. 535, 539 (1938) (“Congress possesses the broad
power of legislating for the protection of the Indians
wherever they may be within the territory of the
United States.” (quoting United States v. Ramsey, 271
U.S. 467, 471 (1926)); Perrin, 232 U.S. at 482 (acknowledging Congress’s power to regulate Indians
“whether upon or off a reservation and whether within
or without the limits of a state”). And courts have repeatedly upheld government preferences for Indians,

152a
regardless as to whether the Indians receiving “special treatment” were located on or near a reservation.
See, e.g., Am. Fed’n of Gov’t Emps. v. United States,
330 F.3d 513, 516, 521 (D.C. Cir. 2003) (rejecting an
equal protection challenge to a federal defense spending measure that provided a contracting preference
for firms with less than “51 percent Native American
ownership” even though the preference was “not restricted to Indian activities on or near reservations or
Indian land”). Indeed, the preference in Mancari itself did not require that the Indians benefiting from
the employment preference live on or near a reservation, and the non-Indian employees who challenged
the preference averred that “none of them [were] employed on or near an Indian reservation.” Mancari,
417 U.S. at 539 n.4.
The district court’s additional rationale for finding
an equal protection violation here—that unlike the
statute in Mancari, ICWA’s definition of Indian child
extends to children who are only eligible for membership but not-yet enrolled in a tribe—is also flawed.
Though the district court made much of the fact that
a child’s tribal eligibility generally turns on having a
blood relationship with a tribal ancestor, this does not
equate to a proxy for race, as the district court believed.
Originally, Indian tribes “were self-governing sovereign political communities.” Wheeler, 435 U.S. at
322-23; see also Sarah Krakoff, Inextricably Political:
Race, Membership, and Tribal Sovereignty, 87 WASH.
L. REV. 1041 (2012) [hereinafter Krakoff]. The Constitution, moreover, recognizes tribes’ political status
both explicitly and implicitly. See, e.g., U.S. CONST.

153a
art. I, § 8 (empowering Congress “to regulate commerce with foreign Nations, among the several States,
and with the Indian Tribes”). And as explained, the
history of the post-ratification period demonstrates
that the federal government treated tribes as quasisovereigns from the very start.49 See Ablavsky, Beyond the Indian Commerce Clause, supra at 1061-67.
Though the relationship between the government and
the tribes has evolved since then, it has always been
considered a relationship between political entities.
See Cherokee Nation v. Georgia, 30 U.S. (5 Pet.) 1, 16
(1831) (Marshall, C.J.) (describing Indian tribes as
“domestic dependent nations”); Kahawaiolaa v. Norton, 386 F.3d 1271, 1278 (9th Cir. 2004) (“Historically,
the formal relationship between the United States
and American Indian tribes has been political, rather
than race-based.”); COHEN’S, supra § 4.01[1][a]; see
generally Krakoff, supra, at 1060-78.
Beginning in 1934 with passage of the Indian Reorganization Act, the federal government entered into
a new chapter wherein it officially acknowledged Indian tribes’ rights of self-governance by authorizing

49
To be sure, this course of dealing was not between powers on
equal footing; the Court, as noted, has described the tribes as
“wards of the nation” and “dependent on the United States,”
which, in turn, owes a “duty of protection” to Indian tribes.
Kagama, 118 U.S. at 383-84 (emphasis omitted); see also
Mancari, 417 U.S. at 551 (characterizing the relationship between the tribes and federal government as that of “guardianward”). But this dependent, quasi-sovereign status does not
change that tribes are fundamentally political bodies with whom
the federal government must manage relations as with any other
nation.

154a
tribes to apply for federally-recognized status. See Indian Reorganization Act, 25 U.S.C. §§ 5101 et seq. Official federal recognition of Indian tribes is “a formal
political act” that “institutionaliz[es] the governmentto-government relationship between the tribe and the
federal government.” Cal. Valley Miwok Tribe v.
United States, 515 F.3d 1262, 1263 (D.C. Cir. 2008)
(quoting COHEN’S, supra § 3.02[3] (2005 ed.)); see also
Krakoff, supra, at 1075. Though inevitably tied in
part to ancestry, tribal recognition and tribal sovereignty center on a group’s status as a continuation of
a historical political entity. See 25 C.F.R. § 83.11(c),
(e) (criteria for a tribe to receive federal recognition
include that the tribe has “maintained political influence or authority over its members as an autonomous
entity from 1900 until the present” and that its members “descend from a historical Indian tribe”); Sarah
Krakoff, They Were Here First: American Indian
Tribes, Race, and the Constitutional Minimum, 69
STAN. L. REV. 491, 538 (2017) (explaining that the descent criterion for federal recognition is “a proxy for
connection[] to a political entity, specifically a tribe,
which existed historically”); Federal Acknowledgment
of American Indian Tribes, 80 Fed. Reg. 37862, 37,867
(2015). In this way, federally recognized tribal status
is an inherently political classification. See Mancari,
417 U.S. at 553 n.24.
In view of this history, we cannot say that simply
because ICWA’s definition of “Indian child” includes
minors eligible for tribal membership (who have a biological parent who is a tribal member), the classification is drawn along racial lines. Tribal eligibility does
not inherently turn on race, but rather on the criteria

155a
set by the tribes, which are present-day political entities.50 Just as the United States or any other sovereign may choose to whom it extends citizenship, so too
may the Indian tribes.51 That tribes may use ancestry
50
As the Tribes explain, under some tribal membership laws,
eligibility extends to children without Indian blood, such as the
descendants of persons formerly enslaved by tribes who became
members after they were freed or the descendants of persons of
any ethnicity who have been adopted into a tribe. See, e.g.,
Treaty with the Cherokees, 1866, U.S.—Cherokee Nation of Indians, art. 9, July 19, 1866, 14 Stat. 799 (providing that the Cherokee Nation “further agree that all freedmen who have been liberated by voluntary act of their former owners or by law, as well
as all free colored persons who were in the country at the commencement of the rebellion, and are now residents therein, or
who may return within six months, and their descendants, shall
have all the rights of native Cherokees”); Cherokee Nation v.
Nash, 267 F. Supp. 3d 86, 132, 140-41 (D.D.C. 2017) (holding that
Cherokee Freedmen enjoy full citizenship rights as members of
the Cherokee Nation because Congress has never abrogated or
amended the relevant treaty terms). Accordingly, a child may
fall under ICWA’s membership eligibility standard because his
or her biological parent became a member of a tribe, despite not
being racially Indian. Additionally, many racially Indian children, such as those affiliated with non-federally recognized
tribes, do not fall within ICWA’s definition of “Indian child.”
When it comes to ICWA’s definition of Indian child, race is thus
both underinclusive—because it does not capture these descendants of freed enslaved persons or other adoptive members who
are not “racially” Indians—and overinclusive—because it embraces “racially” Indian children who are not enrolled in or eligible for membership in a recognized tribe or who lack a biological
parent who is a member of a recognized tribe.
51

For illustrative purposes, we note that jus sanguinis, or citizenship based on descent, is a common feature of the citizenship
laws of foreign nations. See, e.g., Irish Nationality and Citizenship Act, 2001 (Act. No. 15/2001) (Ir.) (individuals with any direct
ancestor who was an Irish citizen are eligible for Irish ancestry,

156a
as part of their criteria for determining membership
eligibility does not change that ICWA does not classify
in this way; instead, ICWA’s Indian child designation
classifies on the basis of a child’s connection to a polit-

provided that the applicant’s parent was recorded in Ireland’s
foreign births register); Kodikas Ellenikes Ithageneias [KEI]
[Code of Greek Citizenship] A:1,10 (Gr.) (establishing that children of Greek parents are Greek by birth, and providing that aliens of Greek ethnic origin are eligible to obtain citizenship by
naturalization); The Law of the Republic of Armenia on the Citizenship of the Republic of Armenia (Nov. 6, 1995), as amended
through Feb. 26, 2017, by RA Law No. 75-N (Arm.) (providing
that a person may be granted Armenian citizenship without residing in Armenia or speaking Armenian if he or she is of Armenian ancestry); Law of Return, 5710-1950, SH No. 51 p. 159
(1950) (Isr.) (extending the right of citizenship to any “Jew” wishing to immigrate to Israel); Law of Return (Amendment No. 2),
5730-1970, SH No. 586 p. 34 (1970) (Isr.) (clarifying that “Jew”
means any person born of a Jewish mother or who converted to
Judaism, and vesting the right of citizenship in any child, grandchild, or spouse of a Jew, as well as any spouse of a child of a Jew
or any spouse of a grandchild of a Jew); Legge 5 febbraio 1992,
no. 91, G.U. Feb. 15, 1992, n.38 (It.) (guaranteeing citizenship to
any person whose father or mother are citizens, and providing
that Italian citizenship may be granted to aliens whose father or
mother or whose direct ancestors to the second degree were citizens by birth); Law of 2 April 2009 on Polish Citizenship, Dz. U.
z. 2012 r. poz. 161 (Feb. 14, 2012) (Pol.) (stating that individuals
within two degrees of Polish ancestry may be eligible for Polish
citizenship). That one may be eligible for citizenship based on
their ancestry does not, of course, alter the fact that citizenship
and eligibility therefor—like actual and potential membership in
a federally recognized tribe—are political matters concerning the
rights and obligations that come from membership in a polity.

157a
ical entity based on whatever criteria that political entity may prescribe.52 See Santa Clara Pueblo v. Martinez, 436 U.S. 49, 72 n.32 (1978) (“A tribe’s right to
define its own membership for tribal purposes has
long been recognized as central to its existence as an
independent political community.”).
The district court determined, and Plaintiffs now
argue, that ICWA’s definition of “Indian child” “mirrors the impermissible racial classification in Rice [v.

52
Moreover, even if ICWA did classify on the basis of blood
quantum as do some other laws respecting Indian affairs, it does
not necessarily follow that strict scrutiny would apply. See generally Matthew L.M. Fletcher, Politics, Indian Law, and the Constitution, 108 CAL. L. REV. 495, 532-46 (2020) (arguing that,
based on the historical understanding of the Indian affairs
power, Congress has complete authority to determine who is an
Indian and it is never a suspect classification); Mancari, 417 U.S.
at 552 (applying rational basis review to law that classified on
the basis of blood quantum). Because ICWA simply looks to
tribal eligibility and the tribal membership of a child’s birth parents, we need not decide what level of scrutiny applies when Congress classifies on the basis of more remote Indian ancestry. We
note, however, that some scholars have explained that “the appearance of ‘Indian’ within the [text of the] U.S. Constitution
likely dooms [any] equal protection challenge to Indian classifications.” Gregory Ablavsky, Race, Citizenship, and Original
Constitutional Meanings 70 STAN. L. REV. 1025, 1074 (2018). Either the use of “‘Indian’ in the Constitutional is a political classification” and thus “the use of Indian in ICWA and similar statutes must also be read as a political classification,” or the references to Indians in the Constitution must be understood as
“bound up with historical conceptions of race” and “the Constitution itself” therefore acknowledges and “authorizes distinctions
based on Native ancestry.” Id.

158a
Cayetano, 528 U.S. 495 (2000)], and is legally and factually distinguishable from the political classification
in Mancari.” We disagree.
In Rice, the Court held that a provision of the Hawaiian Constitution that permitted only “Hawaiian”
people to vote in the statewide election for the trustees
of the Office of Hawaiian Affairs (OHA) violated the
Fifteenth Amendment. Id. at 515. “Hawaiian” was defined by statute as “any descendant of the aboriginal
peoples inhabiting the Hawaiian Islands which exercised sovereignty and subsisted in the Hawaiian Islands in 1778, and which peoples thereafter have continued to reside in Hawai[‘]i.” Id. at 509 (citation and
internal quotation marks omitted). The Court emphasized that the statute classified citizens “solely because of their ancestry,” determining that the legislature’s purpose in doing so was to use ancestry as a
proxy for race. Id. at 514-17. In reaching its ruling,
the Rice Court expressly reaffirmed Mancari’s central
holding that, because classifications based on Indian
tribal membership are “not directed towards a ‘racial’
group consisting of ‘Indians,’” but instead apply “only
to members of ‘federally recognized’ tribes,” they are
“political rather than racial in nature.” Rice, 528 U.S.
at 519-20 (quoting Mancari, 417 U.S. at 553 n.24).
The facts and legal issues in Rice are clearly distinguishable from the present case. As a threshold
matter, Rice specifically involved voter eligibility in a
state-wide election for a state agency, and the Court
found only that the law at issue violated the Fifteenth
Amendment. As should be obvious, the Fifteenth
Amendment, which deals exclusively with voting
rights, is not implicated in this case. But even assuming Rice’s holding would apply to an equal protection

159a
challenge, ICWA’s definition of “Indian child” is a fundamentally different sort of classification than the
challenged law in Rice.
The Court in Rice specifically noted that native
Hawaiians did not enjoy the same status as members
of federally recognized tribes, who are constituents of
quasi-sovereign political communities. Id. at 522. Instead, ancestry was the sole, directly controlling criteria for whether or not an individual could vote in the
OHA election. But unlike the ancestral requirement
in Rice, ICWA’s eligibility standard simply recognizes
that some Indian children have an imperfect or inchoate tribal membership. That is, the standard embraces Indian children who possess a potential but
not-yet-formalized affiliation with a current political
entity—a federally recognized tribe. See Mancari, 417
U.S. at 553 n.24.
An appreciation for how tribal membership works
makes this manifest. As Congress understood in enacting ICWA, tribal membership “typically requires
an affirmative act by the enrollee or her parent,” 81
Fed. Reg. at 38,782, and a “minor, perhaps infant, Indian does not have the capacity to initiate the formal,
mechanical procedure necessary to become enrolled in
his tribe,” H.R. REP. NO. 95-1386, at 17 (1978). Thus,
Congress was not drawing a racial classification by including the eligibility requirement but instead recognizing the realities of tribal membership and classifying based on a child’s status as a member or potential
member of a quasi-sovereign political entity, regardless of his or her ethnicity. And because ICWA does
not single out children “solely because of their ancestry or ethnic characteristics,” Rice, 528 U.S. at 515,
Rice is inapposite.

160a
In short, we find Rice wholly inapplicable except
insofar as it reaffirmed the holdings of Mancari and
its progeny that laws that classify on the basis of Indian tribal membership are political classifications. It
therefore does not alter our conclusion that ICWA’s
definition of “Indian child” is a political classification
subject to rational basis review. See Mancari, 417
U.S. at 555.
Plaintiffs also separately contend that ICWA’s
lowest-tiered adoptive placement preference for
“other Indian families” constitutes a racial classification.53 See 25 U.S.C. § 1915(a)(3). This preference,
they argue, treats Indian tribes as “fungible” and does
not account for the array of differences between tribes,
which, in turn, evinces a desire to keep Indian children within a larger Indian “race.” We disagree for
reasons similar to our holding regarding ICWA’s Indian child designation. Like the hiring preference in
Mancari, this adoption placement preference—like all
of ICWA’s placement preferences—”applies only to
members of federally recognized tribes.” Mancari,
417 U.S. at 554 n.24 (internal quotation marks omitted); see also 25 U.S.C. § 1903(3) (defining “Indian” as
encompassing only members of federally recognized
tribes). Because on its face the provision is limited to
53

25 U.S.C. § 1915(a) provides:
In any adoptive placement of an Indian child under State
law, a preference shall be given, in the absence of good
cause to the contrary, to a placement with
(1) a member of the child’s extended family;
(2) other members of the Indian child’s tribe; or
(3) other Indian families.

161a
“members of federally recognized tribes,” “the preference is political rather than racial in nature.”
Mancari, 417 U.S. at 554 n.24 (internal quotation
marks omitted). Accordingly, it, too, is subject only to
rational basis review.54
2. Rational Basis Review
Having determined that ICWA’s Indian child and
family designations are political classifications, we
need look no further than Rice to determine their constitutionality. Even in setting aside the Hawai’i election law at issue, the Court stated in no uncertain
terms that statutes that fulfill “Congress’ unique obligation toward the Indians” are constitutional. Id. at
520 (quoting Mancari, 417 U.S. at 555). “Of course,”
the Rice Court elaborated, “as we have established in
a series of [post-Mancari] cases, Congress may fulfill
its obligations and responsibilities to the Indian tribes
by enacting legislation dedicated to their circumstances and needs.” Id. at 519 (citing Wash. State
Comm. Passenger Fishing Vessel Ass’n, 443 U.S. at
673 n.20; Antelope, 430 U.S. at 645-47; Del. Tribal
Bus. Comm. v. Weeks, 430 U.S. 73, 84-85 (1977); Moe,
425 U.S. at 479-80; Fisher, 424 U.S. at 390-91).
This is precisely what ICWA does. We have already described at length the “circumstances and
needs” that gave rise to ICWA. Id.; see supra Background Part IV-V. Suffice it to say that, in enacting
the statute, Congress explicitly found that “an alarmingly high percentage of Indian families are broken up
54
For the same reasons, ICWA’s foster care placement preferences based on tribal membership trigger only rational basis review. See 25 U.S.C. § 1915(b).

162a
by the removal, often unwarranted, of their children
from them by nontribal public and private agencies
and that an alarmingly high percentage of such children are placed in non-Indian foster and adoptive
homes and institutions.” 25 U.S.C. § 1901(4). It further concluded “that the States, exercising their recognized jurisdiction over Indian child custody proceedings through administrative and judicial bodies,
have often failed to recognize the essential tribal relations of Indian people and the cultural and social
standards prevailing in Indian communities and families.” Id. § 1901(5). It therefore enacted ICWA “to
protect the best interests of Indian children and to
promote the stability and security of Indian tribes and
families.” Id. U.S.C. § 1902. By systematically favoring the placement of Indian children with Indian
tribes and families in child custody proceedings, Congress sought to ensure that children who are eligible
for tribal membership are raised in environments that
engender respect for the traditions and values of Indian tribes, thereby increasing the likelihood that the
child will eventually join a tribe and contribute to “the
continued existence and integrity of Indian tribes.”
Id. § 1901(3). It cannot be reasonably gainsaid that
these measures have some rational connection to Congress’s goal of fulfilling its broad and enduring trust
obligations to the Indian tribes.55 See Mancari, 417
U.S. at 555. Indeed, JUDGE DUNCAN does not truly argue to the contrary. Instead, he raises what amount
55
In addition to the reasons stated above, that ICWA furthers
Congress’s legislative aim of discharging its duties to tribes is
strongly suggested by the fact that 486 federally recognized
tribes—over 80% of all such tribes in this nation—have joined as
amici in support of upholding ICWA’s constitutionality.

163a
to two arguments that ICWA uses impermissible
means to further Congress’s obligations to the Indian
tribes.
First, JUDGE DUNCAN argues that ICWA is irrational because it extends beyond internal tribal affairs
and intrudes into state proceedings. DUNCAN, CIRCUIT JUDGE, OP. at 65. As we discuss at length when
addressing Plaintiffs’ federalism-based arguments,
ICWA’s creation of federal rights that state courts
must honor is not a violation of state sovereignty.
More fundamentally, however, the degree to which a
law intrudes on state proceedings has no bearing on
whether that law is rationally linked to protecting Indian tribes. One can imagine any number of overbearing measures that would advantage Indians at the expense of the states or other members of society that
would nonetheless promote Indian welfare. A federal
law could simply effectuate a direct transfer of wealth
from state coffers to the Indian tribes, for example,
which would almost certainly run afoul of various constitutional provisions. But there would be no debate
that the law rationally furthered the well-being of
tribes, which is sufficient to overcome an equal protection challenge when rational basis review applies. See
Nordlinger v. Hahn, 505 U.S. 1, 10 (1992) (“[U]nless a
classification warrants some form of heightened review because it jeopardizes exercise of a fundamental
right or categorizes on the basis of an inherently suspect characteristic, the Equal Protection Clause requires only that the classification rationally further a
legitimate [government] interest.”).
Though JUDGE DUNCAN couches this objection as
an aspect of rational basis review, he appears to apply

164a
a far more searching standard of scrutiny.56 For example, he relies on the Rice Court’s statement that,
56
JUDGE DUNCAN contends that he is “faithfully following the
tailoring analysis for Indian classifications laid out by Mancari,
Rice, and Adoptive Couple.” DUNCAN, CIRCUIT JUDGE, OP. at 64
n.93. But the Supreme Court has expressly stated that “classifications based on tribal status” are not “suspect,” Confederated
Bands & Tribes of Yakima Indian Nation, 439 U.S. at 501, and,
again, the Court has repeatedly reaffirmed that laws that neither infringe on a fundamental right nor involve a suspect classification warrant only rational basis review, which does not include the type of “tailoring analysis” JUDGE DUNCAN employs.
See, e.g., Beach Commc’ns, Inc., 508 U.S., at 313 (“In areas of social and economic policy, a statutory classification that neither
proceeds along suspect lines nor infringes fundamental constitutional rights must be upheld against equal protection challenge
if there is any reasonably conceivable state of facts that could
provide a rational basis for the classification.”). If JUDGE DUNCAN reads the cases he cites to sub silentio overrule Supreme
Court precedent to establish that Indian classifications are inherently suspect or otherwise subject to a stricter tailoring requirement than any other non-suspect classification, his conclusion runs counter to virtually every federal appeals court to have
explicitly considered the issue. See, e.g., Am. Fed’n of Gov’t Employees, AFL-CIO v. United States, 330 F.3d 513, 520 (D.C. Cir.
2003) (“[O]rdinary rational basis scrutiny applies to Indian classifications just as it does to other non-suspect classifications under equal protection analysis.”(citation omitted)); Artichoke Joe’s
California Grand Casino v. Norton, 353 F.3d 712, 732 (9th Cir.
2003) (“The [Mancari] Court held that legislative classifications
furthering that same purpose were political and, thus, did not
warrant strict scrutiny instead of ordinary, rational-basis scrutiny[.]”). In other words, it is firmly established that ordinary
rational basis scrutiny applies in an equal protection challenge
to an Indian classification, and under standard rational basis review, factors like the degree of intrusion on state sovereignty are
simply not relevant to whether one can imagine a legitimate government interest furthered by the classification.

165a
because the OHA elections in that case affected the
state as a whole, extending “Mancari to th[at] context
would [] permit a State, by racial classification, to
fence out whole classes of its citizens from decisionmaking in critical state affairs.” DUNCAN, CIRCUIT JUDGE, OP. at 61-62 (quoting 528 U.S. at 522). As
we have stated, though, Rice centered on the Fifteenth
Amendment, and even if the law were instead examined under the Fourteenth Amendment, it would be
subject to strict scrutiny because it classified on the
basis of race and discriminated with respect to a fundamental constitutional right. See Nordlinger, 505
U.S. at 10. ICWA does neither. See San Antonio Indep. Sch. Dist. v. Rodriguez, 411 U.S. 1, 33 (1973)
(limiting “fundamental rights” for purposes of equal
protection analysis to those rights protected by the
constitution). Thus, whether ICWA incidentally disadvantages some groups in state court proceedings is
of no moment. See Romer v. Evans, 517 U.S. 620, 632
(1996) (stating that “a law will be sustained” on rational basis review “if it can be said to advance a legitimate government interest, even if the law seems unwise or works to the disadvantage of a particular
group, or if the rationale for it seems tenuous” (citing
New Orleans v. Dukes, 427 U.S. 297 (1976))).
Moreover, even if such a factor were relevant to
ICWA’s validity, we would disagree that the law’s purpose or effect is analogous to the Hawai’i law at issue
in Rice. Unlike the OHA election qualifications,
ICWA regulates relations between states, the federal
government, and the Indian tribes. The law is an example of congressional control over federal-tribal affairs—an interest completely absent in Rice. See Rice,

166a
528 U.S. at 518 (noting that to sustain Hawai’i’s restriction under Mancari, it would have to “accept some
beginning premises not yet established in [its] case
law,” such as that Congress “has determined that native Hawaiians have a status like that of Indians in
organized tribes”); see also Kahawaiolaa, 386 F.3d at
1279 (rejecting an equal protection challenge brought
by Native Hawaiians, who were excluded from the
U.S. Department of the Interior’s formal tribal
acknowledgement process, and concluding that the
recognition of Indian tribes was political). Thus, there
is no concern that ICWA excludes a class of citizens
from participation in their own self-government; even
when ICWA reaches into state court adoption proceedings, those proceedings are simultaneously affairs of
states, tribes, and Congress. See 25 U.S.C. § 1901(3)
(“[T]here is no resource that is more vital to the continued existence and integrity of Indian tribes than
their children.”). The Rice Court’s caution against
fencing off a class of citizens from participation in
state affairs thus does not apply to ICWA for multiple
reasons.
What remains of JUDGE DUNCAN’s contentions
amount to objections that ICWA’s Indian child and
family designations are under- and over-inclusive.
ICWA applies to Indian children who are only eligible
for tribal membership and may never join a tribe, he
points out, as well as when an Indian child’s biological
parents do not oppose placement of an Indian child
with a non-Indian family. Based on this, JUDGE DUNCAN argues that the law could be applied in scenarios
where it does not further Congress’s goals of ensuring
the continued survival of Indian tribes and preventing
the unwilling breakup of Indian families. DUNCAN,

167a
CIRCUIT JUDGE, OP. at 67-71. Similarly, because
ICWA in some instances favors placement of an Indian child with an Indian family of a different tribe
over placement with a non-Indian family, JUDGE DUNCAN contends that the statute treats the tribes as fungible and does not always promote Congress’s goal of
linking Indian children with their particular tribes.
DUNCAN, CIRCUIT JUDGE, OP. at 71-73. But the Supreme Court has clearly stated that these are not
grounds for invalidating a law on rational basis review.
“Rational-basis review tolerates overinclusive
classifications, underinclusive ones, and other imperfect means-ends fits.” St. Joan Antida High Sch. Inc.
v. Milwaukee Pub. Sch. Dist., 919 F.3d 1003, 1010 (7th
Cir. 2019) (collecting Supreme Court cases). “[L]egislation ‘does not violate the Equal Protection Clause
merely because the classifications [it makes] are imperfect.’” New York City Transit Auth. v. Beazer, 440
U.S. 568, 592 n.39 (1979) (quoting Dandridge v. Williams, 397 U.S. 471, 485 (1970)). “Even if the classification involved here is to some extent both underinclusive and overinclusive, and hence the line drawn
by Congress imperfect, it is nevertheless the rule that
in a case like this ‘perfection is by no means required.’”
Id. (quoting Vance v. Bradley, 440 U.S. 93, 108
(1979)). On rational-basis review, a statutory classification “comes to us bearing a strong presumption of
validity, and those attacking the rationality of the legislative classification have the burden to negative
every conceivable basis which might support it.” Beach
Commc’ns, Inc., 508 U.S. at 314-15 (emphasis added)
(cleaned up). All of this is to say that it is immaterial
whether one can imagine scenarios in which ICWA’s

168a
classifications do not further ICWA’s goals; that the
classifications could further legitimate goals in some
instances is wholly sufficient to sustain the law’s constitutionality.57

57

JUDGE DUNCAN contends that his arguments are somehow
different from contentions that ICWA is overinclusive because
“[e]ligibility—one of only two ways to trigger ICWA—makes the
law cover children (like the ones here) with no actual connection
to a tribe” and “allowing ICWA to override birth parents’ wishes
to place their children with non-Indians . . . makes nonsense of
ICWA’s key goal of preventing the break-up of Indian families.”
DUNCAN, CIRCUIT JUDGE, OP. at 68-69 n.95. But a law that employs a classification that applies to some individuals or in some
situations in which it does not further the legislature’s objectives
is the precise definition of an overinclusive law, and the Supreme
Court has repeatedly reaffirmed that such a statute survives rational basis review. See, e.g., Burlington N. R. Co. v. Ford, 504
U.S. 648, 653–54 (1992) (upholding against equal protection
challenge state’s differing venue rules for domestically incorporated corporations because legislature could have rationally concluded that many corporations are headquartered in their state
of incorporation and venue rule would promote convenient litigation, despite many corporations not having their principal place
of business in their state of incorporation); Vance v. Bradley, 440
U.S. 93, 106 (1979) (upholding Foreign Service’s mandatory 60year retirement age because Congress could rationally believe
that it promoted the maintenance of “a vigorous and competent”
Service, notwithstanding many people over 60 being more “vigorous and competent” than many people under 60); Dandridge v.
Williams, 397 U.S. 471, 486 (1970) (upholding state’s cap on welfare awarded to families with dependent children because it was
rational to believe it would encourage families to seek employment, despite the fact that many such families contain “no person who is employable”). Thus, even if JUDGE DUNCAN is correct
that some Indian children as classified by ICWA never ultimately join an Indian tribe and that some Indian birth parents
do not object to the placement of their children with non-Indian

169a
Further, ICWA is irrational in the scenarios that
JUDGE DUNCAN proposes only if we artificially cabin
families, this does not mean that ICWA does not pass constitutional muster. It is enough that Congress could have rationally
believed that some Indian children would join a tribe and some
Indian birth parents would object to a non-Indian family placement.
Perhaps seeking to overcome this clear infirmity in its reasoning, the opposing opinion makes much of the Supreme Court’s
statement in Adoptive Couple v. Baby Girl that it would “raise
equal protection concerns” to apply ICWA in a manner that “put
certain vulnerable children at a great disadvantage solely because an ancestor—even a remote one—was an Indian.” DUNCAN, CIRCUIT JUDGE, OP. at 62, 70 (quoting 570 U.S. at 655). He
contends that ICWA violates equal protection principles because
it allegedly disadvantages Indian children by making it more difficult for non-Indians to adopt them. But the Court was merely
cautioning in dictum that ICWA may be vulnerable to an as-applied challenge in the rare situation in which applying its classification to a specific set of facts is wholly irrational. See City of
Cleburne, Tex. v. Cleburne Living Ctr., 473 U.S. 432, 448 (1985)
(holding that applying city ordinance to particular plaintiffs violated equal protection because classification was irrational in
that specific instance). This is a different matter than Plaintiffs’
facial challenge to the statute, which requires that the “challenger . . . establish that no set of circumstances exists under
which the Act would be valid.” United States v. Salerno, 481 U.S.
739, 745 (1987). “The fact that [ICWA] might operate unconstitutionally under some conceivable set of circumstances is insufficient to render it wholly invalid[.]” Id. Lastly, we reject JUDGE
DUNCAN’s supposition that the Indian children whom Plaintiffs
seek to adopt would be put at “great disadvantage” by being
placed in the care of an Indian relative or family pursuant to
ICWA’s preferences. DUNCAN, CIRCUIT JUDGE, OP. at 68-70. That
is a value-laden policy determination that courts are ill-equipped
to make, especially without the type of detailed fact-finding as to
specific home placements that is largely absent from the record
before us.

170a
the interests that ICWA may serve. But “it is entirely
irrelevant for constitutional purposes whether the
conceived reason for the challenged distinction actually motivated the legislature.” Id. And “a legislative
choice is not subject to courtroom fact-finding and may
be based on rational speculation unsupported by evidence or empirical data.” Id. In other words, JUDGE
DUNCAN errs by limiting his analysis to ICWA’s goals
as he narrowly defines them; any conceivable legitimate goal may be grounds to sustain ICWA’s constitutionality so long as one can rationally articulate a
way in which the law’s Indian child and family classifications would theoretically further it.
In this light, it is clear that ICWA’s classifications
are not irrational even in the situations JUDGE DUNCAN suggests. It is rational to think that ensuring
that an Indian child is raised in a household that respects Indian values and traditions makes it more
likely that the child will eventually join an Indian
tribe—thus “promot[ing] the stability and security of
Indian tribes,” 25 U.S.C. § 1902—even when the
child’s parents would rather the child be placed with
a non-Indian family. And we reject the notion that
ICWA’s preference for Indian families treats tribes as
fungible. As Defendants point out, many contemporary tribes descended from larger historical bands and
continue to share close relationships and linguistic,
cultural, and religious traditions, so placing a child
with another Indian family could conceivably further
the interest in maintaining the child’s ties with his or
her tribe or culture. See, e.g., Greg O’Brien, Chickasaws: The Unconquerable People, Mississippi History
Now (September 23, 2020, 9:20 AM), https://mshistorynow.mdah.state.ms.us/articles/8/chickasaws-the-

171a
unconquerable-people (noting that, “[c]ulturally, the
Chickasaws were (and are) similar to the Choctaws;
both groups spoke a nearly identical language, their
societies were organized matrilineally (meaning that
ancestry was traced only through the mother’s line),
political power was decentralized so that each of their
seven or so villages had their own chiefs and other
leaders, and they viewed the sun as the ultimate expression of spiritual power for its ability to create and
sustain life”). By providing a preference for placing
Indian children with a family that is part of a formally
recognized Indian political community that is interconnected to the child’s own tribe, ICWA enables that
child to avail herself of the numerous benefits—both
tangible and intangible—that come from being raised
within this context. And even if this were not the case,
Congress could rationally conclude that placing an Indian child with a different tribe would fortify the
ranks of that other tribe, contributing to the continued
existence of the Indian tribes as a whole. See 25
U.S.C. §§ 1901(3), 1902; Holyfield, 490 U.S. at 49.
In sum, § 1903(4)’s definition of an “Indian child”
and § 1915(a)(3)’s Indian family preference can be rationally linked to the trust relationship between the
tribes and the federal government, as well as to furthering tribal sovereignty and self-government. They
therefore do not violate constitutional equal protection principles, and the district court erred by concluding otherwise.58 See Mancari, 417 U.S. at 555.

58
We similarly conclude that ICWA’s foster care preferences
survive rational basis review and thus do not violate equal protection.

172a
C. Nondelegation Doctrine
We next review Plaintiffs’ challenge to 25 U.S.C.
§ 1915(c) under the nondelegation doctrine. Article I
of the Constitution vests “[a]ll legislative Powers” in
Congress. U.S. CONST. art. 1, § 1, cl. 1. “In a delegation challenge, the constitutional question is whether
the statute has” impermissibly “delegated legislative
power.” Whitman v. Am. Trucking Ass’ns, 531 U.S.
457, 472 (2001). Section 1915(c) allows Indian tribes
to establish through tribal resolution a different order
of preferred placement than that set forth in § 1915(a)
and (b).59 Section 23.130 of the Final Rule provides
that a tribe’s established placement preferences apply
over those initially specified in ICWA.60 The district
court determined that these provisions violated the
nondelegation doctrine, reasoning that § 1915(c)
grants Indian tribes the power to change legislative
preferences with binding effect on the states and that
Indian tribes are not part of the federal government of
the United States and therefore cannot exercise federal legislative or executive regulatory power over
non-Indians on non-tribal lands.

59

The provision states: “In the case of a placement under subsection (a) or (b) of this section, if the Indian child’s tribe shall
establish a different order of preference by resolution, the agency
or court effecting the placement shall follow such order so long
as the placement is the least restrictive setting appropriate to
the particular needs of the child, as provided in subsection (b) of
this section.” 25 U.S.C. § 1915(c).
60
“If the Indian child’s Tribe has established by resolution a
different order of preference than that specified in ICWA, the
Tribe’s placement preferences apply.” 25 C.F.R. § 23.130.

173a
As an initial matter, Defendants argue that the
district court’s analysis of the constitutionality of
these provisions ignores the inherent sovereign authority of tribes. They contend that § 1915(c) merely
recognizes and incorporates a tribe’s exercise of its inherent sovereignty over Indian children and therefore
is not a delegation of authority from Congress. Ultimately, however, we need not decide whether the Indian tribes’ inherent sovereign authority extends to
establishing rights that can be conferred on its potential members in state court proceedings because Congress can extend tribal jurisdiction by delegating its
power through an “express authorization [in a] federal
statute.” Strate v. A-1 Contractors, 520 U.S. 438, 445
(1997); see also United States v. Enas, 255 F.3d 662,
666-67 (9th Cir. 2001) (en banc) (explaining the “dichotomy between inherent and delegated power” and
that “[w]hen Congress bestows additional power upon
a tribe—augments its sovereignty, one might say—
this additional grant of power is referred to as ‘delegation’”); cf. Mazurie, 419 U.S. at 557 (“We need not
decide whether this independent authority is itself
sufficient for the tribes to impose Ordinance No. 26.
It is necessary only to state that the independent
tribal authority is quite sufficient to protect Congress’
decision to vest in tribal councils this portion of its
own authority to ‘regulate Commerce . . . with the Indian tribes.’”) (alterations in original).
As we have stated, Congress possesses the authority to enact ICWA pursuant to its constitutional legislative power. See supra Discussion Part II.A. And the
limitations on Congress’s ability to delegate its legislative power are “less stringent in cases where the entity exercising the delegated authority itself possesses

174a
independent authority over the subject matter.” Mazurie, 419 U.S. at 556-57.
Such a rule may arguably be justified by the fact
that the Supreme Court has long recognized that Congress may incorporate the laws of another sovereign
into federal law without violating the nondelegation
doctrine. In United States v. Sharpnack, 355 U.S. 286,
293-94 (1958), for instance, the Supreme Court upheld
a federal statute that prospectively incorporated
states’ criminal law and made it applicable in federal
enclaves within each state, though the states, of
course, lacked the power to legislate in these enclaves.
Rather than an impermissible delegation of Congress’s legislative power, the Court reasoned that the
law was a “deliberate continuing adoption by Congress” of state law as binding federal law. Id.; see also
Gibbons v. Ogden, 22 U.S. (9 Wheat.) 1, 80 (1824)
(“Although Congress cannot enable a State to legislate, Congress may adopt the provisions of a State on
any subject.”); United States v. Palmer, 465 F.2d 697,
699-700 (6th Cir. 1972) (holding that the incorporation of state law into 18 U.S.C. § 1955, which prohibits
operating an illegal gambling business and defines
such an illicit business as one that violates state or
local law, does not violate the nondelegation doctrine).
This same reasoning applies to laws enacted by Indian
tribes, for “Indian tribes are unique aggregations possessing attributes of sovereignty over both their members and their territory.” Mazurie, 419 U.S. at 557;
see also S. Pac. Transp. Co. v. Watt, 700 F.2d 550, 556
(9th Cir. 1983) (determining that the Secretary of the
Interior did not improperly subdelegate administrative authority by requiring tribal consent as a condition precedent to granting a right-of-way across tribal

175a
lands to a railroad because the Secretary simply “incorporate[d] into the decision-making process the
wishes of a body with independent authority over the
affected lands”).
Section 1915(c) provides that a tribe may pass, by
its own legislative authority, a resolution reordering
the placement preferences set forth by Congress in
§ 1915(a) or (b). Pursuant to this section, a tribe may
assess, for example, whether the most appropriate
placement for an Indian child is with members of the
child’s extended family, the child’s tribe, or other Indian families. It is beyond debate that it would be
within Indian tribes’ authority to set these same
standards in tribal child custody proceedings. See,
e.g., Fisher, 424 U.S. 390 (upholding exclusive tribal
jurisdiction over adoption proceedings among tribal
members located in Indian country); Montana, 450
U.S. at 564 (noting tribes’ “inherent power to determine tribal membership [and] regulate domestic relations among members”). And just as the law at issue
in Sharpnack incorporated the laws of a state on a
matter with respect to which the state was authorized
to legislate and applied it in an area in which the state
was not authorized to legislate, so § 1915(c) incorporates the law of Indian tribes on a matter within the
tribes’ jurisdiction and makes it applicable in an area
that might otherwise be beyond the tribes’ power to
regulate. Thus, § 1915(c) can be characterized as a
valid “deliberate continuing adoption by Congress” of
tribal law as binding federal law. Sharpnack, 355
U.S. at 293-94; 25 U.S.C. § 1915(c); 81 Fed. Reg. at
38,784 (statement by the BIA noting that “through
numerous statutory provisions, ICWA helps ensure

176a
that State courts incorporate Indian social and cultural standards into decision-making that affects Indian children”).
But § 1915(c)’s validity is not dependent solely on
this framing. Courts have frequently upheld delegations of congressional authority to Indian tribes without reference to federal incorporation of their law. In
United States v. Mazurie, for example, the Supreme
Court considered a federal law that allowed the tribal
council of the Wind River Tribes, with the approval of
the Secretary of the Interior, to adopt ordinances to
control the introduction of alcoholic beverages by nonIndians on privately owned land within the boundaries of the reservation. See 419 U.S. at 547, 557. As
the Court later explained, Congress indicated its intent to delegate authority to tribes in the statute’s requirement that liquor transactions conform “‘with an
ordinance duly adopted’ by the governing tribe.” Rice
v. Rehner, 463 U.S. 713, 730-31 (1983) (quoting 18
U.S.C. § 1161) (examining the same statute challenged in Mazurie). The Court ruled that such a delegation of congressional power did not violate the nondelegation doctrine. Mazurie, 419 U.S. at 546, 557.
Tribes possess “a certain degree of independent authority over matters” relating to their “internal and
social relations,” the Court reasoned, including the
“distribution and use of intoxicants” within the reservation’s bounds. Id. And this independent tribal authority provided Congress with a sufficient basis for
vesting in tribes Congress’s own power to regulate Indian affairs. Id.
Similarly, in Bugenig v. Hoopa Valley Tribe, the
Ninth Circuit, sitting en banc, determined that Congress had expressly delegated authority to the Hoopa

177a
Valley Tribe to regulate conduct by nonmembers. See
266 F.3d 1201, 223 (9th Cir. 2001) (en banc). In that
case, the Hoopa Tribe had ratified a constitution in
1972 stating that the Tribe’s jurisdiction “extend[s] to
all lands within the confines of the” reservation and
that the Tribe could regulate “the use and disposition
of property upon the reservation,” including by nonmembers. Id. at 1212. Later, Congress passed a statute stating that “existing gove[r]ning documents of
the Hoopa Valley Tribe and the governing body established and elected thereunder . . . are hereby ratified
and confirmed.” Id. at 1207-08 (quoting 25 U.S.C.
§ 1300i-7). The Tribe then passed a resolution prohibiting harvesting timber within a certain zone on the
reservation. Id. at 1208. Shortly after the resolution’s
adoption, a nonmember purchased property in this
zone and began clearing its timber. Id. The Tribe attempted to enjoin her timber removal, arguing that
Congress had vested in it the authority to regulate
within the reservation, regardless of ownership. Id.
at 1209. The Ninth Circuit agreed. Reading together
the tribal constitution and the congressional enactment that “ratified and confirmed” the Tribe’s governing documents, the court found that Congress had
“delegated authority to regulate all the lands within
the” reservation, including those owned by non-Indians. Id. at 1216. The court also determined that the
delegation was valid because “Congress can delegate
to Indian tribes those powers that are within the
sphere of the Indian Commerce Clause.” Id. at 1223
n.12.
Like the statutes in Mazurie and Bugenig,
§ 1915(c) contains an express delegation to tribes. See
25 U.S.C. § 1915(c) (permitting “the Indian child’s

178a
tribe” to alter the order of placement preferences).
And because the authority to alter placement preferences with respect to specific tribes is within Congress’s power, Congress can validly delegate this authority to Indian tribes. See Buenig, 266 F.3d at 1223
n.12. Thus, Congress has validly “augment[ed]” tribal
power by delegating additional authority via
§ 1915(c). Enas, 255 F.3d at 667.
JUDGE DUNCAN presents two arguments as to why
§ 1915(c) violates nondelegation principles. First, he
contends that the provision delegates Congress’s core
legislative power and thereby violates the bicameralism and presentment requirements that Congress
must adhere to when enacting law. DUNCAN, CIRCUIT
JUDGE, OP. at 110-11. Second, he argues that, even if
§ 1915(c) is construed as a delegation of regulatory authority, it violates nondelegation principles because it
entrusts the authority to a party outside the federal
government. DUNCAN, CIRCUIT JUDGE, OP. at 112.
Neither contention is ultimately persuasive. At the
threshold, we note that JUDGE DUNCAN takes up the
contention that § 1915(c) specifically violates bicameralism and presentment wholly sua sponte; no party
or amicus raised it in the district court, before the
panel, or in en banc briefing.61 This is likely because
61

The district court also did not raise or pass on this issue. We
ordinarily do not consider issues in this posture. See Burell v.
Prudential Ins. Co. of Am., 820 F.3d 132, 140 (5th Cir. 2016) (“To
preserve an argument, it must be raised to such a degree that
the district court has an opportunity to rule on it.” (cleaned up));
Firefighters’ Ret. Sys. v. EisnerAmper, L.L.P., 898 F.3d 553, 561
(5th Cir. 2018) (“It is the general rule, of course, that a federal
appellate court does not consider an issue not passed upon below.” (internal quotation marks omitted)). Moreover, “[i]n our
adversarial system of adjudication, we follow the principle of

179a
the nondelegation doctrine already provides that Congress may not delegate to other actors the core legislative power that would be subject to the bicameralism and presentment requirements, see Loving v.
United States, 517 U.S. 748, 758 (1996), and thus the
nondelegation inquiry, already accounts for bicameralism and presentment. See John F. Manning, The
Nondelegation Doctrine as a Canon of Avoidance, 2000
SUP. CT. REV. 223, 240 (2000) (“The nondelegation doctrine protects [important] interests by forcing specific
policies through the process of bicameralism and presentment[.]”); see also Jackson v. Stinnett, 102 F.3d
132, 135 n.3 (5th Cir. 1996) (rejecting a reading of a
statute that would “approach[] a violation of the Presentment Clause and the nondelegation doctrine”
(emphasis added)). In a nondelegation challenge, the
nondelegation question both subsumes and precedes
the presentment and bicameralism questions, rending
those latter inquiries superfluous.
Bicameralism and presentment are only separately implicated—to the exclusion of nondelegation—
when Congress devises a scheme by which it (or its
legislative agent) purports to enact law through a process other than that prescribed by Article I, Section 7
of the Constitution. “Absent retained congressional
veto power or other such retained authority . . . which
is ‘legislative in its character and effect,’ the presentment clauses are not [separately] implicated and the
party presentation . . . ‘[I]n the first instance and on appeal . . .,
we rely on the parties to frame the issues for decision and assign
to courts the role of neutral arbiter of matters the parties present.’” United States v. Sineneng-Smith, 140 S. Ct. 1575, 1579
(2020) (third set of alterations in original) (quoting Greenlaw v.
United States, 554 U.S. 237 (2008)).

180a
only question is one involving the delegation doctrine.” United States v. Scampini, 911 F.2d 350, 352
(9th Cir. 1990) (quoting INS v. Chadha, 462 U.S. 919,
952 (1983)) (internal citation omitted); see also Metro.
Washington Airports Auth. v. Citizens for Abatement
of Aircraft Noise, Inc., 501 U.S. 252, 276 (1991) (“Congress cannot exercise its legislative power to enact
laws without following the bicameral and presentment procedures specified in Article I.” (emphasis
added)). An arrangement in which specifically Congress or its agents attempt to enact legislation
through an unconstitutional process is the only situation that can give rise to a procedural violation of bicameralism or presentment without also implicating
nondelegation; it is still Congress that is purporting
to enact law but doing so without complying with constitutionally mandated procedures. In light of this
framing, it makes sense that the Supreme Court has
consistently performed only a nondelegation analysis
when examining challenges to the vesting of power in
parties other than Congress or its agents. See, e.g.,
Mazurie, 419 U.S. at 556-58; Loving, 517 U.S. at 758;
Am. Trucking Ass’ns, 531 U.S. at 472-76; Mistretta v.
United States, 488 U.S. 361, 371-79 (1989). Neither
Congress nor its agents are involved in the tribal resolution contemplated by § 1915(c). The cases JUDGE
DUNCAN relies upon addressing the procedures Congress must use when enacting legislation are therefore of little relevance to the present case. E.g.,
Chadha, 462 U.S. at 959, Clinton v. City of New York,
524 U.S. 417, 447–48 (1998); Metro. Washington Airports Auth. 501 U.S. at 276.

181a
Evaluated under the proper rubric, § 1915(c) does
not represent an invalid delegation. As to JUDGE DUNCAN’s first contention, he appears to argue that
§ 1915(c) implicates the core legislative power because
Congress, in setting a default rule that tribes may alter under congressionally-defined circumstances, has
effectively permitted the tribes to “change specifically
enacted Congressional priorities.” DUNCAN, CIRCUIT
JUDGE, OP. at 109. We note the counterintuitive nature of the opposing opinion’s proposed holding that
Congress delegates too much discretion when it provides some guidance and exercises some control over
an issue by setting a default standard rather than
leaving the implementation of a statute entirely to the
delegee’s discretion. Moreover, countless other federal statutes set a default standard that applies unless another party chooses to act, and these laws often
grant the delegee far more power to negate the normal
functioning of federal law than does § 1915(c). See,
e.g., 16 U.S.C. § 1536 (permitting an Endangered Species Committee made up of high-ranking executive
branch officials to suspend the otherwise applicable
requirements of the Endangered Species Act for particular projects); 7 U.S.C. § 136p (allowing the Environmental Protection Agency (EPA) to exempt state
and federal agencies from the Federal Insecticide,
Fungicide and Rodenticide Act); 43 U.S.C. § 1652 (permitting the Secretary of the Interior and other federal
officials to “waive any procedural requirements of law
or regulation which they deem desirable to waive in
order to” construct the Trans-Alaska Pipeline); 42
U.S.C. § 1315 (permitting states, with approval from
the Department of Health and Human Services, to
customize their Medicaid programs in ways that

182a
would otherwise violate the Social Security Act). Indeed, many federal statutes specifically delegate to
another, separate sovereign the authority to alter the
federal standard in matters related to the sovereign’s
jurisdiction.
See, e.g., 20 U.S.C. § 1415(b)(6)(B)
(providing that the statute of limitation for bringing
an administrative claim under the Individuals with
Disabilities Education Act is two-years “or, if the
State has an explicit time limitation for presenting
such a complaint under this subchapter, in such time
as the State law allows”); 11 U.S.C. § 522 (permitting
state law to alter the default property exemptible from
a bankruptcy estate); 12 U.S.C. § 2279aa-12(b)(2)
(permitting states to enact law overriding exemption
from state registration and qualification laws for securities guaranteed by the Federal Agricultural Mortgage Corporation); 42 U.S.C. § 14503(a), (e) (exempting nonprofit and governmental entities from liability
for the acts of volunteers but allowing state law to
override exemption in several specific ways).62 Courts

62

JUDGE DUNCAN attempts to distinguish between laws that
permit another party to waive statutory requirements and those
that permit a party to “re-write enacted statutes.” DUNCAN, CIRCUIT JUDGE, OP. at 111. n.149. But the opposing opinion offers no
reasoned analysis as to why a waiver, which effectively deletes
text from a statute for specific applications of the law or adds text
establishing specific exceptions to a statutory regime, is less of a
“rewrit[ing of] enacted statutes” than the reordering of the placement preferences for limited applications of ICWA that the statute authorizes Indian tribes to bring about. This failing is particularly apparent in JUDGE DUNCAN’s handling of the cited federal laws that permit another sovereign to override a statutory
default, just as ICWA does here. DUNCAN, CIRCUIT JUDGE, OP.
at 113 n.150. Simply repeating the phrase “alter the text” is no
substitute for meaningfully distinguishing these laws, and the

183a
have repeatedly affirmed Congress’s authority to allow another party to override the federal default for
specific applications of a law without violating nondelegation principles. See, e.g., Am. Fuel & Petrochemical Mfrs. v. EPA, 937 F.3d 559, 578 (D.C. Cir.
2019), cert. denied sub nom. Valero Energy Corp. v.
EPA, 140 S. Ct. 2792 (2020) (mem.) (upholding
against nondelegation challenge law permitting the
EPA to alter otherwise statutorily mandated renewable fuel quotas); Defs. of Wildlife v. Chertoff, 527 F.
Supp. 2d 119, 124 (D.D.C. 2007) (noting that permitting executive officials to waive environmental laws
for limited purposes does not violate nondelegation
where it did not “alter the text of any statute, repeal
any law, or cancel any statutory provision” because
the statute itself “retains the same legal force and effect as it had when it was passed by both houses of
Congress and [was] presented to the President”); In re
Border Infrastructure Envtl. Litig., 284 F. Supp. 3d
1092, 1140 (S.D. Cal. 2018), aff’d, 915 F.3d 1213 (9th
Cir. 2019), cert. denied sub nom. Animal Legal Def.
Fund v. Dep’t of Homeland Sec., 139 S. Ct. 594 (2018)
(same).
JUDGE DUNCAN’s second contention—that Congress may not delegate authority of any sort to a party
outside the federal government—is also easily disposed of. Whether framed as a prospective incorpora-

opposing opinion does nothing to explain how § 1915(c) authorizes “alter[ing] the text” of a statute any more than the myriad
other federal laws cited here that permit a party other than Congress to change a statute’s functioning for certain limited applications.

184a
tion of another sovereign’s law or a delegation of regulatory authority, the Supreme Court has long approved of federal statutes that permit another sovereign to supply key aspects of the law, including an explicit delegation of authority to the Indian tribes. See
Mazurie, 419 U.S. at 556-57; Gibbons, 22 U.S. (9
Wheat.) at 80, Wilkerson v. Rahrer, 140 U.S. 545, 562
(1891) (“[W]hile the legislature cannot delegate its
power to make a law, it can make a law which leaves
it to municipalities or the people to determine some
fact or state of things, upon which the action of the
law may depend.”). But see Knickerbocker Ice Co. v.
Stewart, 253 U.S. 149, 164 (1920) (holding that Congress may not delegate to the states its exclusive authority over admiralty and maritime law because the
Constitution specifically entrusts that power to Congress to maintain nationwide uniformity). Indeed, the
Supreme Court itself routinely looks to the law of
other sovereigns to fill in important aspects of federal
statutes. In the context of a § 1983 claim, for instance,
analogous state personal injury torts supply, inter
alia, the statute of limitations in which the federal
claim may be brought. See Wallace v. Kato, 549 U.S.
384, 387 (2007) (“Section 1983 provides a federal
cause of action, but in several respects relevant here
federal law looks to the law of the State in which the
cause of action arose.”). The inescapable message of
these long-standing statutes and Supreme Court precedents is clear: Congress does not invalidly delegate
regulatory power simply because it prospectively incorporates into federal law the decision-making of an-

185a
other sovereign on a matter within that sovereign’s jurisdiction.63 Cf. Kentucky Div., Horsemen’s Benev. &
Protective Ass’n, Inc. v. Turfway Park Racing Ass’n,
Inc., 20 F.3d 1406, 1417 (6th Cir. 1994) (“[T]he separation of powers principle and, a fortiori, the nondelegation doctrine, simply are not implicated by Congress’ ‘delegation’ of power to the States.”).
It is thus unsurprising that JUDGE DUNCAN offers
no binding precedent to support a rule that regulatory
power cannot be delegated outside the federal government, relying entirely on concurrences and secondary
sources for his novel approach. See DUNCAN, CIRCUIT
JUDGE, OP. at 112. And, because he offers no explanation or limiting principle to differentiate the present
case from those cited above, one is struck by the sheer
breadth of the opposing proposed opinion’s holding,
which would likely render myriad federal laws invalid
and conflict with binding Supreme Court precedents.
See, e.g., Mazurie, 419 U.S. at 556-57.
In sum, § 1915(c) validly integrates tribal sovereigns’ decision-making into federal law, regardless of
whether it is characterized as a prospective incorporation of tribal law or an express delegation by Congress under its Indian affairs authority. Accordingly,

63
Even if the Indian tribes were not sovereigns in their own
right, it does not necessarily follow that incorporating their decision-making into federal law would violate the nondelegation
doctrine, as the Supreme Court has historically upheld even delegations of authority to private entities against such challenges.
See Currin v. Wallace, 306 U.S. 1, 1 (1939); United States. v. Rock
Royal Co-op., 307 U.S. 533, 577–78 (1939).

186a
§ 1915(c) does not violate the nondelegation doctrine.64
D. The Final Rule
The district court held that, to the extent
§§ 23.106 to 23.122, 23.124 to 23.132, and 23.140 to
23.141 of the Final Rule were binding on State Plaintiffs, they violated the APA for three reasons: the provisions (1) purported to implement an unconstitutional statute; (2) exceeded the scope of the Interior
Department’s statutory authority to implement
ICWA; and (3) reflected an impermissible construction of § 1915. Reviewing the district court’s legal conclusions de novo, we conclude that the Final Rule does
not contravene the APA. Fath v. Texas Dep’t of
Transp., 924 F.3d 132, 136 (5th Cir. 2018).
1. The Constitutionality of ICWA
Because we conclude, for reasons discussed earlier
in this opinion, that the challenged provisions of
ICWA are constitutional, we also determine that the
64
Because we would not hold that any provision of ICWA is unconstitutional, a severability analysis is unnecessary. However,
even if we were to conclude that certain portions of ICWA violate
the Constitution, we would hold that ICWA’s severability clause,
25 U.S.C. § 1963, is fully enforceable, meaning that only those
specific provisions of the law that are unconstitutional are invalid and the remainder of the statute remains in full effect. See
Seila Law LLC v. Consumer Fin. Protect. Bureau, 140 S. Ct.
2183, 2209 (2020) (“When Congress has expressly provided a severability clause, our task is simplified. We will presume that
Congress did not intend the validity of the statute in question to
depend on the validity of the constitutionally offensive provision
unless there is strong evidence that Congress intended otherwise.” (internal quotation and ellipses omitted)).

187a
district court erred by concluding that the Final Rule
was invalid because it implemented an unconstitutional statute. Thus, the statutory basis for the Final
Rule is constitutionally valid.
2. The Scope of the BIA’s Authority
Congress authorized the Secretary of the Interior
to promulgate “rules and regulations as may be necessary to carry out the provisions” of ICWA. 25 U.S.C.
§ 1952. Pursuant to this provision, the BIA, acting
under authority delegated by the Interior Department, issued guidelines in 1979 for state courts in Indian child custody proceedings that were “not intended to have binding legislative effect.” 44 Fed.
Reg. at 67,584. The BIA explained that, generally,
“when the Department writes rules needed to carry
out responsibilities Congress has explicitly imposed
on the Department, those rules are binding.” Id.
However, when “the Department writes rules or
guidelines advising some other agency how it should
carry out responsibilities explicitly assigned to it by
Congress, those rules or guidelines are not, by themselves, binding.” Id. With respect to ICWA, the 1979
BIA did not interpret the language and legislative history of 25 U.S.C. § 1952 to indicate that Congress intended the BIA to supervise state judiciaries, and it
noted that enacting federal regulations that were primarily applicable in state court proceedings would
raise federalism concerns. Id. The agency concluded
that such binding regulations were “not necessary” in
any event because the BIA then believed that state
courts were “fully capable” of honoring the rights created by ICWA. Id.

188a
In 2016, however, the BIA changed course and issued the Final Rule, which, in an effort to bring about
greater uniformity in Indian child custody cases, sets
binding standards governing the rights of Indian children, families, and tribes in such proceedings. See 25
C.F.R. §§ 23 et seq.; 81 Fed. Reg. at 38,779, 38,785.
The BIA explained that its earlier, nonbinding guidelines were “insufficient to fully implement Congress’s
goal of nationwide protections for Indian children,
parents, and Tribes.” 81 Fed. Reg. at 38,782. Without
the Final Rule, the BIA stated, state-by-state determinations about how to implement ICWA would continue to result in widely differing standards of protection “with potentially devastating consequences” for
the Indian populations that ICWA was intended to
benefit. See id.
Echoing the district court’s reasoning, Plaintiffs
argue that the BIA did not provide a sufficient explanation for its change in position regarding its authority to issue binding regulations. It is not clear, however, whether they also contend that, regardless of the
adequacy of the explanation for the new position, the
BIA simply lacks authority under § 1952 to promulgate binding regulations. In any event, we assume
Plaintiffs properly present both challenges. As to the
latter argument that the BIA lacks authority under
ICWA to issue binding regulations, we employ the familiar framework set forth in Chevron, U.S.A., Inc. v.
Natural Res. Def. Council, Inc., 467 U.S. 837, 842-43
(1984). Under Chevron, we review “an agency’s construction of the statute which it administers,” by asking “two questions.” Id. at 842. First, we must examine whether the statute is ambiguous. Id. “If the intent of Congress is clear, that is the end of the matter;

189a
for the court, as well as the agency, must give effect to
the unambiguously expressed intent of Congress.” Id.
at 842-43. But “if the statute is silent or ambiguous
with respect to the specific issue, the question for the
court is whether the agency’s answer is based on a
permissible construction of the statute.” Id. at 843.
We must uphold an agency’s reasonable interpretation of an ambiguous statute. Id. at 844.
Under Chevron step one, the question is whether
Congress unambiguously intended to grant the Department authority to promulgate rules and regulations that implement private rights that state courts
must honor. In stating that “the Secretary shall
promulgate such rules and regulations as may be necessary to carry out the provisions of this chapter,” the
text of § 1952 confers broad authority on the Department to promulgate rules and regulations it deems
necessary to carry out ICWA. This language clearly
grants the BIA the authority to promulgate standards
that are binding upon all parties; this is inherent in
the statute’s use of the term “rules,” for a rule is not a
rule if it can be disregarded at will. Still, the Final
Rule does place a duty on state courts to respect the
rights it implements, which we will grant is somewhat
unusual in the world of administrative law. See 81
Fed. Reg. 38,778. Because it may be arguable that
“Congress has not directly addressed the precise question at issue”—that is, whether the BIA is authorized
to promulgate rules and regulations that effectively
bind state courts—we will assume arguendo that
§ 1952 is ambiguous on the subject. See Chevron, 467
U.S. at 843.
The BIA’s interpretation of § 1952 is valid under
the second Chevron step because it is a reasonable

190a
construction of the statute. See 467 U.S. at 843-44.
As Defendants point out, § 1952’s language is substantively identical to other statutes conferring broad
delegations of rulemaking authority. Indeed, the Supreme Court has held that “[w]here the empowering
provision of a statute states simply that the agency
may ‘make . . . such rules and regulations as may be
necessary to carry out the provisions of this Act’ . . .
the validity of a regulation promulgated thereunder
will be sustained so long as it is reasonably related to
the purposes of the enabling legislation.” Mourning v.
Family Publ’ns Serv., Inc., 411 U.S. 356, 369 (1973)
(quoting 42 U.S.C. § 1408) (cleaned up); see also City
of Arlington v. F.C.C., 569 U.S. 290, 306 (2013) (noting
a lack of “case[s] in which a general conferral of rulemaking or adjudicative authority has been held insufficient to support Chevron deference for an exercise of
that authority within the agency’s substantive field”);
AT&T Corp. v. Iowa Utils. Bd., 525 U.S. 366, 377-78
(1999) (determining that the Federal Communications Commission had authority to issue regulations
based on statutory language permitting the agency to
“prescribe such rules and regulations as may be necessary in the public interest to carry out” the statute).
Here, § 1952’s text is nearly identical to the statutory
language at issue in Mourning, and the Final Rule’s
binding standards for Indian child custody proceedings are obviously related to ICWA’s purpose of establishing minimum federal standards in child custody
proceedings involving Indian children. See 25 U.S.C.
§ 1902. Thus, the BIA was reasonable in interpreting
§ 1952 to confer on it the authority to promulgate the
Final Rule.

191a
Neither Plaintiffs nor JUDGE DUNCAN argues that
setting binding standards for child custody proceedings is unrelated to ICWA’s purpose, for clearly it is
not. Instead, Plaintiffs and JUDGE DUNCAN primarily
contend that the BIA reversed its position without
providing an adequate explanation.65
We must note the conceptual difference between
the Chevron inquiry, which asks whether an agency’s
substantive interpretation of a statute is a reasonable
one, and the procedural question of whether an
agency provided an adequate explanation for its decision to switch from one statutory interpretation to another. See Nat’l Cable & Telecomms. Ass’n v. Brand
X Internet Servs., 545 U.S. 967, 1001 n.4 (2005) (noting that any inconsistency in an agency’s explanation
for changing course “bears on whether the [agency]
65
Like with Plaintiffs, it is not clear whether JUDGE DUNCAN
separately argues that, regardless of the adequacy of the explanation given for the change, it is unreasonable in the first instance for the BIA to interpret § 1952 to authorize the Final Rule
because Congress could not have intended to allow the agency to
set standards applicable in state courts. But any such argument
would simply be inconsistent with the Supreme Court’s holdings
in Mourning and related cases regarding the breadth of authority delegated by broadly worded rules-enabling statutes. Under
these precedents, so long as a rule is reasonably related to the
statute’s purpose, it is not unreasonable to interpret the BIA’s
delegated authority to encompass it. See Mourning, 411 U.S. at
369. Moreover, Congress clearly considered it to be within its
power to set standards applicable in child custody proceedings,
as there is no dispute that many provisions of ICWA do precisely
that. There is thus no reason to presume that Congress would
implicitly exclude such authority from its broad authorization to
the BIA to promulgate rules it deems necessary to ICWA’s implementation.

192a
has given a reasoned explanation for its current position, not on whether its interpretation is consistent
with the statute”). To be sure, there are situations
where the procedures by which an agency adopts a
new statutory interpretation—including whether the
agency provided a reasoned explanation for changing
its position—may be relevant to whether a court
should defer to an agency’s interpretation of a statute.
More specifically, when it is necessary for a court to
interpret a statute committed to an agency’s implementation, Chevron deference may be withheld if the
agency failed to adequately explain why it shifted to
its current interpretation. Cf. Encino Motorcars, LLC
v. Navarro, 136 S. Ct. 2117, 2125 (2016). But the
Chevron framework is inapposite where a plaintiff directly challenges an agency rulemaking as violating
the APA—as opposed to the statute that is being interpreted—because the agency arbitrarily departed
from a prior statutory interpretation. When a plaintiff merely argues that an agency violated the APA by
not providing sufficient reasons for its change of position, it is unnecessary for a court to actually decide
whether the new statutory interpretation is correct to
resolve the question; indeed, an agency can violate the
APA by switching to a statutory interpretation that is
wholly reasonable under Chevron if it does so without
providing an adequate explanation for the change.
See Brand X, 545 U.S. at 1001 (stating that an agency
“is free within the limits of reasoned interpretation to
change course if it adequately justifies the change”
(emphasis added)); 5 U.S.C. § 706(2)(A), (C) (calling
for courts to separately evaluate whether an agency
action is arbitrary and capricious and whether an
agency action is in excess of statutory authority). And
because there is no need to interpret the statute when

193a
the challenge is only to the adequacy of an agency’s
explanation for its changed position, there is no need
to determine whether to defer to the agency’s new interpretation under Chevron. JUDGE DUNCAN therefore errs by characterizing the question of whether the
BIA provided an adequate explanation for its changed
position as a component of Chevron step two.
Moreover, we disagree that the BIA failed to provide an adequate explanation for its change of course.
“The mere fact that an agency interpretation contradicts a prior agency position is not fatal. Sudden and
unexplained change, or change that does not take account of legitimate reliance on prior interpretation,
may be arbitrary, capricious [or] an abuse of discretion. But if these pitfalls are avoided, change is not
invalidating, since the whole point of Chevron is to
leave the discretion provided by the ambiguities of a
statute with the implementing agency.” Smiley v.
Citibank (S. Dakota), N.A., 517 U.S. 735, 742 (1996)
(internal citations and quotation marks omitted). The
agency must provide a “reasoned explanation” for its
new policy, but “it need not demonstrate to a court’s
satisfaction that the reasons for the new policy are
better than the reasons for the old one.” F.C.C. v. Fox
Television Stations, Inc., 556 U.S. 502, 515 (2009).
“[I]t suffices that the new policy is permissible under
the statute, that there are good reasons for it, and that
the agency believes it to be better, which the conscious
change of course adequately indicates.” Id.
In the preamble to the Final Rule, the BIA directly
addressed its reasons for departing from its earlier interpretation that it had no authority to promulgate
binding regulations applicable in child custody proceedings. The agency explained that, contrary to its

194a
previous position that nothing in the text of the statute indicated a congressional intent to authorize such
binding regulations, Supreme Court precedent established that the text of § 1952 conferred “a broad and
general grant of rulemaking authority” and “presumptively authorize[s the] agenc[y] to issue rules and regulations addressing matters covered by the statute.”
81 Fed. Reg. at 38,785 (collecting Supreme Court
cases). The BIA also justified its determination that
ICWA granted it the authority to promulgate binding
regulations based on having “carefully considered
public comments on the issue” and, in light of this
commentary, having reconsidered and rejected its
statements in 1979 that it lacked such authority. See
id. at 38,785-86. And the BIA directly responded to
the federalism concerns raised in 1979 and by present-day commentators. It explained that such concerns were misplaced because the Constitution conferred upon Congress plenary power over Indian affairs and that, when “a power is delegated to Congress
in the Constitution, the Tenth Amendment expressly
disclaims any reservation of that power to the States.”
Id. at 38,789 (internal quotation marks omitted)
(quoting New York, 505 U.S. at 156). Because Congress’s plenary power authorized it to enact ICWA
and because Congress had validly delegated authority
to the BIA in § 1952 to implement ICWA, the agency
determined that the Final Rule did not unconstitutionally encroach on state authority. See id.
Further, the BIA discussed why it now considered
binding regulations necessary to implement ICWA:
In 1979, the BIA “had neither the benefit of the Holyfield Court’s carefully reasoned decision nor the opportunity to observe how a lack of uniformity in the

195a
interpretation of ICWA by State courts could undermine the statute’s underlying purposes.” 81 Fed. Reg.
at 38,787. In Miss. Band of Choctaw Indians v. Holyfield, the Supreme Court considered the meaning of
the term “domicile” in 25 U.S.C. § 1911, which ICWA
left undefined and the BIA left open to state interpretation under its 1979 Guidelines. 490 U.S. at 43, 51.
“Section 1911 lays out a dual jurisdictional scheme” in
which tribal courts have exclusive jurisdiction over
custody proceedings concerning an Indian child “who
resides or is domiciled within the reservation of” her
tribe, whereas state courts have concurrent jurisdiction with tribal courts “in the case of children not domiciled on the reservation.” Id. at 36. The Court held
that “it is most improbable that Congress would have
intended to leave the scope of the statute’s key jurisdictional provision subject to definition by state courts
as a matter of state law,” given that “Congress was
concerned with the rights of Indian families vis-à-vis
state authorities” and considered “States and their
courts as partly responsible for the problem it intended to correct” through ICWA. Id. at 45. Because
Congress intended for ICWA to address a nationwide
problem, the Court determined that the lack of nationwide uniformity resulting from varied state-law definitions of this term frustrated Congress’s intent. Id.
The Court’s reasoning in Holyfield applies with
equal force here. Congress’s concern with safeguarding the rights of Indian families and communities was
not limited to § 1911 but rather extended to all provisions of ICWA. Thus, as the BIA explained, the provisions of ICWA that the statute left open to state interpretation in 1979, including many that Plaintiffs

196a
now challenge, were subject to the same lack of uniformity the Supreme Court identified as contrary to
Congress’s intent in Holyfield. 81 Fed. Reg. at 38,779,
38,782 (explaining that the result of “conflicting
State-level” interpretations of ICWA “is that many of
the problems Congress intended to address by enacting ICWA persist today”). In view of Holyfield and “37
years of real-world ICWA application,” id. at 38,786,
the BIA concluded that issuing binding rules for child
custody proceedings was “necessary to carry out the
provisions” of ICWA, an authority that was included
in Congress’s broad grant of rulemaking authority under § 1952. The BIA thus supplied a “reasoned explanation” for reversing its earlier position on its need
and authority to issue binding regulations, Fox Television Stations, 556 U.S. at 515.
JUDGE DUNCAN’s belief that ICWA is inconsistent
with principles of federalism suffuses his critique of
the BIA’s explanation for its change of interpretation.
Because the BIA’s prior interpretation was constitutionally permissible and its new interpretation is not,
he appears to argue, Congress could not have intended the new interpretation, and whatever explanation the BIA provided for the change was therefore inadequate. See DUNCAN, CIRCUIT JUDGE, OP. at 120-22.
For the reasons discussed above with respect to
ICWA’s statutory provisions, we disagree that the
BIA’s new interpretation of its § 1952 authority violates the Constitution. But more importantly, in judging the adequacy of the BIA’s explanation, it does not
necessarily matter whether the BIA’s new interpretation is actually constitutional, nor even whether Congress in fact intended § 1952 to confer authority to
promulgate rules that would be binding in state court

197a
proceedings. These questions are relevant only to
whether the BIA’s new interpretation of § 1952 is a
substantively reasonable interpretation and a constitutional application of the statute, which, again, are
separate questions from the procedural matter of
whether the agency gave a sufficient explanation for
its decision to change course.
When specifically examining whether an agency
met the procedural requirement that it provide an adequate explanation, all that is necessary is a “minimal
level of analysis” from which the agency’s reasoning
may be discerned, Encino Motorcars, 136 S. Ct. at
2125—regardless of whether the court finds the reasoning fully persuasive. In other words, the agency
decision must simply be non-arbitrary. When an
agency “display[s] awareness that it is changing position” and provides coherent reasons for doing so, the
test is satisfied. Id. at 2126. Here, it is enough that
the BIA “believe[d]” its prior interpretation of § 1952
to be an incorrect reflection of Congressional intent
and set forth its reasons for thinking so. Fox Television Stations, 556 U.S. at 515. The same is true for
the BIA’s reasoned determination that its issuance of
binding regulations does not pose federalism problems. It does not matter to this inquiry whether a
court thinks the agency’s interpretation or legal analysis is incorrect, nor that a court disagrees with the
agency’s decision as a policy matter. See id.; cf. DUNCAN, CIRCUIT JUDGE, OP. at 123 (arguing that conflicting state court decisions were not numerous and longstanding enough to justify issuing regulations to enforce uniformity).
Contrary to Plaintiffs’ contentions, the BIA explained why it changed its interpretation of § 1952

198a
and why it believed the Final Rule was needed based
on its years of study and public outreach. See 81 Fed.
Reg. 38,778-79, 38,784-85. In promulgating the rule,
the BIA relied on Supreme Court precedent, its own
expertise in Indian affairs, its specific experience in
administering ICWA and other Indian child-welfare
programs, state interpretations and best practices,66
public hearings, and tribal consultations. See id.
Thus, the BIA’s change of course was not “arbitrary,
capricious, [or] an abuse of discretion” because it was
not sudden and unexplained. See Smiley, 517 U.S. at
742; 5 U.S.C. § 706(a)(2). The district court’s contrary
conclusion was error.
3. The BIA’s Construction of § 1915
Title 25 U.S.C. § 1915 sets forth preferences for
the placement of Indian children unless good cause
can be shown to depart from them. 25 U.S.C.
§ 1915(a)-(b). The 1979 Guidelines advised that the
term “good cause” in § 1915 “was designed to provide
state courts with flexibility in determining the disposition of a placement proceeding involving an Indian
child.” 44 Fed. Reg. at 67,584. However, § 23.132(b)
of the 2016 Final Rule, now specifies that “[t]he party
seeking departure from [§ 1915’s] placement preferences should bear the burden of proving by clear and
convincing evidence that there is ‘good cause’ to depart from the placement preferences.” 25 C.F.R.
§ 23.132(b). The district court determined that Con-

66
Since ICWA’s enactment in 1978, several states have incorporated the statute’s requirements into their own laws or have
enacted detailed procedures for their state agencies to collaborate with tribes in child custody proceedings.

199a
gress unambiguously intended the ordinary preponderance-of-the-evidence standard to apply and that
the BIA’s imposition of a higher standard was therefore not entitled to Chevron deference.
Defendants contend that the Final Rule’s clarification of the meaning of “good cause” and imposition
of a clear-and-convincing-evidence standard are entitled to Chevron deference. Plaintiffs respond that the
Final Rule’s fixed definition of “good cause” is contrary
to ICWA’s intent to provide state courts with flexibility.
We conclude that the BIA’s interpretation of
§ 1915 is entitled to Chevron deference. For purposes
of Chevron step one, the statute is silent with respect
to which evidentiary standard applies. See 25 U.S.C.
§ 1915; Chevron, 467 U.S. at 842. The district court
relied on the canon of expressio unius est exclusio alterius (“the expression of one is the exclusion of others”) in deciding that Congress unambiguously intended that a preponderance-of-the-evidence standard was necessary to show good cause under § 1915.
The court reasoned that, because Congress specified a
heightened evidentiary standard in other provisions
of ICWA but did not do so with respect to § 1915, Congress did not intend for the heightened clear-and-convincing-evidence standard to apply. This was error.
“When interpreting statutes that govern agency
action, . . . a congressional mandate in one section and
silence in another often suggests not a prohibition but
simply a decision not to mandate any solution in the
second context, i.e., to leave the question to agency
discretion.” Catawba Cty. v. E.P.A., 571 F.3d 20, 36
(D.C. Cir. 2009) (internal quotation marks omitted)

200a
(quoting Cheney R.R. Co. v. ICC, 902 F.2d 66, 69 (D.C.
Cir. 1990)); accord In Defense of Animals v. United
States Dep’t of the Interior, 751 F.3d 1054, 1066 n.20
(9th Cir. 2014) (same); see also Texas Office Pub. Util.
Counsel v. F.C.C., 183 F.3d 393, 443 (5th Cir. 1999)
(noting that the expressio unius canon is of “limited
usefulness . . . in the administrative context”). “[T]hat
Congress spoke in one place but remained silent in another, as it did here, rarely if ever suffices for the direct answer that Chevron step one requires.” Catawba Cty. V4.P.A., 571 F.3d at 36 (internal quotation
marks and citation omitted); see also Adriondack Med.
Ctr. v. Sebelius, 740 F.3d 692 (D.C. Cir. 2014) (“The
expressio unius canon is a ‘feeble helper in an administrative setting, where Congress is presumed to have
left to reasonable agency discretion questions that it
has not directly resolved.’” (quoting Cheney R.R. Co.,
902 F.2d at 68-69)); Tex. Rural Legal Aid, Inc. v. Legal
Servs. Corp., 940 F.2d 685, 694 (D.C. Cir. 1991) (“Under Chevron, we normally withhold deference from an
agency’s interpretation of a statute only when Congress has directly spoken to the precise question at issue, and the expressio canon is simply too thin a reed
to support the conclusion that Congress has clearly resolved this issue.” (internal quotation marks and citations omitted)).
JUDGE DUNCAN argues that there is no indication
that Congress intended to require a heightened standard of proof for § 1915. DUNCAN, CIRCUIT JUDGE, OP.
at 125-26. But this misses the point. The question is
not whether Congress intended to require a heightened standard, but rather whether it intended to prohibit one. The statute is silent as to the matter, and

201a
when “the statute is silent . . . with respect to the specific issue,” we assume that Congress delegated the
matter to agency discretion and proceed to Chevron
step two.67 Chevron, 467 U.S. at 842.
Under Chevron step two, the BIA’s determination
as to the applicable evidentiary standard is reasonable. See Chevron, 467 U.S. at 844. As stated, the
broad grant of rule-making authority in § 1952 permits the BIA to enact rules that are not foreclosed by
statute “so long as [they are] reasonably related to the
purposes of the enabling legislation.” Mourning, 411
U.S. at 36. The BIA’s suggestion that the clear-andconvincing standard should apply was derived from
the best practices of state courts. 81 Fed. Reg. at
38,843. The preamble to the Final Rule explains that,
since ICWA’s passage, “courts that have grappled
with the issue have almost universally concluded that
application of the clear and convincing evidence
standard is required as it is most consistent with Congress’s intent in ICWA to maintain Indian families
and Tribes intact.” Id. (citing, inter alia, In re MKT,
67
This is why Plaintiffs’ and Judge Duncan’s references to
Grogan v. Garner, 498 U.S. 279, 286 (1991), are inapposite.
Grogan addressed the standard of proof that applied to exceptions from dischargability of debt in the Bankruptcy Code, see
id., a set of laws that courts are tasked with interpreting in the
first instance. Congress had not delegated to an agency the authority to issue rules interpreting the Bankruptcy Code, and the
Grogan court was therefore tasked with determining the best interpretation of the statutory provision, not simply whether a particular agency interpretation was reasonable. Thus, the Grogan
Court’s ruling that, under those circumstances, statutory silence
suggested that the preponderance-of-the-evidence standard applied does not indicate that statutory silence prohibits an agency
from applying a heightened evidentiary standard to the issue.

202a
368 P.3d 771, 786 (Okla. 2016); Gila River Indian
Cmty. v. Dep’t. of Child Safety, 363 P.3d 148, 152-53
(Ariz. Ct. App. 2015); In re Alexandria P., 228 Cal.
App. 4th 1322, 1340 (Cal. Ct. App. 2014)). Because
the BIA’s interpretation of § 1915 as not prohibiting a
heightened standard of proof is not inconsistent with
the statutory provision, and because § 23.132(b) was
based on the persuasive reasoning in state court decisions and is designed to further congressional intent,
we conclude it is reasonable and entitled to Chevron
deference.
In considering Chevron step two, JUDGE DUNCAN
again blends the question of whether the BIA fulfilled
the APA’s procedural requirement that it provide an
adequate explanation for changing the way it interprets a statute it administers—a claim the Plaintiffs
have not raised with respect to § 23.132(b)—with the
substantive question of whether it is reasonable to interpret the BIA’s rulemaking authority to authorize
the provision. DUNCAN, CIRCUIT JUDGE, OP. at 128.
Though we disagree that the BIA failed to provide a
reasoned explanation for its changed position, this is
neither here nor there. Our precedents at most establish that, in a direct challenge to an agency rulemaking as beyond statutory authority, the agency’s departure from longstanding practice justifies a more
searching review at Chevron step two to determine
whether the new position is reasonable. See Chamber
of Com. of United States of Am. v. United States Dep’t
of Labor, 885 F.3d 360, 380 (5th Cir. 2018) (stating
that we greet sudden claims that a long-standing statute grants sweeping new powers with “a measure of
skepticism” (quoting Util. Air Regul. Grp. v. EPA, 573
U.S. 302, 324 (2014))). This is a different question

203a
from whether the agency provided an adequate explanation for shifting away from a longstanding interpretation.68 And even if the BIA’s explanation for changing course were insufficient, our caselaw does not indicate that such a deficiency inherently renders the
agency’s new interpretation an unreasonable construction of the statute. Plaintiffs have alleged only
that § 23.132(b) is prohibited by § 1915. Thus, the sole
issue is whether the regulation is permissible under
ICWA. See Chevron, 467 U.S. at 842-43. The adequacy of the explanation for the BIA’s new position is
separate from, and immaterial to, this question.
JUDGE DUNCAN offers no argument as to why it is
unreasonable to interpret § 1915 to permit the BIA to
require the clear-and-convincing evidence standard
beyond his reference to the expressio unius canon,
which we have already found insufficient to foreclose
the BIA’s application of that standard. And because
the BIA was reasonable in interpreting § 1915 not to
prohibit a heightened standard of proof, we conclude
that § 23.132(b) did not exceed the BIA’s statutory authority. See 5 U.S.C. § 706(a)(2).
***
For these reasons, we conclude as follows: First,
Plaintiffs have standing to press their claims except
as to §§ 1913(d) and 1914. Next, the en banc court
68
To be sure, how long an agency adhered to a prior statutory
interpretation may be a relevant consideration when a plaintiff
does allege a procedural APA violation because an agency’s explanation for a change of course must account for reliance interests engendered by its prior policy. See Fox Television Stations,
Inc., 556 U.S. at 515 (citing Smiley, 517 U.S. at 742). But Plaintiffs have not raised such a challenge to § 23.132(b).

204a
holds that Congress was authorized to enact ICWA.
We conclude that this authority derives from Congress’s enduring obligations to Indian tribes and its
plenary authority to discharge this duty. And, although the en banc majority decides otherwise as to
some provisions and the en banc court is equally divided as to others, we would hold that none of ICWA’s
provisions violate the Tenth Amendment’s anticommandeering doctrine. Thus, we would hold that
ICWA validly preempts any conflicting state law, and
we dissent from the en banc majority’s decision to the
extent it differs from this conclusion.
In addition, for the en banc court, we hold that
ICWA’s “Indian Child” designation and the portions of
the Final Rule that implement it do not offend equal
protection principles because they are based on a political classification and are rationally related to the
fulfillment of Congress’s unique obligation toward Indians, and we REVERSE the district court’s determination to the contrary. And, though the en banc court
is equally divided on the matter, we would likewise
determine that ICWA’s adoptive placement preference for “other Indian families,” and its foster care
placement preference for a licensed “Indian foster
home,” and the regulations implementing these preferences are consistent with equal protection.
We also hold for the en banc court that § 1915(c)
does not contravene the nondelegation doctrine because the provision is either a valid prospective incorporation by Congress of another sovereign’s law or a
delegation of regulatory authority. We therefore REVERSE this aspect of the district court’s ruling.

205a
Further, we hold for the en banc court that the
BIA acted within its statutory authority in issuing
binding regulations, and we hold for the en banc court
that the agency did not violate the APA when it
changed its position on the scope of its authority because the agency provided a reasonable explanation
for its new stance. And we hold for the en banc court
that the portions of the Final Rule that implement all
parts of ICWA other than §§ 1912(d)-(f) and 1915(e) do
not violate the APA. We thus REVERSE the district
court’s contrary conclusions.
Although a majority of the en banc court disagrees, we would also conclude that the portions of the
Final Rule implementing §§ 1912(d)-(f) and 1915(e)
are valid because these statutory provisions are constitutional, and we would hold that the provision of
the Final Rule implementing § 1915’s “good cause”
standard is reasonable. We thus dissent from the en
banc majority’s decision that these portions of the Final Rule are invalid.
Because we conclude that that the challenged provisions of ICWA are constitutional in all respects and
that the Final Rule validly implements the statute, we
would reverse the district court in full and render
judgment in favor of Defendants on all claims. We
dissent from those portions of the en banc majority’s
decision that fail to do so.

206a
STUART KYLE DUNCAN, Circuit Judge:†
We consider challenges to the Indian Child Welfare Act of 1978 (“ICWA”), 92 Stat. 3069, 25 U.S.C.
§§ 1901–1963, and its implementing regulations, 81
Fed. Reg. 38,778 (June 14, 2016) (“The Final Rule”).
ICWA is a federal law that regulates state fostercare and adoption proceedings involving Indian children. The law is challenged by three states, which
claim it abridges their sovereignty, and by several
couples seeking to adopt Indian children, who claim it
†
JUDGES SMITH, ELROD, WILLETT, ENGELHARDT, and OLDHAM
join JUDGE DUNCAN’s opinion in full. JUDGE JONES joins all except Parts III(A)(2) (equal protection as to “Indian child”) and
that portion of Part III(B)(2)(a) concerning preemption by the appointed counsel provision in 25 U.S.C. § 1912(d).

CHIEF JUDGE OWEN joins Part III(B) (anti-commandeering/preemption) and Part III(D)(3) (“good cause” standard in 25
C.F.R. § 23.132(b) violates APA). See infra OWEN, C.J., concurring in part and dissenting in part.
JUDGE SOUTHWICK joins Parts III(B)(1)(a)(i)–(ii) (anti-commandeering as to § 1912(d)–(f)); Part III(B)(2)(a) (preemption);
Part III(B)(2)(b) (in part) (no preemption, only as to § 1912(d)–
(f)); Part III(B)(2)(c) (in part) (preemption, except as to the discussion of § 1951(a)); and Part III(D)(1) (in part) (Final Rule violates APA to extent it implements § 1912(d)–(f)).
JUDGE HAYNES joins Part I (standing); Part III(A)(3) (equal
protection as to “other Indian families”); Parts III(B)(1)(a)(i),
III(B)(1)(a)(iv), III(B)(1)(a)(ii) (in part), III(B)(1)(b) (in part), and
III(B)(2)(b) (in part) (anti-commandeering/preemption as to
§§ 1912(d)–(e) and 1915(e)); Part III(D)(1) (in part) (Final Rule
violates APA to extent it implements provisions found unconstitutional in those portions of Parts III(A) and (B) that JUDGE
HAYNES joins); and Part III(D)(3) (“good cause” standard in 25
C.F.R. § 23.132(b) fails at Chevron step one). See infra HAYNES,
J., concurring.

207a
unfairly blocks them from doing so. The case is one of
first impression and raises many intricate issues.
That should come as no surprise, given that “[t]he condition of the Indians in relation to the United States
is perhaps unlike that of any other two people in existence . . .. marked by peculiar and cardinal distinctions which exist no where else.” Cherokee Nation v.
Georgia, 30 U.S. (5 Pet.) 1, 16 (1831) (Marshall, C.J.);
see also COHEN’S HANDBOOK OF FEDERAL INDIAN LAW
§ 1.01 (2019) [hereinafter “COHEN’S”] (“The field of Indian law and policy is extraordinarily complex, rich,
controversial, and diverse.”). To guide the reader
through our lengthy decision, we provide this summary.
First, we conclude ICWA exceeds Congress’s
power to the extent it governs state proceedings. Congress, to be sure, has “plenary” authority to legislate
on Indian affairs. United States v. Lara, 541 U.S. 193,
200 (2004) (quoting Cotton Petroleum Corp. v. New
Mexico, 490 U.S. 163, 192 (1989)). But ICWA does
something that, to our knowledge, no federal Indian
law has ever tried: it governs states’ own administrative and judicial proceedings. That is an unheard-of
exercise of the Indian affairs power, and neither Supreme Court precedent nor founding-era practice justifies it. And ICWA is all the more jarring because of
its subject matter: domestic relations. That subject
“belongs to the laws of the states, and not to the laws
of the United States,” and is “one in regard to which
neither the congress of the United States, nor any authority of the United States, has any special jurisdiction.” Ex parte Burrus, 136 U.S. 586, 594 (1890). And
yet ICWA co-opts the states to create, in essence, a

208a
federal adoption system for Indian children. The Constitution does not empower Congress to do that. To
say otherwise would mock “our federal system, [in
which] the National Government possesses only limited powers [and] the States and the people retain the
remainder.” Bond v. United States, 572 U.S. 844, 854
(2014).
Second, in the alternative, we conclude many
parts of ICWA are unconstitutional or unlawful.
ICWA’s unequal standards for “Indian children” and
“Indian families” violate the Fifth Amendment’s equal
protection guarantee by failing to rationally link children to tribes. Many provisions commandeer states
by conscripting their agencies, officials, and courts
into a federal regulatory program. Another provision
delegates to Indian tribes the power to change enacted
federal law setting child placement preferences. Declaratory relief is proper as to those provisions. Finally, a 2016 rule implementing ICWA violates the
Administrative Procedure Act by exceeding the
agency’s authority over state courts. To that extent,
the rule must be declared unlawful.
Our decision does not affect all of ICWA. Some
provisions do not govern state proceedings—such as
those giving tribes exclusive jurisdiction over on-reservation children, those permitting states and tribes
to adjust their jurisdictions, and those granting funds
for tribal programs. These provisions are not challenged here and do not fall within our decision. With
that qualification, we affirm the district court’s judgment declaring parts of ICWA and the Final Rule unconstitutional and unlawful.

209a
TABLE OF CONTENTS
Background
I.

Indian Child Welfare Act

210a
210a

II. Final Rule

214a

III. Parties

215a

IV. District Court Proceedings

219a

Standard of Review

220a

Discussion

221a

I. Article III Standing

221a

II. Challenge to Congress’s Power to Enact
ICWA
230a
III. Challenges to Specific ICWA
Provisions

269a

A. Fifth Amendment Equal Protection

269a

B. Commandeering and Preemption

289a

1. Commandeering

294a

2. Preemption

312a

C. Nondelegation

328a

D. Administrative Procedure Act

338a

E. Remedy

352a

210a
BACKGROUND
I.

Indian Child Welfare Act

In 1978, Congress enacted ICWA out of concern
that too many Indian children were being unjustifiably removed from their families and adopted by nonIndians. Specifically, Congress found that “an alarmingly high percentage of Indian families [were being]
broken up by the removal, often unwarranted, of their
children from them by nontribal public and private
agencies and that an alarmingly high percentage of
such children [were being] placed in non-Indian foster
and adoptive homes and institutions.” 25 U.S.C.
§ 1901(4). Congress also found that “the States, exercising their recognized jurisdiction over Indian child
custody proceedings through administrative and judicial bodies, ha[d] often failed to recognize the essential
tribal relations of Indian people and the cultural and
social standards prevailing in Indian communities
and families.” § 1901(5). ICWA therefore set “minimum Federal standards” for removing Indian children
and placing them in foster and adoptive homes “which
will reflect the unique values of Indian culture.”
§ 1902. These standards sought “to protect the best
interests of Indian children and to promote the stability and security of Indian tribes and families.” Id. As
authority for the law, Congress invoked its “plenary
power over Indian affairs,” grounded in the Indian
Commerce Clause and “other constitutional authority.” § 1901(1); see U.S. CONST. art. I, § 8, cl. 3 (vesting
Congress with “Power . . . [t]o regulate Commerce . . .
with the Indian Tribes”).

211a
ICWA applies to a “child custody proceeding” involving an “Indian child.” § 1903(1), (4).1 Such proceedings include foster care placements, terminations of
parental rights, and preadoptive and adoptive placements. § 1903(1)(i)–(iv). If a proceeding involves an
Indian child living on a tribe’s reservation, the tribe
has exclusive jurisdiction. § 1911(a). For off-reservation Indian children, state courts exercise concurrent
jurisdiction with tribal courts, but must transfer a
proceeding to tribal jurisdiction upon request of either
parent or the child’s tribe, absent good cause or a parent’s objection. § 1911(b); see also Yavapai-Apache
Tribe v. Mejia, 906 S.W.2d 152, 162 (Tex. App.—Houston [14th Dist.], Aug. 24, 1995, pet. denied) (explaining “state courts may exercise jurisdiction concurrently with the tribal courts” in proceedings involving
off-reservation children).
For proceedings remaining under state jurisdiction, ICWA imposes numerous requirements. For instance, a party seeking foster placement, or termination of parental rights, must notify the Indian child’s
parent and tribe of that party’s “right to intervene.”
§§ 1911(c), 1912(a).2 Indigent parents have the “right
to court-appointed counsel.” § 1912(b). Any party has
“the right to examine all reports or other documents
filed with the court[.]” § 1912(c). To prevail, the party
seeking placement or termination must prove that
1

An “Indian child” is defined as “any unmarried person who is
under age eighteen and is either (a) a member of an Indian tribe
or (b) is eligible for membership in an Indian tribe and is the
biological child of a member of an Indian tribe.” § 1903(4).
2
The Secretary of the Interior must be notified if the parent
or custodian cannot be found. § 1912(a).

212a
“active efforts have been made to provide remedial
services and rehabilitative programs designed to prevent the breakup of the Indian family” and “have
proved unsuccessful.” § 1912(d). The party must also
offer evidence, “including testimony of qualified expert witnesses,” that the parent’s continued custody
will likely cause the child “serious emotional or physical damage.” § 1912(e)–(f). Proof must be by “clear
and convincing evidence” for foster placement,
§ 1912(e), and “beyond a reasonable doubt” for termination, § 1912(f).
If parents voluntarily consent to a placement or to
termination of rights, they can withdraw consent “at
any time” before the process ends. § 1913(b)–(c). Following an adoption, the birth parents may withdraw
consent based on fraud or duress for up to two years.
§ 1913(d). A child, parent, or tribe may also sue to invalidate the placement or termination for any violation of §§ 1911, 1912, or 1913. § 1914.
ICWA also dictates where Indian children may be
placed. In adoptions governed by state law, an Indian
child must be placed, absent “good cause,” with “(1) a
member of the child’s extended family; (2) other members of the Indian child’s tribe; or (3) other Indian families.” § 1915(a). Similarly, in foster or pre-adoptive
placements, an Indian child must be placed (again, absent good cause) with: (1) extended family; (2) a foster
home “licensed, approved, or specified” by the tribe;
(3) a licensed “Indian foster home”; or (4) an “institution for children” either tribe-approved or operated by
a suitable Indian organization. § 1915(b)(i)–(iv). In
any case, the child’s tribe may “establish a different
order of preference by resolution,” which the “agency

213a
or court effecting the placement shall follow,” provided “the placement is the least restrictive setting
appropriate to the particular needs of the child.”
§ 1915(c). The “State” must maintain a record of an
Indian child’s placement that “evidenc[es] the efforts
to comply with the order of preference specified in
[§ 1915]” and that “shall be made available at any
time upon request of the Secretary or the Indian
child’s tribe.” § 1915(e).
ICWA also requires state courts to maintain and
transmit various records. For instance, upon request
of an adopted Indian eighteen or older, a court must
provide “the tribal affiliation, if any, of the individual’s biological parents and . . . such other information
as may be necessary to protect any rights flowing from
the individual’s tribal relationship.” § 1917. Additionally, a state court must provide the Secretary with
a copy of a final adoption decree “together with such
other information as may be necessary to show” various matters. § 1951(a).3
Finally, ICWA contains a severability clause
providing that, “[i]f any provision . . . or the applicability thereof is held invalid, the remaining provisions
. . . shall not be affected thereby.” § 1963.4

3
Those matters are: (1) the child’s name and tribal affiliation,
(2) the names and addresses of biological parents, (3) the names
and addresses of adoptive parents, and (4) “the identity of any
agency having files or information relating to such adoptive
placement.” § 1951(a)(1)–(4); see also 25 C.F.R. §§ 23.140–141
(additional recordkeeping requirements applicable to both courts
and agencies).
4

ICWA contains other provisions unrelated to state child-custody proceedings, such as provisions permitting jurisdictional

214a
II. Final Rule
In 1979, the Bureau of Indian Affairs (“BIA”)
promulgated guidelines (the “1979 Guidelines”) to assist state courts in applying ICWA. See 44 Fed. Reg.
67,584 (Nov. 26, 1979); see also 25 U.S.C. § 1952 (authorizing Secretary of Interior to “promulgate such
rules and regulations . . . necessary” to implement
ICWA). The 1979 Guidelines were “not intended to
have binding legislative effect.” 44 Fed. Reg. at
67,584. BIA found nothing in ICWA or its legislative
history to suggest that Congress intended the Department to exercise “supervisory authority” over courts
deciding Indian child-custody matters. Id. Such authority would be “so at odds with concepts of both federalism and separation of powers that it should not be
imputed to Congress in the absence of an express declaration of Congressional intent to that effect.” Id. Rather, “[p]rimary responsibility” for interpreting ICWA
“rests with the courts that decide Indian child custody
cases.” Id. In particular, the Guidelines mentioned
the “good cause” standard, which was “designed to
provide state courts with flexibility in determining the
disposition of a placement proceeding involving an Indian child.” Id.; see § 1915(a)–(b).
In 2016, BIA changed course and promulgated
new regulations (the “Final Rule”) that “set binding
standards for Indian child-custody proceedings in
State courts.” 81 Fed. Reg. 38,778, 38,785 (June 14,
agreements between states and Indian tribes (§ 1919); provisions
addressing the Secretary’s approval of tribal re-assumption of jurisdiction (§ 1918); and provisions concerning grants and funding
for tribal child and family programs (§§ 1931–1933). As explained infra III(E), our decision does not affect these provisions.

215a
2016). BIA stated it “no longer agrees with statements it made in 1979 suggesting that it lacks the authority to issue binding regulations.” Id. at 38,786. It
now found binding standards “necessary,” see § 1952,
given “divergent interpretations of ICWA provisions
by State courts and uneven implementation by State
agencies.” 81 Fed. Reg. at 38,787. In particular, the
new regulations restrict what constitutes “good cause”
to depart from ICWA’s placement preferences. See id.
at 38,843–47. The “good cause” standard, the new regulations assert, is not determined by the “best interests of the child” but is instead “a limited exception”
to the preferences. Id. at 38,847. Accordingly, the
new regulations limit “good cause” to five factors. See
25 C.F.R. § 23.132(c). Moreover, the party seeking departure “should” bear the burden of proving good
cause “by clear and convincing evidence.”
Id.
§ 23.132(b). BIA acknowledged that the clear-andconvincing standard “is not articulated in section
1915,” but asserted courts have “almost universally
concluded” it is the right standard. 81 Fed. Reg. at
38,843. Finally, BIA explained the Final Rule only
“advises” that the standard “‘should’ be followed,” but
“does not categorically require that outcome” and “declines to establish a uniform standard of proof on this
issue.” Id.
III. Parties
A. Plaintiffs
Plaintiffs are the states of Texas, Louisiana, and
Indiana (collectively, the “State Plaintiffs”), and seven
individual plaintiffs—Chad and Jennifer Brackeen
(the “Brackeens”), Nick and Heather Libretti (the “Li-

216a
brettis”), Altagracia Socorro Hernandez (“Hernandez”), and Jason and Danielle Clifford (the “Cliffords”)
(collectively, “Individual Plaintiffs”).5
1. A.L.M., Y.R.J., and the Brackeens
In 2015, A.L.M. was born in New Mexico to unmarried parents. His biological mother is a member
of the Navajo Nation and his biological father is a
member of the Cherokee Nation. Soon after birth, his
mother brought A.L.M. to live in Texas with his paternal grandmother. The Child Protective Services Division (“CPS”) of the Texas Department of Family and
Protective Services (“DFPS”) removed A.L.M. when he
was 10 months old and placed him in foster care with
the Brackeens. In 2017, his biological parents voluntarily terminated their rights to A.L.M. and, along
with his guardian ad litem, supported the Brackeens’
adoption petition. At the adoption hearing, representatives of the Navajo and Cherokee Nations agreed to
designate Navajo as A.L.M.’s tribe because the Navajo
had located an alternate placement with non-family
tribal members in New Mexico. The Texas family
court denied the Brackeens’ petition, concluding they
failed to prove by clear and convincing evidence good
cause to depart from ICWA’s placement preferences.
The DFPS announced its intention to remove A.L.M.
from their care and transfer him to the Navajo family.
The Brackeens obtained an emergency stay and filed
this lawsuit. The proposed Navajo placement then
withdrew, and the Brackeens finalized A.L.M.’s adoption.

5
References to “Plaintiffs” include both State Plaintiffs and
Individual Plaintiffs.

217a
The Brackeens are now engaged in Texas state
court proceedings to adopt A.L.M.’s half-sister, Y.R.J.,
who was born in June 2018 to A.L.M.’s biological
mother. The Navajo Nation again opposes the Brackeens’ petition to adopt Y.R.J. based on ICWA’s placement preferences. The proceedings are ongoing. See
In re Y.J., No. 02-19-235-CV, 2019 WL 6904728, at *1
(Tex. App.—Fort Worth, Dec. 19, 2019, pet. filed) (remanding for further proceedings).
2. Baby O., Hernandez, and the Librettis
In 2016, Baby O. was born in Nevada to plaintiff
Hernandez, a non-Indian. Her biological father,
E.R.G., is descended from members of the Ysleta del
sur Pueblo Tribe (“Pueblo”) but was not an enrolled
member when Baby O. was born. With E.R.G.’s support, Hernandez decided to have the Librettis adopt
Baby O., who accompanied the Librettis home three
days after her birth. The Pueblo Tribe intervened in
the Nevada custody proceedings and identified numerous alternative Indian-family placements for
Baby O. under ICWA. After the Librettis joined this
lawsuit, however, the tribe withdrew its objections
and the Librettis finalized Baby O.’s adoption in late
2018.
3.

Child P. and the Cliffords

Born in 2011 in Minnesota, Child P. was placed in
foster care in 2014 when her biological parents were
arrested and charged with various drug-related offenses. For two years Child P. moved from placement
to placement until Minnesota terminated her
mother’s rights and placed her with the Cliffords in
2016, who have since sought to adopt her. Child P.’s
maternal grandmother, R.B., is a member of the

218a
White Earth Band of the Ojibwe Tribe (the “White
Earth Band”). After Child P. initially entered foster
care in 2014, the White Earth Band notified the court
that she was ineligible for membership. After Child
P. was placed with the Cliffords, however, the tribe
changed its position, notified the court that Child P.
was eligible for membership, and has since announced
that Child P. is a member. As a result, Minnesota removed Child P. from the Cliffords and placed her with
R.B. in 2018. The state trial court concluded that the
Cliffords had not established “good cause” to deviate
from ICWA’s preferences by “clear and convincing evidence,” a decision since affirmed on appeal. See In re
S.B., No. A19-225, 2019 WL 6698079, at *6 (Minn. Ct.
App. Dec. 9, 2019). Child P.’s adoption, however, has
not been finally approved; until it is, the Cliffords remain eligible to adopt her.
B. Defendants
Defendants are the United States of America and
various federal agencies and officials, referred to collectively as the “Federal Defendants.”6 Shortly after
this suit was filed, the Cherokee Nation, Oneida Nation, Quinault Indian Nation, and Morongo Band of
Mission Indians (collectively, the “Tribal Defendants”)
were allowed to intervene as defendants. On appeal,

6
Specifically, they are the United States Department of the
Interior and its Secretary Deb Haaland, in her official capacity;
the BIA and its Acting Assistant Secretary for Indian Affairs
Darryl LaCounte, in his official capacity; and the United States
Department of Health and Human Services and its Secretary Xavier Becerra, in his official capacity.

219a
we granted the Navajo Nation’s motion to intervene
as a defendant.7
IV. District Court Proceedings
Plaintiffs sued in federal district court seeking injunctive relief and a declaration that ICWA and the
Final Rule violate various provisions of the Constitution and the APA. Defendants moved to dismiss for
lack of standing. The district court denied the motion,
finding that at least one Plaintiff had standing to
bring each claim. Plaintiffs then moved for summary
judgment on all their claims, which the district court
granted in part and denied in part. See Brackeen v.
Zinke, 338 F. Supp. 3d 514 (N.D. Tex. 2018).
First, the district court ruled that ICWA discriminates on the basis of a racial classification that fails
to satisfy strict scrutiny and therefore violates the
Fifth Amendment’s equal protection component. Second, the court ruled that ICWA’s provision empowering Indian tribes to re-order placement preferences
improperly delegates federal legislative power. Third,
the court ruled that various provisions of ICWA “commandeer” state agencies, officials, and courts in violation of Article I and the Tenth Amendment and do not
validly preempt conflicting state laws. Fourth, the
court ruled that various provisions of the Final Rule
violate the APA. Finally, the court ruled that ICWA
as a whole exceeds Congress’s power under the Indian

7
References to “Defendants” include both Federal Defendants
and Tribal Defendants.

220a
Commerce Clause.8 The court’s final judgment therefore declared certain provisions of ICWA and the Final
Rule unconstitutional.9
On appeal, a panel of our court reversed the district court on all grounds. Brackeen v. Bernhardt, 937
F.3d 406 (5th Cir. 2019). JUDGE OWEN dissented in
part. Id. at 441–46 (OWEN, J., dissenting in part). We
granted en banc rehearing. Brackeen v. Bernhardt,
942 F.3d 287 (2019).
STANDARD OF REVIEW
“We review a grant of summary judgment de novo,
applying the same standard as the district court.” All.
for Good Gov’t v. Coal. for Better Gov’t, 901 F.3d 498,
504 (5th Cir. 2018) (citation omitted). “We review de
novo the constitutionality of federal statutes.” United
States v. McGinnis, 956 F.3d 747, 752 (5th Cir. 2020)
(citation omitted). We must set aside final agency action under the APA if “such action was ‘arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.’” Sw. Elec. Power Co. v. EPA, 920
F.3d 999, 1013 (5th Cir. 2019) (quoting 5 U.S.C.
§ 706(2)(A)).
8

The court denied summary judgment on Plaintiffs’ Fifth
Amendment claim based on parents’ fundamental rights to
“make decisions concerning the care, custody, and control of their
children.” Troxel v. Granville, 530 U.S. 57 (2000). The court reasoned those rights had never been extended to foster families,
prospective adoptive parents, or “adoptive parents whose adoption is open to collateral attack.” Brackeen, 338 F. Supp. 3d at
546. Plaintiffs have not appealed that ruling.
9
Specifically, it declared unconstitutional 25 U.S.C. §§ 1901–
23 and 1951–52, as well as 25 C.F.R. §§ 23.106–22, 23.124–32,
and 23.140–41.

221a
DISCUSSION
We proceed as follows. First, we address whether
Plaintiffs have Article III standing to assert their
claims, and conclude they do (infra I). Next, we address whether ICWA exceeds Congress’s constitutional power over Indian affairs (infra II). Agreeing
with the district court in part, we conclude that ICWA
exceeds Congress’s power to the extent it governs
state child-custody proceedings. Alternatively (infra
III), we address the court’s holdings that parts of
ICWA and the Final Rule violate the Fifth Amendment equal protection guarantee (III(A)); the anticommandeering and preemption doctrines (III(B));
the nondelegation doctrine (III(C)); and the APA
(III(D)). Concluding that parts of ICWA and the Final
Rule are unconstitutional or unlawful on those
grounds, we then address the appropriate remedy
(III(E)).
I. Article III Standing
We first address whether Plaintiffs have Article
III standing. The district court ruled they did, concluding that the State Plaintiffs had standing to assert claims that ICWA exceeds Congress’s power, commandeers states, and violates the nondelegation doctrine; that the Individual Plaintiffs had standing to
assert equal protection claims; and that all Plaintiffs
had standing to challenge the Final Rule under the
APA.
We review standing de novo. Stringer v. Whitley,
942 F.3d 715, 720 (5th Cir. 2019). Article III standing
requires plaintiffs to show an injury traceable to defendants’ conduct that a judicial decision would likely
redress. See Thole v. U.S. Bank N.A., 140 S. Ct. 1615,

222a
1618 (2020) (citing Lujan v. Defs. of Wildlife, 504 U.S.
555, 560–61 (1992)); see also Texas v. United States,
945 F.3d 355, 374 (5th Cir. 2019) (standing requires
“injury, causation, and redressability”) (citation omitted). At least one plaintiff must have standing “for
each claim he seeks to press and for each form of relief
that is sought.” Town of Chester v. Laroe Estates, Inc.,
137 S. Ct. 1645, 1650 (2017) (citation omitted). “[T]he
presence of one party with standing is sufficient to
satisfy Article III’s case-or-controversy requirement.”
Rumsfeld v. Forum for Acad. & Inst. Rights, Inc., 547
U.S. 47, 52 n.2 (2006).
A.
The claims that ICWA exceeds Congress’s power,
commandeers states, and improperly delegates legislative power are, in essence, claims that ICWA encroaches on states’ prerogatives to administer childcustody proceedings. State Plaintiffs have standing to
bring these claims, which assert injuries unique to
states, caused by the Federal Defendants’ administration of ICWA, and redressable by a favorable decision.
We have found that states “may have standing
based on (1) federal assertions of authority to regulate
matters [states] believe they control, (2) federal
preemption of state law, and (3) federal interference
with the enforcement of state law.” Texas v. United
States, 809 F.3d 134, 153 (5th Cir. 2015) (citations
omitted), aff’d by equally divided Court, 136 S. Ct.
2271 (2016) (Mem.).10 Those principles easily encompass State Plaintiffs’ claims that ICWA hijacks their
10

See also Tex. Office of Pub. Util. Council v. FCC, 183 F.3d
393, 449 (5th Cir. 1999) (“States have a sovereign interest in ‘the
power to create and enforce a legal code.’”) (quoting Alfred L.

223a
child-custody machinery and improperly supplants
their child-custody standards, either directly or by
delegation to tribes. They also explain why State
Plaintiffs have standing to assert under the APA that
the Final Rule improperly issued regulations purporting to bind state administration of child-custody proceedings. See id. at 151–54 (holding federal statute
may afford states standing to vindicate injury to their
“quasi-sovereign” interests) (citing Massachusetts v.
EPA, 549 U.S. 497, 518–20 (2007)); Texas, 945 F.3d at
384 (states have standing to challenge statute infringing sovereign interest in “applying their own laws and
policies”); see also 5 U.S.C. § 702 (affording right of judicial review to persons “suffering legal wrong because of agency action, or adversely affected or aggrieved by agency action”).11

Snapp & Son, Inc. v. Puerto Rico ex rel. Barez, 458 U.S. 592, 601
(1982)).
11
Defendants contest State Plaintiffs’ standing to bring a nondelegation challenge to § 1915(c), which allows tribes to vary
ICWA’s placement preferences. Defendants say any injury is
speculative because no evidence shows that a tribally-reordered
preference has affected proceedings in the plaintiff states. See
Lujan, 504 U.S. at 560 (injury must be “actual or imminent, not
conjectural or hypothetical” (internal quotation marks omitted)).
We disagree. As State Plaintiffs note, one Texas tribe, the Alabama-Coushatta, has filed its reordered preferences with the
Texas DFPS. The claimed injury from § 1915(c) is thus sufficient
to support standing. See, e.g., Susan B. Anthony List v. Driehaus,
573 U.S. 149, 158 (2014) (“An allegation of future injury may suffice if the threatened injury is ‘certainly impending,’ or there is a
‘substantial risk that the harm will occur.’”) (cleaned up).

224a
B.
The equal protection claims assert ICWA and the
Final Rule wrongly discriminate against Indian children and non-Indian families. The Individual Plaintiffs claim this unequal treatment permeates the law
and regulations, beginning with the threshold definition of “Indian child.” See 25 U.S.C. § 1903(4). They
claim the placement preferences for Indian children,
§ 1915(a)–(b), “impose a naked preference for ‘Indian
families’ over families of any other race,” and make
non-Indians show “good cause” to depart from them,
id. They claim the collateral attack provisions,
§§ 1913(d) and 1914, make their adoptions of Indian
children more vulnerable to being overturned. Finally, they claim the Final Rule implementing these
provisions adds to their injuries.12 The State Plaintiffs assert similar claims on behalf of “children in
their care,” alleging ICWA and the Final Rule “require
[their] agencies and courts” to “carry out the racially
discriminatory policy objectives of [ICWA]” and to expend “resources and money” in doing so. All Plaintiffs
seek a declaration that §§ 1913(d), 1914, and 1915 are
unconstitutional and an injunction prohibiting the
Federal Defendants from implementing those sections
“by regulations, guidelines, or otherwise.” They also
seek declaratory relief and an injunction prohibiting
the Federal Defendants from enforcing funding mechanisms tied to states’ compliance with ICWA. See 42
U.S.C. §§ 622(b)(9), 677(b)(3)(G).
12
See, e.g., 25 C.F.R. §§ 23.129–32 (implementing preferences);
id. § 23.132(b) (party seeking departure from preferences must
prove “good cause” by “clear and convincing evidence”); id.
§§ 23.136–37 (implementing collateral attack provisions).

225a
We agree with the district court that the Individual Plaintiffs have standing to challenge ICWA and
the Final Rule.13 As persons seeking to adopt Indian
children, the Individual Plaintiffs are “objects” of the
contested provisions, and the “ordinary rule” is that
they have standing to challenge them. Contender
Farms, L.L.P. v. U.S. Dep’t of Agric., 779 F.3d 258,
264–266 (5th Cir. 2015) (quoting Lujan, 504 U.S. at
561). Their adoptions have been burdened, in various
ways, by ICWA’s unequal treatment of non-Indians.
For instance, the Brackeens’ adoption of A.L.M. was
hampered and delayed by the preferences,14 burdens
13
We therefore need not consider whether the State Plaintiffs
have standing to bring equal protection claims on behalf of Indian children in their care.
14

Defendants argue that, because the Brackeens’ adoption of
A.L.M. was completed in January 2018, their claims regarding
A.L.M. are moot. We disagree. The situation falls within the
“capable of repetition, yet evading review” exception to mootness
because (1) A.L.M.’s adoption was “in its duration too short to be
fully litigated prior to [its being settled]”; and (2) given the
Brackeens’ announced intent to adopt other Indian children,
“there was a reasonable expectation that [they] would be subjected to the same action again.” Kucinich v. Tex. Democratic
Party, 563 F.3d 161, 164 (5th Cir. 2009) (citation omitted).
JUDGE WIENER’S partial dissent argues neither prong applies. As
to prong one, he contends the Brackeens “could have litigated
their ICWA challenges in state court during A.L.M.’s July 2017
adoption proceedings, long before” the district court’s October
2018 judgment. WIENER Op. at 5 n.18. We disagree. The Brackeens were contesting the preferences during the state proceedings, but those proceedings were settled in December 2017 due
to the fortuity that the Navajo placement “was no longer available” and no others materialized. As to the second prong, JUDGE
WIENER contends the Brackeens’ “stated reluctance to adopt
other Indian children was too vague.” Id. We disagree. The
Brackeens needed to show only a “reasonable expectation” they

226a
they are again suffering in trying to adopt A.L.M.’s
half-sister, Y.R.J. See Y.J., 2019 WL 6904728, at *5
(noting the Navajo seek “a judgment that Y.J. be
placed in accordance with ICWA preferences”). Moreover, the Brackeens’ adoption of A.L.M. (and Y.R.J.
too, if successful) will be open to collateral attack under ICWA.15 Similarly, the Cliffords’ attempt to foster
Child P. has been thwarted by the pre-adoptive preferences—they failed to show good cause to depart by
“clear and convincing evidence”—and they will be
hampered by the adoptive preferences in their
planned adoption of Child P. If the Brackeens and the
Cliffords were Indians, or if the children they sought
to adopt were non-Indians, none of these obstacles
would exist.
Those unequal burdens are injuries-in-fact for
equal protection purposes. An equal protection injury
consists in “[d]iscriminatory treatment at the hands

would again face ICWA’s burdens. Kucinich, 563 F.3d at 164.
They did so by alleging they “intend[ed]” to foster and adopt
other Indian children, and then by supplementing the record to
document their effort to adopt Y.R.J., beginning with their letter
to the state agency in September 2018. See, e.g., FEC v. Wis. Right
to Life, Inc., 551 U.S. 449, 463 (2007) (second prong satisfied
when plaintiff “credibly claimed that it planned” to engage in
similar activity subject to prior regulation).
15
Specifically, the Brackeens’ adoption of A.L.M. remains open
to attack under § 1914, and their prospective adoption of Y.R.J.
would be open to attack under both §§ 1913(d) and 1914. Unlike
§ 1913(d), which allows a collateral attack based on fraud or duress only for two years after the adoption, § 1914 specifies no
time frame for a collateral attack based on a claimed violation of
any provision of §§ 1911–1913.

227a
of the government.” Time Warner Cable, Inc. v. Hudson, 667 F.3d 630, 636 (5th Cir. 2012) (alteration in
original)16 If plaintiffs show such disparate treatment,
then “no further showing of suffering based on that
unequal positioning is required for purposes of standing.” Time Warner, 667 F.3d at 636; see also Ne. Fla.
Chapter of Associated Gen. Contractors v. City of Jacksonville, 508 U.S. 656, 666 (1993) (“The ‘injury in fact’
in an equal protection case . . . is the denial of equal
treatment resulting from the imposition of the barrier, not the ultimate inability to obtain the benefit.”).
The Individual Plaintiffs have made that showing
here.17 And their injuries are traceable, in part, to the
16
See also Moore v. Bryant, 853 F.3d 245, 250 (5th Cir. 2017)
(explaining “the gravamen of an equal protection claim is differential governmental treatment”); Contender Farms, 779 F.3d at
266 (“An increased regulatory burden typically satisfies the injury in fact requirement.”) (citation omitted).
17

The Federal Defendants argue no Plaintiff has standing to
challenge the collateral attack provisions because it is “speculative” whether any such attack will occur. We disagree. The injury arises from those provisions’ unequal treatment of the adoptions, not from any collateral attack itself. That injury is concrete, “irrespective of whether the plaintiff[s] will sustain an actual or more palpable injury as a result of the unequal treatment.” Time Warner, 667 F.3d at 636 (citation omitted). We disagree with JUDGE DENNIS that this injury is not imminent under
Barber v. Bryant, 860 F.3d 345 (5th Cir. 2017). DENNIS OP. at
41–42. There, plaintiffs brought equal protection claims against
a Mississippi law that protected persons holding traditional beliefs about marriage, sexual relations, and sex from discriminatory state action in specified areas, such as licensing or celebrating marriages. Barber, 860 F.3d at 351. We held plaintiffs
lacked a “certainly impending” injury because they had not alleged they “plan[ned] to engage” in any conduct covered by the
statute. Id. at 357. Although one plaintiff did “stat[e] his intention to marry,” he did not allege that he was seeking marriage-

228a
Federal Defendants’ implementing ICWA through the
Final Rule and to their inducing state officials to apply ICWA through the leverage of child welfare funds.
See K.P. v. LeBlanc, 627 F.3d 115, 123 (5th Cir. 2010)
(traceability requires only that defendants “significantly contributed” to injury); see also Inclusive
Cmtys. Project, Inc. v. Dep’t of Treasury, 946 F.3d 649,
655 (5th Cir. 2019) (causation “doesn’t require a showing . . . that the defendant’s actions are the very last
step in the chain of causation” and “isn’t precluded
where the defendant’s actions produce a determinative or coercive effect upon the action of someone else”)
(quoting Bennett v. Spear, 520 U.S. 154, 167, 169
(1997)) (internal quotation marks omitted).
Finally, our decision would redress the Individual
Plaintiffs’ injuries. Redressability means a decision’s
“practical consequences” would “significant[ly] increase . . . the likelihood” of relief. Utah v. Evans, 536
U.S. 452, 464 (2002). “The relief sought needn’t completely cure the injury, however; it’s enough if the desired relief would lessen it.” Inclusive Cmtys. Project,
946 F.3d at 655 (citation omitted); see also Dep’t of
Tex., Veterans of the Foreign Wars of U.S. v. Tex. Lottery Comm’n, 760 F.3d 427, 432 (5th Cir. 2014) (en
related services from someone who might refuse or “even that he
intended to get married in Mississippi.” Id. The Brackeens are
in a different position. Unlike the Barber plaintiffs, the Brackeens have engaged in conduct covered by §§ 1913 and 1914—
adopting Indian children—and their adoptions are now vulnerable to collateral attack, unlike adoptions of non-Indian children.
That “[d]iscriminatory treatment at the hands of the government” is a present injury-in-fact, regardless of whether “an actual or more palpable injury” will later materialize in the form of
a collateral attack. Time Warner, 667 F.3d at 636.

229a
banc) (a decision need only relieve “a [plaintiff’s] discrete injury,” not his “every injury”) (citation omitted).
Here, the requested relief would redress the Individual Plaintiffs’ injuries in numerous ways. For instance, it would make overcoming ICWA’s preferences
easier, because the Individual Plaintiffs would no
longer have to justify departure “by clear and convincing evidence.” 25 C.F.R. § 23.132(b) (implementing
§ 1915(a)–(b)). It would also remove state child welfare officials’ obligations to implement the preferences, efforts “critical to the success of the . . . preferences.” 81 Fed. Reg. at 38,839; see also infra
III(B)(1)(a)(iii) (discussing state officials’ required assistance with finding preferred placements). Additionally, Federal Defendants would be barred from inducing state officials to implement ICWA, including
the preferences, by withholding funding.18 Finally,
the requested relief would make the adoptions less
vulnerable to being overturned: it would declare unenforceable the collateral attack provisions themselves (§§ 1913(d), 1914), the underlying grounds for
invalidity (§§ 1911–1913), as well as the implementing regulations (25 C.F.R. §§ 23.136–137). So, while a
favorable decision would not guarantee the success of
the Individual Plaintiffs’ adoptions, its “practical consequences” would “lessen” their “discrete injur[ies]”
18
See 42 U.S.C. § 622(b)(9) (to qualify for Title IV-B funds, a
state’s child welfare plan must describe “the specific measures
taken by the State to comply with the Indian Child Welfare Act”);
id. § 624(a) (authorizing HHS Secretary to pay child welfare
funds to a state “that has a plan developed in accordance with
section 622”); see also 45 C.F.R. §§ 1355.34(b)(2)(ii)(E), 1355.36
(HHS regulations authorizing withholding of Title IV-B and Title
IV-E funds based on, inter alia, failure to comply with ICWA).

230a
caused by ICWA’s unequal treatment of Indian children and non-Indian families. Evans, 536 U.S. at 464;
Inclusive Cmtys. Project, 946 F.3d at 655; Dep’t of
Tex., Veterans of Foreign Wars of the U.S., 760 F.3d at
432.19 That is enough to satisfy redressability.
II. Challenge to Congress’s Power to
Enact ICWA
We first consider whether ICWA is unconstitutional because Congress lacks power to regulate state
child-custody proceedings involving Indian children.
The district court held ICWA exceeds Congress’s
power. The panel reversed, reasoning that “the Indian Commerce Clause grants Congress plenary
power over Indian affairs.” Brackeen, 937 F.3d at 434
19
Redressability does not turn on whether our decision would
determine the outcome of the Brackeens’ adoption of Y.R.J. So,
we need not address JUDGE COSTA’S view that redressability may
never depend on the impact of a federal decision on a state court.
See COSTA OP. at 3–11. We note that JUDGE COSTA concedes the
Brackeens have standing to bring APA claims because “a declaratory judgment against the Interior Secretary would bind her
when it comes to enforcing the department’s challenged regulations.” Id. at 9 (citing Franklin v. Massachusetts, 505 U.S. 788,
803 (1992)). We agree. Consider, though, that one ground for
the Brackeens’ APA claims is that the Final Rule implements
ICWA provisions that violate their equal protection rights. Thus,
to decide that APA claim, we would in any event have to address
whether the relevant parts of ICWA violate equal protection. See
5 U.S.C. § 706(2)(B) (courts may “hold unlawful and set aside
agency action . . . contrary to constitutional right”); see also Tex.
Office of Pub. Utility Counsel, 183 F.3d at 410 (“The intent of
Congress in 5 U.S.C. § 706(2)(B) was that courts should make an
independent assessment of a citizen’s claim of constitutional
right when reviewing agency decision-making.”) (citation omitted).

231a
(citing Lara, 541 U.S. at 200). On en banc rehearing,
Defendants continue to defend ICWA as a valid exercise of Congress’s “plenary and exclusive authority
over Indian affairs,” derived from the Indian Commerce Clause, U.S. CONST. art. I, § 8, cl. 3, and the
Treaty Clause, art. II, § 2, cl. 2, as well as “preconstitutional powers.”
We agree with Defendants that Congress has ample power to legislate respecting Indians, and also
that the Supreme Court has described that power in
broad terms that go beyond trade. We cannot agree,
however, that Congress’s authority is broad enough to
justify ICWA’s intrusion on state child-custody proceedings. To the contrary, the Supreme Court has
warned that an exercise of Congress’s Indian power
that “interfere[s] with the power or authority of any
State” would mark a “radical change[] in tribal status.” Lara, 541 U.S. at 205. ICWA presents precisely
such an interference with state authority. We therefore hold that, to the extent ICWA governs child-custody proceedings under state jurisdiction, it exceeds
Congress’s power.20
A.
In urging us to uphold ICWA, Defendants rely
heavily on two propositions: that Congress’s Indian
20
We reject Defendants’ argument that this issue is not before
us because the district court did not rule on it. To the contrary,
the district court ruled on the issue of Congress has enacted Indian-related congressional authority as a necessary part of Defendants’ preemption claims. See Murphy v. NCAA, 138 S. Ct.
1461, 1479 (2018) (preemption requires considering, first,
whether the law “represent[s] the exercise of a power conferred
on Congress by the Constitution”).

232a
affairs power goes beyond commerce with tribes and
that the power is “plenary and exclusive.” We therefore consider at the outset whether those propositions,
of their own force, justify ICWA. They do not. Both
propositions are true as far as they go, but relying on
them to uphold ICWA would set virtually no limit on
Congress’s authority to override state sovereignty and
control state government proceedings.
Defendants are correct that, under binding Supreme Court precedent, Congress’s authority to legislate on Indian affairs extends beyond regulating commerce with Indian tribes. Despite their textual proximity, the Indian Commerce Clause has a “very different application[]” from the Interstate Commerce
Clause. Cotton Petroleum Corp., 490 U.S. at 192.
“[T]he central function of the Indian Commerce
Clause,” the Court has explained, “is to provide Congress with plenary power to legislate in the field of Indian affairs.” Id. (citing Morton v. Mancari, 417 U.S.
535, 551–52 (1974); COHEN’S at 207–08 & nn.2, 3, 9–
11 (1982)). Longstanding patterns of federal legislation bear this out. For example, in addition to commercial fields like land21 and mineral development,22
Congress has enacted Indian-related legislation in

21

See, e.g., 25 U.S.C. § 177 (requiring federal approval of any
“purchase, grant, lease, or other conveyance of lands . . . from any
Indian nation or tribe of Indians”); id. § 81 (requiring Secretary
of Interior approval for contracts leasing Indian lands); Fed.
Power Comm’n v. Tuscarora Indian Nation, 362 U.S. 99, 119
(1960) (purpose of 25 U.S.C. § 177 is to “prevent unfair, improvident or improper disposition” of Indian lands).
22
See, e.g., 25 U.S.C. §§ 2101–2108 (development of tribal mineral resources).

233a
non-commercial fields like criminal law,23 education,24
probate,25 health care,26 and housing assistance.27
Consequently, we cannot agree with Plaintiffs that
ICWA is unconstitutional because it does not regulate
tribal “commerce.” Whatever the validity of that argument as a matter of original constitutional meaning, cf. Adoptive Couple v. Baby Girl, 570 U.S. 637,
23
See, e.g., 18 U.S.C. § 1153 (placing certain crimes by “[a]ny
Indian” within Indian country under federal criminal jurisdiction); McGirt v. Oklahoma, 140 S. Ct. 2452, 2482 (2020) (state
lacked jurisdiction to prosecute Indian defendant under Major
Crimes Act for crime committed on reservation); Lara, 541 U.S.
at 199–200 (upholding statute conferring on tribes criminal jurisdiction over nonmember Indians); United States v. Antelope,
430 U.S. 641 (1977) (upholding Major Crimes Act); United States
v. Kagama, 118 U.S. 375, 385 (1886) (same).
24

See, e.g., 25 U.S.C. § 2000 (“It is the policy of the United
States to fulfill the Federal Government’s unique and continuing
trust relationship with and responsibility to the Indian people
for the education of Indian children . . . .”). See also COHEN’S
§ 22.03[1][a] (“Beginning with the 1794 Treaty with the Oneida,
over 150 treaties between tribes and the United States have included educational provisions. For almost as long a time, Congress has legislated to provide for Indian education generally.”)
(footnotes omitted).
25
See, e.g., 25 U.S.C. § 2205 (authorizing tribes to adopt probate codes for distribution of trust or restricted lands located on
reservations or otherwise subject to tribal jurisdiction).
26

See, e.g., 25 U.S.C. § 1601(1) (“Federal health services to
maintain and improve the health of the Indians are consonant
with and required by the Federal Government’s historical and
unique legal relationship with, and resulting responsibility to,
the American Indian people.”). See also COHEN’S § 22.04 (discussing federal healthcare for Indian tribes).
27
See, e.g., 25 U.S.C. §§ 4101–4243 (establishing housing grant
program for tribes).

234a
659–65 (2013) (Thomas, J., concurring), it is foreclosed by Supreme Court cases interpreting the Indian Commerce Clause to extend beyond commercial
interactions with tribes.
Defendants are also correct that the Supreme
Court has often described Congress’s Indian power as
“plenary and exclusive.” See, e.g., Lara, 541 U.S. at
200 (citing Washington v. Confederated Bands &
Tribes of the Yakima Indian Nation, 439 U.S. 463,
470–71 (1979) (“Yakima Nation”); Negonsott v. Samuels, 507 U.S. 99, 103 (1993); United States v. Wheeler,
435 U.S. 313, 323 (1978)). The Court has used that
broad phrase in various ways—sometimes to signal
“the breadth of congressional power to legislate in the
area of Indian affairs,” sometimes to confirm “the supremacy of federal over state law in this area,” and
other times “as a shorthand for general federal authority to legislate on health, safety, and morals
within Indian country, similar to the states’ police
powers.” COHEN’S § 5.02[1] (citing inter alia Lara, 541
U.S. at 200; Yakima Nation, 439 U.S. at 470; Cotton
Petroleum Corp., 490 U.S. at 192).28 More recently,
the Court has formulated the principle this way: “As
dependents, the [Indian] tribes are subject to plenary
control by Congress.” Michigan v. Bay Mills Indian
28
See also Gregory Ablavsky, Beyond the Indian Commerce
Clause, 124 YALE L.J. 1012, 1014 (2015) ) (“Ablavsky, Indian
Commerce”) (“Plenary power, as used by the Court, has two distinct meanings. Sometimes the Court uses the term interchangeably with ‘exclusive,’ to describe federal power over Indian affairs
to the exclusion of states. But the Court also uses the term to
describe the doctrine that the federal government has unchecked
authority over Indian tribes, including their internal affairs.”)
(footnotes omitted).

235a
Cmty., 572 U.S. 782, 788 (2014) (citing Lara, 541 U.S.
at 200).29
Merely describing Congress’s authority as “plenary,” however, does not settle ICWA’s validity. “The
power of Congress over Indian affairs,” the Supreme
Court has explained, “may be of a plenary nature; but
it is not absolute.” Del. Tribal Bus. Comm. v. Weeks,
430 U.S. 73, 84 (1977) (quoting United States v. Alcea
Band of Tillamooks, 329 U.S. 40, 54 (1946) (plurality
op.)); see also COHEN’S § 5.04[1] (“Federal power to
regulate Indian affairs is ‘plenary and exclusive,’ but
not absolute.”) (footnotes omitted). In this realm, as
in any, Congress’s power is limited by other constitutional guarantees. See New York v. United States, 505
U.S. 144, 156 (1992) (“Congress exercises its conferred
powers subject to the limitations contained in the
Constitution.”).30 Among the most critical is the Constitution’s structural guarantee of state sovereignty.
29
Cf. McGirt, 140 S. Ct. at 2462 (“This Court long ago held that
the Legislature wields significant constitutional authority when
it comes to tribal relations, possessing even the authority to
breach its own promises and treaties.”) (citing Lone Wolf v. Hitchcock, 187 U.S. 553, 566–68 (1903)).
30

See, e.g., Hodel v. Irving, 481 U.S. 704, 710, 718 (1987) (holding federal law regulating “descent and devise of Indian lands”
violated the Takings Clause); Weeks, 430 U.S. at 83–84 (“plenary” congressional power “in matters of Indian affairs” subject
to “equal protection component of the Fifth Amendment”);
Mancari, 417 U.S. at 551–55 (same); United States v. Creek Nation, 295 U.S. 103, 109–10 (1935) (power over Indian lands “subject to . . . pertinent constitutional restrictions,” including Takings Clause). A different question is to what extent the Constitution applies to the tribes themselves. “As separate sovereigns
pre-existing the Constitution, tribes have historically been regarded as unconstrained by those constitutional provisions

236a
See, e.g., Printz v. United States, 521 U.S. 898, 918–19
(1997) (“Although the States surrendered many of
their powers to the new Federal Government, they retained ‘a residuary and inviolable sovereignty,’
[which] . . . is reflected throughout the Constitution’s
text”) (quoting THE FEDERALIST No. 39, at 245 (J.
Madison)). No Supreme Court decision even hints
that Congress’s Indian affairs power trumps state sovereignty. To the contrary, the Court has held that
Congress’s power to regulate Indian commerce—despite being “under the exclusive control of the Federal
Government”—cannot “dissipate” the “background
principle of state sovereign immunity.” Seminole
Tribe of Fla. v. Florida, 517 U.S. 44, 72 (1996). Similarly, the Court has recognized that states did not surrender “their immunity against Indian tribes when
they adopted the Constitution.” Blatchford v. Native
Vill. of Noatak and Circle Vill., 501 U.S. 775, 781–82
(1991). Those decisions defy the radical notion that
Congress may deploy its “plenary” Indian power without regard to state sovereignty or the Tenth Amendment. See also infra II(B) (discussing additional precedents).
To say otherwise, as Defendants do, would erase
the distinction between federal and state power—
namely, that “[t]he Constitution confers on Congress
not plenary legislative power but only certain enumer-

framed specifically as limitations on federal or state authority.”
United States v. Bryant, 136 S. Ct. 1954, 1962 (2016) (quoting
Santa Clara Pueblo v. Martinez, 436 U.S. 49, 56 (1978)). Thus,
“[t]he Bill of Rights does not apply to Indian tribes.” Plains Commerce Bank v. Long Family Land & Cattle Co., 554 U.S. 316, 337
(2008).

237a
ated powers,” with “all other legislative power . . . reserved for the States.” Murphy v. NCAA, 138 S. Ct.
1461, 1476 (2018) (emphasis added). Nor does it follow that, because the Constitution gives Congress
power over Indian affairs, “the Tenth Amendment expressly disclaims any reservation of that power to the
States.” New York, 505 U.S. at 156. That begs the
question, then, whether the Indian power includes authority to govern state child-custody proceedings.
That “question[] of great importance and delicacy,” id.
at 155 (cleaned up), has not been squarely resolved by
the Supreme Court. But the Court has strongly suggested the answer: it has warned that an exercise of
Congress’s Indian affairs power that “interfere[s] with
the power or authority of any State” would mark a
“radical change[]” in tribal relations with the states.
Lara, 541 U.S. at 205; see also infra II(B). And, as we
explain below, no founding-era treaty, statute, or congressional practice supports ICWA’s unprecedented
reach. See infra II(C).
We therefore cannot agree with JUDGE DENNIS
that ICWA’s intrusion on state government proceedings fails even to implicate the Tenth Amendment.
See DENNIS OP. at 67. According to JUDGE DENNIS,
when Congress deploys its Indian power, the Tenth
Amendment vanishes. A court need ask only whether
Congress “may legislate on the particular subject matter at issue”—here, Indian children and families “in
child custody proceedings.” Id. Because Congress has
“plenary power” over that subject, raising the Tenth
Amendment as a barrier would “impos[e] new restraints on [Congress’s] authority.” Id.
That is a remarkable view. Imagine its applying
to hypothetical exercises of Congress’s other “plenary”

238a
powers—say, its “plenary power to make rules for the
admission of aliens,” Kleindienst v. Mandel, 408 U.S.
753, 766 (1972), or its “plenary power over the Territories,” District of Columbia v. Carter, 409 U.S. 418,
430 (1973), or its “plenary power to legislate for the
District of Columbia,” Palmore v. United States, 411
U.S. 389, 393 (1973), or its “plenary power . . . to regulate foreign commerce,” Buttfield v. Stranahan, 192
U.S. 470, 496 (1904). Suppose Congress enacted rules
in those areas that purported to govern state proceedings, as ICWA does. Imagine a federal law mandating
different comparative fault rules in state tort suits involving Swedish visa holders. Or unique proof standards for Guamanians in state probate proceedings. Or
laxer parol evidence rules for D.C. residents embroiled
in state contract litigation. Or stricter adverse possession rules for French merchants in state property
disputes. Would those federal laws, directly controlling state administrative and civil proceedings, be immune from the Tenth Amendment because Congress’s
authority in those areas is “plenary”? Of course not.
Neither is ICWA.31
In sum, the settled proposition that “tribes are
subject to plenary control by Congress,” Bay Mills, 572
U.S. at 788, does not answer the novel question
whether Congress can control state child-custody proceedings involving Indian children. We now turn to
that question.

31
We agree with JUDGE DENNIS that these hypotheticals are
“far-fetched” and “ridiculous.” DENNIS OP. at 104 n.47. That is
the point of a reductio ad absurdum.

239a
B.
To answer it, we consider whether any Supreme
Court precedent—or, failing that, any longstanding
founding-era congressional practice—justifies the use
of Congress’s Indian affairs power to govern state
child-custody proceedings involving Indian children.
See, e.g., Printz, 521 U.S. at 905 (explaining “contemporaneous legislative exposition of the Constitution
. . ., acquiesced in for a long term of years, fixes the
construction to be given its provisions”) (citing Myers
v. United States, 272 U.S. 52, 175 (1926)). As we explain below (infra II(B)(1)–(2), II(C)), we find neither
precedent nor historical evidence justifying the modern use of Congress’s power here. See Nat’l Fed’n of
Indep. Bus. v. Sebelius, 567 U.S. 519, 549 (2012)
(“NFIB”) (“Sometimes the most telling indication of a
severe constitutional problem is the lack of historical
precedent for Congress’s action.”) (cleaned up).
We pause to make a point about method. Our
analysis does not ask—as JUDGE DENNIS supposes—
whether any “Founding-era federal law . . . applie[d]
within state child welfare proceedings.” DENNIS OP.
at 72. JUDGE COSTA also tags us with a similarly absurd view. See COSTA OP. at 16 (imagining we seek a
founding-era practice “explicitly bless[ing] federal intervention in state domestic relations proceedings”
pursuant to the Indian affairs power) (emphasis
added). But that approach to discerning the original
extent of federal power “border[s] on the frivolous.”
District of Columbia v. Heller, 554 U.S. 570, 582
(2008). No one thinks, and we do not claim, that
states were adjudicating adoptions in 1787. Instead,
we examine whether comparable founding-era uses of
the Indian power justify ICWA’s modern intrusion

240a
into state custody proceedings.32 See, e.g., infra at 38
(asking whether ICWA is justified by “comparable
founding-era exercises of Congress’s Indian affairs
power”). Testing whether the old maps onto the new
is standard constitutional analysis.33 So, we do not
ask the specific (and meaningless) question whether
founding-era Indian power was used to govern “state
domestic relations proceedings”; we do ask the more
general (and meaningful) question whether that
power was used to govern “state proceedings,” “state
governments,” “state governmental functions,” or “a
state’s own proceedings that involve Indians.” See infra II(C). Thus, the supposed rebuttals to our analysis—that state court “adjudication of child placements” did not exist “until the middle of the nineteenth century,” DENNIS OP. at 72 , and “would not exist for another eight decades” after the founding era,
COSTA OP. at 16—incinerate a straw man.
That clarification made, we proceed to our analysis.

32

See, e.g., Printz, 521 U.S. at 905–09 (examining whether
founding-era federal laws requiring state courts to perform various naturalization functions justified the Brady Act’s requiring
state police to perform gun background checks).
33
See, e.g., Heller, 554 U.S. at 582 (“Just as the First Amendment protects modern forms of communications, and the Fourth
Amendment applies to modern forms of search, the Second
Amendment extends, prima facie, to all instruments that constitute bearable arms, even those that were not in existence at the
time of the founding.”) (citing Reno v. ACLU, 521 U.S. 844, 849
(1997); Kyllo v. United States, 533 U.S. 27, 35–36 (2001)).

241a
1.
No Supreme Court decision supports Congress’s
deploying its Indian affairs power to govern state government proceedings. Indeed, the Court’s precedents
point in the opposite direction: such use of the Indian
power marks a “radical change[] in tribal status” because it “interfere[s] with the power [and] authority of
[the] State[s].” Lara, 541 U.S. at 205.
The logical place to begin is Fisher v. District
Court of Sixteenth Judicial District of Montana, 424
U.S. 382 (1976), because it involves the same subject
as this case: tribal authority over adoptions. Pursuant to the Indian Reorganization Act, 25 U.S.C. § 5123
(formerly cited as 25 U.S.C. § 476), the Northern
Cheyenne Tribe vested its tribal court with exclusive
jurisdiction over adoptions among tribe members.
Fisher, 424 at 387. The Supreme Court upheld the
exclusion of state-court jurisdiction because it would
“interfere with the powers of self-government conferred upon the [tribe].” Id. The Court emphasized,
however, that the tribe’s exclusive jurisdiction was
limited to adoptions where the child, the birth parents, and the adoptive parents were “each and all
members of the [tribe]” and “reside within the exterior
boundaries of the [reservation].” Id. at 384 n.6. The
Court therefore concluded the tribal ordinance implemented an “overriding federal policy” that ousted
state-court jurisdiction “over litigation involving reservation Indians.” Id. at 390.34

34
The Court also rejected an equal protection challenge to the
ordinance, which we discuss infra II(A)(2).

242a
The law at issue in Fisher is the mirror opposite
of ICWA. Fisher held Congress could keep states out
of on-reservation adoptions among tribe members. By
contrast, this case asks whether Congress can directly
regulate state proceedings involving off-reservation
adoptions by non-Indians.
See, e.g., 25 U.S.C.
§ 1915(a) (applying ICWA preferences to “any adoptive placement of an Indian child under State law”).35
Fisher involved Congress’s valid attempt to promote a
tribe’s “right . . . to govern itself independently of state
law.” 424 U.S. at 386. But this case asks whether
Congress can legislate standards governing a state’s
own child-custody proceedings. To be sure, Fisher
does not squarely address whether Congress has
power to do so. But the decision provides no support
for the proposition that Congress may use its Indian
affairs power to regulate state proceedings.
Speaking directly to that question is United States
v. Lara, 541 U.S. 193 (2004), a more recent examination of the Indian affairs power. Lara was a double
jeopardy case in which the Indian defendant, Lara,
was first prosecuted by a different tribe and then prosecuted for a similar crime by the United States. 541
U.S. at 196–97. Lara’s tribal prosecution was authorized by 25 U.S.C. § 1301(2), which allows tribes to

35
We note that one aspect of ICWA is similar to the law upheld
in Fisher. Section 1911(a) reserves to a tribe exclusive jurisdiction “over any child custody proceeding involving an Indian child
who resides or is domiciled within the reservation of such tribe.”
Our decision does not affect that section because it does not regulate state proceedings.

243a
prosecute other tribes’ members. Id. at 197–98.36 He
argued his tribal prosecution was an exercise of “delegated federal authority,” such that his federal prosecution constituted double jeopardy. Id. The Supreme
Court disagreed, concluding that § 1301(2) recognized
tribes’ “inherent power” to prosecute nonmember Indians and that the federal prosecution did not place
Lara in double jeopardy. Id. at 198, 210. The Court
discussed several “considerations” leading it to conclude the statute validly exercised Congress’s Indian
affairs power. Id. at 200–07.
First, as noted, the Court confirmed that Congress
has “broad general powers to legislate in respect to Indian tribes,” powers typically described as “plenary
and exclusive.” Id. at 200 (quoting Yakima Nation,
439 U.S. at 470-71). Second, the Court had consistently approved adjustments of “tribal sovereign authority” similar to the expansion of criminal jurisdiction here. Id. at 202–03. Third, the Court found
§ 1301(2) did not have an “unusual legislative objective,” given Congress’s history of “ma[king] adjustments to the autonomous status of other such dependent entities,” such as the Philippines or Puerto Rico.
Id. at 203. Fourth, the Court found no “explicit language in the Constitution suggesting a limitation” on
Congress’s action. Id. at 204. Fifth, the Court found
the jurisdictional change “limited” because the tribe
already had jurisdiction over its own members as well
as “authority to control events that occur upon [its]
own land.” Id. The Court cautioned, however, that it
36
The Supreme Court had previously held tribes could not
prosecute members of other tribes in Duro v. Reina, 495 U.S. 676,
688 (1990), but Congress responded with § 1301(2).

244a
was “not now faced with a question dealing with potential constitutional limits on congressional efforts to
legislate far more radical changes in tribal status. In
particular, this case involves no interference with the
power or authority of any State.” Id. at 205 (emphasis
added).37
ICWA’s encroachment on state child-custody proceedings cannot survive scrutiny under these Lara
factors. To begin with, unlike in Lara, Defendants
point us to no Supreme Court cases approving an expansion of “tribal sovereign authority” remotely like
the one contemplated by ICWA. Id. at 202–03. Nor—
as discussed infra—have Defendants identified any
founding-era congressional history of regulating state
proceedings, thus marking ICWA as having an “unusual legislative objective.” Id. at 203. Indeed, ICWA
is also “unusual” in that it intrudes into the domestic
relations realm “long . . . regarded as a virtually exclusive province of the States.” Sosna v. Iowa, 419
U.S. 393, 404 (1975). Whereas in Lara no “explicit
[constitutional] language” barred expanding one
tribe’s criminal jurisdiction over other tribe members,
541 U.S. at 204, the Tenth Amendment plainly reserves to states “[t]he whole subject of the domestic
relations of . . . parent and child . . . .” Burrus, 136
U.S. at 593–94. Unlike the “limited” jurisdictional expansion in Lara, ICWA forces tribes into off-reservation state proceedings involving non-Indians. 541 U.S.
37
Additionally, the Court explained that its prior decisions implicitly recognized that Congress could relax limitations on
tribes’ criminal jurisdiction. Lara, 541 U.S. at 205– 07 (citing,
inter alia, Oliphant v. Suquamish Tribe, 435 U.S. 191 (1978);
Duro, 495 U.S. 676).

245a
at 204. Finally, and most obviously, ICWA seeks the
“radical change[] in tribal status” foreshadowed in
Lara: ICWA’s stated purpose is to “interfere[] with
the power [and] authority of [the] State[s].” Id. at
205.38
Finally, Seminole Tribe, 517 U.S. 44, confirms
that Congress cannot deploy its Indian affairs power
to override state sovereignty. In that case, the Court
rejected the proposition that the Indian Gaming Regulatory Act, enacted under the Indian Commerce
Clause, could validly abrogate state sovereign immunity. Id. at 72–73. The Court squarely held that Congress’s “exclusive” authority over Indian commerce
does not “dissipate” a state’s immunity from federal
suit: “[T]he background principle of state sovereign
38
JUDGE DENNIS contends the Lara factors “are of no relevance” because, in ICWA, “Congress is not altering the scope of
the tribes’ retained sovereign power” but is instead “grant[ing]
new rights, protections, and safeguards” to tribes and families.
DENNIS OP. at 77. We disagree. Nowhere does Lara limit its
analysis to federal laws that “alter[] . . . tribes’ retained sovereign
power,” as JUDGE DENNIS claims. Rather, Lara deploys various
“considerations” to assess whether the Constitution “authorizes”
Congress’s use of its Indian affairs power. See Lara, 541 U.S. at
200. Those considerations bear directly on ICWA’s validity. To
be sure, the statute in Lara passed muster because it merely “relax[ed]” prior statutory restrictions on “the tribes’ exercise of inherent prosecutorial power.” Id. at 200, 207. But Lara expressly
reserved the question whether there are “potential constitutional
limits on congressional efforts to legislate far more radical
changes in tribal status,” and “[i]n particular” for statutes that
“interfere[] with the power or authority of [a] State.” Id. at 205.
The question that Lara reserved is the one presented by ICWA—
whether by “interfer[ing] with the power or authority of [a]
State,” id., ICWA exceeds Congress’s authority to legislate for Indian tribes.

246a
immunity embodied in the Eleventh Amendment is
not so ephemeral as to dissipate when the subject of
the suit is an area, like the regulation of Indian commerce, that is under the exclusive control of the Federal Government.” Id. at 72. Seminole Tribe’s holding
removes any basis for Defendants’ core argument
that, because Congress’s Indian affairs authority is
“plenary,” Congress can ipso facto regulate state sovereign matters like adoption proceedings. To the contrary, “[e]ven when the Constitution vests in Congress
complete law-making authority over a particular
area” like Indian affairs, id., the exercise of that power
remains subject to the Constitution’s guarantees of
state sovereignty.39

39

JUDGE DENNIS claims Seminole Tribe “has no bearing” on
this question because it “addressed only limitations on Congress’s power to override states’ sovereign immunity from suit by
private parties.” DENNIS OP. at 75. That is incorrect. States’ immunity from private suits is “a fundamental aspect of the sovereignty which the States enjoyed before the ratification of the
Constitution,” and which is confirmed “by the Tenth Amendment.” Alden v. Maine, 527 U.S. 706, 713 (1999); see also Blatchford, 501 U.S. at 781– 82 (rejecting notion that state surrender
of immunity against tribes was “inherent in the constitutional
compact”). Thus, contrary to JUDGE DENNIS’s view, Seminole
Tribe is not cabined to the “states’ sovereign immunity from suit
by private parties,” but bears directly on whether Congress’s Indian power may ipso facto override state sovereignty as a general
matter. JUDGE DENNIS also asserts that Seminole Tribe “carefully noted that its opinion in no way touched upon other aspects
of the Tenth Amendment.” DENNIS OP. at 75. That misreads the
decision. The footnote JUDGE DENNIS cites only declined to decide whether the gaming law at issue violated the Tenth Amendment by “mandat[ing] state regulation of Indian gaming,” a question “not considered below.” Seminole Tribe, 517 U.S. at 61 n.10.

247a
2.
Defendants cite various Supreme Court decisions
as support for ICWA, but none suffice.
Defendants cite Lara repeatedly, but only for the
general proposition that Congress’s Indian affairs
power has been described as “plenary and exclusive.”
They do not, however, discuss Lara in any detail nor
analyze ICWA’s validity under the considerations
Lara sets out. As already discussed, incanting the formula that Congress’s power in this area is “plenary
and exclusive” begs the question whether Congress
may use that power to regulate state child-custody
proceedings. The same can be said for other broad formulations of the Indian affairs power Defendants cite.
For example, Tribal Defendants quote the seminal
opinion in Worcester v. Georgia for the proposition
that federal treaties and laws “contemplate . . . that
all intercourse with [Indians] shall be carried on exclusively by the government of the union.” 31 U.S. (6
Pet.) 515, 519 (1832) (emphasis added); see also id. at
561 (op. of Marshall, C.J.) (same). It is unclear what
that proposition has to do with this case. Worcester
itself has no bearing on it: the decision held that Georgia could not apply its criminal laws on Cherokee territory and in contravention of a federal treaty. See id.
at 561 (explaining that “[t]he Cherokee nation, then,
is a distinct community occupying its own territory . . .
in which the laws of Georgia can have no force”).40
Neither the cited footnote, nor anything else in the decision, creates the artificial distinction JUDGE DENNIS seeks to create here.
40

In a similar vein is the Supreme Court’s recent decision in
McGirt, 140 S. Ct. 2452. The Court held that certain lands in
Oklahoma remained “Indian country” for purposes of the Major

248a
Federal Defendants cite Washington v. Washington State Commercial Passenger Fishing Vessel Ass’n
(“Fishing Vessel”), 443 U.S. 658 (1979), presumably
because that decision required the state of Washington to accommodate the treaty rights of Indians with
respect to off-reservation fishing sites. Indeed, at en
banc argument, Federal Defendants identified Fishing Vessel as their best case.41 Rec. of Oral Argument
at 8:45–9:50. But the treaty-based limitation on state
regulation allowed in Fishing Vessel is nothing like
ICWA’s intrusion into state child-custody proceedings. The 1850s-era treaties in Fishing Vessel guaranteed tribes the “right of taking fish, at all usual and
accustomed grounds and stations . . . in common with
all citizens of the Territory.” 443 U.S. at 674. The
Crimes Act, 18 U.S.C. § 1153(a), and thus that Oklahoma state
courts lacked jurisdiction to try an Indian defendant for crimes
he committed on those lands. Id. at 2459. McGirt reiterates the
familiar propositions that Congress has “significant constitutional authority when it comes to tribal relations,” id. at 2462—
in that case, the authority to establish an Indian reservation—
and that “State courts generally have no jurisdiction to try Indians for conduct committed in ‘Indian country,’” id. at 2459 (citing
Negonsott v. Samuels, 507 U.S. 99, 102–03 (1993)). The decision,
however, offers no support for the proposition that Congress’s Indian affairs power extends to controlling state proceedings. The
Court remarked only that “States have no authority to reduce
federal reservations lying within their borders,” id. at 2462, a
settled proposition harkening back to Chief Justice Marshall’s
admonition in Worcester.
41
Even so, counsel effectively admitted Fishing Vessel does not
go far enough to support ICWA. When pressed for prior authority allowing Congress’s “plenary” power to interfere with state
child-custody proceedings, counsel responded that “this”—i.e. the
instant challenge to ICWA—”is the case that presents that [issue].” Rec. of Oral Argument at 10:30–10:55.

249a
Court read those treaties to guarantee tribes a portion
of yearly fishing runs, which could not be invalidated
by state law or regulation. Id. at 684–85.42 Requiring
state regulatory forbearance to federal treaties, however, is worlds away from Congress’s dictating separate standards for state child-custody proceedings involving Indian children. Furthermore, unlike in Fishing Vessel, here Defendants cannot rely on over a century of federal treaties bearing on the precise subject
matter at issue. Cf. Lara, 514 U.S. at 203–04 (finding
Indian affairs power justified by Congress’s history of
similar actions); see also id. at 201 (treaties “can authorize Congress to deal with ‘matters’ with which
otherwise ‘[it] could not deal’”).43
Tribal Defendants cite several decisions for the
proposition that Congress may legislate with respect
42

Fishing Vessel is one in a long line of cases resolving conflicts
between tribal treaty rights and non-tribal interests or state regulation. See, e.g., Herrera v. Wyoming, 139 S. Ct. 1686 (2019);
Puyallup Tribe v. Dep’t of Game of Wash., 391 U.S. 392 (1968);
Seufert Bros. Co. v. United States, 249 U.S. 194 (1919); United
States v. Winans, 198 U.S. 371 (1905).
43
Federal Defendants also cite Antoine v. Washington, 420 U.S.
194 (1975), which, similar to Fishing Vessel, recognized Congress
may ratify agreements with Indian tribes that preclude states
from applying contrary state law. In Antoine, a tribe ceded part
of its land to the United States in exchange for preserving hunting and fishing rights. The Court held that the Supremacy
Clause prevented the State of Washington from applying its
hunting and fishing laws to Indians on the ceded lands. See id.
at 203–04 (citing, inter alia, Choate v. Trapp, 224 U.S. 665
(1912); Perrin v. United States, 232 U.S. 478 (1914); Dick v.
United States, 208 U.S. 340 (1908)). Neither Antoine, nor any
decision it relied on, suggests Congress may impose Indian-specific standards on state proceedings.

250a
to Indian activity that does not occur “on or near the
reservation.” This general principle is true, of course,
but again it begs the question whether ICWA validly
regulates state child-custody proceedings. The cited
cases themselves offer no guidance on that question.
For example, United States v. McGowan held that
Congress validly denominated as “Indian country” a
tract of federal land occupied by an Indian colony, remarking that Congress may legislate for the “protection of the Indians wherever they may be.” 302 U.S.
535, 539 (1938) (citation omitted). Morton v. Ruiz invalidated under the APA an agency policy excluding
federal assistance for tribe members living near reservations, noting “[t]he overriding duty of our Federal
Government to deal fairly with Indians wherever located.” 415 U.S. 199, 236 (1974). Perrin v. United
States upheld a federal ban on selling alcohol on lands
ceded by the Yankton Sioux Tribe, based on Congress’s power “to prohibit the introduction of intoxicating liquors into an Indian reservation, . . . and to
prohibit traffic in such liquors with tribal Indians,
whether upon or off a reservation and whether within
or without the limits of a state.” 232 U.S. 478, 482
(1914).44 Finally, United States v. Kagama upheld
Congress’s power to enact a criminal code for crimes

44
Nor does Perrin’s modern sequel, United States v. Mazurie,
419 U.S. 544 (1975), support Defendants’ position. Like Perrin,
Mazurie only concerns Congress’s Indian commerce power to regulate alcohol sales to Indians and the “introduction of alcoholic
beverages into Indian country.” Mazurie, 419 U.S. at 554 (and
collecting cases). Mazurie upheld Congress’s use of that power
to ban alcohol sales by a non-Indian who owned land within a
reservation. Id. at 546–47, 555–56.

251a
committed by Indians on Indian reservations, observing that only the federal government possessed that
power and that “the theater of its exercise is within
the geographical limits of the United States.” 118
U.S. 375, 384–85 (1886). As this summary shows,
these decisions say nothing about whether Congress
may exercise its Indian affairs power to regulate a
state sovereign function like child-custody proceedings.45 And, to the extent these decisions touch on that
question, they deny Congress’s power to do so. See,
45
JUDGE HIGGINSON claims our view would resurrect the “governmental function” analysis rejected by Garcia v. San Antonio
Metropolitan Transit Authority, 469 U.S. 528, 546–47 (1985).
HIGGINSON Op. at 1; see also DENNIS OP. at 68–74. We disagree.
In deciding whether federal wage standards could apply to municipal employees, Garcia rejected the test in National League of
Cities v. Usery, 426 U.S. 833, 852 (1976), which exempted from
federal regulation “integral” or “traditional” state government
functions. Garcia, 469 U.S. at 546–47. Garcia is inapposite for
several reasons. First, Garcia addressed the Commerce Clause,
not the Indian affairs power. As discussed, whether the latter
encroaches on state authority is one key to its valid use by Congress. See, e.g., Lara, 541 U.S. at 205 (asking whether use of the
Indian affairs power “involve[d] . . . interference with the power
or authority of any State”). Second, our view does not depend, as
Usery did, on “apprais[ing] . . . whether a particular governmental function is ‘integral’ or ‘traditional.’” Garcia, 469 U.S. at 546–
47. Instead, we ask whether the Indian affairs power has ever
been used to regulate state government proceedings of any kind.
Third, Garcia concerned whether “incidental application” of general federal laws “excessively interfered with the functioning of
state governments.” Printz, 521 U.S. at 932 (discussing, inter
alia, Usery and Garcia). Here, by contrast, we address a law
whose “whole object . . . [is] to direct the functioning of the state
[administrative and judicial proceedings]” in child custody cases.
Id.; see also infra III(B)(1)(b) (explaining ICWA does not “evenhandedly” regulate state and private activity).

252a
e.g., Kagama, 118 U.S. at 383 (observing the federal
code “does not interfere with the process of the state
courts within the reservation . . . [but] is confined to
the acts of an Indian of some tribe, of a criminal character, committed within the limits of the reservation”).46
C.
Finding no Supreme Court precedent justifying
ICWA’s intrusion on state sovereignty, we next examine whether ICWA is nonetheless supported by any
comparable founding-era exercises of Congress’s Indian affairs power. “[E]arly congressional enactments
‘provid[e] contemporaneous and weighty evidence of
the Constitution’s meaning.’” Nev. Comm’n on Ethics
v. Carrigan, 564 U.S. 117, 122 (2011) (alteration in
original) (quoting Printz, 521 U.S. at 905). When assessing the constitutionality of a federal law, the Supreme Court looks to founding-era legislation for any
light it may shed on the scope of Congress’s authority.
See, e.g., Printz, 521 U.S. at 905– 07 (canvassing “statutes enacted by the first Congresses” to determine

46
Defendants also suggest ICWA is authorized by “preconstitutional powers.” But they fail to explain how that is so. As State
Plaintiffs point out, the Supreme Court’s reference to “preconstitutional powers” in Lara referred to the United States’ early relationship with Indian tribes, which at that time resembled “military and foreign policy [more] than a subject of domestic or municipal law.” 541 U.S. at 201. While such authority spoke to the
issue in Lara—Congress’s power to alter the scope of tribes’ inherent sovereignty—it has no bearing on ICWA, a law having
nothing to do with military or foreign policy and everything to do
with state domestic law.

253a
whether Congress could compel state officers to implement federal law).47 Evidence that the first Congresses used federal power over Indian tribes to regulate state proceedings would be “contemporaneous
and weighty evidence” that the Constitution permits
ICWA’s encroachment on state child-custody proceedings. Bowsher v. Synar, 478 U.S. 478 U.S. 714, 723–
24 (1986). “Conversely,” if no such evidence exists,
“we would have reason to believe that the power was
thought not to exist.” Printz, 521 U.S. at 905. Amici
Indian law experts, as well as the Navajo Nation intervenors, have amassed considerable evidence illuminating early use of the Indian affairs power, which
we have carefully considered. See Br. for Prof. Gregory Ablavsky as Amicus Curiae at 5–20 (“Ablavsky
Br.”); Br. for Indian Law Scholars as Amici Curiae at
3–8 (“Indian Law Scholars Br.”); Br. for Intervenor
Navajo Nation at 11–12 & nn. 5–6 (“Navajo Nation
Br.”). We cannot agree, however, that this evidence
supports ICWA’s modern-day intrusion into state
child-custody proceedings.
Ample founding-era evidence shows that Congress’s Indian affairs power was intended to be both
47
See also Bowsher v. Synar, 478 U.S. 714, 723–24 (1986) (relying on Congress’s “Decision of 1789” to reject congressional role
in officer removal); Marsh v. Chambers, 463 U.S. 783, 790 (1983)
(placing particular weight on “[a]n act ‘passed by the First Congress assembled under the Constitution, many of whose members had taken part in framing that instrument’” (quoting Wisconsin v. Pelican Ins. Co., 127 U.S. 265, 297 (1888))); McCulloch
v. Maryland, 17 U.S. (4 Wheat.) 316, 401 (1819) (reasoning “[t]he
power [to incorporate the Bank of the United States] was exercised by the first congress elected under the present constitution”).

254a
broad in subject matter and exclusive of state authority. The framing generation understood Congress’s
power to include, for example, “making war and peace,
purchasing certain tracts of [Indians’] lands, fixing
the boundaries between [Indians] and our people, and
preventing the latter settling on lands left in possession of the former.” 33 JOURNALS OF THE CONTINENTAL
CONGRESS, 1774-1789, 458 (Roscoe R. Hill ed.,
1936).48 Additionally, it was understood that Congress’s power would displace the prior authority of
states under the Articles of Confederation to deal directly with tribes. Defending this centralization,
James Madison wrote that Congress’s power to regulate commerce with Indian tribes was “very properly
unfettered” from “obscure and contradictory” limitations in the Articles that extended national power only
to Indians “not members” of States and made it subservient to state legislation. THE FEDERALIST No. 42,
at 219 (James Madison) (George W. Carey & James
McClellan eds., 2001).49 Confirming this view was
Anti-Federalist Abraham Yates, Jr., who concluded,
48

See also JOSEPH STORY, COMMENTARIES ON THE CONSTITU§ 533, at 381 (Rotunda & Nowak ed.
1987) (“STORY”) (describing federal Indian power as the “right of
exclusive regulation of trade and intercourse with [Indians], and
the . . . authority to protect and guarantee their territorial possessions, immunities, and jurisdiction”).

TION OF THE UNITED STATES

49

See also ST. GEORGE TUCKER, VIEW OF THE CONSTITUTION OF
UNITED STATES 196 (Liberty Fund 1999) (1803) (discussing
Articles’ “obscure” and “contradictory” limitations on national
power over Indians) (citing THE FEDERALIST No. 42); STORY
§ 533, at 380 (observing Articles attempted to “accomplish impossibilities [respecting power over Indians]; to reconcile a partial
sovereignty in the Union, with complete sovereignty in the
states”).
THE

255a
to his chagrin, that the new Constitution would “totally surrender into the hands of Congress the management and regulation of the Indian affairs.” Abraham Yates, Jr. (Sydney), To the Citizens of the State of
New-York (June 13-14, 1788), reprinted in 20 THE
DOCUMENTARY HISTORY OF THE RATIFICATION OF THE
CONSTITUTION 1153, 1156–58 (John P. Kaminski et al.
eds., 2004). This view was later echoed by the Washington administration: “[T]he United States have, under the constitution, the sole regulation of Indian affairs, in all matters whatsoever.” Letter from Henry
Knox to Israel Chapin (Apr. 28, 1792), reprinted in 1
AMERICAN STATE PAPERS: INDIAN AFFAIRS 231–32
(Lowrie & Clarke eds., 1832).
Especially relevant is the first Congress’s enactment of the Trade and Intercourse Act, see Act of July
22, 1790, 1 Cong. Ch. 33, 1 Stat. 137, which, with its
statutory successors, was the primary federal statute
governing Indian affairs until the 1830s. See Ablavsky, Indian Commerce, at 1023. The Act prohibited
“any trade or intercourse with the Indian tribes” without a federal license; prohibited the sale of land by Indians or Indian tribes unless executed by federal
treaty; and extended federal criminal jurisdiction to
crimes committed by non-Indians against Indians.
Congress later amended the Act to require federal approval to cross into Indian country and to authorize
the United States military to arrest violators of the
Act. See Act of May 19, 1796, 4 Cong. Ch. 30, § 3, 1
Stat. 469, 470; id. §§ 5, 16.
None of this evidence speaks to the question before us, which is whether Congress may use its Indian
affairs power to regulate a state’s own child-custody

256a
proceedings. As already observed, the fact that Congress’s power goes beyond regulating tribal trade begs
the question whether it allows Congress to regulate
state governments. Also beside the point is the fact
that Congress’s power was intended to exclude state
authority over tribes. This prevented states from, for
instance, nullifying federal treaties securing Indian
lands.50 That evidence would be relevant if the issue
were whether ICWA could exclude state courts from
adoptions involving tribe members. See Fisher, 424
U.S. at 390 (upholding exclusion of state jurisdiction
for adoptions among tribe members). But ICWA presents the opposite scenario: it seeks to force federal
and tribal standards into state proceedings. Amici
point us to no founding-era evidence even suggesting
Congress thought its Indian affairs power extended
that far.51 The most pertinent example of Indian leg-

50

See, e.g., Worcester, 31 U.S. at 561 (ex-plaining that “[t]he
Cherokee nation . . . is a distinct community occupying its own
territory . . . in which the laws of Georgia can have no force”); see
also Ablavsky, Indian Commerce, at 1045–50 (describing Georgia’s ultimately unsuccessful efforts to assert its “territorial sovereignty” against Cherokee treaty).
51
JUDGE DENNIS similarly relies on evidence of early state resistance to federal Indian treaties, such as New York’s undermining the Fort Stanwix Treaty with the Six Nations and Georgia’s own conflicting treaties with Creek Indians. See DENNIS
OP. at 8 (citing COHEN’S § 1.02[3]; Robert N. Clinton, The
Dormant Indian Commerce Clause, 27 CONN. L. REV. 1055, 1147
(1995)). This evidence has the same flaws as amici’s, however.
It supports Congress’s traditional power to bar states from subverting federal Indian treaties. But it does not involve, and so
says nothing about, Congress’s power to impose Indian-specific
standards on state proceedings.

257a
islation from the first Congress—the Trade and Intercourse Act—addresses various aspects of the federal
government’s relationship with Indians. It says nothing about regulating a state’s own proceedings that involve Indians.
Amici and the Navajo Nation also cite evidence
that early Congresses used their authority to protect
Indian children. But their evidence again fails to
speak to the issue before us. For example, amici point
to evidence that the federal government was “reluctantly” involved in the “widespread trade in captured
children, both Indian and white,” such as by “paying
federal monies as ransom for children.” Ablavsky Br.
at 19 (citing, inter alia, Christina Snyder, Slavery in
Indian Country: The Changing Face of Captivity in
Early America 173–74 (2010)). They also point to federal superintendence of Indian children by “placing
[them] within Anglo-American communities” and
founding a “federally-run boarding school system.”
Ablavsky Br. at 19, 20 (citing 25 U.S.C. §§ 271-304b;
FREDERICK E. HOXIE, A FINAL PROMISE: THE CAMPAIGN TO ASSIMILATE THE INDIANS, 1880-1920, 189–
210 (1984)). And they cite various federal policies visà-vis Indian children, such as funding education, allotting lands to Indian orphans, and establishing trust
funds. See Indian Law Scholars Br. at 3–8.52 Finally,

52

See, e.g., Treaty with the Oneida, etc., art. III, Nov. 11, 1794,
7 Stat. 47 (providing for education of tribe’s children); Treaty
with the Kaskaskia art. III, Aug. 13, 1803, 7 Stat. 78 (providing
funding for a Catholic priest “to instruct as many of their children as possible in the rudiments of literature”); Treaty with the
Choctaw art. XIV, Sept. 27, 1830, 7 Stat. 333 (providing lands to
unmarried children and orphans); Treaty with the Shawnee art.

258a
the Navajo Nation cites numerous federal treaties
that make “repeated promises . . . for the welfare of
tribal children.” Navajo Nation Br. at 11–12 & nn.5–
6.53 We assume only for argument’s sake that all this
evidence concerns founding-era practices relevant to
the original understanding of the Indian affairs
power. But see infra II(D) (explaining the federal
boarding-school system dates from the late nineteenth
century). Even then, the evidence shows only that the
federal government has long shouldered responsibility for protecting Indian children. None of it, however,
speaks to whether Congress may regulate state government proceedings involving Indian children.54

VIII, May 10, 1854, 10 Stat. 1053 (establishing trust fund for orphans); Treaty with the Cherokee, art. XXV, July 19, 1866, 14
Stat. 799 (providing for education of Cherokee orphan children
in an “asylum” controlled by Cherokee government).
53
See, e.g., Treaty with the Nez Percés art. V, June 11, 1855,
12 Stat. 957 (providing two schools supplied with books, furniture, stationery, and teachers for free to the tribe’s children);
Treaty with the Seminoles art. III, May 9, 1832, 7 Stat. 368
(promising “a blanket and a homespun frock” to each Seminole
child); Treaty with the Delawares, Supp. Art., Sept. 24, 1829, 7
Stat. 327 (requiring “thirty-six sections of the best land” be sold
for “the support of schools for the education of Delaware children”); Articles of Agreement with the Creeks, Nov. 15, 1827, 7
Stat. 307 (providing $5,000 for “education and support of Creek
children at the school in Kentucky”).
54

JUDGE DENNIS relies heavily on this kind of evidence to support his argument that the “trust relationship” between the Federal Government and Indian tribes justifies ICWA. Dennis Op.
at 16–17, 20–21, 59; see, e.g., COHEN’S § 5.04[3][a] (“One of the
basic principles of Indian law is that the federal government has
a trust or special relationship with Indian tribes.”). As explained

259a
D.
Relying on much of the same historical evidence
we have examined, JUDGE DENNIS mounts an elaborate originalist defense of ICWA. See DENNIS OP. at
5–25, 52–66. We agree with JUDGE DENNIS that
ICWA’s validity hinges on Congress’s founding-era exercise of its Indian affairs power. See id. at 5 (citing
N.L.R.B. v. Noel Canning, 573 U.S. 513, 524 (2014);
Heller, 554 U.S. at 605–10). But we sharply disagree
with his analysis. As explained, no founding-era
treaty, statute, or practice features anything like
ICWA’s foisting federal standards on state governments. See supra II(C). ICWA’s goal of managing
tribal-state relations may harken back to the late
eighteenth century, but its methods were first born in
the late 1970s. The leading Indian law treatise puts
it accurately: “While reaffirming basic principles of
tribal authority over tribal members, ICWA also inserts federal and tribal law into family matters long
within the domain of the states.” COHEN’S § 11.01[1].
By enacting rules for state officials and for state proceedings, ICWA outstrips the historical record and so
cannot be supported by any original understanding of
the Indian affairs power.
We offer these additional responses to JUDGE DENNIS.

First, JUDGE DENNIS invokes the exclusivity of
Congress’s Indian power to support ICWA. Because
the power “is exclusive to the federal government,” it
below, the trust relationship fails to support the notion that Congress may impose federal standards on state child-custody proceedings. See infra II(D).

260a
“totally displaced the states from having any role in
[Indian] affairs.” DENNIS OP. at 58, 53; see id. at 53
(comparing Indian affairs power to “field preemption”); see also COSTA OP. at 13–14 (relying on “exclusive” and “undivided” nature of federal Indian power).
JUDGE DENNIS contends that ICWA deploys this exclusive authority against states. “Just as the Constitution was meant to preclude the states from undertaking their own wars or making their own treaties
with the Indian tribes,” he argues, “so too does it empower the federal government to ensure states do not
spoil relations with the Indian tribes” by placing Indian children with non-Indian families. Id. at 58 (citation omitted). We disagree.
The exclusivity of Congress’s Indian power does
not help justify ICWA. Quite the contrary. ICWA
does the opposite of “excluding” states from Indian
adoptions: it leaves many adoptions under state jurisdiction, see 25 U.S.C. § 1911(b), while imposing
“Federal standards” on those state proceedings. Id.
§ 1902. If ICWA were akin to the founding-era practice of reserving war-making and treaty powers to the
United States, then ICWA would “totally displace[]
the states from having any role” in Indian adoptions.
DENNIS OP. at 53.55 As discussed, that is what Congress did in Fisher when it excluded tribal adoptions
55

The same follows from JUDGE DENNIS’s examples of “[s]tate
officials . . . [who] acknowledged the federal government’s plenary authority over Indian affairs under the new constitution.”
DENNIS OP. at 13. Those examples involved war- and treaty-making authority that the state officials conceded was entrusted to
the federal government under the new Constitution. For instance, in a December 1789 letter, South Carolina Governor
Charles Pinckney implored President Washington to conclude a

261a
from state jurisdiction. See supra II(B)(1) (discussing
Fisher, 424 U.S. 382). ICWA is not that. It does not
bar state jurisdiction but co-opts it, thereby imposing
federal yardsticks on state officials and state proceedings. The exclusivity of federal Indian power argues
for invalidating ICWA, not upholding it.56
Second, JUDGE DENNIS invokes the federal government’s “trust relationship” with Indian tribes to support ICWA. DENNIS OP. at 59. This “unique” relationship creates federal obligations “to preserve tribal
self-governance, promote tribal welfare, and . . .
manag[e] tribal assets.” Id. at 16– 17 (citing MATTHEW L.M. FLETCHER, PRINCIPLES OF FEDERAL INDIAN
LAW § 5.2 (1st ed. 2017) [hereinafter FLETCHER]); see
also COHEN’S § 5.04[3][a]. In this relationship, JUDGE
treaty with “hostile Indian tribes” leagued with the Spanish. See
DENNIS OP. at 13 (quoting Letter from Charles Pinckney to
George Washington (Dec. 14, 1789), 4 PAPERS OF GEORGE WASHINGTON: PRESIDENTIAL SERIES 401, 404 (Dorothy Twohig ed.,
1993)). The “similar acknowledgments” by the Georgia and Virginia legislatures, id. (citing Ablavsky, Indian Commerce, at
1043), also involved treaties and war: Georgia’s request that the
federal government negotiate a peace treaty with the Creek, and
Virginia’s inquiry about the propriety of supplying tribes with
ammunition. See Ablavsky, Indian Commerce, at 1043.
56
We do not imply that Congress may never delegate to states
authority over Indian matters. See, e.g., Bryant, 136 S. Ct. at
1960 (observing that, “[i]n 1953, Congress . . . g[ave] six States
[criminal] ‘jurisdiction over specified areas of Indian country
within the States and provid[ed] for the [voluntary] assumption
of jurisdiction by other States’”) (first three brackets added; internal quotation marks omitted)). But no one defends ICWA on
that basis, presumably because ICWA does the opposite: it imposes federal and tribal standards on proceedings within state
jurisdiction. See 25 U.S.C. §§ 1901(5), 1903(1), 1911(b).

262a
DENNIS finds “a specific obligation to protect the tribes
from the states,” which he claims ICWA furthers.
DENNIS OP. at 59. Principally, he evokes the federal
government’s late-nineteenth-century policy of
“Christianizing” Indian children in boarding schools,
id. at 22–25, 59–60, arguing that ICWA remedies similarly “abusive Indian child custody practices continued at the state level.” Id. at 59. ICWA thus fulfills
the federal government’s trust obligation by “protect[ing] the tribes from the states.” Id. at 61. Again,
we disagree.
Even assuming there is a federal duty to (as
JUDGE DENNIS phrases it) “protect the tribes from the
states,” it would not authorize ICWA’s imposition on
state proceedings. No founding-era example shows
the United States fulfilling its trust obligations that
way. History tells a different story. The trust doctrine
arose out of early treaties, statutes—principally, the
Trade and Intercourse Act and its successors, supra
II(C)—and the Supreme Court decisions in Johnson v.
M’Intosh, 21 U.S. (8 Wheat.) 543 (1823), Cherokee Nation, and Worcester.
See COHEN’S § 5.04[3][a];
FLETCHER § 5.2; WILLIAM C. CANBY, JR., AMERICAN INDIAN LAW IN A NUTSHELL 16–17 (7th ed. 2020) [hereinafter CANBY].57 Those sources do show the federal government sometimes acted to restrain states on behalf
57
The key passages undergirding the trust doctrine are from
Chief Justice Marshall’s Cherokee Nation opinion:

[I]t may well be doubted whether those tribes which reside
within the acknowledged boundaries of the United States
can, with strict accuracy, be denominated foreign nations.
They may, more correctly, perhaps, be denominated domestic dependent nations. They occupy a territory to
which we assert a title independent of their will, which

263a
of tribes, but only in the sense of preventing states
from unauthorized trading, encroaching on tribal
land, or subverting treaties.58 Never did the United
States purport to “protect tribes” by enacting federal
standards for state proceedings. See also supra II(C)
must take effect in point of possession when their right of
possession ceases. Meanwhile they are in a state of pupilage. Their relation to the United States resembles that of
a ward to his guardian.
They look to our government for protection; rely upon its
kindness and its power; appeal to it for relief to their
wants; and address the president as their great father.
They and their country are considered by foreign nations,
as well as by ourselves, as being so completely under the
sovereignty and dominion of the United States, that any
attempt to acquire their lands, or to form a political connexion with them, would be considered by all as an invasion of our territory, and an act of hostility.
30 U.S. (5 Pet.) at 17–18; see also COHEN’S § 5.04[3][a] (explaining Marshall’s Cherokee Nation opinion “provided the basis for
analogizing the government-to-government relationship between tribes and the federal government as a trust relationship”).
58
See COHEN’S § 5.04[3][a] (explaining Trade and Intercourse
Acts “imposed a statutory restraint on alienation on all tribal
land for the purpose of ensuring federal rather than state or individual control over acquisition of Indian land”); CANBY at 17
(under the same Acts, “[n]on-Indians were prohibited from acquiring Indian lands by purchase or treaty . . . , or from settling
on those lands or entering them for hunting or grazing”); see also
Worcester, 31 U.S. at 557 (the Acts “manifestly consider the several Indian nations as distinct political communities, having territorial boundaries, within which their authority is exclusive,
and having a right to all the lands within those boundaries,
which is not only acknowledged, but guarantied [sic] by the
United States”).

264a
(discussing absence of such evidence from foundingera sources). The same is true for early federal laws
regarding crimes against Indians. See, e.g., CANBY at
17 (noting “[d]epredations by non-Indians against Indians were made a federal crime”). These laws provided federal compensation for victims, id., and later
for prosecution under federal jurisdiction.59 While
such laws excluded state jurisdiction, they did not pretend to enact standards for state courts or officials.
Indeed, in upholding a later federal law punishing onreservation Indian crimes, the Supreme Court
stressed that the law “does not interfere with the process of the state courts within the reservation, nor
with the operation of state laws.” Kagama, 118 U.S.
at 383.60
That brings us to JUDGE DENNIS’s main historical
example—the era of federal “assimilation” of Indian
59

See, e.g., Mary Christina Wood, Indian Land and the Promise
of Native Sovereignty: The Trust Doctrine Revisited, 1994 UTAH
L. REV. 1471, 1497 n.122 (discussing so-called “bad men” clauses
in, for example, the Treaty with the Northern Cheyenne and
Northern Arapahoe art I, May 10, 1868, 15 Stat. 655).
60
JUDGE DENNIS emphasizes Kagama’s statement that Indian
tribes “owe no allegiance to the states, and receive from them no
protection,” and that “[b]ecause of the local ill feeling, the people
of the states where they are found are often their deadliest enemies.” DENNIS OP. at 67 (quoting Kagama, 118 U.S. at 384).
That colorful dicta has no bearing on the issue before us. As discussed, Kagama decided only that the United States could punish as a federal crime the murder of an Indian by an Indian on a
reservation, even though situated within a state. See 118 U.S.
at 377–78; see also id. at 383 (noting the law was “confined to the
acts of an Indian of some tribe, of a criminal character, committed within the limits of the reservation”); see also supra II(B)(2)
(discussing Kagama).

265a
children in boarding schools. DENNIS OP. at 22–25, 59.
As we grasp his argument, JUDGE DENNIS contends
that, because the federal government once engaged in
this widespread removal and re-education of Indian
children, it must also have power to prevent states
from engaging in similar “abusive Indian child custody practices.” Id. at 59.61 We reject this argument.
To begin with, JUDGE DENNIS’s key evidence dates
from the late nineteenth century, not the founding
era. See, e.g., COHEN’S § 1.04 (“In 1879, Indian education began to shift to federal boarding schools so that
Indian students could be removed completely from
family and tribal life.”).62 It therefore provides less insight into Congress’s Indian power as conceived by the
founding generation. See Printz, 521 U.S. at 905 (explaining that “contemporaneous legislative exposition
of the Constitution . . . , acquiesced in for a long term
of years, fixes the construction to be given its provisions” (citing Myers, 272 U.S. at 175) (emphasis
added));63 cf. Heller, 554 U.S. at 614 (observing that
61

The Federal Defendants similarly defend ICWA on the
grounds that “Congress plainly has authority to address the massive removal of children from tribal communities.”
62
See also COHEN’S § 1.04 (during this period “[t]he full brunt
of reeducation was directed toward Indian children, who were
shipped away from the reservation or brought together at reservation schools”); Ablavsky Br. at 20 (discussing the “federallyrun boarding school system, which took Indian children, often
without their parents’ consent, as part of its efforts to civilize
them”) (citing 25 U.S.C. §§ 271–304b; FREDERICK E. HOXIE, A FINAL PROMISE: THE CAMPAIGN TO ASSIMILATE THE INDIANS, 1880–
1920, 189–210 (1984)).
63

See also Marsh, 463 U.S. at 790 (observing that “[a]n act
passed by the first Congress assembled under the Constitution,

266a
“discussions [that] took place 75 years after the ratification of the Second Amendment . . . do not provide as
much insight into its original meaning as earlier
sources”).
But even if this evidence concerned founding-era
practice, it would not prove what JUDGE DENNIS
claims. As we have said again and again, none of the
history shows the United States using its Indian
power to legislate for state governments. The boarding-school era makes the same point from a different
angle. It shows the federal government adopting a
policy towards Indian children—one roundly condemned today—and then changing its own policy in a
more enlightened direction. See COHEN’S § 1.05 (recounting “[a] marked change in attitude toward Indian policy [that] began in the mid-1920s . . . away
from assimilation policies and toward more tolerance
and respect for traditional aspects of Indian culture”).
It is a mystery how an era of misguided federal policy
proves Congress can dictate rules for states. None of
this is to say there have been no abuses in how states
have handled Indian adoptions. It is only to say that,
in seeking a remedy, Congress cannot turn state governments into federal adoption agencies. The Tenth
Amendment and the Constitution’s structure forbid it.
One final point. According to JUDGE COSTA’S separate opinion, there is nothing “novel” about ICWA’s

many of whose members had taken part in framing that instrument, . . . is contemporaneous and weighty evidence of its true
meaning” (citation omitted) (cleaned up)); McCulloch, 17 U.S. at
401 (relying on fact that the contested power “was exercised by
the first congress elected under the present constitution”).

267a
“interfer[ing] with state domestic relations proceedings” because “the federal government has been a constant, often deleterious presence in the life of the Indian family from the beginning.” COSTA OP. at 15.
But relying on the same evidence as JUDGE DENNIS,
including the boarding-school era, see id. at 12–17,
JUDGE COSTA also fails to identify a single example of
Congress’s deploying its Indian power to regulate a
state’s administrative or judicial machinery.64 Thus,
his denial that ICWA is a “novel” use of that power is
baffling. Id. at 15. That view would likely surprise
the leading Indian law commentator, Felix Cohen,
who wrote that “ICWA . . . inserts federal and tribal
law into family matters long within the domain of the
states.” COHEN’S § 11.01[1]. It would also surprise
64
JUDGE COSTA does dial the volume up to eleven, however.
“[T]he most tragic irony” of our opinion, he claims, is that after
two centuries of federal power “often used to destroy tribal life,”
we would “reject[] that power when it is being used to sustain
tribal life.” Id. at 12. “It would be news to Native Americans,” he
continues, that the same federal power used to wage war against
them, steal their lands, displace them, and “‘civiliz[e]’” their children “does not [also] reach the Indian family.” Id. Where to
begin? First, nothing prevents the federal government from
mending its ways and using its power “to sustain tribal life.” It
has tried to do that for nearly a century. See COHEN’S § 1.05 (era
of “Indian Reorganization,” beginning in 1928, “shift[ed] . . . toward more tolerance and respect for traditional aspects of Indian
culture”). The issue before us, however, is whether the federal
government’s benevolence may include conscripting state governments as adoption agencies. If the Indian affairs power is a
blank check, as JUDGES DENNIS and COSTA appear to think, the
answer is yes. Second, no one denies that federal power
“reach[es] the Indian family.” COSTA OP. at 12. The issue here is
whether it also reaches the state administrative and judicial proceedings that ICWA purports to govern.

268a
then-Assistant Attorney General Patricia Wald, who
testified to Congress about ICWA (and who would
later serve as Chief Judge of the D.C. Circuit). Flagging the “serious constitutional question” raised by
ICWA, Wald warned “that the federal interest in the
off-reservation context is so attenuated that the 10th
Amendment and general principles of federalism preclude[] the wholesale invasion of state power contemplated by [ICWA].” H.R. REP. No. 95-1386, at 39–40
(1978), as reprinted in 1978 U.S.C.C.A.N. 7530, 7562–
63. Of course, Wald’s views—or Felix Cohen’s, for that
matter—do not settle ICWA’s constitutionality. But
at least those commentators recognized, unlike JUDGE
COSTA, that ICWA’s intrusion on state power was unprecedented.
***
We sum up this part. Neither judicial nor congressional precedent supports ICWA’s trespass on state
child-custody proceedings. While offering evidence
that Congress has deployed its Indian affairs power
broadly, exclusive of state authority, and in aid of Indian children, neither Defendants nor their amici nor
JUDGE DENNIS offer founding-era examples of Congress’s using this power to intrude on state governmental functions as ICWA does. “Legislative novelty
is not necessarily fatal; there is a first time for everything. But sometimes the most telling indication of a
severe constitutional problem is the lack of historical
precedent for Congress’s action.” NFIB, 567 U.S. at
549 (Roberts, C.J.) (cleaned up) (quoting Free Enter.
Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S.
477, 505 (2010)). The founding generation launched
the Constitution in an atmosphere of intense suspicion about federal encroachment on state sovereignty.

269a
See Centinel Letter I (Oct. 5, 1787) (warning power of
the proposed government would “necessarily absorb
the state legislatures and judicatories” and “melt[]
[the United States] down into one empire”), reprinted
in THE ESSENTIAL ANTIFEDERALIST 102 (W.B. Allen &
Gordon Lloyd eds., 2002). If Congress had deployed
its Indian affairs power to govern state governments,
some evidence would remain. Finding none, we have
“reason to believe that the power was thought not to
exist.” Printz, 521 U.S. at 905.
The Constitution gives Congress sweeping powers
over Indians. But the power Congress claims in ICWA
finds no support in any Supreme Court decision or
founding-era practice. To permit Congress to regulate
state child-custody proceedings, whenever they involve Indian children, is incompatible with “our federal system, [in which] the National Government possesses only limited powers [and] the States and the
people retain the remainder.” Bond, 572 U.S. at 854.
To the extent ICWA governs child-custody proceedings under state jurisdiction, it exceeds Congress’s
power.
III. Challenges to Specific
ICWA Provisions
Alternatively, we address Plaintiffs’ claims that
parts of ICWA violate the Fifth Amendment (III(A));
the commandeering doctrine (III(B)); the nondelegation doctrine (III(C)); and the APA (III(D)). We then
consider the appropriate remedy (III(E)).
A. Fifth Amendment Equal Protection
We first address whether ICWA violates the equal
protection component of the Fifth Amendment. See

270a
Adarand Constructors, Inc. v. Pena, 515 U.S. 200,
215–27, 235 (1995); Bolling v. Sharpe, 347 U.S. 497,
499 (1954). “Fifth Amendment equal protection
claims against federal actors are analyzed under the
same standards as Fourteenth Amendment equal protection claims against state actors.” Butts v. Martin,
877 F.3d 571, 590 (5th Cir. 2017) (citing Weinberger v.
Wiesenfeld, 420 U.S. 636, 638 n.2 (1975)). Laws that
classify citizens by race or ancestry trigger “the ‘most
rigid scrutiny.’” Fisher v. Univ. of Tex., 570 U.S. 297,
309–10 (2013) (citing, inter alia, Rice v. Cayetano, 528
U.S. 495, 517 (2000); Bolling, 347 U.S. at 499; quoting
Loving v. Virginia, 388 U.S. 1, 11 (1967)). Laws that
do not classify in those ways, however, must still be
“rationally related to a legitimate governmental purpose.” Clark v. Jeter, 486 U.S. 456, 461 (1988) (citing
San Antonio Indep. Sch. Dist. v. Rodriguez, 411 U.S.
1, 17 (1973)).
Plaintiffs claim ICWA violates equal protection:
(1) by treating “Indian children” differently from nonIndian children; and (2) by preferring “Indian families” over non-Indian families. Both classifications,
they argue, are racial and fail strict scrutiny. Alternatively, Plaintiffs say neither classification rationally links children with their tribes. Relying heavily
on Mancari, Defendants counter that ICWA adopts
“political” classifications subject to rational basis review. They say ICWA turns on a child’s actual or potential tribal affiliation, not race, and so rationally
furthers “Congress’s ‘unique obligation toward the Indians.’” They also defend ICWA’s preference for Indian over non-Indian families because “many tribes
have deep historic and cultural connections with other

271a
tribes, and . . . many Indian children may be eligible
for membership in more than one tribe.”
Siding with Plaintiffs, the district court concluded
ICWA classifies by race and fails strict scrutiny. The
court stressed that ICWA covers children “simply eligible for [tribal] membership who have a biological Indian parent.”65 Brackeen, 338 F. Supp. 3d at 533. Surveying membership criteria, the court reasoned that
ICWA applies if a child is “related to a tribal ancestor
by blood.” Id. The court also found that ICWA fails
strict scrutiny because it is not narrowly tailored to
maintaining tribal ties. ICWA applies to “eligible”
children who may “never be members of their ancestral tribe.” Id. at 533, 536 ICWA also “priorit[izes] a
child’s placement with any Indian,” regardless of
tribe, thus “impermissibly . . . treat[ing] ‘all Indian
tribes as an undifferentiated mass.’” Id. at 535
(cleaned up) (quoting United States v. Bryant, 136 S.
Ct. 1954, 1968 (2016) (Thomas, J., concurring)).
1. Even assuming ICWA classifies by tribe,
not race, it still must rationally
link children to tribes.
The parties dispute whether ICWA classifies by
race or tribe. Under Supreme Court precedent, which
we examine below, that is a close question. Whatever
the answer, though, the cases teach that the classifications still must rationally further ICWA’s goal of
linking children with tribes. Because we resolve the
65
See § 1903(4) (defining Indian child as an unmarried minor
who is either a tribal member or “eligible for membership in an
Indian tribe and . . . the biological child of a member of an Indian
tribe”).

272a
equal protection challenges on that basis (infra
III(A)(2)–(3)), we need not decide whether ICWA classifies by race. Here we provide necessary context for
our analysis by surveying the Court’s Indian-classification cases from Mancari (1974) to Adoptive Couple
(2013).
The seminal case is Mancari, which upheld a federal preference for hiring “Indians” at the Bureau of
Indian Affairs (“BIA”). 417 U.S. at 551– 55. “Indian”
meant a tribe member with “one-fourth or more degree Indian blood.” Id. at 553 n.24. The Court found
this a “political rather than racial” preference because
it excluded many “racial[]” Indians and was granted
to Indians only “as members of quasi-sovereign tribal
entities.” Id. at 553 n.24, 554. Separately, the Court
required the preference to be “reasonable and rationally designed to further Indian self-government.” Id.
at 555.66 Importantly, the preference “d[id] not cover
any other Government agency or activity,” and so did
not raise “the obviously more difficult question that
would be presented by a blanket exemption for Indians from all civil service examinations.” Id. at 554.67

66
As the Court explained, the preference: (1) was “an employment criterion reasonably designed to further the cause of Indian
self-government,” Mancari, 417 U.S. at 554; (2) insured “participation by the governed in the governing agency,” id.; (3) was akin
to requiring officials to reside in the jurisdictions they govern,
id.; (4) applied only to the BIA, whose “legal status [w]as truly
sui generis” because it “governed . . . [tribal entities] in a unique
fashion,” id.
67

Given our discussion of Mancari, we are puzzled by JUDGE
COSTA’S insistence that we harbor “the notion that the Constitution prohibits the federal government from granting preferences

273a
From 1974 to 1979, the Court applied Mancari to
turn back similar equal protection challenges. It upheld laws: (1) granting a tribe sole jurisdiction over
on-reservation adoptions;68 (2) barring states from
taxing on-reservation sales;69 (3) disbursing treaty
funds based on tribe membership;70 (4) creating a
criminal code for Indian lands;71 (5) authorizing states
to exercise jurisdiction over in-state Indian lands;72

to tribe members.” COSTA Op. at 18. JUDGE COSTA quotes nothing from our opinion to prove that claim. To the contrary, we
recognize that Mancari permits certain federal preferences for
tribe members. See 417 U.S. at 538, 541 (upholding BIA hiring
preference for Indians and noting “[t]he federal policy of according some hiring preference to Indians in the Indian service dates
at least as far back as 1834”) (citations omitted). But the issue
here—one Mancari itself recognized—is the permissible extent
of those preferences. See id. at 554 (observing that “the BIA is
truly sui generis,” that “the preference does not cover any other
Government agency or activity,” and consequently that “we need
not consider the obviously more difficult question that would be
presented by a blanket exemption for Indians from all civil service examinations”). JUDGE COSTA pivots from this baseless
claim to accuse us of “activis[m],” COSTA Op. at 20, and to propose
a debate—one far afield from the issues in this case—over
whether “[o]riginalism usually goes AWOL when the issue is
whether the government may grant preferences to historically
disadvantaged groups,” id. at 18. We decline the invitation.
68

Fisher, 424 U.S. at 384 n.5, 387, 389–91.

69

Moe v. Confederated Salish & Kootenai Tribes of the Flathead
Reservation, 425 U.S. 463, 475–80 (1976).
70

Weeks, 430 U.S. at 79–85.

71

Antelope, 430 U.S. at 646–47 & n.7

72

Yakima Nation, 439 U.S. at 471–76, 484.

274a
and (6) securing fishing rights to certain tribes.73
These cases emphasized two things about permissible
Indian classifications. First, they turn on tribal status, not race. Second, they reasonably further tribal
interests—for instance, in self-government, economic
development, and protecting Indian lands.74
Moving ahead several years, two decisions have
clarified how equal protection applies to Indian classifications. Those are Rice and Adoptive Couple.75
73

Fishing Vessel, 443 U.S. at 684–85f.

74
See, e.g., Fisher, 424 U.S. at 387–91 (noting the law classified
not by race but by the tribe’s “quasi-sovereign status,” and “further[ed] . . . Indian self-government” by excluding state jurisdiction); Moe, 425 U.S. at 475–80 (“special [tax] treatment” turned
on treaty and furthered “Congress’ unique obligation toward the
Indians” (quoting Mancari, 417 U.S. at 555) (cleaned up)); Weeks,
430 U.S. at 79–85 (distribution turned on whether recipients
were descendants of Delawares who maintained tribal membership); Antelope, 430 U.S. at 646 & n.7 (criminal code applied
based on whether defendants were “enrolled [tribe] members”
and acted “within . . . Indian country” (citing Mancari, 417 U.S.
at 553 n.24)); Yakima Nation, 439 U.S. at 471–76, 500–02 (state
jurisdiction turned only on “tribal status and land tenure,” and
was “fairly calculated” to balance non-Indian rights with “tribal
self-government”); Fishing Vessel, 443 U.S. at 673 & n.20 (fishing
rights turned on tribal status, not race).
75

Plaintiffs argue that a more radical limit on Mancari arises
from the Supreme Court’s 1995 decision in Adarand. That decision addressed a federal program that paid highway contractors
to hire subcontractors controlled by “socially and economically
disadvantaged individuals.” 515 U.S. at 204. The program presumed social disadvantage if individuals were “black, Hispanic,
Asian Pacific, Subcontinent Asian, [or] Native Americans.” Id. at
207 (citation omitted) (emphasis added). Without discussing
Mancari, the Court treated these as “race-based presumptions,”
id. at 208, subject to strict scrutiny. Although Adarand did not

275a
Rice asked whether the Hawaii Constitution could
allow only “Hawaiians” to elect trustees of a state “Hawaiian Affairs” agency. 528 U.S. at 499. The Court
held that the classification violated the Fifteenth
Amendment. Id. The definition of “Hawaiian”—”any
descendant of the aboriginal peoples” inhabiting the
islands since 1778—was “a proxy for race” because it
traced a person’s genetic relationship to aboriginal
“races.” Id. at 514–16. Relevant here, Rice held the
voting restriction was not justified by Mancari. Id. at
518–22.
Even assuming native Hawaiians were like Indian tribes, the Court refused to “extend the limited
exception of Mancari to [this] new and larger dimension.” Id. at 518, 520. Mancari’s hiring preference
was “rationally designed to further Indian self-government” in a “sui generis” context. Id. at 520 (quoting Mancari, 417 U.S. at 554, 555). But the decision
could not support limiting voting for state offices to “a
specifically address the Native American category, more than
one federal judge has cautioned that Adarand may undercut
Mancari. See id. at 244–45 & n.3 (Stevens, J., dissenting) (warning the majority’s reasoning “would view the special preferences
that the National Government has provided to Native Americans
since 1834 as comparable to” race discrimination (citing
Mancari, 417 U.S. at 541, 551–52, 553–54 & n.24)); Williams v.
Babbitt, 115 F.3d 657, 665 (9th Cir. 1997) (“If Justice Stevens is
right about the logical implications of Adarand, Mancari’s days
are numbered.”); but see Am. Fed’n of Gov’t Emps., AFL-CIO v.
United States, 330 F.3d 513, 520–23 (D.C. Cir. 2003) (rejecting
argument that Adarand impacts scrutiny for appropriations
preference “promoting the economic development of federally
recognized Indian tribes”). Because we do not decide whether
ICWA’s classifications are race-based, however, we need not address whether Adarand undercuts Mancari.

276a
class of tribal Indians.” Id. This was because Mancari
concerned only “the internal affair of a quasi sovereign” (a tribe), while the election in Rice concerned the
entire “State of Hawaii.” Id. “To extend Mancari to
this context,” the Court held, “would be to permit a
State, by racial classification, to fence out whole classes of its citizens from decisionmaking in critical state
affairs.” Id. at 522. Thus, in deciding Rice, the Court
clarified that Mancari’s “limited” hiring preference for
Indians could not support preferring Indians in “critical state affairs” like an election. Id. at 520, 522.76
The second key decision is Adoptive Couple, which
interpreted ICWA in a dispute between an Indian
child’s adoptive parents and her biological father. 570
U.S. at 643–46. The Court held that certain ICWA
provisions—its termination standard (§ 1912(f)), active-efforts requirement (§ 1912(d)), and placement
preferences (§ 1915(a))—do not apply where the
child’s biological father never had custody because he
had abandoned the child. Id. at 648, 651–56.77 Relevant here, the Court warned that certain applications
of ICWA may deny a child equal protection.

76
See, e.g., Kahawaiolaa v. Norton, 386 F.3d 1271, 1279 (9th
Cir. 2004) (explaining Rice stands for the proposition that “Congress may not authorize special treatment for a class of tribal
Indians in a state election”).
77

The Court explained that the termination standard—requiring a showing that the parent’s “continued custody” may seriously harm the child, § 1912(f)—would not apply where a parent
never had custody. Adoptive Couple, 570 U.S. at 648. Similarly,
the active-efforts requirement—requiring “active efforts” to “prevent the breakup of the Indian family,” § 1912(d)—would not apply where the parent had abandoned the child (there being no

277a
Specifically, the Court warned against applying
ICWA to “put certain vulnerable children at a great
disadvantage solely because an ancestor—even a remote one—was an Indian.” Id. at 655. It observed
that “a biological Indian father could abandon his
child in utero and refuse any support for the birth
mother . . . and could then play his ICWA trump card
at the eleventh hour to override the mother’s decision
and the child’s best interests.” Id. at 656. If ICWA
required that result, “many prospective adoptive parents would surely pause before adopting any child
who might possibly qualify as an Indian under the
ICWA.” Id. “Such an interpretation,” the Court
stated, “would raise equal protection concerns.” Id.
In sum, in equal protection challenges the Supreme Court has permitted Indian classifications
based on tribal status (not race), if they rationally further federal obligations to tribes. This is logical, given
the Constitution itself includes the category of “Indian
Tribes.” See U.S. CONST. art. I, § 8, cl. 3 (vesting Congress with power to “regulate Commerce . . . with the
Indian Tribes”).78 At the same time, the Court has
warned that Indian classifications may raise equal
protection concerns when deployed outside the tribal
context. A classification may go beyond internal tribal
Indian family to “break up”). Id. at 651–53. Finally, the placement preferences would not apply “if no alternative party that is
eligible to be preferred . . . has come forward.” Id. at 654.
78
See also, e.g., United States v. Zepeda, 792 F.3d 1103, 1117
(9th Cir. 2015) (Kozinski, J., concurring in the judgment) (“The
Supreme Court has stressed time and time again that federal
regulation of Indian tribes does not equate to federal regulation
of the Indian race.” (citing Fisher, 424 U.S. at 390), Antelope, 430
U.S. at 646, and Mancari, 417 U.S. at 553 n.24)).

278a
matters and interfere with state affairs (as in Rice), or
it may disadvantage a child with tenuous links to a
tribe (as in Adoptive Couple).
ICWA’s classifications exist in the twilight between tribe and race. As Defendants point out, ICWA
links its “Indian child” definition to tribes: a child
must be a tribe member or at least “eligible” for membership and the offspring of a member. See § 1903(4).
As Plaintiffs respond, however, whether a child is “eligible” for membership often turns on a child’s quantum of Indian blood. For instance, one child in this
case, Y.L.M., is eligible for membership in the Navajo
Tribe because she is one-half “Navajo Indian Blood.”
As Plaintiffs forcefully argue, the fact that ICWA may
apply depending on the degree of “Indian blood” in a
child’s veins comes queasily close to a racial classification.79
For present purposes, we need not decide whether
ICWA classifies by race or tribe. Regardless, the Supreme Court still requires the law’s classifications be
“reasonable and rationally designed” to further federal obligations toward tribes. Rice, 528 U.S. at 520
(quoting Mancari, 417 U.S. at 555). As explained below, ICWA’s separate standards for Indian children—
standards which govern state proceedings, apply to

79
See, e.g., Zepeda, 792 F.3d at 1117 (Kozinski, J., concurring
in the judgment) (making applicability of Indian Major Crimes
Act turn, even partially, on “proof of some quantum of Indian
blood” creates an “overt racial classification”); id. at 1119–20
(Ikuta, J., concurring in the judgment) (use of “blood quantum
test” in same law is foreclosed by Rice’s “opposition to ‘ancestral
tracing of this sort’”(cleaned up) (quoting Rice, 528 U.S. at 510)).

279a
children with tenuous connections to a tribe, and allow birth parents’ wishes to be overridden—fail to rationally further tribal interests. That is even more evident with respect to ICWA’s preference for Indian
over non-Indian families, which is divorced from Congress’s goal of keeping children linked to their tribe.80
2. The “Indian child” classification fails to
rationally further ICWA’s goal of
linking children to tribes.
For three related reasons, ICWA’s disparate
standards for “Indian children” fail to rationally further federal obligations toward Indian tribes.
First, ICWA creates separate standards for Indian
children that extend beyond internal tribal affairs and
intrude into state proceedings. Mancari long ago cautioned that a “blanket exemption” for Indians in the
civil service system would raise “obviously . . . difficult” equal protection problems. 417 U.S. at 554. Rice
amplified this warning, holding an Indian classification could not “extend” beyond a tribe’s “internal affair[s]” into an “affair of the State,” like an election.
80
JUDGE DENNIS takes issue with our tailoring analysis on two
related grounds. First, he chides us for not “truly” arguing that
ICWA fails rational basis review but instead only arguing that
“ICWA uses impermissible means” to further Congress’s tribal
obligations. DENNIS OP. at 120. Second, he contends we “apply
a far more searching standard of scrutiny” than rational basis.
Id. at 120–21. The simple answer to both contentions is that we
are faithfully following the tailoring analysis for Indian classifications laid out by Mancari, Rice, and Adoptive Couple. JUDGE
DENNIS’s analysis, by contrast, proceeds as if those precedents
had no bearing on this question at all, which is incorrect. See
infra III(A)(2)–(3).

280a
528 U.S. at 520–22. ICWA does just what Mancari
foretold and Rice forbade: it creates disparate standards for Indian children in state proceedings. By exporting a blanket Indian exception into state proceedings, ICWA violates Rice and severs any connection to
internal tribal concerns.
Compare this intrusion on state jurisdiction with
the law upheld in Fisher. Supra II(B)(1). Fisher approved exclusive tribal jurisdiction for adoptions
where the child, birth parents, and adoptive parents
were “each and all members of the [tribe] and . . . reside[d] within the exterior boundaries of the [reservation].” 424 U.S. at 384 n.6. That limited measure was
“justified” because it “further[ed] the congressional
policy of Indian self-government.” Id. at 391. By contrast, ICWA dictates different standards for Indian
children within “the States[‘] . . . recognized jurisdiction.” § 1901(5). By imposing “Indian child” standards on state proceedings, ICWA severs the link to
tribal self-government or any other tribal interest
identified by the Supreme Court.
In disagreeing with this analysis, Defendants and
JUDGE DENNIS misread Rice. First, they claim Rice
merely reaffirmed Mancari and nothing more. DENNIS OP. at 117. Not so: Rice specified that Mancari’s
“limited” and “sui generis” Indian classification could
not apply outside the tribal context to a state-wide
election. 528 U.S. at 520–22. Thus, JUDGE DENNIS is
wrong to argue that “the degree to which [ICWA] intrudes on state proceedings has no bearing on
whether [ICWA] is rationally linked to protecting Indian tribes.” DENNIS OP. at 120. To the contrary, Rice
said this is a critical factor: an Indian classification
cannot be transplanted from the “internal affair[s]” of

281a
tribes into external matters concerning all state citizens. 508 U.S. at 520; see, e.g., Kahawaiolaa v. Norton,
386 F.3d 1271, 1279 (9th Cir. 2004) (explaining that,
after Rice, “Congress may not authorize special treatment for a class of tribal Indians in a state election”).
Next, Defendants and JUDGE DENNIS say Rice, unlike
this case, concerned the Fifteenth Amendment. DENNIS OP. at 121. That is true but misses the point. Rice
said an Indian class could not be used “in critical state
affairs.” 528 U.S. at 522. Child-custody proceedings
are no less critical to states than was the agency election in Rice. See, e.g., Palmore v. Sidoti, 466 U.S. 429,
433 (1984) (“The State . . . has a duty of the highest
order to protect the interests of minor children, particularly those of tender years.”). Finally, Defendants
argue that, unlike in Rice, ICWA does not “bar any
person . . . from participating in child-custody proceedings” (emphasis added). That is beside the point.
Rice did not turn on whether people’s rights were
“barred” or only limited. Its point was that a tribal
classification—which could limit participation in a
tribe’s “internal affair[s]”—cannot do so in “affair of
the [s]tate,” like the state election in Rice or the state
custody proceedings here. Id. at 520.81

81

JUDGE DENNIS goes so far as to say that state child-custody
proceedings involving Indian children are somehow no longer
purely state affairs. Relying on Congress’s finding that Indian
children are tribes’ “vital” “resource[s],” 25 U.S.C. § 1901(3), he
claims: “[E]ven when ICWA reaches into state court adoption
proceedings, those proceedings are simultaneously affairs of
states, tribes, and Congress.” DENNIS OP. at 122. No authority
supports that remarkable claim. ICWA’s own findings recognize
that “the States” have “their recognized jurisdiction over Indian
child custody proceedings through administrative and judicial

282a
Second, ICWA covers children only “eligible” for
tribal membership. Enacting ICWA, Congress declared “there is no resource that is more vital to the
continued existence and integrity of Indian tribes
than their children.” § 1901(3) (emphasis added). But
ICWA applies not only to child tribe members, but
also to a child only “eligible for membership in an Indian tribe and . . . the biological child of a member of
an Indian tribe.” § 1903(4) (emphasis added). As Defendants tell us, “[m]embership in an Indian tribe is
generally not conferred automatically upon birth,” but
requires “affirmative steps” by parents or guardians.
See 81 Fed. Reg. at 38,783 (explaining “Tribal membership . . . is voluntary and typically requires an affirmative act by the enrollee or her parent”). This
means ICWA applies to a child who is not, and may
never become, a tribe member.
Federal Defendants respond that, because a
child’s “formal enrollment” in a tribe depends on parents or guardians, eligibility is a “proxy” for the child’s
“not-yet-formalized tribal affiliation.” This is just a
complicated way of saying that a child only eligible for
membership may never become a member, and may
have no other tangible connection to a tribe. The cases
before us illustrate the point better than any abstract
discussion could.
Take A.L.M., whom the Brackeens eventually
adopted, with his birth parents’ approval, over objections by the Navajo Nation. A.L.M.’s only tie to the
Navajo is that his mother is a member (his father is
Cherokee). But neither A.L.M. nor his birth parents
bodies,” 25 U.S.C. § 1901(5), and its provisions maintain the distinction between state and tribal jurisdiction, id. § 1911(a), (b).

283a
have ever lived on the Navajo reservation during
A.L.M.’s life, except for the “day he was born and the
next day.” The Navajo never tried to participate in
A.L.M.’s adoption proceedings. And the only reason
A.L.M. is considered Navajo (and not Cherokee) is
that “representatives of the Cherokee and Navajo Nations . . . reached an agreement in the hallway outside
the hearing room that A.L.M. would become a member
of the Navajo Nation because only the Navajo had
identified a potential foster placement.” Or take Child
P., whom the Cliffords are trying to adopt over objections by the White Earth Band of Ojibwe Indians.
Child P. is linked to the White Earth Band through
her maternal grandmother, R.B. Before Child P. was
placed with the Cliffords, the tribe wrote the state
court that Child P. was ineligible for membership. After placement, however, the tribe changed its position
and declared Child P. eligible. This triggered ICWA’s
placement preferences: Child P. was taken from the
Cliffords and placed with R.B., whose foster license
had been previously revoked by the state.
As these cases illustrate, ICWA permits a child’s
inchoate tribal membership to override her placement
in state proceedings.82 ICWA thereby “put[s] certain
82

JUDGE DENNIS waves away this (and the next) tailoring flaw
in ICWA because he claims they only make the law “under- and
over-inclusive.” DENNIS OP. at 122–23. We disagree. First,
JUDGE DENNIS again disregards what Mancari, Rice, and Adoptive Couple teach about tailoring: overbroad Indian classifications divorced from tribal interests create equal protection problems. See Mancari, 417 U.S. at 554; Rice, 528 U.S. at 520–22;
Adoptive Couple, 570 U.S. at 655. Second, the “eligibility” criterion does not merely make ICWA “over-inclusive.” Eligibility—
one of only two ways to trigger ICWA—makes the law cover children (like the ones here) with no actual connection to a tribe.

284a
vulnerable children at a great disadvantage solely because an ancestor—even a remote one—was an Indian.” Adoptive Couple, 570 U.S. at 655. This
squarely raises the “equal protection concerns” forecast by the Supreme Court in Adoptive Couple.83
Third, ICWA overrides the wishes of biological
parents who support their child’s adoption outside the
tribe. When enacting ICWA, Congress proclaimed
that too many Indian families were being “broken up”
when non-tribal agencies engaged in the “often unwarranted” “removal” of children and placed them
with “non-Indian” families. § 1901(4). But ICWA applies even when an Indian child’s parents do not oppose adoption outside the tribe. In other words, ICWA
applies in circumstances entirely unlike those that
gave rise to the law—situations where no Indian family is being “broken up” by state authorities and where
Third, as discussed below, allowing ICWA to override birth parents’ wishes to place their children with non-Indians does not
mean ICWA only has “imperfect means-ends fit[].” DENNIS OP.
at 123 (citation omitted). Instead, it makes nonsense of ICWA’s
key goal of preventing the break-up of Indian families. See 25
U.S.C. § 1901(4). Finally, JUDGE DENNIS discounts ICWA’s first
tailoring flaw—namely, its intrusion into state proceedings in defiance of Mancari and Rice. Taken together, these three flaws
show ICWA fails to rationally further its goals.
83
Few provisions in Title 25 define “Indian” to include persons
“eligible” for tribal membership. See, e.g., 25 U.S.C. § 2511(3)
(defining “Indian” this way for purposes of tribal school grants).
None of these provisions, however, has any impact on state proceedings as ICWA does. Cf., e.g., § 2502(a)(1) (authorizing federal
grants to tribes that operate certain schools). Consequently,
none is affected by our holding that ICWA’s inclusion of “eligible”
members is one factor that severs its connection to tribal interests.

285a
parents themselves acquiesce in children’s being
placed in “non-Indian foster [or] adoptive homes.” Id.
Again, the cases before us illustrate the point.
Take Baby O., the child of Altagracia Hernandez (a
non-Indian) and E.R.G. (descended from members of
the Ysleta del sur Pueblo Tribe). Both parents supported Baby O.’s adoption by the non-Indian Librettis—indeed, Hernandez is a plaintiff in this case
alongside the Librettis. Yet the Pueblo, asserting
E.R.G. was a member, intervened and proposed numerous Indian-family placements under ICWA. Or
again take A.L.M., whose Navajo mother and Cherokee father both testified they support A.L.M.’s adoption by the non-Indian Brackeens. Nonetheless, the
Navajo sought to block the Brackeens’ adoption of
A.L.M. in favor of placing the child with unrelated
tribe members, and is now doing the same with the
Brackeens’ attempt to adopt A.L.M.’s half-sister,
Y.R.J. See In re Y.J., 2019 WL 6904728, at *3–5.
As Plaintiffs point out, allowing ICWA to override
birth parents’ wishes in this way again raises the
“equal protection concerns” foreshadowed by Adoptive
Couple. In that case, the Court warned ICWA was
open to equal protection challenge if it allowed a tribe
member “to override the mother’s decision and the
child’s best interests” and thus “put certain vulnerable children at a great disadvantage solely because an
ancestor—even a remote one—was an Indian.” 570
U.S. at 655–56. What the Court foretold there is what
has happened here to A.L.M, Y.R.J., and Baby O.:
their parents’ wishes were potentially or actually
overridden by a non-custodial tribe member’s invocation of ICWA. Applying ICWA in this way does nothing to further Congress’s original aim of preventing

286a
Indian families’ being “broken up” by the “unwarranted removal” of their children and placement with
non-Indian families. § 1901(4).
In sum, we conclude that ICWA’s “Indian child”
classification violates the equal protection component
of the Fifth Amendment.84
3. The “Indian family” classification fails to
rationally further ICWA’s goal of
linking children to tribes.
We next consider Plaintiffs’ claim that ICWA impermissibly discriminates against non-Indian families. While Plaintiffs challenge ICWA’s placement
preferences as a whole on this basis, the logical focus
of the claim is on the adoptive preference for “other
Indian families” in § 1915(a), as well as the preference
for a licensed “Indian foster home” in § 1915(b). See
§§ 1915(a)(3), 1915(b)(iii).
In these provisions,
ICWA’s preference for “Indian” over “non-Indian”
families is most evident. Plaintiffs argue this privileging of Indian over non-Indian families is a racial
classification that fails strict scrutiny. As with the Indian child classification, however, we assume arguendo that “Indian family” is a tribal, not a racial,
category. We do so because we agree with Plaintiffs’
alternative argument that the preference fails to rationally further Congress’s goal of keeping Indian children linked to their own tribe. As Plaintiffs correctly

84
As the district court found, this conclusion directly impacts
the placement preferences in § 1915(a) and (b), the collateral attack provisions in §§ 1913 and 1914, and the Final Rule provisions in 25 C.F.R. §§ 23.129–132.

287a
point out, “placing a tribal child with a different Indian tribe does not even conceivably advance the continued existence and integrity of the child’s tribe.”
ICWA’s overriding purpose was to safeguard the
continued “existence and integrity of Indian tribes” by
protecting “their children” from unwarranted removal. § 1901(3).
Congress invoked the United
States’ interest “in protecting Indian children who are
members or eligible for membership in an Indian
tribe.” Id. Congress also faulted states for “often
fail[ing] to recognize the essential tribal relations of
Indian people.” § 1901(5). Many of ICWA’s provisions
seek to further this tribe-focused goal. For instance,
a tribe has exclusive jurisdiction of adoptions involving an Indian child domiciled “within the reservation
of such tribe.” § 1911(a) (emphasis added). Right to
intervene is given to “the Indian child’s tribe.”
§ 1911(c). And some of ICWA’s placement preferences
are tribe-based—obviously the preference for “other
members of the Indian child’s tribe” (§ 1915(a)(2)), but
also the preference for “a member of the child’s extended family” (§ 1915(a)(1), 1915(b)(i)), who is presumably of the same tribe.
ICWA, however, also has provisions broadly preferring “Indian families” over non-Indian families. A
non-Indian family seeking to adopt or foster an Indian
child, absent “good cause to the contrary,” will fail if
“other Indian families” or “Indian foster home[s]” are
available. §§ 1915(a)(3), 1915(b)(iii). Nothing requires
these Indian families or homes to be of a child’s tribe.
See § 1903(3) (relevantly defining “Indian” as “any
person who is a member of an Indian tribe”). In fact,
they are virtually assured not to be: otherwise, they

288a
would qualify as “other members of the Indian child’s
tribe.” § 1915(a)(2).
We agree with Plaintiffs that a naked preference
for Indian over non-Indian families does nothing to
further ICWA’s stated aim of ensuring that Indian
children are linked to their tribe. This conclusion follows a fortiori from our conclusion that ICWA’s Indian
child category is insufficiently linked to federal tribal
interests. The Indian child category encompassed
children who were not, and may never be, members of
a tribe. Even more, ICWA’s preference for “Indian
families” lacks any connection to a child’s tribe: as explained, the Indian families preferred over non-Indian
families are, by definition, not members of the child’s
tribe. Thus, the preference has no rational link to
maintaining a child’s links with his tribe. Similarly,
the Indian child category ran afoul of Mancari, Fisher,
and Rice by creating a blanket exception for Indian
children in state child-custody proceedings. The Indian family category does the same: by definition, Indian families have a statutorily-conferred advantage
over non-Indian families with respect to state adoptions and foster placements. Even assuming the Indian family category is tribal and not racial, ICWA extends the category far beyond Mancari and Fisher,
and infiltrates the kind of “critical state affairs” that
Rice forbade. See Rice, 528 U.S. at 522.
In response, Federal Defendants argue that this
“Indian family” preference is not merely a “preference
for ‘generic “Indianness.”’” They assert it instead “reflects the reality that many tribes have deep historic
and cultural connections with other tribes, and that
many Indian children may be eligible for membership
in more than one tribe.” We are unpersuaded. Even

289a
accepting that some tribes are interrelated, ICWA’s
Indian family preference is not limited in that way.
Rather, the preference privileges Indian families of
any tribe, regardless of their connection to the child’s
tribe, over all non-Indian families. ICWA’s classification therefore does not rationally further linking children to their tribes.
In sum, we conclude ICWA’s preferring Indian
over non-Indian families violates the equal protection
component of the Fifth Amendment.
B. Commandeering and Preemption
The district court concluded numerous provisions
of ICWA “commandeer” state agencies and courts in
violation of Article I and the Tenth Amendment.85 See
Brackeen, 338 F. Supp. 3d at 538–41. The court also
ruled that the preemption doctrine does not save these
provisions because they “directly command states.”
Id. at 541. On appeal, Defendants argue ICWA does
not commandeer states because it evenhandedly regulates an activity in which both states and private
parties engage. They also claim the challenged provisions merely create federal rights enforceable in state
courts under the Supremacy Clause.
The anti-commandeering doctrine recognizes the
“fundamental structural” principal that “the Constitution . . . withhold[s] from Congress the power to issue orders directly to the States.” Murphy, 138 S. Ct.
at 1475; see generally Printz, 521 U.S. 898; New York,
85
Specifically, the court found invalid §§ 1901–23 and 1951–52,
which “include the congressional findings and declaration of policy, definitions, child custody proceedings, record keeping, information availability, and timetables.”

290a
505 U.S. 144; FERC v. Mississippi, 456 U.S. 742
(1982); Hodel v. Va. Surface Mining & Reclamation
Ass’n., Inc., 452 U.S. 264 (1981). To be sure, Congress
may encourage states to regulate as it wishes. For instance, Congress may “attach conditions on the receipt of federal funds” under the Spending Clause.
New York, 505 U.S. at 167 (quoting South Dakota v.
Dole, 483 U.S. 203, 206 (1987)). Or it may offer states
the option of regulating “private activity . . . according
to federal standards or having state law pre-empted
by federal regulation.” Id. (citing Hodel, 452 U.S. at
288). What Congress cannot do, however, is issue “a
simple command to state governments to implement
legislation enacted by Congress.” Id. at 176. Nor may
it “compel the States to enact or administer a federal
regulatory program.” Id. at 188. This anti-commandeering doctrine reflects a basic principle: “[t]he Constitution confers on Congress not plenary legislative
power but only certain enumerated powers,” and “conspicuously absent” from those is “the power to issue
direct orders to the governments of the States.” Murphy, 138 S. Ct. at 1476.
The Supreme Court has deployed this doctrine to
declare unconstitutional federal legislation commanding state legislatures, officers, and agencies. For instance, Congress could not make state legislatures
“take title” to radioactive waste, nor make state executive agencies “regulat[e] [waste] according to the instructions of Congress.” New York, 550 U.S. at 175–
76; see also Murphy, 138 S. Ct. at 1476 (the law in New
York “issued orders to either the legislative or executive branch of state government”). Congress also
could not compel state or local officers to conduct background checks under a federal firearms law. Printz,

291a
521 U.S. at 903–04, 933. Such a requirement—even
if it involved only “discrete, ministerial tasks,” id. at
929—would amount to “the forced participation of the
States’ executive in the actual administration of a federal program.” Id. at 918. Finally, Congress could not
prohibit states from “author[izing]” sports gambling
because that would “unequivocally dictate[] what a
state legislature may and may not do.” Murphy, 138
S. Ct. at 1470, 1478.
Different dynamics come into play when asking—
as the district court did here—whether federal law
commandeers state courts. This is due to the Supremacy Clause, which binds “the Judges in every State” to
follow validly enacted federal law. U.S. CONST. art. VI,
cl. 2; see Kansas v. Garcia, 140 S. Ct. 791, 801 (2020)
(Supremacy Clause “provides ‘a rule of decision’ for
determining whether federal or state law applies in a
particular situation” (quoting Armstrong v. Exceptional Child Ctr., Inc., 575 U.S. 320, 324 (2015))).
Thus, Congress may, “in a sense, direct state judges”
by enacting federal law state courts must apply. New
York, 505 U.S. at 178–79.86 Similarly, state judges
must apply federal law that validly preempts applicable state law. Murphy, 138 S. Ct. at 1479. So, if federal law is enforceable in state courts or preempts
state law, no “commandeering” arises from the fact
that state courts must apply the federal enactment—
rather, this is what the Supremacy Clause demands.
86
See also id. at 179 (explaining “this sort of federal ‘direction’
of state judges is mandated by the text of the Supremacy
Clause”); Printz, 521 U.S. at 907 (suggesting “the Constitution
was originally understood to permit imposition of an obligation
on state judges to enforce federal prescriptions”).

292a
New York, 505 U.S. at 179; see also Printz, 521 U.S. at
907 (state courts “have been viewed distinctively in
this regard” because “unlike legislatures and executives, they applied the law of other sovereigns all the
time”). The Supremacy Clause, however, assumes the
same limit on Congress’s power that the anti-commandeering doctrine does—that Congress may regulate only individuals, not state governments.87 In that
regard, then, the operation of the Supremacy Clause
overlaps with anti-commandeering.
Finally, we should not lose sight of why anti-commandeering is critical. First, the doctrine protects the
division of power between federal and state governments, which “secures to citizens the liberties that derive from the diffusion of sovereign power” and “reduce[s] the risk of tyranny and abuse from either
front.” New York, 505 U.S. at 181–82 (citations omitted). Second, the doctrine “promotes political accountability” by letting voters know “who to credit or blame”
for good or bad policies. Murphy, 138 S. Ct. at 1477.88
Third, the doctrine “prevents Congress from shifting

87

See New York, 505 U.S. at 178 (federal laws enforceable in
state courts “involve congressional regulation of individuals, not
congressional requirements that States regulate”); Murphy, 138
S. Ct. at 1481 (explaining “every form of preemption is based on
a federal law that regulates the conduct of private actors, not the
States”).
88
See also New York, 505 U.S. at 169 (“[W]here the Federal
Government directs the States to regulate, it may be state officials who will bear the brunt of public disapproval, while the federal officials who devised the regulatory program may remain insulated from the electoral ramifications of their decision.”).

293a
the costs of regulation to the States.” Murphy, 138 S.
Ct. at 1477.89
With that background in mind, we proceed to our
analysis. We first address Plaintiffs’ anti-commandeering challenges (infra III(B)(1)). We next address
whether the preemption doctrine saves any of the
challenged provisions (infra III(B)(2)). As the Supreme Court has done in this area, we analyze the
challenged provisions separately.90 ICWA touches
many aspects of state child-custody proceedings. It
would not be implausible to find constitutionally problematic provisions alongside permissible ones.91

89
See also Printz, 521 U.S. at 930 (“By forcing state governments to absorb the financial burden of implementing a federal
regulatory program, Members of Congress can take credit for
‘solving’ problems without having to ask their constituents to pay
for the solutions with higher federal taxes.”).
90

See, e.g., Murphy, 138 S. Ct. at 1470 (analyzing only the component of the Professional and Amateur Sports Protection Act,
28 U.S.C. § 3702(1), that prohibits states from “authoriz[ing] by
law” sports betting); Printz, 521 U.S. at 902–03 (analyzing only
those Brady Act sections, 18 U.S.C. § 922(s)(2), 922(s)(6)(C),
922(s)(6)(B), applicable to a “chief law enforcement officer”); New
York, 505 U.S. at 152–54, 174–77 (analyzing separately the “take
title” provision of the Low-Level Radioactive Waste Policy
Amendments Act, 42 U.S.C. § 2021e(d)(2)(C)).
91
See, e.g., Murphy, 138 S. Ct. at 1481 (analyzing regulation of
state legislatures in PASPA § 3702(1) separately from the
“closely related provision” in § 3702(2) regulating “private conduct”); New York, 505 U.S. at 173–75 (two of the Act’s “incentives” were valid under Spending Clause and preemption,
whereas “take-title” provision commandeered states).

294a
1. Commandeering
As discussed, the anti-commandeering doctrine
typically asks whether federal law conscripts state
agencies or officials. This part therefore focuses on
Plaintiffs’ claims that ICWA compels action by state
child welfare agencies. Where Plaintiffs instead challenge provisions compelling state courts, we consider
those claims under preemption analysis, infra.
a. ICWA’s active-efforts, expert-witness,
placement-preference, placement-record, and
notice provisions commandeer state agencies.
No Defendant denies that ICWA requires action
by state child welfare agencies. This is unsurprising.
What prompted ICWA, after all, were concerns about
Indian families’ treatment by “State[ ] . . . administrative and judicial bodies.” § 1901(5) (emphasis added).
ICWA obviously covers matters—child-custody proceedings—lying within the purview of state agencies.92 ICWA’s regulations, moreover, describe actions
that must be taken by “State agencies,” “governmental organizations,” and “State actors.”93 For instance,
92
See, e.g., TEX. HUM. RES. CODE § 40.002(b)(1), (2) (providing
Texas Department of Family and Protective Services “shall . . .
provide protective services for children” as well as “family support and family preservation services”); TEX. FAM. CODE
§ 262.001(a) (authorizing “governmental entity with an interest
in the child” to take actions to protect child).
93

See, e.g., 81 Fed. Reg. at 38,779 (ICWA sought to remedy failures by “State agencies and courts”); id. at 38,780 (noting
“[s]everal ICWA provisions do apply, either directly or indirectly,
to State and private agencies”); id. at 38,790 (“active efforts” require “substantial and meaningful actions by agencies,” meaning
“agencies of government”); id. at 38,791 (agreeing “active efforts”

295a
ICWA’s placement preferences “create[ ] an obligation
on State agencies and courts to implement the policy
outlined in the statute.” 81 Fed. Reg. at 38,839 (emphasis added). Thus, the idea that ICWA compels
state agencies seems incontestable. As the district
court concluded, Texas “indisputably demonstrated
that the ICWA requires [Texas’s] executive agencies
to carry out its provisions.” Brackeen, 338 F. Supp. 3d
at 540. It specifically found that the relevant agency,
the DFPS,
must, among other things[:] serve notice of
suit on Indian tribes, verify a child’s tribal status, make a diligent effort to find a suitable
placement according to the ICWA preferences
and show good cause if the preference are not
followed, ensure a child is enrolled in his tribe
before referring him for adoption, and keep a
written record of the placement decision.
Id. at 540 & n.18. Defendants dispute none of this.94
“require States to affirmatively provide Indian families with substantive services”); id. at 38,792 (definition of “agency” includes
“governmental organizations”); id. at 38,814 (“active efforts” requirement “ensure[s] that State actors . . . provide necessary services to parents of Indian children”). See also, e.g., Miss. Band of
Choctaw Indians v. Holyfield, 490 U.S. 30, 45 n.18 (1989) (observing ICWA sought to address “the failure of State officials
[and] agencies” to consider “the special problems and circumstances of Indian families”) (internal quotation omitted).
94
JUDGE DENNIS’s opinion does not squarely address whether
ICWA commands state agencies. We understand his view to be
that the point is immaterial because ICWA “evenhandedly regulates an activity in which both States and private actors engage.”
DENNIS OP. at 89 (quoting Murphy, 138 S. Ct. at 1478). We disagree and respond below.

296a
Turning to the specific challenges before us, we
conclude the following ICWA provisions commandeer
state agencies.
i. Active efforts (§ 1912(d)). We begin with the
“active efforts” requirement in § 1912(d). Any “party”
seeking to place an Indian child in foster care, or to
terminate parental rights, must “satisfy the court that
active efforts have been made to provide remedial services . . . designed to prevent the breakup of the Indian family and that these efforts have proved unsuccessful.” Id. State agencies are “parties” that seek
placement or termination with respect to Indian children.95 Consequently, ICWA’s active-efforts requirement demands extensive action by state and local
agencies as a condition to fulfilling their obligations to
Indian children.96 For example, in Doty-Jabbaar v.
Dallas County Child Protective Services, a state appellate court concluded a county agency failed ICWA’s active-efforts requirement before terminating a birth
95

See, e.g., N.M. v. Tex. Dep’t of Fam. & Prot. Servs., No. 03-1900240-CV, 2019 WL 4678420, at *1 (Tex. App.—Austin Sept. 26,
2019, no pet.) (ICWA case involving Texas DFPS’s efforts “to terminate the parent-child relationship of N.M. and the children’s
father”); TEX. FAM. CODE §§ 153.371(10), 101.0133 (as child’s
managing conservator, DFPS has “the right to designate the
[child’s] primary residence,” including foster placement); see also
81 Fed. Reg. at 38,792 (“any party” in § 1912 includes “governmental organizations”).
96
See 25 C.F.R. § 23.2 (defining “active efforts” to mean “affirmative, active, thorough, and timely efforts” to “maintain or reunite an Indian child with his or her family”); see also, e.g., In re
D.E.D.I., 568 S.W.3d 261, 262–63 (Tex. App.—Eastland 2019, no
pet.) (trial court “specifically found” that DFPS “made active efforts to provide remedial services and rehabilitation programs”
under ICWA).

297a
mother’s rights. 19 S.W.3d 870, 875–76 (Tex. App.—
Dallas 2000, pet. denied). Although the agency had
given the mother a seven-point plan including “drug
treatment, parenting classes, and psychological evaluations,” the court found insufficient evidence that
“these remedial services and rehabilitation programs
had proven unsuccessful.” Id. at 875.97
ICWA’s regulations confirm that active-efforts demands action by state agencies. Through the “‘active
efforts’ provision . . . Congress intended to require
States to affirmatively provide Indian families with
substantive services.” 81 Fed. Reg. at 38,791. The
“active-efforts requirement,” they emphasize, “is one
critical tool to ensure that State actors . . . provide necessary services to parents of Indian children.” Id. at
38,814 (emphasis added).98 The Final Rule even specifies the efforts required by § 1912(d)—including
eleven categories of remedial services—”[w]here an
agency is involved in the child-custody proceeding.”
25 C.F.R. § 23.2.99
97

Cf., e.g., In re J.L.C., 582 S.W.3d 421, 433–34 (Tex. App.—
Amarillo 2018, pet. ref’d) (finding ICWA active-efforts burden
satisfied because “the [DFPS] had appropriately engaged [the
parent] with services but the Department’s efforts had failed”).
98
See also id. at 38,814 (active-efforts requirement sought to
remedy failures by “agencies of government”); id. at 38,790 (the
“active efforts requirement” is one of ICWA’s “primary tools” to
address failures by “agencies of government” and should therefore be “interpreted in a way that requires substantial and meaningful actions by agencies to reunite Indian children with their
families”).
99

The term “agency” includes “governmental organizations.”
81 Fed. Reg. at 38,792; see also 80 Fed. Reg. 10,146, 10,151
(“[a]gency” includes a “public agency and their employees, agents

298a
We therefore conclude that the active-efforts requirement in § 1912(d) commandeers states in violation of Article I and the Tenth Amendment. See also
Brackeen, 937 F.3d at 443 (OWEN, J., dissenting in
part) (concluding § 1912(d) “means that a State cannot place an Indian child in foster care, regardless of
the exigencies of the circumstances, unless it first provides the federally specified services and programs
without success”).
ii. Expert witnesses (§ 1912(e), (f)). We reach
the same conclusion as to the “expert witness” requirements in § 1912(e) and (f). These provisions prohibit placement or termination absent “evidence, including testimony of qualified expert witnesses, that
the continued custody of the child by the parent or Indian custodian is likely to result in serious emotional
or physical damage to the child.” § 1912(e) (foster
placement); § 1912(f) (termination). ICWA thus “requires the testimony of qualified expert witnesses for
foster-care placement and for adoptive placements.”
81 Fed. Reg. at 38,829 (citing § 1912(e), (f)); see also
25 C.F.R. § 23.122(a) (specifying expert qualifications). As a result, state agencies must present the
testimony of expert witnesses, with specific qualifications, when they seek to place an Indian child in foster
care or terminate parental rights. See also Brackeen,
937 F.3d at 443–44 (OWEN, J., dissenting in part) (concluding § 1912(e) “places the burden on a State, not a
court, to present expert witness testimony in order to
effectuate foster care for Indian children”).

or officials involved in and/or seeking to place a child in a child
custody proceeding”).

299a
For instance, a Texas appellate court recently
found that the DFPS failed to justify terminating parental rights under ICWA because “the Department
failed to produce testimony of a ‘qualified expert witness’ as required under the Act.” S.P. v. Tex. Dep’t of
Fam. & Prot. Servs., No. 03-1700698-CV, 2018 WL
1220895, at *3 (Tex. App.—Austin Mar. 9, 2018, no
pet.). Although DFPS offered testimony by the child’s
caseworker that termination was in the child’s best
interest, the court concluded the caseworker did not
have “the requisite expertise to satisfy the federal requirement.” Id. at *4. For instance, the caseworker
was not “recognized by the Muscogee tribe,” nor did
she have “substantial experience in the delivery of
child and family services to Indians or knowledge of
[the tribe’s] prevailing social and cultural standards
and childrearing practices.” Id.100 The court therefore
concluded the state agency failed to meet the “qualified expert witness” requirement in § 1912(f) and reversed the termination of parental rights. Id. at *4–
5.101
We conclude that § 1912(e) and (f) require state
agencies and officials to bear the cost and burden of
adducing expert testimony to justify placement of Indian children in foster care, or to terminate parental
100

See 80 Fed. Reg. at 10,157 (ICWA guidelines providing, inter
alia, that a qualified expert “should have specific knowledge of
the Indian tribe’s culture and customs”).
101
See also, e.g., In re K.S., 448 S.W.3d 521, 539, 544–45 (Tex.
App.—Tyler 2014, pet. denied) (affirming state agency’s termination of parental rights under ICWA based on testimony of a
“Cherokee Nation representative” who “was qualified as an expert witness” under § 1912(f)).

300a
rights. The expert-witness requirements in § 1912(e)
and (f) therefore commandeer states.
iii. Placement preferences (§ 1915(a)–(d)).
We also conclude that the placement preferences in
§ 1915(a)–(d) violate the anti-commandeering doctrine to the extent they direct action by state agencies
and officials. These provisions require that, absent
good cause, “preference shall be given” to specific
adoptive and foster placements for an Indian child.102
Insofar as these preferences constrain state courts, we
examine below whether they are valid preemption
provisions. Quite apart from state courts, however,
the preferences appear to independently demand efforts by state agencies and officials.
ICWA’s regulations support this reading. The
placement preferences, they state, “create[ ] an obligation on State agencies and courts to implement the
policy outlined in the statute” and “require that State
agencies and courts make efforts to identify and assist
extended family and Tribal members with preferred
placements.” 81 Fed. Reg. at 38,839 (emphases
added). These “State efforts to identify and assist preferred placements are critical to the success of the statutory placement preferences.” Id. at 38,839–40 (emphasis added) (collecting decisions). Further confirming this view, ICWA’s guidelines, see 80 Fed. Reg.

102
See § 1915(a) (requiring adoptive preference in favor of (1)
extended family, (2) other tribe members; or (3) other Indian
families); § 1915(b) (requiring different foster-care preferences);
§ 1915(c) (tribes may re-order preferences); § 1915(d) (preference
decisions must accord with “prevailing social and cultural standards” of pertinent Indian community).

301a
10,146, specify duties that “[t]he agency seeking a preadoptive, adoptive or foster care placement of an Indian child must always follow.” 80 Fed. Reg. at 10,157
(emphases added). For example, to justify deviating
from the preferences, the agency must prove that “a
diligent search has been conducted to seek out and
identify placement options”—including detailed notices to the parents or custodian, “known, or reasonably identifiable” extended family, the child’s tribe,
and—for foster or preadoptive placements—ICWAspecified institutions. Id. And, as discussed, ICWA
guidelines specify that the “agency” that must undertake these efforts includes a “public agency and their
employees, agents or officials.” Id. at 10,151.103
State decisions confirm that ICWA’s placement
preferences may result in demanding extensive actions by state child welfare agencies. For example, in
Native Village of Tununak v. State, the Alaska Supreme Court addressed the duties of the Alaska Office
of Child Services (“OCS”) to implement the placement
preferences. 334 P.3d 165, 177–78 (Alaska 2014). To
safeguard ICWA’s preferences, courts “must searchingly inquire about . . . OCS’s efforts to comply with
achieving[] suitable § 1915(a) placement preferences”
and, in turn, OCS must “identify[] early in a [child
welfare proceeding] all potential preferred adoptive
placements.” Id. at 178.104

103
Surprisingly, Tribal Defendants contend the preferences apply “exclusively to state courts” and “are not mandates requiring
that state executive branch employees enforce federal law.”
ICWA’s regulations show the opposite is true.
104

See also, e.g., Alexandra K. v. Dep’t of Child Safety, No. 1 CAJV 19-0081, 2019 WL 5258095, at *1 (Ariz. Ct. App. Oct. 17,

302a
In sum, to the extent the placement preferences in
§ 1915(a)–(d) require implementation efforts by state
agencies and officials, that violates the anti-commandeering doctrine.
iv. Placement record (§ 1915(e); 25 C.F.R.
§23.141). We also conclude that the related placement-record requirements in § 1915(e) commandeer
states (along with its implementing regulation in 25
C.F.R. § 23.141). This provision requires “the State”
to “maintain[ ] . . . [a] record” of any Indian child
placements under state law. § 1915(e). The record
must “evidenc[e] the efforts to comply with the order
of preference specified in [§ 1915]” and “shall be made
available at any time upon the request of the Secretary or the Indian child’s tribe.” Id. In turn, the Final
Rule specifies: (1) the record’s minimum contents, 25
C.F.R. § 23.141(b); (2) that “[a] State agency or agencies may be designated to be the repositories for this
information,” id. § 23.141(c), and (3) that “[t]he State
court or agency should notify the [Bureau of Indian

2019) (observing “[t]he [Arizona Department of Child Safety]
case manager testified DCS had not located any ICWA-compliant
placement and that the Navajo Nation had not suggested any”);
People in Interest of M.D., 920 N.W.2d 496, 503 (S.D. 2018) (noting “[South Dakota Department of Social Services] workers also
testified during the dispositional hearing to their familiarity
with ICWA placement preferences, [and] their efforts to find a
suitable placement for all the children”); id. at 504 (concluding
that “because DSS explored the availability of a suitable placement for child with a diligent search, but was unsuccessful, there
was good cause for departure from the placement preferences”)
(quoting David S. v. State, Dep’t of Health & Social Servs., 270
P.3d 767, 782 (Alaska 2012)) (cleaned up).

303a
Affairs] whether these records are maintained within
the court system or by a State agency,” id.
As then-JUDGE OWEN reasoned in her panel dissent, these requirements commandeer states because
they are “direct orders to the States.” 937 F.3d at 444,
446 (OWEN, J., dissenting in part). The statute and
regulation each command “the State” to create, compile, and maintain the required record and furnish it
upon request to the child’s tribe or the Secretary.
§ 1915(e); 25 C.F.R. § 23.141(a). Furthermore, the
regulations explain that § 1915(e) “work[s] in concert”
with the placement preferences to “require that State
agencies and courts make efforts to identify and assist
extended family and Tribal members with preferred
placements.” 81 Fed. Reg. at 38,839.105 Consequently,
as JUDGE OWEN correctly concluded, the placementrecord requirements offend “the very principle of separate state sovereignty” because their “whole object
. . . [is] to direct the functioning of the state executive”
in service of a federal regulatory program. 937 F.3d at
445 (OWEN, J., dissenting in part) (quoting Printz, 521
U.S. at 932).
Tribal Defendants attempt to justify these requirements as merely making states perform administrative actions, such as “provid[ing] the federal government with information.” See also Printz, 521 U.S.
at 918 (declining to address constitutionality of laws
“requir[ing] only the provision of information to the

105
See also id. (explaining Congress intended “reading Sections
1915(a) and 1915(e) together” to “demand[ ] documentable ‘efforts to comply’ with the ICWA placement preferences”).

304a
Federal Government” by state officials).106 But the
challenged provisions demand more than “provid[ing]
information.” The required record must not only compile documents but also “evidenc[e]” the state’s “efforts to comply” with ICWA’s placement preferences.
§ 1915(e).107 The whole point is to help implement the
placement preferences, which, as explained, demand
action by state agencies. See also 81 Fed. Reg. at
38,839 (preferences “create[] an obligation on State
agencies and courts”). More than an obligation to
“provide information,” then, § 1915(e) demands states
document the “forced participation of the States’ executive in the actual administration of a federal program.” Printz, 521 U.S. at 918.108

106

JUDGE DENNIS also cites Printz, 521 U.S. at 905–06, for the
proposition that early federal laws required state courts to record
citizenship applications and transmit naturalization records.
DENNIS OP. at 86. But Printz did not decide whether those laws
set a constitutional precedent. See 521 U.S. at 918. And, even
assuming the recordkeeping obligations in § 1915(e) may be fulfilled by state courts, those obligations go well beyond the early
examples in Printz. See also infra III(B)(2)(c) (discussing similar
obligations imposed on state courts by § 1951(a)).
107
See also 25 C.F.R. § 23.141(a), (b) (to justify departing from
preferences, record “must contain . . . detailed documentation of
the efforts to comply with the placement preferences”); 81 Fed.
Reg. at 38,839 (“Section 1915(e) requires that, for each placement, the State must maintain records evidencing the efforts to
comply with the order of preference specified in section 1915.”).
108

JUDGE DENNIS sees no commandeering because the regulation implementing § 1915(e) “permits states to designate either
their courts or agencies . . . as the entities charged with complying with” the requirement. DENNIS OP. at 87; see 25 C.F.R.
§ 23.141(c) (allowing designation of “[a] State agency or agencies”
as “repository for this information”); id. (requiring “State court

305a
v. Notice (§ 1912(a)). Finally, we find § 1912(a)
unconstitutional because it commandeers state agencies. Under this section, any “party” seeking to place
an Indian child in foster care, or to terminate parental
rights, “shall notify the parent or Indian custodian
and the Indian child’s tribe, by registered mail with
return receipt requested, of the pending proceedings
and of their right of intervention.” Id.109 The regulations describe this as “one of ICWA’s core procedural
requirements in involuntary child-custody proceedings.” 81 Fed. Reg. at 38,809. It applies to state agen-

or agency” to notify BIA whether records are kept “within the
court system or by a State agency”). We disagree. Whatever option the state chooses, either its agencies or its courts are coopted into administering a federal program. JUDGE DENNIS’s
premise seems to be that requiring state courts to implement
§ 1915(e) would not be commandeering. That is mistaken. As
explained below, forcing state courts to administer a federal
recordkeeping regime violates anti-commandeering just as much
as forcing agencies to do it. See infra III(B)(2)(c) (addressing
recordkeeping requirement in § 1951(a)).
109
If the identity or location of the parent, custodian, or tribe
cannot be determined, “such notice shall be given to the Secretary in like manner, who shall have fifteen days after receipt to
provide the requisite notice.” Id. The proceeding may not commence until ten days after receipt of notice by the parent, custodian, tribe, or the Secretary. Id.

306a
cies. See id. at 38,792 (“any party” in § 1912(a) includes “governmental organizations”).110 The provision thereby imposes detailed111 obligations on state
agencies, which the Final Rule concedes will consume
significant time and money.112
As explained, the anti-commandeering doctrine
forbids Congress from imposing administrative duties
on state agencies and officials. See, e.g., New York,
550 U.S. at 176, 188 (Congress cannot issue “a simple
command to state governments to implement legislation enacted by Congress,” nor “compel the States to
enact or administer a federal regulatory program”).
Because that is what § 1912(a) does, it is unconstitutional.

110
See also, e.g., In re Morris, 815 N.W.2d 62, 72–76, 83 (Mich.
2012) (discussing § 1912(a) notice requirement and conditionally
reversing order based on failure of court to ensure that state Department of Human Services notified child’s tribe); In re Desiree
F., 99 Cal. Rptr. 2d 668, 696 (Cal. Ct. App. 2000) (finding it was
“the duty of the Fresno County Department of Social Services to
notify the Tribe or the Secretary” and invalidating court orders
due to “the failure of the respective county welfare agencies and
juvenile courts to comply with the clear provisions of the ICWA”).
111

See, e.g., 25 C.F.R. § 23.111(a)(1), (c) (court must ensure
“party seeking placement” sends notice “by registered or certified
mail with return receipt requested”); id. § 23.111(d)(1)–(6) (14
different statements that must appear in notice); id. § 23.111(e)
(if parent, custodian, or tribe not ascertainable, requiring notice
to BIA, including “as much information as is known regarding
the child’s direct lineal ancestors”).
112
81 Fed. Reg. at 38,863 (estimating at 81,900 the “[t]otal annual burden hours” for “State court[s] and/or agenc[ies]” to provide notices); id. at 38,864 (estimating at $260,442 the “annual
cost burden” of providing required notices).

307a
b. ICWA does not “evenhandedly regulate”
state and private activity.
Defendants’ principal response on anti-commandeering is to invoke the principle that the doctrine
“does not apply when Congress evenhandedly regulates an activity in which both States and private actors engage.” Murphy, 138 S. Ct. at 1478. For instance, they point out that private parties, as well as
state agencies, may seek to be appointed as a child’s
guardian or conservator or to terminate parental
rights. Similarly, JUDGE DENNIS observes that some
of the challenged provisions (notice and active efforts)
refer to “any party” seeking placement or termination,
and thus apply “regardless of whether that party is a
state agent or private individual.” See § 1912(a), (d);
DENNIS OP. at 94. In advancing this argument, both
Tribal Defendants and JUDGE DENNIS rely heavily on
South Carolina v. Baker, 485 U.S. 505 (1988), and
Reno v. Condon, 528 U.S. 141 (2000). DENNIS OP. at
92–93. They are right to do so, because those decisions undergird the “evenhanded regulation” principle. See Murphy, 138 S. Ct. at 1478–79 (discussing
Baker and Condon). But examining those decisions
shows the principle does not apply to ICWA.
Baker involved a federal law denying a tax exemption to interest earned on state and local bonds issued
in unregistered (“bearer”) form. 485 U.S. at 510. The
law treated private bonds similarly. Id. The Supreme
Court rejected South Carolina’s argument that the
law commandeered states by coercing them to enact
and administer a registered bond scheme. Id. at 513–
14. At most, the law “effectively prohibit[ed]” states
from issuing bearer bonds pursuant to a “‘generally
applicable’” law treating state and private bonds

308a
equally. Id. at 514 (citation omitted). The Court emphasized that the challenged law “d[id] not . . . seek to
control or influence the manner in which States regulate private parties.” Id. Relying on Baker, Condon
rejected South Carolina’s commandeering challenge
to a federal law restricting state DMVs from disclosing drivers’ personal information. 528 U.S. at 144.
The law also restricted private disclosure and resale
of such information. Id. at 146. Distinguishing its
commandeering decisions in New York and Printz, the
Court explained that, here, the challenged law “d[id]
not require the States in their sovereign capacity to
regulate their own citizens,” did not require state legislatures to enact any laws, and “d[id] not require
state officials to assist in the enforcement of federal
statutes regulating private individuals.” Id. at 151.
Additionally, the law regulated states only as “the
owners of data bases,” and as part of “the universe of
entities that participate as suppliers to the market for
motor vehicle information.” Id.
For two main reasons, the “evenhanded regulation” principle from Baker and Condon has no application here. First, the laws challenged in those cases,
unlike ICWA, did not compel states “to regulate their
own citizens.” Condon, 528 U.S. at 151; see also Murphy, 138 S. Ct. at 1479. ICWA emphatically does. As
explained, ICWA requires state agencies to provide
remedial services to Indian families (§ 1912(d); 25
C.F.R. § 23.2; 81 Fed. Reg. at 38,814); to adduce expert
witness testimony (§ 1912(e), (f); 25 C.F.R.
§ 23.122(a); 81 Fed. Reg. at 38,829); to assist Indian
families and tribes with preferred placements
(§ 1915(a)–(d); 81 Fed. Reg. at 38,839–40); to compile
records evidencing efforts to comply with placement

309a
preferences (§ 1915(e); 25 C.F.R. § 23.141); and to provide detailed notices to parents, custodians, and tribes
(§ 1912(a); 25 C.F.R. § 23.111). This is especially evident as to the placement preferences: ICWA “creates
an obligation on State agencies and courts to implement” the preferences by “mak[ing] efforts to identify
and assist extended family and Tribal members.” 81
Fed. Reg. at 38,839 (emphasis added). These efforts
are “critical to the success of the statutory placement
preferences.” Id. at 38,839–40. The fact that ICWA
imposes “critical” duties on state actors concerning
private persons sets it worlds apart from the tax law
in Baker (which, at most, effectively prohibited states
from issuing bearer bonds) and the privacy law in
Condon (which restricted agency disclosure of drivers’
information). Instead, ICWA fits Condon’s description of laws that commandeer states by “requir[ing]
state officials to assist in the enforcement of federal
statutes regulating private individuals.” Condon, 528
U.S. at 151.
Second, unlike the laws in Baker and Condon,
ICWA regulates states “in their sovereign capacity.”
Condon, 528 U.S. at 151; see also Murphy, 138 S. Ct.
at 1478. In Baker and Condon, Congress regulated
states as participants in the bond market (Baker, 485
U.S. at 510) and the “market for motor vehicle information” (Condon, 528 U.S. at 151). Because private
parties also participated in those markets, and were
treated similarly, those decisions could speak of Congress “evenhandedly regulat[ing] an activity in which
both States and private parties engage.” Murphy, 138
S. Ct. at 1479. ICWA is a different animal. It regulates states, not as market participants, but as sover-

310a
eigns fulfilling their “duty of the highest order to protect the interests of minor children, particularly those
of tender years.” Palmore, 466 U.S. at 433. The contrast with regulating state participation in bond or
data markets could hardly be greater. As State Plaintiffs correctly observe, “child welfare is not a market
regulated by Congress in which public and private actors participate,” but is instead “the sovereign obligation of the States.” Once again, ICWA’s regulations
clinch the point: they assert that ICWA balances federal interests in Indian families and tribes “with the
States’ sovereign interest in child-welfare matters.” 81
Fed. Reg. at 38,789 (emphasis added).
JUDGE DENNIS responds that, because certain
ICWA provisions may apply to private parties as well
as state agencies, this triggers the Baker/Condon “evenhanded regulation” principle. DENNIS OP. at 93–
101. We disagree. First, this view overlooks that
Baker and Condon do not apply to a federal law that
regulates states as sovereigns113 and compels them to
regulate private parties.114 Baker, 485 U.S. at 514;

113
JUDGE DENNIS suggests that Condon addressed a law regulating states as sovereigns, and not as market participants, because “regulation of motor vehicles . . . is a quintessential state
function.” DENNIS OP. at 98. We disagree. Congress enacted the
privacy law in Condon because it “found that many States . . .
sell [drivers’] personal information to individuals and businesses,” 528 U.S. at 143, just as “private persons” do, id. at 146.
The law thus “regulate[d] the States as the owners of data bases,”
not as sovereigns. Id. at 151.
114

We disagree with Judge Dennis that the duties imposed on
state employees by the federal law in Condon are anything like
ICWA’s commandeering of state agencies. See DENNIS OP. at 98.
In Condon, state DMV employees had to spend “time and effort”

311a
Condon, 528 U.S. at 151; see also Murphy, 138 S. Ct.
at 1479. ICWA does both. Second, JUDGE DENNIS’s
view mistakes the “activity” ICWA regulates. Cf. Murphy, 138 S. Ct. at 1478 (considering “an activity in
which both States and private actors engage”). ICWA
directly regulates state “child custody proceeding[s].”
§ 1903(1). This is not regulation of an “activity” states
engage in alongside private actors, like bond issuance
or data sharing. Instead, this is regulation of state
administrative and judicial “proceedings” in service of
a federal regulatory goal. The anti-commandeering
doctrine forbids that.115 Third, under JUDGE DENNIS’s
view, Congress could conscript state officials into a
to “learn and apply” the patchwork of federal restrictions on disclosing driver information. 528 U.S. at 144–45, 150. But the employees were “not require[d] . . . to assist in the enforcement of
[the] federal statute[].” Id. at 151. ICWA, by contrast, requires
state agencies to “implement” the heart of the law—placement
preferences—by “identify[ing] and assist[ing]” potential placements. 81 Fed. Reg. at 38,839–40; see also id. at 38,839 (stating
the preferences “create[ ] an obligation on State agencies and
courts to implement the policy outlined in the statute”) (emphasis
added). JUDGE DENNIS also misunderstands our point that state
agencies’ role here is “critical.” See DENNIS OP. at 97 n.43. The
point is not that commandeering depends on whether the state
actor’s forced action is “critical” or “trivial.” Rather, the point is
that ICWA’s regulations describe state agencies as playing a
“critical” role in “implement[ing]” the law, see 81 Fed. Reg. at
38,839–40, a telltale sign that the agencies are being “compel[led] . . . to . . . administer a federal regulatory program,” New
York, 505 U.S. at 188.
115
See New York, 505 U.S. at 178 (explaining “Congress . . . may
not conscript state governments as its agents”); Murphy, 138 S.
Ct. at 1479 (Congress cannot “regulate the States’ sovereign authority to ‘regulate their own citizens’”) (quoting Condon, 528
U.S. at 151)).

312a
federal program, provided it requires private actors to
participate too. The anti-commandeering cases do not
support that view. The salient question, rather, is
whether a federal law requires state officials to act “in
their official capacity” to implement a federal program. See Printz, 521 U.S. at 932 n.17 (Brady Act did
not “merely require [state officers] to report information in their private possession” but instead to do
so “in their official capacity”). ICWA does so. That
parts of ICWA may also compel private parties does
not dilute the fact that ICWA “compel[s] the States to
. . . administer a federal regulatory program.” New
York, 505 U.S. at 188.116
2. Preemption
We now consider whether the challenged ICWA
provisions do not commandeer states but are, instead,
valid preemption provisions. See Murphy, 138 S. Ct.
at 1479 (considering whether PASPA § 3702(1) was “a
valid preemption provision”). The district court ruled

116
As part of his argument that certain sections of ICWA are
“evenhanded” (and therefore do not commandeer states), JUDGE
DENNIS also finds that these sections are “necessarily ‘best read’
as pertaining to private actors.” DENNIS OP. at 99. But this argument grafts onto commandeering a preemption principle—
namely, that a federal law preempts only if it is “best read as one
that regulates private actors.” Murphy, 138 S. Ct. at 1479.
JUDGE DENNIS cites no authority for the proposition that the two
analyses may be blended into one. Moreover, the most recent
Supreme Court decision addressing commandeering and
preemption—Murphy—treats the two analyses separately. See
138 S. Ct. at 1478–79 (commandeering); id. at 1479–81 (preemption). We will therefore follow the Supreme Court and address
the “best read” issue under preemption, not commandeering.

313a
preemption could not save any of those provisions because they “directly command states” and not “‘private actors.’” Brackeen, 338 F. Supp. 3d at 541 (quoting Murphy, 138 S. Ct. at 1481). On appeal, Defendants argue the challenged provisions confer federal
rights on Indian children, families, and tribes that
preempt conflicting state laws.
“Preemption doctrine reflects the basic concept,
grounded in the Supremacy Clause, that federal law
can trump contrary state law.” Butler v. Coast Elec.
Power Ass’n, 926 F.3d 190, 195 (5th Cir. 2019) (citing
Arizona v. United States, 567 U.S. 387, 398–99
(2012)). This occurs when federal law conflicts with
state law, expressly preempts state law, or excludes
state legislation by occupying an entire field. See
Murphy, 138 S. Ct. at 1480 (identifying “three different types of preemption—‘conflict,’ ‘express,’ and
‘field’”) (citation omitted).117 To have any kind of
preemptive effect, however, a federal law must meet
two conditions: it (1) “must represent the exercise of
a power conferred on Congress by the Constitution,”
and (2) must be “best read” as a law that “regulates
the conduct of private actors, not the States.” Murphy, 138 S. Ct. at 1479, 1481.118

117

See also generally City of El Cenizo, Tex. v. Texas, 890 F.3d
164, 176–81 (5th Cir. 2018) (field and conflict preemption);
Franks Inv. Co., LLC v. Union Pac. R. Co., 593 F.3d 404, 407–08
(5th Cir. 2010) (express preemption).
118
See also Alden, 527 U.S. at 731 (explaining “the Supremacy
Clause enshrines as ‘the supreme Law of the Land’ only those
Federal Acts that accord with the constitutional design”) (citing
Printz, 521 U.S. at 924).

314a
At the outset, we note that ICWA implicates “conflict” preemption only. ICWA lacks an express
preemption clause and no one contends ICWA occupies the field of Indian child-custody proceedings.119
We also note that various ICWA provisions potentially
conflict with state laws.120 For instance, ICWA grants
an indigent parent the right to appointed counsel,
§ 1912(b), which may exceed some state guarantees.
ICWA also grants a child’s tribe the right to intervene,
§ 1911(c), a right not automatically granted by some
state laws. Substantively, ICWA imposes an onerous
standard for terminating parental rights—proof “beyond a reasonable doubt” that continued custody “is
likely to result in serious emotional or physical damage to the child.” § 1912(f). States, by contrast, generally allow termination based on “clear and convincing evidence” that a parent has committed certain offenses and that termination is in “the best interest of
the child.” See, e.g., TEX. FAM. CODE § 161.001(b)(1),
(2).121 ICWA’s placement preferences may also conflict
119
See, e.g., In re A.B., 245 P.3d 711, 718–19 (Utah 2010) (ICWA
does not implicate express or field preemption); In re W.D.H., 43
S.W.3d 30, 35–36 (Tex. App.—Houston [14th Dist.] 2001, pet. denied) (ICWA implicates only conflict preemption).
120

See generally New Mexico v. Mescalero Apache Tribe, 462
U.S. 324, 333–34 (1983) (discussing special considerations governing preemption of state law by “federal and tribal interests”)
(and collecting decisions).
121
See also, e.g., In re W.D.H., 43 S.W.3d at 37, 36 (explaining
Texas law “is based on the ‘Anglo’ standard for determining the
best interest of the child,” which is “‘notably different’” from
ICWA’s termination standard) (first quoting Doty-Jabbaar, 19
S.W.3d at 877); and then citing Yavapai-Apache Tribe, 906
S.W.2d at 168).

315a
with state standards, under which placements depend
on the child’s best interests.122 Such conflicts, while
not inevitable,123 should come as no surprise. Whereas
states seek only to promote a child’s best interests,
ICWA also seeks to “promote the stability and security
of Indian tribes and families.” § 1902.
With that background in mind, we proceed to the
preemption analysis. We assume for purposes of this
part only that ICWA is a valid exercise of Congress’s
power. See Murphy, 138 S. Ct. at 1479. We therefore
focus on whether the challenged provisions are “best
read” as regulating private instead of state actors. Id.
a. The provisions that regulate private
actors are valid preemption provisions.
Contrary to the district court’s ruling, see Brackeen, 338 F. Supp. 3d at 541, we conclude that several
provisions of ICWA are valid preemption provisions
because they are best read as regulating private actors. For example, ICWA gives a child’s Indian custodian and tribe the “right to intervene at any point” in
a state court foster care or termination proceeding.
§ 1911(c). An indigent parent or Indian custodian has

122

Compare 81 Fed. Reg. at 38,840 (explaining “[ICWA] requires that States apply a preference for the listed placement
categories” in § 1915), with TEX. FAM. CODE § 162.016(b) (court
shall grant adoption if “the adoption is in the best interest of the
child”); LA. CHILD. CODE arts. 1217(B), 1255(B) (the court’s “basic
consideration” in adoption decree “shall be the best interests of
the child”).
123
See, e.g., In re A.B., 245 P.3d at 720–21 (tribe’s right to seek
invalidation under § 1914 does not conflict with state notice-ofappeal requirements).

316a
“the right to court-appointed counsel” in certain proceedings. § 1912(b).124 Any party has “the right to examine all reports or other documents” filed in proceedings. § 1912(c). ICWA also confers various parental
rights in voluntary termination proceedings, such as
the right to have the terms of consent “fully explained
in detail” and in comprehensible language (§ 1913(a));
the right to withdraw consent to a placement at any
time or to a termination or adoption prior to final decree (§ 1913(b), (c)); and the right to withdraw consent
based on “fraud or duress” up to two years after an
adoption decree (§ 1913(d)). An Indian child, parent,
custodian, or tribe may seek invalidation of a placement or termination action based on a violation of sections 1911, 1912, and 1913. § 1914. Additionally, a
“biological parent” or prior Indian custodian may petition for return of custody when an adoption is set
aside or the adoptive parents consent. § 1916(a). Finally, upon reaching age 18, an adopted Indian may
obtain from the court information about his birth parents’ “tribal affiliation,” along with other information
“necessary to protect any rights flowing from [his]
tribal membership.” § 1917.
The district court held none of the challenged provisions—including these—could validly preempt state
law because they “directly command states.” Brackeen, 338 F. Supp. 3d at 541. We disagree as to the
provisions discussed above, which are best read to ad-

124
JUDGE JONES does not agree that § 1912(b) is a valid
preemption provision and so does not join this part to the extent
it concludes otherwise.

317a
dress private actors, not states. We therefore conclude those provisions (§§ 1911(c); 1912(b); 1913,
1914, 1916(a), and 1917125) are valid preemption provisions.126 See Haywood v. Drown, 556 U.S. 729, 736
(2009) (explaining states “lack authority to nullify a
federal right or cause of action”).

125

State Plaintiffs suggest that, by requiring an adult
adoptee be informed of his birth parents’ tribal affiliation, § 1917
improperly imposes on courts a “non-judicial obligation[].” We
disagree. The right granted by § 1917 resembles rights recognized in various state laws providing courts may unseal adoption
records upon request of adoptees. See generally Shannon Clark
Kief, Annotation, Restricting Access to Judicial Records of Concluded Adoption Proceedings, 103 A.L.R. 5th 255 (2002) (collecting and analyzing cases). JUDGE DENNIS argues that, if § 1917
creates a preemptive right (as we conclude), then so does the
placement-record provision in § 1915(e). DENNIS OP. at 89 n.39.
We disagree. Unlike § 1917, § 1915(e) imposes a detailed recordkeeping regime on states designed to implement the placement
preferences. See supra III(B)(1)(a)(iv).
126
See, e.g., In re J.L.T., 544 S.W.3d 874, 879 (Tex. App.—
El Paso 2017, no pet.) (§ 1911(c) preempts state rule requiring
tribe to file written pleading to intervene); Dep’t of Human Servs.
v. J.G., 317 P.3d 936, 944 (Or. Ct. App. 2014) (§ 1914 preempts
Oregon “preservation rule”); In re K.B., 682 N.W.2d 81, 2004 WL
573793, at *3 (Iowa Ct. App. 2004) (table) (concluding “when a
tribe has a statutory right of intervention under ICWA, state-law
doctrines of estoppel may not be applied to deprive it of that
right”); State ex rel. Juvenile Dept. of Lane Cnty. v. Shuey, 850
P.2d 378, 379–81 (Or. Ct. App. 1993) (tribe’s right of intervention
in § 1911(c) preempts state laws requiring tribe be represented
by attorney).

318a
b. The provisions that command
state agency action are not valid
preemption provisions.
Conversely, we conclude that the provisions of
ICWA discussed in the commandeering part are not
valid preemption provisions. They are best read as
regulating states, not private actors. Murphy, 138 S.
Ct. at 1479.
In our commandeering discussion, supra III(B)(1),
we considered ICWA’s provisions requiring active efforts (§ 1912(d)), expert witnesses (§ 1912(e), (f)),
placement preferences (§ 1915(a)–(d)), placement records (§ 1915(e)), and notice (§ 1912(a)). We found
these provisions impose duties on state agencies to
provide remedial services to Indian families
(§ 1912(d); 25 C.F.R. § 23.2; 81 Fed. Reg. at 38,814); to
adduce expert witness testimony (§ 1912(e), (f); 25
C.F.R. § 23.122(a); 81 Fed. Reg. at 38,829); to assist
Indian families and tribes with preferred placements
(§ 1915(a)–(d); 81 Fed. Reg. at 38,839–40); to compile
records evidencing efforts to comply with placement
preferences (§ 1915(e); 25 C.F.R. § 23.141); and to furnish notice to parents, custodians, and tribes
(§ 1912(a)). We therefore concluded these provisions
transgress the commandeering rule.
That also means they are not valid preemption
provisions. “[E]very form of preemption is based on a
federal law that regulates the conduct of private actors, not the States.” Murphy, 138 S. Ct. at 1481.
These provisions regulate, not private persons, but
the conduct of state agencies and officials. They therefore cannot validly preempt conflicting state law. See,

319a
e.g., Printz, 521 U.S. at 935 (explaining a federal “command [to] the States’ officers . . . to administer or enforce a federal regulatory program” is “fundamentally
incompatible with our constitutional system of dual
sovereignty”).
Federal Defendants respond that these provisions
merely grant Indian children and parents “federally
conferred rights,” which “may constrain state childprotection agencies” but do not “directly regulate[ ]
States.” We disagree. As we have explained at length,
these provisions do not merely “constrain” state agencies but, instead, require state agencies to undertake
extensive actions. See supra III(A)(1). Thus, it is immaterial whether they can somehow be characterized,
through verbal legerdemain, as securing “federally
conferred rights.”127 The salient point is that “[t]here
is no way in which th[ese] provision[s] can be understood as a regulation of private actors.” Murphy, 138
S. Ct. at 1481 (emphasis added). They instead regulate state agencies, which means they commandeer
states and cannot have valid preemptive effect. See,
e.g., New York, 505 U.S. at 178 (“Where a federal interest is sufficiently strong to cause Congress to legislate, it must do so directly; it may not conscript state
governments as its agents.”).

127
For instance, Federal Defendants awkwardly re-cast
§ 1912(d) as securing to Indian children “the right not to be
placed in foster care . . . without proof that ‘active efforts have
been made to provide remedial services and rehabilitative programs.’” This overlooks the key point that the provision “require[s] States to affirmatively provide Indian families with substantive services.” 81 Fed. Reg. at 38,791.

320a
c. The placement preferences, placement
standards, and termination standards are
valid preemption provisions for state courts.
The recordkeeping requirement is not.
The district court ruled that certain ICWA provisions were not valid preemption provisions because
they require state courts to “incorporat[e] federal
standards that modify state created causes of action.”
Brackeen, 338 F.Supp.3d at 539, 542. The court focused on ICWA’s requirement that courts apply the
§ 1915 placement preferences, which it characterized
as “a direct command from Congress to the states.” Id.
at 540. More broadly, the court concluded that whenever ICWA commands courts to apply “federal standards” in state causes of action, it commandeers states
and does not validly preempt state law. Id. at 541. On
appeal, Defendants argue that the district court’s rationale failed to account for the “well established
power of Congress to pass laws enforceable in state
courts,” which those courts must apply under the Supremacy Clause. See, e.g., New York, 505 U.S. at 178.
To resolve this question, we first review some
background principles. The Supremacy Clause binds
state courts of competent jurisdiction, save in narrow
circumstances, to adjudicate federal causes of action.
See, e.g., Haywood, 556 U.S. at 734–36; Howlett v.
Rose, 496 U.S. 356, 367–75 (1990); Testa v. Katt, 330
U.S. 386, 394–95 (1947).128 This obligation sometimes

128

This rule does not apply “only in two narrowly defined
circumstances: first when Congress expressly ousts state courts
of jurisdiction; and second, when a state court refuses jurisdiction because of a neutral state rule regarding the administration

321a
includes applying federal procedural rules connected
with the federal action. See, e.g., Dice v. Akron, Canton & Youngstown R.R., 342 U.S. 359, 363 (1952)
(state court required to apply FELA jury-trial right
despite state rule requiring court to make certain
findings); Cent. Vt. Ry. Co. v. White, 238 U.S. 507, 512
(1915) (state court required to apply FELA burden of
proof despite contrary state rule). Additionally, a
state procedural rule may be preempted if it interferes
with a federal cause of action. See, e.g., Felder v. Casey, 487 U.S. 131, 147-150 (1988) (state notice-of-injury prerequisite preempted in § 1983 actions); Brown
v. W. Ry. of Ala., 338 U.S. 294, 298–99 (1949) (state
pleading rule barred because it interfered with federal
rights). By contrast, however, no authority supports
the proposition that Congress may prescribe procedural rules for state-law claims in state courts. See,
e.g., Felder, 487 U.S. at 138 (recognizing the “unassailable proposition . . . that States may establish the
rules of procedure governing litigation in their own
courts”); Suesz v. Med-1 Solutions, LLC, 757 F.3d 636,
651 (7th Cir. 2014) (Sykes, J., concurring) (“[I]t’s
doubtful that Congress has the power to prescribe procedural rules for state-law claims in state courts.”)
(citing, inter alia, Anthony Bellia, Jr., Federal Regulation of State Court Procedures, 110 YALE L. J. 947
(2001)).
The question we address here fits neatly into none
of these categories. ICWA creates no federal cause of
action state courts must enforce. Nor does ICWA enact federal procedural rules that state courts must
of the courts.” Haywood, 556 U.S. at 735 (internal quotation
marks and citations omitted).

322a
prefer over their own procedures. Nor does ICWA impose procedural rules for state-law claims in state
courts.129 That, as noted, would likely be a bridge too
far. Instead, ICWA enacts substantive child-custody
standards applicable in state child-custody proceedings. For instance, ICWA requires courts to place Indian children with certain persons (§ 1915), and also
requires courts to make specific findings under a
heightened standard of proof before an Indian child
may be placed in a foster home or his parents’ rights
terminated (§ 1912(e) and (f)).
To the extent those substantive standards compel
state courts (as opposed to state agencies), we conclude
they are valid preemption provisions. As already discussed, the Supremacy Clause requires state courts to
apply validly enacted federal law. See Printz, 521 U.S.
at 907; New York, 505 U.S. at 178–79. The Supreme
Court has ruled that federal standards may supersede
state standards even in realms of traditional state authority such as family and community property law.
See, e.g., Boggs v. Boggs, 520 U.S. 833 (1997); McCarty

129
Jinks v. Richland County, 538 U.S. 456 (2003), does not
support the proposition that Congress may impose procedural
rules on state claims in state courts. Jinks upheld Congress’s
authority to toll state limitations periods for state-law claims
while removed to federal court under supplemental jurisdiction.
Id. at 459, 462–63; see 28 U.S.C. § 1367(d). The Court rejected
the argument that this rule violated state sovereignty by regulating state-court “procedure,” because “tolling of limitations periods falls on the ‘substantive’ side of the line.” 538 U.S. at 464–
65. The Court disclaimed any holding that “Congress has unlimited power to regulate practice and procedure in state courts.”
Id. at 465.

323a
v. McCarty, 453 U.S. 210 (1981); Hisquierdo v. Hisquierdo, 439 U.S. 572 (1979); see also Egelhoff v.
Egelhoff ex rel. Briener, 532 U.S. 141, 151–52 (2001)
(observing “we have not hesitated to find state family
law preempted when it conflicts with ERISA”) (citing
Boggs, 520 U.S. at 833). For instance, Egelhoff held
ERISA preempted a state probate rule and so dictated, contrary to state law, the beneficiaries of pension and insurance proceeds. 532 U.S. at 147–50.
Similarly, McCarty held a federal military benefits
law preempted state community property rules, thus
altering the property division upon divorce. 453 U.S.
at 223–35. And, more recently, Hillman v. Maretta
held that a federal law setting the “order of precedence” for paying federal life-insurance benefits
preempted a state cause of action that directed the
benefits to another person. 569 U.S. 483, 491–94
(2013).
This preemption rule embraces some of the ICWA
provisions challenged here. Specifically, ICWA’s substantive standards requiring state courts to observe
placement preferences (§ 1915) and make placement
or termination findings (§ 1912(e) and (f)) are valid
preemption provisions. The district court’s view that
these standards “modify state created causes of action,” Brackeen, 338 F.Supp.3d at 539, is a matter of
terminology not legal analysis: whenever a federal
standard supersedes a state standard, the federal
standard can be said to “modify a state created cause
of action.” In McCarty, for instance, the federal benefits law could be said to “modify” a state cause of action for dividing marital property. McCarty, 453 U.S.
at 223–35.
The same for Hillman, where the
preempted state law “interfere[d]” with the federal

324a
scheme “by creating a [state] cause of action” directing
proceeds to beneficiaries other than those specified by
federal law. 569 U.S. at 494.
In any event, instead of casting preemption in
terms of whether federal law “modifies” a state cause
of action, the Supreme Court has put the analysis
more straightforwardly: “[S]tate law is naturally
preempted to the extent of any conflict with a federal
statute.” Crosby v. Nat’l Foreign Trade Council, 530
U.S. 363, 373 (2000); see also, e.g., Arizona, 567 U.S.
at 399 (“[S]tate laws are preempted when they conflict
with federal law.”). If ICWA’s placement preferences
apply in a state proceeding, preemption means a state
court must prefer them to conflicting state standards.130 But “this sort of federal ‘direction’ of state
judges is mandated by the text of the Supremacy
Clause,” and so is not commandeering. New York, 505
U.S. at 178–79.131
We reach a different conclusion, however, as to
§ 1951(a), which requires state courts to provide the
130

Elsewhere in this opinion, we conclude the § 1915
placement preferences violate the equal protection component of
the Fifth Amendment. See supra III(A)(2), (3). Our discussion
in this Part of the preemptive effect of those preferences is separate from and independent of our holding that the preferences
violate the Fifth Amendment.
131
State Plaintiffs worry that this principle would permit
Congress “to prescribe sentences for state-law drug offenses, or
to require imposition of strict liability in auto-accident cases.”
We think not. We cannot fathom where Congress would get the
power to do those things. Here, we have assumed—for this part
only—that Congress has the power to enact ICWA. But see supra
II (separately concluding Congress lacks power to enact ICWA to
extent it governs state proceedings).

325a
Secretary with a copy of an Indian child’s final adoption decree, “together with . . . other information.”
The district court held this provision unconstitutional,
casting it as part of ICWA’s command to states to “administer” a federal regulatory program. Brackeen,
338 F.Supp.3d at 541-42. On appeal, Defendants argue the provision is merely an “information-sharing”
requirement the Supreme Court all but approved in
Printz. We disagree. Printz left open whether requiring “the provision of information to the Federal Government” amounts to commandeering. See 521 U.S.
at 918 (noting “we . . . do not address” that issue because it is “not before us”). As State Plaintiffs point
out, however, § 1951(a) makes state courts do more
than share information. The provision spearheads a
“recordkeeping” regime that demands state courts (1)
transmit to the Secretary a variety of information, see
25 C.F.R. § 23.140;132 (2) maintain a specified “record”
of every Indian child placement, see id. § 23.141(a),
(b);133 and (3) “make the record available within 14
days of a request” by the tribe or Secretary, id.

132

The information pertains to the child’s tribal affiliation,
the names and addresses of the child’s birth and adoptive parents, and “the identity of any agency having files or information
relating to such adoptive placement.” § 1951(a)(1)–(4); see also
25 C.F.R. § 23.140(a)(1)–(6) (detailing additional requirements).
133
“The record must contain, at a minimum, the petition
or complaint, all substantive orders entered in the child-custody
proceeding, the complete record of the placement determination
(including, but not limited to, the findings in the court record and
the social worker’s statement), and, if the placement departs
from the placement preferences, detailed documentation of the
efforts to comply with the placement preferences.”
Id.
§ 23.141(b).

326a
§ 23.141(a). States have the option of designating either their courts or agencies as the “repository” for
this information. Id. § 23.141(c). The regulations estimate complying with this regime will consume large
amounts of state court and agency resources every
year. See 81 Fed. Reg. at 38,863.
Unlike the other provisions discussed in this part,
§ 1951(a) is not a substantive child-custody standard
state courts must apply under the Supremacy Clause.
Rather, the provision imposes an extensive recordkeeping obligation directly on state courts and agencies. This is not a valid preemption provision because
it regulates the conduct of states, not private actors.
Cf. Murphy, 138 S. Ct. at 1481 (explaining “every form
of preemption is based on a federal law that regulates
the conduct of private actors, not the States”). By conscripting state courts and agencies into administering
this system, § 1951(a) violates the principle that “Congress cannot compel the States to enact or enforce a
federal regulatory program.” Printz, 521 U.S. at 935.
We therefore hold that § 1951(a) violates the commandeering doctrine and is not a valid preemption provision.
***
Summing up part III, we find the following provisions unconstitutional to the extent they command
state agencies (supra III(B)(1)(a), (B)(2)(c)):
 The active-efforts requirement in § 1912(d)
 The expert-witness requirement in § 1912(e)
and (f)
 The placement preferences in § 1915(a) and (b)
 The placement-record requirement in § 1915(e)

327a
 The notice requirement in § 1912(a)
 The recordkeeping requirement in § 1951(a).
We also conclude that none of these are valid preemption provisions (supra III(B)(2)(b)).
On the other hand, we find the following are valid
preemption provisions (supra III(B)(2)(a), (c)):
 The right to intervene in § 1911(c)
 The right to appointed counsel in § 1912(b)
 The right to examine reports and documents in
§ 1912(c)
 The right to withdraw consent in § 1913(b)
and (c)
 The right to collaterally attack a decree in
§ 1913(d)
 The right to petition to invalidate a decree in
§ 1914
 The right to petition for return of custody in
§ 1916(a)
 The right to obtain tribal affiliation information
in § 1917
 Courts’ obligation to apply the placement preferences in § 1915
 Courts’ obligation to apply the placement and
termination standards in § 1912(e) and (f).

328a
C. Nondelegation
We now consider whether ICWA § 1915(c) unconstitutionally delegates legislative power to Indian
tribes. As discussed, ICWA establishes preferences
for placements of Indian children. See § 1915(a), (b).
Section 1915(c) empowers tribes to reorder those preferences:
In the case of a placement under subsection
(a) or (b) of this section, if the Indian child’s
tribe shall establish a different order of preference by resolution, the agency or court effecting the placement shall follow such order
so long as the placement is the least restrictive setting appropriate to the particular
needs of the child, as provided in subsection
(b) of this section.
§ 1915(c). ICWA’s regulations confirm that a tribe’s
rewritten preferences trump the order established by
Congress.134
The district court ruled § 1915(c) and its implementing regulations violate the nondelegation doctrine for two reasons. First, the court held that
§ 1915(c) invalidly attempts to delegate Congress’s
“inherent legislative power to create law.” Brackeen,
134
See 25 C.F.R. § 23.130(b) (“If the Indian child’s Tribe
has established by resolution a different order of preference than
that specified in ICWA, the Tribe’s placement preferences apply.”); id. § 23.131(c) (“If the Indian child’s Tribe has established
by resolution a different order of preference than that specified
in ICWA, the Tribe’s placement preferences apply, so long as the
placement is the least-restrictive setting appropriate to the particular needs of the Indian child, as provided in paragraph (a) of
this section.”).

329a
338 F. Supp. 3d at 536. Second, even if § 1915(c) delegates only regulatory power, that power cannot be
delegated outside the federal government to an Indian
tribe. The panel reversed, reasoning that the provision merely exercised Congress’s longstanding authority to “incorporate the laws of another sovereign
into federal law” and that tribes have “inherent authority” to regulate their members and domestic relations. Brackeen, 937 F.3d at 436–37. We agree with
the district court that § 1915(c) impermissibly delegates legislative power to Indian tribes.
1.
“The nondelegation doctrine is rooted in the principle of separation of powers that underlies our tripartite system of Government.” Mistretta v. United
States, 488 U.S. 361, 371 (1989). Typically, a nondelegation claim challenges Congress’s “transferring its
legislative power to another branch of Government.”
Gundy v. United States, 139 S. Ct. 2116, 2121 (2019)
(plurality op.); see also, e.g., Whitman v. Am. Trucking
Ass’ns, 531 U.S. 457, 472 (2001) (a delegation challenge asks “whether the statute has delegated legislative power to [an] agency”). Such challenges are usually unsuccessful because the Supreme Court requires
Congress to provide only an “intelligible principle”
guiding execution of the delegated authority. See
Touby v. United States, 500 U.S. 160, 165 (1991); see
also, e.g., United States v. Whaley, 577 F.3d 254, 263
(5th Cir. 2009) (the “modern [nondelegation] test is
whether Congress has provided an ‘intelligible principle’ to guide the agency’s regulations,” which “can be
broad”) (citations omitted). But § 1915(c), as the district court correctly recognized, presents an atypical
nondelegation issue for two main reasons: the statute

330a
delegates lawmaking—not merely regulatory—authority, and it does so to an entity outside the federal
government.
“The fundamental precept of the delegation doctrine is that the lawmaking function belongs to Congress, and may not be conveyed to another branch or
entity.” Loving v. United States, 517 U.S. 748, 758
(1996) (citing U.S. CONST., art. I, § 1; Field v. Clark,
143 U.S. 649, 692 (1892)). That forbidden conveyance
is what § 1915(c) purports to do. It does not delegate
to tribes authority merely to regulate under Congress’s general guidelines. Cf., e.g., Touby, 500 U.S. at
165 (nondelegation not implicated “merely because
[Congress] legislates in broad terms, leaving a certain
degree of discretion to executive or judicial actors”)
(citing J.W. Hampton, Jr., & Co. v. United States, 276
U.S. 394, 409 (1928)). Rather, it empowers tribes to
change the substantive preferences Congress enacted
in § 1915(a) and (b) and to bind courts, agencies, and
private persons to follow them. As the district court
correctly reasoned, “[t]he power to change specifically
enacted Congressional priorities and impose them on
third parties can only be described as legislative.”
Brackeen, 338 F. Supp. 3d at 537; see also INS v.
Chadha, 462 U.S. 919, 952 (1983) (explaining “action
that had the purpose and effect of altering the legal
rights, duties and relations of persons” is “essentially
legislative in purpose and effect”). This “delegation of
power to make the law,” Chief Justice Marshall explained long ago, “cannot be done.” Loving, 517 U.S.
at 759 (quoting Wayman v. Southard, 23 U.S. (10
Wheat.) 1, 42 (1825) (Marshall,C.J.)); see also A.L.A.
Schechter Poultry Corp. v. United States, 295 U.S.

331a
495, 529 (1935) (“The Congress is not permitted to abdicate or to transfer to others the essential legislative
functions with which it is vested.”).
If Congress wants to enact a new order of preferences, it must follow the constitutional demands of
presentment and bicameralism. See U.S. CONST. art.
I, § 1; id. § 7, cl. 2, 3; see also, e.g., Chadha, 462 U.S.
at 951 (“[T]he Framers were acutely conscious that
the bicameral requirement and the Presentment
Clauses would serve essential constitutional functions.”). But § 1915(c) orchestrates their evasion.
Just as Congress cannot authorize laws to be
amended by a single chamber, see Chadha, 462 U.S.
at 959, or by the President, see Clinton v. City of New
York, 524 U.S. 417, 447–48 (1998), it may not empower laws to be rewritten by an outside entity. For
instance, in Metropolitan Washington Airports Authority v. Citizens for the Abatement of Aircraft Noise,
Inc., 501 U.S. 252, 276 (1991), Congress established a
Board of Review, composed of nine members of Congress, that exercised veto power over a regional airport authority. The Court held the Board’s authority
was an unconstitutional delegation of federal power:
Congress may “act with conclusive effect” only
“through enactment by both Houses and presentment
to the President.” Id. at 275 n.19 (quoting Bowsher,
478 U.S. at 759 (Stevens, J., concurring in the judgment)). If Congress could delegate such authority to
another entity, “it would be able to evade the carefully
crafted restraints spelled out in the Constitution.” Id.

332a
at 275 n.20 (quoting Bowsher, 478 U.S. at 755 (Stevens, J., concurring in the judgment)).135
These principles bar the delegated authority exercised by a tribe under § 1915(c). In § 1915(a) and (b),
Congress set forth a statutory order of preferences for
placing Indian children, but § 1915(c) gives tribes the
authority by “resolution” to overrule this order. The
tribe can thereby “amend[] the standards” Congress
enacted, Chadha, 462 U.S. at 954, sapping them of “legal force or effect,” Clinton, 524 U.S. at 438. As a result, a state court or agency must no longer follow the
priorities voted on by Congress and signed by the
President in adjudicating an Indian child’s placement.
Instead they “shall follow” the tribe’s priorities.
§ 1915(c). Whether Congress “intended such a result”
is “of no moment.” Clinton, 524 U.S. at 445-46. Congress cannot validly enact something called “Public
Law [95-608] as modified by [an Indian child’s tribe].”
Id. at 448. The Constitution bars Congress from authorizing action that “alter[s] the legal rights, duties,
and relations of persons . . . outside the Legislative

135
JUDGE DENNIS suggests that, by discussing the Constitution’s presentment and bicameralism requirements, we have
sua sponte raised an issue not addressed by the district court or
the parties. DENNIS OP. at 132. Not so. Nondelegation, presentment, and bicameralism are interrelated doctrines, as JUDGE
DENNIS himself recognizes. See id. (stating that the nondelegation inquiry “already accounts for bicameralism and presentment”) (citing, inter alia, John F. Manning, The Nondelegation
Doctrine as a Canon of Avoidance, 2000 SUP. CT. REV. 223, 240
(2000)).

333a
Branch.” Metro. Wash. Airports, 501 U.S. at 276
(quoting Chadha, 462 U.S. at 951).136
Finally, even assuming § 1915(c) delegates only
regulatory—as opposed to legislative—authority, it is
still unconstitutional because it delegates that authority outside the federal government. “By any measure, handing off regulatory power to a private entity
is ‘legislative delegation in its most obnoxious form.’”
Dep’t of Transp. v. Ass’n of Am. R.R., 575 U.S. 43, 62
(2015) (Alito, J., concurring) (quoting Carter v. Carter
Coal Co., 298 U.S. 238, 311 (1936)); see also, e.g., Gary
Lawson, Delegation and Original Meaning, 88 VA. L.
REV. 327, 351–53 (2002) (explaining that delegating
executive power to non-federal actors violates Article
II Appointments and Take-Care Clauses). An Indian
tribe is “not part of the Government at all,” which
“would necessarily mean that it cannot exercise . . .
136
JUDGE DENNIS tries to compare § 1915(c) to federal
laws that “set a default standard that applies unless another
party chooses to act.” DENNIS OP. at 134. The cited laws, however, empower agencies or other government actors only to grant
waivers from otherwise applicable requirements, not to re-write
enacted statutes. See id. at 134–35 (citing, inter alia, 16 U.S.C.
§ 1536(h)(1), allowing a committee to “grant an exemption” from
certain requirements of the Endangered Species Act). Indeed,
one of the cases JUDGE DENNIS cites upheld a similar waiver provision against a nondelegation challenge in part because “the
Secretary ha[d] no authority to alter the text of any statute, repeal
any law, or cancel any statutory provision, in whole or in part.”
Def. of Wildlife v. Chertoff, 527 F. Supp. 2d 119, 124 (D.D.C. 2007)
(addressing Secretary of Homeland Security’s authority to waive
federal environmental law under the REAL ID Act of 2005) (emphasis added). Unlike the waiver provisions JUDGE DENNIS cites,
§ 1915(c) empowers tribes to “alter the text” of the placement
preferences Congress enacted in § 1915(a) and (b).

334a
governmental power.” Ass’n of Am. R.R., 575 U.S. at
1253 (Thomas, J., concurring). To be sure, Indian
tribes are often described as “possessing attributes of
sovereignty,” United States v. Mazurie, 419 U.S. 544,
557 (1975) (citing Worcester, 31 U.S. at 557), but this
sovereignty has “‘a unique and limited character’ . . .
center[ed] on the land held by the tribe and on tribal
members within the reservation.” Plains Commerce
Bank v. Long Family Land & Cattle Co., 554 U.S. 316,
327 (2008) (quoting United States v. Wheeler, 435 U.S.
313, 323 (1978) and citing Mazurie, 419 U.S. at 557).
As relevant here, Indians have no sovereignty over
non-Indians and no sovereignty over state proceedings. See, e.g., Plains Commerce Bank, 554 U.S. at 330
(“[E]fforts by a tribe to regulate nonmembers, especially on non-Indian fee land, are ‘presumptively invalid.’”) (quoting Atkinson Trading Co. v. Shirley, 532
U.S. 645, 659 (2001)); see also infra (discussing this
proposition in greater detail).137
137

JUDGE DENNIS counters that § 1915(c) is like “long approved” federal laws “that permit another sovereign to supply
key aspects of the law”—for instance, when 42 U.S.C. § 1983 incorporates a state limitations period. DENNIS OP. at 136. We
disagree. Section 1915(c) permits tribes, not merely to “supply
key aspects of the law,” but to change the order of preferences
Congress enacted. Supplementing § 1983 actions with state limitations periods is a different animal. Congress “endorse[d] the
borrowing of state-law limitations provisions” in § 1988, but only
“where doing so is consistent with federal law.” Owens v. Okure,
488 U.S. 235, 239 (1989). It is one thing for a state statute to
supplement an otherwise-silent federal provision; it is quite another for a state (or a tribe) to alter the provisions of enacted federal law. In a similar vein, JUDGE DENNIS also cites federal laws
supposedly delegating to “separate sovereign[s]” authority to
change “the federal standard in matters related to the sovereign’s jurisdiction.” DENNIS OP. at 134–35 (emphasis omitted)

335a
In sum, § 1915(c) violates the nondelegation doctrine, either because it delegates Congress’s lawmaking function or because it delegates authority to entities outside the federal government altogether.
2.
Defendants’ arguments to the contrary are unavailing.
Defendants first argue that § 1915(c) is not a delegation at all but only another example of Congress’s
adopting the laws of another sovereign. For example,
they rely on United States v. Sharpnack, 355 U.S. 286
(1958), which upheld the Assimilative Crimes Act
(“ACA”) against a nondelegation challenge. Applying
to federal enclaves, the ACA criminalizes actions that
“would be punishable . . . within the jurisdiction of the
State, Territory, Possession, or District in which such
place is situated.” Id. at 287–88; see 18 U.S.C. § 13(a).
“Rather than being a delegation by Congress of its legislative authority to the States,” Sharpnack held this
practice is “a deliberate continuing adoption by Congress for federal enclaves” of crimes that “have been
already put in effect by the respective States.” 355
U.S. at 294.
Defendants contend ICWA § 1915(c) merely follows the pattern of the ACA by incorporating another
sovereign’s law. We disagree. The ACA’s strategy is
to “borrow[] state law to fill gaps in the federal criminal law on enclaves.” Parker Drilling Mgmt. Servs.,
(citing, e.g., 20 U.S.C. § 1415(b)(6)(B), allowing state law to set
time limitation for bringing an IDEA administrative claim). This
again misses the point. None of these laws allows a different
sovereign to alter the text of enacted federal law.

336a
Ltd. v. Newton, 139 S. Ct. 1881, 1891 (2019) (cleaned
up). Section 1915(c) of ICWA does not “fill gaps” in
federal law; it empowers tribes to change federal law.
Cf., e.g., Lewis, 523 U.S. at 160 (explaining the ACA
fills gaps only “where Congress has not defined the
missing offenses”) ( cleaned up). Moreover, the Supreme Court has clarified that the ACA cannot adopt
state laws that “effectively rewrite an offense definition that Congress carefully considered.” Id. at 164
(citing Williams v. United States, 327 U.S. 711, 718
(1946)). As a result, the ACA’s “continuing adoption”
of state law does not evade the Constitution’s lawmaking requirements. ICWA does: § 1915(c) contemplates that tribal “resolution[s]” will supersede law already enacted in §§ 1915(a) and (b).138
Defendants next rely on United States v. Mazurie.
That decision addressed whether, pursuant to a federal statute, a tribe could regulate alcohol sales on
non-Indian fee lands within the boundaries of its reservation. 419 U.S. at 546–48. The Supreme Court
held the tribe could do so on two grounds. First, limitations on delegating legislative power are “less stringent in cases where the entity exercising the delegated authority itself possesses independent authority over the subject matter.” Id. at 556 (citing United
States v. Curtiss-Wright Export Corp., 299 U.S. 304,
319–22 (1936)). Second, “tribes are unique aggregations possessing attributes of sovereignty over both
138
The same may be said for the Federal Tort Claims Act
(“FTCA”), on which Defendants also rely. The FTCA makes the
United States liable in tort “in accordance with the [state] law of
the place where the act or omission occurred.” 28 U.S.C.
§ 1346(b)(1). Like the ACA, the FTCA completes the federal
framework by adopting state law.

337a
their members and their territory,” which empowers
them to “regulate[] their internal and social relations.” Mazurie, 419 U.S. at 557 (citing Worcester, 31
U.S. at 557; Kagama, 118 U.S. at 381–82; McClanahan v. Ariz. State Tax Comm’n, 411 U.S. 164, 173
(1973)). Mazurie does not apply to § 1915(c) for three
reasons.
First, Indian tribes lack “independent authority”
over off-reservation matters. The Supreme Court—
citing Mazurie—has held that tribes’ “unique and limited” sovereignty “centers on the land held by the tribe
and on tribal members within the reservation.”
Plains Commerce Bank, 554 U.S. at 330 (citing Mazurie, 419 U.S. at 557). Section 1915(c), however, empowers tribes to alter placement preferences with respect to off-reservation activities. Second, tribes have
only sharply limited authority over nonmembers. See,
e.g., Montana v. United States, 450 U.S. 544, 565
(1981) (holding a tribe’s “inherent sovereign powers
. . . do not extend to the activities of nonmembers of
the tribe”). Section 1915(c), however, empowers tribes
to affect the rights of non-Indian foster and adoptive
parents. Third, and most importantly, Mazurie does
not even hint that tribes have authority to bind state
courts and agencies. To the contrary, the statute in
Mazurie explicitly provided that tribal ordinances
could be promulgated only “so long as state law was
not violated.” 419 U.S. at 547 (citing 18 U.S.C.
§ 1161). Thus, Mazurie could not support the proposition that Congress can delegate to a tribe authority

338a
to bind state courts or agencies. Defendants cite no
other authority for that unheard-of proposition.139
***
For these reasons, we hold that § 1915(c) and its
implementing regulations unconstitutionally delegate
federal legislative power.
D. Administrative Procedure Act
We now consider whether the Final Rule violates
the APA. The district court held it did for three reasons. First, the court set aside the parts of the Final
Rule that implement the statutory provisions the
court found unconstitutional.
Brackeen, 338
F.Supp.3d at 541-41. Second, in the alternative the
court found the BIA exceeded its authority by issuing
regulations binding on state courts. Id. at 542-44. See
81 Fed. Reg. at 38,785–86. Third, the court separately
found invalid 25 C.F.R. § 23.132(b), which requires
that “good cause” to depart from the placement preferences be proved by clear and convincing evidence.
Id. at 544-46. The panel reversed. Brackeen, 937 F.3d
at 437–41. It found ICWA constitutional, id. at 437,
139
JUDGE DENNIS suggests that, regardless of a tribe’s inherent sovereignty, Congress can extend a tribe’s jurisdiction
over state proceedings through “express authorization” in a federal statute or treaty. DENNIS OP. at 128 (quoting Strate v. A-1
Contractors, 520 U.S. 438, 445 (1997)). No authority supports
that proposition. The case JUDGE DENNIS cites addresses, like
Mazurie, only whether Congress may authorize tribes to exercise
authority over nonmembers within their reservations. See Bugenig v. Hoopa Valley Tribe, 266 F.3d 1201, 1223 (9th Cir. 2001)
(en banc) (upholding federal statute that “ratified” tribe’s governing documents giving it power to regulate reservation property,
including nonmembers’ property).

339a
and the BIA’s interpretive views entitled to Chevron
deference, id. at 438–41.
We review the agency’s interpretation of ICWA
under the two-step framework from Chevron, USA,
Inc. v. Natural Resources Defense Council, Inc., 467
U.S. 837 (1984); see generally, e.g., Sw. Elec. Power
Co., 920 F.3d at 1014 (discussing Chevron). At step
one, we ask “whether Congress has directly spoken to
the precise question at issue.” Chevron, 467 U.S. at
842. We answer that question by “exhaust[ing] all the
‘traditional tools’ of construction,” including “text,
structure, history, and purpose.” Kisor v. Wilkie, 139
S. Ct. 2400, 2415 (2019) (quoting Chevron, 467 U.S. at
843 n.9; Pauley v. BethEnergy Mines, Inc., 501 U.S.
680, 707 (1991) (Scalia, J., dissenting)). If that holistic
reading of the statute settles the matter, Chevron
ends: we “must give effect to the unambiguously expressed intent of Congress.” Chevron, 467 U.S. at
842–43. On the other hand, if the statute is “truly ambiguous” on the question, Kisor, 139 S. Ct. at 2414, we
proceed to step two, “asking whether the agency’s construction of the statute is ‘permissible.’” Sw. Elec.
Power Co., 920 F.3d at 1014 (quoting Chevron, 467
U.S. at 843). A permissible construction is one that
“reasonabl[y] accommodat[es] . . . conflicting policies
that were committed to the agency’s care by the statute.” Chevron, 467 U.S. at 845 (quoting United States
v. Shimer, 367 U.S. 374, 382 (1961)).
1.
Having found parts of ICWA unconstitutional (supra III(A)–(C)), we agree with the district court that
the Final Rule is invalid to the extent it implements
those unconstitutional statutory provisions.
See

340a
Brackeen, 338 F.Supp.3d at 541–42; see also 5 U.S.C.
§ 706(2)(A) (authorizing courts to set aside “unlawful”
agency action); see also F.C.C. v. Fox Television Stations, Inc., 556 U.S. 502, 516 (2009) (explaining “unlawful” agency action “includes unconstitutional action”); Texas v. United States, 497 F.3d 491, 500–01
(5th Cir. 2007) (observing “[t]he authority of administrative agencies is constrained by the language of the
statutes they administer”) (citing Massachusetts v.
EPA, 549 U.S. 497, 532 (2007)). In the alternative, we
address below the more specific grounds on which the
district court concluded the Final Rule was unlawful.
2.
The district court found the Final Rule invalid because it purports to bind state courts’ implementation
of ICWA. Its ruling appears to rely on both Chevron
step one and two. See Brackeen, 338 F.Supp.3d at
542–44. Defending the ruling on appeal, Individual
Plaintiffs focus on step two, arguing the BIA’s “novel
interpretation” of its authority in the Final Rule—
which reverses BIA’s position in the 1979 guidelines—
does not merit Chevron deference. See Chamber of
Commerce v. U.S. Dep’t of Labor, 885 F.3d 360, 380–
81 (5th Cir. 2018) (treating this “novel interpretation”
argument under Chevron step two). We resolve this
question under step two. Therefore, we assume ICWA
is “silent or ambiguous” on whether the BIA has authority to bind state courts. Chevron, 467 U.S. at 843.
We ask only whether the BIA’s 2016 stance is a “permissible construction of the statute.” Id.
In 1979, mere months after enactment, the BIA
emphatically concluded that ICWA did not authorize
the agency to bind state courts’ implementation of the

341a
statute. 44 Fed. Reg. at 67,584. It would be “an extraordinary step,” the BIA wrote, “[f]or Congress to assign to an administrative agency such supervisory
control over courts.” Id. The agency recognized that
§ 1952 authorized it to issue rules “necessary to carry
out [ICWA].” Id. But § 1952, the BIA explained, allowed it to make binding rules only for those parts of
ICWA delegating interpretive responsibility to the
Secretary of the Interior. Id.140 “Nothing” in the section’s text or history, however, suggested Congress
wanted the agency to “exercise supervisory control
over state or tribal courts or to legislate for them with
respect to Indian child custody matters.” Id. The
agency declined to attribute to Congress “a measure
so at odds with concepts of both federalism and separation of powers . . . in the absence of an express declaration of Congressional intent to that effect.” Id. After operating with this understanding for 37 years,
however, the agency reversed course in 2016, determining that § 1952 authorizes it to “set binding standards for Indian child-custody proceedings in State
courts.” 81 Fed. Reg. at 38,785.
When an agency abruptly departs from a
longstanding position, its “‘current interpretation . . .
is entitled to considerably less deference.’” Chamber
of Commerce, 885 F.3d at 381 (quoting Watt v. Alaska,
140
As an example, the agency cited § 1918, under which
“the Secretary is directed to determine whether a plan for reassumption of jurisdiction is ‘feasible’ as that term is used in the
statute.” 44 Fed. Reg. at 67,584. The agency noted it had already
promulgated regulations covering this section as well as “other
areas where primary responsibility for implementing portions of
the Act rest with this Department.” Id. (citing 44 Fed. Reg.
45,092 (July 31, 1979)).

342a
451 U.S. 259, 272–73 (1981)). Here, the agency
“claims to discover in a long-extant statute an unheralded power” of binding state courts’ implementation
of ICWA, and so we “greet its announcement with a
measure of skepticism.” Util. Air Regul. Grp. v. EPA,
573 U.S. 302, 324 (2014) (“UARG”). Indeed, BIA’s
“turnaround” from its previous stance “alone gives us
reason to withhold approval or at least deference for
the Rule.” Chamber of Commerce, 885 F.3d at 381 (citing Gen. Elec. Co. v. Gilbert, 429 U.S. 125, 142 (1976)).
This principle is especially prescient where, as here,
the agency’s new position is “not a contemporaneous
interpretation of [ICWA]” and “flatly contradicts the
position which the agency had enunciated at an earlier date, closer to the enactment of the governing
statute.” Id. (quoting Gilbert, 429 U.S. at 142); see
also Udall v. Tallman, 380 U.S. 1, 16 (1965) (giving
“particular[] . . . respect” to the “contemporaneous
construction of a statute by the men charged with the
responsibility of setting its machinery in motion”)
(cleaned up). To be sure, an agency’s changing its
mind does not alone defeat Chevron deference. See,
e.g., Gonzalez-Veliz v. Barr, 938 F.3d 219, 234 (5th
Cir. 2019) (“An agency is not permanently bound to
the first reasoned decision that it makes.”). But the
agency must “show that there are good reasons for the
new policy” by providing a “reasoned explanation” for
departing from its previous position. Encino Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2126 (2016)
(quoting Fox Television Stations, 556 U.S. at 515–
16).141 The BIA has failed to do so here.
141

JUDGE DENNIS criticizes us for including the agency’s
reversal “as a component of Chevron step two.” DENNIS OP. at
143. As our discussion shows, however, both our court and the

343a
The 1979 BIA explained that empowering a federal agency to control state courts would be an “extraordinary” subversion of federalism and separation
of powers. 44 Fed. Reg. at 67,584. BIA’s 2016 response
to this point can charitably be described as anemic.
The agency now says it “reconsidered” its 1979 view
because “Congress enacted ICWA to curtail State authority in some respects,” including state court authority. 81 Fed. Reg. at 38,788–89. But that fails to
address the serious question central to the agency’s
1979 position—namely, whether Congress intended
the BIA to control state courts. The agency also now
points out that Congress can “pass laws enforceable in
state courts.” Id. at 38,789 (citing, inter alia, Testa,
330 U.S. at 394). But that settled principle long predates the 1979 guidelines and, again, says nothing
about whether a federal agency can control state
courts. Moreover, as discussed, the Final Rule also
purports to control state agencies, supra III(B)(1),
which raises anti-commandeering problems the BIA
Supreme Court have considered under Chevron step two an
agency’s reversal-of-position, as well as its belated discovery of
novel authority in statutes it has long administered. See Encino
Motorcars, 136 S. Ct. at 2125–26; UARG, 573 U.S. at 324; Chamber of Commerce, 885 F.3d at 380–81, 387; see also, e.g., Environmental Integrity Project v. EPA, 969 F.3d 529, 544 (5th Cir. 2020)
(explaining “we take the agency’s change of position into account”
in deciding whether to apply Skidmore deference). JUDGE DENNIS himself concedes that, when assessing an agency’s reading of
a statute, “Chevron deference may be withheld if the agency
failed to adequately explain why it shifted to its current interpretation.” DENNIS OP. at 142 (citing Encino Motorcars, 136 S.
Ct. at 2125). That is the question we confront here—whether the
BIA failed to justify its discovery in § 1952 of authority whose
existence it had denied for the prior forty years.

344a
ignores. The BIA also invokes Congress’s “plenary
power over Indian affairs,” 81 Fed. Reg. at 38,789, but
we have explained that mouthing that shibboleth is
not enough to override state sovereignty. Supra II(A).
Finally, purportedly addressing the “Federalism concerns it noted in 1979,” the BIA now cites the Supreme
Court’s Brand X decision. 81 Fed. Reg. at 38,789 (citing Nat’l Cable & Telecomm. Ass’n v. Brand X Internet
Servs., 545 U.S. 967, 983 (2005)). But Brand X has
nothing to do with federalism; rather, it addresses
when a federal court’s interpretation of a statute may
deny Chevron deference to a federal agency’s later interpretation. See id. at 982 (holding federal court
trumps if “its construction follows from the [statute’s]
unambiguous terms”).
The 1979 BIA also concluded that neither § 1952’s
language or history showed Congress gave the agency
supervisory power over state courts. 44 Fed. Reg. at
67,584. The agency reasoned that, by authorizing
rules “necessary to carry out” ICWA, § 1952 only empowered the BIA to issue regulations “to carry out the
responsibilities Congress had assigned to [the Department] under [ICWA].” Id. BIA’s 2016 response fails to
engage this reasoning. It merely says that § 1952 is a
“broad and general grant of rulemaking authority”
and that courts have held that similar provisions “presumptively authorize agencies to issue rules and regulations addressing matters covered by the statute.”
81 Fed. Reg. at 38,786. That ducks the point entirely.
No one doubts the language in § 1952 authorizes
agency rulemaking. See, e.g., Mourning v. Family
Pub. Serv., 411 U.S. 356, 369 (1973). The 1979 BIA
asked a different question: whether § 1952 authorizes

345a
regulations that bind state courts in state proceedings. See 44 Fed. Reg. at 67,584 (“Nothing in the language or legislative history of § 1952 compels the conclusion that Congress intended to vest this Department with such extraordinary power.”). No case cited
by the 2016 BIA confronts that question.142 Only
one—AT&T Corp. v. Iowa Utilities Board—even
comes close, but it holds only that a federal agency can
control a state commission’s participation in a federal
telecommunications regime. See 525 U.S. 366, 378 n.6
(1999) (asking whether “the state commissions’ participation in the administration of the new federal regime is to be guided by federal-agency regulations”).
Here we have the opposite question: whether a federal agency can control state courts and agencies acting under state jurisdiction. The 1979 BIA concluded
ICWA did not intend that “extraordinary step,” 44
Fed. Reg. at 67,584, and the 2016 BIA offers no reason
whatsoever for thinking otherwise.
Finally, the BIA defends its new approach as
needed to harmonize “sometimes conflicting” state
court interpretations of ICWA over past decades. 81
142
See 81 Fed. Reg. at 38,785 (citing AT&T Corp. v. Iowa
Utils. Bd., 525 U.S. 366, 378 (1999); Am. Hosp. Ass’n v. Nat’l Labor Relations Bd., 499 U.S. 606, 609–10 (1991); Mourning, 411
U.S. at 369; City of Arlington v. FCC, 133 S. Ct. 1863, 1874
(2013); Qwest Comm’ns Int’l Inc. v. FCC, 229 F.3d 1172, 1179
(D.C. Cir. 2000)). Of these cases, JUDGE DENNIS focuses on
Mourning because the agency-empowering language there was
“nearly identical” to § 1952. DENNIS OP. at 141 & n.65. That is
irrelevant, however, because Mourning did not address a federal
agency’s power over state courts or agencies; instead, it addressed the scope of the Federal Reserve Board’s power to prevent merchants from evading certain Truth in Lending Act disclosure requirements. 411 U.S. at 361–62.

346a
Fed. Reg. at 38,782. Merely because state courts have
sometimes disagreed about ICWA, however, says
nothing about whether Congress empowered the BIA
to control how state courts interpret it. Cf. 44 Fed.
Reg. at 67,584 (stating 1979 BIA’s view that state
courts “are fully capable of carrying out the[ir] responsibilities [under ICWA] without being under the direct
supervision of this Department”). Regardless, the
BIA’s 2016 examples hardly show the “necessity” for
such authority. Its prime example is that some courts
created an “existing Indian family” exception to
ICWA.143 But, as the agency admits, the exception
was repudiated by the court that created it, is now recognized by “[o]nly a handful” of courts, and has been
rejected by a “swelling chorus” of others. 81 Fed. Reg.
at 38,801–02.
Also unpersuasive is the BIA’s reliance on Holyfield. Id. at 38,786. Holyfield held that Congress did
not intend state law to define the term “domicile” in
ICWA § 1911, which gives tribes sole jurisdiction over
on-reservation children. 490 U.S. at 44–47. The BIA
claims that, in 1979, it lacked “the benefit of the Holyfield Court’s carefully reasoned decision” showing how
ICWA could be undermined by “a lack of uniformity”
among state courts. 81 Fed. Reg. at 38,787. That does
not hold water. Holyfield pitted one state court’s errant interpretation of ICWA against correct interpretations by “several other state courts”—hardly an interpretive crisis. 490 U.S. at 41 & n.14. Moreover, the

143
See 81 Fed. Reg. 38782 (citing, e.g., Thompson v. Fairfax Cty. Dep’t of Family Servs., 747 S.E.2d 838, 847–48 (Va. Ct.
App. 2013)).

347a
case involved ICWA’s “key jurisdictional provision” dividing tribal from state authority, id. at 45, not any
provision governing how state courts apply ICWA. Cf.
44 Fed. Reg. at 67,584 (1979 BIA disclaiming authority over provisions concerning “the responsibilities of
state or tribal courts under the Act”). And Holyfield
was on the books for 27 years before BIA claimed the
decision inspired its 2016 policy change. 81 Fed. Reg.
at 38,787. We treat that late-breaking revelation
“with a measure of skepticism.” UARG, 573 U.S. at
324.
We therefore conclude the 2016 Rule fails to provide a “reasoned explanation”144 for reversing the
agency’s nearly forty-year-old interpretation of § 1952
and discovering novel authority to bind state courts.
Encino Motorcars, 136 S. Ct. at 2126 (quoting Fox Television Stations, 556 U.S. at 515–16). “An arbitrary
and capricious regulation of this sort is itself unlawful
and receives no Chevron deference.” Id. (citing United
States v. Mead Corp., 533 U.S. 218, 227 (2001)).

144
JUDGE DENNIS disagrees, arguing the BIA needed to
provide only a “minimal level of analysis” for its new position.
DENNIS OP. at 146 (quoting Encino Motorcars, 136 S. Ct. at
2125). But that is not the standard. When agencies “change
their existing policies,” they must “provide a reasoned explanation for the change.” Encino Motorcars, 136 S. Ct. at 2125; see
also id. (explaining “a reasoned explanation is needed for disregarding facts and circumstances that underlay or were engendered by the prior policy”) (quoting Fox Television Stations, 556
U.S. at 515–16). As explained, the 2016 BIA has not provided a
“reasoned explanation” for its about-face. It has provided a series
of non sequiturs.

348a
3.
The district court separately invalidated 25 C.F.R.
§ 23.132(b), part of the Final Rule that interprets the
“good cause” standard in § 1915. That provision mandates specific placements for Indian children “in the
absence of good cause to the contrary.” See § 1915(a),
(b). In turn, the Final Rule states: “The party seeking
departure from the placement preferences should
bear the burden of proving by clear and convincing evidence that there is ‘good cause’ to depart from the
placement preferences.” 25 C.F.R. § 23.132(b) (emphasis added); see also 81 Fed. Reg. at 38,844. The
district court invalidated this part of the rule under
Chevron step one, concluding it imposes a heightened
burden of proof on § 1915 without statutory warrant.
Brackeen, 338 F.Supp.3d at 545-46. We agree.
The step one inquiry is whether the statute unambiguously forecloses the agency’s interpretation—
here, specifying a heightened burden for proving “good
cause” under § 1915. That section says nothing about
a burden of proof, as the BIA admits. See 81 Fed. Reg.
at 38,843 (noting the clear-and-convincing standard
“is not articulated in section 1915”). The presumption, then, is that the section incorporates, not a
heightened standard of proof, but the normal preponderance standard. See, e.g., Grogan v. Garner, 498
U.S. 279, 286 (1991) (statutory “silence” is “inconsistent with the view that Congress intended to require a special, heightened standard of proof”). But
we need not rely solely on that presumption: at step
one, we look beyond the “particular statutory provision in isolation” and read the statute “as a symmetrical and coherent regulatory scheme.” Sw. Elec.
Power Co., 920 F.3d at 1023 (cleaned up). Doing so,

349a
we find that Congress imposed a “clear and convincing
evidence” standard in a nearby provision: § 1912(e)
forbids foster placement unless “clear and convincing
evidence” shows likely harm from the parent’s continued custody. The next subsection, § 1912(f), demands
an even higher showing—“beyond a reasonable
doubt”—before terminating the parent’s rights. Congress thus deliberately included heightened standards for proving certain matters in § 1912(e) and (f),
but not for proving “good cause” in § 1915.145 We thus
conclude Congress elected not to impose a heightened
standard in § 1915, foreclosing the agency’s interpretation at Chevron step one. See Chamber of Commerce, 885 F.3d at 369 (when statute “unambiguously
forecloses” agency interpretation, “that is the end of
the matter”) (quoting Chevron, 467 U.S. at 842–43)
(cleaned up).
JUDGE DENNIS suggests this “negative-implication” canon of statutory construction does not apply
when assessing the permissible scope of agency action. DENNIS OP. at 148–49. See generally Jennings
v. Rodriguez, 138 S. Ct. 830, 844 (2018) (discussing
negative-implication or expressio unius est exclusio alterius canon) (citing SCALIA & GARNER, READING LAW
107 (2012)). We disagree. Courts are to use “all the
‘traditional tools’ of construction” at Chevron step one.
Kisor, 139 S. Ct. at 2415 (quoting Chevron, 467 U.S.
at 843 n.9). And both the Supreme Court and our
145
See Keene Corp. v. United States, 508 U.S. 200, 208
(1993) (“‘[W]here Congress includes particular language in one
section of a statute but omits it in another . . ., it is generally
presumed that Congress acts intentionally and purposely in the
disparate inclusion or exclusion.’”) (quoting Russello v. United
States, 464 U.S. 16, 23 (1983)).

350a
court have deployed the negative-implication canon in
the step one analysis.146 The Chevron cases JUDGE
DENNIS cites—which in any event are all out-of-circuit—merely show that the canon sometimes does not
resolve step one. For instance, by including an agency
mandate in one section but not another, Congress
“may simply not have been focusing on the point in
the second context” and so left “the choice . . . up to the
agency.” Clinchfield Coal Co. v. Fed. Mine Safety &
Health Rev. Comm’n, 895 F.2d 773, 779 (D.C. Cir.
1990); see also, e.g., Catawba County v. EPA, 571 F.3d
20, 36 (D.C. Cir. 2009). There is no evidence of that
here, however. To the contrary, Congress explicitly
mandated heightened standards-of-proof in sections
addressing foster and adoptive placements (§ 1912(e)
and (f)), but not in a nearby section (§ 1915) addressing departures from placement preferences. Far from
suggesting Congress left the standard-of-proof up to
the agency, this pattern “signals the intentional omission” of a heightened standard from § 1915, a decision
the agency cannot second-guess. Chamber of Commerce, 885 F.3d at 373 (citing Russello, 464 U.S. at
23).
Sitting this debate out, the Federal Defendants’
sole response is that the Final Rule suggests but does
not require the clear-and-convincing-evidence standard. They argue that § 23.132(b) says only that courts
146
See, e.g., Barnhart v. Sigmon Coal Co., Inc., 534 U.S.
438, 452 (2002); Brown v.Gardner, 513 U.S. 115, 120 (1994);
Acosta v. Hensel Phelps Constr. Co., 909 F.3d 723, 732 (5th Cir.
2018); Chamber of Commerce, 885 F.3d at 373; Luminant Generation Co., LLC v. EPA, 675 F.3d 917, 929 (5th Cir. 2012); Miss.
Poultry Ass’n, Inc. v. Madigan, 992 F.2d 1359, 1363–64 & n.29
(5th Cir. 1993).

351a
“should” impose that standard, and also point out that
the regulations state the rule “does not categorically
require [it]” and “declines to establish a uniform
standard of proof.” 81 Fed. Reg. 38,843. We are unsure what to make of this strange argument. The Final Rule’s whole purpose was to impose “uniformity”
on state courts, id. at 38,779, and the term “should”
often “create[s] mandatory standards.” Should, GARNER’S DICTIONARY OF LEGAL USAGE (3d ed. 2011).
Moreover, the state courts hearing Plaintiffs’ cases
have not read the rule as a mere suggestion. Thus,
whatever credence we might give to the Federal Defendants’ view, we would still find the rule invalid at
step one because it seeks to create (and has in fact created) a heightened standard-of-proof in contravention
of § 1915.
Alternatively, we would find this part of the rule
invalid at Chevron step two. As discussed above, we
view with “skepticism” an agency’s departure from
longstanding practices, especially those adopted contemporaneously with the statute’s enactment. Chamber of Commerce, 885 F.3d at 381 (quoting UARG, 573
U.S. at 324); supra III(D)(1). The BIA’s 2016 treatment of the § 1915 “good cause” determination is
strikingly at odds with its 1979 position. In 1979, the
BIA wrote that ICWA’s “use of the term ‘good cause’
was designed to provide state courts with flexibility in
determining the disposition of a placement proceeding
involving an Indian child.” 44 Fed. Reg. at 67,484.
This supported BIA’s position that “[p]rimary responsibility for interpreting” ICWA’s language “rests with
the courts that decide Indian child custody cases.” Id.
In 2016, BIA did a 180-degree reversal—seeking to

352a
impose a one-size-fits-all standard on what it previously stated was a “flexible” inquiry—without giving
the “reasoned explanation” needed to justify discarding a longstanding agency view. Gonzalez-Veliz, 938
F.3d at 234 (quoting Encino Motorcars, 136 S. Ct. at
2126). The agency’s sole justification was that state
courts have “almost universally” adopted this standard. 81 Fed. Reg. at 38,843. But that undermines the
agency’s position. A near-consensus by state courts in
applying the statute—one they have “primary responsibility” for administering, 44 Fed. Reg. at 67,487—
hardly justifies the BIA’s newfound view that it must
impose uniformity on those same courts.
E. Remedy
We now address the question of remedy. Plaintiffs’ second amended complaint, the one operative
here, sought a declaration that specific sections of
ICWA are unconstitutional and an injunction prohibiting the Federal Defendants from implementing or
administering those sections. It also sought vacatur
of the Final Rule. The district court, however, granted
only declaratory relief as to specific provisions of
ICWA and the Final Rule, and Plaintiffs have not
cross-appealed seeking to modify the district court’s
judgment. See, e.g., Cooper Indus., Ltd. v. Nat’l Union
Fire Ins. Co. of Pittsburgh, Pa., 876 F.3d 119, 127 (5th
Cir. 2017) (explaining that “even a prevailing party
must file a cross-appeal to seek a modification of a
judgment”) (citing Ward v. Santa Fe Indep. Sch. Dist.,
393 F.3d 599, 604 (5th Cir. 2004)). Having found discrete parts of ICWA and the Final Rule unconstitutional and unlawful, we would therefore affirm the
district court’s judgment to that extent. Specifically:
(1) we would declare that the noted sections of ICWA

353a
are unconstitutional;147 and (2) we would declare that
the noted provisions of the Final Rule are unlawful
under § 706 of the APA.148
Finally, a word about severability. The modern
Supreme Court applies a “severability doctrine” to determine whether invalid parts of a statute may be excised from the rest. See, e.g., Free Enter. Fund, 561
U.S. at 508 (“‘Generally speaking, when confronting a
constitutional flaw in a statute, we try to limit the solution to the problem,’ severing any ‘problematic portions while leaving the remainder intact.’”) (quoting
Ayotte v. Planned Parenthood of Northern New Eng.,
546 U.S. 320, 328–29 (2006)). For at least two reasons, however, we need not perform that analysis
here.
First, Plaintiffs do not challenge all of ICWA but
only particular provisions. We can therefore grant
Plaintiffs appropriate relief without delving into severability.149 In that way, this case differs from cases

147

Those are: (1) 25 U.S.C. §§ 1915(a), 1915(b), 1913(d),
1914 (equal protection); (2) 25 U.S.C. §§ 1912(a), 1912(d),
1912(e), 1912(f), 1915(a), 1915(b), 1915(e), 1951(a) (anti-commandeering); and (3) 25 U.S.C. § 1915(c) (nondelegation).
148
Those are: (1) all parts of the Final Rule that implement the ICWA provisions declared unconstitutional; (2) all
parts of the Final Rule that purport to bind state courts; and (3)
the requirement in 25 C.F.R. § 23.132(b) that good cause to depart from the placement preferences be proved “by clear and convincing evidence.”
149

See, e.g., 28 U.S.C. § 2201(a) (authorizing courts to “declare the rights and other legal relations of any interested party”
in “a case of actual controversy within its jurisdiction”); 5 U.S.C.
§ 706(2) (authorizing courts to “hold unlawful and set aside

354a
where deciding severability was necessary to fashion
appropriate relief. Cf., e.g., Barr v. Am. Ass’n of Pol.
Consultants, 140 S. Ct. 2335, 2349 (2020) (plaintiffs
invoked “ordinary severability principles” to argue for
complete relief on their First Amendment claim);
Seila Law LLC v. Consumer Fin. Prot. Bureau, 140 S.
Ct. 2183, 2208 (2020) (observing “[t]here is a live controversy between the parties on th[e] question [of severability], and resolving it is a necessary step in determining petitioner’s entitlement to its requested relief”). Second, the parties’ briefing contains little substantive analysis on this point. We decline to perform
a severability analysis of a complex statute like ICWA
when the parties have not deeply engaged with the issue.150

agency action, findings, and conclusions” under various circumstances).
150
Even were we so inclined, we note that ICWA contains
a severability clause. See 25 U.S.C. § 1963. In that event, “[a]t
least absent extraordinary circumstances, the Court should adhere to the text of the severability or nonseverability clause” because the clause “leaves no doubt about what the enacting Congress wanted if one provision of the law were later declared unconstitutional.” American Ass’n, 140 S. Ct. at 2349.

355a
PRISCILLA R. OWEN, Chief Judge, concurring in part,
dissenting in part.
I
A
I first consider whether the States have standing.
For the reasons articulated in JUDGE DENNIS’s and
JUDGE COSTA’s opinions,1 the States do not have
standing to assert in this suit that the Indian Child
Welfare Act of 1978 (ICWA)2 violates the Equal Protection Clause of the Fifth Amendment. As to all other
claims, I conclude that the States do have standing.
The States have asserted various, often overlapping, claims in Counts I through IV and Count VII of
the live complaint in the district court—the Second
Amended Complaint. Briefly summarized, the States
seek a determination that Congress did not have the
authority to supplant state law in child-welfare and
adoption cases with certain directives in ICWA, and
that Congress cannot require state courts to follow
ICWA. The States also contend that the Bureau of
Indian Affairs (BIA) violated the Administrative Procedure Act (APA) and the federal Constitution when
it promulgated the Final Rule (Count I). The States
contend that the Indian Commerce Clause did not empower Congress to enact certain provisions of ICWA
(Count II); that adoption, foster care, and pre-adoptive
placement of “Indian children” are not permissible
subjects of regulation under the Tenth Amendment
1

See DENNIS, J., concurring and dissenting, part I(A)(1),
p. 39 n.13; COSTA, J., concurring and dissenting, part I, p. 3 n.2.
2

25 U.S.C. §§ 1901-1923, 1951-1952.

356a
(Count III); that ICWA and the Final Rule violate
anti-commandeering principles under the Tenth
Amendment (Count III); that ICWA and the Final
Rule violate the Equal Protection Clause of the Fifth
Amendment (Count IV); and that ICWA and the Final
Rule violate the non-delegation doctrine of Article I,
Section 1 because they “delegate to Indian tribes the
legislative and regulatory power to pass resolutions in
each Indian child custody proceeding that alter the
placement preferences state courts must follow”
(Count VII).
The States complain about the costs of complying
with ICWA and the Final Rule, including the hours
and resources that child-welfare agencies expend,
costs borne by the States to employ experts, and the
time consumed in state-court proceedings resolving
ICWA issues. The States further contend they “are
directly and substantially injured by the delegation of
power over placement preferences because it violates
the Constitution’s separation of powers through abdication of Congress’s legislative responsibility and requires State Plaintiffs to honor the legislation and
regulation passed by tribes in each child custody matter, which can vary widely from one child to the next
and one tribe to another.”
The States have adequately alleged that they are
injured by ICWA and the Final Rule for standing purposes.3 The determinative question is whether those

3

See Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992)
(“[T]he plaintiff must have suffered an injury in fact—an invasion of a legally protected interest which is (a) concrete and par-

357a
injuries could be redressed if a federal court were to
grant the relief the States seek in this case.
The States seek a declaration that parts of ICWA
are unconstitutional and therefore that state rather
than federal law governs. To the extent the States are
seeking to supplant ICWA with state substantive and
procedural law in child-welfare proceedings, such a
declaration would not redress the States’ injuries because no state court would be bound by such a declaration.4 Every state court would, of course, be free to
decide the constitutionality of ICWA de novo because
the rulings of the federal district court and of this
court would not bind state courts and would not bind
private litigants in state court proceedings. For this
reason, the assertion in JUDGE DUNCAN’s opinion that
a decision of this court “would also remove state child
welfare officials’ obligations to implement [ICWA’s]
preferences”5 is, with great respect, incorrect.
The States contended in the district court that because various provisions of ICWA are unconstitutional, the federal government cannot require the
States to comply with those provisions and therefore
could not withhold federal funding for child welfare as

ticularized . . . and (b) actual or imminent, not conjectural or hypothetical.” (citations, footnote, and internal quotation marks
omitted)).
4

See Aransas Project v. Shaw, 775 F.3d 641, 648 (5th Cir.
2014) (per curiam) (“Redressability requires ‘a likelihood that the
requested relief will redress the alleged injury.’” (quoting Steel
Co. v. Citizens for a Better Env’t, 523 U.S. 83, 103 (1998))).
5

21.

See DUNCAN, J., concurring and dissenting, part I(B), p.

358a
a consequence of noncompliance with ICWA. Specifically, the States requested the district court to hold
that certain statutes authorizing the Secretary to
withhold federal child welfare funds from states that
do not comply with ICWA, including 42 U.S.C.
§§ 622(b)(9) and 677(b)(3)(G), are unconstitutional.
The States sought an injunction prohibiting the federal defendants from implementing or enforcing those
statutes in their initial pleadings.
However, the States did not thereafter pursue any
relief in the district court regarding the withholding
of funds by the federal defendants. The States moved
for summary judgment, but they did not seek summary judgment or request injunctive relief in their
motion with regard to federal funding of child welfare.
They did not cross-appeal in this court seeking such
relief, nor could they since they did not pursue it in
the district court. The question then arises as to
whether there is redressability at this point in the proceedings, since standing must be present at each stage
of litigation.6
A determination in this case that certain provisions of ICWA, the Final Rule, or both were unconstitutional would be a binding determination (res judicata) as between those States and the federal govern-

6
Lewis v. Cont’l Bank Corp., 494 U.S. 472, 477-78 (1990)
(“[The] case-or-controversy requirement subsists through all
stages of federal judicial proceedings, trial and appellate. To sustain our jurisdiction in the present case, it is not enough that a
dispute was very much alive when suit was filed . . . .” (first
citing Deakins v. Monaghan, 484 U.S. 193, 199 (1988); and then
citing Steffel v. Thompson, 415 U.S. 452, 459 n.10 (1974))).

359a
ment. This would mean that the States could categorically direct their child-welfare agencies to cease compliance with the provisions of ICWA if it were held unconstitutional. Such relief would address injuries asserted by the States and establishes the States’ Article
III standing to raise the constitutional challenges to
ICWA, other than equal protection. The States would
no longer be burdened with ICWA’s requirements and
would not incur the costs and expenses associated
with compliance unless and until, in a state-court proceeding, individual plaintiffs asserted rights under
ICWA and a final state-court judgment were to hold,
contrary to a judgment of this court or the district
court, that ICWA is constitutional and the State is
bound by its requirements in that state-court proceeding. The potential for such a collision between state
and federal courts as to ICWA’s constitutionality does
not mean that federal courts cannot redress the
States’ injuries in the present case. A federal-court
judgment in the States’ favor in this case could conceivably redress their injuries, though in the longer
term, a state court’s view of the constitutionality of
ICWA might ultimately carry the day were a conflict
between state-court holdings and federal-court holdings to arise.
A judgment in the present case holding that the
States prevail against the federal defendants on their
claims that ICWA is unconstitutional could also potentially be the basis for precluding the federal government from withdrawing funding for a State’s failure to comply with unconstitutional statutory or regulatory provisions. Does that mean that the federal
government is prohibited from using a “carrot/stick”
approach to persuade a State to comply with ICWA or

360a
else withdraw funding? That issue was not raised or
briefed in the district court or this court. It has not
been decided. But the point is, it is not improbable
that the relief that the States do continue to seek in
the present case would, in future litigation between
the States and the federal government, preclude the
federal government from withholding child welfare
funds under ICWA as a consequence of the States’ failure to comply with ICWA. The constitutionality of
ICWA would be off the table in any such future litigation between a State who is a party to this case and
the federal government.
Not all the States’ claims are grounded in the federal Constitution. The States challenge 24 C.F.R.
§ 23.132(b) on the basis that the clear-and-convincingevidence standard is contrary to 25 U.S.C. § 1915, and
on the basis that in promulgating the Final Rule, the
Bureau of Indian Affairs (BIA) did not provide a reasoned explanation for reversing its prior, long-held interpretation of ICWA. The relief sought by the States
in this regard would redress their complaint that the
Final Rule imposes too high a standard on state agencies seeking to place a child other than in accordance
with ICWA’s preferences. The Final Rule’s offending
provisions would be abrogated and therefore would
not be a factor or at issue in state-court adoption or
placement proceedings. This would redress the injuries identified by the States.
Accordingly, I concur in parts I(C) and (D) of
JUDGE DENNIS’s opinion, with the exception of the last
sentence in part I(D).

361a
B
As to the standing of the individual plaintiffs, I
concur in part I(A)(1) of JUDGE DENNIS’s opinion, and
parts I and II(A) and the final paragraph of part II(B)
of JUDGE COSTA’s opinion.
I add these observations. None of the individual
plaintiffs have standing to press any of their claims,
other than those with regard to the APA and the Final
Rule, because nothing this court has to say about
ICWA binds any state court in adoption or foster care
placement cases when a private party asserts that
ICWA’s provisions are constitutional and must be applied or that they are unconstitutional and cannot be
applied. Private parties in child-welfare and adoption
proceedings would not be bound by a judgment issued
by a federal district court or this court declaring rights
as between the Brackeens, for instance, and the federal defendants, or as between the States and the federal government.
The assertion in JUDGE DUNCAN’s opinion that the
individual plaintiffs’ claims are redressable because
the “Federal Defendants would be barred from inducing state officials to implement ICWA, including the
preferences, by withholding funding,”7 is, with great
respect, erroneous. None of the individual plaintiffs
have standing to argue that the federal government is
precluded from withholding child welfare funds from
a State. They do not argue that they have a right or
interest that would permit them to insert themselves
into disputes as to funding between the federal government and the States under ICWA. The individual
7

DUNCAN, J., concurring and dissenting, part I(B), p. 21.

362a
plaintiffs cite no statute or constitutional provision
that would confer such a right. Any relief granted to
the States regarding child-welfare funding under
ICWA would redress the individual plaintiffs’ claims,
if at all, only incidentally and tangentially. In any
event, as discussed above, the States did not pursue
in the district court their request for a declaration
that the federal defendants are barred from withholding child-welfare funding under ICWA. Such relief
was not granted by the district court, and the States
do not seek such relief in this court. No judgment of
this court could now grant the relief that JUDGE DUNCAN’s opinion says would redress the individual plaintiffs’ claims regarding ICWA’s preferences.
The individual plaintiffs do have standing to challenge the Final Rule. However, even were the Final
Rule abrogated in its entirety, ICWA’s statutory preferences and other requirements would remain intact.
The individual plaintiffs do not have standing to challenge ICWA’s provisions directly or in the abstract in
the present case. A judgment of this court would not
resolve any actual case or controversy as between the
individual plaintiffs and the federal defendants, other
than challenges to the Final Rule, for the reasons considered above and in JUDGE DENNIS’s and JUDGE
COSTA’s opinions.

363a
II
I agree with the conclusion in JUDGE DENNIS’s
opinion,8 as a general proposition, that Congress had
the authority under the Indian Commerce Clause9 to
enact ICWA. However, I do not join JUDGE DENNIS’s
analysis fully. I join part II(A) of JUDGE COSTA’s opinion as to this issue.
III
A
Because I conclude that neither the States nor the
individual plaintiffs have standing to bring direct
equal protection challenges to ICWA’s statutory provisions, I would not and do not reach the merits of any
of those claims. To the extent that equal protection
claims have been asserted by the individual plaintiffs
in challenging the Final Rule, I join the final paragraph in part II(B) of JUDGE COSTA’s opinion. The individual plaintiffs have standing to assert equal protection challenges to ICWA in this context. I agree
with the conclusion in JUDGE DENNIS’s opinion that
ICWA’s preferences are political not racial. Those
preferences withstand rational-basis scrutiny.
I
therefore conclude that the Final Rule did not violate
the Equal Protection Clause in implementing ICWA’s
statutory preferences, including the preference for
“Indian Families.”

8

DENNIS, J., concurring and dissenting, part II(A)(1).

9
U.S. CONST. art. I, § 8, cl. 3 (“The Congress shall have
Power . . . To regulate Commerce with foreign Nations, and
among the several States, and with the Indian Tribes.”).

364a
B
Regarding the commandeering and preemption
claims, I join part II(A)(2)(a)(i) of JUDGE DENNIS’s
opinion and part III(B) of JUDGE DUNCAN’s opinion.
To clarify, with regard to part III(B)(1)(a)(iii) of
JUDGE DUNCAN’s opinion, I agree that 25 U.S.C.
§§ 1915(a)-(b), and implementing regulations, in large
measure violate the anti-commandeering doctrine.
However, the placement preferences set forth in that
statute and its implementing regulations, standing
alone, do not commandeer, as JUDGE DUNCAN’s opinion explains.10 Those federal laws preempt contrary
state-law preferences. The commandeering occurs because state agencies are directed to undertake action
to identify and assist individuals who might be entitled to preference over others seeking to adopt or to
provide foster care. To the extent the state courts and
state agencies become aware of individuals who seek
to have ICWA’s preferences applied, ICWA’s preferences should be followed.
C
Only the State plaintiffs asserted claims that Congress impermissibly delegated legislative power to Indian tribes in ICWA. With regard to the non-delegation issues, I join part II(C) of JUDGE DENNIS’s opinion.
D
Regarding the APA claims, I join part III(D)(3) of
JUDGE DUNCAN’s opinion. I do not join part III(D)(2)
of that opinion because the discussion as to whether
10
DUNCAN, J.,
III(B)(1)(a)(iii), p. 83.

concurring

and

dissenting,

part

365a
regulations bind state courts is abstract. It is unclear
from the discussion which regulations purport to bind
state courts separate and apart from statutory provisions which do bind state courts to the extent the statutory provisions are constitutional.
E
I would grant declaratory relief consistent with
the conclusions in this opinion.

366a
JACQUES L. WIENER, JR., Circuit Judge, dissenting in
part:
I concur with JUDGE DENNIS’s Opinion, except for
its holding on standing to challenge 25 U.S.C.
§ 1915(a) and (b) on equal protection grounds. I also
concur with JUDGE COSTA in his partial dissent on
standing. For the reasons more explicitly stated below, I write separately because the Plaintiffs’ second
amended complaint is deficient and should be dismissed for lack of standing.
JUDGES DUNCAN and DENNIS each conclude that
the Individual Plaintiffs, through the Brackeens and
Cliffords, have Article III standing to challenge
§ 1915(a) and (b) of ICWA on equal protection
grounds.1 This conveniently allows the Opinions to
proceed to the merits of the Plaintiffs’ equal protection
arguments. Like JUDGE COSTA, I disagree with
JUDGES DUNCAN’s and DENNIS’s conclusions that the
Plaintiffs have Article III standing to challenge
§ 1915(a) and (b), so I would not reach the merits of
the Plaintiffs’ equal protection claim. In addition to
the redressability problems cited in JUDGE COSTA’s
dissent, JUDGES DUNCAN and DENNIS choose to ignore
three important facts: (1) the date that the most recent complaint was filed, (2) the Brackeens’ delayed
supplementation of the record, and (3) the fact that
the Cliffords could have appealed their case to the
Minnesota Supreme Court but did not do so. Those
facts are dispositive of the Plaintiffs’ ability to show

1
JUDGE DENNIS concludes that the Plaintiffs do not have
standing to challenge § 1913(d) and 1914, and I concur for the
reasons provided in that opinion.

367a
standing: The Brackeens and Cliffords (and, by extension, all of the Individual Plaintiffs) do not have
standing to challenge § 1915(a) and (b), so we do not
have jurisdiction to decide whether these parts of
ICWA pass constitutional muster.
I. Background
The Plaintiffs filed their initial complaint in October 2017, seeking declaratory and injunctive relief,
claiming that ICWA and the Final Rule are unconstitutional and violate the Administrative Procedure
Act.2 At that time, the Brackeens were attempting to
adopt A.L.M., who qualified as an “Indian child” under
ICWA. A.L.M.’s biological parents voluntarily terminated their parental rights in May 2017, and the
Brackeens completed their adoption of A.L.M. in January 2018. The Plaintiffs filed a second amended complaint two months later. Presumably because they
knew that standing would be an issue, the Brackeens
stated that they “also intend to provide foster care for,
and possibly adopt, additional children in need. Because of their experience with the Final Rule and
ICWA, however, [they] are reluctant to provide a foster home for other Indian children in the future.” Despite their reluctance, however, the Brackeens attempted to adopt A.L.M.’s sister, Y.R.J., who was born
in June 2018—three months after the second
amended complaint was filed. The Plaintiffs supplemented the district court record in October 2018 (after
it had entered final judgment), notifying the court
that the Brackeens were attempting to adopt Y.R.J.
2
See Brackeen v. Zinke, 338 F. Supp. 3d 514, 526–46
(N.D. Tex. 2018), rev’d sub nom. 937 F.3d 406 (5th Cir. 2019),
reh’g en banc granted, 942 F.3d 287 (5th Cir. 2019).

368a
The Brackeens intervened in a state court adoption
proceeding in November 2018, seeking to terminate
the parental rights of Y.R.J.’s mother—eight months
after the second amended complaint was filed.3
The Plaintiffs also stated in their second amended
complaint that the Cliffords wished to adopt Child P.,
a six-year-old girl whom the Cliffords had fostered
since July 2016. With the support of Child P.’s guardian ad litem, the Cliffords moved to adopt Child P.
The Minnesota court denied their petition in January
2019 because Child P.’s tribe intervened in her case
and invoked ICWA’s placement preferences.4 The
Cliffords appealed the Minnesota court’s order, but
the Minnesota court of appeals affirmed.5 It does not
appear that the Cliffords timely appealed that court’s
judgment.
II. Article III Standing
Under Article III of the United States Constitution, federal courts only have jurisdiction over a “case”
or “controversy.”6 “To establish a ‘case or controversy,’
a plaintiff must establish that it has standing.”7
3
See In re Y.J., 2019 WL 6904728, at *3 (Tex. App. Dec.
19, 2019).
4

See In re Welfare of the Child in the Custody of: Comm’r
of Human Servs., No. 27-JV-15-483 (4th Dist. Minn. Jan. 17,
2019).
5
In re S.B., No. A19-0225, 2019 WL 6698079, at *6
(Minn. Ct. App. Dec. 9, 2019).
6

See U.S. CONST. art. III, § 2, cl. 1.

7
Legacy Cmty. Health Servs., Inc. v. Smith, 881 F.3d
358, 366 (5th Cir. 2018) (citing Lujan v. Defs. of Wildlife, 504 U.S.
555, 560–61 (1992)).

369a
Standing requires that a plaintiff show (1) “an injury
in fact” that is (2) fairly traceable to the challenged
action of the defendant, and that is (3) likely to be “redressed by a favorable decision.”8 JUDGES DUNCAN and
DENNIS only analyze standing to challenge § 1915(a)
and (b) on equal protection grounds as to the Brackeens and the Cliffords. No other Individual or State
Plaintiff can show standing to challenge these provisions of ICWA.
Fatal to the Brackeens’ assertion of standing are
the facts that (1) they had already adopted A.L.M.
prior to the Plaintiffs’ filing of the second amended
complaint, and (2) their stated desires to adopt or provide foster care for other Indian children were too
vague to constitute an injury in fact. The Brackeens
must show Article III standing both at the time of the
filing of the complaint and throughout the lawsuit.9
The court must analyze standing at the time that the
latest complaint is filed.10
The first requirement of standing is that a plaintiff must have suffered an “injury in fact.”11 An injury
8

Lujan, 504 U.S. at 560–61.

9
See Rockwell Int’l Corp. v. United States, 549 U.S. 457,
473–74 (2007) (noting that standing is assessed at the time the
complaint is filed); Arizonans for Off. Eng. v. Ariz., 520 U.S. 43,
45 (1997) (“[A]n actual controversy must be extant at all stages
of review, not merely at the time the complaint is filed.”).
10

See Rockwell, 549 U.S. at 473–74 (“[W]hen a plaintiff .
. . voluntarily amends the complaint, courts look to the amended
complaint to determine jurisdiction.”); Cnty. of Riverside v.
McLaughlin, 500 U.S. 44, 51 (1991) (analyzing standing at the
time the second amended complaint was filed).
11

Lujan, 504 U.S. at 560–61.

370a
in fact must be (1) concrete and particularized and (2)
actual or imminent, not conjectural or hypothetical.12
Some courts have held that when “plaintiffs seek declaratory and injunctive relief only, there is a further
requirement that they show a very significant possibility of future harm; it is insufficient for them to
demonstrate only a past injury.”13 “A request for injunctive relief remains live only so long as there is
some present harm left to enjoin.”14 “Past exposure to
illegal conduct does not in itself show a present case
or controversy regarding injunctive relief . . . if unaccompanied by any continuing, present adverse effects.”15
The Brackeens could not show an actual injury in
fact at the time the Plaintiffs filed the second
amended complaint because the Brackeens had already adopted A.L.M. Actual injury requires the
Plaintiffs to show that they are presently affected by
ICWA and the Final Rule.16 The Brackeens’ injury
was a “past injury,” which “is insufficient for them to

12

Id. at 560.

13

San Diego Cnty. Gun Rts. Comm. v. Reno, 98 F.3d 1121,
1126 (9th Cir. 1996).
14

Taylor v. Resol. Tr. Corp., 56 F.3d 1497, 1502 (D.C. Cir.

1995).
15

O’Neal v. City of Seattle, 66 F.3d 1064, 1066 (9th Cir.
1995) (omission in original) (quoting City of L.A. v. Lyons, 461
U.S. 95, 102 (1983)).
16
See N.J. Physicians, Inc. v. Obama, 653 F.3d 234, 239
(3d Cir. 2011) (noting that a plaintiff must be “presently impacted” by the defendant’s actions).

371a
demonstrate” the injury in fact necessary to obtain injunctive or declaratory relief.17
Neither could the Brackeens show an imminent
injury in fact.18 Their stated desire to adopt or provide
foster care for other Indian children was too vague because they had not specified a date or time that they
would attempt to adopt Y.R.J. or other Indian children.19 The Brackeens did not attempt to show that
they planned to adopt another Indian child until October 2018—seven months after the second amended
complaint had been filed and after final judgment had
been entered. At the time that the second amended
complaint was filed, the Brackeens’ “intent” to provide
17

Reno, 98 F.3d at 1126.

18

JUDGE DUNCAN notes that he would reach the same
conclusion as to the Brackeens’ adoption of A.L.M. because it fits
within the “capable of repetition, yet evading review” exception
to mootness. This exception is inapposite, so the case would be
moot were it not lacking an injury in fact, because (1) the adoption proceedings were not too short in duration to be fully litigated, and (2) there is no reasonable expectation that the Brackeens would be subject to the same injury again. See Davis v. Fed.
Election Comm’n, 554 U.S. 724, 735 (2008). As to the first prong,
the Brackeens could have litigated their ICWA challenges in
state court during A.L.M.’s July 2017 adoption proceedings, long
before October 2018 when the district court entered judgment
against the Defendants. As to the second prong, the Brackeens’
stated reluctance to adopt more Indian children was too vague,
as discussed above. See Lujan, 504 U.S. at 564 (holding that a
sufficient specification of when the injury in fact will occur is necessary).
19
See Reno, 98 F.3d at 1127 (holding that plaintiffs could
not show injury in fact, because “[t]he complaint does not specify
any particular time or date on which plaintiffs intend to violate
the Act”).

372a
foster care for Indian children, or the “possibility” that
they would adopt any, was insufficient to show injury
in fact. As the Supreme Court has explicitly held,
“[s]uch ‘some day’ intentions—without any description of concrete plans, or indeed even any specification
of when the some day will be—do not support a finding
of the ‘actual or imminent’ injury that our cases require.”20
The Brackeens’ standing issue in this case is similar to those found in cases—some of which are cited
in JUDGE DENNIS’s Opinion—wherein the Supreme
Court has held that plaintiffs lack standing because
their injuries were not “imminent.” For example, in
O’Shea v. Littleton, the Court held that the plaintiffs
lacked standing because, even though they had suffered past unconstitutional practices they could not
prove a present or future impact as a result of those
practices.21 The Court noted that the alleged imminent threat was not “sufficiently real and immediate
to show an existing controversy simply because [the
plaintiffs] anticipate violating lawful criminal statutes and being tried for their offenses.”22 Similarly, in
City of Los Angeles v. Lyons, the Court rejected the
plaintiff’s standing argument, noting that the complaint “depended on whether [the plaintiff] was likely

20

Lujan, 504 U.S. at 564.

21

414 U.S. 488, 493, 495–96 (1974).

22

Id. at 496.

373a
to suffer future injury from the use of the chokeholds
by police officers.”23
Further, JUDGES DUNCAN and DENNIS err by considering Y.R.J.’s proceedings for purposes of standing
because the Plaintiffs did not move to supplement the
record with information relating to the Brackeens’ attempted adoption of Y.R.J. until October 10, 2018. Final judgment had been entered, however, on October
4, 2018. The Supreme Court has explicitly held that
a lack of standing cannot be cured by evidence entered
into the record after final judgment.24
Unlike
Mathews v. Diaz, in which the Supreme Court held
that a supplemental pleading cured the jurisdictional
defect, the Brackeens’ supplementation of the district
court record occurred after judgment had been entered.25

23

461 U.S. at 105. Although these cases arose in the context of unconstitutional police practices, which are unlike allegedly unconstitutional adoptive proceedings, they are instructive.
Here, like the plaintiffs in O’Shea and Lyons, the Plaintiffs are
seeking future remedies based on past exposures to harm, which
JUDGES DUNCAN and DENNIS incorrectly classify as a regulatory
burden. On the contrary, there can be no regulatory burden in a
completed adoption proceeding, viz., the completed adoption of
A.L.M.
24
See Summers v. Earth Island Inst., 555 U.S. 488, 495
n.* (2009) (“After the District Court had entered judgment, and
after the Government had filed its notice of appeal, respondents
submitted additional affidavits to the District Court. We do not
consider these. If respondents had not met the challenge to their
standing at the time of judgment, they could not remedy the defect retroactively.”).
25

Cf. 426 U.S. 67, 75 (1976). In Mathews, cited by JUDGE
DENNIS, the Court noted that “[a] supplemental complaint would

374a
Finally, the Cliffords do not have standing to challenge § 1915(b) because their claim is not redressable.26 They could have appealed their challenges to
ICWA in Minnesota state court but likely missed the
deadline to appeal.27 The state of Minnesota is also
have eliminated this jurisdictional issue; since the record discloses, both by affidavit and stipulation, that the jurisdictional
condition was satisfied, it is not too late, even now, to supplement
the complaint to allege this fact.” Id. (emphasis added).
Mathews involved Federal Rule of Civil Procedure 15(d), which
allows a party to file a supplemental pleading. See id. at 75 n.8;
accord Northstar Fin. Advisors Inc. v. Schwab Inv., 779 F.3d
1036, 1044 (9th Cir. 2015). The Brackeens did not file a supplemental pleading. Instead, they filed a supplement to the record.
Further, Mathews involved the issue of exhaustion, not standing.
See 426 U.S. at 75-76. Finally, Mathews’ language that “even
now,” filing a supplemental pleading would not be “too late,” is
dictum. In Mathews, the plaintiffs filed a supplemental pleading
after the complaint had been filed but before final judgment had
been entered. Id. at 75 (noting that the pleading was supplemented “while the case was pending in the District Court”).
There was no issue of filing a supplemental pleading at the Supreme Court level; thus, this language is dictum. Here, as
stated, the Brackeens did not supplement the record until after
final judgment was entered, and this cannot cure the defective
complaint. See Prasco, LLC v. Medicis Pharm. Corp., 537 F.3d
1329, 1337 (Fed. Cir. 2008) (noting that “while ‘later events may
not create jurisdiction where none existed at the time of filing,
the proper focus in determining jurisdiction are the facts at the
time the complaint under consideration was filed’” (brackets and
emphasis omitted) (quoting GAF Bldg. Materials Corp. v. Elk
Corp., 90 F.3d 479, 483 (Fed. Cir. 1996)).
26
See Susan B. Anthony List v. Dreihaus, 573 U.S. 149,
158 (2014) (noting that redressability is a requirement for standing)
27

See In re S.B., No. A19-0225, 2019 WL 6698079, at *1
(Minn. Ct. App. Dec. 9, 2019) (showing no notice of appeal to the

375a
not a party to this lawsuit, so any ruling we make on
the constitutionality of ICWA would have no effect on
the Cliffords’ adoption proceedings.28
III. Conclusion
It would be convenient if we could ignore facts
that are dispositive of Article III standing—as do
JUDGES DUNCAN and DENNIS—and proceed to the
merits in important constitutional cases such as this.
We are, however, governed by the rule of law. And a
federal court cannot weigh in on an issue over which
it lacks jurisdiction, however appealing doing so
might be. I concur with JUDGE COSTA that the Plaintiffs lack standing because their case is not redressable. And even though I join JUDGES DENNIS’s wellreasoned and thorough Opinion on the merits, I would
reverse the district court’s order that the Plaintiffs
have Article III standing to challenge 25 U.S.C.
§ 1915(a) and (b) on equal protection grounds.

January 2020 judgment); see also Minn. R. Civ. App. P. 117 subd
1 (requiring filing of notice of appeal within 30 days of the filing
of the Court of Appeals’ decision).
28
See Okpalobi v. Foster, 244 F.3d 405, 426–27 (5th Cir.
2001) (en banc) (concluding that the plaintiffs’ claim was not redressable because the defendants were “powerless to enforce [the
Act] against the plaintiffs (or to prevent any threatened injury
from its enforcement”)).

376a
HAYNES, Circuit Judge, concurring:
I concur with portions of both JUDGE DENNIS’s and
JUDGE DUNCAN’s Opinions (respectively, the “Dennis
Opinion” and the “Duncan Opinion”).1 On standing, I
concur with the conclusions of Part I of the Duncan
Opinion that Plaintiffs have standing to bring all their
claims.2
On the equal protection issues, I concur in part
with Part II(B)(2) of the Dennis Opinion that the definition of “Indian child” does not violate the Equal
Protection Clause. As to the placement preferences, I
conclude that the first two prongs of ICWA
§ 1915(a)—concerning the members of the child’s extended family and tribe—withstand even strict scrutiny, so I concur with Part II(B)(2) of the Dennis Opinion that they are constitutional; but I concur with Part
III(A)(3) of the Duncan Opinion that the “other Indian
families” prong of ICWA § 1915(a) violates the Equal
Protection Clause because it fails to be rationally tied
to fulfilling Congress’s goals of protecting Indian
tribes.
On the anti-commandeering/preemption issues, I
concur with the conclusion in Part II(A)(1) of the Dennis Opinion that Congress had plenary authority under the Indian Commerce Clause to enact ICWA, but
I concur with Parts III(B)(1)(a)(i) and III(B)(1)(a)(iv)
and in part with Parts III(B)(1)(a)(ii), III(B)(1)(b), and
1

All references to the Dennis Opinion and Duncan Opinion are to the enumerated sections under the “Discussion” portion of each opinion.
2
In that regard, I also agree with the conclusions of
Parts I(A)(2)–(D) of the Dennis Opinion.

377a
III(B)(2)(b) of the Duncan Opinion that ICWA
§§ 1912(d), (e) and 1915(e) violate the anti-commandeering doctrine and are invalid preemption provisions. With respect to the remaining statutory provisions at issue, I concur with the Dennis Opinion that
they do not violate the anti-commandeering doctrine
and validly preempt state law.
On the nondelegation doctrine issue, I concur with
Part II(C) of the Dennis Opinion that ICWA § 1915(c)
does not violate that doctrine.
Lastly, on the Administrative Procedure Act issues, I concur with Part III(D)(1) of the Duncan Opinion that the Final Rule is invalid to the extent that it
implements the unconstitutional statutory provisions
identified above: ICWA §§ 1912 (d), (e), and 1915(e)
and the “other Indian families” prong of ICWA
§ 1915(a). However, to the extent that the Final Rule
implements constitutional ICWA provisions, I concur
with Part II(D)(1) of the Dennis Opinion that those
portions of the Final Rule are valid. I also concur with
Part II(D)(2) of the Dennis Opinion that BIA did not
exceed its authority in making the Final Rule binding.
But I concur with Part III(D)(3) of the Duncan Opinion that the “good cause” standard in 25 C.F.R.
§ 23.132(b) fails at Chevron step one.

378a
STEPHEN A. HIGGINSON, Circuit Judge, concurring in
part, with whom JUDGE COSTA joins:
I concur in Judge Dennis’s comprehensive opinion
except for Discussion § I.A.2 and write separately to
highlight lessons I draw from two Supreme Court
cases.
“Any rule of state immunity that looks to the ‘traditional,’ ‘integral,’ or ‘necessary’ nature of governmental functions inevitably invites an unelected federal judiciary to make decisions about which state policies it favors and which ones it dislikes.” Garcia v.
San Antonio Metro. Transit Auth., 469 U.S. 528, 546
(1985). Engaging in this type of policy weighing, the
dissent would strike a statute that has garnered support from Congressional members on both sides of the
aisle, a large number of states, and at least 325 federally recognized Indian tribes and has been the law of
the land for over four decades.
Specifically, the dissent would hold that the
“structural guarantee of state sovereignty” limits Congress’s authority to regulate state child custody proceedings involving Indian children. It bases this on
two observations: “[n]o Supreme Court decision supports Congress deploying its Indian affairs power to
govern state government proceedings,” and there is no
“comparable founding-era exercise[ ] of Congress’s Indian affairs power.”
Yet, in Garcia, the Court explained why it rejected, “as unsound in principle and unworkable in
practice, a rule of state immunity from federal regulation that turns on a judicial appraisal of whether a
particular governmental function is ‘integral’ or ‘tra-

379a
ditional’”: (1) “it prevents a court from accommodating changes in the historical functions of States,
changes that have resulted in a number of once-private functions like education being assumed by the
States and their subdivisions”; (2) it “results in linedrawing of the most arbitrary sort; the genesis of state
governmental functions stretches over a historical
continuum from before the Revolution to the present,
and courts would have to decide by fiat precisely how
longstanding a pattern of state involvement had to be
for federal regulatory authority to be defeated”; (3) it
is “unworkable,” in part “because of the elusiveness of
objective criteria for ‘fundamental’ elements of state
sovereignty”; and (4) “[s]tate sovereign interests . . .
are more properly protected by procedural safeguards
inherent in the structure of the federal system than
by judicially created limitations on federal power.”
469 U.S. at 543–52. Contrary to this Supreme Court
instruction, the dissent risks resuscitating a misunderstanding of state sovereignty that entangles judges
with the problematic policy task of deciding what issues are so inherent in the concept and history of state
sovereignty that they fall beyond the reach of Congress.
“[T]he fact that the States remain sovereign as to
all powers not vested in Congress or denied them by
the Constitution offers no guidance about where the
frontier between state and federal power lies.” Id. at
550. Instead, it is the nature of our federalist system
that states retain sovereign authority “only to the extent that the Constitution has not divested them of
their original powers and transferred those powers to
the Federal Government.” Id. at 549. As Judge Dennis comprehensively explains, the Indian Commerce

380a
Clause has done exactly that with respect to Indian
Affairs.
But it is not only the dissent’s test that diverges
from Supreme Court authority—it would also be its
result. The Supreme Court has repeatedly recognized
that Congress can preempt state law that applies in
state domestic relations proceedings.
See, e.g.,
Egelhoff v. Egelhoff ex rel. Breiner, 532 U.S. 141, 146
(2001) (holding that ERISA preempted application of
Washington statute in state probate proceedings);
Boggs v. Boggs, 520 U.S. 833, 841 (1997) (holding that
ERISA preempted application of Louisiana community property law in state probate proceedings);
McCarty v. McCarty, 453 U.S. 210, 232–33 (1981)
(holding that federal law preempted application of
California community property law in state divorce
proceedings); Hisquierdo v. Hisquierdo, 439 U.S. 572,
590 (1979) (holding that the Railroad Retirement Act
preempted application of California community property law in state divorce proceedings); Free v. Bland,
369 U.S. 663, 670 (1962) (holding that federal law
preempted application of Texas community property
law in state probate proceedings); Wissner v. Wissner,
338 U.S. 655, 658–59 (1950) (holding that the National Service Life Insurance Act preempted application of California community property law in state
probate proceedings); McCune v. Essig, 199 U.S. 382,
389–90 (1905) (holding that the Homestead Act
preempted application of Washington community
property law in state probate proceedings); see also
Gregory v. Ashcroft, 501 U.S. 452, 460 (1991) (“Congress may legislate in areas traditionally regulated by
the States.”). That is exactly what Congress did here.
See 25 U.S.C. § 1902 (declaring Congress’s intent to

381a
establish “minimum Federal standards” to be applied
in state child custody proceedings involving Indian
children).
The dissent relies primarily on Seminole Tribe v.
Florida, 517 U.S. 44 (1996), to support a contrary result. But even Chief Justice Rehnquist—the author
of Seminole Tribe and perhaps the most faithful proponent of state’s rights—explicitly recognized that
Congress may preempt state domestic relations law.
See McCarty, 453 U.S. at 237 (Rehnquist, J., dissenting) (“[T]he authority of the States should not be displaced except pursuant to the clearest direction from
Congress.” (emphasis added)); see also Bond v. United
States, 572 U.S. 844, 858 (2014) (“‘[I]t is incumbent
upon the federal courts to be certain of Congress’ intent before finding that federal law overrides’ the
‘usual constitutional balance of federal and state powers.’” (quoting Gregory, 501 U.S. at 460)). Although
Chief Justice Rehnquist’s position was narrower than
the dissent’s here, see McCarty, 453 U.S. at 232 (finding state community property law preempted where
(1) there was a conflict between the federal and state
laws and (2) the consequences of the state law sufficiently injured the objectives of the federal program),
I highlight it to demonstrate how consequential the
dissent’s retort to clearly stated congressional authority actually is.
Even applying Chief Justice
Rehnquist’s dissenting position, the Indian Child Welfare Act (“ICWA”) stands. The ICWA establishes
“minimum Federal standards” to be applied in state
child custody proceedings involving Indian children—
it is hard to image a clearer indication of Congress’s
intent to preempt state law. 25 U.S.C. § 1902.

382a
Just as “[n]one can dispute the central role community property laws play in . . . community property
States,” Boggs, 520 U.S. at 839–40, it is irrefutable
that states have a compelling interest in their child
custody proceedings.
Nevertheless, important,
longstanding, and binding Supreme Court precedent
recognizes both the United States’ unique and compelling obligation to Indians, see United States v. Lara,
541 U.S. 193, 200 (2004) (“[T]he Constitution grants
Congress broad general powers to legislate in respect
to Indian tribes, powers that we have consistently described as ‘plenary and exclusive.’” (citations omitted)); see also McGirt v. Oklahoma, 140 S. Ct. 2452,
2462 (2020) (“This Court long ago held that the Legislature wields significant constitutional authority
when it comes to tribal relations.”), and dictates that
“[t]he relative importance to the State of its own law
is not material when there is a conflict with a valid
federal law, for the Framers of our Constitution provided that the federal law must prevail,” Free, 369
U.S. at 666.

383a
GREGG COSTA, Circuit Judge, concurring in part and
dissenting in part, with whom CHIEF JUDGE OWEN
joins as to Parts I and II(A) and the final paragraph of
Part II(B), with whom JUDGES WIENER and HIGGINSON join, with whom JUDGE DENNIS joins as to Part
II, and with whom JUDGE SOUTHWICK joins as to part
I:
Congress passed the Indian Child Welfare Act of
1978 on voice votes, a procedure typically reserved for
noncontroversial legislation. The law continues to enjoy bipartisan support. See Brief of Members of Congress as Amici Curiae in Support of Defendants-Appellants and Reversal. Leading child welfare organizations believe the law “embodies and has served as a
model for the child welfare policies that are [the] best
practices generally” and reflects “the gold standard for
child welfare policies and practices in the United
States.” Brief of Casey Family Programs and 30
Other Organizations Working with Children, Families, and Courts to Support Children’s Welfare as
Amici Curiae in Support of Appellants at 2; Letter
from Child Welfare Advocates to Elizabeth Appel, Off.
of Regul. Aff. & Collaborative Action, U.S. Dep’t of
Interior (May 19, 2015), http://www.nativeamericanbar.org/wp-content/uploads/2014/01/CFP-et-alSupport-Letter-Re-Proposed-ICWA-Regulations.pdf.
Yet more than four decades into its existence, a
federal district court held key parts of the law unconstitutional. That facial invalidation is contrary to the
longstanding views of state courts, where adoption
proceedings of course take place.1 It is ironic that a
1

See, e.g., In re K.M.O., 280 P.3d 1203, 1214–15 (Wyo. 2012);
In re Phoenix L., 708 N.W.2d 786, 795–98 (Neb. 2006); In re Baby

384a
federal court saw infringements on state sovereignty
that the state courts themselves have not seen.
Such ironies abound in this case. The most astonishing irony results from this being a federal court
challenge to laws that apply in state adoption proceedings. It will no doubt shock the reader who has
slogged through today’s lengthy opinions that, at least
when it comes to the far-reaching claims challenging
the Indian Child Welfare Act’s preferences for tribe
members, this case will not have binding effect in a
single adoption. That’s right, whether our court upholds the law in its entirety or says that the whole
thing exceeds congressional power, no state family
court is required to follow what we say. See, e.g., Penrod Drilling Corp. v. Williams, 868 S.W.2d 294, 296
(Tex. 1993) (per curiam) (noting that Texas state
courts are “obligated to follow only higher Texas
courts and the United States Supreme Court”);
ASARCO Inc. v. Kadish, 490 U.S. 605, 617 (1989) (rec-

Boy L., 103 P.3d 1099, 1106–07 (Okla. 2004); In re A.B., 663
N.W.2d 625, 634–37 (N.D. 2003), cert. denied, 541 U.S. 972
(2004); Ruby A. v. State, Dep’t of Health & Soc. Servs., 2003 WL
23018276, at *4–5 (Alaska Dec. 29, 2003); In re Marcus S., 638
A.2d 1158, 1158–59 (Me. 1994); In re Armell, 550 N.E.2d 1061,
1067– 68 (Ill. App. Ct. 1990), cert. denied, 498 U.S. 940 (1990); In
re Miller, 451 N.W.2d 576, 578– 79 (Mich. Ct. App. 1990) (per
curiam); In re Application of Angus, 655 P.2d 208, 213 (Or. Ct.
App. 1982), cert. denied, 464 U.S. 830 (1983); In re Appeal in
Pima Cty. Juvenile Action No. S-903, 635 P.2d 187, 193 (Ariz. Ct.
App. 1981), cert. denied, 455 U.S. 1007 (1982); In re Guardianship of D.L.L., 291 N.W.2d 278, 281 (S.D. 1980). But see In re
Santos Y., 92 Cal. App. 4th 1274 (Cal. Ct. App. 2001) (upholding
“as applied” constitutional challenges to ICWA when the child
had never been part of an Indian home).

385a
ognizing that state courts “render binding judicial decisions that rest on their own interpretations of federal law”).
There is a term for a judicial decision that does
nothing more than opine on what the law should be:
an advisory opinion. That is what the roughly 300
pages you just read amount to.
The rule that federal courts cannot issue advisory
opinions is as old as Article III. See Hayburn’s Case,
2 Dall. 409, 410 n.* (1792); 3 THE CORRESPONDENCE
AND PUBLIC PAPERS OF JOHN JAY 486–89 (Johnston ed.
1891) (August 8, 1793, letter from Chief Justice Jay
refusing to give the Washington Administration advice on legal questions relating to war between Great
Britain and France); see also Flast v. Cohen, 392 U.S.
83, 96 (1968) (“[I]t is quite clear that ‘the oldest and
most consistent thread in the federal law of justiciability is that the federal courts will not give advisory
opinions.’” (quoting CHARLES ALAN WRIGHT, FEDERAL
COURTS 34 (1963))). Early courts could just call such
a case what it was—a request for an advisory opinion,
see, e.g., Muskrat v. United States, 219 U.S. 346, 361–
63 (1911); United States v. Ferreira, 54 U.S. 40, 51–52
(1851); Hayburn’s Case, 2 Dall. at 410 n.*. The modern rise of public law litigation resulted in the development of doctrines likes standing, ripeness, and
mootness to enforce the “case or controversy” requirement. See Cass R. Sunstein, What’s Standing After
Lujan? Of Citizen Suits, “Injuries,” and Article III, 91
MICH. L. REV. 163, 169 (1992) (noting that the Supreme Court did not use the word “standing” until
1944 (citing Stark v. Wickard, 321 U.S. 288 (1944))).
This compartmentalization of justiciability law risks
losing the forest for the trees. Justiciability doctrines,

386a
with their various elements and exceptions, have one
underlying aim: ensuring federal courts only hear
cases that actually decide concrete disputes. Decide
is the key word here. When a judicial opinion does not
actually resolve a dispute, it has no more legal force
than a law review article.
The modern doctrinal box most concerned with
weeding out advisory opinions is the redressability element of standing. “Satisfaction of this requirement
ensures that the lawsuit does not entail the issuance
of an advisory opinion without the possibility of any
judicial relief, and that the exercise of a court’s remedial powers will actually redress the alleged injury.”
Los Angeles v. Lyons, 461 U.S. 95, 129 (1983) (Marshall, J., dissenting).
The redressability requirement proves fatal to at
least the equal protection claim (which is really a
claim under the Fifth Amendment’s Due Process
Clause because ICWA is a federal law). Nothing we
say about equal protection will redress the Brackeens’
alleged injury of potentially being subject to preferences that would favor tribe members in the adoption
of Y.R.J.2 Their argument for redressability is that
the family court judge may, or even says he will, follow
our constitutional ruling. In other words, our opinion
may advise him on how to decide the adoption case
2
The States do not have standing to pursue the equal protection claim because they are not “persons” entitled to the protection of the Fifth Amendment. See South Carolina v. Katzenbach,
383 U.S. 301, 323–24 (1966). They thus cannot suffer an equal
protection injury of their own. Indeed, neither the opinion from
the three-judge panel nor the en banc majority opinion relies on
the States for equal protection standing.

387a
before him. This description of the plaintiffs’ argument reveals why it doesn’t work. Maybe the opinion
will convince the family court judge, maybe it won’t.
The same is true for law review articles or legal briefs.
But what is supposed to separate court decisions from
other legal writings is that they actually resolve a dispute.
Yet JUDGE DENNIS’s Opinion signs off on plaintiffs’ redressability theory,3 finding it sufficient that it
is “‘substantially likely that [a state court] would
abide by an authoritative interpretation’ of ICWA.”4
Dennis Op. at 45 (quoting Franklin v. Massachusetts,
505 U.S. 788, 803 (1992)); see also id. at 43 (stating
that “the Texas trial court has indicated that it will

3

On their own, neither JUDGE DENNIS’s Opinion nor JUDGE
DUNCAN’s Opinion garners a majority of the court to find standing for the equal protection claim. Combining the two opinions,
however, a majority concludes there is standing. I thus address
both opinions.
4
Don’t overlook the ellipsis—it obscures something critical.
The replaced language was not referring to a “state court” that
might follow the federal decision, but to “the President and other
executive and congressional officials.” Franklin, 505 U.S. at 803.
That lawsuit challenging a decennial reapportionment of congressional seats was brought against the Secretary of Commerce,
who was certainly bound by the judgment, and the question was
whether a ruling against that Cabinet member who oversaw the
census could influence the reapportionment even though the
President had ultimate policymaking authority in the executive
branch. Holding that the head of the relevant cabinet agency
could be sued was hardly extraordinary. What is extraordinary—in fact unprecedented—is to find standing based on the
chance that another court might follow the federal decision not
because it has to but because it might want to.

388a
refrain from ruling on the Brackeens’ federal constitutional claims pending a ruling from this court”).
Finding redressability based on the possibility that
another court will consider the opinion persuasive
would allow the requirements of standing to be satisfied by advisory opinions—the very thing that the doctrine was designed to prevent. Justice Scalia nailed
the problem with this reasoning:
If courts may simply assume that everyone
(including those who are not proper parties to
an action) will honor the legal rationales that
underlie their decrees, then redressability will
always exist. Redressability requires that the
court be able to afford relief through the exercise of its power, not through the persuasive or
even awe-inspiring effect of the opinion explaining the exercise of its power.
Franklin, 505 U.S. at 825 (Scalia, J., concurring in
part and in the judgment). It therefore is not enough
that the family court judge has indicated he might, or
even will, follow what the federal court decides.
This court has no authority to resolve whether the
ICWA-mandated burden of proof will apply in the
Y.R.J. adoption. The binding effect of a legal decision—in standing lingo, its ability to redress an injury—must flow from the judgment itself. Id; see also
United States v. Juvenile Male, 564 U.S. 932, 937
(2011) (per curiam) (rejecting the notion that a case
could be justiciable because “a favorable decision in
this case might serve as useful precedent for respondent in a hypothetical [future] lawsuit”). But the
Brackeens would come up short even if a decision’s
precedential effect could establish redressability.

389a
Texas courts do not have to follow the decisions of
lower federal courts on questions of federal law.5 Penrod Drilling Corp., 868 S.W.2d at 296; see also Arizonans for Official English v. Arizona, 520 U.S. 43, 58
n.11 (1997) (rejecting as “remarkable” the idea that a
state court must follow the precedent of lower federal
courts); Lockhart v. Fretwell, 506 U.S. 364, 375–76
(1993) (Thomas, J., concurring) (explaining that “neither federal supremacy nor any other principle of federal law requires that a state court’s interpretation of
federal law give way to a (lower) federal court’s interpretation”).
The bottom line is that both before and after the
district court held ICWA unconstitutional, the Texas
judge in the Y.R.J. adoption case (or any other) could
come out either way on an equal protection claim. Indeed, the state court judge has already ruled on some
of the constitutional claims presented here. See In re
Y.J., 2019 WL 6904728, at *1 (Tex. App.—Fort Worth,
5

Apparently recognizing this problem, the Brackeens argue
that “if the Supreme Court affirmed, all courts would be bound
by that decision.” En Banc Brief of Individual Plaintiffs 63. The
argument ignores the principle explained above that redressability must come from the judgment itself as opposed to the precedential force an opinion may have.
And there is another problem with this argument, one again
recognized by Justice Scalia. Standing is determined at the outset of a lawsuit, and no one then knows whether the case will be
one of the rare ones that makes it to the Supreme Court. Lujan
v. Defenders of Wildlife, 504 U.S. 555, 570 n.5 (1992) (explaining
that “standing is to be determined as of the commencement of
suit” and “at that point it could certainly not be known that the
suit would reach this Court”). If standing depended on whether
the Supreme Court granted cert, then a cert denial would wipe
away the years of litigation in the lower federal courts.

390a
Dec. 19, 2019) (noting family court’s holding that
ICWA violated the anticommandeering doctrine). A
petition challenging that ruling is pending with the
Supreme Court of Texas. See In re Y.J., Tex. S. Ct.
No. 20-0081 (petition available at 2020 WL 750104).
Some of the issues the petition asks the state high
court to resolve will sound familiar: whether ICWA
was “lawfully enacted by Congress” and whether it
“discriminate[s] on the basis of race.” Id. at 9, 13.
What we think about those same issues will have no
binding effect on the state courts that get to resolve
the adoption, whether that be the state supreme court
or the family court judge. That irrefutable point
means our ruling on the lawfulness of ICWA preferences cannot redress the plaintiffs’ injury.
One might wonder if the advisory nature of this
case doesn’t always characterize declaratory judgments. After all, “ordinarily a case or judicial controversy results in a judgment requiring award of process
of execution to carry it into effect.” Fidelity Nat’l Bank
& Tr. Co. v. Swope, 274 U.S. 123, 132 (1927). To be
sure, there is an advisory flavor to all declaratory actions: they resolve rights in a future suit that has not
yet fully materialized. Concerns that declaratory
judgments were advisory led the Supreme Court to refuse to hear some claims for declaratory relief before
the enactment of the Declaratory Judgment Act of
1934. Willing v. Chi. Auditorium Ass’n, 277 U.S. 274,
286–89 (1928) (Brandeis, J.) (explaining that deciding
whether a lessee would have violated a lease by demolishing a building before the demolition occurred
would be a “declaratory judgment[, which] relief is beyond the power conferred upon the federal judiciary”);
Liberty Warehouse Co. v. Grannis, 273 U.S. 70, 76

391a
(1927) (holding there was no jurisdiction over claim
under Kentucky’s declaratory-judgment law). But see
Nashville, Cent. & St. Louis Ry. v. Wallace, 288 U.S.
249, 258, 264–65 (1933) (holding that federal courts
had jurisdiction over claim brought under state declaratory-judgment law).
What saves proper declaratory judgments from a
redressability problem—but is lacking here—is that
they have preclusive effect on a traditional lawsuit
that is imminent.6 See 10B WRIGHT ET AL., supra,
§ 2771 (“A declaratory judgment is binding on the parties before the court and is claim preclusive in subsequent proceedings as to the matters declared . . . .”);
accord RESTATEMENT (SECOND) OF JUDGMENTS § 33.
Take an insurance coverage dispute, which was the
nature of the case upholding the federal Declaratory
Judgment Act and remains the prototypical declaratory action today. Aetna Life Ins. Co. v. Haworth, 300
U.S. 227 (1937). A federal court’s declaration, in a
case between the insurer and insured, of whether
there is coverage will bind those parties in a subsequent lawsuit seeking to recover on the policy. See id.
at 239, 243–44. That “definitive determination of the
legal rights of the parties” is what allows declaratory
judgments in federal court. Id. at 241. To be justiciable, a declaratory judgment must seek “specific relief
6
The more common standing problem for declaratory judgments is whether the second lawsuit “is of sufficient immediacy
and reality.” See 10B CHARLES ALAN WRIGHT ET AL., FEDERAL
PRACTICE & PROCEDURE § 2757 (4th ed. 2020). That is part of
standing’s injury requirement, which requires an “actual or imminent” harm. Lujan, 504 U.S. at 560 (1992) (quotations omitted). The redressability problem this request for declaratory relief poses is less common but no less fundamental.

392a
through a decree of a conclusive character.” Id.; accord MedImmune, Inc. v. Genentech, Inc., 549 U.S.
118, 127 (2007). In contrast, our resolution of the
equal protection question will conclude nothing.
A leading federal procedure treatise recognizes
that preclusive effect is what separates a permissible
declaratory judgment from an impermissible advisory
opinion:
The federal Declaratory Judgment Act provides that a declaratory judgment shall have
the force and effect of a final judgment or decree. The very purpose of this remedy is to establish a binding adjudication that enables
the parties to enjoy the benefits of reliance
and repose secured by res judicata. Denial of
any preclusive effect, indeed, would leave a
procedure difficult to distinguish from the
mere advisory opinions prohibited by Article
III.
18A WRIGHT ET AL., supra, § 4446. This requirement
explains why you will not find a declaratory judgment
that lacks preclusive effect.
This case will be the first. There is no mutuality
of parties, nor is the state court judge who will decide
Y.R.J.’s case a party. The Brackeens have suggested
that a ruling in this federal case would bind the Navajo Nation in state court. That is not true for multiple
reasons. For starters, the Navajo Nation was not a
party in the district court (it intervened on appeal), so
standing on that basis would not have existed when
the suit was filed or even when judgment was entered.
See Lujan, 504 U.S. at 570 n.5 (“[S]tanding is to be

393a
determined as of the commencement of suit.”).7 Relatedly, it is doubtful that issue preclusion applies to a
party that does not litigate in the trial court. Apart
from these defects relating to the timing of Navajo Nation’s entering this lawsuit, issue preclusion does not
usually apply to pure questions of law like whether
ICWA’s preferences violate the Fifth Amendment.
John G. & Marie Stella Kenedy Mem. Found. v.
Dewhurst, 90 S.W.3d 268, 288 (Tex. 2002) (explaining
that “[d]eterminations of law are not generally given
preclusive effect” in refusing to give effect to federal
court ruling interpreting old land grant under Mexican civil law); see also In re Westmoreland Coal Co.,
968 F.3d 526, 532 (5th Cir. 2020); RESTATEMENT (SECOND) OF JUDGMENTS § 29(7) (1982); 18 WRIGHT ET AL.,
supra, § 4425, at 697-701 (all recognizing same principle). This ordinary reluctance to give preclusive effect to questions of law becomes even stronger when,
as here, the two cases are in different forums and neither jurisdiction’s highest court has resolved the issue. RESTATEMENT (SECOND) OF JUDGMENTS § 29(7)
cmt. i.
JUDGE DUNCAN’s Opinion states the plaintiffs
need only show that the “practical consequences” of a
7
Lujan is right on point. The plaintiff sought to establish redressability by arguing that “by later participating in the suit”
two federal agencies “created a redressability (and hence a jurisdiction) that did not exist at the outset.” Id. at 569 n.4. That
argument did not work because “[t]he existence of federal jurisdiction ordinarily depends on the facts as they exist when the complaint is filed.” Id. (quoting Newman-Green, Inc. v. Alfonzo-Larrain, 490 U.S. 826, 830 (1989)). Any claim of postfiling redressability is even weaker here because Navajo Nation did not intervene until the appeal.

394a
ruling by this court would “significantly increase the
likelihood of relief.” Duncan Op. at 20. Note the opinion does not say—and can’t say because no case does—
that redressability can be met when the “practical
consequence” is convincing a state court judge to follow our lead. That distinction is critical. As I have
recounted, state courts have no obligation to follow a
lower federal court’s ruling on federal law. In contrast, the executive branch officials sued in cases like
Franklin would be bound in later litigation by the federal court’s declaratory judgment. 505 U.S. at 803
(recognizing that the Commerce Secretary’s role in
“litigating [the] accuracy” of the census meant that declaratory relief against her would redress plaintiff’s
injuries). The Franklin redressability dispute was
about whether the Cabinet member being sued had
sufficient influence over the challenged policy even
though the President had the ultimate say (as is always the case). On that question, a substantial likelihood that the Commerce Secretary could influence
the census conducted by the department she headed
established redressability. 505 U.S. at 803 (recognizing that it was the Commerce Secretary’s “policy determination concerning the census” that was being
challenged); see also supra note 4. Franklin’s unremarkable reasoning is why there is redressability for
the APA claims—a declaratory judgment against the
Interior Secretary would bind her when it comes to
enforcing the department’s challenged regulations.
But contrary to JUDGE DUNCAN’s Opinion, the
Plaintiffs’ standing to challenge regulations cannot
bootstrap the claims challenging ICWA’s statutory
preferences into federal court. DaimlerChrysler Corp.
v. Cuno, 547 U.S. 332, 352 (2006) (“[O]ur standing

395a
cases confirm that a plaintiff must demonstrate
standing for each claim he seeks to press.”). Even
without a regulation requiring “clear and convincing”
evidence to justify departing from the preferences, the
statutory preferences remain and must be applied by
state court judges unless they hold them unconstitutional. The benefit the individual Plaintiffs would receive from a declaration that the “clear and convincing
evidence” regulation is invalid establishes redressability for the APA claim challenging that regulation;
it does not show how a declaration that the underlying
statutory preferences are unconstitutional would redress plaintiffs’ injuries. But see Duncan Op. at 21–
22.
JUDGE DUNCAN’s second stab at redressability
also improperly cross-pollinates standing among different claims. Redressability arising from a declaration that any obligations the placement preferences
impose on child welfare officials violate anti-commandeering principles at most establishes standing for
that “particular claim[],” Allen v. Wright, 468 U.S.
737, 752 (1984), not the equal protection claim that
seeks to declare unlawful the preferences as they apply in state court proceedings. But see Duncan Op. at
21–22. And the statutory preferences remain on the
books regardless of federal funding based on ICWA
compliance.8 But see id. at 21.

8
CHIEF JUDGE OWEN also correctly notes that the funding issue “was not raised or briefed in the district court or this court.”
Owen Op. at 5. Nor is it clear how the individual plaintiffs, as
opposed to the States which cannot assert a Fifth Amendment
claim, are injured by the funding issue.

396a
The final redressability theory in JUDGE DUNCAN’s Opinion is that the “requested relief would make
the adoptions less vulnerable to being overturned” because it “would declare unenforceable the collateral
attack provisions themselves and the underlying
grounds for invalidity.” Duncan Op. at 21 (citing 25
U.S.C. §§ 1911-1914). This again mixes and matches
claims against different provisions instead of requiring the plaintiffs to “demonstrate standing separately” for each claim. Friends of the Earth, Inc. v.
Laidlaw Envtl. Servs., Inc., 528 U.S. 167, 185 (2000).
More fundamentally, it brings us back to where I
started: no state court judge has to follow what we
say about ICWA. Consequently, even if standing to
challenge the collateral review provisions somehow
transfers to support standing for challenging the separate provisions establishing the preferences in the
first place, no state court has to follow a “ruling” we
make about the collateral review provisions. To a
state court judge, our “ruling” is nothing more than
pontifications about the law. Perhaps our view persuades the state court, perhaps not.
So both of the opinions that find standing for the
equal protection claim end up basing that view, at
least in part, on the possibility that a Texas judge
might decide to follow our view of the law. Think
about the consequences of this unprecedented view of
standing. A plaintiff need only find a state court judge
who says she would defer to a federal court ruling on
the difficult constitutional issue she is facing. Presto!
A plaintiff could manufacture standing for a federal
lawsuit even when a declaratory judgment would not
have preclusive effect on any parties to the federal
suit. Talk about upsetting the state/federal balance.

397a
This license to allow outsourcing of traditional
state court matters to federal court brings me back to
the opening point. To supposedly vindicate federalism, we offend it by deciding questions that state court
judges are equipped to decide and have for decades—
with the Supreme Court having a chance to review
those rulings. See, e.g., Adoptive Couple v. Baby Girl,
570 U.S. 637 (2013) (case arising in South Carolina
courts); cf. Moore v. Sims, 442 U.S. 415, 418, 434–35
(1979) (holding that Younger abstention applies to
family law cases). That we disregard the limits of federal jurisdiction to reach out and decide issues that
are raised directly in adoption cases makes our lack of
faith in our state court colleagues even more troubling. Why aren’t they capable of deciding these issues that are squarely before them? Any historical
and institutional concerns about state courts’ willingness to vindicate federal constitutional rights are lessened when a federal statute is being challenged. If
anything, state court judges would be more receptive
to concerns, like the allegations plaintiffs raise here,
that a federal law is interfering with constitutional
protections for States and individuals.
If the case-or-controversy requirement means anything, it prevents a federal court from opining on a
constitutional issue on the mere hope that some judge
somewhere may someday listen to what we say. No
limitation on Article III is more fundamental than our
inability to issue such an advisory opinion.

398a
II.
A.
That brings us to the most tragic irony of today’s
opinions. After more than two centuries of courts’ recognizing sweeping federal power over Indian affairs
when that power was often used to destroy tribal life,
our court comes within a whisker of rejecting that
power when it is being used to sustain tribal life. It
would be news to Native Americans that federal authority to wage war against Indian nations, to ratify
treaties laying claim to more than a billion acres of
Indian land, to remove Indian communities to reservations, and to establish schools aimed at “civilizing”
Indian pupils does not reach the Indian family. See
United States v. Lara, 541 U.S. 193, 201–04 (2004); 1
COHEN’S HANDBOOK OF FEDERAL INDIAN LAW §§ 1.01–
03. Contrary to what a near-majority of our court concludes, the same power Congress once relied on to tear
Indian children from Indian homes authorizes Congress to enlist state courts in the project of returning
them.
Two centuries of federal domination over Indian
affairs are enough to sustain ICWA’s provisions regulating state domestic relations proceedings. Congress
has “plenary and exclusive” authority “to legislate in
respect to Indian tribes.” Lara, 541 U.S. at 200. This
“broad power,” White Mountain Apache Tribe v.
Bracker, 448 U.S. 136, 142 (1980), is found in Article
I, which authorizes Congress to “regulate commerce
. . . with the Indian tribes.” U.S. CONST. art. I, § 8.
The Indian Commerce Clause “accomplishes a greater
transfer of power from the States to the Federal Government than does the Interstate Commerce Clause.”

399a
Seminole Tribe of Fla. v. Florida, 517 U.S. 44, 62
(1996).
JUDGE DENNIS well articulates how federal supremacy in the field of Indian affairs grew out of the
Founding generation’s understanding of the relationship between the new nation and tribes. From the
outset, the Continental Congress dealt with Indian
tribes just as it did foreign nations, wielding an indivisible bundle of powers that encompassed war, diplomacy, and trade. En Banc Brief for Professor Gregory
Ablavsky in Support of Defendants-Appellants and
Reversal at 5–6. But under the Articles of Confederation, some states claimed much of the same authority,
leaving the state and federal governments jostling for
control over Indian relations. Gregory Ablavsky, Beyond the Indian Commerce Clause, 124 YALE L.J.
1012, 1021–22 (2015) (discussing ARTICLES OF CONFEDERATION OF 1781, art. IX, para. 4). The Constitution solved this predicament by making federal authority over Indian commerce, treatymaking, and territorial administration exclusive. Id. The national
government soon claimed, with the apparent assent of
state leaders, undivided power over Indian affairs. Id.
at 1041–44. Dennis Op. at 7–13.
The Framers grounded federal power over Indian
affairs in both the explicit constitutional text and in
implicit preconstitutional understandings of sovereignty.9 Brief of Indian Law Scholars as Amici Curiae
9

Just as the Supreme Court has stressed that background
principles of state sovereign immunity inform interpretation of
the Eleventh Amendment, Seminole Tribe, 517 U.S. at 72, the
Court has recognized the relevance of the historical context from
which the plenary federal Indian power emerged. See Lara, 541
U.S. at 201 (tracing federal authority over Indian affairs to “the

400a
in Support of Defendants-Appellants at 1. They
viewed relations between the United States and Indian tribes as governed by the law of nations. Ablavsky, supra, at 1059–67. Many early treaties embraced
the idea that the United States, as the more powerful
sovereign, owed a duty of protection to tribes. Brief of
Indian Law Scholars, at 1–2 (collecting examples).
And the Supreme Court emphasized that this responsibility for Indian welfare imbued the federal government with immense power at the expense of the
states. See, e.g., Worcester v. Georgia, 31 U.S. 515,
560–61 (1832); United States v. Kagama, 118 U.S.
375, 384 (1886); United States v. Rickert, 188 U.S. 432,
437–38 (1903).
How far does this power extend? The Supreme
Court has upheld federal authority to enact special
criminal laws, in the name of “continued guardianship,” affecting U.S. citizens who are Indian tribe
members. United States v. Nice, 241 U.S. 591, 595–99
(1916) (construing the General Allotment Act of 1887).
Congress may violate treaty obligations in its disposal
of tribal property, Lone Wolf v. Hitchcock, 187 U.S.
553, 564, 567–68 (1903) (validating congressional allotment in conflict with treaty between the United
States and Kiowa and Comanche Tribes); unilaterally
determine tribal membership for the purposes of administering tribal assets, Del. Tribal Bus. Cmte. v.
Weeks, 430 U.S. 73, 84–86 (1977) (upholding statute
Constitution’s adoption of preconstitutional powers necessarily
inherent in any Federal Government”); Morton v. Mancari, 417
U.S. 535, 551–53 (1974) (“The plenary power of Congress to deal
with the special problems of Indians is drawn both explicitly and
implicitly from the Constitution itself.”).

401a
appropriating award made by Indian Claims Commission); exercise eminent domain over tribal lands,
Cherokee Nation v. S. Kan. Ry. Co., 135 U.S. 641, 656–
67 (1890) (upholding legislation granting railroad
right of way through Indian land); and single out Indian applicants for preferred hiring in federal jobs,
Mancari, 417 U.S. at 551–55 (sustaining constitutionality of Indian Reorganization Act of 1934).10
Where do the states stand in relation to the “plenary and exclusive” federal power over Indian affairs?
They are “divested of virtually all authority over Indian commerce and Indian tribes.” Seminole Tribe,
10

The Supreme Court has recognized the extraordinary
breadth of federal power in another area where Congress wields
plenary authority: immigration. See Michael Doran, The EqualProtection Challenge to Federal Indian Law, 6 U. Pa. J. L. & Pub.
Aff. 1, 34– 42 (2020). The foundational cases recognizing plenary
federal authority over immigration and Indian affairs were decided just three years apart and rely on similar reasoning. Compare Chae Chan Ping v. United States, 130 U.S. 581 (1889), with
Kagama, 118 U.S. at 375 (1886); see also Doran, supra, at 34–36
(noting similarities in the reasoning of the cases).
There is also symmetry in the scope of federal power over
these two subjects. Just as limited rational-basis review governs
classifications involving tribes, the immigration power allows the
federal government to discriminate among noncitizens in a way
that states may not. Compare Mathews v. Diaz, 426 U.S. 67, 79–
80 (1976) (Congress may withhold Medicare eligibility from certain noncitizens), with Graham v. Richardson, 403 U.S. 365, 376
(1971) (states may not constitutionally deny welfare benefits to
certain noncitizens); see also Doran, supra, at 36–39 & n.193
(drawing this comparison). And because “the regulation of aliens
is so intimately blended and intertwined with responsibilities of
the national government,” “[a]ny concurrent state power that
may exist is restricted to the narrowest of limits.” Hines v. Davidowitz, 312 U.S. 52, 66–68 (1941).

402a
517 U.S. at 62. The states, in ratifying the Constitution, ceded to Congress “the exclusive right to regulate
. . . intercourse with the Indians,” Worcester, 31 U.S.
at 590, as clearly as the states gave Congress sole
power to “coin money, establish post offices, and declare war,” id. at 580–81. Even when federal policy
favoring state control over Indian affairs reached its
height, Congress withheld from the states “general
civil regulatory powers . . . over reservation Indians.”
Bryan v. Itasca Cty., 426 U.S. 373, 390 (1976) (interpreting Pub. L. 280); COHEN’S § 1.06 & n.32.
Some examples illustrate the limits of state authority to regulate Indian affairs even in core areas of
state power like criminal law and taxation. Without
Congress’s blessing, states cannot exercise criminal
jurisdiction over Indian country. See Washington v.
Confederated Bands and Tribes of the Yakima Indian
Nation, 439 U.S. 463, 470–71 (1979) (discussing federal authorization of state jurisdiction under Pub. L.
280); United States v. John, 437 U.S. 634, 649–54
(1978) (holding state criminal jurisdiction precluded
by Major Crimes Act of 1885); Kagama, 118 U.S. at
379–80. Congress can exempt Indians from state
property taxes. Bd. of Comm’rs of Creek Cty. v. Seber,
318 U.S. 705, 715–18 (1943). Even when Congress
has not legislated, exclusive federal authority in the
domain of Indian affairs may preempt state regulation. McClanahan v. State Tax Comm’n of Ariz., 411
U.S. 164, 165 (1973) (invalidating state tax on tribe
member’s income earned on reservation); Bracker, 448
U.S. at 150–52 (striking down state tax on commercial
activities of non-Indians on Indian land).
JUDGE DUNCAN’s Opinion proclaims ICWA a novel
exercise of congressional power because it interferes

403a
with state domestic relations proceedings. But as
JUDGE DENNIS recounts, the federal government has
been a constant, often deleterious presence in the life
of the Indian family from the beginning. And, as will
be discussed, ICWA is hardly the only statute to impose federal standards on state courts.
Congress’s interest in the destiny of Indian children is older than the Republic itself. The Continental Congress viewed Indian education as a wartime
strategy, authorizing a grant to Dartmouth College
with the hope that bringing Indian students to the
school would deter any possible attack by British-allied tribes. Matthew L.M. Fletcher & Wenona T.
Singel, Indian Children and the Federal-Tribal Trust
Relationship, 95 NEB. L. REV. 885, 911 (2017). Following Independence, more than one hundred treaties
provided for Indian education. Brief of Indian Law
Scholars, at 4. But early federal efforts to offer voluntary education programs morphed into a “coercive and
destructive” system of boarding schools designed to
assimilate Indian children.
MATTHEW L.M.
FLETCHER, PRINCIPLES OF FEDERAL INDIAN LAW § 3.6
(1st ed. 2017); Brief of Ablavsky, at 20. The federal
government instituted its “civilization” policy by force,
punishing Indian families that resisted turning over
their children and hunting down the pupils who escaped. FLETCHER, FEDERAL INDIAN LAW § 3.6. At
these schools, students were beaten for speaking their
native languages. COHEN’S § 1.04; Dennis Op. at 21–
24. While these practices have abated, federal involvement in Indian schooling has not. Under today’s
federal policy of Indian self-determination, Congress
provides substantial funding for Indian education and
continues to operate some schools with “tribal input

404a
and . . . tribal control.” Fletcher & Singel, supra, at
964; see also Brief of Indian Law Scholars, at 4.
In the view of JUDGE DUNCAN’s Opinion, this narrative sheds little light on whether Congress can set
standards for state adoptions involving Indian children because no Supreme Court decision or “foundingera congressional practice” explicitly blesses federal
intervention in state domestic relations proceedings.
Duncan Op. at 2, 29. But adoption as we know it today did not exist at common law and did not become
the subject of state legislation until the mid-nineteenth century. Stephen B. Presser, The Historical
Background of American Adoption Law, 11 J. FAM. L.
443, 443 (1971). It would have been “anachronistic . . .
and bizarre,” in the words of one amicus, for the founding-era Congress to attempt legislative interference
with state proceedings that would not exist for another eight decades. Brief of Ablavsky, at 16; see also
Brown v. Bd. of Educ., 347 U.S. 483, 489–90 (noting
that the history of the Fourteenth Amendment was
“inconclusive” on the issue of school segregation because “[i]n the South, the movement toward free common schools, supported by general taxation, had not
yet taken hold” at the time of enactment). Given that
“at least during the first century of America’s national
existence . . . Indian affairs were more an aspect of
military and foreign policy than a subject of domestic
or municipal law,” it should come as no surprise that
the focus of the broad federal power over Indian affairs has shifted over time. Lara, 541 U.S. at 200 (internal citation omitted).
Still, JUDGE DUNCAN’s Opinion declares ICWA—
as a “federal Indian law [that] governs states’ own ad-

405a
ministrative and judicial proceedings” for domestic relations—to be highly “unusual,” and finds no historical analogue for this (highly specific) category of legislation. Duncan Op. at 2, 34. But while family court
proceedings typically are governed by state law, they
are not a “no fly zone” for federal interests. See Brief
of Casey Family Programs, at 24–26 (discussing federal laws that apply in domestic relations cases).
Take the Servicemember’s Civil Relief Act. 50 U.S.C.
§§ 3901–4043. The law sets rules governing child custody proceedings in state courts by, among other
things, limiting the court’s consideration of a servicemember’s deployment when determining custody. See
id. §§ 3931, 3938. In asserting a federal interest in
family court proceedings, the Servicemember’s Civil
Relief Act is not unique. To further the federal government’s treatymaking and foreign relations powers,
the International Child Abduction Remedies Act
charges state courts with administering the Hague
Convention on the Civil Aspects of International Child
Abduction to ensure “prompt return” of abducted children. See 28 U.S.C. §§ 9001–03. And JUDGE HIGGINSON cites several examples of federal laws that
preempt state domestic relations law. Higginson Op.
at 2-3 (citing cases involving ERISA, the Railroad Retirement Act, the National Service Life Insurance Act,
and Homestead Act). If these statutes permissibly
“govern[] states’ own administrative and judicial proceedings,” Duncan Op. at 2, why would Congress lack
authority to do the same through its “plenary and exclusive” power over Indian affairs?
When Congress enacted ICWA, it declared the removal of Indian children from their homes by state officials “the most tragic and destructive aspect of

406a
American Indian life today.” See H.R. REP. No. 951386, at 9 (1978). Family-separation policies had
“contributed to a number of problems, including the
erosion of generations of Indians from Tribal communities, loss of Indian traditions and culture, and longterm emotional effects on Indian children caused by
the loss of their Indian identity.” Indian Child Welfare Act Proceedings, Final Rule, 81 Fed. Reg. 38,864,
38, 780 (June 14, 2016) (citing Hearing Before the Subcommittee on Indian Affairs of the Senate Comm. on
Interior & Insular Affairs on Problems that Am. Indian Families Face in Raising Their Children & How
These Problems Are Affected by Fed. Action or Inaction, 93 Cong., 2d Sess., at 1–2, 45–51 (1974)). Although ICWA can never heal these wounds, it sought
to stanch their bleeding. As the culmination of extensive federal involvement in the education and welfare
of Indian children, the law falls well within the broad
congressional power over Indian affairs.
B.
This leads to today’s final irony. JUDGE DUNCAN’s
Opinion overrides the plenary federal power over Indian affairs, with its deep textual and historical roots,
based on a principle that finds support in neither text
nor history: the notion that the Constitution prohibits
the federal government from granting preferences to
tribe members. Rather than credit copious originalist
evidence of the sweeping federal power over Indian affairs, JUDGE DUNCAN’s Opinion adopts the atextual
and ahistorical argument that the Fifth Amendment’s
implicit equal protection guarantee strips Congress of
the power to enact tribal preferences. Duncan Op. at
71; see Bolling v. Sharpe, 347 U.S. 497, 499 (1955)

407a
(recognizing that the Fourteenth Amendment’s guarantee of “‘equal protection of the laws’ is a more explicit safeguard of prohibited unfairness” than the
Fifth Amendment’s Due Process Clause). That is
nothing new. Originalism usually goes AWOL when
the issue is whether the government may grant preferences to historically disadvantaged groups. See,
e.g., ERIC J. SEGALL, ORIGINALISM AS FAITH 127–30
(2018); CASS R. SUNSTEIN, RADICALS IN ROBES 131–42
(2005); Steven G. Calabresi & Gary Lawson, The Rule
of Law as a Law of Law, 90 NOTRE DAME L. REV. 483,
490–91 (2014); Michael B. Rappaport, Originalism
and the Colorblind Constitution, 89 NOTRE DAME L.
REV. 71, 76 (2013); Stephen M. Griffin, Rebooting
Originalism, 2008 U. ILL. L. REV. 1185, 1202–03; Jed
Rubenfeld, Affirmative Action, 107 YALE L.J. 427,
430–32 (1997); Eric Schnapper, Affirmative Action
and the Legislative History of the Fourteenth Amendment, 71 VA. L. REV. 753, 754 (1985).11
Ignoring the lack of historical support for a constitutional ban on federal preferences to historically-disadvantaged groups is especially flagrant in light of
200-plus years of jurisprudence recognizing vast federal power over Indian affairs. As that authority flows
11
Although Professor Rappaport recognizes that some court decisions rejecting the constitutionality of affirmative action programs “engage[] in little discussion of the constitutional text and
almost no discussion of the history of the Fourteenth Amendment,” he tries to push back on the prevailing scholarly view that
the original understanding allows states to pursue such policies.
Rappaport, supra, at 76. But even he recognizes that the historical case is much different when it comes to claims that the federal government cannot adopt policies that prefer disadvantaged
groups. Id. at 71 n.2, 73.

408a
in part from the federal government’s plenary power
over foreign relations, there is nothing unusual or unconstitutional about exercising it to grant preferences.
Preferring some nations over others—through alliances, aid, and treaties, among other things—is the
essence of foreign policy. That’s why a preference for
tribe members “does not constitute racial discrimination.” Mancari, 417 U.S. 553; see Bethany R. Berger,
Savage Equalities, 94 WASH. L. REV. 583, 627 (2019)
(“ICWA’s definition of ‘Indian children,’ which requires either tribal citizenship or that the child has a
tribal citizen parent and is eligible for citizenship,
rests squarely on the kind of ‘political rather than racial’ belonging of which Mancari approved.”). When
Congress “single[s] out [Indians] for special treatment,” it draws upon its expansive authority to structure relations between the United States and another
sovereign. Mancari, 417 U.S. at 554–55 (describing
Indians as “members of quasi-sovereign tribal entities”); accord Fisher v. Dist. Court, 424 U.S. 382, 390
(1976) (explaining that the jurisdiction of a tribal
court “does not derive from [] race . . . but rather from
the quasi-sovereign status of [tribes] under federal
law”). These preferences further centuries-old interests animating the federal government’s “special relationship” with tribes. Mancari, 417 U.S. at 541–42,
552.
C.
Why bother with these objections to the substantive aspects of today’s opinions if, as I have explained,
they will have all the binding effect of a law review

409a
article?12 Because the procedural and substantive
problems with this case are two peas in the same activist pod.
Judicial restraint is a double victim of today’s
tome. The court ignores standing requirements that
enforce “the proper—and properly limited—role of the
courts in a democratic society.” Warth v. Seldin, 422
U.S. 490, 498 (1975). And a willingness, even eagerness, to strike down a 43-year-old federal law that continues to enjoy bipartisan support scorns the notion
that “declar[ing] an Act of Congress unconstitutional
. . . is the gravest and most delicate duty” that federal
judges are “called on to perform.” Blodgett v. Holden,
275 U.S. 142, 147–48 (1927) (Holmes, J., concurring).
Whither the passive virtues? Alexander Bickel,
The Supreme Court 1960 Term Foreword: The Passive
Virtues, 75 HARV. L. REV. 40 (1961).
Whither the “conviction that it is an awesome
thing to strike down an act of the legislature approved
by the Chief Executive”? ROBERT H. JACKSON, THE
STRUGGLE FOR JUDICIAL SUPREMACY: A STUDY OF A
CRISIS IN AMERICAN POWER POLITICS 323 (Legal Classics ed. 2000).
Heaped, one must conclude, on the pile of broken
promises that this country has made to its Native peoples.

12
In addition to a federal court’s inability to create precedent
for state courts, the two equal protection challenges our court upholds will not even be precedential within our circuit because we
are affirming the district court’s ruling by an equally divided
vote.

410a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-11479
August 9, 2019; MODIFIED August 16, 2019
CHAD EVERET BRACKEEN; JENNIFER KAY
BRACKEEN; STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ; STATE OF INDIANA; JASON CLIFFORD; FRANK NICHOLAS LIBRETTI;
STATE OF LOUISIANA; HEATHER LYNN LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs - Appellees
v.
DAVID BERNHARDT, SECRETARY, U.S. DEPARTMENT OF THE INTERIOR; TARA SWEENEY, in her
official capacity as Acting Assistant Secretary for Indian Affairs; BUREAU OF INDIAN AFFAIRS;
UNITED STATES DEPARTMENT OF INTERIOR;
UNITED STATES OF AMERICA; ALEX AZAR, In his
official capacity as Secretary of the United States Department of Health and Human Services; UNITED
STATES DEPARTMENT OF HEALTH AND HUMAN SERVICES,
Defendants - Appellants
CHEROKEE
NATION;
ONEIDA
NATION;
QUINAULT INDIAN NATION; MORONGO BAND
OF MISSION INDIANS,
Intervenor Defendants - Appellants

411a
_____________________
Appeals from the United States District Court
for the Northern District of Texas
_____________________

412a
Before WIENER, DENNIS, and OWEN, Circuit
Judges.
JAMES L. DENNIS, Circuit Judge:
This case presents facial constitutional challenges
to the Indian Child Welfare Act of 1978 (ICWA) and
statutory and constitutional challenges to the 2016
administrative rule (the Final Rule) that was promulgated by the Department of the Interior to clarify provisions of ICWA. Plaintiffs are the states of Texas,
Indiana, and Louisiana, and seven individuals seeking to adopt Indian children. Defendants are the
United States of America, several federal agencies
and officials in their official capacities, and five intervening Indian tribes. Defendants moved to dismiss
the complaint for lack of subject matter jurisdiction,
but the district court denied the motion, concluding,
as relevant to this appeal, that Plaintiffs had Article
III standing. The district court then granted summary judgment in favor of Plaintiffs, ruling that provisions of ICWA and the Final Rule violated equal protection, the Tenth Amendment, the nondelegation
doctrine, and the Administrative Procedure Act. Defendants appealed. Although we AFFIRM the district
court’s ruling that Plaintiffs had standing, we REVERSE the district court’s grant of summary judgment to Plaintiffs and RENDER judgment in favor of
Defendants.
BACKGROUND
I. The Indian Child Welfare Act (ICWA)
Congress enacted the Indian Child Welfare Act of
1978 (ICWA), 25 U.S.C. §§ 1901 et seq., to address rising concerns over “abusive child welfare practices that

413a
resulted in the separation of large numbers of Indian
children from their families and tribes through adoption or foster care placement, usually in non-Indian
homes.” Miss. Band Choctaw Indians v. Holyfield,
490 U.S. 30, 32 (1989). Recognizing that a “special relationship” exists between the United States and Indian tribes, Congress made the following findings:
Congress has plenary power over Indian affairs.
25 U.S.C. § 1901(1) (citing U.S. CONST. art. I, section
8, cl. 3 (“The Congress shall have Power . . . To regulate Commerce . . . with the Indian Tribes.”)).
“[T]here is no resource that is more vital to the
continued existence and integrity of Indian tribes
than their children . . . .” Id. at § 1901(3).
“[A]n alarmingly high percentage of Indian families are broken up by the removal, often unwarranted,
of their children from them by nontribal public and
private agencies and that an alarmingly high percentage of such children are placed in non-Indian foster
and adoptive homes and institutions.”
Id. at
§ 1901(4).
“States exercising their recognized jurisdiction
over Indian child custody proceedings through administrative and judicial bodies, have often failed to recognize the essential tribal relations of Indian people
and the cultural and social standards prevailing in Indian communities and families.” Id. at § 1901(5).
In light of these findings, Congress declared that
it was the policy of the United States “to protect the
best interests of Indian children and to promote the
stability and security of Indian tribes and families by
the establishment of minimum Federal standards for

414a
the removal of Indian children from their families and
the placement of such children in foster or adoptive
homes which will reflect the unique values of Indian
culture, and by providing for assistance to Indian
tribes in the operation of child and family service programs.” Id. at § 1902.
ICWA applies in state court child custody proceedings involving an “Indian child,” defined as “any unmarried person who is under age eighteen and is either (a) a member of an Indian tribe or (b) is eligible
for membership in an Indian tribe and is the biological
child of a member of an Indian tribe.” Id. at § 1903(4).
In proceedings for the foster care placement or termination of parental rights, ICWA provides “the Indian
custodian of the child and the Indian child’s tribe [] a
right to intervene at any point in the proceeding.” Id.
at § 1911(c). Where such proceedings are involuntary,
ICWA requires that the parent, the Indian custodian,
the child’s tribe, or the Secretary of the United States
Department of the Interior (Secretary or Secretary of
the Interior) be notified of pending proceedings and of
their right to intervene. Id. at § 1912. In voluntary
proceedings for the termination of parental rights or
adoptive placement of an Indian child, the parent can
withdraw consent for any reason prior to entry of a
final decree of adoption or termination, and the child
must be returned to the parent. Id. at § 1913(c). If
consent was obtained through fraud or duress, a parent may petition to withdraw consent within two
years after the final decree of adoption and, upon a
showing of fraud or duress, the court must vacate the
decree and return the child to the parent. Id. at
§ 1913(d). An Indian child, a parent or Indian custodian from whose custody the child was removed, or the

415a
child’s tribe may file a petition in any court of competent jurisdiction to invalidate an action in state court
for foster care placement or termination of parental
rights if the action violated any provision of ICWA
§§ 1911–13. Id. at § 1914.
ICWA further sets forth placement preferences for
foster care, preadoptive, and adoptive proceedings involving Indian children. Section 1915 requires that
“[i]n any adoptive placement of an Indian child under
State law, a preference shall be given, in the absence
of good cause to the contrary, to a placement with: (1)
a member of the child’s extended family; (2) other
members of the Indian child’s tribe; or (3) other Indian
families.” Id. at § 1915(a). Similar requirements are
set for foster care or preadoptive placements. Id. at
§ 1915(b). If a tribe establishes by resolution a different order of preferences, the state court or agency effecting the placement “shall follow [the tribe’s] order
so long as the placement is the least restrictive setting
appropriate to the particular needs of the child.” Id.
at § 1915(c).
The state in which an Indian child’s placement
was made shall maintain records of the placement,
which shall be made available at any time upon request by the Secretary or the child’s tribe. Id. at
§ 1915(e). A state court entering a final decree in an
adoptive placement “shall provide the Secretary with
a copy of the decree or order” and information as necessary regarding “(1) the name and tribal affiliation of
the child; (2) the names and addresses of the biological
parents; (3) the names and addresses of the adoptive
parents; and (4) the identity of any agency having files
or information relating to such adoptive placement.”
Id. at § 1951(a). ICWA’s severability clause provides

416a
that “[i]f any provision of this chapter or the applicability thereof is held invalid, the remaining provisions
of this chapter shall not be affected thereby.” Id. at
§ 1963.
II. The Final Rule
ICWA provides that “the Secretary [of the Interior] shall promulgate such rules and regulations as
may be necessary to carry out [its] provisions.” 25
U.S.C. § 1952. In 1979, the Bureau of Indian Affairs
(BIA) promulgated guidelines (the “1979 Guidelines”)
intended to assist state courts in implementing ICWA
but without “binding legislative effect.” Guidelines for
State Courts; Indian Child Custody Proceedings, 44
Fed. Reg. 67,584 (Nov. 26, 1979). The 1979 Guidelines
left the “primary responsibility” of interpreting certain language in ICWA “with the [state] courts that
decide Indian child custody cases.” Id. However, in
June 2016, the BIA promulgated the Final Rule to
“clarify the minimum Federal standards governing
implementation of [ICWA]” and to ensure that it “is
applied in all States consistent with the Act’s express
language, Congress’s intent in enacting the statute,
and to promote the stability and security of Indian
tribes and families.” 25 C.F.R. § 23.101; Indian Child
Welfare Act Proceedings, 81 Fed. Reg. 38,778, 38,868
(June 14, 2016). The Final Rule explained that while
the BIA “initially hoped that binding regulations
would not be necessary to carry out [ICWA], a third of
a century of experience has confirmed the need for
more uniformity in the interpretation and application
of this important Federal law.” 81 Fed. Reg. at 38,782.

417a
The Final Rule provides that states have the responsibility of determining whether a child is an “Indian child” subject to ICWA’s requirements. 25 C.F.R.
§§ 23.107–22; 81 Fed. Reg. at 38,778, 38,869–73. The
Final Rule also sets forth notice and recordkeeping requirements for states, see 25 U.S.C. §§ 23.140–41; 81
Fed. Reg. at 38,778, 38,875–76, and requirements for
states and individuals regarding voluntary proceedings and parental withdrawal of consent, see 25 C.F.R.
§§ 23.124–28; 81 Fed. Reg. at 38,778, 38,873–74. The
Final Rule also restates ICWA’s placement preferences and clarifies when they apply and when states
may depart from them. See 25 C.F.R. §§ 23.129–32; 81
Fed. Reg. at 38,778, 38,874–75.
III. The Instant Action
A. Parties
1. Plaintiffs
Plaintiffs in this action are the states of Texas,
Louisiana, and Indiana,1 (collectively, the “State
Plaintiffs”), and seven individual Plaintiffs—Chad
and Jennifer Brackeen (the “Brackeens”), Nick and
Heather Libretti (the “Librettis”), Altagracia Socorro
Hernandez (“Hernandez”), and Jason and Danielle
Clifford (the “Cliffords”) (collectively, “Individual

1

There are three federally recognized tribes in Texas: the
Yselta del Sur Pueblo, the Kickapoo Tribe, and the AlabamaCoushatta Tribe. There are four federally recognized tribes in
Louisiana: the Chitimacha Tribe, the Coushatta Tribe, the Tunica-Biloxi Tribe, and the Jena Band of Choctaw Indians. There
is one federally recognized tribe in Indiana: the Pokagon Band of
Potawatomi Indians.

418a
Plaintiffs”) (together with State Plaintiffs, “Plaintiffs”).
a. The Brackeens & A.L.M.
At the time their initial complaint was filed in the
district court, the Brackeens sought to adopt A.L.M.,
who falls within ICWA’s definition of an “Indian
Child.” His biological mother is an enrolled member
of the Navajo Nation and his biological father is an
enrolled member of the Cherokee Nation. When
A.L.M. was ten months old, Texas’s Child Protective
Services (“CPS”) removed him from his paternal
grandmother’s custody and placed him in foster care
with the Brackeens. Both the Navajo Nation and the
Cherokee Nation were notified pursuant to ICWA and
the Final Rule. A.L.M. lived with the Brackeens for
more than sixteen months before they sought to adopt
him with the support of his biological parents and paternal grandmother. In May 2017, a Texas court, in
voluntary proceedings, terminated the parental rights
of A.L.M.’s biological parents, making him eligible for
adoption under Texas law. Shortly thereafter, the
Navajo Nation notified the state court that it had located a potential alternative placement for A.L.M.
with non-relatives in New Mexico, though this placement ultimately failed to materialize. In July 2017,
the Brackeens filed an original petition for adoption,
and the Cherokee Nation and Navajo Nation were notified in compliance with ICWA. The Navajo Nation
and the Cherokee Nation reached an agreement
whereby the Navajo Nation was designated as
A.L.M.’s tribe for purposes of ICWA’s application in
the state proceedings. No one intervened in the Texas
adoption proceeding or otherwise formally sought to

419a
adopt A.L.M. The Brackeens entered into a settlement with the Texas state agency and A.L.M.’s guardian ad litem specifying that, because no one else
sought to adopt A.L.M., ICWA’s placement preferences did not apply. In January 2018, the Brackeens
successfully petitioned to adopt A.L.M. The Brackeens initially alleged in their complaint that they
would like to continue to provide foster care for and
possibly adopt additional children in need, but their
experience adopting A.L.M. made them reluctant to
provide foster care for other Indian children in the future. Since their complaint was filed, the Brackeens
have sought to adopt A.L.M.’s sister, Y.R.J. in Texas
state court. Y.R.J., like her brother, is an Indian Child
for purposes of ICWA. The Navajo Nation contests the
adoption. On February 2, 2019, the Texas court
granted the Brackeens’ motion to declare ICWA inapplicable as a violation of the Texas constitution, but
“conscientiously refrain[ed]” from ruling on the Brackeens’ claims under the United States Constitution
pending our resolution of the instant appeal.
b. The Librettis & Baby O.
The Librettis live in Nevada and sought to adopt
Baby O. when she was born in March 2016. Baby O.’s
biological mother, Hernandez, wished to place Baby
O. for adoption at her birth, though Hernandez has
continued to be a part of Baby O.’s life and she and the
Librettis visit each other regularly. Baby O.’s biological father, E.R.G., descends from members of the Ysleta del sur Pueblo Tribe (the “Pueblo Tribe”), located
in El Paso, Texas, and was a registered member at the
time Baby O. was born. The Pueblo Tribe intervened
in the Nevada custody proceedings seeking to remove
Baby O. from the Librettis. Once the Librettis joined

420a
the challenge to the constitutionality of the ICWA and
the Final Rule, the Pueblo Tribe indicated that it was
willing settle. The Librettis agreed to a settlement
with the tribe that would permit them to petition for
adoption of Baby O. The Pueblo Tribe agreed not to
contest the Librettis’ adoption of Baby O., and on December 19, 2018, the Nevada state court issued a decree of adoption, declaring that the Librettis were
Baby O.’s lawful parents. Like the Brackeens, the Librettis alleged that they intend to provide foster care
for and possibly adopt additional children in need but
are reluctant to foster Indian children after this experience.
c. The Cliffords & Child P.
The Cliffords live in Minnesota and seek to adopt
Child P., whose maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the
“White Earth Band”). Child P. is a member of the
White Earth Band for purposes of ICWA’s application
in the Minnesota state court proceedings. Pursuant
to ICWA section 1915’s placement preferences, county
officials removed Child P. from the Cliffords’ custody
and, in January 2018, placed her in the care of her
maternal grandmother, whose foster license had been
revoked. Child P.’s guardian ad litem supports the
Cliffords’ efforts to adopt her and agrees that the
adoption is in Child P.’s best interest. The Cliffords
and Child P. remain separated, and the Cliffords face
heightened legal barriers to adopting her. On January 17, 2019, the Minnesota court denied the Cliffords’
motion for adoptive placement.

421a
2. Defendants
Defendants are the United States of America; the
United States Department of the Interior and its Secretary Ryan Zinke, in his official capacity; the BIA and
its Director Bryan Rice, in his official capacity; the
BIA Principal Assistant Secretary for Indian Affairs
John Tahsuda III, in his official capacity; and the Department of Health and Human Services (“HHS”) and
its Secretary Alex M. Azar II, in his official capacity
(collectively the “Federal Defendants”). Shortly after
this case was filed in the district court, the Cherokee
Nation, Oneida Nation, Quinalt Indian Nation, and
Morengo Band of Mission Indians (collectively, the
“Tribal Defendants”) moved to intervene, and the district court granted the motion. On appeal, we granted
the Navajo Nation’s motion to intervene as a defendant2 (together with Federal and Tribal Defendants,
“Defendants”).
B. Procedural History
Plaintiffs filed the instant action against the Federal Defendants in October 2017, alleging that the Final Rule and certain provisions of ICWA are unconstitutional and seeking injunctive and declaratory relief.
Plaintiffs argued that ICWA and the Final Rule violated equal protection and substantive due process
2

The Navajo Nation had previously moved to intervene twice
in the district court. The first motion was for the limited purpose
of seeking dismissal pursuant to Rule 19, which the district court
denied. The Navajo Nation filed a second motion to intervene for
purposes of appeal after the district court’s summary judgment
order. The district court deferred decision on the motion pending
further action by this court, at which time the Navajo Nation
filed the motion directly with this court.

422a
under the Fifth Amendment and the anticommandeering doctrine that arises from the Tenth Amendment. Plaintiffs additionally sought a declaration
that provisions of ICWA and the Final Rule violated
the nondelegation doctrine and the Administrative
Procedure Act (APA). Defendants moved to dismiss,
alleging that Plaintiffs lacked standing. The district
court denied the motion. All parties filed cross-motions for summary judgment. The district court
granted Plaintiffs’ motion for summary judgment in
part, concluding that ICWA and the Final Rule violated equal protection, the Tenth Amendment, and
the nondelegation doctrine, and that the challenged
portions of the Final Rule were invalid under the
APA.3 Defendants appealed. A panel of this court
subsequently stayed the district court’s judgment
pending further order of this court. In total, fourteen
amicus briefs were filed in this court, including a brief
in support of Plaintiffs and affirmance filed by the
state of Ohio; and a brief in support of Defendants and
reversal filed by the states of California, Alaska, Arizona, Colorado, Idaho, Illinois, Iowa, Maine, Massachusetts, Michigan, Minnesota, Mississippi, Montana,
New Jersey, New Mexico, Oregon, Rhode Island,
Utah, Virginia, Washington, and Wisconsin.
STANDARD OF REVIEW
We review a district court’s grant of summary
judgment de novo. See Texas v. United States, 497
F.3d 491, 495 (5th Cir. 2007). Summary judgment is
appropriate when the movant has demonstrated “that
there is no genuine dispute as to any material fact and
3

The district court denied Plaintiffs’ substantive Due Process
claim, from which Plaintiffs do not appeal.

423a
the movant is entitled to judgment as a matter of law.”
FED. R. CIV. P. 56(a). A genuine dispute of material
fact exists “if the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986).
DISCUSSION
I. Article III Standing
Defendants first contend that Plaintiffs lack
standing to challenge ICWA and the Final Rule. The
district court denied Defendants’ motion to dismiss on
this basis, concluding that Individual Plaintiffs had
standing to bring an equal protection claim; State
Plaintiffs had standing to challenge provisions of
ICWA and the Final Rule on the grounds that they
violated the Tenth Amendment and the nondelegation
doctrine; and all Plaintiffs had standing to bring an
APA claim challenging the validity of the Final Rule.
Article III limits the power of federal courts to
“Cases” and “Controversies.” See Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (citing U.S. CONST.
art. III, § 2). “Standing to sue is a doctrine rooted in
the traditional understanding of a case or controversy.” Id. To meet the Article III standing requirement, plaintiffs must demonstrate “(1) an injury that
is (2) fairly traceable to the defendant’s allegedly unlawful conduct and that is (3) likely to be redressed by
the requested relief.” Lujan v. Defs. of Wildlife, 504
U.S. 555, 590 (1992) (internal quotations omitted). A
plaintiff seeking equitable relief must demonstrate a
likelihood of future injury in addition to past harm.
See City of Los Angeles v. Lyons, 461 U.S. 95, 105

424a
(1983). This injury must be “concrete and particularized” and “actual or imminent, not conjectural or hypothetical.” See Lujan, 504 U.S. at 560 (cleaned up).
“[S]tanding is not dispensed in gross,” and “a plaintiff
must demonstrate standing for each claim he seeks to
press and for each form of relief that is sought.” Town
of Chester, N.Y. v. Laroe Estates, Inc., 137 S. Ct. 1645,
1650 (2017) (quoting Davis v. Fed. Election Comm’n,
554 U.S. 724, 734 (2008)). “[T]he presence of one party
with standing is sufficient to satisfy Article III’s caseor-controversy requirement.” Rumsfeld v. Forum for
Acad. & Institutional Rights, Inc., 547 U.S. 47, 53 n.2
(2006). “This court reviews questions of standing de
novo.” Nat’l Rifle Ass’n of Am., Inc. v. McCraw, 719
F.3d 338, 343 (5th Cir. 2013).

425a
A. Standing to Bring Equal Protection Claim
Plaintiffs challenged ICWA sections 1915(a)–(b),
1913(d), and 1914 and Final Rule sections 23.129–32
on equal protection grounds, alleging that these provisions impose regulatory burdens on non-Indian families seeking to adopt Indian children that are not similarly imposed on Indian families who seek to adopt
Indian children. The district court concluded that Individual Plaintiffs suffered and continued to suffer injuries when their efforts to adopt Indian children were
burdened by ICWA and the Final Rule; that their injuries were fairly traceable to ICWA and the Final
Rule because these authorities mandated state compliance; and that these injuries were redressable because if ICWA and the Final Rule were invalidated,
then state courts would no longer be required to follow
them. Defendants disagree, arguing that the Individual Plaintiffs cannot demonstrate an injury in fact or
redressability and thus lack standing to bring an
equal protection claim. For the reasons below, we conclude that the Brackeens have standing to assert an
equal protection claim as to ICWA sections 1915(a)–
(b) and Final Rule sections 23.129–32, but as discussed below, not as to ICWA sections 1913–14. Accordingly, because one Plaintiff has standing, the
“case-or-controversy requirement” is satisfied as to
this claim, and we do not analyze whether any other
Individual Plaintiff has standing to raise it.4 See
Rumsfeld, 547 U.S. at 53 n.2.
The district court concluded that ICWA section
1913(d), which allows a parent to petition the court to
4

State Plaintiffs argue that they have standing to bring an
equal protection challenge in parens patriae on behalf of their

426a
vacate a final decree of adoption on the grounds that
consent was obtained through fraud or duress, left the
Brackeens’ adoption of A.L.M. vulnerable to collateral
attack for two years. Defendants argue that section
1914,5 and not section 1913(d), applies to the Brackeens’ state court proceedings and that, in any event,
an injury premised on potential future collateral attack under either provision is too speculative. We
need not decide which provision applies here, as neither the Brackeens nor any of the Individual Plaintiffs
havesuffered an injury under either provision. Plaintiffs do not assert that A.L.M.’s biological parents, the
Navajo Nation, or any other party seeks to invalidate
the Brackeens’ adoption of A.L.M. under either provision. Plaintiffs’ proffered injury under section 1913 or
section 1914 is therefore too speculative to support
standing. See Lujan, 504 U.S. at 560; see also Clapper
v. Amnesty Int’l USA, 568 U.S. 398, 409 (2013)
(“[T]hreatened injury must be certainly impending to
constitute injury in fact, and [] [a]llegations of possible
future injury are not sufficient.” (cleaned up)). To the
extent Plaintiffs argue that an injury arises from their
attempts to avoid collateral attack under section 1914
citizens. We disagree. See South Carolina v. Katzenbach, 383
U.S. 301, 324 (1966) (“[A] State [does not] have standing as the
parent of its citizens to invoke [the Fifth Amendment Due Process Clause] against the Federal Government, the ultimate
parens patriae of every American citizen.”).
5

“Any Indian child who is the subject of any action for foster
care placement or termination of parental rights under State
law, any parent or Indian custodian from whose custody such
child was removed, and the Indian child’s tribe may petition any
court of competent jurisdiction to invalidate such action upon a
showing that such action violated any provision of sections 1911,
1912, and 1913 of this title.” 25 U.S.C. § 1914.

427a
by complying with sections 1911–13, “costs incurred
to avoid injury are insufficient to create standing”
where the injury is not certainly impending. See Clapper, 568 U.S. at 417.
The district court also concluded that ICWA section 1915, and sections 23.129–32 of the Final Rule,
which clarify section 1915, gave rise to an injury from
an increased regulatory burden. We agree. Prior to
the finalization of the Brackeens’ adoption of A.L.M.,
the Navajo Nation notified the state court that it had
located a potential alternative placement for A.L.M.
in New Mexico. Though that alternative placement
ultimately failed to materialize, the regulatory burdens ICWA section 1915 and Final Rule sections
23.129–32 imposed on the Brackeens in A.L.M.’s
adoption proceedings, which were ongoing at the time
the complaint was filed, are sufficient to demonstrate
injury. See Contender Farms, L.L.P. v. U.S. Dep’t of
Agric., 779 F.3d 258, 266 (5th Cir. 2015) (“An increased regulatory burden typically satisfies the injury in fact requirement.”); see also Rockwell Int’l
Corp. v. United States, 549 U.S. 457, 473–74 (2007)
(standing is assessed at the time the complaint was
filed); Friends of the Earth, Inc. v. Laidlaw Envtl.
Servs. (TOC), Inc., 528 U.S. 167, 184 (2000) (discussing Lyons, 461 U.S. at 108, and finding the injury requirement satisfied where the alleged harmful conduct was occurring when the complaint was filed).
Defendants contend that the Brackeens’ challenge
to section 1915 and sections 23.129–32 is moot. They
argue that, because the Brackeens’ adoption of A.L.M.
was finalized in January 2018 and the Navajo Nation
will not seek to challenge the adoption, section 1915’s
placement preferences no longer apply in A.L.M.’s

428a
adoption proceedings. Plaintiffs argue that section
1915’s placement preferences impose on them the ongoing injury of increased regulatory burdens in their
proceedings to adopt A.L.M.’s sister, Y.R.J., which the
Navajo Nation currently opposes in Texas state court.
“A corollary to this case-or-controversy requirement is that an actual controversy must be extant at
all stages of review, not merely at the time the complaint is filed.” Genesis Healthcare Corp. v. Symczyk,
569 U.S. 66, 71 (2013). “[A] case is moot when the issues presented are no longer live or the parties lack a
legally cognizable interest in the outcome.” Powell v.
McCormack, 395 U.S. 486, 496 (1969)(internal quotation marks omitted). However, mootness will not render a case non-justiciable where the dispute is one
that is “capable of repetition, yet evading review.” See
Murphy v. Hunt, 455 U.S. 478, 482 (1982). “That exception applies where (1) the challenged action is in
its duration too short to be fully litigated prior to cessation or expiration, and (2) there is a reasonable expectation that the same complaining party will be subject to the same action again.” Davis v. Fed. Election
Comm’n, 554 U.S. 724, 735 (2008) (internal citations
and quotations omitted). Here, the Brackeens were
unable to fully litigate a challenge to section 1915 before successfully adopting A.L.M. Additionally, they
have demonstrated a reasonable expectation that they
will be subject to section 1915’s regulatory burdens in
their adoption proceedings involving A.L.M.’s sister,
Y.R.J. Thus, the Brackeens’ challenge to section 1915
is justiciable on the grounds that it is capable of repetition, yet evading review. See Hunt, 455 U.S. at 482.
Having thus found an injury with respect to ICWA
section 1915 and Final Rule sections 23.129–32, we

429a
consider whether causation and redressability are
met here. See Lujan, 504 U.S. at 590. The Brackeens’
alleged injury is fairly traceable to the actions of at
least some of the Federal Defendants, who bear some
responsibility for the regulatory burdens imposed by
ICWA and the Final Rule. See Contender Farms,
L.L.P., 779 F.3d at 266 (noting that causation
“flow[ed] naturally from” a regulatory injury). Additionally, the Brackeens have demonstrated a likelihood that their injury will be redressed by a favorable
ruling of this court. In the Brackeens’ ongoing proceedings to adopt Y.R.J., the Texas court has indicated
that it will refrain from ruling on the Brackeens’ federal constitutional claims pending a ruling from this
court. Accordingly, Plaintiffs have standing to bring
an equal protection claim challenging ICWA section
1915(a)–(b) and Final Rule sections 23.129–32. See
Lujan, 504 U.S. at 590; Rumsfeld, 547 U.S. at 53 n.2.
B. Standing to Bring Administrative
Procedure Act Claim
Plaintiffs first argue that ICWA does not authorize the Secretary of the Interior to promulgate binding
rules and regulations, and the Final Rule is therefore
invalid under the APA. The district court ruled that
State Plaintiffs had standing to bring this claim, determining that the Final Rule injured State Plaintiffs
by intruding upon their interests as quasi-sovereigns
to control the domestic affairs within their states.6 A
6

The district court also found an injury based on the Social
Security Act’s conditioning of funding on states’ compliance with
ICWA. However, because we find that Plaintiffs have standing
on other grounds, we decline to decide whether they have demonstrated standing based on an alleged injury caused by the SSA.

430a
state may be entitled to “special solicitude” in our
standing analysis if the state is vested by statute with
a procedural right to file suit to protect an interest and
the state has suffered an injury to its “quasi-sovereign
interests.” Massachusetts v. EPA, 549 U.S. 497, 518–
20 (2007) (holding that the Clean Air Act provided
Massachusetts a procedural right to challenge the
EPA’s rulemaking, and Massachusetts suffered an injury in its capacity as a quasi-sovereign landowner
due to rising sea levels associated with climate
change). Applying Massachusetts, this court in Texas
v. United States held that Texas had standing to challenge the Department of Homeland Security’s implementation and expansion of the Deferred Action for
Childhood Arrivals program (DACA) under the APA.
See 809 F.3d 134, 152 (5th Cir. 2015). This court reasoned that Texas was entitled to special solicitude on
the grounds that the APA created a procedural right
to challenge the DHS’s actions, and DHS’s actions affected states’ sovereign interest in creating and enforcing a legal code. See id. at 153 (internal quotations
omitted).
Likewise, here, the APA provides State Plaintiffs
a procedural right to challenge the Final Rule. See id.;
5 U.S.C. § 702. Moreover, State Plaintiffs allege that
the Final Rule affects their sovereign interest in controlling child custody proceedings in state courts. See
Texas, 809 F.3d at 153 (recognizing that, pursuant to
a sovereign interest in creating and enforcing a legal
code, states may have standing based on, inter alia,
federal preemption of state law). Thus, State Plaintiffs are entitled to special solicitude in our standing
inquiry. With this in mind, we find that the elements

431a
of standing are satisfied. If, as State Plaintiffs alleged, the Secretary promulgated a rule binding on
states without the authority to do so, then State Plaintiffs have suffered a concrete injury to their sovereign
interest in controlling child custody proceedings that
was caused by the Final Rule. Additionally, though
state courts and agencies are not bound by this court’s
precedent, a favorable ruling from this court would
remedy the alleged injury to states by making their
compliance with ICWA and the Final Rule optional rather than compulsory. See Massachusetts, 549 U.S. at
521 (finding redressability where the requested relief
would prompt the agency to “reduce th[e] risk” of
harm to the state).
C. Standing to Bring Tenth Amendment Claim
For similar reasons, the district court found, and
we agree, that State Plaintiffs have standing to challenge provisions of ICWA and the Final Rule under
the Tenth Amendment. The imposition of regulatory
burdens on State Plaintiffs is sufficient to demonstrate an injury to their sovereign interest in creating
and enforcing a legal code to govern child custody proceedings in state courts. See Texas, 809 F.3d at 153.
Additionally, the causation and redressability requirements are satisfied here, as a favorable ruling
from this court would likely redress State Plaintiffs’
injury by lifting the mandatory burdens ICWA and
the Final Rule impose on states. See Lujan, 504 U.S.
at 590.
D. Standing to Bring Nondelegation Claim
Finally, Plaintiffs contend that ICWA section
1915(c), which allows a tribe to establish a different
order of section 1915(a)’s placement preferences, is an

432a
impermissible delegation of legislative power that
binds State Plaintiffs. Defendants argue that State
Plaintiffs cannot demonstrate an injury, given the
lack of evidence that a tribe’s reordering of section
1915(a)’s placement preferences has affected any children in Texas, Indiana, or Louisiana or that such impact is “certainly impending.” State Plaintiffs respond that tribes can change ICWA’s placement preferences at any time and that at least one tribe, the
Alabama-Coushatta Tribe of Texas, has already done
so. We conclude that State Plaintiffs have demonstrated injury and causation with respect to this
claim, as State Plaintiffs’ injury from the AlabamaCoushatta Tribe’s decision to depart from ICWA section 1915’s placement preferences is concrete and particularized and not speculative. See Lujan, 504 U.S.
at 560. Moreover, a favorable ruling from this court
would redress State Plaintiffs’ injury by making a
state’s compliance with a tribe’s alternative order of
preferences under ICWA section 1915(c) optional rather than mandatory. See id.
Accordingly, having found that State Plaintiffs
have standing on the aforementioned claims, we proceed to the merits of these claims. We note at the outset that ICWA is entitled to a “presumption of constitutionality,” so long as Congress enacted the statute
“based on one or more of its powers enumerated in the
Constitution.” See United States v. Morrison, 529 U.S.
598, 607 (2000). “Due respect for the decisions of a
coordinate branch of Government demands that we
invalidate a congressional enactment only upon a
plain showing that Congress has exceeded its constitutional bounds.” Id. (citing, among others, United
States v. Harris, 106 U.S. 629, 635 (1883)).

433a
II. Equal Protection
The Equal Protection Clause of the Fourteenth
Amendment prohibits states from “deny[ing] to any
person within its jurisdiction the equal protection of
the laws.” U.S. CONST., amend. 14, § 1. This clause
is implicitly incorporated into the Fifth Amendment’s
guarantee of due process. See Bolling v. Sharpe, 347
U.S. 497, 499 (1954). We apply the same analysis
with respect to equal protection claims under the Fifth
and Fourteenth Amendments. See Richard v. Hinson,
70 F.3d 415, 417 (5th Cir. 1995). In evaluating an
equal protection claim, strict scrutiny applies to laws
that rely on classifications of persons based on race.
See id. But where the classification is political, rational basis review applies. See Morton v. Mancari,
417 U.S. 535, 555 (1974). The district court granted
summary judgment on behalf of Plaintiffs, concluding
that section 1903(4)—setting forth ICWA’s definition
of “Indian Child” for purposes of determining when
ICWA applies in state child custody proceedings—was
a race-based classification that could not withstand
strict scrutiny.7 On appeal, the parties disagree as to
whether section 1903(4)’s definition of “Indian Child”
7

As described above, we conclude that Plaintiffs have standing to challenge ICWA section 1915(a)–(b) and Final Rule sections 23.129–32 on equal protection grounds. The district court’s
analysis of whether the ICWA classification was political or racebased focused on ICWA section 1903(4), presumably because section 1903(4) provides a threshold definition of “Indian child” that
must be met for any provision of ICWA to apply in child custody
proceedings in state court. Because we are satisfied that our
analysis would produce the same result with respect to section
1903(4) and the specific provisions Plaintiffs have standing to
challenge, we similarly confine our discussion of whether ICWA
presents a political or race-based classification to section 1903(4).

434a
is a political or race-based classification and which
level of scrutiny applies. “We review the constitutionality of federal statutes de novo.” Nat’l Rifle Ass’n of
Am., Inc. v. Bureau of Alcohol, Tobacco, Firearms, &
Explosives, 700 F.3d 185, 192 (5th Cir. 2012).
A. Level of Scrutiny
We begin by determining whether ICWA’s definition of “Indian child” is a race-based or political classification and, consequently, which level of scrutiny
applies. The district court concluded that ICWA’s “Indian Child” definition was a race-based classification.
We conclude that this was error. Congress has exercised plenary power “over the tribal relations of the
Indians . . . from the beginning, and the power has always been deemed a political one, not subject to be
controlled by the judicial department of the government.” Lone Wolf v. Hitchcock, 187 U.S. 553, 565
(1903). The Supreme Court’s decisions “leave no
doubt that federal legislation with respect to Indian
tribes . . . is not based upon impermissible racial classifications.” United States v. Antelope, 430 U.S. 641,
645 (1977). “Literally every piece of legislation dealing with Indian tribes and reservations . . . single[s]
out for special treatment a constituency of tribal Indians living on or near reservations.” Mancari, 417 U.S.
at 552. “If these laws, derived from historical relationships and explicitly designed to help only Indians,
were deemed invidious racial discrimination, an entire Title of the United States Code (25 U.S.C.) would
be effectively erased and the solemn commitment of
the Government toward the Indians would be jeopardized.” Id.

435a
In Morton v. Mancari, the Supreme Court rejected
a challenge to a law affording to qualified Indian applicants—those having one-fourth or more degree Indian blood with membership in a federally recognized
tribe8—a hiring preference over non-Indians within
the BIA. Id. at 555. The Court recognized that central
to the resolution of the issue was “the unique legal status of Indian tribes under federal law and upon the
plenary power of Congress . . . to legislate on behalf of
federally recognized Indian tribes.” Id. at 551. It reasoned that the BIA’s hiring preference was “granted
to Indians not as a discrete racial group, but, rather,
as members of quasi-sovereign tribal entities whose
lives and activities are governed by the BIA in a
unique fashion.” Id. at 554. The preference was thus
a non-racial “employment criterion reasonably designed to further the cause of Indian self-government
and to make the BIA more responsive to the needs of
its constituent groups. It [was] directed to participation by the governed in the governing agency.” Id. at
553–54. The disadvantages to non-Indians resulting
from the hiring preferences were an intentional and

8

The United States currently recognizes 573 Tribal entities.
See 84 Fed. Reg. 1,200 (Feb. 1, 2019). Federal recognition “is a
formal political act confirming the tribe’s existence as a distinct
political society, and institutionalizing the government-to-government relationship between the tribe and the federal government.” See California Valley Miwok Tribe v. United States, 515
F.3d 1262, 1263 (D.C. Cir. 2008) (quoting COHEN’S HANDBOOK OF
FEDERAL INDIAN LAW § 3.02[3], at 138 (2005 ed.) (internal quotation marks omitted)). It “[i]s a prerequisite to the protection, services, and benefits of the Federal Government available to those
that qualify.” 25 C.F.R. § 83.2.

436a
“desirable feature of the entire program for self-government.”9 Id. at 544.
The district court construed Mancari narrowly
and distinguished it for two primary reasons: First,
the district court found that the law in Mancari provided special treatment “only to Indians living on or
near reservations.” Second, the district court concluded that ICWA’s membership eligibility standard
for an Indian child does not rely on actual tribal membership as did the statute in Mancari. The district
court reasoned that, whereas the law in Mancari “applied ‘only to members of ‘federally recognized’ tribes
which operated to exclude many individuals who are

9

Plaintiffs argue that, unlike the law in Mancari, ICWA is not
a law promoting tribal self-governance. However, prior to enacting ICWA, Congress considered testimony from the Tribal Chief
of the Mississippi Band of Choctaw Indians about the devastating impacts of removing Indian children from tribes and placing
them for adoption and foster care in non-Indian homes:
Culturally, the chances of Indian survival are significantly reduced if our children, the only real means for
the transmission of the tribal heritage, are to be raised
in non-Indian homes and denied exposure to the ways
of their People. Furthermore, these practices seriously
undercut the tribes’ ability to continue as self-governing communities. Probably in no area is it more important that tribal sovereignty be respected than in an
area as socially and culturally determinative as family
relationships.
Holyfield, 490 U.S. at 34. This testimony undoubtedly informed
Congress’s finding that children are the most vital resource “to
the continued existence and integrity of Indian tribes.” 25 U.S.C.
§ 1901(3). Thus, interpreting ICWA as related to tribal self-government and the survival of tribes makes the most sense in light
of Congress’s explicit intent in enacting the statute. See id.

437a
racially to be classified as Indians,’” ICWA’s definition
of “Indian child” extended protection to children who
were eligible for membership in a federally recognized
tribe and had a biological parent who was a member
of a tribe. The district court, citing the tribal membership laws of several tribes, including the Navajo
Nation, concluded that “[t]his means one is an Indian
child if the child is related to a tribal ancestor by
blood.”
We disagree with the district court’s reasoning
and conclude that Mancari controls here. As to the
district court’s first distinction, Mancari’s holding
does not rise or fall with the geographical location of
the Indians receiving “special treatment.”
See
Mancari, 417 U.S. at 552. The Supreme Court has
long recognized Congress’s broad power to regulate
Indians and Indian tribes on and off the reservation.
See e.g., United States v. McGowan, 302 U.S. 535, 539
(1938) (“Congress possesses the broad power of legislating for the protection of the Indians wherever they
may be within the territory of the United States.”);
Perrin v. United States, 232 U.S. 478, 482 (1914) (acknowledging Congress’s power to regulate Indians
“whether upon or off a reservation and whether within
or without the limits of a state”).
Second, the district court concluded that, unlike
the statute in Mancari, ICWA’s definition of Indian
child extends to children who are merely eligible for
tribal membership because of their ancestry. However, ICWA’s definition of “Indian child” is not based
solely on tribal ancestry or race. ICWA defines an “Indian child” as “any unmarried person who is under
age eighteen and is either (a) a member of an Indian
tribe or (b) is eligible for membership in an Indian

438a
tribe and is the biological child of a member of an Indian tribe.” 25 U.S.C. § 1903(4). As Defendants explain, under some tribal membership laws, eligibility
extends to children without Indian blood, such as the
descendants of former slaves of tribes who became
members after they were freed, or the descendants of
adopted white persons. Accordingly, a child may fall
under ICWA’s membership eligibility standard because his or her biological parent became a member of
a tribe, despite not being racially Indian. Additionally, many racially Indian children, such as those belonging to non-federally recognized tribes, do not fall
within ICWA’s definition of “Indian child.” Conditioning a child’s eligibility for membership, in part, on
whether a biological parent is a member of the tribe is
therefore not a proxy for race, as the district court concluded, but rather for not-yet-formalized tribal affiliation, particularly where the child is too young to formally apply for membership in a tribe.10
Our conclusion that ICWA’s definition of Indian
child is a political classification is consistent with both
the Supreme Court’s holding in Mancari and this
court’s holding in Peyote Way Church of God, Inc. v.
10

The Navajo Nation’s membership code is instructive on these
points, despite the district court’s reliance on it to the contrary.
The Navajo Nation explains that, under its laws, “blood alone is
never determinative of membership.” The Navajo Nation will
only grant an application for membership “if the individual has
some tangible connection to the Tribe,” such as the ability to
speak the Navajo language or time spent living among the Navajo people. “Having a biological parent who is an enrolled member is per se evidence of such a connection.” Additionally, individuals will not be granted membership in the Navajo Nation,
regardless of their race or ancestry, if they are members of another tribe.

439a
Thornburgh, 922 F.2d 1210, 1212 (5th Cir. 1991). In
Mancari, the hiring preference extended to individuals who were one-fourth or more degree Indian blood
and a member of a federally recognized tribe. See 417
U.S. at 554. Similarly, in Peyote Way, this court considered whether equal protection was violated by federal and state laws prohibiting the possession of peyote by all persons except members of the Native
American Church of North America (NAC), who used
peyote for religious purposes. See 922 F.2d at 1212.
Applying Mancari’s reasoning, this court upheld the
preference on the basis that membership in NAC “is
limited to Native American members of federally recognized tribes who have at least 25% Native American
ancestry, and therefore represents a political classification.” Id. at 1216. ICWA’s “Indian child” eligibility
provision similarly turns, at least in part, on whether
the child is eligible for membership in a federally recognized tribe. See California Valley Miwok Tribe v.
United States, 515 F.3d 1262, 1263 (D.C. Cir. 2008)
(federal recognition “is a formal political act” that “institutionaliz[es] the government-to-government relationship between the tribe and the federal government.”); 25 U.S.C. § 1903(4).
The district court concluded, and Plaintiffs now
argue, that ICWA’s definition “mirrors the impermissible racial classification in Rice [v. Cayetano, 528 U.S.
495 (2000)], and is legally and factually distinguishable from the political classification in Mancari.” The
Supreme Court in Rice concluded that a provision of
the Hawaiian Constitution that permitted only “Hawaiian” people to vote in the statewide election for the
trustees of the Office of Hawaiian Affairs (OHA) vio-

440a
lated the Fifteenth Amendment. 528 U.S. at 515. “Hawaiian” was defined by statute as “any descendant of
the aboriginal peoples inhabiting the Hawaiian Islands which exercised sovereignty and subsisted in
the Hawaiian Islands in 1778, and which peoples
thereafter have continued to reside in Hawaii.” Id.
The Court noted the state legislature’s express purpose in using ancestry as a proxy for race and held
that “[d]istinctions between citizens solely because of
their ancestry are by their very nature odious to a free
people whose institutions are founded upon the doctrine of equality.” Id. at 514–17 (citing Hirabayashi
v. United States, 320 U.S. 81, 100 (1943)). Distinguishing Mancari, the Court noted that its precedent
did not afford Hawaiians a protected status like that
of Indian tribes; that the OHA elections were an affair
of the state and not of a “separate quasi sovereign”
like a tribe; and that extending “Mancari to this context would [] permit a State, by racial classification, to
fence out whole classes of its citizens from decisionmaking in critical state affairs.” Id. at 522.
Rice is distinguishable from the present case for
several reasons. Unlike Rice, which involved voter eligibility in a state-wide election for a state agency,
there is no similar concern here that applying
Mancari would permit “by racial classification, [the
fencing] out [of] whole classes of [a state’s] citizens
from decisionmaking in critical state affairs.” See 528
U.S. at 518–22. Additionally, as discussed above,
ICWA’s definition of “Indian child,” unlike the challenged law in Rice, does not single out children “solely
because of their ancestry or ethnic characteristics.”
See id. at 515 (emphasis added). Further, unlike the

441a
law in Rice, ICWA is a federal law enacted by Congress for the protection of Indian children and tribes.
See Rice, 528 U.S. at 518 (noting that to sustain Hawaii’s restriction under Mancari, it would have to “accept some beginning premises not yet established in
[its] case law,” such as that Congress “has determined
that native Hawaiians have a status like that of Indians in organized tribes”); see also Kahawaiolaa v. Norton, 386 F.3d 1271, 1279 (9th Cir. 2004) (rejecting an
equal protection challenge brought by Native Hawaiians, who were excluded from the U.S. Department of
the Interior’s regulatory tribal acknowledgement process, and concluding that the recognition of Indian
tribes was political). Additionally, whereas the OHA
elections in Rice were squarely state affairs, state
court adoption proceedings involving Indian children
are simultaneously affairs of states, tribes, and Congress. See 25 U.S.C. § 1901(3) (“[T]here is no resource
that is more vital to the continued existence and integrity of Indian tribes than their children.”). Because
we find Rice inapplicable, and Mancari controlling
here, we conclude, contrary to the district court’s determination, that ICWA’s definition of “Indian child”
is a political classification subject to rational basis review. See Mancari, 417 U.S. at 555.
B. Rational Basis Review
Having so determined that rational basis review
applies, we ask whether “the special treatment can be
tied rationally to the fulfillment of Congress’s unique
obligation toward the Indians.” Mancari, 417 U.S. at
555. Given Congress’s explicit findings and stated objectives in enacting ICWA, we conclude that the special treatment ICWA affords Indian children is ration-

442a
ally tied to Congress’s fulfillment of its unique obligation toward Indian nations and its stated purpose of
“protect[ing] the best interests of Indian children and
[] promot[ing] the stability and security of Indian
tribes.” See 25 U.S.C. §§ 1901–02; see also Mancari,
417 U.S. at 555. ICWA section 1903(4)’s definition of
an “Indian child” is a political classification that does
not violate equal protection.
III. Tenth Amendment
The district court concluded that ICWA sections
1901–2311 and 1951– 5212 violated the anticommandeering doctrine by requiring state courts and executive agencies to apply federal standards to state-created claims. The district court also considered
whether ICWA preempts conflicting state law under
the Supremacy Clause and concluded that preemption
did not apply because the law “directly regulated
states.” Defendants argue that the anticommandeering doctrine does not prevent Congress from requiring
state courts to enforce substantive and procedural
standards and precepts, and that ICWA sets minimum procedural standards that preempt conflicting
state law. We examine the constitutionality of the
challenged provisions of ICWA below and conclude
11
ICWA sections 1901–03 set forth Congress’s findings, declaration of policy, and definitions. Sections 1911–23 govern child
custody proceedings, including tribal court jurisdiction, notice requirements in involuntary and voluntary state proceedings, termination of parental rights, invalidation of state proceedings,
placement preferences, and agreements between states and
tribes.
12
Section 1951 sets forth information-sharing requirements for
state courts. Section 1952 authorizes the Secretary of the Interior to promulgate necessary rules and regulations.

443a
that they preempt conflicting state law and do not violate the anticommandeering doctrine. .
A. Anticommandeering Doctrine
The Tenth Amendment provides that “[t]he powers not delegated to the United States by the Constitution, nor prohibited by it to the States, are reserved
to the States respectively, or to the people.” U.S.
CONST. amend. X. Congress’s legislative powers are
limited to those enumerated under the Constitution.
Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct.
1461, 1476 (2018). “[C]onspicuously absent from the
list of powers given to Congress is the power to issue
direct orders to the governments of the States.” Id.
The anticommandeering doctrine, an expression of
this limitation on Congress, prohibits federal laws
commanding the executive or legislative branch of a
state government to act or refrain from acting.13 Id.
at 1478 (holding that a federal law prohibiting state
authorization of sports gambling violated the anticommandeering rule by “unequivocally dictat[ing]
what a state legislature may and may not do”); Printz
v. United States, 521 U.S. 898, 935 (1997) (holding

13

Though Congress is prohibited from commandeering states,
it can “encourage a State to regulate in a particular way, or . . .
hold out incentives to the States as a method of influencing a
State’s policy choices.” New York, 505 U.S. at 166. For example,
Congress may also condition the receipt of federal funds under
its spending power. See id. at 167. Defendants also contend that
ICWA is authorized under Congress’s Spending Clause powers
because Congress conditioned federal funding in Title IV-B and
E of the Social Security Act on states’ compliance with ICWA.
However, because we conclude that ICWA is constitutionally permissible on other bases, we need not reach this argument.

444a
that a federal law requiring state chief law enforcement officers to conduct background checks on handgun purchasers “conscript[ed] the State’s officers directly” and was invalid); New York v. United States,
505 U.S. 144, 175–76 (1992) (holding that a federal
law impermissibly commandeered states to implement federal legislation when it gave states “[a] choice
between two unconstitutionally coercive” alternatives: to either dispose of radioactive waste within
their boundaries according to Congress’s instructions
or “take title” to and assume liabilities for the waste).
1. State Courts
Defendants argue that because the Supremacy
Clause requires the enforcement of ICWA and the Final Rule by state courts, these provisions do not run
afoul of the anticommandeering doctrine. We agree.
The Supremacy Clause provides that “the Laws of the
United States . . . shall be the supreme Law of the
Land; and the Judges in every State shall be bound
thereby, any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.”
U.S.
CONST. art. VI, cl. 2. In setting forth the anticommandeering doctrine, the Supreme Court drew a distinction between a state’s courts and its political
branches. The Court acknowledged that “[f]ederal
statutes enforceable in state court do, in a sense, direct state judges to enforce them, but this sort of federal “direction” of state judges is mandated by the text
of the Supremacy Clause.” New York, 505 U.S. at
178–79 (internal quotation marks omitted). Early
laws passed by the first Congresses requiring state
court action “establish, at most, that the Constitution
was originally understood to permit imposition of an

445a
obligation on state judges to enforce federal prescriptions, insofar as those prescriptions related to matters
appropriate for the judicial power.” Printz, 521 U.S.
at 907. State courts were viewed as distinctive because, “unlike [state] legislatures and executives, they
applied the law of other sovereigns all the time,” including as mandated by the Supremacy Clause. Id.
Thus, to the extent provisions of ICWA and the Final
Rule require state courts to enforce federal law, the
anticommandeering doctrine does not apply. See id.
at 928–29 (citing Testa v. Katt, 330 U.S. 386 (1947),
“for the proposition that state courts cannot refuse to
apply federal lawa conclusion mandated by the terms
of the Supremacy Clause”).
2. State Agencies
Plaintiffs next challenge several provisions of
ICWA that they contend commandeer state executive
agencies, including sections 1912(a) (imposing notice
requirements on “the party seeking the foster care
placement of, or termination of parental rights to, an
Indian child”), 1912(d) (requiring that “any party
seeking to effect a foster care placement of, or termination of parental rights to, an Indian child under
State law shall satisfy the court that active efforts
have been made to provide remedial services and rehabilitative programs designed to prevent the
breakup of the Indian family and that these efforts
have proved unsuccessful.”), 1915(c) (requiring “the
agency or court effecting [a] placement” adhere to the
order of placement preferences established by the
tribe), and 1915(e) (requiring that “the State” in which
the placement was made keep a record of each placement, evidencing the efforts to comply with the order
of preference, to be made available upon request of the

446a
Secretary or the child’s tribe). See 25 U.S.C. §§ 1912,
1915. Plaintiffs argue that ICWA’s requirements on
state agencies go further than the federal regulatory
scheme invalidated in Printz and impermissibly impose costs that states must bear. Defendants contend
that the challenged provisions of ICWA apply to private parties and state agencies alike and therefore do
not violate the anticommandeering doctrine.
In Printz, the Supreme Court affirmed its prior
holding that “[t]he Federal Government may not compel the States to enact or administer a federal regulatory program,” and “Congress cannot circumvent that
prohibition by conscripting the State’s officers directly.” 521 U.S. at 925, 935 (quoting New York, 505
U.S. at 188). The Printz Court, rejecting as irrelevant
the Government’s argument that the federal law imposed a minimal burden on state executive officers,
explained that it was not “evaluating whether the incidental application to the States of a federal law of
general applicability excessively interfered with the
functioning of state governments,” but rather a law
whose “whole object . . . [was] to direct the functioning
of the state executive.” Id. at 931–32. Expanding
upon this distinction, the Court in Murphy discussed
Reno v. Condon, 528 U.S. 141 (2000), and South Carolina v. Baker, 485 U.S. 505 (1988), and held that
“[t]he anticommandeering doctrine does not apply
when Congress evenhandedly regulates an activity in
which both States and private actors engage.” 138 S.
Ct. at 1478.
In Condon, the Court upheld a federal regulatory
scheme that restricted the ability of states to disclose
a driver’s personal information without consent. 528

447a
U.S. at 151. In determining that the anticommandeering doctrine did not apply, the Court distinguished the law from those invalidated in New York
and Printz:
[This law] does not require the States in their
sovereign capacity to regulate their own citizens. The [law] regulates the States as the
owners of [Department of Motor Vehicle] data
bases. It does not require the South Carolina
Legislature to enact any laws or regulations,
and it does not require state officials to assist
in the enforcement of federal statutes regulating private individuals.
Id. In Baker, the Court rejected a Tenth Amendment
challenge to a provision of a federal statute that eliminated the federal income tax exemption for interest
earned on certain bonds issued by state and local governments unless the bonds were registered, treating
the provision “as if it directly regulated States by prohibiting outright the issuance of [unregistered] bearer
bonds.” 485 U.S. at 507–08, 511. The Court reasoned
that the provision at issue merely “regulat[ed] a state
activity” and did not “seek to control or influence the
manner in which States regulate private parties.” Id.
at 514. “That a State wishing to engage in certain activity must take administrative and sometimes legislative action to comply with federal standards regulating that activity is a commonplace that presents no
constitutional defect.” Id. at 514–15. “[S]ubstantial
effort[s]” to comply with federal regulations are “an
inevitable consequence of regulating a state activity.”
Id. at 514.

448a
In light of these cases, we conclude that the provisions of ICWA that Plaintiffs challenge do not commandeer state agencies. Sections 1912(a) and (d) impose notice and “active efforts” requirements on the
“party” seeking the foster care placement of, or termination of parental rights to, an Indian child. Because
both state agencies and private parties who engage in
state child custody proceedings may fall under these
provisions, 1912(a) and (d) “evenhandedly regulate[]
an activity in which both States and private actors engage.”14 See Murphy, 138 S. Ct. at 1478. Moreover,
sections 1915(c) and (e) impose an obligation on “the
agency or court effecting the placement” of an Indian
child to respect a tribe’s order of placement preferences and require that “the State” maintain a record
of each placement to be made available to the Secretary or child’s tribe. These provisions regulate state
activity and do not require states to enact any laws or
14

Similarly, section 1912(e) provides that no foster care placement may be ordered in involuntary proceedings in state court
absent “a determination, supported by clear and convincing evidence, including testimony of qualified expert witnesses, that the
continued custody of the child by the parent or Indian custodian
is likely to result in serious emotional or physical damage to the
child.” See 25 U.S.C. § 1912(e). Section 1912(f) requires that no
termination of parental rights may be ordered in involuntary
proceedings in state court absent evidence beyond a reasonable
doubt of the same. See id. at 1912(f). Neither section expressly
refers to state agencies and, in conjunction with section 1912(d),
both sections must be reasonably read to refer to “any party”
seeking the foster care placement of, or the termination of parental rights to, an Indian child. Thus, like section 1912(d), sections
1912(e)–(f) “evenhandedly regulate[] an activity in which both
States and private actors engage” and do not run afoul of the anticommandeering doctrine. See Murphy, 138 S. Ct. at 1478; see
also Condon, 528 U.S. at 151.

449a
regulations, or to assist in the enforcement of federal
statutes regulating private individuals. See Condon,
528 U.S. at 151; Baker, 485 U.S. at 514; see also
Printz, 521 U.S. at 918 (distinguishing statutes that
merely require states to provide information to the
federal government from those that command state
executive agencies to actually administer federal programs). To the contrary, they merely require states to
“take administrative . . . action to comply with federal
standards regulating” child custody proceedings involving Indian children, which is permissible under
the Tenth Amendment.15 See Baker, 485 U.S. at 514–
15.

15

In ruling otherwise, the district court discussed Murphy and
emphasized that adhering to the anticommandeering rule is necessary to protect constitutional principles of state sovereignty,
promote political accountability, and prevent Congress from
shifting the costs of regulation to states. See Murphy, 138 S. Ct.
at 1477. These principles do not compel the result reached by
the district court. See id. First, the anticommandeering doctrine
is not necessary here to protect constitutional principles of state
sovereignty because ICWA regulates the actions of state executive agencies in their role as child advocates and custodians, and
not in their capacity as sovereigns enforcing ICWA. See id. at
1478; see also Condon, 528 U.S. at 151 (concluding that the law
in question there “does not require the States in their sovereign
capacity to regulate their own citizens [but] regulates the States
as the owners of data bases”). The need to promote political accountability is minimized here for similar reasons, as ICWA does
not require states to regulate their own citizens. See Murphy,
138 S. Ct. at 1477 (noting concern that, if states are required to
impose a federal regulation on their voters, the voters will not
know who to credit or blame and responsibility will be “blurred”).
Finally, the need to prevent Congress from shifting the costs of
regulation to states is also minimized here, where some of the
requirements at issue, like those in sections 1912(d) and 1915(c),

450a
B. Preemption
Defendants argue that, to the extent there is a
conflict between ICWA and applicable state laws in
child custody proceedings, ICWA preempts state law.
The Supremacy Clause provides that federal law is
the “supreme Law of the Land . . . any Thing in the
Constitution or Laws of any State to the Contrary notwithstanding.” U.S. CONST. art. VI, cl. 2. Conflict
preemption occurs when “Congress enacts a law that
imposes restrictions or confers rights on private actors; a state law confers rights or imposes restrictions
that conflict with the federal law; and therefore the
federal law takes precedence and the state law is
preempted.” Murphy, 138 S. Ct. at 1480. For a federal
law to preempt conflicting state law, two requirements must be satisfied: The challenged provision of
the federal law “must represent the exercise of a
power conferred on Congress by the Constitution” and
“must be best read as one that regulates private actors” by imposing restrictions or conferring rights. Id.
at 1479–80. The district court concluded that preemption does not apply here, as ICWA regulates states rather than private actors. We review de novo whether
a federal law preempts a state statute or common law

simply regulate a state’s actions during proceedings that it would
already be expending resources on. ICWA’s recordkeeping and
notice requirements could impose costs on states, but we cannot
conclude that these costs compel application of the anticommandeering doctrine. See Condon, 528 U.S. at 150 (a federal law that
“require[d] time and effort on the part of state employees” was
constitutional); Baker, 485 U.S. at 515 (that states may have to
raise funds necessary to comply with federal regulations “presents no constitutional defect”).

451a
cause of action. See Friberg v. Kansas City S. Ry. Co.,
267 F.3d 439, 442 (5th Cir. 2001).
Congress enacted ICWA to “establish[] minimum
Federal standards for the removal of Indian children
from their families and the placement of such children
in foster or adoptive homes which will reflect the
unique values of Indian culture.” 25 U.S.C. § 1902.
Defendants contend that these minimum federal
standards preempt conflicting state laws. Plaintiffs
contend that preemption does not apply here because
ICWA regulates states and not individuals, and nothing in the Constitution gives Congress authority to
regulate the adoption of Indian children under state
jurisdiction.
ICWA specifies that Congress’s authority to regulate the adoption of Indian children arises under the
Indian Commerce Clause as well as “other constitutional authority.” 25 U.S.C. § 1901(1). The Indian
Commerce Clause provides that “[t]he Congress shall
have Power To . . . regulate Commerce . . . with the
Indian Tribes.” U.S. CONST. art. I, § 8, cl. 3. The
Supreme Court has repeatedly held that the Indian
Commerce Clause grants Congress plenary power
over Indian affairs. See Lara, 541 U.S. at 200 (noting
that the Indian Commerce and Treaty Clauses are
sources of Congress’s “plenary and exclusive” “powers
to legislate in respect to Indian tribes”); Ramah Navajo Sch. Bd., Inc. v. Bureau of Revenue of New Mexico,
458 U.S. 832, 837 (1982) (discussing Congress’s “broad
power . . . to regulate tribal affairs under the Indian
Commerce Clause”); Mancari, 417 U.S. at 551–52
(noting that “[t]he plenary power of Congress to deal
with the special problems of Indians is drawn both explicitly and implicitly from,” inter alia, the Indian

452a
Commerce Clause). Plaintiffs do not provide authority to support a departure from that principle here.
Moreover, ICWA clearly regulates private individuals. See Murphy, 138 S. Ct. at 1479–80. In enacting
the statute, Congress declared that it was the dual
policy of the United States to protect the best interests
of Indian children and promote the stability and security of Indian families and tribes. 25 U.S.C. § 1902.
Each of the challenged provisions applies within the
context of state court proceedings involving Indian
children and is informed by and designed to promote
Congress’s goals by conferring rights upon Indian children and families.16 See H.R. REP. No. 95-1386, at 18
(1978) (“We conclude that rights arising under
[ICWA] may be enforced, as of right, in the courts of
the States when their jurisdiction, as prescribed by local law, is adequate to the occasion.” (quoting Second
Employers’ Liability Cases, 223 U.S. 1, 59 (1912))).

16

Arguably, two of the challenged provisions of ICWA could be
construed to simultaneously “confer[] rights” on Indian children
and families while “imposing restrictions” on state agencies. See
Murphy, 138 S. Ct. at 1479–80. Section 1915(c) requires “the
agency or court effecting [a] placement” to adhere to a tribe’s established order of placement preferences, and section 1915(e) requires states to keep records and make them available to the Secretary and Indian tribes. 25 U.S.C. § 1915(c), (e). However, Murphy instructs that for a provision of a federal statute to preempt
state law, the provision must be “best read as one that regulates
private actors.” See 138 S. Ct. at 1479 (emphasis added). In light
of Congress’s express purpose in enacting ICWA, the legislative
history of the statute, and section 1915’s scope in setting forth
minimum standards for the “Placement of Indian children,” we
conclude that these provisions are “best read” as regulating private actors by conferring rights on Indian children and families.
See id.

453a
Thus, to the extent ICWA’s minimum federal standards conflict with state law, “federal law takes precedence and the state law is preempted.” See Murphy,
138 S. Ct. at 1480.
IV. Nondelegation Doctrine
Article I of the Constitution vests “[a]ll legislative
Powers” in Congress. U.S. CONST. art. 1, § 1, cl. 1. “In
a delegation challenge, the constitutional question is
whether the statute has delegated legislative power to
the agency.” Whitman v. Am. Trucking Ass’ns, 531
U.S. 457, 472 (2001). The limitations on Congress’s
ability to delegate its legislative power are “less stringent in cases where the entity exercising the delegated authority itself possesses independent authority over the subject matter.” See United States v. Mazurie, 419 U.S. 544, 556–57 (1975). ICWA section
1915(c) allows Indian tribes to establish through
tribal resolution a different order of preferred placement than that set forth in sections 1915(a) and (b).17
Section 23.130 of the Final Rule provides that a tribe’s
established placement preferences apply over those
specified in ICWA.18 The district court determined
that these provisions violated the nondelegation doctrine, reasoning that section 1915(c) grants Indian
17
The section provides: “In the case of a placement under subsection (a) or (b) of this section, if the Indian child’s tribe shall
establish a different order of preference by resolution, the agency
or court effecting the placement shall follow such order so long
as the placement is the least restrictive setting appropriate to
the particular needs of the child, as provided in subsection (b) of
this section.” 25 U.S.C. § 1915(c).
18
“If the Indian child’s Tribe has established by resolution a
different order of preference than that specified in ICWA, the
Tribe’s placement preferences apply.” 25 C.F.R. § 23.130.

454a
tribes the power to change legislative preferences
with binding effect on the states, and Indian tribes,
like private entities, are not part of the federal government of the United States and cannot exercise federal legislative or executive regulatory power over
non-Indians on non-tribal lands.
Defendants argue that the district court’s analysis
of the constitutionality of these provisions ignores the
inherent sovereign authority of tribes. They contend
that section 1915 merely recognizes and incorporates
a tribe’s exercise of its inherent sovereignty over Indian children and therefore does not—indeed cannot—delegate this existing authority to Indian tribes.
The Supreme Court has long recognized that Congress may incorporate the laws of another sovereign
into federal law without violating the nondelegation
doctrine. See Mazurie, 419 U.S. at 557 (“[I]ndependent tribal authority is quite sufficient to protect Congress’ decision to vest in tribal councils this portion of
its own authority ‘to regulate Commerce . . . with the
Indian tribes.’”); United States v. Sharpnack, 355 U.S.
286, 293–94 (1958) (holding that a statute that prospectively incorporated state criminal laws “in force at
the time” of the alleged crime was a “deliberate continuing adoption by Congress” of state law as binding
federal law in federal enclaves within state boundaries); Gibbons v. Ogden, 22 U.S. (9 Wheat.) 1, 80
(1824) (“Although Congress cannot enable a State to
legislate, Congress may adopt the provisions of a
State on any subject.”). “Indian tribes are unique aggregations possessing attributes of sovereignty over
both their members and their territory.” Mazurie, 419
U.S. at 557. Though some exercises of tribal power
require “express congressional delegation,” the “tribes

455a
retain their inherent power to determine tribal membership [and] to regulate domestic relations among
members . . . .” See Montana v. United States, 450
U.S. 544, 564 (1981); see also Merrion v. Jicarilla
Apache Tribe, 455 U.S. 130, 170 (1982) (“tribes retain
the power to create substantive law governing internal tribal affairs” like tribal citizenship and child custody).
In Mazurie, a federal law allowed the tribal council of the Wind River Tribes, with the approval of the
Secretary of the Interior, to adopt ordinances to control the introduction of alcoholic beverages by non-Indians on privately owned land within the boundaries
of the reservation. See 419 U.S. at 547, 557. The Supreme Court held that the law did not violate the nondelegation doctrine, focusing on the Tribes’ inherent
power to regulate their internal and social relations
by controlling the distribution and use of intoxicants
within the reservation’s bounds. Id. Mazurie is instructive here. ICWA section 1915(c) provides that a
tribe may pass, by its own legislative authority, a resolution reordering the three placement preferences
set forth by Congress in section 1915(a). Pursuant to
this section, a tribe may assess whether the most appropriate placement for an Indian child is with members of the child’s extended family, the child’s tribe, or
other Indian families, and thereby exercise its “inherent power to determine tribal membership [and] regulate domestic relations among members” and Indian
children eligible for membership. See Montana, 450
U.S. at 564.
State Plaintiffs contend that Mazurie is distinguishable because it involves the exercise of tribal au-

456a
thority on tribal lands, whereas ICWA permits the extension of tribal authority over states and persons on
non-tribal lands. We find this argument unpersuasive. It is well established that tribes have “sovereignty over both their members and their territory.”
See Mazurie, 419 U.S. at 557 (emphasis added). For a
tribe to exercise its authority to determine tribal
membership and to regulate domestic relations
among its members, it must necessarily be able to regulate all Indian children, irrespective of their location.19 See Montana, 450 U.S. at 564 (tribes retain inherent power to regulate domestic relations and determine tribal membership); Merrion, 455 U.S. at 170
(tribes retain power to govern tribal citizenship and
child custody). Section 1915(c), by recognizing the inherent powers of tribal sovereigns to determine by resolution the order of placement preferences applicable
to an Indian child, is thus a “deliberate continuing
adoption by Congress” of tribal law as binding federal
law. See Sharpnack, 355 U.S. at 293–94; see also 25
U.S.C. § 1915(c); 81 Fed. Reg. at 38,784 (the BIA noting that “through numerous statutory provisions,
ICWA helps ensure that State courts incorporate Indian social and cultural standards into decision-making that affects Indian children”). We therefore conclude that ICWA section 1915(c) is not an unconstitutional delegation of Congressional legislative power to
tribes, but is an incorporation of inherent tribal authority by Congress. See Mazurie, 419 U.S. at 544;
Sharpnack, 355 U.S. at 293–94.

19

Indeed, as the BIA noted in promulgating the Final Rule, at
least 78% of Native Americans lived outside of Indian country as
of 2016. See 81 Fed. Reg. at 38,778, 38,783.

457a
V. The Final Rule
The district court held that, to the extent sections
23.106–22, 23.124–32, and 23.140–41 of the Final
Rule were binding on State Plaintiffs, they violated
the APA for three reasons: The provisions (1) purported to implement an unconstitutional statute; (2)
exceeded the scope of the Interior Department’s statutory regulatory authority to enforce ICWA with binding regulations; and (3) reflected an impermissible
construction of ICWA section 1915. We examine each
of these bases in turn.
A. The Constitutionality of ICWA
Because we concluded that the challenged provisions of ICWA are constitutional, for reasons discussed earlier in this opinion, the district court’s first
conclusion that the Final Rule was invalid because it
implemented an unconstitutional statue [sic] was erroneous. Thus, the statutory basis of the Final Rule
is constitutionally valid.
B. The Scope of the BIA’s Authority
Congress authorized the Secretary of the Interior
to promulgate rules and regulations that may be necessary to carry out the provisions of ICWA. See 25
U.S.C. § 1952. Pursuant to this provision, the BIA,
acting under authority delegated by the Interior Department, issued guidelines in 1979 for state courts in
Indian child custody proceedings that were “not intended to have binding legislative effect.” 44 Fed. Reg.
at 67,584. The BIA explained that, generally, “when
the Department writes rules needed to carry out responsibilities Congress has explicitly imposed on the
Department, those rules are binding.” Id. However,

458a
when “the Department writes rules or guidelines advising some other agency how it should carry out responsibilities explicitly assigned to it by Congress,
those rules or guidelines are not, by themselves, binding.” Id. With respect to ICWA, the BIA concluded in
1979 that it was “not necessary” to issue binding regulations advising states how to carry out the responsibilities Congress assigned to them; state courts were
“fully capable” of implementing the responsibilities
Congress imposed on them, and nothing in the language or legislative history of 25 U.S.C. § 1952 indicated that Congress intended the BIA to exercise supervisory control over states. Id. However, in 2016,
the BIA changed course and issued the Final Rule,
which sets binding standards for state courts in Indian child-custody proceedings.
See 25 C.F.R.
§§ 23.101, 23.106; 81 Fed. Reg. at 38,779, 38,785. The
BIA explained that its earlier, nonbinding guidelines
were “insufficient to fully implement Congress’s goal
of nationwide protections for Indian children, parents,
and Tribes.” 81 Fed. Reg. at 38,782. Without the Final Rule, the BIA stated, state-specific determinations about how to implement ICWA would continue
“with potentially devastating consequences” for those
Congress intended ICWA to protect. See id.
In reviewing “an agency’s construction of the statute which it administers,” we are “confronted with two
questions.” Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 842–43 (1984). First, we
must examine whether the statute is ambiguous. Id.
at 842. “If the intent of Congress is clear, that is the
end of the matter; for the court, as well as the agency,
must give effect to the unambiguously expressed intent of Congress.” Id. But “if the statute is silent or

459a
ambiguous with respect to the specific issue, the question for the court is whether the agency’s answer is
based on a permissible construction of the statute.”
Id. at 842–43. We must uphold an agency’s reasonable interpretation of an ambiguous statute. Id. at 844.
Under Chevron step one, the question is whether
Congress unambiguously intended to grant the Department authority to promulgate binding rules and
regulations. ICWA provides that “the Secretary shall
promulgate such rules and regulations as may be necessary to carry out the provisions of this chapter.” 25
U.S.C. § 1952. The provision’s plain language confers
broad authority on the Department to promulgate
rules and regulations it deems necessary to carry out
ICWA. This language can be construed to grant the
authority to issue binding rules and regulations; however, because “Congress has not directly addressed
the precise question at issue,” we conclude that section 1952 is ambiguous. See Chevron, 467 U.S. at 843.
Moving to the second Chevron step, we must determine whether the BIA’s current interpretation of
its authority to issue binding regulations pursuant to
section 1952 is reasonable. See 467 U.S. at 843–44.
Defendants argue that section 1952’s language is substantively identical to other statutes conferring broad
delegations of rulemaking authority. Indeed, the Supreme Court has held that “[w]here the empowering
provision of a statute states simply that the agency
may make . . . such rules and regulations as may be
necessary to carry out the provisions of this Act . . .
the validity of a regulation promulgated thereunder
will be sustained so long as it is reasonably related to
the purposes of the enabling legislation.” Mourning v.
Family Publications Serv., Inc., 411 U.S. 356, 369

460a
(1973) (internal quotation marks omitted); see also
City of Arlington, Tex. v. F.C.C., 569 U.S. 290, 306
(2013) (noting a lack of “case[s] in which a general conferral of rulemaking or adjudicative authority has
been held insufficient to support Chevron deference
for an exercise of that authority within the agency’s
substantive field”). Here, section 1952’s text is substantially similar to the language in Mourning, and
the Final Rule’s binding standards for Indian child
custody proceedings are reasonably related to ICWA’s
purpose of establishing minimum federal standards in
child custody proceedings involving Indian children.
See 25 U.S.C. § 1902. Thus, the Final Rule is a reasonable exercise of the broad authority granted to the
BIA by Congress in ICWA section 1952.
Plaintiffs contend that the BIA reversed its position on the scope of its authority to issue binding regulations after thirty-seven years and without explanation and its interpretation was therefore not entitled
to deference. We disagree. “The mere fact that an
agency interpretation contradicts a prior agency position is not fatal. Sudden and unexplained change, or
change that does not take account of legitimate reliance on prior interpretation, may be arbitrary, capricious [or] an abuse of discretion. But if these pitfalls
are avoided, change is not invalidating, since the
whole point of Chevron is to leave the discretion provided by the ambiguities of a statute with the implementing agency.” Smiley v. Citibank (S. Dakota),
N.A., 517 U.S. 735, 742 (1996) (internal citations and
quotation marks omitted). The agency must provide
“reasoned explanation” for its new policy, though “it
need not demonstrate to a court’s satisfaction that the
reasons for the new policy are better than the reasons

461a
for the old one.” F.C.C. v. Fox Television Stations, Inc.,
556 U.S. 502, 515 (2009). “[I]t suffices that the new
policy is permissible under the statute, that there are
good reasons for it, and that the agency believes it to
be better, which the conscious change of course adequately indicates.” Id.
The BIA directly addressed its reasons for departing from its earlier interpretation that it had no authority to promulgate binding regulations, explaining
that, under Supreme Court precedent, the text of section 1952 conferred “a broad and general grant of rulemaking authority.” 81 Fed. Reg. at 38,785 (collecting
Supreme Court cases). The BIA further discussed
why it now considered binding regulations necessary
to implement ICWA: In 1979, the BIA “had neither
the benefit of the Holyfield Court’s carefully reasoned
decision nor the opportunity to observe how a lack of
uniformity in the interpretation of ICWA by State
courts could undermine the statute’s underlying purposes.” 81 Fed. Reg. at 38,787 (citing Holyfield, 490
U.S. at 30).
In Holyfield, the Supreme Court considered the
meaning of the term “domicile,” which ICWA section
1911 left undefined and the BIA left open to state interpretation under its 1979 Guidelines. 490 U.S. at 43,
51. The Court held that “it is most improbable that
Congress would have intended to leave the scope of
the statute’s key jurisdictional provision subject to
definition by state courts as a matter of state law,”
given that “Congress was concerned with the rights of
Indian families vis-à-vis state authorities” and considered “States and their courts as partly responsible for
the problem it intended to correct” through ICWA. Id.

462a
at 45. Because Congress intended for ICWA to address a nationwide problem, the Court determined
that the lack of nationwide uniformity resulting from
varied state-law definitions of this term frustrated
Congress’s intent. Id. The Holyfield Court’s reasoning applies here. Congress’s concern with safeguarding the rights of Indian families and communities was
not limited to section 1911 and extended to all provisions of ICWA, including those at issue here. Thus, as
the BIA explained, all provisions of ICWA that it left
open to state interpretation in 1979, including many
that Plaintiffs now challenge, were subject to the lack
of uniformity the Supreme Court identified in Holyfield and determined was contrary to Congress’s intent. 81 Fed. Reg. at 38,782. Thus, in light of Holyfield, the BIA has provided a “reasoned explanation”
for departing from its earlier interpretation of its authority under section 1952 and for the need of binding
regulations with respect to ICWA. See Fox Television
Stations, 556 U.S. at 515.
In addition to assessing whether an agency’s interpretation of a statute is reasonable under Chevron,
the APA requires that we “hold unlawful and set aside
agency action . . . found to be . . . arbitrary, capricious,
an abuse of discretion, or otherwise not in accordance
with law.” 5 U.S.C. § 706(2)(A). Contrary to Plaintiffs’ contentions, the BIA explained that the Final
Rule resulted from years of study and public outreach
and participation. See 81 Fed. Reg. 38,778, 38,784–
85. In promulgating the rule, the BIA relied on its
own expertise in Indian affairs, its experience in ad-

463a
ministering ICWA and other Indian child-welfare programs, state interpretations and best practices,20 public hearings, and tribal consultations. See id. Thus,
the BIA’s current interpretation is not “arbitrary, capricious, [or] an abuse of discretion” because it was not
sudden and unexplained. See Smiley, 517 U.S. at 742;
5 U.S.C. § 706(a)(2). The district court’s contrary conclusion was error.
C. The BIA’s Construction of
ICWA Section 1915
ICWA section 1915 sets forth three preferences for
the placement of Indian children unless good cause
can be shown to depart from them. 25 U.S.C.
§ 1915(a)–(b). The 1979 Guidelines initially advised
that the term “good cause” in ICWA section 1915 “was
designed to provide state courts with flexibility in determining the disposition of a placement proceeding
involving an Indian child.” 44 Fed. Reg. 67,584. However, section 23.132(b) of the Final Rule specifies that
“[t]he party seeking departure from [section 1915’s]
placement preferences should bear the burden of proving by clear and convincing evidence that there is
‘good cause’ to depart from the placement preferences.” 25 C.F.R. § 23.132(b). The district court determined that Congress unambiguously intended the
ordinary preponderance-of-the-evidence standard to
apply, and the BIA’s interpretation that a higher
standard applied was therefore not entitled to Chevron deference.
20

Since ICWA’s enactment in 1978, several states have incorporated the statute’s requirements into their own laws or have
enacted detailed procedures for their state agencies to collaborate with tribes in child custody proceedings.

464a
Defendants contend that the Final Rule’s clearand-convincing standard is merely suggestive and not
binding. They further aver that the Final Rule’s clarification of the meaning of “good cause” and imposition
of a clear-and-convincing-evidence standard are entitled to Chevron deference. Plaintiffs respond that
state courts have interpreted the clear-and-convincing standard as more than just suggestive in practice,
and the Final Rule’s fixed definition of “good cause” is
contrary to ICWA’s intent to provide state courts with
flexibility.
Though provisions of the Final Rule are generally
binding on states, the BIA indicated that it did not intend for section 23.132(b) to establish a binding standard. See 25 C.F.R. § 23.132 (“The party seeking departure from the placement preferences should bear
the burden of proving by clear and convincing evidence that there is ‘good cause’ to depart from the
placement preferences.” (emphasis added)). The BIA
explained that “[w]hile the final rule advises that the
application of the clear and convincing standard
‘should’ be followed, it does not categorically require
that outcome . . . [and] the Department declines to establish a uniform standard of proof on this issue.” See
81 Fed. Reg. at 38,843.
The BIA’s interpretation of section 1915 is also entitled to Chevron deference. For purposes of Chevron
step one, the statute is silent with respect to which
evidentiary standard applies. See 25 U.S.C. § 1915;
Chevron, 467 U.S. at 842. The district court relied on
the canon of expressio unius est exclusio alterius (“the
expression of one is the exclusion of others”) in finding
that Congress unambiguously intended that a preponderance-of-the-evidence standard was necessary to

465a
show good cause under ICWA section 1915. The court
reasoned that because Congress specified a heightened evidentiary standard in other provisions of
ICWA, but did not do so with respect to section 1915,
Congress did not intend for the heightened clear-andconvincing evidence standard to apply. This was error. “When interpreting statutes that govern agency
action, . . . a congressional mandate in one section and
silence in another often suggests not a prohibition but
simply a decision not to mandate any solution in the
second context, i.e., to leave the question to agency
discretion.” Catawba Cty., N.C. v. E.P.A., 571 F.3d 20,
36 (D.C. Cir. 2009). “[T]hat Congress spoke in one
place but remained silent in another . . . rarely if ever
suffices for the direct answer that Chevron step one
requires.” Id. (cleaned up); see also Texas Rural Legal
Aid, Inc. v. Legal Servs. Corp., 940 F.2d 685, 694 (D.C.
Cir. 1991) (“Under Chevron, we normally withhold
deference from an agency’s interpretation of a statute
only when Congress has directly spoken to the precise
question at issue, and the expressio canon is simply
too thin a reed to support the conclusion that Congress
has clearly resolved this issue.”) (internal citations
and quotation marks omitted).
Under Chevron step two, the BIA’s current interpretation of the applicable evidentiary standard is
reasonable. See Chevron, 467 U.S. at 844. The BIA’s
suggestion that the clear-and-convincing standard
should apply was derived from the best practices of
state courts. 81 Fed. Reg. at, 38,843. The Final Rule
explains that, since ICWA’s passage, “courts that have
grappled with the issue have almost universally concluded that application of the clear and convincing evidence standard is required as it is most consistent

466a
with Congress’s intent in ICWA to maintain Indian
families and Tribes intact.” Id. Because the BIA’s
current interpretation of section 1915, as set forth in
Final Rule section 23.132(b), was based on its analysis
of state cases and geared toward furthering Congress’s intent, it is reasonable and entitled to Chevron
deference. Moreover, the BIA’s current interpretation
is nonbinding and therefore consistent with the 1979
Guidelines in allowing state courts flexibility to determine “good cause.” Section 23.132(b) of the Final Rule
is thus valid under the APA. See 5 U.S.C. § 706(a)(2).
***
For these reasons, we conclude that Plaintiffs had
standing to bring all claims and that ICWA and the
Final Rule are constitutional because they are based
on a political classification that is rationally related to
the fulfillment of Congress’s unique obligation toward
Indians; ICWA preempts conflicting state laws and
does not violate the Tenth Amendment anticommandeering doctrine; and ICWA and the Final Rule do not
violate the nondelegation doctrine. We also conclude
that the Final Rule implementing the ICWA is valid
because the ICWA is constitutional, the BIA did not
exceed its authority when it issued the Final Rule, and
the agency’s interpretation of ICWA section 1915 is
reasonable. Accordingly, we AFFIRM the district
court’s judgment that Plaintiffs had Article III standing. But we REVERSE the district court’s grant of
summary judgment for Plaintiffs and RENDER judgment in favor of Defendants on all claims.

467a
PRISCILLA R. OWEN, Circuit Judge, concurring in
part and dissenting in part:
I agree with much of the majority opinion. But I
conclude that certain provisions of the Indian Child
Welfare Act (ICWA)1 and related regulations violate
the United States Constitution because they direct
state officers or agents to administer federal law. I
therefore dissent, in part.
The offending statutes include part of 25 U.S.C.
§ 1912(d) (requiring a State seeking to effect foster
care placement of an Indian child to “satisfy the court
that active efforts have been made to provide remedial
services and rehabilitative programs designed to prevent the breakup of the Indian family and these efforts have proved unsuccessful”), § 1912(e) (prohibiting foster care placement unless a State presents evidence from “qualified expert witnesses . . . that the
continued custody of the child by the parent or Indian
custodian is likely to result in serious emotional or
physical damage to the child”), and § 1915(e) (requiring that “[a] record of each such placement, under
State law, of an Indian child shall be maintained by
the State in which the placement was made, evidencing the efforts to comply with the order of preference
specified in this section” and that “[s]uch record[s]
shall be made available at any time upon the request
of the Secretary or the Indian child’s tribe”). Regulations requiring States to maintain related records also
violate the Constitution.2

1
2

25 U.S.C. §§ 1901 et seq.
See 25 C.F.R. § 23.141:

468a
The Supreme Court has made clear that Congress
cannot commandeer a State or its officers or agencies:
“[T]he Federal Government may not compel the
States to implement, by legislation or executive action, federal regulatory programs.”3 “The anticommandeering doctrine may sound arcane, but it is
simply the expression of a fundamental structural decision incorporated into the Constitution, i.e., the decision to withhold from Congress the power to issue
orders directly to the States.”4 “The legislative powers
granted to Congress are sizable, but they are not unlimited. The Constitution confers on Congress not plenary legislative power but only certain enumerated
powers. Therefore, all other legislative power is re-

(a) The State must maintain a record of every voluntary or involuntary foster-care, preadoptive, and adoptive placement of an Indian child and make the record
available within 14 days of a request by an Indian child’s
Tribe or the Secretary.
(b) The record must contain, at a minimum, the petition or complaint, all substantive orders entered in the
child-custody proceeding, the complete record of the
placement determination (including, but not limited to,
the findings in the court record and the social worker’s
statement), and, if the placement departs from the placement preferences, detailed documentation of the efforts
to comply with the placement preferences.
(c) A State agency or agencies may be designated to
be the repository for this information. The State court or
agency should notify the BIA whether these records are
maintained within the court system or by a State agency.
3
Printz v. United States, 521 U.S. 898, 925 (1997).
4
Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461,
1475 (2018).

469a
served for the States, as the Tenth Amendment confirms.”5 The Supreme Court has recognized that “conspicuously absent from the list of powers given to Congress is the power to issue direct orders to the governments of the States. The anticommandeering doctrine
simply represents the recognition of this limit on congressional authority.”6
The defendants in the present case contend that
the Indian Commerce Clause7 empowers Congress to
direct the States as it has done in the ICWA. They are
mistaken. “Where a federal interest is sufficiently
strong to cause Congress to legislate, it must do so directly; it may not conscript state governments as its
agents.”8
The panel’s majority opinion concludes that the
ICWA does “not commandeer state agencies”9 because
it “evenhandedly regulate[s] an activity in which both
States and private actors engage.”10 This is incorrect
with respect to the part of 25 U.S.C. § 1912(d) addressed to foster care placement, § 1912(e), § 1915(e),
and 25 C.F.R. § 23.141.
Though § 1912(d) nominally applies to “[a]ny
party seeking to effect a foster care placement of . . .
5

Id. at 1476.
Id.
7
U.S. CONST. art. I, § 8, cl. 3 (“The Congress shall have Power
. . . To regulate Commerce with foreign Nations, and among the
several States, and with the Indian Tribes.”).
8
Murphy, 138 S. Ct. at 1477 (quoting New York v. United
States, 505 U.S. 144, 178 (1992)).
9
Brackeen v. Bernhardt, __ F.3d __, __, 2019 WL 3759491, at
*14 (5th Cir. 2019).
10
Id. (quoting Murphy, 138 S. Ct. at 1478).
6

470a
an Indian child under State law,”11 as a practical matter, it applies only to state officers or agents. Foster
care placement is not undertaken by private individuals or private actors. That is a responsibility that
falls upon state officers or agencies. Those officers or
agencies are required by § 1912(d) to “satisfy the court
that active efforts have been made to provide remedial
services and rehabilitative programs designed to prevent the breakup of the Indian family and that these
efforts have proved unsuccessful.”12 That directive
means that a State cannot place an Indian child in
foster care, regardless of the exigencies of the circumstances, unless it first provides the federally specified
services and programs without success. Theoretically,
a State could decline to protect Indian children in
need of foster care. It could, theoretically, allow Indian children to remain in abusive or even potentially
lethal circumstances. But that is not a realistic
choice, even if state law did not apply across the board
and include all children, regardless of their Indian
heritage.
Certain of the ICWA’s provisions are a transparent attempt to foist onto the States the obligation to
execute a federal program and to bear the attendant
costs. Though the requirements in § 1912(d) are not
as direct as those at issue in Printz v. United States,13
the federal imperatives improperly commandeer state
officers or agents:

11
12
13

25 U.S.C. § 1912(d).
Id.
521 U.S. 898 (1997).

471a
It is an essential attribute of the States’ retained sovereignty that they remain independent and autonomous within their proper
sphere of authority. See Texas v. White, 7
Wall. [700,] 725 [(1868)]. It is no more compatible with this independence and autonomy
that their officers be “dragooned” (as Judge
Fernandez put it in his dissent below, [Mack
v. United States], 66 F.3d[ 1025,] 1035 [(9th
Cir. 1995)]) into administering federal law,
than it would be compatible with the independence and autonomy of the United States
that its officers be impressed into service for
the execution of state laws.14
Similarly, § 1912(e) provides that “[n]o foster care
placement may be ordered” unless there is “qualified
expert witness[]” testimony “that the continued custody of the child by the parent or Indian custodian is
likely to result in serious emotional or physical damage to the child.”15 This places the burden on a State,
not a court, to present expert witness testimony in order to effectuate foster care for Indian children. If the
federal government has concluded that such testimony is necessary in every case involving an Indian
child’s foster care placement, then the federal government should provide it. It cannot require the States
to do so.
The requirements in 25 U.S.C. § 1912(d) apply to
termination of parental rights, not just foster care
placement.16 The laws of Indiana, Louisiana, and
14
15
16

Id. at 928.
25 U.S.C. § 1912(e).
Id. § 1912(d).

472a
Texas each permit certain individuals to petition for
the termination of parental rights in some circumstances,17 and § 1912(d) applies to all parties seeking
termination, not just state actors.18 At least superficially, § 1912(d) appears to be an evenhanded regulation of an activity in which both States and private
actors engage.19 But it is far from clear based on the
present record that § 1912(d) applies in a meaningful
way to private actors and if so, how many private actors, as compared to state actors, have actually met its
requirements. Additionally, it appears that the State
plaintiffs contend that “the incidental application to
the States of a federal law of general applicability excessively interfered with the functioning of state governments.”20 I would remand for further factual development. It may be that in the vast majority of involuntary parental termination proceedings, the party
seeking the termination is a state official or agency.
It also seems highly unlikely that individuals or private actors seeking termination of parental rights (if
and when permitted to do so under a State’s laws) will
have been in a position “to provide remedial services
and rehabilitative programs designed to prevent the

17
See, e.g., IND. CODE §§ 31-35-2-4, 31-35-3.5-3 (2018); IND.
CODE § 31-35-3-4 (2013); LA. CHILD. CODE ANN. art. 1122 (2019);
TEX. FAM. CODE ANN. § 102.005 (West 2019); TEX. FAM. CODE
ANN. § 161.005 (West Supp. 2019).
18
25 U.S.C. § 1912(d).
19
See Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461,
1478 (2018) (“The anticommandeering doctrine does not apply
when Congress evenhandedly regulates an activity in which both
States and private actors engage.”).
20
Printz v. United States, 521 U.S. 898, 932 (1997).

473a
breakup of the Indian family.”21 It seems much more
likely that these requirements fall, de facto, on the
shoulders of state actors and agencies.
The records-keeping requirements in 25 U.S.C.
§ 1915(e) and 25 C.F.R. § 23.141 are direct orders to
the States.22 They do not apply to private parties in
parental termination or foster care placement proceedings. They do not apply “evenhandedly [to] an activity in which both States and private actors engage.”23
The Supreme Court expressly left open in Printz
whether federal laws “which require only the provision of information to the Federal Government” are an
unconstitutional commandeering of a State or its officers or agents.24 But the principles set forth in Printz
lead to the conclusion that Congress is without authority to order the States to provide the information
required by § 1915(e) and related regulations. Even
were the burden on the States of creating, maintaining, and supplying the required information “minimal
and only temporary,” the Supreme Court has reasoned that “where . . . it is the whole object of the law
to direct the functioning of the state executive, and
hence to compromise the structural framework of dual
21

25 U.S.C. § 1912(d).
Id. at § 1915(e) (“A record of each such placement, under
State law, of an Indian child shall be maintained by the State in
which the placement was made . . . .”); 25 C.F.R. § 23.141 (“The
State must maintain a record of every voluntary or involuntary
foster-care, preadoptive, and adoptive placement of an Indian
child . . . .”).
23
Brackeen v. Bernhardt, __ F.3d __, __, 2019 WL 3759491, at
*14 (5th Cir. 2019) (quoting Murphy, 138 S. Ct. at 1478).
24
521 U.S. at 918.
22

474a
sovereignty, such a ‘balancing’ analysis is inappropriate.”25 The Supreme Court stressed, “It is the very
principle of separate state sovereignty that such a law
offends, and no comparative assessment of the various
interests can overcome that fundamental defect.”26
The panel’s majority opinion concludes that the
requirements of 25 U.S.C. § 1915(e) and 25 C.F.R.
§ 23.141 do not commandeer state officers or agents
because they “regulate state activity and do not require states to enact any laws or regulations, or to assist in the enforcement of federal statutes regulating
private individuals.”27 But the statute orders States to
maintain records of each placement of an Indian child
and requires those records to “evidenc[e] the efforts to
comply with the order of preference specified in this
section.”28 That directs States to assist in the enforcement of the ICWA by requiring States to document efforts to comply with the ICWA’s preferences. The
panel’s majority opinion also cites three Supreme
Court decisions, none of which supports its holding regarding the creation and maintenance of records.29
The statute at issue in Condon prohibited States from
disclosing or selling personal information they obtained from drivers in the course of licensing drivers

25

Id. at 932.
Id.
27
Brackeen, __ F.3d at __, 2019 WL 3759491, at *14.
28
25 U.S.C. § 1915(e).
29
Brackeen, __ F.3d at __, 2019 WL 3759491, at *14 (citing
Reno v. Condon, 528 U.S. 141, 151 (2000); Printz, 521 U.S. at 918;
South Carolina v. Baker, 485 U.S. 505, 514 (1988)).
26

475a
and vehicles, unless the driver consented to the disclosure or sale of that information.30 The Court’s decision
in Condon focused on that prohibition rather than the
statute’s additional requirement that certain information be disclosed to carry out the purposes of federal statutes including the Clean Air Act and the Anti
Car Theft Act of 1992.31 The Baker decision did not
concern a requirement that States create and maintain records.32 The federal statute at issue in Baker
allowed a tax exemption for registered, but not bearer,
bonds, and the statute “cover[ed] not only state bonds
but also bonds issued by the United States and private
corporations.”33 As already discussed above, the
Printz decision expressly left open the question of
whether federal statutes requiring States to provide
information was constitutional,34 but the rationale of
Printz compels the conclusion that some of the ICWA’s
commandments result in a commandeering of state officers and agents.
I agree with the panel’s majority opinion that in
some respects, the ICWA “merely require[s] states to
‘take administrative . . . action to comply with federal
standards regulating’ child custody proceedings involving Indian children, which is permissible under
the Tenth Amendment.”35 Unlike the congressional

30
Condon, 528 U.S. at 143-44 (citing the Driver’s Privacy Protection Act of 1994, 18 U.S.C. §§ 2721-2725).
31
Id. at 145, 148-51.
32
See Baker, 485 U.S. at 508-10.
33
Id. at 510.
34
Printz, 521 U.S. at 918.
35
Brackeen, __ F.3d at __, 2019 WL 3759491, at *14 (quoting
Baker, 485 U.S. at 515).

476a
enactment at issue in Murphy, the ICWA does “confer
. . . federal rights on private actors interested in”36 foster care placement, the termination of parental rights
to an Indian child, and adoption of Indian children.
States cannot override or ignore those private actors’
federal rights by failing to give notice to interested or
affected parties or by failing to follow the placement
preferences expressed in the ICWA. If a State desires
to place an Indian child with an individual or individuals other than the child’s birth parents, the State
must respect the federal rights of those upon whom
the ICWA confers an interest in the placement of the
Indian child or Indian children more generally. But
25 U.S.C. § 1912(d) (to the extent it concerns foster
care placement), § 1912(e), § 1915(e), and 25 C.F.R.
§ 23.141, require more than the accommodation of private actors’ federal rights regarding the placement of
Indian children. Those statutes and regulations commandeer state officers or agents by requiring them “to
provide remedial services and rehabilitative programs
designed to prevent the breakup of the Indian family”
and to demonstrate that such “efforts have proved unsuccessful”;37 to present “qualified expert witnesses”
to demonstrate “that the continued custody of the
child by the parent or Indian custodian is likely to result in serious emotional or physical damage to the
child”;38 and to create and maintain records of every

36

Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461,
1467 (2018).
37
25 U.S.C. § 1912(d).
38
Id. § 1912(e).

477a
placement of an Indian child as well as records “evidencing the efforts to comply with the order of preference specified in this section.”39
That these statutes and regulations “serve[] very
important purposes” and that they are “most efficiently administered” at the state level is of no moment in a commandeering analysis.40 As JUSTICE
O’CONNOR, writing for the Court in New York v.
United States, so eloquently expressed, “the Constitution protects us from our own best intentions: It divides power among sovereigns and among branches of
government precisely so that we may resist the temptation to concentrate power in one location as an expedient solution to the crisis of the day.”41

39
40
41

Id. § 1915(e).
Printz v. United States, 521 U.S. 898, 931-32 (1997).
505 U.S. 144, 187 (1992).

478a
United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK

LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

August 16, 2019
MEMORANDUM TO COUNSEL OR PARTIES
LISTED BELOW:
No. 18-11479 Chad Brackeen, et al v. David Bernhardt, et al
USDC No. 4:17-CV-868
Enclosed is the modified opinion entered in the case
in which Judge Owen’s concurring in part and dissenting in part has been added.
Sincerely,
LYLE W. CAYCE, Clerk
By: _/s/ Debbie T. Graham______
Debbie T. Graham, Deputy Clerk
Mr. Hector Balderas
Ms. Maria Wyckoff Boyce
Ms. Catherine E. Bratic
Mr. Mark Brnovich
Mr. Adam Howard Charnes
Mr. Kevin G. Clarkson
Mr. David Steven Coale
Mr. William S Consovoy
Mr. Klint Cowan

479a
Mr. Samuel Daughety
Ms. Erin C. Dougherty Lynch
Mr. Keith Ellison
Mr. Robert W. Ferguson
Mr. Matthew L. Fletcher
Mr. Benjamin Michael Flowers
Ms. Kathryn Fort
Mr. Timothy C. Fox
Mr. Aaron M. Frey
Mr. Eric Grant
Mr. Gurbir Grewal
Mr. David J. Hacker
Ms. Kendra J. Hall
Mr. Keith Michael Harper
Mr. Kyle Douglas Hawkins
Ms. Maura Healey
Ms. Rachel Heron
Mr. Mark R. Herring
Mr. Jim Hood
Ms. Hyland Hunt
Mr. Joshua L. Kaul
Mr. Bryan N. B. King
Ms. JoAnn Kintz
Ms. Beth Ellen Klusmann
Mr. Samuel E. Kohn
Mr. Daniel Lewerenz
Mr. Matthew Dempsey McGill
Ms. Michelle T. Miano
Mr. Thomas J. Miller
Ms. Paulette Miniter
Mr. Peter F. Neronha
Ms. Dana Nessel
Ms. Roxanna Nowparast
Ms. Kerry Kay Patterson
Ms. Rose N. Petoskey

480a
Mr. Kwame Raoul
Mr. Sean D. Reyes
Ms. Christina Riehl
Ms. Ellen F. Rosenblum
Mr. Timothy Mason Sandefur
Mr. Thomas Schmidt
Mr. Alan E. Schoenfeld
Mr. Lochlan Francis Shelfer
Ms. Colleen Sinzdak
Ms. Danielle Mary Spinelli
Mr. Paul Spruhan
Ms. Krystal Brunner Swendsboe
Mr. Lawrence G. Wasden
Mr. Thurston Holderness Webb
Mr. Philip J. Weiser
Ms. Racheal M. White Hawk

481a
APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-11479

CHAD EVERET BRACKEEN; JENNIFER KAY
BRACKEEN; STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ; STATE OF INDIANA; JASON CLIFFORD; FRANK NICHOLAS LIBRETTI;
STATE OF LOUISIANA; HEATHER LYNN LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs - Appellees
v.
CHEROKEE NATION; ONEIDA NATION; QUINALT INDIAN NATION; MORONGO BAND OF
MISSION INDIANS,
Intervenor Defendants - Appellants

Appeal from the United States District Court for the
Northern District of Texas

Before SOUTHWICK, HAYNES, and COSTA, Circuit
Judges.
PER CURIAM:

482a
IT IS ORDERED that, with respect to the appellants’ opposed motion for stay pending appeal, the district court’s October 2018 judgment is stayed pending
further order of this court.

483a
United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130

December 03, 2018
MEMORANDUM TO COUNSEL OR PARTIES
LISTED BELOW:
No. 18-11479

Chad Brackeen, et al. v.
Ryan Zinke, et al.
USDC No. 4:17-CV-868

Enclosed is an order entered in this case.
Sincerely,
LYLE W. CAYCE, Clerk
By: /s/ Melissa B. Courseault
Melissa B. Courseault,
Deputy Clerk
504-310-7701
Mr. Adam Howard Charnes
Ms. Kathryn Fort
Mr. David J. Hacker
Mr. Kyle Douglas Hawkins
Ms. Beth Ellen Klusmann
Mr. Matthew Dempsey McGill
Ms. Karen S. Mitchell
Mr. Lochlan Francis Shelfer

484a
Mr. John Clay Sullivan
Mr. Thurston Holderness Webb

485a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CHAD
et al.,

BRACKEEN, §
§
§
Plaintiffs,
§
v.
§
§
RYAN ZINKE, et al.,
§
§
Defendants,
§
CHEROKEE NATION, §
§
et al.,
§
Intervenors§
Defendants.
§
§

Civil Action No.
4: 17-cv-00868-O

ORDER
This case arises because three children, in need of
foster and adoptive placement, fortunately found loving adoptive parents who seek to provide for them.
Because of certain provisions of a federal law, however, these three children have been threatened with
removal from, in some cases, the only family they
know, to be placed in another state with strangers.
Indeed, their removals are opposed by the children’s
guardians or biological parent(s), and in one instance
a child was removed and placed in the custody of a

486a
relative who had previously been declared unfit to
serve as a foster parent. As a result, Plaintiffs seek to
declare that federal law, known as the Indian Child
Welfare Act (the “ICWA”), unconstitutional.
In this case, the State Plaintiffs have filed a Motion for Summary Judgment (ECF No. 72), on April
26, 2018, and the Individual Plaintiffs filed a Motion
for Summary Judgment (ECF No. 79), on the same
day. Plaintiffs seek judgment as a matter of law on
all of their claims. The parties appeared at a hearing
on these motions and presented oral arguments on
August 1, 2018. See Hr’g Tr., ECF No. 163. For the
following reasons, the Court finds Plaintiffs’ motions
for summary judgment should be and are hereby
GRANTED in part and DENIED in part.
I.

BACKGROUND

First, the Court identifies the parties, next the legal backdrop of this dispute, and then the parties’
claims, drawing in large part on those facts set out in
the Order denying Defendants’ motions to dismiss.
See July 24, 2018 Order, ECF No. 155. Following
these sections, this order will analyze the claims.
Plaintiffs are comprised of three states—Texas,
Louisiana, and Indiana, (collectively, the “State Plaintiffs”), and seven individual Plaintiffs—Chad Everett
and Jennifer Kay Brackeen (the “Brackeens”), Nick
and Heather Libretti (the “Librettis”), Altagracia Socorro Hernandez (“Ms. Hernandez”), and Jason and
Danielle Clifford (the “Cliffords”) (collectively, the “Individual Plaintiffs”) (together with the State Plaintiffs, “Plaintiffs”). State Pls.’ Br. Supp. Mot. Summ. J.
1– 2, ECF No. 74 [hereinafter “State Pls.’ Br.”]. Defendants are the United States of America; the United

487a
States Department of the Interior (the “Interior”) and
its Secretary Ryan Zinke (“Zinke”) in his official capacity; the Bureau of Indian Affairs (the “BIA”) and
its Director Bryan Rice (“Rice”) in his official capacity;
the BIA Principal Assistant Secretary for Indian Affairs John Tahsuda III (“Tahsuda”)1 in his official capacity; the Department of Health and Human Services (“HHS”) and its Secretary Alex M. Azar II
(“Azar”) (collectively the “Federal Defendants”). Id.
Shortly after this case was filed, the Cherokee Nation,
Oneida Nation, Quinalt Indian Nation, and Morengo
Band of Mission Indians (collectively, the “Tribal Defendants”) filed an unopposed motion to intervene,
which the Court granted. See Trib. Defs.’ Mot. Intervene, ECF No. 42; Mar. 28, 2018 Order, ECF No. 45.
Plaintiffs seek to declare unconstitutional certain
provisions of the ICWA and its accompanying regulations (codified at 25 C.F.R. part 23), known as the Indian Child Welfare Act Proceedings (the “Final Rule”),
as well as certain provisions of the Social Security Act
(the “SSA”) that predicate federal funding for portions
of state child-welfare payments on compliance with
the ICWA. Plaintiffs argue that the ICWA and the
Final Rule implement a system that mandates racial
1

Initially Plaintiffs sued Michael Black in his official capacity
as Acting Assistant Secretary of Indian Affairs. See Orig. Compl.
¶ 17, ECF No. 1. On September 13, 2017, Secretary of the Interior Ryan Zinke appointed Tahsuda as the Department of Interior’s Principal Assistant Secretary of Indian Affairs. See Press
Release, Secretary Zinke Names John Tahsuda III the Principal
Deputy Assistant Secretary for Indian Affairs, DEP’T OF THE INT.,
(Sept. 13, 2017), https://www.doi.gov/pressreleases/secretaryzinke-names-john-tahsuda-iii-principal-deputy-assistant-secretary-indian. Accordingly, Tahsuda has been substituted as a Defendant.

488a
and ethnic preferences, in direct violation of state and
federal law. Am. Comp. ¶ 193, ECF No. 35; 42 U.S.C.
§ 1996(b); TEX. FAM. CODE §§ 162.015, 264.1085; LA.
CONST. art. 1, § 3. Plaintiffs ask that the Final Rule
be declared invalid and set aside as a violation of substantive due process and as not in accordance with law
(Counts One and Five). Am. Compl. ¶¶ 265, 349, ECF
No. 35; 5 U.S.C. § 705(2)(A). Plaintiffs also ask that
the ICWA, specifically sections 1901–23 and 1951– 52,
be declared unconstitutional under Article One and
the Tenth Amendment of the United States Constitution because these provisions violate the Commerce
Clause, intrude into state domestic relations, and violate the anti-commandeering principle (Counts Two
and Three). Am. Compl. ¶¶ 281, 323, ECF No. 35. Finally, Plaintiffs ask that the ICWA sections 1915(a)–
(b) be declared unconstitutional in violation of the
equal protection guarantee of the Fifth Amendment to
the United States Constitution and Individual Plaintiffs alone ask the same sections be declared unconstitutional in violation of substantive due process.
(Counts Four and Six). Id. ¶¶ 338, 367. State Plaintiffs alone bring the final count, seeking a declaration
that ICWA section 1915(c) and Final Rule section
23.130(b) violate the non-delegation doctrine (Count
Seven). Am. Compl. ¶ 376, ECF No. 35.
A. The ICWA and the SSA
Congress passed the ICWA in 1978 in response to
rising concerns over “abusive child welfare practices
that resulted in the separation of large numbers of Indian children from their families and tribes through
adoption or foster care placement, usually in non-Indian homes.” Miss. Band of Choctaw Indians v. Holyfield, 490 U.S. 30, 32 (1989). “Congress found that ‘an

489a
alarmingly high percentage of Indian families [were
being] broken up by the removal, often unwarranted,
of their children from them by nontribal public and
private agencies.’” Adoptive Couple v. Baby Girl, 133
S. Ct. 2552, 2557 (2013) (quoting 25 U.S.C. § 1901(4)).
Recognizing “that there is no resource that is more vital to the continued existence and integrity of Indian
tribes than their children,” Congress created a framework to govern the adoption of Indian children.2 See
25 U.S.C. § 1901, et seq. This framework establishes:
(1) placement preferences in adoptions of Indian children; (2) good cause to depart from those placement
preferences; (3) standards and responsibilities for
state courts and their agents; and (4) consequences
flowing from noncompliance with the statutory requirements. See id.
The ICWA established “minimum Federal standards for the removal of Indian children from their families and the placement of such children in foster or
adoptive homes.” 25 U.S.C. § 1902. The ICWA mandates placement preferences in foster care, preadoptive, and adoptive proceedings involving Indian
children. Id. § 1915. It requires that “in any adoptive
placement of an Indian child under State law, a preference shall be given, in the absence of good cause to
the contrary, to a place with (1) a member of the
2

See also Br. of Amicus Curiae 123 Federally Recognized Indian Tribes, et al. in Opposition to Plaintiffs’ Motions for Summary Judgment 1, ECF No. 138. (“Congress enacted the Indian
Child Welfares Act of 1978 (“ICWA” or “the Act”), 25 U.S.C. 1901
et seq., in response to a nationwide crisis—namely, the widespread and wholesale displacement of Indian children from their
families by state child welfare agencies at rates far higher than
those of non-Indian families.”).

490a
child’s extended family; (2) other members of the Indian child’s tribe; or (3) other Indian families.” Id.
§ 1915(a). Similar requirements are set for foster care
or preadoptive placements. Id. § 1915(b). If the Indian child’s tribal court should establish a different
order of the preferences than that set by Congress, the
state court or agency “shall follow such order so long
as the placement is the least restrictive setting appropriate to the particular needs of the child.” Id.
§ 1915(c).
Absent good cause, the state court shall transfer
proceedings concerning an Indian child to the Indian
child’s tribal court. 25 U.S.C. § 1911(b). In any state
court proceeding for the “foster care placement of, or
termination of parental rights to, an Indian child, the
Indian custodian of the child and the Indian child’s
tribe shall have a right to intervene at any point in the
proceeding.” Id. § 1911(c). The ICWA prohibits the
termination of parental rights for an Indian child in
the absence of “evidence beyond a reasonable doubt,
including testimony of qualified expert witnesses,
that continued custody of the child by the parent or
Indian custodian is likely to result in serious emotional or physical damage to the child.” Id. § 1912(f).
State agencies and courts must notify potential intervenors and the Director of the BIA of an Indian
child matter. 25 U.S.C. § 1912. In any involuntary
child custody proceeding, the ICWA commands state
agencies and courts—when seeking foster care placement of or termination of parental rights to an Indian
child—to notify the parents or Indian custodian and
the Indian child’s tribe of the pending proceedings and
of their right to intervene. 25 U.S.C. § 1912(a). Copies
of these notices must be sent to the Secretary of the

491a
Interior and the BIA. No foster care placement or termination of parental rights proceeding may be held
until at least ten days after receipt of such a notice by
the parent or Indian custodian and tribe or the Secretary of the Interior. Id. The ICWA also grants the Indian custodian or tribe up to twenty additional days
to prepare for such proceedings. Id.
The ICWA dictates that an Indian parent or
guardian may not give valid consent to termination of
parental rights before ten days after the birth of the
Indian child. 25 U.S.C. § 1913(a). Before parental
rights are terminated “any parent or Indian custodian
may withdraw consent to a foster care placement under State law at any time.” Id. § 1913(b). In any voluntary proceeding for termination of parental rights
or adoptive placement of an Indian child, the biological parents or the Indian tribe may withdraw consent
for any reason prior to the entry of a final decree, and
the child shall be returned. Id. § 1913(c). Finally, the
ICWA permits the parent of an Indian child to withdraw consent to a final decree of adoption on the
grounds that the consent was obtained through fraud
or duress for up to two years after the final decree. Id.
§ 1913(d); Ind. Pls.’ Br. Supp. Mot. Summ. J. 20, ECF
No. 80 [hereinafter “Ind. Pls.’ Br.”].
The ICWA places recordkeeping duties on state
agencies and courts, to demonstrate their compliance
with the statute. 25 U.S.C. § 1915(e). Additionally,
state courts entering final decrees must provide the
Secretary of the Interior with a copy of the decree or
order, along with the name and tribal affiliation of the
child, names of the biological parents, names of the

492a
adoptive parents, and the identity of any agency having files or information relating to the adoption. Id.
§ 1951.
If the state court or prospective guardian fails to
comply with the ICWA, the final child custody orders
or placements may be overturned, whether on direct
appeal or by another court of competent jurisdiction.
25 U.S.C. § 1914.3 To ensure state agencies and courts
comply with the ICWA’s mandates, it enables any Indian child who is the subject of any action under the
ICWA, any parent or Indian custodian from whose
custody the child was removed, and the Indian child’s
tribe, to petition any court of competent jurisdiction to
invalidate a state court’s decision for failure to comply
with the ICWA sections 1911, 1912, and 1913. Id.
Section 1914 has also been applied to allow collateral
attacks of adoptions after the close of the relevant
window under state law. See id.; Ind. Pls.’ Br. 6, ECF
No. 80; see e.g., Belinda K. v. Baldovinos, No. 10-cv2507-LHK, 2012 WL 13571, at *4 (N.D. Cal. Jan. 4,
2012).
Congress has also tied child welfare funding to
compliance with the ICWA. The SSA requires states
who receive child welfare funding through Title IV-B,
Part 1 of the SSA to file annual reports, including a
description of their compliance with the ICWA. Social
Security Amendments Act of 1994, Pub. L. No. 103-

3

While a “court of competent jurisdiction” is not defined in the
ICWA or the Final Rule, state appellate courts and federal district courts have heard challenges to adoption proceedings under
the ICWA. See, e.g., Oglala Sioux Tribe v. Van Hunnik, 993 F.
Supp. 2d 1017, 1022 (D.S.D. 2014); Doe v. Mann, 285 F. Supp. 2d
1229, 1231 (N.D. Cal. 2003).

493a
432, § 204, 108 Stat. 4398 (1994); 42 U.S.C. § 622(a).
Title IV-B funding is partially contingent on how well
the states demonstrate their compliance with the
ICWA. Part ‘b’ requires that a state’s plan must also
“contain a description, developed after consultation
with tribal organizations . . . in the State, of the specific measures taken by the State to comply with the
[ICWA].” 42 U.S.C. § 622(b).
Congress expanded the requirement for states to
comply with the ICWA to receive SSA funding in 1999
and 2008 when it amended Title IV-E to require states
to certify ICWA compliance to receive foster care and
adoption services funding. Foster Care Independence
Act of 1999, Pub. L. No. 106-69, § 101, 113 Stat. 1822
(1999); Fostering Connections to Success and Increasing Adoptions Act of 2008, Pub. L. No. 110-351, § 301,
122 Stat. 3949 (2008). Finally, HHS regulations state
that the HHS Administration for Children and Families (“ACF”) “will determine a title IV–E agency’s substantial conformity with title IV–B and title IV–E
plan requirements” based on “criteria related to outcomes.” 45 C.F.R. § 1355.34(a). Part ‘b’ of the same
section includes compliance with the ICWA. Id.
§ 1355.34(b).
In fiscal year 2018, Congress allocated to Texas
approximately $410 million in federal funding for Title IV-B and Title IV-E programs, Louisiana received
approximately $64 million, and Indiana received approximately $189 million. Am. Compl. ¶¶ 76–78, ECF
No. 35. Plaintiffs argue that HHS and Secretary Azar
have the authority to administer funding under Title
IV-B and Title IV-E and are vested with discretion to
approve or deny a state’s compliance with the requirements of 42 U.S.C. §§ 622, 677. Therefore, Plaintiffs

494a
claim that funding under Title IV-B and IV-E is dependent on compliance with the ICWA. Am. Compl.
¶ 80, ECF No. 35.
B. The 1979 Guidelines and Final Rule
In 1979, before passage of the Final Rule, the BIA
promulgated the Guidelines for State Courts—the Indian Child Custody Proceedings (the “1979 Guidelines”). 44 Fed. Reg. 67,584 (Nov. 26, 1979). The BIA
intended these guidelines to assist in the implementation of the ICWA but they were “not intended to
have binding legislative effect.” Id. The 1979 Guidelines left the “primary responsibility” for interpreting
the ICWA “with the courts that decide Indian child
custody cases.” Id. The 1979 Guidelines also emphasized that “the legislative history of the [ICWA] states
explicitly that the use of the term ‘good cause’ was designed to provide state courts with flexibility in determining the disposition of a placement proceeding involving an Indian child.” Id. As state courts applied
the ICWA, some held that the ‘good cause’ exception
to the ICWA placement preferences required a consideration of a child’s best interest, including any bond or
attachment the child formed. Ind. Pls.’ Br. 7, ECF No.
80; see e.g., In re Interest of Bird Head, 331 N.W.2d
785, 791 (Neb. 1983); In re Appeal in Maricopa Cnty.,
Juvenile Action No. A25525, 667 P.2d 228, 234 (Ariz.
Ct. App. 1983). Other state courts limited the ICWA’s
application to situations where the child had some significant political or cultural connection to the tribe.
Ind. Pls.’ Br. 7, ECF No. 80; see e.g., In re Interest of
S.A.M, 703 S.W.2d 603, 608–09 (Mo. Ct. App. 1986);
Claymore v. Serr, 405 N.W.2d 650, 653–54 (S.D. 1987);
In re Adoption of T.R.M., 525 N.E.2d 298, 303 (Ind.

495a
1988); Hampton v. J.A.L., 658 So. 2d 331, 335 (La. Ct.
App. 1995).
In June 2016, the BIA promulgated the Final
Rule, which purported to “clarify the minimum Federal standards governing implementation of the
[ICWA]” and to ensure that it “is applied in all States
consistent with the Act’s express language.” 25 C.F.R.
§ 23.101. The regulations declared that while the BIA
“initially hoped that binding regulations would not be
necessary to carry out [the ICWA], a third of a century
of experience has confirmed the need for more uniformity in the interpretation and application of this
important Federal law.” 81 Fed. Reg. 38,782 (June 14,
2016).
Plaintiffs contend the main departure from the
previous decades of practice under the ICWA was the
Final Rule’s definition of the ‘good cause’ exception to
the preference placements and the evidentiary standard required to show good cause. Am. Compl. ¶ 116,
ECF No. 35; Ind. Pls.’ Br. 60–63, ECF No. 80. The
Final Rule noted that “State courts . . . differ as to
what constitutes ‘good cause’ for departing from
ICWA’s placement preferences.” 81 Fed. Reg. at
38,782. In response, the Final Rule mandates that
“[t]he party urging that ICWA preferences not be followed bears the burden of proving by clear and convincing evidence the existence of good cause” to deviate from such a placement. 81 Fed. Reg. at 38,838; see
also 25 C.F.R. § 23.132(b). The Final Rule further provides that state courts “may not consider factors such
as the participation of the parents or Indian child in
Tribal cultural, social, religious, or political activities,
the relationship between the Indian child and his or
her parents, whether the parent ever had custody of

496a
the child, or the Indian child’s blood quantum.” 81
Fed. Reg. at 38,868 (codified at 25 C.F.R. § 23.103(c)).
Plaintiffs contrast the text of the 1979 Guidelines
where “the use of the term ‘good cause’ was designed
to provide state courts with flexibility” with the Final
Rule, which now claims that “Congress intended the
good cause exception to be narrow and limited in
scope.” Compare 44 Fed. Reg. at 67,584 (Nov. 26,
1979), with 81 Fed. Reg. at 38,839 (June 14, 2016).
Accordingly, the Final Rule sets forth “five factors
upon which courts may base a determination of good
cause to deviate from the placement preferences,” and
further “makes clear that a court may not depart from
the preferences based on the socioeconomic status of
any placement relative to another placement or based
on the ordinary bonding or attachment that results
from time spent in a non-preferred placement that
was made in violation of ICWA.” 81 Fed. Reg. at
38,839; see also 25 C.F.R. § 23.132(c)–(e); Ind. Pls.’ Br.
7–9, ECF No. 80.
Beyond limiting what state courts may consider in
determining “good cause,” the Final Rule places more
responsibilities on states to determine if the child is
an Indian child. 25 C.F.R. § 23.107(a). These inquiries “should be on the record,” and “state courts must
instruct the parties to inform the court if they subsequently receive information that provides reason to
know the child is an Indian child.” Id.; 25 C.F.R.
§ 23.107(b). Whenever a state court enters a final
adoption decree or an order in an Indian child placement, the Final Rule requires the state court or
agency to provide a copy of the decree or order to the
BIA. 25 C.F.R. § 23.140. The Final Rule also requires

497a
states to “maintain a record of every voluntary or involuntary foster care, preadoptive, and adoptive
placement of an Indian child and make the record
available within 14 days of a request by an Indian
child’s Tribe or the Secretary [of the Interior].” 25
C.F.R. § 23.141.
In an involuntary foster care or termination of parental rights proceeding, the Final Rule requires state
courts to ensure and document that the state agency
has used “active efforts” to prevent the breakup of the
Indian family. 25 C.F.R. § 23.120. The Final Rule defines “active efforts” to include “assisting the parent
or parents or Indian custodian through the steps of a
case plan and with accessing or developing the resources necessary to satisfy the case plan.” 25 C.F.R.
§ 23.2.
When determining if the child is an Indian child,
only the Indian tribe of which the child is believed to
be a member may determine whether the child is a
member of the tribe or eligible for membership. 25
C.F.R. § 23.108(a). “The State court may not substitute its own determination regarding a child’s membership in a Tribe, a child’s eligibility for membership
in a Tribe, or a parent’s membership in a Tribe.” Id.
§ 23.108(b).
When an Indian child is a member or eligible for
membership in only one tribe, that tribe must be designated by the state court as the Indian child’s tribe.
But when the child meets the definition of “Indian
child” for more than one tribe, then the Final Rule instructs state agencies and courts to defer to “the Tribe
in which the Indian child is already a member, unless
otherwise agreed to by the Tribes,” or allow “the

498a
Tribes to determine which should be designated as the
Indian child’s Tribe.” 25 C.F.R. §§ 23.109(b)–(c). Only
when the tribes disagree about the child’s membership may state courts independently designate the
tribe to which the child belongs, and the Final Rule
provides criteria the courts must use in making that
designation. Id. § 23.109(c)(2).
The Final Rule instructs state courts to dismiss a
voluntary or involuntary child custody proceeding
when the Indian child’s residence or domicile is on a
reservation where the tribe exercises exclusive jurisdiction over child custody proceedings. 25 C.F.R.
§ 23.110(a). The Final Rule requires state courts to
terminate child custody proceedings if any party or
the state court has reason to believe that the Indian
child was improperly removed from the custody of his
parent or Indian custodian. 25 C.F.R. § 23.114.
C. The Adoption Proceedings
1. The Brackeens and A.L.M.
The Brackeens wished to adopt A.L.M, who was
born in Arizona to an unmarried couple, M.M. and J.J.
Ind. Pls.’ App. Supp. Mot. Summ. J. 60, ECF No. 81
[hereinafter “Ind. Pls.’ App.”]. A.L.M. is an Indian
child under the ICWA and the Final Rule because he
is eligible for membership in an Indian tribe—his biological mother is an enrolled member of the Navajo
Nation and his biological father is an enrolled member
of the Cherokee Nation. Id.; see 25 C.F.R. § 23.2. A
few days after A.L.M. was born, his biological mother
brought him to Texas to live with his paternal grandmother. Ind. Pls.’ App. 61, ECF No. 81. When he was
ten months old, Child Protective Services (“CPS”), a

499a
division of the Texas Department of Family and Protective Services (“DFPS”), removed A.L.M. from his
grandmother and placed him in foster care with the
Brackeens. Id. at 61. Pursuant to the ICWA and the
Final Rule, 25 C.F.R. § 23.11, the Cherokee Nation
and the Navajo Nation were notified of A.L.M.’s placement with the Brackeens. Id. at 61–62. Because
DFPS identified no ICWA-preferred foster placement
for A.L.M., he remained with the Brackeens. Id.
A.L.M. lived with the Brackeens for more than sixteen
months before, with the support of his biological parents and paternal grandmother, the Brackeens sought
to adopt him. Id.
In May 2017, a Texas state court terminated the
parental rights of A.L.M.’s biological parents, making
him eligible for adoption under Texas law. Id. at 61.
Shortly thereafter, a year after the Brackeens took
custody of A.L.M., the Navajo nation notified the state
court that it had located a potential alternative placement for A.L.M. with non-relatives in New Mexico. Id.
The Brackeens note that this placement would have
moved A.L.M away from both his biological parents
and the only home he has ever known. Id. at 61-62.
In July 2017, the Brackeens filed an original petition seeking to adopt A.L.M. Id. at 62. The Cherokee
and Navajo Nations were notified of the adoption proceeding in accordance with the ICWA and the Final
Rule. Id.; see 25 U.S.C. § 1912; see 25 C.F.R. § 23.11.
No one intervened in the Texas adoption proceeding
or otherwise formally sought to adopt A.L.M. Id. at
63. On August 1, 2017, a Texas family court held a
hearing regarding the Brackeens’ petition for adoption. Id. at 62. The Navajo Nation was designated as
A.L.M.’s tribe, but this “determination of [A.L.M.’s]

500a
Tribe for purposes of ICWA and [the Final Rule] [did]
not constitute a determination for any other purpose.”
25 C.F.R. § 23.109(c)(3).
Under the ICWA and the Final Rule placement
preferences, absent good cause, an Indian child should
be placed with a member of the child’s extended family, a member of the child’s Indian tribe, or another
Indian family, in that order. See 25 U.S.C. § 1915(a).
The Brackeens argued in state court that the ICWA’s
placement preferences should not apply because they
were the only party formally seeking to adopt A.L.M.,
and that good cause existed to depart from the preferences. Ind. Pls.’ App. 63, ECF No. 81. The Final Rule
places the burden on the Brackeens, the party seeking
adoption, to prove “by clear and convincing evidence
that there was ‘good cause’” to allow them, a non-Indian couple, to adopt A.L.M. 25 C.F.R. § 23.132(b).
The Brackeens submitted testimony by A.L.M.’s biological parents, his court appointed guardian, and an
expert in psychology to show good cause. Ind. Pls.’
App. 62, ECF No. 81. However, Texas DFPS pointed
to the Final Rule’s heightened evidentiary requirements and argued that the Brackeens did not provide
clear and convincing evidence of good cause to justify
a departure from the placement preferences. Id. at
61–62.
In January 2018, the Brackeens successfully petitioned to adopt A.L.M., but under the ICWA and the
Final Rule, the Brackeens’ adoption of A.L.M. is open
to collateral attack for two years. Id. at 64; see 25
U.S.C. § 1914; Ind. Pls.’ Br. at 6, ECF No. 80; see e.g.,
Belinda K. v. Baldovinos, No. 10-cv-2507-LHK, 2012
WL 13571, at *4 (N.D. Cal. Jan. 4, 2012). Plaintiffs

501a
explain that the Brackeens intend to continue to provide foster care for, and possibly adopt, additional
children in need. Ind. Pls.’ App. 64, ECF No. 81. But
they are reluctant, after this experience, to provide
foster care for other Indian children in the future. Id.
Plaintiffs argue that the ICWA and the Final Rule
therefore interfere with the Brackeens’ intention and
ability to provide a home to additional children. Am.
Compl. ¶ 154, ECF No. 35. Additionally, Plaintiffs argue that this legal regime harms Texas’s interests by
limiting the supply of available, qualified homes necessary to help foster-care children in general and Indian children in particular. Id.
2. The Librettis and Baby O.
The Librettis are a married couple living in
Sparks, Nevada. See Ind. Pls.’ App. 66, ECF No. 81.
They sought to adopt Baby O. when she was born in
March 2016. Id. at 67. Baby O.’s biological mother,
Ms. Hernandez, felt that she would be unable to care
for Baby O. and wished to place her for adoption at
her birth. Id. at 72. Ms. Hernandez has continued to
be a part of Baby O.’s life and she and the Librettis
visit each other regularly. Id. at 73. Baby O.’s biological father, E.R.G., descends from members of the Ysleta del sur Pueblo Tribe (the “Pueblo Tribe”), located
in El Paso, Texas. Id. at 69. At the time of Baby O.’s
birth, E.R.G. was not a registered member of the
Pueblo Tribe. Id. at 73.
The Pueblo Tribe intervened in the Nevada custody proceedings in an effort to remove Baby O. from
the Librettis. Id. at 69. Once the Librettis joined the
challenge to the constitutionality of the ICWA and the
Final Rule, the Pueblo Tribe indicated its willingness

502a
to discuss settlement. Id. at 69. The Librettis have
agreed to a settlement with the tribe that would permit them to petition for adoption of Baby O. Id. at 70.
But Plaintiffs point out that any settlement would
still be subject to collateral attack under the ICWA for
two years. Am. Compl. ¶ 168, ECF No. 35. The Librettis intend to petition to adopt Baby O. as soon as they
are able and are the only people who have indicated
an intent to adopt her. Ind. Pls.’ App. at 69–70, ECF
No. 81.
Similar to the Brackeens, the Librettis intend to
provide foster care for and possibly adopt additional
children in need. Id. at 70. Due to their experiences
with the ICWA, the Librettis are “reluctant to provide
a foster home for other Indian children in the future.”
Id.
3. The Cliffords and Child P.
The Cliffords live in Minnesota and seek to adopt
Child P. See Ind. Pls.’ App. 2, ECF No. 81. Child P.’s
maternal grandmother is a registered member of the
White Earth Band of Ojibwe Tribe (the “White Earth
Band”). Id. at 4. Child P. is a member of the White
Earth Band for the purposes of the ICWA only. Id.
The Minnesota state court considered itself bound by
the White Earth Band’s pronouncement and concluded that the ICWA must apply to all custody determinations concerning Child P. Id. at 4. However, because the ICWA placement preferences apply, county
officials removed Child P. from the Cliffords. Id. at 5–
6. Child P. was placed in the care of her maternal
grandmother—whose foster licensed had been revoked—in January 2018. Id. at 3–6.

503a
Child P.’s guardian ad litem supports the
Cliffords’ efforts to adopt her and agrees that the
adoption is in Child P’s best interest. Id. at 5. However, due to the application of the ICWA, the Cliffords
and Child P. remain separated and the Cliffords face
heightened legal barriers to adopt Child P. Id. at 53.
If the Cliffords are successful in petitioning for adoption, that adoption may be collaterally attacked for
two years under the ICWA. 25 U.S.C. § 1915(a).
D. State Plaintiffs
Texas, Louisiana, and Indiana bring this suit in
their capacities as sovereign states. See Am. Compl.
¶ 178, ECF No. 35. They claim that the ICWA and the
Final Rule harm state agencies charged with protecting child welfare by usurping their lawful authority of
the regulation of child custody proceedings and management of child welfare services. Id. Additionally,
State Plaintiffs contend the ICWA and the Final Rule
jeopardize millions of dollars in federal funding. Id.
State Plaintiffs each have at least one Indian tribe living within their borders and have regular dealings
with Indian child adoptions and the ICWA.4 Id.
4

Three federally recognized tribes reside in Texas—Yselta del
Sur Pueblo in El Paso, Texas; the Kickapoo Tribe in Eagle Pass,
Texas; and the Alabama-Coushatta Tribe near Livingston,
Texas. Both the Kickapoo Tribe and the Alabama-Coushatta
Tribe have reservations in Texas. See State Pls’ App at 481, ECF
No. 73. Four tribes reside in Louisiana—the Chitimacha Tribe in
Charenton, Louisiana; Coushatta Tribe in Elton, Louisiana; the
Tunica-Biloxi Tribe in Marksville, Louisiana; and the Jena Band
of Choctaw Indians in Jena, Louisiana. Am. Compl. ¶ 180, ECF
No. 35. One federally recognized tribe resides in Indiana—the
Pokagon Band of Potawatomi Indians. Id. ¶ 181. For example,
as of December 2017, there were thirty-nine children in the care

504a
Plaintiffs argue that the ICWA and the Final Rule
place significant responsibilities and costs on state
agencies and courts to carry out federal Executive
Branch directives. Id. at ¶ 187. Texas DFPS, Louisiana Department of Child and Family Services
(“DCFS”), and the Indiana Department of Child Services (“DCS”) each handle Indian child cases. See
State Pls.’ App at 10, 370, 394, ECF No. 73.
The State Plaintiffs require their state agencies
and courts to act in the best interest of the child in
foster care, preadoptive, and adoptive proceedings.
See id. at 37, 40, 44, 46, 64, 382. But the State Plaintiffs argue that the ICWA and Final Rule require
these courts and agencies to apply the mandated
placement preferences, regardless of the child’s best
interest, if the child at issue is an “Indian child.” Am.
Compl. ¶¶ 194–95, ECF No. 35. Additionally, State
Plaintiffs argue that the ICWA’s requirement that
state courts submit to mandates from an Indian
child’s tribe violates state sovereignty because the Indian tribe is not an equal sovereign deserving full
faith and credit. Id. ¶ 196; 25 U.S.C. § 1915(c).
In every child custody case, the ICWA and Final
Rule require the State Plaintiffs to undertake additional responsibilities, inquiries, and costs. As an example of how the ICWA and the Final Rule affect state
administrative and judicial procedures, State Plaintiffs submit the Texas CPS Handbook (the “Texas
Handbook”). Ind. Pls.’ App. 16 (Texas Handbook)
§ 1225, ECF No. 73 [hereinafter “Texas Handbook”].
of Texas DFPS who were verified to be enrolled or eligible for
membership in a federally recognized tribe, many of them living
in Texas DFPS homes. Id. ¶ 189.

505a
The Texas Handbook contains Texas DFPS’s policies
and procedures for compliance with the ICWA and the
Final Rule. Id. at 9–29. First, these standards require that, in every case, CPS workers determine if
the child or child’s family has Native American ancestry or heritage. Id. at 12. The Texas Handbook provides guidance on how to ascertain if the ICWA and
the Final Rule apply, how to comply with it, and
warns that failure to comply could result in the final
adoption order being overturned. Id. at 9–29. The
Texas Handbook also states that if an Indian child is
taken into DFPS custody, “almost every aspect of the
social work and legal case is affected.” Texas Handbook § 5844. If the ICWA applies, the legal burden of
proof for removal, obtaining a final order terminating
parental rights, and restricting a parent’s custody
rights is higher. Id. Texas DFPS must serve the
child’s parent, tribe, Indian custodian, and the BIA
with a specific notice regarding the ICWA rights, and
DFPS and its caseworkers “must make active efforts
to reunify the child and biological Indian family.” Id.
Finally, the child must be placed according to the
ICWA statutory preferences; expert testimony on
tribal child and family practices may be necessary;
and a valid relinquishment of parental rights requires
a parent to appear in court and a specific statutory
procedure is applied. Id.
Indiana and Louisiana have similar requirements
in place to assure that their child welfare systems
comply with the ICWA and the Final Rule. See id. at
370–400. Louisiana DCFS must maintain ongoing
contact with the Indian child’s tribe because each
tribe may elect to handle the ICWA differently. Am.
Compl. ¶ 220, ECF No. 35. They are also required to

506a
ensure that the state agencies take “all reasonable
steps” to verify the child’s status. 25 C.F.R. § 23.124.
The ICWA and the Final Rule require state courts
to ask each participant, on the record, at the commencement of child custody proceedings whether the
person knows or has reason to know whether the child
is an Indian child and directs the parties to inform the
court of any such information that arises later. 25
C.F.R. § 23.107(a). If the state court believes the child
is an Indian child, it must document and confirm that
the relevant state agency (1) used due diligence to
identify and work with all of the tribes that may be
connected to the child and (2) conducted a diligent
search to find suitable placements meeting the preference criteria for Indian families. Id. §§ 23.107(b),
23.132(c)(5). The ICWA and the Final Rule require
the State Plaintiffs’ agencies and courts to maintain
indefinitely records of placements involving Indian
children and subject those records to inspection by the
Director of the BIA and the child’s Indian tribe at any
time. 25 U.S.C. §§ 1915(e), 1917; 25 C.F.R. §§ 23.140–
41. State Plaintiffs claim this increases costs for the
agencies and courts who have to maintain additional
records not called for under state law and hire or assign additional employees to maintain these records
indefinitely. Am. Compl. ¶ 225, ECF No. 35.
The statutes also affect the State Plaintiffs’ rules
of civil procedure. The ICWA section 1911(c) and the
Final Rule dictate that the Indian child’s custodian
and the child’s tribe must be granted mandatory intervention. Texas Rule of Civil Procedure 60 permits
Texas courts to strike the intervention of a party upon
a showing of sufficient cause by another party, but the

507a
ICWA imposes a different legal standard of intervention to child custody cases involving Indian children.
TEX. R. CIV. P. 60; 25 U.S.C. § 1911(c) (“In any State
court proceeding . . . the Indian child’s tribe shall have
a right to intervene at any point in the proceeding.”)
(emphasis added). In Louisiana, any person with a
justiciable interest in an action may intervene. LA.
CODE CIV. PROC. art. 1091. In Indiana, a person may
intervene as of right or permissively, similar to the
Federal Rules of Civil Procedure. IND. R. TR. PROC.
24. The ICWA, however, eliminates these requirements and provides mandatory intervention for the
Indian child’s custodian and the child’s tribe. 25
U.S.C. § 1911(c).
Finally, the ICWA and the Final Rule override the
State Plaintiffs’ laws with respect to voluntary consent to relinquish parental rights. See 25 U.S.C.
§ 1913(a); 25 C.F.R. § 23.125(e). Texas law permits
voluntary relinquishment of parental rights fortyeight hours after the birth of the child; Louisiana allows surrender prior to or after birth of the child, and
surrender of maternal rights five days after the birth
of the child, and Indiana permits voluntary termination of parental rights after birth of the child. TEX.
FAM. CODE § 161,103(a)(1); LA. CHILD CODE art. 1130;
IND. CODE § 31-35-1-6. The ICWA and Final Rule prohibit any consent until ten days after the birth. 25
U.S.C. § 1913(a); 25 C.F.R. § 23.125(e).
The ICWA and the Final Rule also affect how long
a final adoption decree is subject to challenge. Under
the ICWA, state courts must vacate a final adoption
decree involving an Indian child, and return the child
to the biological parent, any time within two years if
the parent withdraws consent on the grounds that it

508a
was obtained through fraud or duress. 25 U.S.C.
§ 1913(d); 25 C.F.R. § 23.136. This directly conflicts
with Texas, Louisiana, and Indiana state law, which
provide that an adoption decree is subject to direct or
collateral attack for no more than one year. TEX. FAM.
CODE § 162.012(a) (up to six months); Goodson v. Castellanos, 214 S.W.3d 741, 748–49 (Tex. App.—Austin
2007, pet. denied); LA. CHILD. CODE art. 1263 (up to
six months); IND. CODE § 31-19-14-2 (up to six months
after entry of adoption decree; or up to one year after
adoptive parents obtain custody, whichever is later).
It also contradicts the Texas common law principle, as
well as Indiana statutory law, which hold that the
best interest of the child is served by concluding child
custody decisions so that these decisions are not unduly delayed. In re M.S., 115 S.W.3d 534, 548 (Tex.
2003); IND. CODE § 31-19-14-2. The ICWA however
permits the invalidation, by any court of competent
jurisdiction, of a state court’s final child custody order
if it fails to comply with the ICWA. 25 U.S.C. § 1914;
25 C.F.R. § 23.137.5
Finally, the State Plaintiffs contend if they fail to
comply with the ICWA, they risk losing funding for
child welfare services under Title IV-B and Title IV-E
of the SSA. Am. Compl. ¶ 243, ECF No. 35; 42 U.S.C.
§§ 622, 677. Defendants Zinke, Rice, Tahsuda, and
Azar, and their respective federal departments, determine if the State Plaintiffs are in compliance with the
ICWA’s statutory requirements, and in turn, whether
they are eligible for continued funding under Title IVB and Title IV-E funding.

5

See supra note 3.

509a
Plaintiffs moved for summary judgment on all
counts, arguing there is no dispute of material fact
and only questions of law remain. See ECF Nos. 72,
79. The motions are ripe for review.
II. LEGAL STANDARD
The Court may grant summary judgment where
the pleadings and evidence show “that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” FED. R. CIV.
P. 56(a). “[T]he substantive law will identify which
facts are material.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986). A genuine dispute as to any
material fact exists “if the evidence is such that a reasonable jury could return a verdict for the nonmoving
party.” Id. The movant must inform the Court of the
basis of its motion and demonstrate from the record
that no genuine dispute as to any material fact exists.
See Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986).
When reviewing the evidence on a motion for summary judgment, the Court must decide all reasonable
doubts and inferences in the light most favorable to
the non-movant. See Walker v. Sears, Roebuck & Co.,
853 F.2d 355, 358 (5th Cir. 1988). The court cannot
make a credibility determination in light of conflicting
evidence or competing inferences. Anderson, 477 U.S.
at 255. If there appears to be some support for disputed allegations, such that “reasonable minds could
differ as to the import of the evidence,” the Court must
deny the motion. Id. at 250.6

6

The Federal Defendants disputed facts relating to Individual
Plaintiffs’ standing in this case. See Fed. Defs.’ Br. Resp, ECF
No. 124-1. But the dispute over standing was resolved in the July

510a
III. ANALYSIS
Plaintiffs move for summary judgment, claiming
that the ICWA and the Final Rule violate: (1) the
equal protection requirements of the Fifth Amendment; (2) the Due Process Clause of the Fifth Amendment; (3) the Tenth Amendment; and (4) the proper
scope of the Indian Commerce Clause. Plaintiffs also
argue that: (1) the Final Rule violates the Administrative Procedure Act (the “APA”); and (2) the ICWA
violates Article I of the Constitution.7 See generally
Ind. Pls.’ Br., ECF No. 80; State Pls.’ Br., ECF No. 74.
A. Fifth Amendment Equal Protection Claim
Plaintiffs claim that sections 1915(a)–(b), section
1913(d), and section 1914 of the ICWA as well as sections 23.129–132 of the Final Rule violate the Fifth
Amendment’s guarantee of equal protection under the
laws. The parties primarily disagree about whether
sections 1915(a)–(b) of the ICWA rely on racial classifications requiring strict scrutiny review. Ind. Pls.’
Br. 41, ECF No. 80; Fed. Defs.’ Br. Supp. Resp. Obj.
Ind. Mot. Summ. J. 14, ECF No. 123 [hereinafter “Fed.
Defs.’ Resp. Ind.”]. Plaintiffs argue the ICWA provides

24, 2018 Order, ECF No. 156. Neither the Federal nor Tribal Defendants have disputed facts in the record relating to the claims
to be resolved by summary judgment. See Tribal Defs.’ Br. Supp.
Resp. Mot. Summ. J. 2 n.1, ECF No. 118. (“[Individual] Plaintiffs
rely on none of the other facts in their brief and declarations to
support their legal arguments, and none is relevant to the issues
currently before the court.”).
7
Individual Plaintiffs alone argue the Fifth Amendment due
process claim. See generally Ind. Pls.’ Br.; State Pls.’ Br.; Ind.
Pls.’ Reply; State Pls.’ Reply. State Plaintiffs alone argue the
Article I non-delegation claim. Id.

511a
special rules in child placement proceedings depending on the race of the child, which is permissible only
if the race-based distinctions survive strict scrutiny.
Ind. Pls.’ Br. 42–44. ECF No. 80; State Pls.’ Br. 57,
ECF No. 74. The Federal Defendants and Tribal Defendants (collectively, “Defendants”) disagree, contending the ICWA distinguishes children based on political categories, which requires only a rational basis.
Fed. Defs.’ Resp. Ind. 11, ECF No. 123; Trib. Defs.’
Resp. 16, ECF No. 118. Resolution of this issue will
direct the level of scrutiny to be applied to Plaintiffs’
challenge of the ICWA and Final Rule.
1. Appropriate Level of Review
Unlike the Fourteenth Amendment, the text of
the Fifth Amendment does not contain an equal protection clause. But courts “employ the same test to
evaluate alleged equal protection violations under the
Fifth Amendment as under the Fourteenth Amendment.” Richard v. Hinson, 70 F.3d 415, 417 (5th Cir.
1995) (citing Adarand Constructors, Inc. v. Pena, 515
U.S. 200, 217, (1995)). This means that to survive
strict scrutiny, “federal racial classifications, like
those of a State, must serve a compelling governmental interest, and must be narrowly tailored to further
that interest.” Id. at 202; see also Fisher v. Univ. of
Tex. at Austin, 758 F.3d 633, 664 (5th Cir. 2014). On
the other hand, when a federal statute governing Indians relies on political classifications, the legislation
is permissible if singling out Indians for “particular
and special treatment” is “tied rationally to the fulfillment of Congress’ unique obligation toward the Indians.” Morton v. Mancari, 417 U.S. 535, 554–55 (1974).
This requirement mirrors typical rational basis review which requires only that the government show a

512a
statute is rationally related to a legitimate government interest. See F.C.C. v. Beach Commc’ns, Inc.,
508 U.S. 307, 314 (1993).
The parties rely on precedent developed by the Supreme Court’s (and various circuits’) review of statutes focused on American Indians and other native
peoples. See Mancari, 417 U.S. 535; see Rice v. Cayetano, 528 U.S. 495 (2000). The Supreme Court’s decisions in Rice and Mancari explain the differences between classifications based on race and those based on
tribal membership. See id. Plaintiffs argue that Rice
controls because the ICWA, like the statute in Rice,
utilizes ancestry as a proxy for a racial classification.
Ind. Pls.’ Br. 42–44, ECF No. 80; State Pls.’ Reply 18,
ECF 142. Defendants counter that Mancari and other
decisions going back hundreds of years support their
contention that the ICWA’s Indian classification is
based on political characteristics. Fed. Defs.’ Resp.
Ind. 11, ECF No. 123; Trib. Defs.’ Resp. 16, ECF No.
118.
a. Ancestry as Racial Classification
Plaintiffs argue that the placement preferences in
sections 1915(a)–(b) of the ICWA, as well as the collateral-attack provisions in section 1913(d) and section 1914, include race-based classifications like those
in Rice, which must survive strict scrutiny review.
Ind. Pls.’ Br. 41, ECF No. 80; State Pls.’ Br. 54–57,
ECF No. 74. In Rice, the Supreme Court overturned
a Hawaiian statute restricting voter eligibility to only
“native Hawaiians” and those with “Hawaiian” ancestry for positions at a state agency. Rice, 528 U.S. at
519. By declaring this restriction an unlawful racial
preference, the Supreme Court found that “ancestry

513a
can be a proxy for race” and noted that “racial discrimination is that which singles out ‘identifiable classes
of persons . . . solely because of their ancestry or ethnic characteristics.’” Id. at 515 (citation omitted). The
Supreme Court held that Hawaii had “used ancestry
as a racial definition and for a racial purpose” and
noted “ancestral tracing . . . employs the same mechanisms, and causes the same injuries, as laws or statutes that use race by name.” Id. at 517. Plaintiffs contend the ICWA preferences are no different than the
preferences struck down in Rice.
b. Tribal Membership as a Political
Classification
Defendants respond that the ICWA’s placement
preferences rely on political classifications like the
statute in Mancari, rather than racial classifications
like the statute in Rice, and are therefore only subject
to rational basis review. Fed. Defs.’ Resp. Ind. 11,
ECF No. 123; Trib. Defs.’ Resp. 16, ECF No. 118. In
Mancari, the plaintiffs sought to declare unconstitutional a BIA hiring standard that gave preference to
Indian applicants. See Mancari, 417 U.S. at 535. The
Supreme Court upheld this hiring preference, concluding it was a political, rather than a racial, preference. Id. Because the preference was “an employment
criterion reasonably designed to further the cause of
Indian self-government and to make the BIA more responsive to the needs of its constituent groups,” it was
“reasonably and directly related” to a legitimate nonracial goal. Id. at 554. The preference was designed
to give those Indians who were “members of quasi-sovereign tribal entities” and who chose to apply for jobs
at the BIA, an opportunity to govern tribal activities

514a
in “a unique fashion.” Id. at 554. While the Supreme
Court held the preference was constitutional, its decision was uniquely tailored to that particular set of
facts. Id. at 551 (“the Indian preference statute is a
specific provision applying to a very specific situation”); see Rice, 528 U.S. at 520 (“The [Mancari] opinion was careful to note, however, that the case was
confined to the authority of the BIA, an agency described as ‘sui generis.’”). Importantly, the preference
in Mancari applied “only to members of ‘federally recognized’ tribes which operated to exclude many individuals who are racially to be classified as Indians.”
Id. at 555 n.24. And this preference provided special
treatment only to Indians living on or near reservations.8 Id. at 552; see also Rice, 528 U.S. at 516–17
8

Defendants rely on a number of cases in support of their argument. Those cases confirm however that this authority is directed at Indian self-government and affairs on or near Indian
lands. In Antelope, the Supreme Court found no equal protection
violation because the legislation involved “federal regulation of
criminal conduct within Indian country implicating Indian interest.” 439 U.S. 641, 646 (1977) (emphasis added); cf. Plains
Comm. Bank v. Long Family Land & Cattle Co., 554 U.S. 316,
330 (2008) (“[E]fforts by a tribe to regulate nonmembers, especially on non-Indian fee land, are presumptively invalid.”). Other
cases cited by Defendants also relate to Indian affairs occurring
in Indian country. See, e.g., Fisher v. Dist. Court of Sixteenth
Judicial Dist. of Montana, in and for Rosebud Cty., 424 U.S. 382
(1976); United States v. Mazurie, 419 U.S. 544 (1975); Miss. Band
of Choctaw Indians v. Holyfield, 490 U.S. 30 (1996); U.S. v. Lara,
541 U.S. 193 (2004). Even United States v. McGowan, 302 U.S.
535 (1938), dealt with prohibitions on Indian land. Similarly, the
Fifth Circuit found no equal protection violation in Peyote Way
Church of God, Inc. v. Thornburgh, where the federal government made an exception under the Controlled Substance Act for
a Native American church’s use of peyote, when the church limited membership to only members of federally recognized tribes

515a
(“Simply because a class defined by ancestry does not
include all members of the race does not suffice to
make the classification neutral”). Mancari therefore
did not announce that all arguably racial preferences
involving Indians are actually political preferences.
Id. at 554. Instead, the Supreme Court recognized
that applying its decision more broadly would raise
the “obviously more difficult question that would be
presented by a blanket exemption for Indians.” Id. at
554.
c. The ICWA Classification
The specific classification at issue in this case mirrors the impermissible racial classification in Rice,
and is legally and factually distinguishable from the
political classification in Mancari. The ICWA’s membership eligibility standard for an Indian child does
not rely on actual tribal membership like the statute
in Mancari. Id. at 554, n.24 (the preference only applied to members of federally recognized tribes, which
“operates to exclude many individuals who are racially classified as ‘Indians’”); see 25 U.S.C. § 1903(4).
Instead, it defines an Indian child as one who is a
member “of an Indian tribe” as well as those children
simply eligible for membership who have a biological
Indian parent. See 25 U.S.C. § 1903(4). This means
one is an Indian child if the child is related to a tribal
ancestor by blood. See e.g. Navajo Nation Code § 701;
see CHEROKEE CONST. art. IV, § 1; see CONST. OF
WHITE EARTH NATION, Chap. 2. Art. 1; see Yselta del
Sur Pueblo Tribe Code of Laws § 3.01; Ysleta del Sur
Pueblo and Alabama and Coushatta Indian Tribes of
who have at least twenty-five percent Indian ancestry. 922 F.2d
1210 (5th Cir. 1991) (emphasis added).

516a
Texas Restoration Act, Pub. Law 100-89, 101 Stat. 669
(1987). These classifications are similar to the “blanket exemption for Indians,” which Mancari noted
would raise the difficult issue of racial preferences, as
well as the classifications declared unconstitutional in
Rice.9 528 U.S. at 499 (“racial discrimination is that
which singles out “identifiable classes of recognized
tribes who have at least twenty-five percent Indian
ancestry. 922 F.2d 1210 (5th Cir. 1991) (emphasis
added). persons . . . solely because of their ancestry or
ethnic characteristics.”).10 By deferring to tribal membership eligibility standards based on ancestry, rather
than actual tribal affiliation, the ICWA’s jurisdictional definition of “Indian children” uses ancestry as
a proxy for race and therefore “must be analyzed by a

9
At the hearing, the Federal Defendants identified specific exceptions to the general rule that tribal membership eligibility depends on biological ancestry. Aug. 1, 2018 Hr’g Tr. at 83:1–11.
The Federal Defendants noted some tribes may include African
Americans who are descendants of freed slaves and that some
tribes may include “adopted whites” as members. Id. Individual
Plaintiffs responded that the Supreme Court addressed similar
limited exceptions in Rice. Id. at 109. Indeed, Rice controls on
this issue. Defendants in that case argued that the preferential
statute did not rely on a racial category because it also could include descendants of “Native Hawaiians” who were not racially
Polynesian. Rice, 528 U.S. at 514. The Court “reject[ed] this line
of argument” and noted immediately thereafter that “Ancestry
can be a proxy for race.” Id.
10
Notably, in Adoptive Couple v. Baby Girl, the Supreme Court
mentioned that an interpretation of provisions of the ICWA that
prioritizes a child’s Indian ancestry over all other interests
“would raise equal protection concerns.” 570 U.S. 637, 655
(2013); see Hr’g Tr. 103 (acknowledging the equal protection violation Adoptive Couple referenced was race discrimination).

517a
reviewing court under strict scrutiny.” Adarand, 515
U.S. at 227.
2. Strict Scrutiny Review
Because the ICWA relies on racial classifications,
it must survive strict scrutiny. Courts “apply strict
scrutiny to all racial classifications to ‘smoke out’ illegitimate uses of race by assuring that [the government] is pursuing a goal important enough to warrant
use of a highly suspect tool.” Grutter v. Bollinger, 539
U.S. 306, 326 (2003). To survive strict scrutiny review, the classifications must be “narrowly tailored to
further a compelling governmental interest.” Id.
a. Compelling Interest Requirement
Here, the Federal Defendants have not offered a
compelling governmental interest that the ICWA’s racial classification serves, or argued that the classification is narrowly tailored to that end. Rather, the Federal Defendants rest their entire defense to this claim
on their argument that the ICWA classified Indians
politically, which requires only that it be rationally
tied to fulfillment of Congress’s unique obligation to
the Indians. Fed. Defs.’ Resp. Ind. 25, ECF No. 123.
Given the ICWA is a race-based statute,11 the Government has failed to meet its burden to show the chal-

11

In Rice, after determining that ancestry can be a proxy for
race, the Supreme Court noted the legislation at issue used ancestry “as a racial definition and for a racial purpose,” and subsequently referred to the legislation as being “based on race.” See
Rice, 528 U.S. at 514, 523. Accordingly, as described above, the
ICWA uses ancestry as a proxy for race and is therefore racebased.

518a
lenged statute is narrowly tailored to a compelling interest. Fisher, 758 F.3d at 664 (citation omitted). Because the government did not prove—or attempt to
prove—why the ICWA survives strict scrutiny, it has
not carried its burden to defend the ICWA and Plaintiffs are entitled to judgment as a matter of law on
their equal protection claim.12

12

Both Defendants requested an opportunity to provide additional briefing if the Court concludes the ICWA contains racial
preferences. However, Defendants were on notice that Plaintiffs
sought judgment on all of their claims. This obligated Defendants to meet their burden. See Apache Corp. v. W&T Offshore,
Inc., 626 F.3d 789, 798–99 (5th Cir. 2010) (when a party is on
notice that its opponent seeks judgment on all of its claims, it is
obligated to respond to all of the claims); see also United States
v. Paradise, 480 U.S. 149, 193 (1987) (Stevens, J. concurring)
(“governmental decisionmaker who would make race-conscious
decisions must overcome a strong presumption against them”).
The Federal Defendants have failed to do so, nor have they offered a sufficient reason for this failure. Even so, at oral argument the Court permitted them to offer any arguments they desired on this issue even though they failed to brief it. The Federal
Defendants failed to articulate any interest they viewed as compelling. See Hr’g Tr. 55–61.

519a
b. Narrow Tailoring Requirement
The Federal Defendants argue that “fulfilling
Congress’s unique obligation toward the Indians” is a
legitimate government purpose supporting their rational basis analysis. Fed. Defs.’ Resp. Ind. 312 ECF
No. 123 (citing Mancari, 417 U.S. at 555). Likewise,
at the hearing on these motions the Tribal Defendants
offered “maintain[ing] the Indian child’s relationship
with the tribe” as a possible compelling interest. Hr’g
Tr. 87: 23–25, ECF No. 163. 13 The compelling interest
standard necessarily requires a stronger interest than
is required under the broad legitimate government
purpose standard. See Richard, 70 F.3d at 417 (describing rational basis and strict scrutiny review
standards). Here, however, the Court will assume
these interests are compelling and will evaluate
whether the statute is narrowly tailored.
As stated above, a racial statute must be narrowly
tailored to a compelling government interest to survive strict scrutiny. Grutter, 539 U.S. at 326. In other
words, the statute’s means must be narrowly tailored

13

The Federal Defendants similarly point to Congress’s obligation to Indian tribes to justify Congressional authority to enact
the ICWA. To bolster those arguments, it notes that Congress
intended the ICWA to “protect the ‘continued existence and integrity of Indian tribes’ by protecting their most vital resources—
their children.” Fed. Defs.’ Resp. Ind. 37, ECF No. 123 (emphasis
added) (quoting 25 U.S.C. § 1901(3)). The Federal Defendants
note that in congressional hearings about the ICWA there was
considerable emphasis “on the impact on the tribes themselves
of the massive removal of their children.” Id. (quoting Holyfield,
490 U.S. at 34) (emphasis added). The emphasis on tribes is telling; indeed the Indian Commerce Clause specifically references
“Indian Tribes.” U.S. CONST. art. I, § 8, cl. 3.

520a
to its ends. Id. To evaluate whether a statute is narrowly tailored to a compelling interest, the Supreme
Court has considered whether the statute covers too
many—or too few—people to achieve its stated purpose. See Brown v. Entm’t Merchs. Ass’n, 564 U.S.
786, 804 (2011). The Supreme Court labels statutes
that fail this test as overinclusive, underinclusive, or
both. See id. A statute is overinclusive when it “burdens more people than necessary to accomplish the
legislation’s goal.” Overinclusive. MERRIAM-WEBSTER’S DICTIONARY OF LAW (2016); see e.g. Church of
the Lukumi Babalu Aye, Inc v. City of Hialeah, 508
U.S. 520, 578 (1993) (Blackmun, J. concurring) (an
overinclusive statute is “one that encompasses more
. . . than necessary to achieve its goal”); see e.g. Mance
v. Sessions (Ho, J. dissenting from denial of rehearing
en banc) (“a categorical ban . . . is over-inclusive—it
prohibits a significant number of transactions that
fully comply with state law.”) (emphasis added).
Here, the statute is broader than necessary because it establishes standards that are unrelated to
specific tribal interests and applies those standards to
potential Indian children. First, portions of the ICWA
preferences are unrelated to specific tribal interests in
that the statute includes as a priority a child’s placement with any Indian, regardless of whether the child
is eligible for membership in that person’s tribe. See
25 U.S.C. § 1915(a)(3). By doing so, the ICWA preferences categorically, and impermissibly, treat “all Indian tribes as an undifferentiated mass.” United
States v. Bryant, 136 S. Ct. 1954, 1968 (2016)
(Thomas, J., concurring). Applying the preference to
any Indian, regardless of tribe, is not narrowly tailored to maintaining the Indian child’s relationship

521a
with his tribe. See Br. for the Goldwater Inst. as Amicus Curiae in Opposition to Defs.’ Mot. to Dismiss 5,
ECF No. 133 (“ICWA’s placement preferences do not
depend on tribal or political or cultural affiliation;
they depend on generic “Indianness.”). The ICWA applies to many children who will never become members of any Indian tribe, 25 U.S.C. § 1903(4), and the
first preference is to place the child with family members who may not be tribal members at all. 25 U.S.C.
§ 1915(1). These provisions burden more children
than necessary to accomplish the goal of ensuring children remain with their tribes.
The ICWA’s racial classification applies to potential Indian children, including those who will never be
members of their ancestral tribe, those who will ultimately be placed with non-tribal family members, and
those who will be adopted by members of other tribes.
Because two of the three preferences have no connection to a child’s tribal membership, this blanket classification of Indian children is not narrowly tailored to
a compelling governmental interest and thus fails to
survive strict scrutiny review. For these reasons, the
Court finds that Plaintiffs’ motion for summary judgment on their Equal Protection Claim is GRANTED.
B. Article I Non-Delegation Claim
State Plaintiffs also argue that section 1915 (c) of
the ICWA is unconstitutional because it delegates
congressional power to Indian tribes in violation of the
non-delegation doctrine outlined in Article I of the
Constitution. Article I, known as the vesting clause,
provides: “All legislative Powers . . . shall be vested in
a Congress of the United States.” U.S. CONST. I, § 1,

522a
cl.1. State Plaintiffs argue that the ICWA impermissibly grants Indian tribes the authority to reorder congressionally enacted adoption placement preferences
by tribal decree and then apply their preferred order
to the states. State Pls.’ Br. 47, ECF No. 74. They
also contend that section 23.130 (b) of the Final Rule,
which provides that a tribe’s established placement
preferences apply over those specified in the ICWA,
violates the doctrine.14 Am. Compl. ¶ 372, ECF No.
35; 25 C.F.R. § 23.130 (b). Tribal Defendants respond
that the tribes are permissibly exercising regulatory
power subject to an intelligible principle. Tribal Defs.’
Br. Supp. Resp. Mot. Summ. J. at 35, ECF No. 118
[hereinafter “Trib. Defs.’ Resp.”]. If so, Defendants argue the ICWA survives the non-delegation challenge.
Id.
1. Legislative or Regulatory Power
Distinguishing between permissible and non-permissible delegations of congressional power usually
requires asking whether Congress is delegating discretion to create law or discretion to execute law. Loving v. United States, 517 U.S. 748, 758 (1996). Congress plainly cannot delegate its inherent legislative
power to create law, defined as the power to formulate
binding rules generally applicable to private individuals. Dep’t. of Transp. v. Ass’n of Am. R.R.’s, 135 S.
Ct. 1246 (Thomas, J. concurring); A.L.A. Schechter
Poultry Corp. v. United States, 295 U.S. 495, 529
(1935) (“The Congress is not permitted to abdicate or
to transfer to others the essential legislative functions
14

Texas provides that the Alabama-Coushatta-Tribe of Texas
has filed with DFPS a notice of different placement preferences.
State Pls.’ App. at 918, ECF No. 73.

523a
with which it is thus vested.”); see Wayman v.
Southard, 10 Wheat. 1, 42–43 (1825) (Marshall, C.J.).
On the other hand, Congress may grant a federal
agency the regulatory power necessary to execute legislation as well as interpret ambiguities therein. See
City of Arlington, Tex. v. F.C.C., 569 U.S. 290, 296
(2013).
An exercise of regulatory power does not empower
an entity to “formulate generally applicable rules of
private conduct.” Ass’n of Am. R.R.’s, 135 S. Ct. at
1252 (Thomas, J. concurring). The core of regulatory
power involves factual determination or policy judgment necessary to execute the law. See Whitman v.
Am. Trucking Ass’ns, 531 U.S. 457, 474–75 (2001)
(quoting Mistretta v. United States, 488 U.S. 361, 416
(1989) (Scalia, J., dissenting)). To determine whether
a delegation of regulatory power is proper, courts employ the “intelligible principle” standard which states
that Congress properly delegates regulatory power to
federal agencies when it establishes an “intelligible
principle” on which the agency can base decisions.
Whitman v. Am. Trucking Ass’n, 531 U.S. 457, 474
(2001). Defendants are correct that the Supreme
Court applies the test liberally and has “almost never
felt qualified to second-guess Congress regarding the
permissible degree of policy judgment that can be left
to those executing or applying the law.” Id. at 474–75
(emphasis added).
Here, the Tribes were granted the power to
change the legislative preferences Congress enacted
in the ICWA, and those changes are binding on the
States. See 25 U.S.C. § 1915(c); see also Br. of Amicus
Curiae 123 Federally Recognized Indian Tribes et al.
in Opposition to Pls.’ Mots. Summ. J. 22–23, ECF No.

524a
138 (“. . . ICWA confirms tribes’ authority to enact
placement preferences for their member children, and
as an exercise of Congress’ established authority over
Indian affairs, requires that state courts, when exercising their concurrent jurisdiction over those children, give effect to those legislative preferences.”) (emphasis added). The power to change specifically enacted Congressional priorities and impose them on
third parties can only be described as legislative.
Ass’n of Am. R.R.’s, 135 S. Ct. at 1253–1254 (Thomas,
J. concurring) (“an exercise of policy discretion . . . requires an exercise of legislative power”). This is particularly true when the entity allowed to change those
priorities is not tasked with executing the law. Congress “cannot delegate its exclusively legislative authority at all.” See Washington v. Confederated Tribes
of Colville Indian Reservation, 447 U.S. 134, 156
(1980); White Mountain Apache Tribe v. Arizona, 649
F.2d 1274, 1281 (9th Cir. 1981). Accordingly, section
1915(c) of the ICWA and section 23.130 (b) of the Final
Rule violate the non-delegation doctrine.
2. Federal Actor Requirement
Alternatively, even if Congress granted permissible regulatory power through the ICWA, it impermissibly granted federal regulatory power to an Indian
tribe. Congress certainly has authority to regulate
the Indian tribes. U.S. CONST., art. 1, § 8, cl. 3. Likewise, tribes unquestionably may regulate conduct on
tribal lands and reservations. Atkinson Trading Co.,
Inc. v. Shirley, 532 U.S. 645, 650–51 (2001). And, Congress may obtain assistance from its coordinate
branches by delegating regulatory authority without
violating the non-delegation doctrine. Mistretta v.
United States, 488 U.S. 361, 372 (1989). But, Indian

525a
tribes are not a coordinate branch of government. See
Trib. Defs.’ Resp. 36–38, ECF No. 118. (describing the
Tribes as an independent separate sovereign); see also
Lawson, Delegation and Original Meaning, 88 VA. L.
REV. 327, 352–53 (2002) (Congress cannot delegate
legislative or executive power to a non-federal entity).
Nor is section 1915(c) saved because, as Tribal Defendants argue, Congress recognized that Indian
tribes carry a unique, long-held, quasi-sovereign status, and may thus delegate federal authority to them.
Trib. Defs.’ Resp. 36–37, ECF No. 118. An Indian
tribe, like a private entity, is “not part of the [federal]
Government at all,” which “would necessarily mean
that it cannot exercise. . .governmental power.” Ass’n
of Am. R.R.s, 135 S. Ct.at 1253 (Thomas, J. concurring); see also id. at 1237.
Therefore, whatever label is affixed to the tribes
by Defendants is inapposite. No matter how Defendants characterize Indian tribes—whether as quasisovereigns or domestic dependent nations—the Constitution does not permit Indian tribes to exercise federal legislative or executive regulatory power over
non-tribal persons on non-tribal land. Id. The Court
finds Article I does not permit Congress to delegate its
inherent authority to the Tribes through section
1915(c) of the ICWA or the BIA through section
23.130(b) of the Final Rule, which unequivocally
states tribal placement preferences apply over those
enacted by Congress in the ICWA. Accordingly, Plaintiffs are entitled to judgment as a matter of law on
their non-delegation claim. For these reasons, the
Court finds that Plaintiffs’ motion for summary judgment on their Article I non-delegation claim is
GRANTED.

526a
C. Tenth Amendment Anti-Commandeering Claim
Plaintiffs also claim that the ICWA and the Final
Rule commandeer the States in violation of the Tenth
Amendment. State Pls.’ Br. 37, ECF No. 74; Ind. Pls.’
Br. 68, ECF No. 80. They specifically challenge the
ICWA sections 1901–23 and 1951–52.15 Am. Compl.
¶ 284, ECF No. 35. The Federal Defendants respond
that Congress passed the ICWA pursuant to its enumerated powers and thus authority over Indian children was never reserved to the States. Fed. Defs.’ Br.
Supp. Resp. States Mot. Summ. J. 29, ECF No. 121
[hereinafter “Fed. Defs.’ Resp. States”]. Tribal Defendants argue that, to the extent the ICWA conflicts with
state law, state law is preempted by the Supremacy
Clause. Trib. Defs.’ Resp. 29, ECF No. 118.
The anti-commandeering principle “is simply the
expression of a fundamental structural decision incorporated into the Constitution, i.e., the decision to
withhold from Congress the power to issue orders directly to the states.” Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1470, 1475 (2018). The Constitution grants to “Congress not plenary legislative
power but only certain enumerated powers.” Id. at
1476. “Conspicuously absent from the list of powers
given to Congress is the power to issue direct orders
to the governments of the States” because the Constitution “confers upon Congress the power to regulate
individuals, not States.” Murphy, 138 S. Ct. at 1476.
15

These provisions include the congressional findings and declaration of policy, definitions, child custody proceedings, record
keeping, information availability, and timetables. See 25 U.S.C.
§§ 1901–23, 1951–52.

527a
Legislative power that is not enumerated is reserved
to the States through the Tenth Amendment, and
“Congress may regulate areas of traditional state concern only if the Constitution grants it such power.”
Adoptive Couple, 133 S. Ct. at 2566 (2013) (Thomas,
J. concurring).
The Court must therefore first consider whether
Congress may require state courts and agencies to apply federal standards to exclusively state created
causes of action.16
1. Commandeering State Courts and
Agencies
Plaintiffs argue that the ICWA unconstitutionally
requires state courts and executive agencies to apply
federal standards and directives to state created
claims. State Pls.’ Br. 37, ECF No. 74; Ind. Pls.’ Br.
68, ECF No. 80. The Federal Defendants respond that
the power to enact the ICWA was granted to Congress
by the Indian Commerce Clause, was never reserved
to the States, and presents no constitutional problem.
Fed. Defs.’ Resp. States 29, ECF No. 121. The Court
finds that requiring the States to apply federal standards to state created claims contradicts the rulings in
Murphy, Printz, and New York. See Murphy, 138 S.
Ct. 1470 (2018); Printz v. United States, 521 U.S. 898
(1997); New York v. United States, 505 U.S. 144
(1992).

16

The ICWA includes federal requirements that apply in a state
child custody proceedings including: involuntary proceedings,
voluntary proceedings, and proceedings involving foster-care,
preadoptive, or adoptive placement, or termination of parental
rights. See 25 CFR §§ 23.103, 23.106.

528a
a. Federal Standards Applied in State
Created Claims
It is unquestionably true that state and federal
courts share concurrent jurisdiction in many legal
matters. See generally Mims v. Arrow Fin. Ser., LLC,
565 U.S. 368 (2012). The law is similarly clear about
when a state court must hear a federal claim. In
Testa, the Supreme Court held that where a state
court would hear a comparable state law claim it must
also hear a federal claim. See Testa v. Katt, 330 U.S.
386 (1947) (emphasis added). In other words, Congress may create a private federal cause of action and
authorize concurrent jurisdiction in state courts.
When it does so, the state courts cannot refuse to hear
the federal claim. Later, in Haywood, the Supreme
Court confirmed that states “lack authority to nullify
a federal right or cause of action they believe is inconsistent with their local policies.” Haywood v. Drown,
556 U.S. 729, 736 (2009) (emphasis added). The Supreme Court concluded that when “state courts as
well as federal courts are entrusted with providing a
forum for the vindication of federal rights,” state
courts may not refuse to adjudicate the federal claim.
Id. at 735. The controversy here, however, does not
involve a federal cause of action that may be adjudicated in a federal forum. See 25 U.S.C. § 1915(a). Instead, the ICWA commands that states modify existing state law claims. Congress directs state courts to
implement the ICWA by incorporating federal standards that modify state created causes of action. Id.

529a
b. The Murphy Standard
In Murphy, the Supreme Court ruled that a federal statute prohibiting state legislatures from authorizing sports gambling violated the anti-commandeering doctrine because it directly regulated States
rather than individuals. See Murphy, 138 S. Ct. 1461.
The Supreme Court outlined three reasons why the
anti-commandeering principle is important. First, it
is “one of the Constitution’s structural protections of
liberty.” Id. at 1477. Second, the principle “promotes
political accountability.” Id. Third, it “prevents Congress from shifting the costs of regulation to the
States.” Id.
Congress violated all three principles when it enacted the ICWA. First, the ICWA offends the structure of the Constitution by overstepping the division
of federal and state authority over Indian affairs by
commanding States to impose federal standards in
state created causes of action. See 25 U.S.C. § 1915(a).
Second, because the ICWA only applies in custody
proceedings arising under state law, it appears to the
public as if state courts or legislatures are responsible
for federally-mandated standards, meaning “responsibility is blurred.” Murphy, 138 S. Ct. at 1477. Third,
the ICWA shifts “the costs of regulations to the States”
by giving the sole power to enforce a federal policy to
the States.17 Id. Congress is similarly not forced to
17

As an example, the ICWA and the Final Rule require State
Plaintiffs’ agencies and courts to maintain indefinitely records of
placements involving Indian children, and subject those records
to inspection by the Director of the BIA and the child’s Indian
tribe at any time, as opposed to simply transferring those records
to the BIA so they may keep them indefinitely. 25 U.S.C.
§§ 1915(e), 1917; 25 C.F.R. §§ 23.140–41.

530a
weigh costs the States incur enforcing the ICWA
against the benefits of doing so. In sum, Congress
shifts all responsibility to the States, yet “unequivocally dictates” what they must do. Id.
That this case primarily involves state courts, rather than legislative bodies or executive officers, does
not mean the principles outlined in Murphy, New
York, and Printz do not apply. In those cases, the Supreme Court relied on the idea that “the Framers explicitly chose a Constitution that confers upon Congress the power to regulate individuals, not States.”
Printz, 521 U.S. at 920. Here, the ICWA regulates
states. As stated above, the ICWA requires that the
state “in any adoptive placement of an Indian child
under state law, a preference shall be given, in the absence of good cause to the contrary, to a placement
with: (1) a member of the child’s extended family; (2)
other members of the Indian child’s tribe; or (3) other
Indian families.” 25 U.S.C. § 1915(a). Similar requirements are set for foster care or preadoptive
placements. Id. § 1915(b). If the Indian child’s tribal
court establishes a different order of preferences, the
state court or agency “shall follow such order so long
as the placement is the least restrictive setting appropriate to the particular needs of the child.” Id.
§ 1915(c). That requirement is, on its face, a direct
command from Congress to the states. The Court
finds that the ICWA directly regulates the State
Plaintiffs and doing so contradicts the principles outlined by the Supreme Court in Murphy. Cf. 138 S. Ct.
1470 (2018). Notwithstanding this impact on the
state courts, Texas has also indisputably demonstrated that the ICWA requires its executive agencies

531a
to carry out its provisions.18 Hr’g Tr. 22–23, ECF No.
163; State Pls.’ App. Supp. Mot. Summ. J. 28–29, ECF
No. 73 [hereinafter State Pls.’ App.]. Accordingly,
Congress regulates States—not individuals—through
the ICWA, and the Constitution does not grant it that
power.
Nor does the Indian Commerce Clause save the
ICWA’s mandate to the states. Federal Defendants
assert that the plenary power the Indian Commerce
Clause grants Congress permits directing states in
child custody proceedings involving Indian children
eligible for tribal membership, therefore no power was
reserved to the states, and no Tenth Amendment violation is possible. Fed. Defs.’ Resp. States 29, ECF No.
121. But regardless of the reach of the Indian Commerce Clause, no provision in the Constitution grants
Congress the right to “issue direct orders to the governments of the States,” and the Indian Commerce
Clause can be no different. Cf. Murphy, 138 S. Ct. at
1478. Like in Murphy, there is no way to understand
mandating state enforcement of the ICWA “as anything other than a direct command to the States. And
that is exactly what the anti-commandeering rule
does not allow.” Murphy, 138 S. Ct. at 1481.

18

The Texas DFPS must, among other things; serve notice of
suit on Indian tribes, verify a child’s tribal status, make a diligent effort to find a suitable placement according to the ICWA
preferences and show at good cause if the preferences are not followed, ensure a child is enrolled in his tribe before referring him
for adoption, and keep a written record of the placement decision.
State Pls.’ App. 28–29, ECF No. 73.

532a
2. State Law Preemption
Finally, the Tribal Defendants argue that the
anti-commandeering principle does not apply because
the ICWA, enacted pursuant to the Indian Commerce
Clause, simply preempts conflicting state laws regulating individuals. Trib. Defs.’ Resp. 29, ECF No. 118.
Preemption generally applies when federal and state
law conflict over matters in which they have concurrent jurisdiction. See Wyeth, 555 U.S. at 584. While
Supremacy Clause preemption may apply to a conflict
between state and “federal law that regulates the conduct of private actors,” it cannot rescue a law that directly regulates states. Murphy, 138 S. Ct. at 1481.
Even though the ICWA’s general policy is directed towards protecting Indian children, 25 U.S.C. § 1902,
its specific provisions, like section 1915, directly command states to enforce the ICWA without a comparable federal enforcement mechanism and do not “impose any federal restrictions on private actors.” Id. at
§ 1915; Murphy, 138 S. Ct. at 1481. As such, these
commands do not result in a conflict between duly enacted state and federal law. Rather, the provisions
command states to directly adopt federal standards in
their state causes of actions. This argument is not unlike the one rejected in Murphy, where Congress relied on its commerce clause power, yet even that express power does not permit it to command states in
this manner. Murphy, 138 S. Ct. at 1479.
Preemption arguments therefore cannot rescue
the ICWA’s impermissible direct commands to the
states. The ICWA is structured in a way that directly
requires states to adopt and administer comprehensive federal standards in state created causes of action. Therefore, the Court finds that sections 1901–23

533a
and 1951–52 of the ICWA violate the anti-commandeering doctrine. For these reasons, the Court finds
that Plaintiffs’ motion for summary judgment on their
Tenth Amendment Anti-Commandeering Claim is
GRANTED.
D. Administrative Procedure Act Claims
Plaintiffs also claim that the Final Rule violates
the APA because it: (1) purports to implement an unconstitutional law and therefore must be vacated as
contrary to law; (2) exceeds the scope of Interior’s statutory regulatory authority under the ICWA; (3) reflects an impermissibly ambiguous construction of the
statute; and (4) is otherwise arbitrary and capricious.
Ind. Pls.’ Reply at 16, ECF No. 143; State Pls.’ Reply
18, ECF No. 142; see also Ind. Pls’ Br., ECF 80. Defendants respond that the Final Rule was properly
passed and promulgated, deserves Chevron deference,
and stands after Chevron review. Trib. Defs.’ Resp.
39–47, ECF No. 118; Fed. Defs.’ Resp. States 41, ECF
No. 121.
1. Constitutionality Requirement
As a threshold matter, if the Final Rule purports
to implement an unconstitutional statute, the Court
must hold it unlawful and set it aside. 5 U.S.C. § 706.
As previously explained, the Court has concluded sections 1901–23 and 1951–52 of the ICWA are unconstitutional. The challenged sections of the Final Rule
that regulate unconstitutional portions of the ICWA,
25 C.F.R. §§ 23.106–112, §§ 23.114–19, §§ 23.121–22,
§§ 23.124–28, and §§ 23.130–132 must therefore also
be set aside because “the authority of administrative
agencies is constrained by the language of the statute
they administer.” Texas v. United States, 497 F.3d

534a
491, 500–01 (5th Cir. 2007) (citing Massachusetts v.
EPA, 549 U.S. 497 (2007)). For that reason, Plaintiffs’
Motion for Summary Judgment on their APA claims
is GRANTED. Alternatively, the Court will address
Plaintiffs’ arguments that the Final Rule exceeds the
scope of Interior’s—and thus the BIA’s—statutory
regulatory authority under the ICWA, reflects an impermissibly ambiguous construction of the statute,
and is arbitrary and capricious.
2. APA Statutory Authority Requirement
Plaintiffs argue that the challenged portions of
the Final Rule exceed the scope of the BIA’s regulatory
authority under the ICWA because the Final Rule issues binding regulations—which the BIA previously
deemed unnecessary to enforce the ICWA—without
the statutory authority necessary to do so. Ind. Pls.’
Reply 17–19, ECF 143; State Pls.’ Reply 18, ECF No.
142. “Expanding the scope” of a BIA regulation “in
vast and novel ways is valid only if it is authorized” by
the ICWA. Chamber of Commerce v. Dep’t of Labor,
885 F.3d 360, 369 (5th Cir. Mar. 15, 2018). “A regulator’s authority is constrained by the authority that
Congress delegated it by statute. Where the text and
structure of a statute unambiguously foreclose an
agency’s statutory interpretation, the intent of Congress is clear, and ‘that is the end of the matter; for
the court, as well as the agency, must give effect to the
unambiguously expressed intent of Congress.’” Id.
(quoting Chevron, U.S.A., Inc. v. N.R.D.C., Inc., 467
U.S. 837, 842–43 (1984)). When an agency waits decades to discover a new interpretation of a rule it “highlights the Rule’s unreasonableness,” and “gives us
reason to withhold approval or at least deference for
the Rule.” Id. at 380. When a court reviews an

535a
agency’s construction of a statute and determines
Congress has spoken directly to an issue, the court
must give effect to Congress’s unambiguously expressed intent. Food & Drug Admin. v. Brown & Williamson Tobacco Corp., 529 U.S. 120, 121 (2000); City
of Arlington, Tex. v. FCC, 133 S. Ct. 1863, 1874 (2013);
Chevron, 467 U.S. at 842–43.
Here, Congress expressly and unambiguously
granted the Secretary of Interior authority to regulate
if necessary. Congress stated in the ICWA that
“within one hundred and eighty days after November
8, 1978, the Secretary shall promulgate such rules
and regulations as may be necessary to carry out the
provisions in this chapter.” 25 U.S.C. § 1952 (emphasis added); see 44 Fed. Reg. 67,584. The BIA concluded that the ICWA differs from most other federal
statutes because the majority of the work required to
“carry out the provisions” falls to state courts and administrative agencies, not a federal agency. See, e.g.,
25 U.S.C. § 1915. The BIA conceded as much when
administering the 1979 Guidelines:
Promulgation of regulations with legislative
effect with respect to most of the responsibilities of state or tribal courts under the act,
however, is not necessary to carry out the
Act. State and tribal courts are fully capable
of carrying out the responsibilities imposed
on them by Congress without being under the
direct supervision of this Department. Nothing in the legislative history indicates that
Congress intended this Department to exercise supervisory control over state or tribal
courts or to legislate for them with respect

536a
to Indian child custody matters. For Congress to assign an administrative agency
such supervisory control over courts would
be an extraordinary step . . . so at odds with
concepts of both federalism and separation
of powers that it should not be imputed to
Congress in the absence of an express declaration of Congressional intent to that effect.
44 Fed. Reg. 67,584, (Nov. 26, 1979) (emphasis added).
Here, as outlined in the Court’s findings supra on
Plaintiffs’ anti-commandeering and non-delegation
claims, much of the authority to carry out the ICWA
was delegated to the States and Indian tribes. The
BIA admitted state and tribal courts were fully capable of carrying out the ICWA without direct federal
regulation and allowed them to do so for over thirty
years. 44 Fed. Reg. 67,584 (Nov. 26, 1979). In establishing the Final Rule, the BIA contradicted their earlier position and asserted that section 1952 of the
ICWA granted authority to promulgate binding regulations. The BIA provides justification for the change
in position by noting that state courts have applied
the ICWA inconsistently, which makes binding regulations necessary. 81 Fed. Reg. 38,785. But when specifically addressing the change in position about statutory authority under section 1952, the BIA simply
states that it “no longer agrees with the statements it
made in 1979.” Id. at 38,786. In the analysis that
follows, the BIA never addresses the fact that the
1979 BIA determined that “[n]othing in the language
or legislative history of 25 U.S.C. 1952 compels the
conclusion that Congress intended to vest this Department with such extraordinary power” and that nothing indicated Congress intended the BIA to exercise

537a
supervisory or legislative control over the state court.
44 Fed. Reg. 67,584, (Nov. 26, 1979). While the BIA
expresses frustration with how state courts and agencies are applying the ICWA inconsistently, it does not
address how, suddenly, it no longer believes the ICWA
primarily tasks those state courts and agencies with
the authority to apply the statute as they see fit. 81
Fed. Reg. 38,782–90.19
A current agency interpretation “in conflict with
its initial position, is entitled to considerably less deference” and is met with “a measure of skepticism.”
Chamber, 885 F.3d at 381 (quoting Watt v. Alaska,
451 U.S. 259, 273 (1981); Util. Air Regulatory Grp v.
EPA, 134 S. Ct. 2427, 2444 (2014)). The 1979 BIA
acknowledged that “where. . .primary responsibility
for interpreting a statutory term rests with the courts,
administrative interpretations of statutory terms are
given important but not controlling significance.” 44
Fed. Reg. 67,584 (citing Batterton v. Francis, 432 U.S.
416, 424–25 (1977)). Because the BIA does not explain its change in position over its authority to “carry
out the provisions” and apply the ICWA—and therefore its authority to issue binding regulations—the
Court finds those regulations remain not necessary to
carry out the ICWA. See 25 U.S.C. § 1952. Accordingly, when the BIA promulgated regulations with
19

As an example, in 1979 the BIA provided that the good cause
standard “was designed to provide state courts with flexibility in
determining the disposition of a placement proceeding involving
an Indian child.” 44 Fed. Reg. 67,584. The Final Rule, however,
provided that “courts should only avail themselves of it in extraordinary circumstances, as Congress intended the good cause
exception to be narrow and limited in scope.” 81 Fed. Reg.
38,839.

538a
binding rather than advisory effect, it exceeded the
statutory authority Congress granted to it to enforce
The Court finds that 25 C.F.R.
the ICWA.20
§§ 23.106–22, §§ 23.124–32 and §§ 23.140– 41 are INVALID to the extent the regulations are binding on
the State Plaintiffs.
Assuming for the sake of argument that Congress
granted the BIA statutory authority to implement the
legally binding Final Rule, the Court will next consider whether the Final Rule “fills in the statutory
gaps” of an ambiguous statute, and is entitled to Chevron deference. See Brown & Williamson Tobacco
Corp., 529 U.S. at 159.

20

At the hearing, the Federal Defendants argued that the Final
Rule’s clear and convincing evidence standard is not binding on
state courts. Hr’g Tr. 40:7–20. That argument contradicts the Final Rule itself which clearly implements binding regulations to
counteract the very discretion Defendants argue states are allowed. See 25 CFR 23.132(b); see 81 Fed. Reg. 38,782, 38,786,
38,853. (“The Department’s current nonbinding guidelines are
insufficient to fully implement Congress’s goal of nationwide protections for Indian children. . .State courts will sometimes defer
to the guidelines in ICWA cases [but] State courts frequently
characterize the guidelines as lacking the force of law and conclude that they may depart from the guidelines as they see fit.”;
“As described above, the Department concludes today that this
binding regulation is within the jurisdiction of the agency, was
encompassed by the statutory grant of rulemaking authority,
and is necessary to implement the Act.”; “The final rule generally
uses mandatory language, as it represents binding interpretations of Federal law.”). The preamble to the Final Rule does note
that the rule “does not categorically require,” that the clear and
convincing evidence standard be followed, but that statement
cannot change the fact that the Final Rule itself was promulgated as a binding regulation. 81 Fed. Reg. 38,843.

539a
3. Chevron Deference and the Good Cause
Standard
When “a court reviews an agency’s construction of
the statute which it administers, it is confronted with
two questions. First, always, is the question whether
Congress has directly spoken to the precise question
at issue. If the intent of Congress is clear, that is the
end of the matter; for the court, as well as the agency,
must give effect to the unambiguously expressed intent of Congress.” Chevron, 467 U.S. at 842–43; see,
e.g., Encino Motorcars, LLC v. Navarro, 136 S. Ct.
2117, 2125 (2016). If a statutory term is ambiguous,
courts will assume Congress granted the implementing agency implicit authority to fill in the resulting
statutory gaps. Food and Drug Admin., 529 U.S. at
159. Commonly referred to as Chevron deference,
courts will defer to the resulting agency interpretation
if it is reasonable. See Chevron, 467 U.S. at 837.
Here, Plaintiffs claim that the BIA violated the
APA when it promulgated § 23.132(b) of the Final
Rule, which limits the evidence that may be considered by courts to determine “good cause” under section
1915 of the ICWA. Ind. Pls.’ Resp. 60–63, ECF No. 80;
State Pls.’ Reply 18, ECF No. 142. Defendants argue
that the Final Rule’s interpretation of “good cause” is
entitled to Chevron deference. Trib. Defs.’ Resp. 39–
47, ECF No. 118; Fed Defs.’ Resp. Ind. 45–49, ECF No.
123.
“Where the text and structure of a statute unambiguously foreclose an agency’s statutory interpretation, the intent of Congress is clear, and ‘that is the
end of the matter; for the court, as well as the agency,

540a
must give effect to the unambiguously expressed intent of Congress.” Chamber of Comm., 885 F.3d at 369
(quoting Chevron, 467 U.S. at 842–43). To determine
whether a statute is ambiguous under Chevron, a
court must: (1) begin with the statute’s language; (2)
give undefined words their ordinary, contemporary,
common meaning; (3) read the statute’s terms in
proper context and consider them based on the statute
as a whole; and (4) consider a statute’s terms in light
of the statute’s purpose. Contender Farms, L.L.P v.
U.S. Dep’t of Agric, 779 F.3d 258, 269 (5th Cir. 2015).
But a current agency interpretation “in conflict with
its initial position, is entitled to considerably less deference.” Chamber of Comm., 885 F.3d at 381 (quoting
Watt v. Alaska, 451 U.S. 259, 273 (1981)).
Section 23.132(b) of the Final Rule interprets section 1915(b) of the ICWA, which provides in “any
adoptive placement of an Indian child under State
law, a preference shall be given, in the absence of good
cause to the contrary, to a placement with (1) a member of the child’s extended family; (2) other members
of the Indian child’s tribe; or (3) other Indian families.” 25 U.S.C. § 1915 (b). The Final Rule states that
a “party seeking departure from the placement preferences should bear the burden of proving by clear
and convincing evidence that there is ‘good cause’ to
depart from the placement preferences.” 25 C.F.R.
§ 23.132(b).
Here, Plaintiffs contend that the Final Rule departs from the BIA’s original 1979 interpretation and
contradicts the “good cause” standard set by the ICWA
because the Final Rule heightens the evidentiary burden. Ind. Pls.’ Reply 20–23, ECF No. 143. Defendants
argue that “good cause” is an ambiguous term and it

541a
was therefore appropriate for the BIA to promulgate—as part of their interpretation of the term good
cause—the necessary evidentiary standard. Trib.
Defs.’ Resp. 44–45, ECF No. 118; Fed. Defs.’ Resp. Ind.
45, ECF No. 123. Plaintiffs counter that the default
evidentiary standard in civil cases, preponderance of
the evidence, applies to section 1915 and accordingly
the Final Rule’s clear and convincing evidence standard is not a permissible construction of the statute.
Ind. Pls.’ Reply 20, ECF No. 143. The issue here is
whether Congress established an unambiguous evidentiary standard in section 1915 of the ICWA. That
determination is distinct from interpreting the meaning of the term good cause.
Congress did not codify a preponderance of the evidence standard in section 1915 of the ICWA. But
other portions of the ICWA specifically included
heightened evidentiary burdens.
See 25 U.S.C.
§ 1912(e) (establishing a clear and convincing evidence standard for foster placements). Notably, unlike those sections, section 1915 does not establish a
heightened evidentiary standard in conjunction with
the good cause requirement. “It is a ‘fundamental
canon of statutory construction that the words of a
statute must be read in their context and with a view
to their place in the overall statutory scheme.’” Food
& Drug Admin, 529 U.S. at 133. Similarly, “where
Congress includes particular language in one section
of a statute but omits it in another . . . it is generally
presumed that Congress acts intentionally and purposely in the disparate inclusion or exclusion.” Keene
Corp. v. United States, 508 U.S. 200, 208 (1993) (quoting Russello v. United States, 464 U.S. 16, 23 (1983)).
Because Congress included the clear and convincing

542a
evidence standard in certain sections of the ICWA, but
omitted it in section 1915, the Court presumes it did
so intentionally.
When interpreting section 1915 the “silence is inconsistent with the view that Congress intended to require a special, heightened standard of proof” and “it
is fair to infer that Congress intended the ordinary
preponderance [of the evidence] standard to govern
. . . “ Grogan v. Garner, 498 U.S. 279, 286–88 (1991).
Here, a holistic reading of the statute and the 1979
BIA guidelines confirms that Congress intended the
default preponderance of the evidence standard to apply. Accordingly, defining an evidentiary standard in
a way that contradicts the standard intended by Congress, as the BIA did in the Final Rule, is contrary to
law.
Because the Court finds that the BIA lacked statutory authority to enact the challenged portions of the
Final Rule, and that the evidentiary standard in section 1915 is unambiguous, Defendants are not entitled to Chevron deference and the Final Rule’s change
of standard to clear and convincing evidence is contrary to law. For these reasons, the Court finds that
Plaintiffs’ motion for summary judgment on their
APA claim is GRANTED.
E. Fifth Amendment Due Process Claim
Individual Plaintiffs alone claim that sections
1910 (a) and (b) of the ICWA, as well as the Final Rule,
violate the Fifth Amendment Due Process Clause.
Ind. Pls.’ Br. 49–55, ECF No. 80. Plaintiffs argue that
ICWA’s racial preferences “disrupt . . . intimate familial relationships based solely on the arbitrary fact of

543a
tribal membership” and that families have a fundamental right “to make decisions concerning the care,
custody, and control of their children.” Id. at 49, 50.
The Federal Defendants respond that this Court has
no basis to “recognize a fundamental right where the
Supreme Court and Fifth Circuit have refused to do
so.” Fed. Defs.’ Resp. Ind. 33, ECF No. 123. Defendants are correct.
The Supreme Court has recognized both custody
and the right to keep the family together as fundamental rights. See Troxel v. Granville, 530 U.S. 57
(2000); Moore v. City of East Cleveland, 431 U.S. 494
(1977). However, the Supreme Court has never applied those rights to foster families. See Drummond
v. Fulton Cnty. Dep’t of Family & Children’s Servs.,
563 F.2d 1200, 1207 (5th Cir. 1977) (en banc). Similarly, the Supreme Court has not applied those rights
in a situation involving either prospective adoptive
parents or adoptive parents whose adoption is open to
collateral attack. For these reasons, the Court finds
that Plaintiffs’ motion for summary judgment on their
substantive due process claim is hereby DENIED.
F. Indian Commerce Clause Claim
Plaintiffs also claim Congress did not have the
constitutional authority to pass sections 1901–23 and
sections 1951–52 of the ICWA under the Indian Commerce Clause. Ind. Pls.’ Br. 66, ECF No. 80; State Pls.’
Br. 49–52, ECF No. 74. Defendants counter that the
Indian Commerce Clause grants Congress plenary authority over Indian Affairs. Fed. Def’s Resp. Ind. 35,
ECF No. 123; Trib. Defs.’ Resp. 21–28, ECF No. 118.
But as shown above, Murphy does not permit Congress to directly command the States in this regard,

544a
even when it relies on Commerce Clause power. Murphy, 138 S. Ct. at 1479. Therefore Plaintiffs’ request
for a declaration that these sections are unconstitutional is GRANTED.
IV. CONCLUSION
For the reasons stated above, the Court finds that
Plaintiffs’ Motions for Summary Judgment (ECF Nos.
72, 79) should be and are hereby GRANTED in part
and DENIED in part.
SO ORDERED on this 4th day of October,
2018.
__/s/ Reed O’Connor__________________
Reed O’Connor
UNITED STATED DISTRICT JUDGE

545a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CHAD BRACKEEN,
et al.,
Plaintiffs,
v.
RYAN ZINKE, et al.,
Defendants,
CHEROKEE NATION,
et al.,
IntervenorsDefendants.

§
§
§
§
§
§
§
§
§
§
§
§
§
§
§

Civil Action No.
4:17-cv-00868-O

FINAL JUDGMENT
The Court issued its order partially granting
Plaintiffs’ Motions for Summary Judgment. It is
therefore ORDERED, ADJUDGED, and DECREED that Plaintiffs’ Motions for Summary Judgment (ECF Nos. 72, 79) are GRANTED in part and
DENIED in part, and this case is DISMISSED with
prejudice. The Court DECLARES that 25 U.S.C.
§§ 1901–23, 25 U.S.C. §§ 1951–52, 25 C.F.R.
§§ 23.106–22, 25 C.F.R. §§ 23.124–32, and 25 C.F.R.
§§ 23.140–41 are UNCONSTITUTIONAL.

546a
SO ORDERED on this 4th day of October,
2018.
__/s/ Reed O’Connor__________________
Reed O’Connor
UNITED STATES DISTRICT JUDGE

547a
APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-11479
November 7, 2019
CHAD EVERET BRACKEEN; JENNIFER KAY
BRACKEEN; STATE OF TEXAS; ALTAGRACIA SOCORRO HERNANDEZ; STATE OF INDIANA; JASON CLIFFORD; FRANK NICHOLAS LIBRETTI;
STATE OF LOUISIANA; HEATHER LYNN LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs – Appellees
v.
DAVID BERNHARDT, SECRETARY, U.S. DEPARTMENT OF THE INTERIOR; TARA SWEENEY, in her
official capacity as Acting Assistant Secretary for Indian Affairs; BUREAU OF INDIAN AFFAIRS;
UNITED STATES DEPARTMENT OF INTERIOR;
UNITED STATES OF AMERICA; ALEX AZAR, In his
official capacity as Secretary of the United States Department of Health and Human Services; UNITED
STATES DEPARTMENT OF HEALTH AND HUMAN SERVICES,
Defendants – Appellants

548a
CHEROKEE
NATION;
ONEIDA
NATION;
QUINAULT INDIAN NATION; MORONGO BAND
OF MISSION INDIANS,
Intervenor Defendants –
Appellants
__________________________
Appeals from the United States District Court
for the Northern District of Texas
__________________________
ON PETITIONS FOR REHEARING EN BANC
(Opinion August 9, 2019, Modified August 16, 2019,
5 Cir., 2019, 937 F.3d 409)
Before OWEN, Chief Judge, JONES, SMITH, STEWART, DENNIS, ELROD, SOUTHWICK, HAYNES,
GRAVES, HIGGINSON, COSTA, WILLETT, DUNCAN, ENGELHARDT, and OLDHAM, Circuit
Judges.1
BY THE COURT:
A member of the court having requested a poll on
the petitions for rehearing en banc, and a majority of
the circuit judges in regular active service and not disqualified having voted in favor,
IT IS ORDERED that this cause shall be reheard
by the court en banc with oral argument on a date
hereafter to be fixed. The Clerk will specify a briefing
schedule for the filing of supplemental briefs.

1

Judge Ho is recused and did not participate in this decision.

549a
APPENDIX H
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. art. 1, § 8.
The Congress shall have Power To lay and collect
Taxes, Duties, Imposts and Excises, to pay the Debts
and provide for the common Defence and general Welfare of the United States; but all Duties, Imposts and
Excises shall be uniform throughout the United
States;
To borrow Money on the credit of the United States;
To regulate Commerce with foreign Nations, and
among the several States, and with the Indian Tribes;
To establish an uniform Rule of Naturalization, and
uniform Laws on the subject of Bankruptcies throughout the United States;
To coin Money, regulate the Value thereof, and of foreign Coin, and fix the Standard of Weights and
Measures;
To provide for the Punishment of counterfeiting the
Securities and current Coin of the United States;
To establish Post Offices and post Roads;
To promote the Progress of Science and useful Arts,
by securing for limited Times to Authors and Inventors the exclusive Right to their respective Writings
and Discoveries;
To constitute Tribunals inferior to the supreme Court;

550a
To define and punish Piracies and Felonies committed
on the high Seas, and Offenses against the Law of Nations;
To declare War, grant Letters of Marque and Reprisal,
and make Rules concerning Captures on Land and
Water;
To raise and support Armies, but no Appropriation of
Money to that Use shall be for a longer Term than two
Years;
To provide and maintain a Navy;
To make Rules for the Government and Regulation of
the land and naval Forces;
To provide for calling forth the Militia to execute the
Laws of the Union, suppress Insurrections and repel
Invasions;
To provide for organizing, arming, and disciplining,
the Militia, and for governing such Part of them as
may be employed in the Service of the United States,
reserving to the States respectively, the Appointment
of the Officers, and the Authority of training the Militia according to the discipline prescribed by Congress;
To exercise exclusive Legislation in all Cases whatsoever, over such District (not exceeding ten Miles
square) as may, by Cession of particular States, and
the Acceptance of Congress, become the Seat of the
Government of the United States, and to exercise like
Authority over all Places purchased by the Consent of
the Legislature of the State in which the Same shall
be, for the Erection of Forts, Magazines, Arsenals,
dock-Yards and other needful Buildings; And

551a
To make all Laws which shall be necessary and proper
for carrying into Execution the foregoing Powers, and
all other Powers vested by this Constitution in the
Government of the United States, or in any Department or Officer thereof.
U.S. Const. amend. V.
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or public danger; nor shall
any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken
for public use, without just compensation.
U.S. Const. amend X.
The powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are reserved to the States respectively, or to the people.

552a
25 U.S.C. § 1901. Congressional findings
Recognizing the special relationship between the
United States and the Indian tribes and their members and the Federal responsibility to Indian people,
the Congress finds—
(1) that clause 3, section 8, article I of the United
States Constitution provides that “The Congress shall
have Power * * * To regulate Commerce * * * with Indian tribes1” and, through this and other constitutional authority, Congress has plenary power over Indian affairs;
(2) that Congress, through statutes, treaties, and
the general course of dealing with Indian tribes, has
assumed the responsibility for the protection and
preservation of Indian tribes and their resources;
(3) that there is no resource that is more vital to
the continued existence and integrity of Indian tribes
than their children and that the United States has a
direct interest, as trustee, in protecting Indian children who are members of or are eligible for membership in an Indian tribe;
(4) that an alarmingly high percentage of Indian
families are broken up by the removal, often unwarranted, of their children from them by nontribal public
and private agencies and that an alarmingly high percentage of such children are placed in non-Indian foster and adoptive homes and institutions; and
(5) that the States, exercising their recognized jurisdiction over Indian child custody proceedings
through administrative and judicial bodies, have often
1

So in original. Probably should be capitalized.

553a
failed to recognize the essential tribal relations of Indian people and the cultural and social standards prevailing in Indian communities and families.
25 U.S.C. § 1902. Congressional declaration of
policy
The Congress hereby declares that it is the policy
of this Nation to protect the best interests of Indian
children and to promote the stability and security of
Indian tribes and families by the establishment of
minimum Federal standards for the removal of Indian
children from their families and the placement of such
children in foster or adoptive homes which will reflect
the unique values of Indian culture, and by providing
for assistance to Indian tribes in the operation of child
and family service programs.
25 U.S.C. § 1903. Definitions
For the purposes of this chapter, except as may be
specifically provided otherwise, the term—
(1) “child custody proceeding” shall mean and include—
(i) “foster care placement” which shall mean
any action removing an Indian child from its parent or Indian custodian for temporary placement
in a foster home or institution or the home of a
guardian or conservator where the parent or Indian custodian cannot have the child returned
upon demand, but where parental rights have not
been terminated;

554a
(ii) “termination of parental rights” which shall
mean any action resulting in the termination of the
parent-child relationship;
(iii) “preadoptive placement” which shall mean
the temporary placement of an Indian child in a
foster home or institution after the termination of
parental rights, but prior to or in lieu of adoptive
placement; and
(iv) “adoptive placement” which shall mean the
permanent placement of an Indian child for adoption, including any action resulting in a final decree of adoption.
Such term or terms shall not include a placement
based upon an act which, if committed by an adult,
would be deemed a crime or upon an award, in a divorce proceeding, of custody to one of the parents.
(2) “extended family member” shall be as defined
by the law or custom of the Indian child’s tribe or, in
the absence of such law or custom, shall be a person
who has reached the age of eighteen and who is the
Indian child’s grandparent, aunt or uncle, brother or
sister, brother-in-law or sister-in-law, niece or
nephew, first or second cousin, or stepparent;
(3) “Indian” means any person who is a member of
an Indian tribe, or who is an Alaska Native and a
member of a Regional Corporation as defined in section 1606 of title 43;
(4) “Indian child” means any unmarried person
who is under age eighteen and is either (a) a member
of an Indian tribe or (b) is eligible for membership in
an Indian tribe and is the biological child of a member
of an Indian tribe;

555a
(5) “Indian child’s tribe” means (a) the Indian tribe
in which an Indian child is a member or eligible for
membership or (b), in the case of an Indian child who
is a member of or eligible for membership in more
than one tribe, the Indian tribe with which the Indian
child has the more significant contacts;
(6) “Indian custodian” means any Indian person
who has legal custody of an Indian child under tribal
law or custom or under State law or to whom temporary physical care, custody, and control has been
transferred by the parent of such child;
(7) “Indian organization” means any group, association, partnership, corporation, or other legal entity
owned or controlled by Indians, or a majority of whose
members are Indians;
(8) “Indian tribe” means any Indian tribe, band,
nation, or other organized group or community of Indians recognized as eligible for the services provided
to Indians by the Secretary because of their status as
Indians, including any Alaska Native village as defined in section 1602(c) of title 43;
(9) “parent” means any biological parent or parents of an Indian child or any Indian person who has
lawfully adopted an Indian child, including adoptions
under tribal law or custom. It does not include the unwed father where paternity has not been acknowledged or established;
(10) “reservation” means Indian country as defined in section 1151 of title 18 and any lands, not covered under such section, title to which is either held
by the United States in trust for the benefit of any Indian tribe or individual or held by any Indian tribe or

556a
individual subject to a restriction by the United States
against alienation;
(11) “Secretary” means the Secretary of the Interior; and
(12) “tribal court” means a court with jurisdiction
over child custody proceedings and which is either a
Court of Indian Offenses, a court established and operated under the code or custom of an Indian tribe, or
any other administrative body of a tribe which is
vested with authority over child custody proceedings.
25 U.S.C. § 1911. Indian tribe jurisdiction over
Indian child custody proceedings
(a) Exclusive jurisdiction
An Indian tribe shall have jurisdiction exclusive
as to any State over any child custody proceeding involving an Indian child who resides or is domiciled
within the reservation of such tribe, except where
such jurisdiction is otherwise vested in the State by
existing Federal law. Where an Indian child is a ward
of a tribal court, the Indian tribe shall retain exclusive
jurisdiction, notwithstanding the residence or domicile of the child.
(b) Transfer of proceedings; declination by
tribal court
In any State court proceeding for the foster care
placement of, or termination of parental rights to, an
Indian child not domiciled or residing within the reservation of the Indian child’s tribe, the court, in the
absence of good cause to the contrary, shall transfer
such proceeding to the jurisdiction of the tribe, absent

557a
objection by either parent, upon the petition of either
parent or the Indian custodian or the Indian child’s
tribe: Provided, That such transfer shall be subject to
declination by the tribal court of such tribe.
(c) State court proceedings; intervention
In any State court proceeding for the foster care
placement of, or termination of parental rights to, an
Indian child, the Indian custodian of the child and the
Indian child’s tribe shall have a right to intervene at
any point in the proceeding.
(d) Full faith and credit to public acts, records,
and judicial proceedings of Indian tribes
The United States, every State, every territory or
possession of the United States, and every Indian
tribe shall give full faith and credit to the public acts,
records, and judicial proceedings of any Indian tribe
applicable to Indian child custody proceedings to the
same extent that such entities give full faith and
credit to the public acts, records, and judicial proceedings of any other entity.
25 U.S.C. § 1912. Pending court proceedings
(a) Notice; time for commencement of proceedings; additional time for preparation
In any involuntary proceeding in a State court,
where the court knows or has reason to know that an
Indian child is involved, the party seeking the foster
care placement of, or termination of parental rights to,
an Indian child shall notify the parent or Indian custodian and the Indian child’s tribe, by registered mail

558a
with return receipt requested, of the pending proceedings and of their right of intervention. If the identity
or location of the parent or Indian custodian and the
tribe cannot be determined, such notice shall be given
to the Secretary in like manner, who shall have fifteen
days after receipt to provide the requisite notice to the
parent or Indian custodian and the tribe. No foster
care placement or termination of parental rights proceeding shall be held until at least ten days after receipt of notice by the parent or Indian custodian and
the tribe or the Secretary: Provided, That the parent
or Indian custodian or the tribe shall, upon request,
be granted up to twenty additional days to prepare for
such proceeding.
(b) Appointment of counsel
In any case in which the court determines indigency, the parent or Indian custodian shall have the
right to court-appointed counsel in any removal,
placement, or termination proceeding. The court may,
in its discretion, appoint counsel for the child upon a
finding that such appointment is in the best interest
of the child. Where State law makes no provision for
appointment of counsel in such proceedings, the court
shall promptly notify the Secretary upon appointment
of counsel, and the Secretary, upon certification of the
presiding judge, shall pay reasonable fees and expenses out of funds which may be appropriated pursuant to section 13 of this title.
(c) Examination of reports or other documents
Each party to a foster care placement or termination of parental rights proceeding under State law involving an Indian child shall have the right to examine all reports or other documents filed with the court

559a
upon which any decision with respect to such action
may be based.
(d) Remedial services and rehabilitative programs; preventive measures
Any party seeking to effect a foster care placement
of, or termination of parental rights to, an Indian child
under State law shall satisfy the court that active efforts have been made to provide remedial services and
rehabilitative programs designed to prevent the
breakup of the Indian family and that these efforts
have proved unsuccessful.
(e) Foster care placement orders; evidence; determination of damage to child
No foster care placement may be ordered in such
proceeding in the absence of a determination, supported by clear and convincing evidence, including
testimony of qualified expert witnesses, that the continued custody of the child by the parent or Indian
custodian is likely to result in serious emotional or
physical damage to the child.
(f) Parental rights termination orders; evidence;
determination of damage to child
No termination of parental rights may be ordered
in such proceeding in the absence of a determination,
supported by evidence beyond a reasonable doubt, including testimony of qualified expert witnesses, that
the continued custody of the child by the parent or Indian custodian is likely to result in serious emotional
or physical damage to the child.

560a
25 U.S.C. § 1913. Parental rights; voluntary termination
(a) Consent; record; certification matters; invalid consents
Where any parent or Indian custodian voluntarily
consents to a foster care placement or to termination
of parental rights, such consent shall not be valid unless executed in writing and recorded before a judge of
a court of competent jurisdiction and accompanied by
the presiding judge’s certificate that the terms and
consequences of the consent were fully explained in
detail and were fully understood by the parent or Indian custodian. The court shall also certify that either
the parent or Indian custodian fully understood the
explanation in English or that it was interpreted into
a language that the parent or Indian custodian understood. Any consent given prior to, or within ten days
after, birth of the Indian child shall not be valid.
(b) Foster care placement; withdrawal of consent
Any parent or Indian custodian may withdraw
consent to a foster care placement under State law at
any time and, upon such withdrawal, the child shall
be returned to the parent or Indian custodian.
(c) Voluntary termination of parental rights or
adoptive placement; withdrawal of consent;
return of custody
In any voluntary proceeding for termination of parental rights to, or adoptive placement of, an Indian
child, the consent of the parent may be withdrawn for
any reason at any time prior to the entry of a final

561a
decree of termination or adoption, as the case may be,
and the child shall be returned to the parent.
(d) Collateral attack; vacation of decree and return of custody; limitations
After the entry of a final decree of adoption of an
Indian child in any State court, the parent may withdraw consent thereto upon the grounds that consent
was obtained through fraud or duress and may petition the court to vacate such decree. Upon a finding
that such consent was obtained through fraud or duress, the court shall vacate such decree and return the
child to the parent. No adoption which has been effective for at least two years may be invalidated under
the provisions of this subsection unless otherwise permitted under State law.
25 U.S.C. § 1915. Placement of Indian children
(a) Adoptive placements; preferences
In any adoptive placement of an Indian child under State law, a preference shall be given, in the absence of good cause to the contrary, to a placement
with (1) a member of the child’s extended family; (2)
other members of the Indian child’s tribe; or (3) other
Indian families.
(b) Foster care or preadoptive placements; criteria; preferences
Any child accepted for foster care or preadoptive
placement shall be placed in the least restrictive setting which most approximates a family and in which
his special needs, if any, may be met. The child shall
also be placed within reasonable proximity to his or

562a
her home, taking into account any special needs of the
child. In any foster care or preadoptive placement, a
preference shall be given, in the absence of good cause
to the contrary, to a placement with—
(i) a member of the Indian child’s extended
family;
(ii) a foster home licensed, approved, or specified by the Indian child’s tribe;
(iii) an Indian foster home licensed or approved
by an authorized non-Indian licensing authority;
or
(iv) an institution for children approved by an
Indian tribe or operated by an Indian organization
which has a program suitable to meet the Indian
child’s needs.
(c) Tribal resolution for different order of preference; personal preference considered; anonymity in application of preferences
In the case of a placement under subsection (a) or
(b) of this section, if the Indian child’s tribe shall establish a different order of preference by resolution,
the agency or court effecting the placement shall follow such order so long as the placement is the least
restrictive setting appropriate to the particular needs
of the child, as provided in subsection (b) of this section. Where appropriate, the preference of the Indian
child or parent shall be considered: Provided, That
where a consenting parent evidences a desire for anonymity, the court or agency shall give weight to such
desire in applying the preferences.

563a
(d) Social and cultural standards applicable
The standards to be applied in meeting the preference requirements of this section shall be the prevailing social and cultural standards of the Indian
community in which the parent or extended family resides or with which the parent or extended family
members maintain social and cultural ties.
(e) Record of placement; availability
A record of each such placement, under State law,
of an Indian child shall be maintained by the State in
which the placement was made, evidencing the efforts
to comply with the order of preference specified in this
section. Such record shall be made available at any
time upon the request of the Secretary or the Indian
child’s tribe.
25 U.S.C. § 1916. Return of custody
(a) Petition; best interests of child
Notwithstanding State law to the contrary, whenever a final decree of adoption of an Indian child has
been vacated or set aside or the adoptive parents voluntarily consent to the termination of their parental
rights to the child, a biological parent or prior Indian
custodian may petition for return of custody and the
court shall grant such petition unless there is a showing, in a proceeding subject to the provisions of section
1912 of this title, that such return of custody is not in
the best interests of the child.

564a
(b) Removal from foster care home; placement
procedure
Whenever an Indian child is removed from a foster care home or institution for the purpose of further
foster care, preadoptive, or adoptive placement, such
placement shall be in accordance with the provisions
of this chapter, except in the case where an Indian
child is being returned to the parent or Indian custodian from whose custody the child was originally removed.
25 U.S.C. § 1917. Tribal affiliation information
and other information for protection of
rights from tribal relationship; application
of subject of adoptive placement; disclosure
by court
Upon application by an Indian individual who has
reached the age of eighteen and who was the subject
of an adoptive placement, the court which entered the
final decree shall inform such individual of the tribal
affiliation, if any, of the individual’s biological parents
and provide such other information as may be necessary to protect any rights flowing from the individual’s
tribal relationship.

565a
25 U.S.C. § 1951. Information availability to and
disclosure by Secretary
(a) Copy of final decree or order; other information; anonymity affidavit; exemption
from Freedom of Information Act
Any State court entering a final decree or order in
any Indian child adoptive placement after November
8, 1978, shall provide the Secretary with a copy of
such decree or order together with such other information as may be necessary to show—
(1) the name and tribal affiliation of the child;
(2) the names and addresses of the biological
parents;
(3) the names and addresses of the adoptive
parents; and
(4) the identity of any agency having files or
information relating to such adoptive placement.
Where the court records contain an affidavit of the biological parent or parents that their identity remain
confidential, the court shall include such affidavit
with the other information. The Secretary shall insure that the confidentiality of such information is
maintained and such information shall not be subject
to the Freedom of Information Act (5 U.S.C. 552), as
amended.
(b) Disclosure of information for enrollment of
Indian child in tribe or for determination of
member rights or benefits; certification of
entitlement to enrollment
Upon the request of the adopted Indian child over
the age of eighteen, the adoptive or foster parents of

566a
an Indian child, or an Indian tribe, the Secretary shall
disclose such information as may be necessary for the
enrollment of an Indian child in the tribe in which the
child may be eligible for enrollment or for determining
any rights or benefits associated with that membership. Where the documents relating to such child contain an affidavit from the biological parent or parents
requesting anonymity, the Secretary shall certify to
the Indian child’s tribe, where the information warrants, that the child’s parentage and other circumstances of birth entitle the child to enrollment under
the criteria established by such tribe.

